<html>
<title> - EVERGLADES RESTORATION</title>
<body><pre>[Senate Hearing 106-729]
[From the U.S. Government Printing Office]






                                                        S. Hrg. 106-729
 
                         EVERGLADES RESTORATION

=======================================================================

                                HEARINGS

                               BEFORE THE

           SUBCOMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                                AND THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                                   ON

THE COMPREHENSIVE EVERGLADES RESTORATION PLAN PROPOSED BY THE STATE OF 
 FLORIDA, THE U.S. ENVIRONMENTAL PROTECTION AGENCY, AND THE U.S. ARMY 
                           CORPS OF ENGINEERS

                               __________

                      JANUARY 7, 2000--NAPLES, FL
                              MAY 11, 2000
                           SEPTEMBER 20, 2000

                               __________

  Printed for the use of the Committee on Environment and Public Works



                    U.S. GOVERNMENT PRINTING OFFICE
63-232 cc                   WASHINGTON : 2000
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       one hundred sixth congress
                   BOB SMITH, New Hampshire, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            DANIEL PATRICK MOYNIHAN, New York
CRAIG THOMAS, Wyoming                FRANK R. LAUTENBERG, New Jersey
CHRISTOPHER S. BOND, Missouri        HARRY REID, Nevada
GEORGE V. VOINOVICH, Ohio            BOB GRAHAM, Florida
MICHAEL D. CRAPO, Idaho              JOSEPH I. LIEBERMAN, Connecticut
ROBERT F. BENNETT, Utah              BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas          RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island
                      Dave Conover, Staff Director
                  Tom Sliter, Minority Staff Director
                                 ------                                

           Subcommittee on Transportation and Infrastructure

                  GEORGE V. VOINOVICH, Ohio, Chairman
JOHN W. WARNER, Wyoming              MAX BAUCUS, Montana
CHRISTOPHER S. BOND, Missouri        DANIEL PATRICK MOYNIHAN, New York
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LINCOLN CHAFEE, Rhode Island         JOSEPH I. LIEBERMAN, Connecticut

                                  (ii)

  

                            C O N T E N T S

                              ----------                              
                                                                   Page

                      JANUARY 7, 2000--NAPLES, FL
                           OPENING STATEMENTS

Graham, Hon. Bob, U.S. Senator from the State of Florida.........     5
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....     1
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     6

                               WITNESSES

Browner, Hon. Carol, Administrator, U.S. Environmental Protection 
  Agency.........................................................    10
    Prepared statement...........................................    61
    Responses to additional questions from:
        Senator Graham...........................................    67
        Senator Smith............................................    68
Collins, Mike, chairman, South Florida Water Management District.    40
    Prepared statement...........................................    99
    Responses to additional questions from:
        Senator Graham...........................................   103
        Senator Smith............................................   102
Doyle, Mary, Counselor to the Secretary, Chair, South Florida 
  Ecosystem Restoration Task Force, U.S. Department of the 
  Interior.......................................................    30
    Prepared statement...........................................    92
Lehtinen, Dexter, member, South Florida Ecosystem Task Force and 
  Governor's Commission on the Everglades, on behalf of the 
  Miccosukee Tribe...............................................    44
    Prepared statement...........................................   106
    Responses to additional questions from Senator Smith.........   109
Reed, Hon. Nathaniel, Florida environmentalist and former 
  Assistant Secretary of the Interior............................    49
    Prepared statement...........................................   110
Shore, Jim, esquire, general counsel, Seminole Tribe of Florida..    42
    Prepared statement...........................................   104
Struhs, Hon. David B., Secretary, Florida Department of 
  Environmental Protection.......................................    34
    Prepared statement...........................................    95
    Responses to additional questions from:
        Senator Graham...........................................    97
        Senator Smith............................................    97
Wade, Malcolm S. ``Bubba'', Jr., senior vice president, U.S. 
  Sugar Corporation..............................................    52
    Prepared statement...........................................   115
    Responses to additional questions from:
        Senator Graham...........................................   123
        Senator Smith............................................   121
Westphal, Hon. Joseph, Assistant Secretary of the Army (Civil 
  Works), U.S. Department of Defense.............................    21
    Prepared statement...........................................    72
    Responses to additional questions from:
        Senator Graham...........................................    86
        Senator Smith............................................    77
        Senator Voinovich........................................    83
Williams, Hon. Nora, county commissioner, Monroe County, Florida.    55
    Prepared statement...........................................   124

                          ADDITIONAL MATERIAL

Letters:
    Florida Attorney General.....................................   126
    Florida House of Representatives.............................   126
    Mooney, Robert...............................................   129
    Nelson, Bill, Florida State Treasurer........................   128
    Young, Rep. C.W. Bill........................................   128
Statements:
    Foley, Hon. Mark, U.S. Representative from the State of 
      Florida....................................................   128
    Lake Worth Drainage District................................130-142
    Meek, Hon. Carrie, U.S. Represenatative from the State of 
      Florida....................................................   127
                                 ------                                

                              MAY 11, 2000
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........   152
Chafee, Hon. Lincoln, U.S. Senator from the State of Rhode Island   190
Graham, Hon. Bob, U.S. Senator from the State of Florida.........   145
    Letters, Department of the Interior and the Corps..164-187, 229-232
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................   242
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire..143, 206
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...   152
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.....................................................156, 242

                               WITNESSES

Bush, Hon. Jeb, Governor, State of Florida.......................   147
    Additional statement.........................................   244
    Prepared statement...........................................   242
    Responses to additional questions from:
        Senator Crapo............................................   247
        Senator Graham...........................................   247
        Senator Mack.............................................   248
        Senator Smith............................................   245
        Senator Voinovich........................................   250
Collins, Mike, Chairman, South Florida Water Management District.   200
    Prepared statement...........................................   263
    Responses to additional questions from:
        Senator Graham...........................................   265
        Senator Mack.............................................   267
        Senator Smith............................................   265
        Senator Voinovich........................................   269
Doyle, Mary, Acting Assistant Secretary of the Office of Water 
  and Science, and Chair, South Florida Ecosystem Restoration 
  Task Force, U.S. Department of the Interior....................   213
    Letter, Comments on Draft Environmental Impact Statement.....   296
    Prepared statement...........................................   292
    Responses to additional questions from:
        Senator Crapo............................................   302
        Senator Graham...........................................   303
        Senator Mack.............................................   308
        Senator Smith............................................   294
        Senator Voinovich........................................   296
Guggenheim, David, President, The Conservancy of Southwest 
  Florida, Co-Chair, The Everglades Coalition....................   235
    Letter, Lake Worth Drainage District.........................   362
    Prepared statement...........................................   348
    Responses to additional questions from:
        Senator Graham...........................................   357
        Senator Mack.............................................   360
        Senator Smith............................................   353
        Senator Voinovich........................................   355
Guzy, Hon. Gary, General Counsel, U.S. Environmental Protection 
  Agency.........................................................   210
    Prepared statement...........................................   309
    Responses to additional questions from:
        Senator Baucus...........................................   313
        Senator Crapo............................................   315
        Senator Graham...........................................   316
        Senator Mack.............................................   318
        Senator Smith............................................   313
        Senator Voinovich........................................   314
Keck, Ken, Director of Legislative and Regulatory Affairs, 
  Florida Citrus Mutual..........................................   232
    Letters:
        Florida Department of Consumer Services................324, 327
        Dade County, Florida, Farm Bureau........................   326
        Sugar Cane Growers Cooperative of Florida................   330
        Landers & Parsons, P.A...................................   331
    List, Organizations with concerns about the Restudy..........   233
    Minutes, Governor's Committee for a Sustainable South 
      Florida, Meetings of March 2-3, 1999......................333-344
    Prepared statement...........................................   319
    Reports:
        Florida Agriculture's Concerns With WRDA 2000............   233
        Position of Agricultural Advisory Committee to the South 
          Florida Water Management District......................   323
    Responses to additional questions from:
        Senator Mack.............................................   344
        Senator Smith............................................   346
    Resolution, Miami-Dade County, Florida.......................   348
Lehtenin, Dexter, on behalf of the Miccosukee Tribe..............   193
    Prepared statement...........................................   259
Mack, Hon. Connie, U.S. Senator from the State of Florida........   146
Power, Patricia, on behalf of the Seminole Tribe of Florida......   191
    Prepared statement...........................................   250
    Responses to additional questions from:
        Senator Graham...........................................   256
        Senator Mack.............................................   257
        Senator Smith............................................   255
Westphal, Hon. Joseph, Assistant Secretary of the Army (Civil 
  Works), U.S. Department of the Army............................   207
    Prepared statement...........................................   269
    Responses to additional questions from:
        Senator Baucus...........................................   280
        Senator Crapo............................................   283
        Senator Graham...........................................   286
        Senator Mack.............................................   290
        Senator Smith............................................   276
        Senator Voinovich........................................   280

                          ADDITIONAL MATERIAL

Letter, Citizens for a Sound Economy.............................   365
Statement, Penelas, Alex, Mayor of Miami-Dade County, Florida....   367
                                 ------                                

                           SEPTEMBER 20, 2000
           SUBCOMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE
                           OPENING STATEMENTS

Graham, Hon. Bob, U.S. Senator from the State of Florida.........   377
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...   372
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....   374
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...   369

                               WITNESSES

Davis, Michael L., Deputy Assistant Secretary of the Army (Civil 
  Works),U.S. Department of Defense..............................   387
    Prepared statement...........................................   430
    Responses to additional questions from:
        Senator Graham...........................................   435
        Senator Voinovich........................................   433
Hill, Barry, Associate Director, Energy, Resources, and Science 
  Issues, General Accounting Office..............................   380
    Prepared statement...........................................   396
    Responses to additional questions from:
        Senator Graham...........................................   429
        Senator Voinovich........................................   426
    Report, Comprehensive Everglades Restoration Plan: Additional 
      Water Quality Projects May Be Needed and Could Increase 
      Costs, General Accounting Office..........................400-426
Struhs, David, Commissioner, Florida Department of Environmental 
  Protection, Tallahassee, FL....................................   390
    Prepared statement...........................................   436
    Responses to additional questions from:
        Senator Graham...........................................   439
        Senator Voinovich........................................   437


                      EVERGLADES RESTORATION PLAN

                              ----------                              


                        FRIDAY, JANUARY 7, 2000


                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                   Naples, Florida.
    The committee met, pursuant to notice, at 3:45 p.m. at the 
Naples Golf Club, 851 Golf Shore Boulevard, Naples, Florida, 
Hon. Bob Smith [chairman of the committee] presiding.
    Present: Senators Smith, Graham, and Voinovich.
    Also present: Representative Meek.

             OPENING STATEMENT OF HON. BOB SMITH, 
          U.S. SENATOR FROM THE STATE OF NEW HAMPSHIRE

    Senator Smith. The meeting will come to order.
    The Senators have set the example for those of you who want 
to take your jackets off. Please feel free to do it. What we 
should do is adjourn outside to the beach.
    I know it's warm in here and very crowded, but we are very 
grateful for the interest in the Everglades, and I certainly 
want to welcome our first witness, Administrator Browner. We 
will be talking with her in just a moment.
    I'm somewhat intimidated by sitting between two Governors 
who have to deal with these statewide problems much more than 
we do in the U.S. Senate, but maybe I will learn something from 
the Governor on either side.
    The purpose of today's hearing is to receive testimony on 
the proposed Comprehensive Everglades Restoration Plan, and I 
extend, again, my gratitude to our hosts, the Everglades 
Coalition, for inviting us to participate as part of their 
fifteenth annual conference on the Everglades. Although the 
coalition will not be testifying today on any of these panels, 
they will be invited to testify to a subsequent Washington 
hearing, which will be chaired by Subcommittee Chairman 
Voinovich. I'm sure that they will be happy to receive their 
testimony at that time.
    I'm pleased to be here with Senator Bob Graham of Florida, 
who is well known to the Everglades and well known as a friend 
of the Everglades. As Governor of Florida, he was responsible 
for one of the first major Everglades restoration initiatives, 
Florida Save Our Everglades Act of 1983, when he was the 
distinguished Governor from this State.
    He remains a strong voice in the Senate for the protection 
of this vital national resource, and I'm delighted to be here 
in his State and appreciate very much his invitation to be 
here.
    Also joining us today is Senator George Voinovich of Ohio's 
jurisdiction. Senator Voinovich is the chairman of the 
subcommittee with jurisdiction over the Everglades restoration 
proposal, and I know he plans to hold additional hearings on 
this subject in Washington; and I also would like to 
acknowledge the important contribution of Senator Connie Mack, 
who I talked to yesterday, who could not be here today. He is 
also a strong supporter of Everglades restoration.
    I also want to acknowledge the presence today of 
Representative Carrie Meek, whose district encompasses part of 
the Everglades. Representative Meek, thank you for being here. 
Your statement will be made part of the record.
    Ms. Meek. Thank you.
    Senator Smith. There are many other people to be commended, 
not only for their efforts that went into this plan, but for 
the work that still remains to be done. Certainly Administrator 
Browner, a Florida native who has been an advocate and a leader 
within the administration on this project, Interior Secretary 
Babbitt and the Army Corps of Engineers, Joe Westphal, who are 
also in leading roles in this effort.
    The Federal Government has very strong partners here in 
Florida, starting with Governor Bush and including the 
Department of Florida Environmental Protection and the South 
Florida Water Management District.
    There are many others too numerous to mention right now who 
have been instrumental in bringing the Everglades restoration 
agenda to this critical juncture.
    People you see here today at this hearing and participating 
in the conference have been integral in this effort to preserve 
and protect the Everglades for the next century and beyond.
    At this point I might like to interject to say that 
oftentimes in politics, we think toward the next election, and 
sometimes in businesses we think toward the bottom line or the 
next profit and loss statement. I think we have to think very 
much long term when we talk about environmental matters. We 
have got to think about next generations, maybe even the next 
millennium.
    I hope that, when the fourth millennium starts, some other 
panel might be able to sit here and say, ``You know, those guys 
back there in 2000 saved the Everglades, along with the help of 
many, many good people.''
    This is my first hearing as the chairman of the Environment 
and Public Works Committee, and there is no mistake and no 
accident that the subject of my first hearing is the 
restoration of this national environmental treasure. We are 
here because the restoration of the Everglades is one of the 
nation's most urgent environmental priorities. That is my 
position. I think it's the position of many others, and it's my 
hope that today's hearing will set the tone for the committee's 
activities in the coming year.
    Let me also say that I appreciate the opportunity to be 
here in Florida to learn more about this effort. Over the past 
30 years, I have had the privilege of enjoying Southern 
Florida's hospitality many times as a private citizen, 
sometimes as a member of the house and as a Senator, but more 
often as a husband and a father with my children as I have 
basically vacationed all over the State from north to southeast 
to west.
    I have been to the Everglades National Park many times, and 
I want to take the time to thank Superintendent Richard Ring--
where is Richard Ring? Right here--for his private, informative 
tour of the Everglades last week. It's deeply appreciated. He 
is a fine outstanding public servant, and I wish more people, 
especially those who like to criticize those who work in 
government, could see the kind of dedication and commitment of 
Superintendent Ring. He believes strongly in what he does and 
it was evident and it was deeply appreciated and informative.
    I think, as most of you are aware, Senator Chafee was 
strongly committed to seeing this effort go through. I know 
that he talked to you, Senator Graham, about this, and I'm 
pleased to fulfill his commitment to be here and look forward 
to working with you in a bipartisan manner.
    Senator John Chafee was a very close friend of all of us. 
If I could turn back the clock and not be here as the chairman 
and be sitting either to the left or to the right of Senator 
Chafee, I would do it in a heart beat.
    Unfortunately, we cannot do that, but you will not find 
daylight between John Chafee and Bob Smith on the support for 
the Everglades. I will work to ensure that we in Congress do 
what we need to do to achieve this goal. I intend to take over 
where Senator Chafee left off and move with Senator Graham and 
other of my colleagues on the committee to craft legislation 
that we can all support that will get the job done and 
implement the goals of the plan early in the session of 
Congress, this session.
    The face of South Florida has changed significantly over 
the past 50 years. The entire region has experienced explosive 
growth in that time, and this growth in turn has exerted 
tremendous pressure on the natural resources of the region, 
especially the Everglades. The Everglades, estimated to be half 
the size they were at the turn of the century, are the largest 
wetland and subtropical wilderness in the country and home to 
countless species of wildlife.
    We know that the Everglades face grave peril. The 
unintended consequence of a massive Federal flood control 
project in the late forties is the too efficient redirection of 
water from Lake Okeechobee, and I emphasize unintended 
consequence. Clearly we didn't do it deliberately, but we did 
it, and if the Federal Government messed it up, then the 
Federal Government needs to step in and help us correct it.
    Water--1.7 billion gallons a day--is needlessly directed 
out to sea. The project was done with the best of intentions, 
but the Federal Government had to act when devastating floods 
took thousands of lives. This was a fact. Unfortunately, the 
success of the project disrupted the natural sheet flow of 
water through the so-called river of grass.
    I won't go into all the technical aspects of that. We will 
be hearing that shortly from the witnesses; but this plan, 
although there will be some who will be critical of parts of 
it, and we'll hear a lot of that and support as well, but it 
does strike a balance between restoring the biological health 
of South Florida and that ecosystem and delivering enough water 
to urban areas as well for farms and communities in the region 
to keep the economy moving. The multitude of projects that this 
plan contemplates will be constructed over many years at a cost 
of nearly $8 billion.
    Although I'm sure witnesses will comment on the cost, I 
would like to remind witnesses that we intend to explore costs 
and the financing of the project at the hearing in Washington. 
We are not necessarily accepting every single point here in 
terms of the cost. We will be looking at the cost. We have an 
obligation to do that, and I'm sure Senator Voinovich will be 
working on that as well.
    Today, we want to hear the details of the project, its 
impact on the health of the Everglades, including its many 
species of plants and animals, as well as the impact on the 
nearby communities and industries.
    The scope of the plan is as large as the problem. Some of 
the key elements are 181,000 acres of new reservoirs to 300 
underground aquifer storage wells, and so forth.
    I can assure everyone that the committee will take a hard 
look at this plan. There are many important questions that need 
to be answered before legislation is finalized, and again we 
will receive a budget at some point, hopefully sooner rather 
than later, from the administration on WRDA. We will then--the 
sooner we get it, the sooner we can begin the process of 
crafting legislation. We will carefully scrutinize that plan, 
compare it to the administration budget, and work with it 
within the committee in a bipartisan way to put all of these 
facts together and craft a piece of legislation that answers 
the problem.
    Many will ask: Why should the Federal Government be 
involved?
    Well, it's a national treasure. As I said, you don't have 
to visit here too many times, probably not more than once, to 
know that this is a national treasurer. Restoring the 
Everglades benefits, not only Floridians, but to the millions 
of visitors who flock to Florida each year. This is the Grand 
Canyon of Florida. It has been said that the Everglades are to 
Florida and the Nation what the Rockies are to the western 
States or what the Grand Canyon is to Arizona.
    It was Federal legislation that authorized the Central and 
South Florida project in 1948 and we have a responsibility to 
correct what we did in that legislation, what we damaged.
    Finally, this is a legacy to our future generations. When 
our descendants move into the fourth millennium, I hope it will 
be remembered that this generation at the beginning of this 
millennium put aside partisanship, put aside self-interest, and 
put aside short-term thinking and answered the call to save the 
Everglades.
    There are a lot of birds and fish and wildlife out there 
that don't have any lobbyists, Senator Graham. They don't have 
any money, and so we have an obligation, I think, to protect 
them. In fact, I met one of those alligators the other day when 
the superintendent took us a little bit too close to the bank 
and he came into the water after us and said, ``Get out of 
here.'' So we did just that.
    Before I conclude, I would like to recognize the 
contributions of four Senate members. I hate to single out four 
because so many have done so much, but Catherine Cyr of Senator 
Graham's staff, and Ellen Stein of Senator Voinovich's staff, 
and Jo-Ellen Darcy of Senator Baucus' staff, and Chelsea 
Henderson of my staff, and, of course, Tom Gibson and Dave 
Conover as well. I also want to thank Senator Baucus for his 
support. His staff director, Tom Sliter, is here. Thank them as 
well.
    I want to close by saying, reiterating my position, there 
will be some differences on how we go about looking at this 
plan, but the bottom line is I support the restoration of the 
Everglades and that is my goal, to get this legislation crafted 
which we will deal with it before we get too far along into the 
session and not be able to make this happen. So the goal is to 
do it this spring. We will do what we need to do to achieve 
that goal, and in close cooperation with Senator Voinovich, who 
will work together to closely scrutinize the details and costs 
of this plan, and I commit to working in an open, bipartisan 
manner to move forward with this bill this spring.
    I tried to find a poem that nobody else had in theirs, in 
their statement. I think I succeeded. Did I succeed, Dave? I'm 
not sure. Let me use Marjory Stoneman Douglas, author of The 
Everglades: River of Grass in which she says, quote, ``A 
Century after man first started to dominate the Everglades, the 
progress has stumbled. Consequences have started to catch up. 
It is perhaps an opportunity. The great wet wilderness of South 
Florida need not be degraded to a permanent state of 
mediocrity. If the people will it, the Everglades can be 
restored to nature's design.''
    I don't think you can say it any better than that as far as 
how I feel about it. So, again, thank you for your hospitality, 
to all the people here in South Florida, and I now turn it over 
to my distinguished colleague and your Senator here in Florida, 
the Honorable Bob Graham.

             OPENING STATEMENT OF HON. BOB GRAHAM, 
             U.S. SENATOR FROM THE STATE OF FLORIDA

    Senator Graham. Thank you, Mr. Chairman, and it was 
particularly appropriate that you concluded with those poetic 
words from a Floridian who was a close friend of many of us 
here and who in many ways was the voice of the Everglades and 
particularly the transition to the current attitude of the 
Everglades as a national treasure for which each of us has a 
responsibility for protection.
    I am anxious to move forward so that we can hear from the 
many witnesses we have. Also, since I am the speaker this 
evening, I don't want to give my whole speech and end up with 
nobody coming to dinner. So I warn you that there will be more 
to come later.
    I want to thank the chairman for having this hearing. As he 
indicated, this had been a hope of Senator Chafee to have 
started the new year here with us in Naples, participating in 
this important hearing on the future of the Everglades. He was 
taken from us, and we fortunately have a man who, I believe, we 
have come to know and understand shares that commitment. I like 
that phrase, ``There is no daylight between you and Senator 
Chafee.''
    I'm also very pleased Senator Voinovich, who brings a great 
deal of experience, not only in his period in the U.S. Senate, 
but as Governor of Ohio, as mayor of Cleveland, as a State 
legislature who has dealt with similar environmental issues 
throughout his political career, is going to be playing such a 
pivotal role and has taken the time to spend today, starting 
last evening with a briefing in West Palm Beach, and then a 
flyover and a visit to Loxahatchee National Wildlife Refuge. 
Those are all indications of his commitment to this important 
work.
    The year 2000 is going to be a very important year for the 
Everglades. If you wrote down the years of significance to the 
Everglades, and this will again be a teaser to come back for 
dinner tonight, you would write dates like 1882, 1947, 1948, 
and I think the year 2000 will justify being entered in that 
list of pivotal years for the Everglades.
    This is going to be the year, hopefully, which we will 
authorize the restudy that has been done by the Corps of 
Engineers, that we will lay the financial foundation that with 
convert that authorization into reality and, through 
initiatives, such as the fifteenth Everglades Conference, will 
continue to expand, face a public understanding and support for 
the coalition of Americans who will bring this to reality.
    In the spirit of bipartisanship, I will quote President 
Reagan, who asked the question, ``If not now, when? If not us, 
who?'' I would ask those questions as it relates to the 
Everglades. If the year 2000 is not the year to move forward, 
what will be the year, and if the people to lead that effort 
are not the ones who are in this room and our colleagues across 
America, what group of Americans will assume the responsibility 
for leadership to save the Florida Everglades?
    Thank you, Mr. Chairman. I look forward to the hearing.
    Senator Smith. Thank you, Senator Graham. Senator 
Voinovich.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Mr. Chairman.
    I think the fact that the chairman of the Environment and 
Public Works Committee, the new chairman, and the chairman of 
the subcommittee are here in Florida with Senator Graham is an 
indication of how important we think the Everglades are to this 
country and are anxious to receive the restudy report that has 
been done.
    I'd like to thank my good friend, Senator Graham, for 
inviting me to his home State. Your Senator is one of the most 
admired members of the U.S. Senate. I'd also like to thank the 
South Florida Water Management District folks, the Army Corps 
of Engineer people, the Florida Department of Environmental 
Protection for their warm hospitality that they have extended 
to me last night and today.
    Senator Graham and I have worked together on several 
issues. This is my first year in the Senate and he is very much 
committed to legislation that deals with children's issues, and 
one of the most significant pieces of legislation that I think 
that came out of this last Congress was the legislation 
Congress passed to allow the States to keep their tobacco 
money, and I don't know if you fully comprehend how important 
that is, but Senator Graham really took a leadership role to 
get that passed.
    Senator I don't know how much money that means to the State 
of Florida, but I can tell you to the State of Ohio that that 
tobacco money is over half of our annual growth in all State 
revenues. Think of that. That money coming into the State makes 
other money available so that we can do some other things that 
are so very important.
    I'd also be remiss if I didn't mention Connie Mack, who 
happens to be a good friend of mine. Connie is the facilitator 
of our weekly prayer breakfast, and Connie is leaving the 
Senate, and I want you to know I tried very hard to convince 
him to stay.
    I refer to Connie as a born-again Catholic, and I'm sure 
that the holy spirit is leading him, has led him to his 
decision and has something else in store for both Connie and 
his family.
    As many of you know, there are lots of Ohio Buckeyes in 
Florida. The warm weather and the lack of State income tax have 
enticed many of our retirees to move here, and my wife, Janet, 
and I have visited this State many years, just as you and your 
wife and your family; and do you know something, we have seen 
the pressure on Florida's environment, aquifers and, of course, 
the Everglades as development has occurred over the years.
    I'm no stranger to the Everglades. When I was Governor, 
thanks to the Florida Fish and Game Commission, I spent almost 
a day helicoptering around the Everglades, taking one of those 
boats into the Everglades, and I reminded the head of the South 
Florida Management District that I have fished Florida Bay, 
Flamingo, tried to get some snook in the Everglades.
    So the point is that I'm fairly familiar with the 
Everglades and some of the challenges and opportunities that 
you have here in this State.
    I think that in too many cases that the development has 
occurred without sufficient planning and consideration of its 
impact on the environment, water supply, and, yes, the 
Everglades themselves. We realize that, and the problems 
confronting the Everglades today are mostly man-made and as 
such can only be corrected by a man's proper stewardship of the 
environment and by regulating current and future growth.
    I don't wish to appear to be singling out Florida because 
Florida is not alone in terms of impact of rapid growth. A lot 
of States have not given appropriate consideration to the 
environmental impacts of aggressive, commercial, housing and 
agricultural development.
    Two years before I left the Governor's office in 1996, I 
realized the effects of encroaching development in Ohio's 
farmland. After seeing acres and acres of farmland gobbled up 
by development and urban sprawl, we created the Ohio Office on 
Farmland Preservation for the purpose of developing a statewide 
management policy to preserve farmland and encourage 
responsible development.
    In addition to recognizing the need to recycle our urban 
wasteland, we undertook Brownfields legislation, and I hope 
that my colleagues agree that one of the things that our 
committee may get at this year is Brownfields legislation. We 
have acres and acres of urban wasteland out there and you have 
them here in Florida and, if you're going to save the 
Everglades and not continue to encroach it with development, 
you are going to have to go back into other areas and redevelop 
those areas, and Brownfields legislation is, I think, very 
important to us.
    I share--I'm not as eloquent as the chairman--the 
importance of the Everglades as a national treasurer; however, 
I think, and I'm going to be very candid because that's the way 
I am, the problems facing the Everglades need to be viewed from 
a national perspective. The primary concern before Congress on 
the Everglades issue is what course of action will best help 
restore and preserve the Everglades ecosystem and what level of 
responsibility should be assigned to the Federal Government as 
Congress puts together the water resources bill for 2000, as 
well as future water bills.
    I would like to stress that, as chairman of the 
subcommittee, equity among the States is a key factor in terms 
of things that come before the committee. Every State wants its 
share of project authorizations under the Army Corps of 
Engineers' Civil Works program.
    In other words, there are over 400 projects that have 
received funding, and others have not received any funding at 
all. We could authorize the projects, folks, but Senator 
Domenici's Appropriations Committee on Energy and Water 
appropriate the money for the authorizations that come out of 
our committee.
    Today, the State of the Florida has about $3 billion in 
project authorizations from past WRDA bills for Federal runs 
for projects under design and construction. This represents 
about 10 percent of the $30 billion backlog. Think of that, a 
$30 billion backlog of projects that have been authorized by 
the committee, and, Mr. Chairman, there are other projects that 
we haven't spent any money in design and construction for that 
we still haven't put into the hopper.
    With the request from WRDA 2000 for $1.7 billion in 
construction authorization, half of which would be Federal 
expenditures to begin implementation of the Everglades project, 
Florida would have the largest requirement for Federal funding 
to complete authorized water projects of any State. You would 
be No. 1 in the country.
    For example, the State of Ohio has uncompleted flood 
control projects in Cincinnati and Columbus that require 
additional funding, and you know they're all over the country.
    So I think that everyone has to know that we are going to 
have to measure water projects currently on the books with 
those that are coming on board, and I think that Florida--I 
know you have got projects for beach nourishment in several 
locations, channel improvements in Canaveral Harbor, Miami, and 
Tampa Harbor, and Kissimmee River restoration project. All of 
it's very important stuff.
    With respect to water development projects, the authorized 
level of funding is rarely matched with a full level of 
appropriations and, therefore, it's clear that we must review 
projects to the fullest extent and only authorize those 
projects which are of utmost importance to the individual 
States.
    In addition, Florida is going to have to make, and I talked 
with your secretary about this, decisions about its own 
priorities for water resources development within the State. 
With its current backlog, what will Florida's priorities be? 
Your Governor and your congressional delegation will have to 
decide what you want to do with those authorized projects when 
you come before the committee.
    Just this last year, our committee, Mr. Chairman, 
authorized 248 State-specific projects for a total Federal and 
non-Federal cost of $5.6 billion, and of that amount, 14 
projects were included for Florida in the amount of $341.2 
million. OK? That's a lot of money. So you add that on to the 
backlog of three billion to give you some sense of the dollars.
    Now, what does that mean? What it means is this, is that 
this last year, the Appropriations Committee have provided $1.4 
billion. Think of that, just $1.4 billion for all of these 
projects all over the United States; and Florida is going to 
receive 11 percent of the funds of that appropriation, $157.7 
million; so that out of every dollar, ten cents will be going 
to Florida.
    So the thing is that we have a major problem that needs to 
be addressed, major opportunity, but I want all of you to know 
that this project is--we are talking about $7.8 billion over 20 
years; and we can talk all we want to and have the greatest 
plan and this committee can authorize every project on the 
restudy commission, and, if there is no money, it's not going 
to get done.
    So I think that one of the things that all of the groups 
represented here should understand is that, unless we get more 
money in that appropriations bill, and we are expecting the 
administration to come through with some more, but we're not 
going to be able to really do anything about this problem, and 
that's important.
    I'm editorializing, but the Federal Government is going off 
into many directions today. Your Senator and I have talked 
about it and we are concerned about our national debt, aren't 
we, Bob? Out of every dollar we spend, 14 cents goes for 
interest. OK? Fifty-four percent of every dollar goes for 
Medicaid, Medicare, Social Security. In 10 years, it's going to 
be 66 percent and, if we don't do something about the debt and 
get the interest cost down, what's going to be left for 
projects like the Everglades? I mean, we have a real challenge 
here.
    So in the process of hearing from you today, I would hope 
all of you here, whatever groups you represent, you all are 
concerned about the Everglades, but it's really important that 
you understand that we need to have those resources in 
Washington so that we can make them available to the Everglades 
and we can move forward with the Everglades and other projects 
in Florida throughout the United States of America. This is 
important to our country.
    So I'm anxious to hear from our witnesses today about the 
plan. I mentioned to Mike last night that it didn't have the 
specificity of some of the other things that we had and he 
tried to explain to me why that is, but we're anxious to hear 
from you. We will have hearings in Washington and then we will 
have to sit down and figure out how we're going to prioritize 
things and move forward.
    Thank you, Mr. Chairman.
    Senator Smith. Thank you, Senator.
    I want to say I see another--if you want to know what 
happens to ex-Congressman when they leave the Congress, they 
move to Florida and retire. We have Congressman John Meyer here 
from Indiana. Welcome. Good to see you again, John.
    Administrator Browner, welcome. Welcome home, I guess I 
should say, and we're looking forward to your testimony, so 
here we go.

     STATEMENT OF HON. CAROL BROWNER, ADMINISTRATOR, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Ms. Browner. Thank you, Mr. Chairman, and it is indeed a 
pleasure to refer to you as Mr. Chairman at this, your first 
hearing, and I will say, I think, on behalf of all of us who 
care deeply with the Everglades, it is quite significant for us 
that you chose this as your first hearing.
    It is also a pleasure to be with my Senator, Senator 
Graham, and with Senator Voinovich.
    If I might, Mr. Chairman, just take a moment to recognize 
all in the Federal family who have worked so hard over the last 
7 years of this administration on the Florida Everglades--my 
colleagues at the Environmental Protection Agency, the 
Department of Interior, the Army Corps of Engineers, and so 
many others; and it really has been a collegial effort, each of 
us bringing to this challenge, this task of the Everglades, our 
own expertise and a shared vision and a shared commitment.
    I also want to say a word about the State of Florida and 
the leadership that they are providing. The task of restoring 
and preserving the Everglades is not a task that will be done 
by one institution, by one level of government. It will take 
all of us working together, Federal, State, local, Federal 
Government, the State of Florida, the Water Management 
District, a public/private partnership.
    Obviously an important part of this effort and those who 
continue to remind us daily of the need for the work that we 
are here to discuss are the environment groups that make up the 
Everglades Coalition. So I also want to take a moment to thank 
them for the work that they do and for holding our feet to the 
fire, reminding us that we need to do more and questioning us 
when they think we have not done enough.
    As I think everyone knows, I am a native Floridian. I grew 
up in Miami and in many ways my childhood backyard was the 
Everglades. But it is really, really much more than that. I 
think, for all of us who choose to do the work of public health 
in the environment, we are inspired in our work by a very 
special place, and perhaps, Mr. Chairman, for you it is the 
White Mountains. Well, for me it is the Florida Everglades on a 
warm January day and a great blue heron has just taken flight. 
There is nothing more inspiring, more beautiful than that.
    In many ways, the Everglades has been threatened since 
Florida's earliest days as a State, considered really nothing 
more than a swamp that stood in the way of progress.
    Florida entered the union in 1845. Just 5 years later, 
Congress passed the Swamp and Overflowed Land Act and thus 
began the draining of South Florida, the literal draining of 
Florida's liquid gold.
    There is a great debate that took place in the Florida 
legislature about the turn of the century where one member of 
the Florida Senate stands on the floor and says, ``Let's get it 
drained and put it back the way God intended it to be.'' We 
have drained and drained and drained the Florida Everglades.
    After more than a century, we did come to realize, 
unfortunately, almost too late, but nevertheless we did come to 
realize that we were in danger of losing this most unique and 
beautiful place, and gradually a new sense of environmental 
awareness emerged thanks to activists like Marjory Stoneman 
Douglas, leaders like then-Governor Graham, now Senator Graham, 
and my mentor, the late Senator and Governor Lawton Chiles.
    When Lawton Chiles first ran for the Senate in 1970, he 
walked the length and breadth of this great State, and I dare 
say, if one of us were to walk the path that Lawton Chiles took 
in 1970, we would see a very different Florida, a growing, a 
dynamic, a vibrant place, but also a Florida that has beautiful 
places forever protected because of the work of Senator and 
then-Governor Chiles.
    One of his greatest commitments was to create a coalition 
of government, business, farmers, environmental leaders to 
build on the work of Governor Graham to really preserve and 
restore the Everglades. Today at the dawn of this new 
millennium, we need to seize the opportunity to expand this 
legacy.
    With the leadership of President Clinton and Vice President 
Gore, we have embarked on an ambitious, long-term restoration 
plan that will give new life to this great natural wonder.
    As a member of this administration, I was very pleased to 
join Vice President Gore in February 1996--Senator Graham and 
others joined us--as he set forth the Everglades restoration 
blueprint, a vision that has already been delivered on, the 
acquisition of the Talisman land and other critical restoration 
lands, key to water quality and quantity, increased Federal 
funding, and now the comprehensive restoration plan.
    For the first time ever, we recognize that, to sustain that 
which gives us this incredible quality of life we enjoy here in 
South Florida, we must sustain, restore and preserve the 
natural system, that we cannot simply put the needs of the 
natural system third, fourth or fifth.
    The challenge is two-fold, water quality and water 
quantity, clean fresh water where and when the natural system 
needs it. The heart of the Everglades must once again pulse 
with the water that is essential to its health.
    As Harry Truman said when he dedicated Everglades National 
Park in 1947, ``Here are no lofty peaks seeking the sky, no 
mighty glaciers or rushing streams wearing away the uplifted 
land. Here is land, tranquil in its quiet beauty, serving, not 
as the source of water, but as the last receiver of it.''
    One of my most important responsibilities as the head of 
the country's Environmental Protection Agency is to ensure that 
we honor the Clean Water Act, the nation's most important 
environmental law. The Clean Water Act is essential to 
maintaining and preserving water quality, everything from water 
quality standards to where we measure those standards, to 
protecting the wetlands, which are nation's only way of 
cleaning the water. That is the essence of the Clean Water Act.
    As the State of Florida completes its work to set a 
phosphorous standard, which is essential to the health of the 
Florida Everglades, essential to clean water, it is not just 
the standard or the number that will be important but where you 
measure that standard, where you measure compliance with that 
water quality standard.
    If we are to be successful in our efforts for the clean 
water that is fundamental to the health of the Everglades, we 
must commit ourselves to meet the standard at the point of 
discharge, not somewhere downstream.
    In other words, we must eliminate the mixing zones, the 
waters where pollutants are allowed to mix and hopefully dilute 
with the clean receiving waters.
    If we have learned anything over the last 30 years of 
working to protect our environment in this country, we have 
learned that dilution is no solution to pollution. You have to 
prevent it.
    Several Great Lake States have already taken this step. If 
we don't do the same for the Everglades, we will sacrifice this 
river of grass to the grinding march of the cattails and other 
exotic plants.
    The measurement of success must be the needs of the 
ecosystem, not merely what one particular technology may or may 
not achieve, but the needs of the ecosystem. Success should not 
be defined as the installation of this or that technology and 
whatever water quality it may bring. Success is the clean water 
necessary to restore the health of the Everglades.
    Mr. Chairman, members of the committee, the clock is 
ticking. We must move forward at an aggressive pace. In the 
coming year, it is my strongest hope that we can work together 
to do the following four things. First, to authorize the 
Comprehensive Everglades Restoration Plan in WRDA 2000, 
including the critical projects; second, I believe that we 
should amend the original project, the Central and South 
Florida project in WRDA 2000, to include water quality as an 
explicit project purpose. With such amendments, we will ensure 
that water quality is a fundamental component to all Everglades 
decisions and that Federal cost sharing is available for 
achieving essential water quality; third, we must agree to set, 
not only tough water quality standards, but to measure 
compliance--our success in meeting those standards at the point 
of discharge, not somewhere downstream.
    Finally, Mr. Chairman and, Senator Voinovich, you spoke to 
this, let us pledge to work together to secure long-term 
funding commitments. Many ideas have been put forward. Senator 
Graham has put forward ideas. Let us look at these ideas, let 
us evaluate these ideas, and let us make a commitment to a 
long-term funding mechanism.
    Mr. Chairman, in addition to the work that I hope we will 
all be able to do with the Everglades, I think I would be 
remiss in my responsibility for clean water for all the people 
of this country if I did not also ask you and this committee to 
close a loophole in the Clean Water Act which is resulting in 
the loss of wetlands from Maine to the Mississippi Delta, the 
Great Lakes, the San Francisco Bay Delta, even the Florida 
Everglades. Because of a court decision commonly referred to as 
the Tulloch Decision, EPA estimates that as many as 30,000 
acres of wetlands have been destroyed in just the past year, 
30,000 in just 1 year. Although EPA and the Corps are working 
hard to use our remaining tools to protect wetlands, the 
court's ruling makes it clear that only action by Congress that 
closes the Tulloch loophole and fixes the Clean Water Act can 
ultimately stop the destruction.
    We hope that we can work with the committee to close the 
Tulloch loophole.
    I think that, if we can commit ourselves to the Everglades 
and to the restoration plan, that if we can do all of these 
things in the new century, we will do much to correct the 
mistakes of past centuries, a past where clearly we looked at 
the Everglades and we said, ``It's a swamp; let's drain it.''
    That's kind of like looking at the Grand Canyon and saying, 
``It's a hole; let's fill it.''
    Mr. Chairman, 7 years ago next week, I appeared before this 
Senate committee in Washington as President Clinton's nominee 
to head the United States Environmental Protection Agency. I 
said that day in seeking the support of this committee that my 
greatest hope was for my son, who was then five, to grow up and 
to know the same Everglades and other natural wonders of this 
great country that I had known as a child, to know the same 
special place that has meant so much to me.
    I said 7 years ago that I believed that, if we were 
prepared to make tough decisions, we could give my son, we 
could give all of our children that opportunity and 
inspiration, and I believe that this administration, working in 
a bipartisan manner, has made a set of tough decisions. We have 
put forth a vision and a plan to finally save the Everglades. 
Now it is incumbent on all of us working together with the 
Congress to write the law, to provide the funding, to achieve 
the shared vision of a healthy, restored, protected Everglades. 
There is no other river of grass and there will be no other 
chance. Now is the time to act.
    Thank you.
    Senator Smith. Thank you very much, Administrator Browner. 
It's been a pleasure working with you over those 7 years. As a 
member of this committee, we have worked on a number of issues. 
We have had some successes, a few failures, but it's been a 
pleasure, though, to work with you during that time.
    In terms of process here, we are in Senator Graham's home 
State, so I'm going to defer to Senator Graham in a moment for 
the first question. What I would like to do is have each of us 
ask a question or two, not be confined to the clock; and then 
after that, open it up so that anyone feels, if they wish to 
interject with a question, we will do that. Then Administrator 
Browner can move on. We will bring the next panel up.
    Senator Graham, the floor is yours.
    Senator Graham. Thank you very much, Mr. Chairman. I'm 
going to ask a similar question of most of the witnesses 
because it goes to what I think will be one of the most 
challenging aspects of the authorization of the Corps study 
and, that is, the issue of assurances language, assurance to 
what various stakeholders in the Everglades will have relative 
to the quality, quantity, hydroperiod of water.
    In 1999, as part of the Interior Appropriations Bill, it 
was agreed to defer this issue of assurances language to the 
Water Resource Development Act of 2000. I know that the 
administration and various State officials have been working to 
try to develop what would be those appropriate words of 
assurance. I wonder if you could describe what your feelings 
are as to what some of the principles should be in developing 
this assurance language.
    Ms. Browner. Well, I think language will be extremely 
important. I think we do need to recognize and we do need to 
commit ourselves to restoring and preserving the natural system 
because it's only when you do that that you can meet all of the 
other demands, whether it be the agricultural demand, whether 
it be the drinking water demands of the people of South 
Florida. So I think it is important when we look at allocation 
of this resource that I suppose at one point the thought was 
that the supply was never ending, but we now know today has to 
be managed carefully to ensure that we do what is necessary to 
rehydrate the natural system. With that will then come other 
resources that we need for the other uses, and this is 
certainly something the administration has had a lot of 
experience with out of the San Francisco Bay Delta where you 
have a very similar situation.
    You have drinking water demands. You have agricultural 
demands and you have a natural system demand, and we need the 
recognition there, that by serving the natural system, you 
could better meet other, competing needs.
    I think, Senator Graham, given the nature of this 
particular proposal, where it's very project-specific, you may 
make slightly different decisions, depending on what is the 
ultimate purpose of that project. So in some ways it may 
initially be easier to have the conversation around the 
specific project that would move forward in the first several 
years and to make determinations within the specific projects 
because some of them are clearly designed to meet one set of 
needs versus another set of needs. I think the overarching 
principle has to be to recognize that, when you take care of 
the natural system, when you provide for the natural system, 
that gives you the greater flexibility then to deal with the 
other competing demands, which are primarily the people of 
South Florida and the agricultural community.
    Senator Graham. Thank you.
    Senator Smith. Administrative Browner, in your testimony, 
in your written testimony, you devoted a significant portion of 
it to the mercury problems and, in fact, you indicated that 
some of the fish might be bordering, may not be edible, some of 
the game fish, and also that significant amounts of mercury 
were showing up in other wildlife and birds in the whole 
ecosystem.
    I guess the question is, No. 1: What do you view the major 
source of this mercury because it's not really addressed in the 
plan, the issue of mercury; and, No. 2, is this unusual in the 
Everglades? Is this an anomaly or are we talking about 
something that's pretty much in every ecosystem where you have 
water and wildlife?
    Could you address that, because I think, if we wind up 
making all these corrections and save the quality of the water 
but lose the wildlife, then we have lost a significant portion 
of the treasure.
    Ms. Browner. We certainly think that mercury is a 
significant problem and one that we have only become more aware 
of in recent times. It was not something that the scientific 
community studied or understood 30 or 40 years ago.
    More than likely in most systems, the mercury is a result 
of air deposition, probably from coal fire utility plants and 
other types of incineration. It's a byproduct of the process, 
and I think there's certainly some who believe that the 
mercury, some of the mercury in the Everglades, may be from air 
deposition.
    The scientists are looking at questions of whether or not 
certain agricultural practices may be resulting in increased 
mercury levels. EPA is very engaged in research that looks at 
what we could perhaps do working with people and perhaps the 
agricultural industry to manage that source of mercury 
contamination.
    I should tell you, EPA sent to Congress last year a report 
on mercury and air deposition, as was required by law. As part 
of that report, we indicated that, by December 15 this year 
under the Clean Air Act, we would make a determination as to 
whether or not mercury emissions, air emissions, should be 
regulated subject to a technology-based standard, and we are on 
track to make that decision by the end of this year. We have 
not made a final decision yet.
    If we were to make an affirmative decision that mercury is 
a pollutant that should be regulated in air emissions, that 
would then trigger a whole rulemaking process to set standards 
on particular industry sectors.
    Senator Smith. The question for me is: Is this showing up 
disproportionately here in the Everglades than, say, the 
Mississippi Delta or some other ecosystem?
    Senator Voinovich. It's the biggest problem we have in the 
Great Lakes.
    Ms. Browner. Yes, it's very big in the Great Lakes. They 
have fish consumption advisories in the Great Lakes. Mercury is 
a significant problem and though we haven't made a final 
determination at EPA, I will tell you within the scientific 
community, that large numbers of scientists think it is one of 
the greatest challenges we face right now in terms of healthy 
ecosystems and wildlife.
     Senator Smith. Thank you.
    Senator Voinovich?
    Senator Voinovich. I would like to get to some specifics. 
The plan has many elements to it and part of, I think, the 
committee's responsibility is to sift out through those 
elements projects which are what we refer to as genuinely a 
Federal project and one which we should be involved with, 
perhaps some that may not be Federal in nature.
    Two wastewater treatment facilities that have capital costs 
of 800 million and contribute to about half of the $84 million 
in proposed operation and maintenance costs as planned are in 
the proposal, and the question is: What's the Federal interest 
in those plans? I mean, that's a lot of money, and one of the 
things that you are proposing to doing or the plan is proposing 
to do is the Federal Government picking up a lot of maintenance 
costs which we have not done before. So I would like your 
comment about those waste treatment facilities and how do they 
fit in with the project.
    If you can't comment on it, perhaps some other witnesses 
later can do it.
    Ms. Browner. You are asking about the money and that's the 
question I was trying to get an answer to.
    The State of Florida, as did every State, as you're well 
aware, received some money through the State Revolving Fund 
program, the Clean Water SRF program. It's a population-driven 
formula.
    Senator Voinovich. Which you would like to get 
reauthorized?
    Ms. Browner. We would like to get reauthorized? Yes, 
exactly. I wasn't going to bring that up but thank you for 
bringing it up.
    Generally these types of projects are eligible for funding 
through the State of Florida's SRF program. I don't know where 
they have ranked them or if they have ranked them yet at this 
point in time.
    Right now, nationally, that fund is revolving at two 
billion annually. So it's a fairly large amount of money that's 
moving through the system and available to each of the States.
    Senator Voinovich. So the answer is that, if it's not 
funded out of WRDA and doesn't perhaps meet the requirements, 
that it could be funded out of another fund, which is the State 
Revolving Fund program?
    Ms. Browner. Yes, sir, generally, loans are available it 
its a local responsibility.
    Senator Voinovich. One other question I would like to ask 
and, that is, I think it's what Senator Smith had to say, 
that--this is CERP, right?
    Ms. Browner. Right.
    Senator Voinovich. One of the things that I pointed out 
earlier is that I think it's really important that everybody 
understand that this isn't the comprehensive restoration plan 
for the Everglades because of the fact that we have mercury. 
When we were up at Loxahatchee today, we learned about the 
exotic plants that have invaded the Everglades and the serious 
problems that they have in regard to that.
    Is there any thought from any other of the Federal agencies 
that are represented here today about how they're going to deal 
with those very serious problems, because we can go ahead and 
do this project and it will help substantially, but there are 
some other things that all ought to be concerned about; and I 
wonder, is this high priority with some of the other Federal 
agencies that could help in dealing with this?
    Ms. Browner. In terms of the other problems?
    Senator Voinovich. Yes.
    Ms. Browner. Well, for example, in terms of exotic species, 
there are a number of programs which the State of Florida 
participates in, I know through USDA and others, to try and 
eradicate exotic species.
    You know, if I could step back for a moment, in developing 
the comprehensive plan, there was a vision and the vision was 
about bringing the water back to the system, and so the plan's 
components focused on that.
    It is not to say that there may not be some ongoing 
activities, like exotic species, eradication, like mercury, 
that are not also important to the health of the system and 
will continue to go on. They will, in fact, continue to go on, 
but the primary challenge in this system and the most important 
thing we can do is to bring the water back into the system and 
that is what the plan focuses on.
    Senator Voinovich. It in itself is not going to--there are 
other problems that need to be addressed; that's the point I'm 
making.
    Ms. Browner. They are. For example, the issue of mercury, 
there are mechanisms in the Clean Air Act for addressing those 
problems. There is research underway. The same thing on exotic 
species. It's not as if those issues are being ignored. They 
are being addressed. They are being addressed in other ways.
    Senator Voinovich. I'd like to know from somebody later on 
specifically how they are being. I think it's really important, 
if we are going to spend this money, that we are also working 
on the other problems.
    Ms. Browner. I agree. We can do that.
    Senator Smith. Senator Graham.
    Senator Graham. Carol, I would like to go back to one of 
your four points for 2000, which was the inclusion of the issue 
of water quality as one of the purposes of this project.
    I wonder if you can elaborate on what is the current 
significance of not having water quality as an objective and 
what would be the consequences of that. Maybe you could give an 
example of those consequences.
    Ms. Browner. The current WRDA project, not the restudy, but 
the current project you know as the Central and South Florida 
project, is the mechanism under which much of the work 
heretofore has gone on. I think because it's not what the way 
people thought when that project was originally conceived, 
water quality has never been included as a project purpose.
    It has largely been about the draining of South Florida, 
and water quality was not a component of that project; but as 
we continue to work within that project and that project is 
ongoing and there are certainly many important efforts underway 
within that project, we think it would be extremely important 
to add water quality to the project purpose.
    Now, the State of Florida, I'm fairly certain, agrees with 
us on this. In part they would agree with us because some of 
the work that they might do under the project, which has a 
cost-share requirement, might bring water quality benefits, but 
they would not be eligible for some of the cost share as they 
would be within other types of activities. So it allows us to 
do some of the kind of cost sharing that I think is important 
to the long-term success.
    I think it would also allow us to make a set of evaluations 
for any other activities that might take place under the 
original project to ensure that, in making those types of 
decisions, we weren't simply making water quantity decisions or 
water transfer decisions, but that, if those quantity or those 
transfer or their drainage decisions had a water quality 
impact, it was part and parcel of the decisionmaking process.
    I think for a long time down here we didn't really see the 
two as interconnected, but they're completely linked, water 
quality and water quantity. In some ways, it almost appears as 
if it's a silly oversight now, that the original project 
doesn't include water quality; and so going back and adding it 
would ensure that any decision that might have to be made under 
the original project wouldn't come at the expense, maybe 
unintentionally, but nevertheless at the expense, of water 
quality.
    Senator Smith. Administrator Browner, the comprehensive 
plan addresses and frankly relies pretty heavily on the 
Stormwater Treatment Areas to reduce the flow of phosphorus, 
and the plan actually proposes to construct stormwater 
treatment that would deal with some--I think it's 36,000 acres, 
as I recall of wetlands.
    I guess one question: How effective have these areas been 
at reducing the phosphorus discharges. That's No. 1, which is 
under your responsibility anyway. Second, can they really deal 
with the volume of water that we are anticipating coming 
through here in this plan? I don't want to put too much on you.
    The third point is: When this happens, when they no longer 
can be as effective at removing phosphorus from the billions of 
gallons of water, it would seem that these treatment areas may 
not provide the term-long solution. I mean, we don't want to 
have these beds of phosphorus-filled weeds or grass that become 
basically phosphorus holding pens, if you will.
    So I'm concerned that, with the increase flow of water 
through the plan, you've had experience in dealing with the 
phosphorus nonpoint source of pollution as it is.
    Just comment, if you could, on how you feel this will 
enhance us in regards to eliminating phosphorus in the plan.
    Ms. Browner. I think there is wide-scale agreement that the 
Stormwater Treatment Areas, the STAs, are effective in reducing 
levels of phosphorus as it enters the STAs through management 
of the STA, through vegetation and other activities.
    Senator Smith. By creating those vegetation areas, right?
    Ms. Browner. There's an uptake that you can create through 
vegetation and other practices and that has been effective. The 
water management district just yesterday released another 
report showing what kind of clean-up you can get through the 
STAs.
    I think you raised an important question, which is: What 
happens over a long period of time? Do you reach a moment when 
they've sort of done everything they can do? I think it's 
important to note that the comprehensive plan does not 
necessarily limit STAs to 36,000 acres. It recognizes that, 
with experience, with the passage of time, you may find that 
you need some additional STA; you may find you may learn more 
about some other technologies that could provide answers. So it 
doesn't limit it. It doesn't say--in no way does the plan say, 
this amount of STA will solve the problem.
    The point I made in my opening statement I'd like to make 
again: The solution to the Everglades will not simply be to 
install technology and, whatever it does, so be it.
    The solution has to be clean, available water, and what the 
plan does is put together a variety of tools for cleaning the 
water. Some of them we know more about than others. They all 
bring some benefits, but as we proceed, we may find that 
they're not enough and we may need to add to them, but we won't 
know that until we go out there and do it. It's like any other 
sort of large challenge. You have to begin. You have to start. 
You have to get the knowledge. You have to get the expertise, 
and then you can make adjustments, if necessary.
    The STAs certainly have proven to work. I think everyone 
agrees that a large number of them will be important to this, 
but we have to keep our eye on the ultimate goal, which is the 
clean water, and that may mean making some adjustments down the 
road.
    Senator Smith. Do we have any science or evidence, though, 
in regards to what the capacity of these phosphorus storage 
beds can handle?
    Ms. Browner. Yes, there is evidence now. The Water 
Management District would actually be in the best position to 
answer that. They have been studying the assimilation capacity.
    Senator Smith. We'll want to pursue it.
    Ms. Browner. They're better than was originally thought, 
although they are not hitting the kind of phosphorus level that 
many of us think will be important to hit to get to the health 
of the Everglades. They're not getting all the way down, but 
they are doing a good job and they're taking up more than was 
originally, I think, anticipated.
    Senator Smith. I assume the canal system being removed will 
enhance that, as well, correct?
    Ms. Browner. Probably should.
    Senator Smith. Yes.
    Senator Voinovich. This is a little technicality, but it's 
interesting. The water runoff that comes into the canals, a lot 
of it is runoff from----
    Ms. Browner. Agricultural lands.
    Senator Voinovich.--agricultures. Any of it come off of 
housing developments?
    Ms. Browner. Yes. Some of it is urban. Some of it is 
agricultural.
    Senator Voinovich. You know we have a real problem with 
combined sewer, sanitary----
    Ms. Browner. CSOs.
    Senator Voinovich. The fact is that, in those areas where 
they don't have separate sanitary and storm, does all that 
water come into those canals too and then----
    Ms. Browner. Yes, it's not that much. From Broward County, 
which is north of here, there is some coming in. There is not 
all that much urban stormwater runoff coming into this system.
    Senator Voinovich. The reason I'm saying that is this is an 
alternative way of doing something and you are talking about 
the period where once a while you have that big flood or, you 
know, that big rain. That could save some of those communities 
money if this was an alternative in terms of forcing them to 
separate their sanitary and storm.
    Ms. Browner. Senator, I think--this just occurred to me--
most of the development that we are talking about in the 
Everglades' ecosystem is relatively newer development, so some 
of the kinds of issues that you're familiar with don't present 
themselves down here.
    Senator Voinovich. So they don't have the problems?
    Ms. Browner. Not of the nature, I think, that you're 
familiar with as a former mayor, no.
    Senator Voinovich. That's good. That's good.
    Ms. Browner. It's different, yeah. It's just newer 
developments. Things didn't develop in the same ways.
    Senator Smith. I think we are all set, Administrator 
Browner. Do you have any comments or points that you want to 
make before we move to the next panel?
    Ms. Browner. No. I want to thank you for taking the time 
and for making this your first hearing and to pledge our 
willingness to work with the committee in a bipartisan manner. 
I think there is a tremendous opportunity. This is an issue I 
have worked on for the better part of my adult life now, and 
there have been various moments over the last 20 years where we 
have turned an important corner, and I think that that is the 
opportunity that is in front of all of us now with the plan, 
with your interest, with the committee's commitment; and we 
will work with you to achieve that.
    Thank you.
    Senator Smith. Thank you very much for being here. We 
appreciate it.
    Let me say to the audience, because we do have a packed 
room here, there will be a 3- or 4-minute automatic break as we 
change panels. So if anybody needs to go out, that's the time 
to do it, if you can, because also, unless we have an emergency 
up here, we are going to try not to take any breaks other than 
that and keep moving. So if one of us leaves, you'll know that 
we will be back.
    So thank you very much, Administrator Browner.
    Ms. Browner. Thank you.
    Senator Smith. If we can have the second panel work its way 
up.
    [Recess.]
    Senator Smith. I would like to welcome the second panel. 
I'm going to do my best to introduce you and not mess it up 
here for the record, but what we have with panel No. 2 are a 
combination of key Federal and State partners for the 
Everglades restoration project.
    We have Dr. Joseph Westphal, who is the assistant secretary 
of the Army for Civil Works, chief of the agency responsible 
for implementing the restoration plan of the U.S. Army Corps. 
He also has several of his deputies responsible for the project 
here in Florida with him.
    From the Interior Department, we have Mary Doyle, who is 
another Floridian, I understand, who was recently appointed as 
counselor to Secretary Babbitt. Ms. Doyle has also been 
appointed as the chair for South Florida Ecosystem Restoration 
Task Force.
    Joining the Federal family, are their Florida sponsors, the 
Honorable David B. Struhs, the secretary of the Florida 
Department of Environmental Protection. He's here representing 
the State on behalf of Governor Bush, who could not attend 
today because of a special session of the State legislature.
    The last witness on the panel--do we have everybody--is 
Captain Mike Collins----
     Senator Voinovich. Where is Mike Collins?
    Senator Smith. Over there--who is the chairman of the South 
Florida Water Management District, the State's cost-sharing 
partner for this restoration effort.
    Now, I see Mr. Davis here, and I don't have, for some 
reason, any information.
    Mr. Westphal. Mr. Chairman, he is with me. He's going to 
help make the presentation.
    Senator Smith. OK. Great. We didn't mess it up then.
    Mr. Westphal. No.
    Senator Smith. I would ask each witness to do your best to 
keep your remarks confined to 5 minutes or less. Every word of 
your statement will be part of the formal record and you all 
know how the drill works and so that we can try to move along 
as quickly as possible. I'm not sure of the protocol here. I 
think probably it's either the Army Corps or Ms. Doyle. Which 
is it?
    Ms. Doyle. I think the Corps, Mr. Chairman, will lay out 
the plan.
    Senator Smith. All right. We will start with you, Dr. 
Westphal. Go ahead.

 STATEMENT OF HON. JOSEPH WESTPHAL, ASSISTANT SECRETARY OF THE 
        ARMY (CIVIL WORKS), U.S. ARMY CORPS OF ENGINEERS

    Mr. Westphal. Thank you, Mr. Chairman, Senator Graham, 
Senator Voinovich. We have submitted a formal statement for the 
record and ask that you make it a part of the record.
    Senator Smith. It will be done.
    Mr. Westphal. Mr. Chairman, I am here with my deputy 
assistant secretary, Michael Davis, whose played a key role in 
this effort, and we are going to do a little tandem work here 
to present to you an overall look at what we are proposing and 
will be proposing.
    Senator Smith. Can the folks in the back hear?
    [Response in the negative.]
    Senator Smith. Maybe pull the microphone a little closer, 
see if that works.
    Mr. Westphal. There we go.
    Senator Smith. Better now? Is that better? All right.
    Mr. Westphal. So we will give you an overview of what we 
see as the problem and what we see as the possible solution in 
this effort.
    I also have with me, sitting behind me, General Rick Capka, 
who is our South Atlantic Division commander, who oversees the 
Jacksonville District's work in the Florida arena.
    Mr. Chairman, what we are going to do this afternoon is 
very quickly do a little PowerPoint presentation. I know this 
is unusual in a congressional hearing but----
    Senator Smith. Maybe it will liven it up.
    Mr. Westphal.--we thought we would give you a more visual 
look at what we're going to talk about.
    Now, I have to say you stole some of my thunder when all 
three of you have made mention of several of the things that we 
are going to say here. So we will go through them fairly 
quickly, but I think you'll see from this presentation where we 
are heading, what we are proposing, and why we think this is so 
important.
    So let me start by giving you this brief presentation. Mr. 
Chairman, you see there the Everglades. You made mention of the 
Grand Canyon and other great--Yellowstone Park, California's 
ancient redwoods, as places that are irreplaceable. The 
Everglades is such a place.
    You see that the Everglades designated, not just an 
international park, but an international biosphere reserve, a 
world heritage site and so on. The Everglades is unlike any 
ecosystem anywhere in the world. It is unique. It is splendid. 
It is majestic. It is critically significant, not just to 
Florida or to the United States, but to this planet's future 
and survival.
    This is roughly the area we're talking about. Mr. Chairman, 
I was born 52 years ago in 1948, when the first project was 
authorized by Congress; and at that time there was an intention 
to do a lot of good, to protect people from floods, provide 
water supply, to manage water, among other benefits; and it has 
accomplished much of what was intended to do in that area, but 
we have also seen a population grow from 500,000 people to six 
million people, and we project a significant growth in this 
millennium and this ecosystem that you see here is now being 
reduced in half. What you see here as the river of grass, this 
connected system, this flow of water, is no longer the case and 
what you see is an ecosystem in danger. You see the Everglades 
as a dying natural ecosystem.
    Indicators of the problems, I won't read them all to you, 
Mr. Chairman. They're in part of the record, but you can see 
there, to amend this endangerment and threatened species, 
wildlife, billions of gallons of water lost every day, over 1.5 
million acres infested with invasive species and exotic plants. 
You also have declining population level of important fish 
species and other major impacts to the environment.
    Everyone in this room that you see behind us has had a 
major part in this. The tribes have an important role to play 
and are an important part of this ecosystem. The organizations 
that are represented behind us, and this administration, 
starting with the President and the Vice President, Carol 
Browner, who just testified before the committee, Bruce 
Babbitt, your committee, Mr. Chairman, you, and, of course, 
Senator Chafee, Senator Graham, and many others who have been 
staunch supporters of this program, including the delegation 
from Florida, the people such as Clay Shaw, Connie Mack, whose 
here, Porter Goss, Peter Deutsch, Mark Foley, Carrie Meek, and 
others.
    The State of Florida and its people, its leadership, its 
Governor, are all committed to this comprehensive plan. 
Governor Chiles worked hard on it. Governor Bush has made 
strong commitments to it, and we stand ready to support him, 
and to work with him as equal partners in this process.
    Also, the restudy team has made a tremendous effort led by 
both the Corps of Engineers and South Florida Water Management 
District, and I want to congratulate them, Stu Applebaum and 
Tom Teets for their work.
    Specific implementation of the plan, what we hope to 
accomplish are listed here, improvements to the health of over 
2.4 million acres of South Florida ecosystem, virtually 
eliminate the damaging fresh water releases to the estuaries, 
and improve water deliveries to Florida and Biscayne Bays. 
Administrator Browner already addressed some of these water 
quality improvements. They are significant. They are very vital 
and very important.
    The comprehensive plan incorporates a number of major 
principles, the first of which is, of course, the restoration, 
preservation and protection of the system.
    The comprehensive plan is based on best available science. 
There is a significant amount of work that has gone into this, 
tremendous intra-agency work to develop the plan, the 
comprehensive plan, developed through an inclusive and open 
process, engaging all stakeholders and interest groups; and all 
applicable Federal, tribal, State and local agencies were 
partners in this and continue to be partners in this process.
    This is a key, it is a flexible plan based on adaptive 
assessments. Modifications will be made as we go along. There 
is a 20-year plan that will certainly require us to have the 
flexibility to adapt as we monitor to adapt and modify what 
we're proposing to do.
    Now, the ecosystem is in trouble. It's in trouble basically 
because of four major components: How much water is involved, 
the quantity; how good the water is, the quality side of it; 
where to distribute the water; and when on the timing part of 
it.
    Those components are written there. They are much too small 
for anybody to see, but there are 68 major components to this 
comprehensive plan, and in these four areas of quantity, 
quality, distribution and timing, we are proposing a number of 
major activities and major projects that will address and 
attempt to address these four major problems.
    On the quantity side of things, we have got 1.7 billion 
gallons per day of water wasted and discharged into the 
Atlantic Ocean and Gulf of Mexico, and with this plan, we hope 
to capture and restore the water to a truly reliable and 
adequate water supply.
     On the quality side, we have too much phosphorus, as we'd 
mentioned earlier, too much mercury and other contaminants, 
causing significant degradation. We hope to improve the quality 
of the water discharged to the natural areas by the development 
of a comprehensive integrated water quality plan.
    From the timing side, we have altered the hydroperiods, the 
flooding and the drying of the area, vital to the functioning 
of the ecosystem. We hope to restore these variations in water 
flows and levels and to ensure that timing of these flows 
matches the natural patterns.
    On the distribution side, we have not only reduced the 
Everglades by half but what has remained, we have cut it off by 
canals and levees and we have disturbed the continuity of the 
conductivity of the sheetflow. The movement of water is vital 
to the ecosystem.
    So will remove, in that case, we are proposing to remove, 
about 240 miles of impediments, canals and levees, and to 
restore a more natural overland water flow.
    If we can turn back to the previous slide, you can see, Mr. 
Chairman, that's where the water is going currently. That's 
where we are losing water, significant amounts of water into 
the Atlantic and into the Gulf of Mexico.
    Here you see the various features, again difficult to read 
from a distance. You have got surface water storage reservoirs, 
1.5 million acre-feet capacity on the surface water reservoirs 
to capture the water.
    We are also proposing aquifer storage recovery, about 300 
wells, 1.6 billion gallons per day pumped down into those 
aquifers.
    We're proposing Stormwater Treatment Areas, 35,600 acres of 
man-made wetlands to be built, draining into Lake Okeechobee 
and into other parts of the ecosystem.
    We are proposing wastewater reuse, two advanced wastewater 
treatment plants producing about 220 million gallons per day of 
treated discharge going back into the system.
    We are also talking about seepage management using barriers 
and levees, pumps and managing water levels that will help 
control the loss of millions of gallons of ground water.
    Removing barriers to sheetflow. Removing, as I said 
earlier, 240 miles of project canals and internal levees.
    Then we are talking about operational changes, work with 
water delivery schedules to alleviate extreme fluctuations in 
the water.
    As you see here, Mr. Chairman, and members of the 
committee, what you have is a system that will eventually 
restore 80 percent of the water we hope to capture, restore it 
back to the ecosystem, back to the environment, back to the 
park, back to the natural system; and 20 percent of that water, 
new water, to enhance water supplies for our cities and our 
farmers.
    So the historic flows, the current flows and where the plan 
will take us, it won't recover the Everglades to its original 
and natural historic flows, but it will make a significant 
change in this ecosystem, and I would want to say that that's 
what this plan proposes to do. It's the result of a significant 
amount of cooperation and work between us and our State 
partners and all the groups represented in this room and many 
others, and we hope to be able to get to that plan.
    Now, I have asked Michael Davis to take another couple of 
minutes to get a little more specific on the rest of the plan.
    Mr. Davis. Thank you, Dr. Westphal, Mr. Chairman, Senator 
Graham, Senator Voinovich. Thank you for hosting this hearing. 
You are to be commended for doing that.
    Let me just take a minute, if I can, to explain what we are 
going to be asking the Congress to do in our Water Resources 
Development Act 2000 proposal. We see the plan as five basic 
parts. First, an authorization of the plan itself as the 
conceptual road map for restoring the Everglades, an agreement 
that this is a national priority, something that has to be 
done, something that has to be done quickly.
    That has four basic pieces, some pilot projects, a suite of 
projects that we would like to get authorized in a WRDA 2000 
bill, a programmatic authority, and then the bulk of the 
project would be authorized in some future WRDAs.
    We have six pilot projects proposed; however, two of those 
were recently authorized in the Water Resources Development Act 
of 1999, so we will be proposing four of those as part of our 
legislative proposal.
    As I mentioned earlier, we are also going to propose ten, 
what we will call, initial authorization projects, a package of 
projects that we believe are very important, that were 
carefully thought out and considered that will allow us to get 
on with the business of restoring the Everglades very quickly.
    It's important to move on with these projects because 
they're a link to existing, ongoing work in the Everglades. 
They take advantage of some of the lands that we already own, 
some of the lands that the State already owns, and we believe 
it is very important and we gave this part of the plan a lot of 
thought.
    It's important to, I think, understand kind of the process 
that the Comprehensive Everglades Restoration Plan lays out 
for, not only this initial suite of projects, but for all of 
the future projects. Not one shovel full of dirt will be turned 
on any project until we do detailed project implementation 
reports, which is equivalent to a feasibility level analysis 
that you're used to getting in your committee.
    Not one project will be undertaken until we complete a full 
environmental impact statement, which includes full public 
involvement; and, again, that's not just the ten initial 
projects. That's for every feature that will be undertaken 
under this plan.
    We are also going to ask for a programmatic authority. We 
know that there are a lot of relatively small scale projects 
that provide immediate and very important benefits to the 
ecosystem and we'd like to move on with those very quickly.
    This is very similar to the existing critical project 
authority that we have that were received in the 1996 Water 
Resources Bill.
    Then you can see from this, the remaining components of the 
plan would be authorized in future WRDAs in the year 2002 and 
beyond. This is about 6.2 billion of the $7.8 billion worth of 
projects to be in some future WRDAs, and these would come 
through what is really the normal process that you deal with 
water resources projects in your committee. We would submit to 
you the reports of the feasibilities with the EIS and the other 
documentation that you are used to getting in all these future 
water components.
    Some have suggested that this plan doesn't work fast enough 
and how long will it take or how long does it have to take to 
restore the Everglades. Implementation of this plan completely 
will take about 36 years, but we know, based on modeling and 
technical evaluations, that after about 10 years, we will start 
to receive and see substantial changes in the ecosystem; and 
the vast majority of the benefits will actually be obtained 
about 20 years into the plan.
    It is important to remember that this ecosystem and other 
wetland ecosystems will not automatically immediately respond 
to hydrological changes. It will take some time. It took quite 
a while to impact the ecosystem. It will take some time to 
restore it as well.
    As Dr. Westphal mentioned, the plan itself was developed in 
a very scientific technical manner with substantial peer 
review, and we are going to continue that. We know that we 
don't have all the answers. We know the plan is not perfect and 
we are going to have to make some midcourse corrections. That's 
why we are proposing an extensive monitoring plan and we also 
have created the Science Advisory Panel. We have a group of 
independent scientists who will give us their opinion on some 
of the problems and some of the issues that we will inevitably 
face in this 25-year journey of restoring the Everglades.
    There is not much I can say here, Mr. Chairman. You, Dr. 
Westphal, Carol Browner, and others have made it very clear, I 
think, that restoring the Everglades is a national priority and 
it is very important to us. I think it is important to put it 
in the context of other investments. Certainly 7.8 billion 
sounds like a lot. It is a lot of money, but we do spend a lot 
of money around the country on other public works investments 
as well.
    The Woodrow Wilson Bridge, just in all of our backyards, is 
$1.8 billion. The Boston Artery and Tunnel in Boston is about 
10.8. So there's other public investments in this country that 
cost similar amounts.
    Finally, there is what I would call the report card, and we 
have a copy over here to the right on this poster as well. If, 
in our judgment, and this is not just a guess, this is based on 
our best modeling and scientific efforts, in our judgment, if 
we do nothing, we are going to have the condition on the left, 
and red is not good. Red is a failure, and we're going to lose 
the Everglades.
    We also believe, based on modeling and scientific 
expertise, that, if we implement the plan over the next 20 or 
25 years, we're going to have the report card on the right. 
We're going to have a lot of green. We'll have a healthy, 
viable and sustainable Everglades.
    Thank you, Mr. Chairman.
    Senator Smith. Thank you very much, Mr. Davis. I would say, 
since the Army Corps is the presenter of the plan, I was more 
generous with the time, but I think we're going to have to try 
to hold to the 5 minutes.
    We have an administrative decision here. It might flow a 
little more smoothly if anybody has a question of these two 
witnesses right at this juncture, we should ask it, and then we 
can move to Ms. Doyle. I think it will just flow a little 
better.
    I want to make one comment to you, Dr. Westphal. You know 
that, in order for us to move forward, which you have outlined 
asking us to do in there, that we are going to need the fiscal 
2001 budget from the President, and we are going to need the 
legislative language.
    I know when the budget normally comes, which is mid-
February, but if we wait--if the language, let's say the 
language doesn't come for another month into March, it's really 
moving out now into an area where it's going to make it very 
difficult to move this thing along at a pace that I would like 
to do it.
    So I would urge you to do your best to get us that 
legislative language much earlier than March, No. 1; No. 2, if 
we can get a heads-up on the budget, at least that portion of 
the budget that deals with this, that would be very helpful. So 
let me make that request of you, realizing that, hopefully, you 
can make it happen, but realizing it may not be possible, but 
it's going to slow it down dramatically if we don't get that 
information before this. Maybe the good Senator from Florida 
here could work on that a little, too, within the 
administration.
    Mr. Westphal. Well, I think we can definitely do everything 
we can to meet both of those expectations, especially on the 
WRDA piece.
    I had a discussion with you earlier. I also had a 
discussion with the chairman of the Transportation and 
Construction Committee in the House, Chairman Shuster, about 
trying to get this bill to you as soon as possible so that you 
could work on it early in the session and get it done for a 
variety of reasons. I think he is in agreement with that, and 
we are working very hard to put that together.
    We will try to work with your staff to keep you apprised of 
how our progress is going.
    Senator Smith. You know how the process works, February and 
March, you know, is a good time to be able to work on this kind 
of legislation.
    Mr. Westphal. Right.
    Senator Smith. You start getting into the end of the spring 
and the summer, then you have got the appropriations bills 
beginning to hatch and floor time becomes a problem and so 
forth.
    Mr. Westphal. Mr. Chairman, it's not so much our inability 
to produce the language of a bill to turn over to you. A lot of 
it is getting OMB to approve that language, and OMB is 
simultaneously working on getting you a budget for fiscal year 
2001. So they are always juggling all these balls and getting 
both authorizing and a budget put together; and that's where we 
get into the road blocks; but I will work with OMB to expedite 
it and to get as much of it to you as early as we can. If we 
can give you any advanced language that we can work on 
mutually, I think we can do that.
    Senator Smith. A finer point for me, you identified that 
$1.1 billion or so of projects. You also identified them as the 
highest--maybe you didn't use that exact term, but the 
implication was that these were the highest priority items yet 
and were going to have the most immediate impact.
    I think it's important that you maintain that priority base 
so we don't get into a future year where suddenly something 
that we missed becomes an emergency that causes us to have to 
adjust the schedule upward and causes somebody to lose the 
desire to support the project.
    I mean, you've told us in that presentation $1.1 billion. 
You listed certain areas of the plan that were the highest 
priority, and I think, if that's the case, then we need to stay 
focused on that and make sure that we know ahead of time if 
that starts to slip or something else takes on a higher 
priority that might be more immediate in nature. Just a little 
caution on that.
    Senator Graham?
    Senator Voinovich. I have a couple questions about the 
scheduling. One of those is, I understand that some of these 
projects are going to have to be permitted by the State. Have 
the proposed initial flight of projects been reviewed by the 
State and, if so, what is the status in terms of their being 
permanent?
    Mr. Westphal. I don't know the answer to that question.
    Senator Voinovich. I wonder, could I ask----
    Senator Smith. Sure. You'll still have the opportunity to 
give your statement, Dave. Go ahead.
    Mr. Struhs. OK. As I understand it, our permanent shop has 
actually agreed to work with the designer, so that, as they're 
designing structures and facilities to be built in the future, 
assuming that this is authorized and ultimately appropriated, 
that we are confident that those structures and infrastructure 
investments will effect the water quality standards.
    The other, I think I would point out, is that last 
legislative session, the Florida Legislature inserted 
themselves so that would have the ability to early on in the 
process demonstrate the political support for the State of 
Florida that they are, in fact, on a component-by-component 
basis to support these projects, so that, by the time they get 
to you, you have more confidence that the entire State of 
Florida, including the legislature, is on board.
    Senator Smith. Senator Voinovich?
    Senator Voinovich. As I mentioned, the comprehensive plan 
does not have the detail associated with it with other 
feasibility studies.
    The issue is, if at all possible, to authorize and fund the 
pilot projects to see how they work before proceeding to an 
open-end authorization, if you can get it down to the stuff 
that you're really sure about and proceed in that fashion.
    Mr. Westphal. I think we are very confident about this 
proposal we are turning over. I think it has a considerable 
amount of study behind it, a considerable amount of science 
behind it. I think it's important at this time because it links 
so many of these projects together into a comprehensive plan, 
as opposed to a disparate set of different projects.
    It's not a blank check, as we have said before, in our 
presentation. We are going to have to do all the NEPA 
compliance work, public comments, and all kinds of future and 
legal requirements are going to have to be met as we proceed 
along. Of course, it does incorporate as well, this adaptive 
assessment and management aspect to it. So as we go along, we 
will assess; we will change course if we need to based on our 
monitoring work we're doing.
    So I think we're presenting you a plan that we are very 
comfortable with and we think stands the test of the science 
and the hard work that went into it, but I think we also 
understand that there may be some changes that come down in the 
future as we assess and monitor what we are doing.
    Senator Voinovich. I think another thing that's a concern 
to me is that the Corps recommends Federal participation in 50 
percent of the costs in operating and maintenance of the 
project, and this is a significant break with the long-standing 
Federal policy dating back to the Flood Control Act of 1936 and 
also deviates from the conditions that apply to this project 
found in the Water Resources Development Act in 1996.
    The point is that there are others--say, the Great Lakes, 
Chesapeake Bay, Puget Sound. Is the Corps going off into a new 
proposal in terms of paying for the operation and maintenance 
costs of these things? This is unusual. Why is the 
administration proposing that in this plan?
    Mr. Westphal. Well, it's a proposal. Actually, in my letter 
of transmittal to the committee, to the Congress, to the Senate 
and to the House, I indicated that we would looking at this, 
along with our other Federal partners and State partners, we 
would be looking at this and making a proposal to you on this 
matter. So it isn't a final decision, but we are looking at it 
very seriously.
    We think that this is a very unique project in many ways. 
The Federal Government is a beneficiary of much of what we are 
going to do here today because of the Everglades National Park, 
Biscayne Bay, Big Cypress and others.
    In addition, as you all pointed out, the Federal Government 
had a major hand and was a major factor in causing some of 
these problems. So for those reasons, we are taking this under 
serious consideration, and we want to be also fair to the State 
of Florida, who, I think, is an equal partner in this and is 
willing to share in significant amount of cost of restoring the 
Everglades.
    Senator Voinovich. It gets back again to the money and, if 
Congress authorizes Federal participation in the ONM, up to 80 
million will be required from the general account of the Corps, 
and a lot of us are concerned about the impact that the 
proposal will have in the overall program of the Corps of 
Engineers.
    When the administration commented on the Water Resources 
Development Act of 1999, it was noted that the Corps also had a 
$27 billion backlog on fund and design and construction.
    So one of the things that we have to--the Corps of 
Engineers has to have the wherewithal in order to operate, and 
I think that is something that the administration has to give 
some serious consideration to. I know certainly Congress will.
    Mr. Westphal. Right. Senator, I think you're absolutely 
right, and I think we would all be foolish to hide our heads in 
the sand and pretend that that this is not an issue, that the 
money is there, and this is enough of a high priority for 
everybody that we're going to get it done real easily. No, I 
agree with you. This backlog issue is something that I have 
already begun discussions with the House and the Senate 
committees on, both the appropriators and the authorizers.
    Much of this backlog that we talk about are projects that 
we may need to take a serious look at. They're old. They're 
sitting as authorized projects dating sometimes back to the 
1940's. So we need to look at seriously how much of this $27 
billion backlog we are going to build in the future. As you 
know, we have no year funding so there is a stream of funding 
that continues.
    A lot of our problem is, not so much what we are willing to 
do or what our capability is to do, as much as it is how we are 
limited by appropriations every year, by what you're able to 
appropriate, your allocations in the Appropriations Committee, 
and what we can do based on those appropriations as we space 
out these projects.
    So it is something we need to address, and we are going to 
be able to address that if we do that together, if we do that, 
the Congress and the administration working together trying to 
figure out a way out of that dilemma.
    We don't believe that this is going to exacerbate that 
problem, but we will work with you, and we will work with the 
appropriators to try to do that, and I think that's a high 
priority for me and it's a high priority for the administration 
to try to resolve.
    I do acknowledge what you're saying and I think it's 
something to consider, but I also think that, if we don't work 
together to resolve it, it's going to persist.
    Senator Voinovich. Mr. Chairman, I think it would probably 
be helpful if we really did spend the time to go through that 
backlog to see if the projects were real or not real, skinny it 
down to the real projects.
    Mr. Westphal. I think it's something that would really be 
helpful to both the committee--it is also helpful as you have 
to decide on future WRDA bills. You know, we passed a WRDA bill 
that amounts to almost $6 billion last year. You're going to 
pass another one this year. We don't know what that amount is 
going to be; but as you make decisions nationwide, I think it's 
imperative that you also have a sense of what you're leaving 
behind and what's being delayed and what has priority.
    Senator Smith. Thank you very much. Let me remind each 
witness, as well as my colleagues up here, you have been fine. 
We have got to speak directly into these microphones or the 
people in the back can't hear. So put it a little closer than 
you would normally do.
    Ms. Doyle?

  STATEMENT OF MARY DOYLE, COUNSELOR TO THE SECRETARY, CHAIR, 
SOUTH FLORIDA ECOSYSTEM RESTORATION TASK FORCE, U.S. DEPARTMENT 
                        OF THE INTERIOR

    Ms. Doyle. Thank you, Mr. Chairman. My name is Mary Doyle. 
I'm counselor to Secretary Bruce Babbitt, whose has honored me 
today by appointing me to chair the South Florida Ecosystem 
Restoration Task Force. Today is my first day on the job.
    Senator Smith. Good timing, very good timing.
    Ms. Doyle. Today is my first hearing, Mr. Chairman, just 
like you, and I'm very happy to start out in this way. Thank 
you.
    Senator Smith. Well, congratulations.
    Ms. Doyle. Thank you.
    Senator Smith. And good luck.
    Ms. Doyle. Thank you.
    I'm a Floridian, as you mentioned. I have lived in Miami 
about 15 years now where I have served as dean of the 
University of Miami School of Law; and when these 
responsibilities are finished, I intend to go back to Miami. So 
I have a very personal stake in this like the one expressed by 
Administrator Browner.
    With me today are three colleagues who have wide and deep 
knowledge and experience on these issues. I wanted to 
acknowledge their presence and they're available to answer any 
questions you might have.
    Donald Berry, who is our Assistant Secretary of Interior 
for Fish, Wildlife and Parks; Richard Ring, your guide to the 
Everglades, great superintendent of Everglades National Park; 
and Colonel Rock Salt, who is the executive director of the 
task force I chair.
    Senator Smith. That's great.
    Ms. Doyle. Everybody wants to meet him when they find out 
what his name is.
    This committee has asked us to address three issues at this 
hearing, and I can go through them very quickly. First was the 
future role of the task force in the overall restoration 
effort.
    The second was the role of the newly created Science 
Advisory Panel, which advises the task force and which was 
referred to by my colleague, Michael Davis; and then issues 
raised in the comprehensive plan for which the National Park 
Service and the Fish and Wildlife Service have responsibility.
    Let me briefly tell you that the task force is made up of 
representatives of seven Federal agencies, the Miccosukee and 
Seminole Tribes, the State of Florida, the South Florida Water 
Management District, and two units of local government. It was 
established by Congress in 1996. Its responsibility is one of 
coordination of the efforts of all these various agencies, and 
the development of consistent plans for overall restoration of 
the ecosystem.
    One of our functions, Senator Voinovich, is to address the 
issue you raised beyond the Corps' plan, what are our plans for 
overall restoration, including the elimination of exotics, 
habitat restoration for endangered species, and so on.
    This coming year we are developing a strategic plan which 
will integrate existing plans and activities throughout the 
region and serve as the framework for future adaptive 
management for the next 50 years. We will provide that to you 
as it is developed.
    The task force also oversees the work of the Science 
Advisory Panel, which has just been created. The Secretary of 
the Interior and the task force requested the National Academy 
of Sciences to put together a team of peer review experts. As 
Michael Davis said, none of these 16 scientists on this panel 
are currently working in South Florida, except on this project.
    They will provide peer review to the Department and the 
Corps of Engineers as we move forward on issues of monitoring, 
determining whether intended benefits are actually being 
realized from pilot projects, and that sort of thing.
    The Science Advisory Panel is currently developing its 
first work plan, which it will present to the task force for 
its consideration at its next meeting.
    Finally, the third topic I was asked to address, issues 
affecting fish, wildlife and parks in the South Florida 
ecosystem. I wanted to note for you that the Fish and Wildlife 
Service last May issued the South Florida Multi-Species 
Recovery Plan, unprecedented in its scope and scale, which is 
the comprehensive blueprint for guiding the actions of all 
relevant parties, public and private, toward recovery of the 68 
species that are currently listed as threatened or endangered, 
species of plants and animals in South Florida.
    This Multi-species Recovery Plan is going to be a very 
valuable asset to the Corps and the rest of us as we implement 
restoration features in the coming years.
    An issue of vital concern to the department and its 
constituents, agencies, as it is to all the stakeholders is the 
one Senator Graham identified early in the hearing, and that is 
the so-called assurances issue.
    Chairman Regula and you, Senator Graham, have both been 
clear that we need up front in the authorizing process a 
formula to ensure that water is provided for the natural 
system, whether we are talking about the natural system held 
under State management or Federal management, in proper 
quantity, quality, timing and distribution, even in times of 
stress upon the system.
    We are developing proposed language now. We are going to be 
discussing this with our partners at this meeting. We are aware 
of Chairman Smith's admonition as to submitting language to 
this committee, and so the time of facing the assurances issue 
is now and we are grappling with it.
    Mr. Chairman, I will conclude with a statement on behalf of 
the Department of Interior and the task force of strong support 
for the Corps of Engineers' comprehensive plan, of admiration 
for the work of our partners in the Corps, in the State, and in 
the South Florida Water Management District. I want to assure 
you that this is a partnership that works and on which you can 
depend in the authorization and funding of the proposal.
    Thank you very much.
    Senator Smith. Thank you very much. Ms. Doyle, you deserve 
a raise. You hit it within less than 5 minutes.
    I have one particular question and then, if either of my 
colleagues have one, we can ask and then move to the next 
panelist. David will be next.
    You heard me ask Secretary Browner about the mercury 
contamination. Could you, perhaps, comment on that, as well as 
the phosphorus problem as far as the impact on wildlife and 
fish?
    Ms. Doyle. Yes. Maybe I will call on one of my wildlife 
colleagues.
    Senator Smith. When you come up to the microphone, identify 
yourself. That's all.
    Mr. Ring. Mr. Chairman, I'm Superintendent Dick Ring from 
Everglades National Park. The issue on mercury and phosphorus 
are that they both have significant impacts on the wildlife in 
the natural system.
    The first is that phosphorus is a nutrient that is pouring 
into a nutrient-poor system. It's changing the habitat, 
eliminating periphyton, the algal communities that are the base 
of the Everglades food chain, and creating dense cattail stands 
that are changing the habitat for many of the wildlife and 
displacing them.
    The mercury is a lot more insidious. It is being taken up 
into the tissue of the plants and animals that we have, and 
truly we have had advisories out on not eating many of the fish 
in the Everglades that have mercury levels that have 
accumulated in their tissue and we have had examples where the 
higher the food chain, for instance, panthers, Florida panther, 
and other animals that prey on the lower orders have died 
because of mercury poisoning.
    So it is a very significant and widespread issue that needs 
to be grappled with in the Florida ecosystem.
    Senator Smith. I felt there was somewhat, perhaps, limited, 
maybe it's unfair to characterize, optimism, but it seemed to 
me that Administrator Browner was fairly optimistic of 
containing the phosphorus flow.
    Do you share that optimism?
    Mr. Ring. I think, with the phosphorus, since 1998 when we 
began to grapple with it----
    Senator Smith. Under the plan, I mean.
    Mr. Ring.--I think we have come up with an enormously 
effective plan working with the State. I think that plan is 
well into execution and the performance of that plan in 
removing phosphorus from the water that's coming into the 
Everglades is outperforming the design expectations, and we've 
got a lot of work to do. We've got about 6 years to go to 
finish it off, but I'm very optimistic that we are going to 
pull that off and largely, due to the efforts of the state, our 
State partners, who are really stepping out to try to tackle 
this and pull it through to completion.
    Senator Smith. Thank you.
    Senator Graham?
    Senator Graham. I'm looking at the projects that are on the 
initial authorization list. The question I have: These 
represent approximately $1.1 billion of a total project of 7.8, 
so more or less 12 to 15 percent of the total project is 
represented by those that are in the initial list. What would 
be the consequences if we, in fact, authorized, funded and 
built the projects that are on your initial list and then 
stopped? What kind of system would we have? Would it be better, 
worse, or the same as the system today?
     Mr. Westphal. Well, we believe that any work, of course, 
will advance and will help somewhat. We have projects that are 
part of an entire ecosystem restoration, which are not 
necessarily and always interconnected; but if you don't follow 
through--I mean, the whole basis of what we have put together 
is a comprehensive plan that's interdependent on all these 
things coming together and coming together in a timely fashion.
    So we believe that, if you don't continue to fund this, if 
we don't continue to support it within the executive branch, 
that we will get that report card that has the red on it. We 
may see a few green spots here and there, but we are not going 
to get to the solution of this ongoing problem.
    We believe this is a very strong national priority. Very 
significant funding is going into it, very significant amount 
of work on the part of the Federal agencies and the State, very 
significant work on the part of the Congress. We believe it's 
very high priority, not for Florida, but for our nation.
    Senator Graham. The Federal Government, not necessarily 
limited to the environmental area, is replete with examples of 
where the Congress puts its smallest toe in the water and then 
withdraws the rest of its anatomy.
    My concern about this approach is not that it doesn't make 
common sense and is probably not the appropriate way to proceed 
but there has got to be a strong both political and 
psychological commitment that this is a commitment, not just to 
these projects, but as a commitment to the totality of the 
plan.
    I believe that the strongest way to make that commitment 
would be, as Administrator Browner said, to have a funding 
scheme that doesn't involve the kinds of concerns that Senator 
Voinovich has raised, which is to put this program into direct 
competition with every other appropriation for a WRDA project 
of the Corps of Engineers, but rather has a sustainable, 
adequate, at least 20-year duration of financial plan to 
accompany this, even this initial step toward this total 
project.
    Mr. Westphal. That's right, Senator. I agree with you and 
I've talked very little bit about this subject with the 
chairman and I have talked with the chairman of the House 
Senate Committee and I have talked to you about it, and I agree 
that I think we need to try to locate and find a way to do 
that.
    There are projects like Everglades, perhaps to a lesser 
scale and perhaps in the future to a larger scale in other 
parts of the country. We face equal and monumental losses of 
land in Louisiana. We face issues in other parts of the country 
that are of similar magnitude. We are going to have to address 
those in the future, and we are going to face the same problem 
there.
    I think we can reach out and we can find some ways. I think 
you have got some ideas on that. I think the chairman has got 
some ideas on it. We are willing and very ready to work with 
you on doing that.
    Ms. Doyle. Senator Graham, the superintendent, changing the 
image from anatomy to construction, says it would be like 
building the foundation of the house, putting two of the walls 
up and then walking away.
    Senator Graham. That probably is a neater analogy than 
mine.
    Senator Smith. Senator Voinovich, a question of Ms. Doyle?
    Senator Voinovich. Yes. First of all, I think that it's 
comforting to know that you have the task force and the fact 
that you have got the agencies together and you're working 
together. I'm sure that helps with the preparation of the 
restudy.
    Ms. Doyle. I wanted to offer the services of the task force 
to your committee also as we proceed here.
    Senator Voinovich. I would be interested in any information 
that you have in terms of the scientific part of this in terms 
of the specific projects that are on the list that the Senators 
made reference to and what the scientists think about it in 
terms of the technology, is it sensible, has it been tested, so 
forth.
    Ms. Doyle. We are just getting rolling now so we'll keep 
you very well informed as to what projects they pick.
    Senator Voinovich. Let's get that input on these projects 
and the reports from these groups who are monitoring--I would 
like to see that plan work too.
    Senator Smith. All set?
    Secretary Struhs?

     STATEMENT OF HON. DAVID B. STRUHS, SECRETARY, FLORIDA 
             DEPARTMENT OF ENVIRONMENTAL PROTECTION

    Mr. Struhs. Thank you, Mr. Chairman, Senator Graham, 
Senator Voinovich.
    If Governor Bush had been able to join us this afternoon, 
he would have asked or he would have himself delivered, rather 
than asking me to deliver, the message that Florida is willing, 
ready and waiting to forge a new and complete partnership with 
the Federal Government that weighs out rights and 
responsibilities as true 50/50 partners.
    It was 6 months ago when I was in Washington and joining 
Vice President Gore, Administrator Browner, and Senator Graham 
and others that Florida committed to continuing the leadership, 
continued providing the resources to complete the mission on 
which, in fact, we have already embarked, a mission that aims 
at restoring the historic balance between land and water, a 
critical mission for Florida, certainly, but also a critical 
mission for the Federal Government, the Federal Government's 
interests, whether it be the Loxahatchee Refuge, 10,000 
Islands, Big Cypress, endangered species, like the manatee, the 
Cable Sable sparrow, the panther, but perhaps the best known 
example of the Federal interest is America's Everglades 
National Park.
    That treasure has already been, this afternoon, compared to 
other treasures in this country, Grand Canyon, Great Lakes, 
Yellowstone. In fact, America's Everglades National Park 
actually represents Florida's very first commitment to the 
Everglades. Florida actually gifted that park to the nation. I 
think it's fair to say that it's one of those kinds of gifts 
that keeps on giving.
    Since that gift was made in 1947, since the State of 
Florida made that gift in 1947, we have gone on to spend $3.3 
billion on land, restoration and protection activities, and we 
have acquired almost 3.4 million acres of conservation lands in 
the Everglades ecosystem.
    Having said that, we also recognize that our Federal 
partners will view, indeed must view, the Everglades as but one 
project, competing with many others around the country. To that 
end, you are seeking some solid evidence from us that our 
historic resolve and commitment will continue.
    Frankly, and I say this with all due respect, as a State 
government, we have the same concerns about the Federal 
Government. For, while we know that the Everglades are, in 
fact, our highest environmental priority in the State of 
Florida, we understand that the Federal Government, at least 
for the time being, is unable to make that same kind of 
determination; but what I would like to do is share with you a 
few examples of how we are going to continue that leadership 
and that commitment.
    The State has acquired or contracted to acquire 80,000 
acres of additional conservation land. The State has allocated 
over $133 million for the acquisition of new lands in the 
future. The South Florida Management District has already 
finished construction and is now operating Stormwater Treatment 
Areas, filtering water, cleansing it before it's released into 
the Everglades system. Over 17,000 acres of these filter 
marshes are up and operating now.
    Just a couple of weeks ago, the State announced a major new 
initiative, landmark legislation, in fact, to begin the 
restoration of Lake Okeechobee, which, in fact, is arguably the 
head waters of the Everglades.
    Despite that commitment, we observe and recognize that 
there is still much to do, and that is why in this new year, 
and indeed this new century and millennium, Florida has already 
committed to a plan to spend another $155 million this year on 
Everglades protection projects.
    Despite this historical commitment, despite the current 
commitment, despite this future commitment, we also recognize 
that there are distinct advantages that can be gained from 
pursuing a more unified and coordinated plan, and that there 
are real advantages in sharing a binding obligation to provide 
the money needed to see the project through to completion.
    Recognizing this reality, Governor Bush yesterday offered a 
seven-point test, at least for the State of Florida, as we work 
over these next couple of months to determine precisely how 
Florida is going to meet that commitment.
    Those seven principles which will underlie our commitment 
is, No. 1, and most important that the State will commit to 
fully fund its half of the project costs. More than that, we 
will make sure that we recognize reality and plan ahead for the 
peak funding years, recognizing that there are some years that 
the peaks are going to be higher than some years and we need to 
plan ahead for that.
    We will also seek to and intend to get full credit for all 
the environmental restoration resources that the State has and 
will plan to spend on the Everglades in the future, but at the 
same time make a commitment that we are not going to siphon 
resources from other environmental restoration programs around 
the State to accomplish it.
    We're going to share the responsibilities evenly between 
statewide resources and South Florida resources. We are not 
going to add significantly to Florida's long-term debt burden.
    In closing, we are going to seek a new and really complete 
partnership with the Federal Government. Yes, the costs for 
implementing this plan are substantial, but they are certainly 
within the collective reach of State and Federal Governments 
working together.
    The State Legislature and the South Florida Water 
Management District, the executive branch of State government, 
we're all going to work together to make sure that we will 
completely, predictably and adequately fund the State's share 
of the costs.
    Governor Bush, in a message to this Everglades Coalition 
yesterday via videotape, said, ``There should be no question 
about Florida's commitment to finish what we have started.''
    Thank you very much for coming to Florida and allowing us 
the opportunity to testify.
    Senator Smith. Mr. Secretary, thank you very much. Thank 
you for finishing on time, too.
    Is there some proposal in place now to move this forward in 
the legislature, the funding? If, for example, if the Federal 
Government acted with its share, the 1.1 for this, if that 
should happen in the next fiscal year, your legislation meets 
until when here, October?
    Mr. Struhs. No. We have a 2-month session in March and 
April.
    Senator Smith. March and April. What would be the chance of 
some action being taken by the legislature?
    Mr. Struhs. If I had to rank it on the schedule, a scale, I 
should say, of one to ten, I would give it a nine and-a-half.
    High, yes. Thank you.
    Senator Smith. Senator Graham, any questions?
    Senator Graham. We generally prefer those answers to be 
down to the third decimal point, but we will take that as a 
rough approximation of your level of optimism.
     Mr. Westphal. Senator Graham, if I could clarify a point. 
What we're seeking is an authorization that would entail 
approximately that amount of money in appropriations, and, of 
course, we are going to have to seek that appropriation through 
Congress down the road, and that appropriation, that 1.1 
billion, or 1.2 billion, will extend over an eleven-year 
period. So it's not 1.2 billion for 2001.
    Senator Graham. In other words, the appropriation is not 
going to be----
    Mr. Westphal. Right. So the State, obviously, also might 
have to come up with that kind of money.
    Senator Smith. Good thing you clarified that.
    Senator Graham. Dave, I would like to ask the same question 
that I asked of Carol Browner about assurances language because 
that's going to be an important part of this initial 
authorization. I wonder if you could comment as to what you 
think from the State's perspective should be the principles 
relative to assurance to the various stakeholders of their 
legitimate expectations relative to water quantity, quality, 
hydroperiod, point of distribution.
    Mr. Struhs. Thank you, Senator Graham. There are important 
questions and assurances, and I think it's appropriate that we 
address them and work them out up front before we move forward 
with authorization.
    Assurances, I think, fall into four basic categories, the 
quantity of the water, the quality of the water, and then the 
timing and distribution of the water.
    I think the one that has, perhaps, become the most 
important, at least at the moment, is the assurance of the 
quantity of the water, if I could address that one 
specifically.
     Florida State law, Florida water law, I should say, has a 
reputation and, in fact, I think it's true as probably one of 
the most progressive State water laws in the country, and early 
on it recognized that the first and highest best use of water 
is to maintain the health of an ecosystem, and we do that under 
State law through something called minimum flows and levels.
    So we would prefer, obviously, as a state to use that 
really extra level of protection of using State MFLs, minimum 
flowing levels, to assure the delivery of water.
    The other thing I would hasten to point out is that one of 
the reasons we were not successful in resolving this last year 
is because we want to make sure that the assurance is not just 
to one particular piece of real estate within the Everglades 
ecosystem, but, in fact, we're establishing that minimum 
flowing level for the entire ecosystem, and I think that is 
critically important.
    There are obviously some portions that are under Federal 
control and some under the State. Mother nature doesn't 
recognize those artificial divisions and we want to make sure 
that minimum flowing level is treating the whole ecosystem 
fairly.
    One other point I would add. The State of Florida has also 
designated the Florida Everglades as an outstanding Florida 
water. That is a special designation reserved for only the 
outstanding Florida waters, but the reason that has relevance 
is because, with that designation, we are required under law to 
make sure that, not only is it a minimum flowing level to 
preserve the ecosystem, but that it is, in fact, adequate to 
make sure that the water quality is also meeting the standards 
so that there is an extra level of protection.
    Senator Smith. Senator Voinovich?
    Senator Voinovich. Want to go one at a time?
    Senator Smith. I'm sorry.
    Mr. Westphal. Senator, just so you sleep a little better 
tonight, we are currently working with the Interior Department 
and we'll work with David, Secretary Struhs, and the State on 
language on assurances that we will submit to you, Mr. 
Chairman, and the committee in our WRDA proposals. We will have 
that, and we will make sure that we also work with your staff 
to make sure that we have got the appropriate wording and that 
we do what we need to do on the assurances. So we are working 
on that.
    Senator Voinovich. I think I had raised this question with 
you informally last night or today, but the comprehensive plan 
is really responding to adverse impacts on the Everglades from 
the environment, from development in the State, agricultural 
development, economics; and it seems to me that some of the 
adverse effects which you're projecting in the future are going 
to have to do with the development growth in the State.
    I think that there was some comment that in 20 years if 
somebody looked at it, I think maybe Carol Browner looked at it 
and said 20 years from now, the quality would be less than it 
is today, because of growth and so forth.
    So I wonder, is the State undertaking some thought in terms 
of a more sensible growth of the State; and, second of all, and 
maybe this is pretty provincial from my point of view, but I've 
said this to Senator Graham on occasion, I'm a former Governor 
and we competed with Florida in economic development. Every 
year we had the site selection magazine and new facilities and 
planned expansions and new investments and so forth.
    Senator Graham. We tried to get Ohio State to play one of 
our football teams.
    Senator Voinovich. On that field, forget it. I'd rather 
stay in the economic development anyhow.
    I think one of the concerns is: Are you asking the Federal 
Government to help pay for the growth costs that you're going 
to incur in the future in terms of waste treatment, in terms of 
water supply, and I think that's a consideration.
    We're willing to pitch in and help the Everglades, but I 
think a lot of people are going to be reluctant to get involved 
in building waste treatment facilities and providing water that 
should be the responsibility of the citizens of Florida, and I 
think I mentioned informally to you that you really never get 
into this whole issue of growth development until you have some 
tension, and tension occurs when people realize that, if 
they're going to have uncontrolled growth, that they're going 
to have to pay for it, either in terms of higher taxes, in 
terms of water rates, sewer rates, or whatever the case may be; 
and then all of a sudden they start to pay attention and say, 
``Hey, wait a second. We need to think about this.''
    If you can go free and unfettered and not have to pay the 
cost and things just keep going, then you really don't have 
that tension that I think is necessary; and as I mentioned in 
my statement, I think it applies to your State and it applies 
to my State. We've just got to do a better job on that.
    I'm interested in your comments on that, what the Governor 
thinks about that.
    Mr. Struhs. Thank you, Senator, and I think it is a 
legitimate and important concern that the Federal Government 
raises, and I think, if I might, take a little time to expand 
on it, the answer is no, I think, to the question of, Do we 
expect the Federal Government to come in and clean up Florida's 
pollution? The answer is no. That's something that we will be 
prepared to do on our own in the State as appropriate.
    There is another level to your question, which is do we 
expect the Federal Government to come in and build 
infrastructure to allow for expanding economic development? 
There again, the answer is no. That's something that is an 
appropriate role for a State government and we will take care 
of that ourselves.
    The fact is, if you look at all the project components of 
Everglades restoration in this comprehensive plan, together 
what they deliver is best exemplified by those two maps. If we 
don't do it, in approximately 50 years, we are going to see the 
area turn to red, which means that it is no longer Everglades.
    If we proceed with all those components, we get the 
preferred map on the right, which is green, which, in fact, 
means that remnant of the Everglades system remains intact.
    So that's the reason we think it is important and relevant 
to the Federal Government to be involved with all of those 
projects because they deliver that result.
    Having said that, clearly Everglades restoration is a 
remarkably good example of how investing in restoring and 
preserving an ecosystem will have secondary benefits, will have 
secondary desirable benefits for other things, like future 
water supply.
    I think it's very important to understand, though, that 
water supply is not a limiting factor for future growth in 
Florida. The growth is going to occur whether we want to or 
not. We are one of the fastest growing States in the nation, 
one of the highest growth rates. Eighty percent of that growth 
comes from migration, people from other States coming into 
Florida.
    That growth is going to continue; the development pressure 
is going to continue; and the water will come from somewhere, 
and we already have proposals in the Tampa area to build what 
would be the world's second largest desalinization plant. So we 
eventually as a State will find the water to meet that economic 
need, but isn't it far preferable instead to join in a 
partnership with the Federal and State governments working 
together where we can actually take a lower cost alternative 
and we'll have the benefit of providing those water supplies in 
the future, and at the same time, meet the principal objective, 
which is to restore the ecosystem?
    So, a lot of us have talked about examples where 
environmental and economic interests go hand in hand, and I 
think this is a premier example of that.
    Specifically as to what the State of Florida is doing, 
though, to get our own house in order in terms of growth 
management, let me mention three quick examples. A program that 
has been underway for some time in the Southeastern portion of 
Florida known as Eastward Ho, we talked about this earlier 
informally. The term we use in Florida is infill, but it is 
directly related to Brownfields, directing future growth into 
areas that are already served by infrastructure and have 
already been developed and in some cases are in desperate need 
of that additional economic investment.
    Another example, nowhere do you see the pressures of 
development more quickly and more obviously than you do on an 
island, and Florida has lots of islands, and best known amongst 
them are the Florida Keys. The Florida Keys have already and 
have in place a carrying capacity study, and I think the notion 
of thinking of it in terms of carrying capacities is an 
interesting way to address the problem. Captain Collins can 
expand on that later if you care.
    Finally, in closing, we do have a Department of Community 
Affairs that, in fact, is launching a statewide initiative this 
very week, aimed specifically at revisiting Florida's growth 
management laws and programs to see how they might be improved 
and how they might actually deliver better and more predictable 
results.
    So your question is a fair one, and I would ask you to 
believe it fully when I tell you that our goal is first and 
foremost to be a partner with the Federal Government in 
restoring the ecosystem. To the extent that there are secondary 
benefits, that's a good thing, not a bad thing.
    Senator Smith. Captain Collins?

   STATEMENT OF MIKE COLLINS, CHAIRMAN, SOUTH FLORIDA WATER 
                      MANAGEMENT DISTRICT

    Mr. Collins. Chairman Smith, members of the committee, I 
thank you for the opportunity to appear here today. I have got 
a written comment. You've heard a lot of it before. It mirrors 
a lot of what Secretary Struhs said. I'm not real good at 
reading written statements anyway, so I'm not going to use it.
    I am and have been for some 25 years now a fishing guide in 
the Florida Keys. The Guides Association sent me originally in 
1976 to ask some questions about changes they had seen in 
salinity in sea grasses in Florida Bay. They weren't real happy 
about the answers I came back with, nor was the park at that 
time.
    They elected me president in 1982 and in 1983 sent me to 
listen to Senator Graham deliver his Save Our Everglades 
address to this group.
    Senator I'd like to thank you now on behalf of myself and 
everybody else here in Florida for the continued leadership and 
support of this. You've got a lot of friends down in the guides 
in the Florida Keys.
    I spent a lot of time working for that organization as 
president, being a thorn in the side of most of the State and 
the Federal agencies involved, increasingly asking difficult 
questions and increasingly demanding management that was either 
not possible or not available.
    As an act of revenge, the State and the Federal Government 
have appointed me chairman of the Keys Critical Stake Concern 
Resource Planning and Management Committee, a member and 
chairman of the National Marine Sanctuary Citizen Advisory 
Council, which was a real war zone, a member of the Technical 
Advisory Committee and then the Committee for the Water Quality 
Protection Program for the Sanctuary, a member of the 
Governor's Commission for a Sustainable South Florida from its 
first to its last meeting; and an ultimate act of revenge, I 
now serve as chairman of the Water Management District I've 
spent most of the last 20 years attacking.
    The most depressing part of that probably is, having 
finally gotten here and in a position to demand the changes 
that I wanted all along, I find that just changes in management 
of this system really don't work.
    I would submit to you that we, to the best of our ability, 
involving some of the best technicians, some of the best 
biologists, and some of the best scientists on the face of the 
earth, cannot make this system produce what we want it to 
produce. We balance our competing constitutional and legal 
requirements on a razor's edge.
    I am sued by close, personal friends on a fairly regular 
basis for things that I basically cannot do very much about. 
Having said that, we are your partner and we want to be your 
equal partner.
    We seek very zealously to support this plan. It is not a 
perfect plan. I worked on it from start to finish. I was 
involved in the conceptual plan very intimately. I was involved 
through the Governor's Commission in writing a lot of this. I 
don't believe there ever will be a perfect plan. What I support 
more than anything else is the process that produced it.
    I believe very strongly through the sanctuary process and 
through a lot of the education I have had beaten into my head 
over the last dozen years by the public at putting the 
shareholders at the table, educating them with the best science 
available, and demanding that they walk in each other's shoes 
for a while produces the best products. I believe that's what 
we have got in this plan.
    Senator Voinovich, you've asked more than once about the 
lack of specificity in this plan. It's not a mistake. We did it 
on purpose. If we have learned one thing from the history of 
this Southern Florida project, it's that there were very clear 
indications before we had finished the project that we had made 
some mistakes.
    I don't believe that's cost effective. I don't believe 
that's the way we should proceed in the future, and our review 
of performance measures, our production of an annual report 
card on how well we are doing with all this will be part of our 
commitment to making sure that we spend our money wisely as we 
go forward.
    We don't know everything we need to know to know of how 
this is going to impact, and I don't believe we have the 
ability to commit future generations to a funding plan for 
something that they're not going to be able to be involved in.
    I was a very strong advocate in this administration, almost 
the only one at the start in continuing some sort of Governor's 
Commission to provide that forum.
    I think the forum of involving the public on some sort of a 
regular basis, be it the task force, be it the Everglades 
Coalition, be it the Governor's Commission, is critical to 
survival. I believe a rolling process of performance reviews 
that are diligently and religiously scrutinized by both 
Congress and the legislature is also important to our continued 
success in this process; but I also believe very strongly, as 
someone who made a living in an ecosystem that was a recipient 
of our Everglades policies, that economically there is a whole 
bunch of South Florida that's not going to survive if we don't 
do this.
    We have no choice in a lot of ways here in this State. We 
have discussed this for many years as if this were some sort of 
an option. There is a whole bunch of what is wrapped up in this 
plan that we are going to have to do one way or another, 
whether we adopt it as a plan, in a partnership where we go 
forward together, hand in hand, or whether the State of 
Florida, to protect its interests, and the Federal Government, 
to protect its interests, spend their money some other way, 
this is a question of necessity, and I really believe we are 
going to have to do it anyway. I would suggest that we do it 
together, and I thank you for your time.
    Senator Smith. Thank you.
    Do either of my colleagues have a question?
    Senator Graham. Excellent statement.
    Senator Smith. I assume the captain is because you're a 
captain of a vessel; is that it?
    Mr. Collins. A fishing guide. A little boat, paddle it 
around Florida Bay, try to catch fish. We used to anyway. You 
should come down some time.
    Senator Smith. Well, thank you very much.
    Does anybody else have any final questions at this point?
    Senator Voinovich. I would like to congratulate Mike and 
all the people that have had a role in making this possible.
    I know, when I was the mayor of the City of Cleveland, 
people would comment about the change of the city, and I talk 
about the architecture, but I said, ``The really exciting thing 
is the civic architecture, how people came together, realized 
they had a symbiotic relationship with each other and put 
something together.'' I think all of you in this room have had 
something to do with it. You should be very proud of 
yourselves.
    Senator Smith. Excellent testimony. I thank all of you very 
much.
    Before you get up, I think sometimes we forget--we sit here 
for two and-a-half hours asking questions and listening to 
testimony--we have a stenographer here who has been taking all 
this down for two and-a-half hours without a break. So we are 
going to extend this break for a little bit to allow our 
stenographer to take a break.
    [Recess.]
    Senator Smith. Ladies and gentlemen, I'm going to have to 
call for order quickly because we have a tight time schedule. 
So either please be seated or depart, one or the other, but 
whatever, don't talk anymore.
    I ask those who are standing talking to, please, either be 
seated or step outside, please.
    The next panel consists of two representatives from Indian 
tribes with an interest in Everglades restoration. First is Mr. 
Jim Shore, a member of the Seminole Tribe of Florida and its 
general counsel.
    We also have a representative of a Miccosukee Tribe 
represented by its lawyer, Mr. Dexter Lehtinen. Mr. Lehtinen is 
appearing in lieu of the person listed on the witness list, 
which was Chairman Billy Cypress.
    So I'm delighted to see both of you gentlemen here; and, 
Mr. Shore, we will begin with you.

  STATEMENT OF JIM SHORE, ESQUIRE, GENERAL COUNSEL, SEMINOLE 
                        TRIBE OF FLORIDA

    Mr. Shore. Thank you, Chairman Smith, and Senators Graham 
and Voinovich. My name is Jim Shore. I'm representing Chairman 
James Billie and the Seminole Tribe of Florida today at this 
hearing, and I will set the record on brief statements here as 
we go along, but as----
    Senator Smith. Pull that microphone right up close, will 
you, Mr. Shore, please. Thanks.
    Mr. Shore. The Seminole Tribe of Florida occupies at least 
80,000-plus acres in South Florida, and we are in six different 
counties, and the Big Cypress reservation is our largest, 
around 48,000 plus and I guess that's in the environmental 
sensitive area, and we have at least 900 tribal members that 
live there, and just like any other group of people, the State, 
its agencies, the Federal, its agencies, we are as concerned 
about the pollution of that area and we have always said that 
we didn't cause the pollution, but we are here in support of 
this comprehensive plan, and this plan may not be perfect or 
may not solve the problem, but we think we should at least 
start somewhere; otherwise, there will be nothing left to 
preserve.
    So we are here in support of the plan and, along with that, 
we want to be an active player in any plan that is developed to 
preserve the South Florida area.
    In the past, various plans were implemented without our 
involvement or without our notice.
    The only time we would know about a plan of some sort is 
when we would be noticed of what we would have to do, but I 
think we are doing a better job of it now with the State and 
the Federal agencies, and maybe at this time I would like to 
thank the Secretary of Interior for providing the Seminole 
Tribe of Florida a seat on the South Florida Restoration Task 
Force and also Governor Bush keeping up what the late Governor 
Chiles started when he appointed the Seminole Tribe to be a 
member on their commissions, and I think the communication is 
better, especially with the U.S. Army Corps of Engineer.
    We have been having various regular meetings with the staff 
out of Jacksonville, and I think we have kind of worked out a 
plan or cooperated with each other to the point where we think 
the tribe's critical project--we have convinced them or at 
least we think we have convinced them enough to be able to fund 
that project for us. So I guess there will be an announcement 
later on coming regarding that matter.
    Even before any plan is in place, the Seminole Tribe is 
involved in our own internal restoration plan on the water 
quality and quantity, just like everyone else is concerned 
about, and even though we only have 40,000 acres or so in that 
area, what happens to us north will affect us and what we do is 
going to affect the people in South.
    So we are as concerned about the destruction of the 
Everglades as everyone else is at this meeting here today; and 
with that comprehensive plan, as I said before, it may not be 
the perfect plan or the best plan, but I think we should start 
somewhere and I think what we are doing on our reservation now 
is kind of like a mini-plan anyhow.
    So as long as we are the active players in the process and 
as long as any of these plans are not initiated or started at 
our expense, we are in support of the plan; and I have some 
technical folks with me today that will assist me in answering 
any question that you have, but with that, I will conclude my 
comments and I will thank the committee for allowing us to be 
at this hearing today. Thank you.
    Senator Smith. Thank you very much, Mr. Shore, for being 
here. We appreciate it.
    Mr. Lehtinen?

 STATEMENT OF DEXTER LEHTINEN, MEMBER, SOUTH FLORIDA ECOSYSTEM 
     TASK FORCE AND GOVERNOR'S COMMISSION ON THE EVERGLADES

    Mr. Lehtinen. Thank you, Senators. My name is Dexter 
Lehtinen. I serve on the South Florida Ecosystem Task Force and 
the Governor's Commission on the Everglades. I previously 
served as a Florida State representative and Florida State 
Senator, and as the United States Attorney who filed the so-
called Everglades lawsuit that compelled a then-reluctant State 
Secretary protect to agree to the Stormwater Treatment Areas to 
deal with Everglades pollution.
    I'm proud to represent the Miccosukee Indians, who have 
filed the Federal challenge under the Clean Water Act that 
forced a then-reluctant Federal Administrator Carol Browner to 
apply the Clean Water Act standards to the Everglades Forever 
Act and do the proper review that the tribe had also just won 
its S-9 pollution lawsuit for failure to follow the Clean Water 
Act in Broward County when the Federal Government would not 
take action; and the group that has passed the federally 
approved water quality standards for the Everglades that are 
tougher than anyone else's, ten parts per billion phosphorus 
applied to its own lands, that it would like to see the State 
and Federal Government enforce as well.
    With that proven record, Chairman Cypress has asked me to 
make the point that the tribe believes that Everglades 
restoration is in serious trouble due to misplaced priorities, 
subordination of fundamental democratic values, such as 
property rights, including Indian tribe property rights, 
Federal intransigence and really bureaucratic arrogance and 
incompetence.
    The issue here is not the restoration goal. Senator Graham, 
among others, helped to establish that goal properly. It's just 
that that goal for some is just a politically correct goal. 
They're not really committed to it.
    The problems we see are system problems, lack of a system-
wide Everglades-wide commitment that's a parochial approach. 
Many Federal agencies, especially Interior, seek only to 
protect their piece of the Everglades ecosystem, whether its 
geographic, such as Everglades National Park, which is less 
than half of fresh water Everglades we need to protect, or 
whether it's subject matter such as a single species like the 
Cape Sable seaside sparrow action, which the Corps has taken in 
the last month by signing the death warrant of more than 
500,000 acres of State Everglades and tribal Everglades as we 
sit here and speak today.
    They're willing to sacrifice and discriminate against State 
Everglades, tribal Everglades, in favor of their smaller 
Federal Everglades. The water conservation areas, as I said, 
are dying due to Federal actions, not taken in the 1800's or 
the 1940's, taken last year and this year with the knowledge 
that it will cause destruction of tribal and State Everglades.
    There is also process problems, a lack of commitment to the 
decisionmaking process, a lack of a partnership. The code word 
Secretary Struhs used was for a new and true partnership. I 
know he has to word it that way. That means Governor Bush 
doesn't think he had a partnership before and he didn't think 
he had a true partnership. I can say that but I know Secretary 
Struhs is constrained, but you have to read those code words, 
kind of like the way General Westmoreland described the Vietnam 
War.
    Many agencies refused to follow the National Environmental 
Policy Act process. They give lip service to the partnership 
concept, but we have execution problems. Frankly, the track 
record in executing specifically directed and congressionally 
mandated projects since the mid-1980's is abysmal.
    Modified water delivery to C-111 projects are examples, 
passed in 1989, fully NEPA approved in 1992 and approved by 
Congress with a contract to build it signed in 1994. Not a 
spade has been turned to date. Modified water delivery money, 
more than ten million a year, has been appropriated. Where did 
it go? You need to ask where modified water delivery money is 
and find out if it's in the Denver Service Center where you 
guys cut it because of million-dollar toilets.
    Modified water delivery is also an example of the breaches 
of rule of law. The 1989 act said specifically that certain 
people would be provided flood protection.
    Dante Fascell, when he passed that act, were he still in 
Congress today, would not let that promise be broken. What we 
have today is that some who are willing to break that promise 
while saying to us, ``Trust the future need for process,'' 
Secretary Westphal and Secretary Davis said, ``Well, we have to 
go through these processes but with a direct congressional 
mandate.'' They have chosen to ignore that obligation.
    I quote what a famous Supreme Court justice said, that is, 
``That great nations, like great men, should keep their word.''
    The modified water delivery problem indicates what Senator 
Voinovich, I think, would say is a concern about lack of 
detail, a concern about unbridled agency discretion. The agency 
had no discretion and has still refused to do the project.
    So what's going to happen if you give agencies the 
discretion to pick a project? It's going to be controlled by 
whatever agency authority at that particular day sees it a 
particular way.
    Let me summarize, I think it's clear that our fourth point 
would be that Everglades restoration programs, especially the 
Federal side, are showing an alarming disregard for fundamental 
private property rights and for the fundamental rule of law.
    Flood protection and private rights, when they are 
demeaned, threaten the rights of every South Floridian and 
every American, Native American and non-native alike. We 
believe that that misalignment of values will not prevail, but 
what will happen if the values are misaligned like this 
continue to be, what will happen is the public will turn 
against the restoration that we all want to see take place.
    Couple of brief misconceptions. One is that the Everglades 
is Everglades National Park. The Corps of Engineers just did it 
today. They said the Everglades is a park. More than half the 
remaining river of grass is not a Federal park. The Everglades 
is not a Federal park.
    In 1988, just before I left the legislature, we struggled 
and successfully required that the entire Everglades be saved, 
and the Federal Government has been fighting us ever since. 
They want their Everglades saved, nobody else's Everglades.
    I will skip over certain other points, but let me make this 
caution, if I could, out of due respect. Much as George Romney 
went to Vietnam and got nice briefings for the Federal agencies 
there, I have received many briefings from Federal agencies and 
they have tremendous gaps and holes in them.
    In Saigon, 1968, Westmoreland said, ``No problem. Things 
are going fine.''
    That's where we are in the Everglades today. No problem. 
Things are going fine. You couldn't go to what we as soldiers 
in Vietnam called Indian country. You couldn't go out to the 
hamlets because you'd find out when you were at the hamlet that 
they didn't want you to stay overnight because it wasn't a 
secured, strategic hamlet. That was called Indian country in 
Vietnam.
    Well, here you can't go to Indian country today because 
Indian country today, more than 500,000 acres is being drowned. 
It is a heart-breaking circumstance.
    Two weeks ago, they closed gates. They're refusing to let 
natural water flow go south from the Central Everglades to the 
South and we're drowning the Central Everglades.
    In two or 3 years, this will no longer be an issue because 
it will be dead, and it won't be from the 1940's.
    Let me close with what the Governor's Commission was told 
several weeks ago by the Florida Fish and Natural Resources. It 
was renamed, Senator Graham, and I keep forgetting. Florida 
Game and Freshwater Fish Commission now renamed.
    That representative said that water conservation Area 3-A 
has degraded more in the last 5 years than in the entire 40 
years before that. That is 500 some square miles of Everglades. 
That is during the Federal restoration effort and as a direct 
product of the Federal restoration parochial attitudes.
    The heartbreaking circumstance in 3-A, which is tribal 
land, not only indicates discrimination against the tribe, but 
it indicates the chaos that Everglades restoration is in; and I 
know that any public official who cuts through the chaos, is 
willing to say, ``We are not winning the Vietnam War, we're not 
winning necessarily the Everglades war,'' who cuts through it 
and says, ``The emperor has no clothes,'' will suffer 
tremendous initial criticism, but it's not a politically 
correct thing.
    That public official will be the one who saves the 
Everglades and will be the public official for whom future 
generations, native Americans and non-native alike will be 
grateful.
    I appreciate your time, and I didn't put in the answer, 
Senator Graham, on the assurances question, but we are prepared 
to make a brief comment on that, if you like. I mean, you 
didn't ask everybody, so I won't be insulted if you don't ask 
us, but we are prepared to.
    Thank you very much.
    Senator Smith. Thank you. Let me start with one question 
for Mr. Shore. Mr. Shore, do you feel that all of the partners 
in this restoration project have been responsive to your 
concerns, yours being the Seminole tribe? Have they been 
responsive to your concerns as this process is played out?
    Mr. Shore. I think, like I said before, we were ignored in 
this type of process before, and now we are a player in this 
process. So I think that the players that are involved in it 
are listening to us and hearing our concerns, and I think what 
we can say is that there is an open communication now, which 
didn't exist before. So I believe maybe, in answer to your 
question, they are responsive, but I think all we ever wanted 
was some open communication, so we can have some kind of 
dialog. So I think we are at that point with the Seminoles.
    Senator Smith. Senator Graham, do you have a question?
    Senator Graham. I'd like to ask the question of both 
witnesses relative to the assurance language. What do you think 
should be included in an authorization bill at the State or 
Federal level as relates to the assurance to the different 
stakeholders in the Everglades on the quality, quantity, 
hydroperiod and location of water?
    Mr. Lehtinen. OK. Thank you. Dexter Lehtinen with the 
Miccosukee Tribe.
    Well, we think assurance language is appropriate. We think 
it has to include flood protection and water supply assurances 
language, No. 1. We think the restudy shows that there is 
enough water to do it all and that a failure to be willing to 
balance subordination off the top of property rights means that 
you don't put flood protection and water supply into the agenda 
sufficiently and then it's not protected.
    Second, you have got to treat all of the natural Everglades 
equally. The most offensive thing about the Chairman Regula 
language, with all due respect to the chairman, was that it 
sought assurances for federally owned land.
    Actually, it even eliminated tribal land from which the 
Federal Government has a trust doctrine and for which the 
secretary holds bare legal title, tribal trust land; but the 
assurances language he proposed was to protect national parks.
    If I ever saw the Everglades as a national park and we 
don't care what happens north of Tamiami Trail, that's it.
    In 1994, 1995, Federal deliberate water quality practices 
flooded the water conservation area. I don't use the chart 
anymore because it offends people in the pictures; but they 
killed 90 percent of the white-tailed deer herd in water 
conservation 3-A. In 500 square miles of the Everglades, the 
entire white-tailed deer herd was wiped out. You saw them 
floating in the water.
    You don't see them floating in the water today with this 
terrible flooding because it killed them all in 1995.
    So the Regula language that sought assurances for the park 
but allowed the rest of Everglades to be shortchanged was, we 
think, inappropriate.
    I also disagree with Administrator Browner when she said 
that, until you assure the natural environment, you can't 
assure the rest.
    I think you can assure all of them. I think there's enough 
water to assure all of them and that this implicit implication 
that some poor resident who is trying to own a home and have 
what the American dream, a house and a backyard, a dog, and a 
cat, is somehow anti-American because that person wants flood 
protection, that's just wrong.
    That's what some people in this process make of the 
residents of Dade County who want decent flood protection and 
what I believe, factually speaking, can easily be provided if 
you do the right seepage barriers and so forth.
    What's happened is the Chairman Regula approach, and he may 
in the end by his approach--and no approach is perfect to begin 
with. He may in the end accomplish the goal and we'll thank him 
for it, but by not requiring assurances for all users and for 
all parts of the environment, Chairman Regula pitted the 
Everglades versus the homeowners of Dade County and, if they 
are pitted together, the homeowners of Dade County will win.
    There is no doubt in my mind that two million people are 
not going to accept being flooded out the way they were in 
Hurricane Irene because they want to save the Everglades 
without providing flood protection, which is why we flooded 
badly in Hurricane Irene.
    I want to save the Everglades. We just fill the appropriate 
barriers. Give all the assurances that we think should be 
there, and then you don't pit the residents against the 
Everglades. It is a mistake for certain environmental groups to 
believe they can use Everglades restoration as a growth tool. 
Whether I support growth tool or not, the mistake is that it 
will pit the Everglades against existing residents.
    In Miami Lakes, Senator Graham, which is well below needs 
flood protection, appropriate flood protection.
    In the areas where Dan Marino, the quarterback for Miami 
Dolphins, lives need flood protection.
    Whether they should have built there or not is a different 
issue, but having built there, the flood protection that is 
their right should not be diminished, and we can protect that 
Everglades as we do in Weston, I think, come right to the 
boundary--you've got a home and then you've got the Everglades, 
where Dan Marino lives--and do it well.
    It takes a kind of sometimes politically incorrect 
statement up front that, ``Look, you've got to protect property 
rights. You've got to provide flood protection. You have got to 
protect water use, as well as save the Everglades.'' Then I 
think we will save them all.
    Mr. Shore. I think on the assurance question, when a new 
project of this kind, anytime it's been funded by a Federal 
project, the Seminole Tribe, knowing what we're getting into, 
will be willing to comply with the requirement of the Federal 
Government; but our concern would be that we don't want to have 
the government set unattainable standards and not fund it to 
the level that it can be achieved and will be, I think, will be 
defeating the whole purpose.
    So as far as it's funded adequately, the standards are 
according to whatever the technology is of today, and the 
Seminole Tribe would not have any problems in following the 
Federal guideline.
    Senator Smith. Thank you, Mr. Shore.
    Senator Voinovich?
    We have no further questions of the panel, so I think with 
that we can say thank you for your testimony and look forward 
to working with you in the future as we move forward on this 
process.
    Mr. Lehtinen. Staff had properly advised me that I probably 
should say that I, like others, submitted a written record and 
submitted the report to the Ecosystem Restoration Task Force 
that I serve on and submitted another statement about the 
Central Everglades drowning in her own tears.
    Senator Smith. Yes, all statements presented to the 
committee from each witness will be put in the record.
    Mr. Lehtinen. Thank you.
    [Recess.]
    Senator Smith. If we can have order in the room, we will 
begin here.
    The final panel includes several important local 
perspectives on the plan. The Honorable Nora Williams is the 
county commissioner of Monroe County and Florida Keys, which 
includes Florida Bay, the southern edge of this ecosystem.
    Next is, I'll use the term, Malcolm ``Bubba'' Wade. That's 
a great name too. Mr. Wade is senior vice president of U.S. 
Sugar Corporation. The sugar industry has supported restoration 
but has raised some concerns about how the plan is being 
implemented.
    Finally, the Honorable Nathaniel Reed. Mr. Reed served 
Presidents Nixon and Ford as the Assistant Secretary of the 
Interior. In the years since then, he's served several Florida 
Governors on Everglades issues, as well as holding important 
positions with leading environmental and conservation groups.
    Lady and gentlemen, welcome. I'm not sure of the protocol, 
but I'll start with you, Mr. Reed, and go that way. How's that?
    Mr. Reed. Mr. Chairman, I'm going to make every effort to 
be at 5 minutes because you all have put in a long day. OK?
    Senator Smith. Deal.

STATEMENT OF HON. NATHANIEL REED, FLORIDA ENVIRONMENTALIST AND 
           FORMER ASSISTANT SECRETARY OF THE INTERIOR

    Mr. Reed. Your committee's responsibility for the 
management of the public lands of America and the 
intrafrastructure of our great land can only be described as 
awesome. I want to start my brief remarks to pay tribute to the 
vision and commitment to the dream of a restored Everglades 
system to Senator Bob Graham of Florida.
    Senator Graham initiated the process as Governor of Florida 
during his second term of office some 17 years ago. His efforts 
began with what could be the largest environmental restoration 
process ever undertaken in the world.
    We, the advocates of the Everglades restoration project, 
dream that we will witness congressional authorization of the 
Everglades Restoration Act in the final session of the 106th 
Congress.
    We hope and pray that the year 2000 will be the year of the 
Everglades.
    Senator Graham has enjoyed the constant support of Senator 
Connie Mack and the members of the Florida House of 
Representatives delegation. Especially important to the cause 
of Everglades restoration are the Members of Congress from 
South Florida and the distinguished chairman of the House 
Appropriations Committee, the Honorable Bill Young. His letter 
is included in today's testimony record.
    I am confident that the Florida congressional delegation 
will make a unified bipartisan commitment to Everglades 
restoration.
    We are also thankful that our energetic Governor, Governor 
Jeb Bush, has committed his administration to the cause of 
Everglades restoration.
    The Florida legislature will be debating the methods of 
assuring the Congress of a permanent method of funding the 
State's share of this expensive but vital project. I am 
confident the Florida legislature understands the priority of 
the restoration effort, the need for continuing bipartisan, and 
a commitment to become an active partner with the Congress as 
the project unfolds.
    Mr. Chairman, you may know I enjoyed a 20-year long 
friendship with the illustrious Senator John Chafee. We have 
worked together on many environmental issues. We were 
simultaneously members of the board of Deerfield Academy and 
served in the Nixon administration. Our summer homes in Maine 
were only minutes apart.
    I know each of you on the committee miss John Chafee as 
much as I do. The late chairman supported Everglades 
restoration's efforts and it's my sincere hope that the 
Senator's keen interest will be captured by each of you.
    I ask myself, what can I add to the vast amount of 
testimony that has been presented to you today and that is 
included in my written testimony? How can I influence your 
views on whether the U.S. Congress should initiate the most 
difficult, daunting, expensive restoration effort ever 
undertaken by any country at any time in our history? Why? 
Because the Everglades is not only the lifeblood of South 
Florida, it is a unique treasure for all Americans. Everglades 
National Park is the most threatened park in the great system 
that is one of America's enduring legacies.
    The water conservation areas, including the Loxahatchee, 
National Wildlife Refuge, not only support unique forms of life 
but are the recharge areas for Florida's water lifeline. The 
whole system was once a magical one. It is down in deep 
distress.
    The vast complicated ecological system has been seriously 
damaged by every known environmental insult. Every effort to 
manage this ecological system has only damaged it.
     I once thought that the damage was terminal, but the 
Everglades are resilient. I am now convinced that sound 
decisions can produce an Everglades system that at minimum 
resembles the original model.
    We must accept the fact that we cannot recreate the 
Everglades that was. We must instead accelerate the 
extraordinary effort to revitalize what we have left. Then we 
will be well underway to solving the water problems that have 
plagued South Florida for more than 100 years. We must face 
certain facts. Uncertainties are inherent in the largest and 
most complex restoration project undertaken on this earth.
    The Everglades in their extraordinary vastness and 
ecological complexity will never be wholly understood. The 
comprehensive plan under your consideration provides a 
framework for that understanding based on a solid framework of 
existing science; however, we'd be folly to imagine that we 
have all the answers. To proceed undaunted with the present 
prescription for restoration over the next several decades 
without learning from ecological responses and technological 
advancements along the way would doom us to failure. That's why 
adaptive assessment as laid out in the comprehensive plan is 
critical to its success. It will require a fundamentally 
different way of doing business for the Corps of Engineers. The 
Corps must become flexible in its approaches to problems. It 
must learn to trust biologists and ecologists. It must become a 
good listener, as well as a brilliant engineer.
    Stuart Applebaum headed the Corps' restudy team. He proved 
that the Corps could listen. Whether his successors will 
continue his suburb effort remains to be seen.
    I have spent so much of my life working on solving a full 
range of environmental problems. I spent a fair amount of that 
time on the continuing problems within the Everglades. I am 
admittedly an Everglades ``nut.''
    I admit that I am fascinated with the ecology, the 
politics, and the prospects for a revised system.
    The effort to restore a working productive Everglades 
ecosystem is the most challenging assignment that Congress and 
the involved Federal and State agencies have ever attempted.
    We face many years of expensive replumbing. We face 
potential conflict, conflict between the perceived needs of 
agriculture that demand unlimited irrigation water from Lake 
Okeechobee and unlimited drainage from the Everglades 
agricultural area. We face potential conflict from county, city 
and private water utilities that want to continue to tap the 
Everglades' water supply, rather than plan for meeting future 
water needs from other sources.
    We face opposition potentially from the residents of the 16 
South Florida counties that comprise the tax base of the South 
Florida Water Management District should they be forced to bear 
an unfair tax burden. The effort to restore the Everglades must 
be a joint effort of the taxpayers of South Florida, the 
citizens of Florida and the American people.
    The Governor and the legislature must provide the matching 
funds, not only for a long, continuous period, but for a 
dramatically increased cost of annual operations of the 
enhanced system.
    Despite the potential for conflicting views, even 
opposition, this is the moment, this is the time, this could 
and should be the year of the Everglades when we initiate this 
great restoration effort.
    What can I add to your long day, a long day when you've 
displayed great patience and an abiding interest in solving 
Florida's greatest environmental problem?
    I close simply by reciting Marjory Stoneman Douglas' 
opening paragraph in the River of Grass: ``There are no other 
Everglades in the world. They are, they always have been one of 
the unique regions of the earth, remote, never wholly known. 
Nothing anywhere else is like them. Their vast glittering 
openness, wider than the enormous visible round of the horizon, 
the racing free saltness and the sweetness of their massive 
winds, under the dazzling blue heights of space. They are 
unique in the simplicity, the diversity, the related harmony of 
the forms of life they enclose. The miracle of light pours over 
the green and brown expanse of saw grass and water, shining and 
slowly moving below, the grass and water that is the meaning 
and the central fact of the Everglades of Florida. It is a 
river of grass.''
    Senator Voinovich, let me conclude by saluting you for the 
hard-nosed questions you asked all of our witnesses today, 
especially the emphasis you gave to funding the investment in 
America. Your distinguished career as mayor and as Governor in 
many ways is a duplicate of our distinguished Senator Graham. 
You know what investment in cities, counties, States can be and 
must be if this country is to continue to prosper.
    The vast majority of the projects your committee authorizes 
and the Appropriation Committee funds are well spent improving 
the quality of life and environment. Within reason, the 
Congress should seriously consider a higher level of 
appropriations for carefully selected projects, the investment 
in America.
    Mr. Chairman, again, our sincere thanks for coming to South 
Florida and holding this field hearing. Your staff has done an 
admirable job and it is an honor to appear before you.
    Senator Smith. Well, thank you very much, Mr. Reed. It's an 
honor to have you here.
    Mr. Reed. Yes, sir. I, again, have a much longer written 
statement and I have letters from the President of the Florida 
Senate, the Honorable Tony Jennings, from the chairman of the 
Appropriations Committee, the Honorable William Young, and from 
a personal friend of yours who served with you on the space 
committee, the Honorable William Nelson, who called me while I 
was crossing Tamiami Trail at a reckless rate of speed and 
wanted to make sure that I send you warmest best wishes from 
him.
    Senator Smith. Brings back a lot of memories. Bill Nelson 
was very kind to me when he was the chairman of the Space 
Subcommittee when I was a new Member of Congress, and then he 
did something crazy and went up on that space shuttle; but he 
was very good to me as a chairman when I was a new member and I 
remember him very well and fondly.
    Mr. Wade?

   STATEMENT OF MALCOLM S. ``BUBBA'' WADE, JR., SENIOR VICE 
               PRESIDENT, U.S. SUGAR CORPORATION

    Mr. Wade. Mr. Chairman, Senators, I'm Malcolm ``Bubba'' 
Wade, a senior vice president of United States Sugar 
Corporation. I am appearing here today as a representative of 
the South Florida agricultural sector. In developing the views 
presented, I have attempted to represent a consensus of the 
Florida agricultural community.
    I recently contacted representatives from the Okeechobee 
dairy area, the Florida Citrus Mutual Group, the Caloosahatchee 
Basin farmers, the South Dade farming area, the Florida 
Department of Agricultural, the chairman of the South Florida 
Water Management District's Agricultural Advisory Committee, 
the Gulf Citrus Group and other sugar industry interests.
    While this is not all of South Florida agriculture, it is a 
significant representation of it. I believe that most of the 
South Florida agriculture would agree with the views I will 
present to you here today.
    I must assure you that everyone in the ag. groups that I 
have talked to throughout South Florida generally support the 
restudy effort and believe it is needed to assure a sustainable 
South Florida, both economically and ecologically; however, we 
in agriculture recognize the enormous task ahead of all of us 
to make sure the project is carried out correctly, efficiently 
and cost effectively.
    Although agriculture is generally supportive of the 
restudy, we have concerns. I would like to focus on those 
concerns at this time and I will put these in the form of 
recommendations.
    First, Congress should affirm the State comprehensive 
plan's multi-project purposes contained in WRDA 1996 and, 
quote, The comprehensive plan should provide for the protection 
of water quality and the reduction of loss of fresh water from 
the Everglades. The comprehensive plan shall include such 
features as are necessary to provide for the related needs of 
the region, including flood control, the enhancement of water 
supplies and other objectives of the project.
    The balancing of this restudy project purposes is very 
important to agricultural stakeholders in South Florida.
    Next, Congress should approve the comprehensive plan 
presented in the Jacksonville district feasibility study as a 
framework to guide future project planning and design and it 
should not be authorized in the traditional WRDA manner. This 
is not a final decisionmaking document in the traditional sense 
of WRDA.
    The plan does not need the traditional authorization 
requirements of other Army Corps of Engineer projects. The plan 
doesn't include feasibility level engineering, real estate 
evaluations, economic and environmental investigations and 
analysis.
    Individual restudy project components should be authorized 
only after the standard feasibility level requirements have 
been satisfied and reports have been submitted to Congress.
    Next, at present there is no plan or agreement for the cost 
sharing of the project operation and maintenance cost. This is 
important as landowners and stakeholders in South Florida were 
concerned that, once an $8 billion project is done, everybody 
rides off into the sunset but the taxpayers in South Florida 
are going to be left with a $160 million operation and 
maintenance cost. The total ad valorem cost of the South 
Florida Water Management District are approximately 190 
million, so you basically would be doubling landowners' cost in 
South Florida.
    Next, Congress should provide assurance to water users that 
their existing water supplies, and this is my answer to Senator 
Graham's questions. Congress provide assurance to water users 
that their existing water supplies will not be taken away from 
them and given to others in the system before project 
components are built and proven to be able to provide 
replacement supplies.
    For water users in South Florida, this is one of the most 
important recommendations I'm probably going to make to you 
here today.
    Next, many of the technologies incorporated in the restudy 
plan are unproven in South Florida. They consist primarily of 
aquifer for storage and recovery wells, above-ground storage 
reservoirs and seepage barriers.
    Some people question why reservoirs are unproven 
technologies. A large above-ground reservoir in South Florida 
is less than a thousand acres, typically farm retention areas; 
and they have not proven they can efficiently hold water. In 
some cases, to implement the restudy, a single reservoir is 
about 60 square miles of shallow reservoirs in relatively 
porous soils.
    Congress should authorize the pilot projects to study these 
technologies so we can develop the best solutions to these 
problems before we spend millions on engineering, design and 
construction.
    Next, as previously mentioned, project components should be 
authorized where traditional feasibility level studies required 
by WRDA have been completed and submitted to Congress. This 
review function should be retained by Congress and not 
delegated to the administration. We believe there is far too 
much uncertainty to allow shortcuts.
    In addition, the projects will receive much greater 
scrutiny from the other States if we ask for shortcuts that 
their projects are not allowed.
    Next, consistent with WRDA 1996 Section 528, incremental 
justification of projects authorized for consideration should 
be required. This is a standard requirement for all projects 
across the Nation for Congress to understand the incremental 
contribution of each investment to the ecological and 
economical purposes served by the plan before authorizing its 
implementation.
    Next, a strategic plan, and this was mentioned by the 
representative from the Department of Interior, does not 
currently exist and it should exist that identifies all 
measures and their associated life-cycle costs necessary to 
achieve restoration and other project purposes, including water 
quality and exotic species management.
    Next, land purchases should be from willing sellers and 
land already in public ownership where practical; otherwise, 
the State condemnation process should be followed. If land is 
condemned, all reasonable costs should be reimbursed to the 
landowner, which does not happen in the Federal process. This 
is very important, that the State condemnation process should 
be used with landowners in South Florida.
    Next, and Secretary Browner mentioned this one, water 
quality requirements involved in each project component should 
be agreed to by both the Federal and State agencies before a 
project element is authorized. Water quality is currently not 
being addressed and, if Congress does not require this, we 
could spend billions of additional dollars to retrofit the 
projects to incorporate water quality measures later.
    Finally, funding issues must be addressed. The funding for 
each project element should be reasonably assured from both the 
State and Federal Government before each project element is 
authorized. If authorization and funding are not closely tied, 
we run the risk of condemning land and starting construction 
only to have unfinished projects for years. A detailed budget 
should be submitted each year so that Congress and the Florida 
Legislature have assurances that such problems do not occur.
    Before I close, I would like to say that in general, there 
is a high degree of mistrust for the Federal agencies by the 
farmers and others in South Florida.
    A good example is the Chief's Report that was sent to 
Congress with the plan on July 1, 1999. After years of public 
review and input, the 4,000-page comprehensive plan finally was 
a consensus document.
    The Chief's Report was issued with commitments that were 
totally inconsistent with the comprehensive plan. The most 
egregious was giving priority to the natural systems for water 
supply over all other users. This was a highly contested issue 
during the 6 years of deliberations and the final comprehensive 
plan stressed balance amongst all users.
    A high degree of mistrust is created when years of hard 
work can be thrown out by the stroke of a pen in the Chief's 
Report, and there's numerous other examples that stakeholders 
could tell you about.
    I have stated many concerns we have that I hope you will 
take into account in your deliberations. We are not suggesting 
that the restudy plan is a bad plan. It is a sound framework to 
guide individual project element planning to address all of 
South Florida's water users.
    It is by no means a detailed plan that Congress can 
authorize and say that all justifications have been made and 
just go build it. The risks of failure and setback are too 
great to not subject these construction projects to the same 
detailed preauthorization planning as required of other civil 
works projects.
    Colonel Miller, his Jacksonville team and the South Florida 
Water Management District team should be commended for their 
hard work to get us where we are. They are quite capable of 
completing timely project feasibility studies for Congress' 
consideration before any construction is authorized, but there 
is a lot of work to be done.
    In closing, there are many, many concerns all stakeholders 
have, but the restudy project is critical to all of us, 
including agriculture, for a sustainable South Florida. 
Agriculture is entirely supportive of these efforts.
    The answer to our concerns is that we move forward as fast 
as possible but we do it in a methodical, balanced and well 
thought out approach. The approach must satisfy traditional 
Corps' authorization requirements that include the proper 
feasibility level engineering, real estate evaluations, 
economic and environmental investigations and analysis. This is 
crucial to obtaining and maintaining the buy-in cooperation and 
support from all stakeholders, including the other States.
    Thank you for the opportunity to make these comments and 
I'd be glad to answer questions.
    Senator Smith. Thank you, Mr. Wade.
    I should have said in regard to you, Mr. Reed, that your 
comments will be entered as part of the record and the 
statements will also be part of it.
    Mr. Reed. Thank you, Mr. Chairman.
    Senator Smith. Ms. Williams?

  STATEMENT OF HON NORA WILLIAMS, COUNTY COMMISSIONER, MONROE 
                        COUNTY, FLORIDA

    Ms. Williams. ``Bubba,'' hand it over.
    Mr. Chairman, Senator Voinovich and Senator Graham, it is a 
pleasure, pleasure, pleasure to appear before you today and a 
true honor to testify on this critical issue to our future.
    As a member of the board of Monroe County Commissioners, I 
serve as the county's land use liaison to the State of Florida, 
represent the commissioners on the National Marine Sanctuary's 
Water Quality Steering Committee, and I also serve on the 
Governor's Commission for the Everglades.
    My county, Monroe, is better known as the fabulous Florida 
Keys, but it also includes vast tracts of both mainland and 
Florida Bay Everglades and is the southernmost component of the 
Everglades ecosystem.
    My testimony before you today will be confined to five 
critical points. One, the restoration of the Everglades is 
absolutely critical to the future of South Florida and the 
restudy is our last best chance to restore the Everglades.
    This is about more than our water supply. There simply is 
no South Florida as we know it without the Everglades. We talk 
a lot about the mainland Everglades today and the river of 
grass and I will remind you that fully one-third of Everglades 
National Park is Florida Bay. The shallow body of water between 
the mainland and the Florida Keys is the nursery ground of the 
marine creatures that make their homes on the reef, thus 
serving as the foundation of both our ecosystem and our 
economy.
    Second, we must start right away with authorization. 
Fragile ecosystems reach a point where no amount of action or 
money can ever restore what has been lost; and sometimes when 
I'm walking on the edge of those grassy wetlands, I'm deeply 
frightened of how close we are to irretrievable loss.
    Three, the restudy is an evolving process. I appreciated 
how many people not only brought that to your attention today 
but how quick you were to recognize what a valuable element 
that is. The ability of this process to adapt to what is 
learned and to change is crucial to making sure we don't commit 
the kinds of mistakes we have committed in the past.
    I would be the last to say this is a document without 
flaws, but I do believe it's about as close to consensus as we 
can hope to get.
    Four, and frankly this is as much a cautionary note to 
local governments like my own and the State as it is to you. I 
firmly believe there need to be assurances in the restudy to 
make sure that it will not be the basis for future degradation 
of the Everglades' ecosystem.
    Much of the expense of the Everglades restudy is directly 
traceable to undoing the earlier work of the Army Corps of 
Engineers, which we did to benefit a single species, largely 
us. That's a problem, and we need to make sure that the money 
we spend now is not used to allow us to degrade it some more 
and end up at the same spot.
    Let's not make it better so that we can make it worse again 
without additional consequences. Let's enter this restudy 
pledge not to commit the mistakes of the past and determine 
that we will not balance every step forward with a step back.
    Five, funding water quality improvements in the Florida 
Keys is crucial to the restudy's success. Increasingly, the 
Army Corps of Engineers has come to see that their job, if 
responsibly undertaken, isn't just about the movement of water. 
It's about the quality of the water that is moved, and, yes, I 
think the language should be in there very clearly that water 
quality is an essential part of the program.
    That's why I'm deeply distressed that--if I had to call it 
a special interest, I will, because I think it's special in 
every sense of the word--a national treasure in and of itself, 
the Florida Keys has been excluded in the funding proposals 
within the restudy. You'll find remarkably little mention of 
the Keys, the enormous wastewater and stormwater challenges we 
face and no money allocated to help us with those problems.
    Senator Voinovich, I am counting on you asking me the 
question you asked earlier: Is this simply an excuse to avoid 
dealing with growth management problems? I look forward to it.
    The Florida Keys are essentially the southernmost third of 
the Everglades. What happens in South Florida, to the north of 
us, ends up in our bay, in our backyards, flowing through to 
the precious reef tract that's not only the world's number one 
diving destination, but the boundary of the Everglades 
ecosystem.
    With documented water quality concerns that made headlines 
in national press across the Nation last year, and let me point 
out that the illustrious Nat Reed graciously referred to us as 
the polluted Florida Keys today at lunch, I would like to know 
how we have emerged completely unfunded from the restudy.
    Our wastewater system upgrade costs are higher than 
anywhere else because we are going through solid rock and we 
are treating to higher standards than anyone else; and yet with 
our cost of living among the highest in Florida, our citizens 
have one of the lower incomes.
    We brought these issues formally before the Army Corps 
during their public hearings to no avail.
    A quick side note. I know I'm running out of time. We have 
a restudy that actually recognizes in its language the water 
quality crisis in the Florida Keys, that acknowledges that 
solutions for this crisis are, and I am quoting from the 
restudy here, beyond the means of many, and yet offers no help 
for us in its $8 billion budget; and I have wondered, can it 
simply be about our lack of clout? We are 85,000 residents and 
75 on the mainland, over about 150 miles of island. Have we so 
little voice in the process?
    I just don't know. It is my belief and my hope today that 
it's simply an oversight that you're going to fix.
    I will tell you one thing I absolutely do know. Water 
quality surrounding the Florida Keys is deeply threatened and 
we cannot bear the burden alone. I am here before you today to 
ask, whether within the restudy or through a separate 
appropriation, that you do not forget us. The Florida Keys are 
a national treasure, a part of the Everglades ecosystem and we, 
too, are in danger of irretrievable loss and unbearable 
burdens.
    Thank you.
    Senator Smith. Wonderful. Thank you very much, Ms. 
Williams.
    Well, Senator Voinovich, since you have been told which 
question to ask.
    Senator Voinovich. I think Nora wants to tell me about her 
capacity problem. Why don't you answer the question, Ms. 
Williams.
    Ms. Williams. Thank you. There are two elements. The bad 
news is there is a long history of growth management we should 
be nothing but ashamed of in Monroe County, and frankly the 
State bears some responsibility for as well. Bad news is, so do 
you guys. The systems that are the heart and soul of a lot of 
the problems that we have in the Florida Keys, particularly on 
the wastewater issue, were systems approved and OKed by the 
Federal Government, as well as the State.
    There is a lot of shared responsibility here; and the folks 
in the Keys, we finally made that turn, the acceptance that the 
problem is real, that we have responsibility, and we are 
willing to bear, frankly, more than what is our share of the 
cost, if we define share by what it means to most other areas 
to deal with these issues.
    It is a national treasure. It is a federally involved 
treasure in almost every sense of the word. You were, if you 
will pardon me for speaking frankly, part of the creation of 
the problem. You have to help be part of our solution or it 
simply won't happen, and we will be looking at something like 
this at some point down the line.
    It's crucial to know that we have turned the corner also on 
growth management.
    Senator when we talk about assurances in the language, that 
we don't use this as an excuse to continue being stupid, to go 
backward with every step we take forward, we would welcome 
those assurances in the language.
    We are releasing now in unincorporated Monroe less than 200 
permits a year. We are critically aware of the problems we face 
and, frankly, deeply worried, the theory of critical State 
concern may be lifted and that might further endanger managed 
and wise growth.
    We recognize that we are finite, that we are islands. We 
will not use this as an excuse to end up in a worse place than 
we are now, I promise you.
    Senator Smith. Senator Graham.
    Senator Graham. I want to say I have been dealing with 
Monroe County officials for a long, long time and that was a 
remarkable statement. You, gentlemen, who I hope will have 
opportunities to have your experience in the Florida Keys, with 
that experience, will appreciate the significance of what you 
just heard.
    I'd like to ask both Mr. Reed and Mr. Wade, you seem to 
disagree on the issue of whether we should use a more 
traditional Corps approach, which means having a fairly high 
level of detail of what the project is going to be before it is 
authorized for actual implementation, as opposed to Mr. Reed's 
support for the critical projects adaptive management concept, 
which is included in the restudy.
    In order to try to get some better assessment of how well a 
new approach would operate, since 1996 Congress has sanctioned 
critical projects, which means that the Corps, under certain 
guidelines, can proceed with a project without having it 
subjected to the traditional authorization tract.
    In fact, I understand, if we don't conclude fairly soon, we 
are going to miss a ceremony where there will be a document 
signed authorizing another set of critical projects to be 
implemented.
    The question is: Could you give me each of your assessment 
of how well the critical project process which has been in 
place now for four-plus years has, in fact, operated and, based 
on that experience, what is your feeling as to confidence level 
to proceed with the critical projects in the future?
    Mr. Reed. Senator, in my written testimony, which is much 
longer than my public testimony today, I answer that question, 
I think, very affirmatively that I do not know of a single 
ecologist, environmentalist, biologist who would agree to do it 
the old-fashioned Corps way.
    First of all, we haven't got the time.
    Second of all, this adaptive management process. We are 
going to learn what the reactions are to each phase of this 
recovery program.
    Now, Mr. Wade and I remain friendly in a guarded sense 
because we are not going to agree, Mr. Chairman, on what he 
proposes, which is to slow this thing down and drag this thing 
out as long as possible. I'm going to be brutally frank. I'm at 
an age where I haven't got a whole bunch of time remaining and 
we might as well be frank with each other. At the end of the 
day, I want my drink and I want to see that document signed and 
I want my dinner and I want to hear the Senator.
    Senator Graham. In exactly that order.
    Mr. Reed. Maybe not in that order.
    Senator Smith. The more drinks you have, the Senator will 
sound even better.
    Mr. Reed. When Mr. Wade says we have got to study 
everything and restudy everything and we got to look out for 
those reservoirs, what he's talking about is the Talisman 
reservoir and he wants the product off Talisman as long as he 
possibly can. I understand that. Everybody in this room who 
knows anything about the sugar industry understands that 
perfectly; and we also understand that the American taxpayers 
bought Talisman and we want to see it go into a reservoir as 
rapidly as possible, even though the sugar industry does not.
    You know, it's much better to get this out on the table in 
front of you than to have it rumored to you and brought to you; 
and Mr. Wade is adept at defending himself and offending me, 
and I will give him that opportunity.
    Mr. Wade. I'd like for Nat to go have that drink.
    I think the answer--and when Nat says that, the sugar 
industry's whole motivation here today was to slow down 
reservoirs, I will remind you that I spoke on behalf of a lot 
of agricultural groups here today, and I think there is pretty 
much a consensus on this issue about how the authorization 
process should work. Just what I told you about the Chief's 
report, when we have been through a consensus process to have a 
4,000-page document that we basically supported and would have 
supported in Congress, when we find the Chief's Report that 
comes out that says, ``We have totally turned that upside down 
and we have made commitments that weren't in that report.''
    To the agricultural industry, that says, ``You better not 
authorize the thing and give the Corps and the Federal agencies 
the power to go out and make the decisions after you authorize 
it.''
    We don't want that. We don't trust it, and that Chief's 
report was one example of why we don't. What we want is to make 
sure that the I's are dotted and the T's are crossed before 
it's passed by Congress.
    Mr. Reed. I will just add to this, Mr. Chairman. That 
letter probably caused more confusion than it was worth, and, 
if there was a level of mistrust before, the level of mistrust 
was heightened.
    The fact of the matter is, I don't know of a single 
hydrologist who's examined this product who does not believe 
that there is adequate water in this system.
    Senator Graham, this is very important. To be able to give 
assurance to existing users that the water quantity that they 
are presently using will not be impaired in the slightest way, 
and I have absolutely no problem being very careful with 
Florida water law to give Mr. Wade and the industry that 
assurance.
    The problem, as you know as Governor, is that every time 
over the long period of time since 1960 when I returned from 
the military intelligence system that there has been a division 
in water, the ecosystem has been the loser, every single time 
for 40 years.
    So I was very justified in trying to find some language 
that will work, that will persuade ``Bubba,'' Mr. Wade, and his 
colleagues in the Florida agricultural empire, because it's a 
huge, huge part of South Florida, that their water is not going 
to be taken away from them for the birds.
    That's what he's scared about; and, yet, on the other hand, 
the American taxpayer is going to be putting up a heck of a lot 
of money and wants to make sure that that water goes to a 
national treasurer, both Everglades National Park and the 
National Wildlife Refuge, and that's what we're going to have 
to wrestle with when we come before you with the language on 
assurances.
    Senator Smith. Thank you very much, Mr. Reed, and thank 
you, Mr. Wade, and, Ms. Williams.
    We have got the hotel in a bit of a bind here. The hotel 
has a reception in this room now. So in an orderly fashion, 
vacate as soon as possible.
    Hold on a second, please. Vacate as soon as possible 
through that door.
    Let me also state for the record, I think some of these 
letters have been referenced, but just in case they haven't 
been, Congresswoman Carrie Meek, Congressman Mark Foley, 
Congressman Bill Young, Florida Speaker of the House John 
Thrasher, and Treasurer of the State of Florida Bill Nelson, 
all have submitted statements and/or letters for the record.
    [The referenced letters submitted for the record follow:]
    Senator Smith. Does any other Senator have any other----
    Senator Graham. First, I would like to recognize the fact 
that Lee Constantine, Representative Lee Constantine, has 
joined us. He is the chairman of the State Legislative 
Oversight Committee to the Everglades, and I want to thank him 
for the outstanding work that he has done.
    Mr. Chairman, I want to thank you. I think you got off to a 
good start. It is your first hearing. Well done. We moved 
forward today and I look forward to continuing to do so in the 
months ahead.
    Senator Smith. Thank you very much. One final 
housekeeping--thank you. One final housekeeping note, I am 
going to keep the record open for 1 week until close of 
business on Friday, January 14, for any Senator who has a 
question that he wishes to ask or make some comment for the 
record.
    I want to thank everyone, all the witnesses and all those 
who were here today for being here and thanks again for the 
fine hospitality here in Southern Florida. We look forward to 
working with you.
    The hearing is adjourned.
    [Whereupon, at 7:45 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
  Statement of Hon. Carol Browner, Administrator, U.S. Environmental 
                           Protection Agency
    Good afternoon, Mr. Chairman and Members of the Committee. I am 
Carol M. Browner, Administrator of the U.S. Environmental Protection 
Agency (EPA). Thank you for your invitation to be here today--at the 
very beginning of the new millennium--to talk about something very 
close to my heart: the Administration's unprecedented efforts to 
restore the Everglades ecosystem and EPA's role in ensuring that water 
quality is fully addressed in the restoration efforts.
    As many of you know, I grew up in Miami. My childhood ``backyard'' 
was the Everglades. This vast expanse that we today call the ``River of 
Grass'' has inspired me since my earliest days. I am proud to be part 
of this Administration, which has worked so hard--and continues to work 
so hard--to ensure that the heart of the Everglades ecosystem will once 
again pulse with fresh, clean, abundant water. This Administration's 
efforts will ensure that the Everglades ecosystem that inspired me as a 
child will continue to thrive and offer inspiration to my son, to all 
our children, and to all the generations that follow. And I am happy to 
be here today to describe EPA's involvement in the Administration's 
efforts to protect and restore the Everglades ecosystem.
                   past progress and current efforts
    The Administration's Comprehensive Everglades Restoration Plan, 
designed to restore and protect the Everglades ecosystem--from the 
Kissimmee to the coral reefs--is one of the nation's best examples of 
the inextricable link between the health of our environment and the 
health of our economy. The fresh, clean water that is critical to the 
survival of the Everglades ecosystem also is essential to the existing 
and future health and welfare of South Florida--its 6.5 million 
residents, its many thousands of businesses, its economically important 
agricultural industry, and its $14-billion-a-year tourism industry.
    As we enter this new millennium, I'd like to take a moment to 
reflect on the changes that have come to pass in the Everglades over 
the past 100 years--how we arrived at this critical juncture. In 1900, 
the Everglades ecosystem encompassed roughly 2.6 million acres--largely 
untouched by man. In that same year, the population of the area South 
of Lake Okeechobee stood at just over 26,000--most of which was in Key 
West.
    Today the population of South Florida alone stands at more than 6.5 
million, and is expected to double by the middle of this century 
(2050). This explosive growth over the past century has led to 
significant alteration of the Everglades ecosystem and its watershed. 
Overall, the State of Florida has lost 46 percent of its wetlands and 
50 percent of its historic Everglades ecosystem--lost to drainage and 
encroaching urban and agricultural development. And, along with the 
loss of this expanse of habitat, nesting populations of wading birds 
have declined by 90 percent; 68 plant and animal species have become 
threatened or endangered with extinction; estuarine productivity in 
Florida Bay has deteriorated at a catastrophic rate; 5 feet or more of 
organic soil has been lost in parts of the Everglades Agricultural 
Area; urban and agricultural runoff has produced extensive water 
quality degradation throughout the region; and future supplies of water 
for residents, businesses, and agricultural interests in South Florida 
are threatened.
    During the second half of the last century, the existing Central 
and Southern Florida Project was built to help meet the needs for flood 
control and water supply at that time. But the explosive growth since 
then has far exceeded the capacity of the existing system, and has 
contributed to the decline in the Everglades ecosystem. The current 
system, while very efficient at draining excess water, by its design 
and operation severely limits our capability to store excess water when 
it becomes available (wet season) so we will have it when it is needed 
(dry season). Moreover, it is important to remember that the system was 
designed for flood control and for water supply purposes. Water quality 
was not a consideration at the time.
    Today, with the vision set forth by Vice President Gore in February 
1996, this nation has embarked on an ambitious, long-term restoration 
plan that will bring new hope in this new millennium to the ailing 
River of Grass. The Comprehensive Everglades Restoration Plan sets 
forth an extremely challenging agenda to restore the hydrology of the 
Everglades ecosystem in an effort to balance future development with 
the preservation of natural areas, and to meet the needs of farmers and 
urban residents as well as the needs of the natural ecosystem. When 
fully implemented, the Comprehensive Everglades Restoration Plan 
components will significantly enhance the ability of the Everglades 
ecosystem to store excess water so that the projected water supply 
needs of the natural systems--both freshwater and marine--can be met, 
as well as the water supply needs of the urban and agricultural 
components of the Everglades ecosystem.
    The Comprehensive Everglades Restoration Plan, which was carefully 
developed with substantial public involvement over the last several 
years, was submitted to the Congress by the U.S. Army Corps of 
Engineers last July. It lays out an ambitious Federal/State joint 
venture to restore water flows to the Everglades ecosystem while 
providing flood protection and adequate freshwater supplies to the 
agricultural industry and to the growing population of South Florida. 
The Comprehensive Everglades Restoration Plan represents a fundamental 
change in philosophy.
    It is a humble action, recognizing that after the efforts of almost 
a hundred years to manage this ecosystem, we did not really get it 
right.
    When completed, we believe the Comprehensive Everglades Restoration 
Plan--in concert with other proposed and ongoing restoration efforts--
will result in the delivery of fresh water in the right quantity, of 
the right quality, and with our best estimate of the right timing and 
distribution to achieve the desired results to the Everglades 
ecosystem, including downstream coastal communities all the way to the 
living coral reefs of Florida. I believe that the demonstrated 
commitment to adaptive management that this program has shown will 
incorporate future adjustments, as needed.
    EPA strongly supports the Comprehensive Everglades Restoration Plan 
the Administration provided to Congress for authorization. We believe 
the Comprehensive Everglades Restoration Plan--in concert with other 
proposed and ongoing restoration efforts--represents the best way to 
both restore the ecological integrity of the Everglades ecosystem and 
to enhance water quality for future generations in South Florida. EPA 
recommends authorization of the Comprehensive Everglades Restoration 
Plan in the Water Resources Development Act (WRDA) 2000, and also 
recommends that WRDA 2000 contain language that specifically identifies 
improvement of water quality for ecosystem restoration, protection, and 
preservation as a Central and Southern Florida Project purpose. The 
inclusion of this provision in WRDA will ensure that Federal cost 
sharing is available for the water quality related facilities called 
for in the Comprehensive Everglades Restoration Plan.
    The Administration's plan recognizes that the problems facing the 
Everglades ecosystem come from many corners--and so, too, must our 
solutions. It is predicated on the understanding that, if we are to 
make progress at all, we must foster public involvement of all South 
Florida's diverse communities. We must build strong partnerships 
involving industry, agriculture, Tribes, environmentalists, and work 
collaboratively at every level of government to ensure the recovery of 
the Everglades ecosystem. To achieve our most elemental goals is a 
truly daunting task--one that requires us to pool our expertise, our 
dollars and our resources, coordinate our laws, and draw on the energy 
of the grassroots and the efforts from industry and agriculture.
    Our bold and urgent plan expands and accelerates restoration 
projects in the Everglades ecosystem, and identifies additional 
research that is needed to ensure that our management decisions and 
actions are based on sound science. And our efforts are already 
starting to produce some encouraging results. The completion of the 
Administration's important acquisition of the Talisman Sugar Plantation 
in the Everglades Agricultural Area involves more than 61,000 acres, 
critical new restoration lands in the heart of the system. In addition, 
changes in agricultural practices are reportedly responsible for 
achieving a 54 percent reduction in phosphorus discharged from the 
Everglades Agricultural Area to the Everglades Water Conservation Areas 
over the past 4 years. And 44,000 acres of Stormwater Treatment Areas 
are either completed, or underway and due to be completed by 2003, 
which will greatly enhance our abilities to remove additional 
phosphorus.
               remaining challenges and future directions
    Despite this progress, we still have a long way to go. The 
Everglades ecosystem may never be what it once was. But we can--and we 
must--continue to make bold strides forward to protect the remaining 
ecosystem and to restore the critical natural functions and structures 
of the region and its natural community, which are so vital to 
preserving the quality of life in South Florida.
    The Administration's Comprehensive Everglades Restoration Plan 
offers a comprehensive approach designed to increase water supplies for 
the region, and to restore and improve the condition of water quality 
throughout the Everglades ecosystem--from the watersheds of Lake 
Okeechobee to Florida Bay and other coastal areas of South Florida. EPA 
will remain vigilant throughout the design, construction, and operation 
phases of the project to ensure that the Comprehensive Everglades 
Restoration Plan features will fully comply with all Federal, State, 
and Tribal water quality standards, as well as all other applicable 
provisions of the Clean Water Act.
    I'd like to mention just a few of the more important activities 
that EPA is involved in, and how each will help promote water quality 
and contribute to restoration of the integrity of the Everglades 
ecosystem.
    Stormwater Treatment Areas (STAs) and Water Storage Areas (WSAs)
    To improve both water quality and the integrity of the Everglades 
ecosystem, the Comprehensive Everglades Restoration Plan includes 
proposals to construct 36,000 acres of wetlands to treat polluted 
runoff from urban and agricultural areas. These Stormwater Treatment 
Areas (STAs) will be located throughout South Florida, and will enable 
us to use the natural filtering capability offered by wetlands 
ecosystems as a way to treat and improve water quality and, at the same 
time, contribute to the restoration of the health of the Everglades 
ecosystem.
    The Comprehensive Everglades Restoration Plan also calls for 
construction of 172,000 acres of Water Storage Areas (WSAs), which will 
be created to capture excess fresh water flows that now are drained 
rapidly to the Atlantic Ocean and the Gulf of Mexico. This valuable 
water, which currently is being ``lost to tide,'' will be captured and 
used to provide much-needed water for restoration of the Everglades 
ecosystem and to enhance potable water supplies for the people of South 
Florida. As with the STAs, the WSAs will render major water quality 
benefits to both inland and coastal waters and benefits to the wetland 
habitat of the Everglades ecosystem. It also will be critical to ensure 
the acquisition of the East Coast Buffer Area because of the continued 
threat of development that can affect the Everglades. And together 
these measures will greatly enhance the State's ability to reduce its 
non-point source pollutant loadings consistent with the goals and 
requirements of the Clean Water Act and the Coastal Zone Management 
Act, and should contribute to improved implementation of total maximum 
daily load (TMDL) allocations for impaired watersheds throughout the 
Everglades ecosystem.
Aquifer Storage and Recovery (ASR) Facilities
    Construction of extensive regional Aquifer Storage and Recovery 
(ASR) facilities is an essential component of the Comprehensive 
Everglades Restoration Plan. When completed, the ASR facilities are 
intended to store water during the wet season--freshwater flows that 
are currently lost to tide. ASR facilities will store these waters in 
the upper Floridan Aquifer for recovery in dry seasons and for use both 
to restore the ecological integrity of the Everglades ecosystem, and, 
at the same time, to enhance future water supplies for urban and 
agricultural purposes in South Florida.
    EPA supports this approach in concept, but is continuing to work 
with the other State and Federal partners to demonstrate the efficacy 
of ASRs. WRDA 1999 authorized two large-scale pilot projects at Lake 
Okeechobee and Palm Beach County, and EPA is now involved with these 
pilot efforts in the startup phase. EPA recognizes that the ASR 
approach is bold and entails some uncertainties, and is fully committed 
to ensuring that these facilities will function in ways that are fully 
protective of South Florida's drinking water supplies and surface water 
quality. Regardless of the ultimate feasibility of ASR facilities, the 
Administration remains committed to finding the same amount of water 
storage through other means if necessary. Again, I believe that the 
demonstrated commitment to adaptive management that this program has 
displayed will incorporate future adjustments, as needed.
Comprehensive Integrated Water Quality Plan
    Under the Comprehensive Everglades Restoration Plan, EPA and 
Florida Department of Environmental Protection (FDEP) will share the 
lead on behalf of the U.S. Army Corps of Engineers (COE) in developing 
a Comprehensive Integrated Water Quality Plan. This plan will evaluate 
water quality standards and criteria from an ecosystem restoration 
perspective. It will also make recommendations for integrating existing 
and future water quality restoration targets for South Florida 
waterbodies into future planning, design, construction, and operation 
activities in ways that optimize water quality in inland areas, 
estuaries, and nearshore coastal waters. The plan also will lead to 
recommendations regarding water quality programs, including setting 
priorities for developing both water quality standards and pollution 
load reduction goals.
Florida Keys Water Quality Protection Program
    The Comprehensive Integrated Water Quality Plan will be modeled 
after another EPA initiative in South Florida. EPA has been actively 
working with the State of Florida in conjunction with the National 
Oceanic and Atmospheric Administration (NOAA) to develop a water 
quality protection program for the Florida Keys National Marine 
Sanctuary. Located downstream of coastal South Florida, the Sanctuary 
composes the southernmost portion of the South Florida Ecosystem. The 
Sanctuary was established to protect the living coral reefs, seagrass 
communities, mangrove fringed shorelines, and other significant 
resources of the area from such threats as degrading water quality.
    The purpose of the Water Quality Protection Program is to recommend 
priority corrective actions and compliance schedules addressing point 
and non-point sources of pollution to restore and maintain the 
chemical, physical, and biological integrity of the Sanctuary. This 
includes restoration and maintenance of a balanced, indigenous 
population of corals, shellfish, fish, and wildlife.
Improving the Wetlands Regulatory Process in Southwest Florida
    In recent years, Southwest Florida has experienced the same kind of 
rapid growth that took place earlier in Southeast Florida. As a result 
of this fast-paced development, the COE has issued permits to drain and 
fill 5000 acres of wetlands. And even more requests are expected in the 
next few years, raising concerns over whether the Corps' review of 
individual permit requests can adequately address the secondary and 
cumulative impacts from these many incremental decisions. These events 
have caused us to think about steps that need to be taken now in 
Southwest Florida in order to avoid repeating the mistakes made in the 
last century in Southeast Florida--mistakes we now are trying to remedy 
through the Comprehensive Everglades Restoration Plan and other 
parallel efforts to restore the Everglades ecosystem.
    EPA has been actively involved in assisting the COE in preparing a 
Draft Programmatic Environmental Impact Statement (DPEIS), which is 
designed to improve the section 404 regulatory decisionmaking process 
in Southwest Florida (Lee and Collier Counties). The COE has the lead 
for this DPEIS, which was released for public comment on July 7, 1999. 
EPA prepared two components of this DPEIS: a description of historic 
water quality in the ten watersheds in the study area; and a 
comparative analysis of future water quality for two of the COE's 
alternatives. The model output indicated that, in 2020, the two 
alternatives show an overall degradation of water quality in the two 
county area, as well as in most of the individual watersheds.
    The comment period for the DPEIS has been extended to January 15, 
2000. Following the close of the comment period, EPA will work with the 
COE to improve the document as it relates to water quality and wetlands 
protection. We expect the Final PEIS to be released in Spring/Summer 
2000, and will focus our efforts on developing NEPA tools that will 
result in improved wetlands and water quality protection in Southwest 
Florida under the section 404 regulatory program and other applicable 
Clean Water Act programs.
                         issues of special note
    I'd like to focus the remainder of my comments today on just a few 
of the most difficult water quality issues we face today: reducing 
levels of mercury and phosphorus in the Everglades ecosystem and 
restoring Lake Okeechobee.
Mercury
    Mercury levels in fish in the Everglades ecosystem are very high--
so high that State health officials have issued fish consumption 
advisories warning people either to limit consumption of, or to not eat 
gamefish from Everglades National Park, Loxahatchee National Wildlife 
Refuge, Big Cypress National Preserve, and the Miccosukee Tribe of 
Indians Federal Reservation. In addition, there may be some adverse 
effects on wildlife. Wading birds, racoons, and alligators have been 
found to have very high concentrations of mercury--higher than other 
areas in the U.S. with known mercury contamination. A workshop held in 
1999 concluded that, while there is no clear information regarding 
effects on the wading bird populations, Everglades wading birds may be 
suffering sublethal effects in individual birds due to mercury 
contamination. Clearly, much of the energy and resources we are 
directing to restoration of the Everglades ecosystem will be 
compromised if, at the end of the day, the water is fixed but people 
still cannot eat the fish and the wading bird and other wildlife 
populations continue to show high concentrations of mercury.
    Through our research, and atmospheric modeling, we have learned 
that atmospheric deposition is the leading source of mercury in the 
Everglades (more than 98 percent), and that no single source can 
account for the levels of mercury we are finding. Moreover, uncertainty 
remains over how much of the mercury is the result of local air 
emissions sources, re-releases, and global circulation of mercury. 
Recently imposed controls on local atmospheric emissions are expected 
to result in a significant decrease in mercury deposition to the 
Everglades marsh. But, while we believe that reducing the input of 
mercury to the Everglades ecosystem is likely to reduce the levels of 
mercury in fish over time, it is not clear how long this will take or 
how much mercury emissions will need to be reduced in order to protect 
the uses of the Everglades ecosystem. There is also uncertainty 
regarding the linkages between atmospheric deposition of mercury and 
risk to the environment and public health.
    While much uncertainty remains, we clearly recognize that 
designated uses in the Everglades ecosystem are not being met, and 
there is a pressing need to learn more. To address these challenges, 
EPA is actively engaged in a comprehensive mercury research program, 
along with United States Geological Survey (USGS), the FDEP and the 
South Florida Water Management District, as well as NOAA's work in 
Florida Bay. Thus far, total research funding is approaching $30 
million from all public and private sources, with EPA contributing 
about one-third of the total ($10 million).
    EPA also is working with the State of Florida to develop a pilot 
mercury TMDL for a parcel of the Everglades ecosystem known as Water 
Conservation Area 3A. This effort is designed to determine the maximum 
amount of mercury that could enter the Area each day and still enable 
the waters to meet water quality standards. The pilot will examine how 
to ``link'' the results of air and water computer models in a TMDL 
application, and will attempt to relate local urban atmospheric 
emissions to mercury levels in Everglades sediments and fish. We expect 
to have technical reports on this work for internal EPA review soon, 
and plan to seek input from stakeholder groups and the public by Summer 
2000.
Phosphorus
    In 1994, Florida's Everglades Forever Act (EFA) created another 
ambitious ecosystem restoration plan, which EPA fully supports. The EFA 
set forth an iterative and adaptive approach to actions needed to 
reduce phosphorus contamination of the Everglades ecosystem. Much 
progress has been made since then, including the 54 percent reduction 
in phosphorus discharged from the Everglades Agricultural Area and the 
ongoing construction of 44,000 acres of Stormwater Treatment Areas that 
I mentioned earlier. Despite this progress, however, phosphorus is 
still one of the chief pollutants that threatens aquatic life and 
restoration of the Everglades ecosystem. There is much more to be done, 
and we need to move ahead aggressively.
    In May 1999, EPA approved stringent new water quality standards for 
a portion of the Everglades ecosystem, which, for the first time ever 
under the Clean Water Act, set a specific protective numerical standard 
for the Everglades for phosphorus. This protective standard--10 parts 
per billion (ppb), adopted by the Miccosukee Tribe of Florida for its 
Tribal waters--is supported by the best science available to EPA. 
Adoption and approval of this standard represents a significant step 
forward in protecting the health of the Everglades ecosystem on 
Miccosukee Tribal lands, and sets a benchmark for how much phosphorus 
the ecosystem can handle before adverse impacts to native aquatic life 
begin to occur.
    Under the EFA, Florida is now actively engaged in developing a 
water quality standard for phosphorus for other portions of the 
Everglades ecosystem. The EFA established a deadline of December 31, 
2003, for adopting this standard, but Governor Bush has committed to 
accelerating this process and to adopting a scientifically defensible 
standard by no later than December 31, 2002. EPA is providing technical 
assistance to the State to help meet this ambitious schedule. And, in a 
related effort to accelerate restoration of the Everglades ecosystem, 
Governor Bush has asked the South Florida Water Management District to 
begin incorporating Phase II technology into Phase I of the Everglades 
restoration. EPA encourages prompt action for both of these efforts, 
and looks forward to approving a phosphorus standard for the State that 
will be protective of the entire Everglades ecosystem.
Lake Okeechobee
    As the headwaters of the Everglades ecosystem and an important 
water supply for Southeast Florida, we have a vital interest in the 
activities that will lead to restoring the water quality of Lake 
Okeechobee. Water quality in Lake Okeechobee has been degraded by 
agricultural runoff and by backpumping, and the rate of eutrophication 
is of major concern because of the impact on both the ecology of the 
lake and its many other beneficial uses. Over the last 25 years, 
phosphorus concentrations in the lake have increased 2.5 times, and 
preliminary evidence indicates that sediments in the lake may be losing 
their ability to assimilate additional phosphorus loadings. Recent data 
suggest that the lake may be in a phase of transition from its present 
eutrophic condition to a higher tropic State.
    Since phosphorus is considered the key element that controls the 
growth of nuisance algae, I am very pleased to report to you that, 
earlier this week (January 3, 2000), EPA proposed a TMDL for phosphorus 
for Lake Okeechobee. When it became clear that, under its rulemaking 
procedures, the State would not be able to meet the court-ordered 
deadline for establishing this TMDL, EPA assumed responsibility and has 
proposed a total annual load of 198 metric tons of phosphorus for Lake 
Okeechobee, including phosphorus deposited from the air (71 metric 
tons). This is an important step forward because, a TMDL is the maximum 
amount of a pollutant that a waterbody can receive and maintain water 
quality standards, and this TMDL sets the restoration goals for Lake 
Okeechobee. We estimate the proposed phosphorus loading represents a 68 
percent reduction from the 1997 load, and will take public comment on 
the proposed TMDL until March 17, 2000.
    But the true test will come with the actual implementation of this 
TMDL. One thing is very clear: successful implementation will require a 
collaborative process--one similar to the highly successful 
collaborative process that has characterized the larger Everglades 
ecosystem restoration effort. I am pleased to report that, earlier this 
week, EPA took steps to start a collaborative process that will focus 
on the implementation of the TMDL for Lake Okeechobee. In the overview 
of the proposed TMDL, EPA suggested that the Lake Okeechobee Issue Team 
continue its fine work and form the nucleus of a larger collaborative 
team that will include representatives of all interested stakeholder 
groups. This team will be charged with exploring options and developing 
alternatives for implementing the TMDL to ensure restoration of Lake 
Okeechobee. We are fully committed to this collaborative process, and 
intend to be active participants in it. We also recognize that long-
term restoration of Lake Okeechobee depends upon a strong Federal 
commitment to the successful completion of the public works projects 
called for the in the Comprehensive Everglades Restoration Plan, which 
are essential to improving and restoring the water quality of the lake.
    I would also like to commend the State and the agricultural 
community for the actions they have taken to begin restoring Lake 
Okeechobee. Many of the farmers in the watershed have implemented best 
management practices and have taken other steps to reduce the 
phosphorus loads entering the lake. And many of the farms on the South 
side of the levee have ceased backpumping nutrient-enriched water over 
the levee and into the lake. These actions are to be applauded and 
encouraged.
    Finally, I want to acknowledge Governor Bush's recent announcement 
that he is supporting new State legislation aimed at restoring Lake 
Okeechobee. I encourage the State Legislature to act expeditiously on 
this new legislation, and to follow the blueprint set forth in the 
Everglades Forever Act by including regulatory programs for phosphorus 
load reductions, interim and final milestones for action, and whatever 
tools the State needs to help restore the heart of the Everglades 
ecosystem: Lake Okeechobee.
                                closing
    As the Administrator of the EPA, my responsibility for the 
environment and public health spans this country's majestic landscape--
from the Atlantic to the Pacific and from the Great Lakes to the Gulf 
of Mexico. But I--like all of us--have that very special place that 
serves to remind me what is at stake if we don't prevail in our efforts 
to protect our natural environment. And for me, that special place is 
the Everglades on a glorious winter afternoon--the white mountains of 
clouds suspended above the gently drifting river of grass and a wood 
stork making lazy circles against the brilliant blue sky. The legacy of 
this fragile ecosystem--and this image--depends on the actions we take 
today.
    As we enter this new century, we are on our way. We have the will, 
we have the commitment, we have the technology to reverse the harmful 
water management practices of the 20th century. We must not rest until 
the job is finished--until all our children and their children and the 
generations to come have the opportunity to grow up with water that is 
safe to drink, air that is clean, and--here in Florida--with the 
Everglades once again pulsing with life.
    Thank you again for the opportunity to participate in this hearing. 
We appreciate the leadership and commitment of Chairman Smith and 
Senator Graham, and look forward to working with the Committee on this 
important endeavor.
                                 ______
                                 
 Responses by Carol Browner to Additional Questions from Senator Graham
    Question 1: Can you describe water quality issues in the Florida 
Everglades and explain how the Restudy will maintain appropriate levels 
of contaminants throughout the system?
    Response. Major water quality concerns in the Everglades, as noted 
in the testimony already provided, include phosphorus enrichment and 
mercury contamination. As already discussed, a tremendous amount of 
effort is underway to address the issue of phosphorus enrichment of the 
Everglades. Other parameters of concern include specific conductance 
(salts) in water discharged to Loxahatchee National Wildlife Refuge, 
and occasional detections of pesticides at various locations. The 
Restudy does not directly address the mercury contamination issue.
    Several components of the CERP will result in improved water 
quality conditions. Over 36,000 acres of treatment wetlands (Stormwater 
Treatment Areas (STAs)), in addition to those currently being 
constructed as required by the Everglades Forever Act, will be 
constructed to treat urban and agricultural water before discharge into 
public waters. Additionally, 172,000 acres of stormwater storage areas 
(SSAs) are proposed. Although these areas will be primarily managed to 
store water, they will simultaneously provide some water cleansing as 
discussed in the answer to another question. These STAs and SSAs will 
help water quality in several water bodies, including the Everglades, 
Lake Okeechobee, and estuarine areas. Another essential feature of the 
CERP is a Comprehensive Integrated Water Quality Strategy. This 
Strategy will identify pollution-impaired water bodies, quantify 
pollution levels, establish pollution load reduction targets, recommend 
potential source reduction programs, outline monitoring programs and 
evaluate design and construction of treatment facilities.
    Water quality protection and restoration is an essential component 
of the CERP. It is not possible to get the water right without 
simultaneously assuring that water quality is adequate for meeting 
environmental, urban, and agricultural needs. The CERP assumes that 
Florida's effort to control phosphorus loading to the Everglades is 
successful by 2006, and other appropriate remediation projects are put 
in place by state or local governments. However, water quality 
protection is not an authorized purpose of the Central and Southern 
Florida Project. EPA recommends that the Water Resources Development 
Act (2000) contain language that specifically identifies improvement of 
water quality for ecosystem restoration, protection and preservation as 
a Central and Southern Florida project purpose.
    EPA supports the Army Corps of Engineers' request that project 
features needed to provide water of adequate quality be included to 
help in restoring, protecting, and preserving the South Florida 
ecosystem. EPA recommends that in doing this, applicable Federal water 
quality standards, and applicable federally approved water quality 
standards developed by the state or Indian tribes and the plans to 
implement the standards should be taken into account.

    Question 2: This year in the Interior Appropriations bill, 
Congressman Regula called for the development of ``assurances'' 
language that would ensure that the park and natural systems in the 
Everglades region receive adequate quantities of water. I know that the 
Administration and the state are working very hard to develop this 
language for inclusion into the Administration's WRDA proposal. Can you 
describe for me the basic principles that you feel are critical 
elements of this language and why?
    Response. ``Getting the Water Right'' (quality, quantity, timing 
and distribution) is absolutely essential to accomplishing the goal of 
South Florida ecosystem restoration and the CERP is focused on doing 
just that. Therefore, EPA strongly supports the development of language 
that ensures the natural systems in the Everglades region receive 
adequate and appropriate quantities of freshwater. However, we would 
defer to the Department of the Army, Department of Interior, and the 
Corps of Engineers to provide the specific WRDA language addressing 
this need.
    EPA believes it is equally critical that ``assurances'' language 
addressing the need to restore and protect the water quality of the 
natural systems also be incorporated into WRDA. In WRDA 1996, the 
Project authorization was modified to include Environmental Protection 
and Restoration. The following language was added:
    (b)(4) General Provisions
    (A) Water Quality--In carrying out activities described in this 
subsection and sections 315 and 316, the Secretary
    (i) shall take into account the protection of water quality by 
considering
    applicable State water quality standards; and
    (ii) may include in projects such features as are necessary to 
provide water to restore, preserve and protect the South Florida 
ecosystem.
    Although WRDA 1996 added this water quality provision, it is 
discretionary. It also does not appear to apply to the existing project 
features. As a result, EPA believes that consideration should be given 
to amending the basic project purpose to include water quality as a 
purpose equal to flood control and water supply.

    Question 3: In your testimony, you mentioned that the wastewater 
reuse plants in the Restudy would be eligible for SRF funding. However, 
these plants are designed to provide water directly to Biscayne Bay 
National Park, not for municipal wastewater treatment. In that case 
please clarify if these projects would be eligible for SRF funding.
    Response. Generally, the costs of capital upgrades for wastewater 
treatment are eligible for loans under the Clean Water State Revolving 
Fund (SRF). It is important to note, however, that local communities 
typically are responsible for both repaying SRF loans and for covering 
the costs of annual operation/maintenance for treatment plants. 
Although projects like this are eligible, other sources of funding are 
necessary because Miami-Dade County is under no obligation to apply for 
loans or to improve treatment to a level suitable for Biscayne National 
Park or the Bird Drive-Everglades Basin wetlands. The purpose of the 
facilities is to provide clean freshwater to the environment during the 
dry season when the other restudy components will not have enough extra 
water available for the Biscayne Bay/Everglades restoration effort.
                                 ______
                                 
 Responses by Carol Browner to Additional Questions from Senator Smith
    Question 1: I understand that polluted runoff is now being 
discharged, untreated, through the canal system into Florida Bay and 
the Biscayne Bay. What does the Administration propose to do to address 
this problem and ensure that water quality standards are met all the 
way down to the Florida Keys?
    Response. The CERP contains two components that will help prevent 
the discharge of untreated runoff through the canal system. The 
Biscayne Bay Coastal Wetlands (feature FFF) include 13,600 acres of 
wetlands near the Biscayne Bay coast that will be rehydrated in order 
to reduce pollutant transport into the Bay. Surface water now entering 
the Bay through canals will be redistributed as surface water 
sheetflow, restoring or enhancing freshwater wetlands, tidal wetlands, 
and near-shore bay habitat such as nursery areas for fish and 
shellfish. The sheetflow through wetlands will also cleanse water 
before it reaches the Bay while simultaneously reducing abrupt 
freshwater discharges that stress nearshore bay habitats and aquatic 
life.
    Similarly, the C-111N Spreader Canal (feature WW) will improve 
water deliveries to Florida Bay by restoring sheetflow and minimizing 
canal pulse discharges. This feature also includes a stormwater 
treatment area in case it is needed to assure that clean water is 
delivered to the Bay. All other water that flows into Florida Bay (the 
majority of flow to the Bay) is sheetflow that travels up to 30 miles 
through the pristine marshes within Everglades National Park before 
reaching Florida Bay. This water is very clean before it reaches the 
Bay.
    The Administration has another major effort underway independent of 
the CERP to address water quality concerns in the Florida Keys. The 
Florida Keys National Marine Sanctuary Water Quality Protection Program 
was initiated by EPA in coordination with the Department of Commerce 
and the State of Florida, as required by the U. S. Congress in the 1990 
Florida Keys National Marine Sanctuary and Protection Act. The 
Sanctuary includes 2800 square nautical miles of nearshore waters 
encompassing the Florida Keys. This Program recommends priority 
corrective actions and compliance schedules to address point and non-
point sources of pollution to restore and maintain the chemical, 
physical and biological integrity of the Sanctuary. It includes 
restoring and maintaining populations of corals, shellfish, fish and 
wildlife, while providing recreational activities. Two major components 
of this program that have been developed are a Wastewater Master Plan 
that addresses sewage collection, treatment and disposal throughout the 
Keys, and the Stormwater Master Plan that addresses stormwater runoff 
to coastal waters throughout the Keys.

    Question 2: In your testimony, you stated that the CERP 
(Comprehensive Everglades Restoration Plan) does not limit the 
Stormwater Treatment Areas (STA) to the 36,000 acres being proposed. Is 
more such area needed for additional STAs? Is 36,000 acres not 
adequate? How many STAs have been completed and how many need to be 
completed? Please comment on the effectiveness of this method of 
reducing the levels of pollutants such as phosphorus and mercury.
    Response. The STAs proposed in the CERP are included to ensure that 
the quality of waters to be rerouted/discharged as a result of the 
numerous drainage and storage modifications anticipated are adequate to 
protect the quality of the downstream receiving waters. As discussed 
below, the use of STAs to restore the water quality is based on 
experience from other Everglades restoration projects in South Florida. 
The size and general location of the CERP STAs were based on modeling 
efforts by the COE. But this is intended to be a dynamic process, as 
additional information is developed, the underlying assumptions may 
change. As part of the CERP a Comprehensive Water Quality Protection 
Plan for South Florida is to be developed. Through that effort it is 
very possible that the need for additional STAs could be identified.
    Currently, the only STAs in existence or being designed or 
constructed are those required to be constructed within the Everglades 
Agricultural Area under a Federal/State consent decree and the State of 
Florida's Everglades Forever Act (EFA). Under the EFA, to date, STA 1-
West (6,670 acres) and STA 6 (2,280 acres) are operational and 
construction of STA 2 (6,430 acres) and STA 5 (4,118 acres) is nearing 
completion. STA 1-East (5,350 acres) and STA 3/4 (16,480 acres) are 
currently being designed. Once completed the total effective treatment 
area for all six STAs will be approximately 41,300 acres. The CERP 
tiers off of these ongoing projects and assumes the EFA projects will 
be fully implemented.
    In accordance with the EFA, which required agricultural Best 
Management Practices, the STAs are being designed and constructed to 
achieve an interim target of 50 ppb (parts per billion). To date, the 
Everglades Nutrient Removal (ENR) Project , the prototype stormwater 
treatment area, has been effective at removing phosphorus. Results from 
the ENR Project have validated the premise that treatment wetlands 
(i.e. STAs) constructed on former agricultural lands can effectively 
remove total phosphorus from Everglades Agricultural Area runoff and 
achieve the interim outflow concentration limit of 50 ppb specified in 
the EFA. In fact, the ENR Project, now part of STA 1-West, is exceeding 
its performance objective in terms of phosphorus concentration and load 
reduction. During the first 5 years of operation, the project outflow 
concentrations have averaged 22 ppb and load reductions have exceeded 
82 percent. It should be noted that these reductions in phosphorus 
loading have occurred during the early stages of STA operation, and 
they may not be representative of future long-term performance. The 
evidence to date, however, supports the basic assumptions and design 
parameters used in planning the STAs, and they are expected to achieve 
the goals of the EFA.
    Methylmercury, a very toxic, organic form of mercury, is produced 
naturally through biotic processes in Everglades peat soil from some of 
the inorganic mercury present in stormwater runoff and rainfall. Once 
converted, methylmercury is accumulated by aquatic organisms. On an 
annual average basis, during its operational lifetime, the ENR project 
has removed between 50 percent and 75 percent of the mercury from 
inflow water. According to findings reported in the 2000 Everglades 
Consolidated Report by the South Florida Water Management District, 
``operating the Stormwater Treatment Areas with higher flows and deeper 
water during high rainfall years is likely to maximize the removal 
efficiency of both total mercury and methylmercury.'' However, since 
more than 95 percent of the recent total mercury load to the Everglades 
each year is from atmospheric deposition and most of it is downstream 
from the ENR, the ENR can make only a very limited contribution to 
reducing mercury levels in fish in the Everglades.

    Question 3: In your written statement, you mention that the water 
storage areas, ``will render major water quality benefits to both 
inland and coastal waters and benefits to the wetland habitat of the 
Everglades ecosystem.'' Can you explain what specific benefits you 
envision? How will storing water in limestone quarries improve coastal 
water quality? Do you expect that the stored water will effectively be 
treated in some way through storage?
    Response. A pervasive ecological/water quality problem in South 
Florida is the pulse flows of huge quantities of fresh water to 
estuaries during wet periods which result in extreme salinity 
fluctuations and place tremendous stress on the biological community 
residing in those estuaries. The above ground storage facilities 
proposed in the CERP would first function to capture large volumes of 
wet season freshwater flows that would otherwise be directly discharged 
to the estuaries. The waters could then be released at a later time in 
a more gradual manner such that the salinity fluctuation experienced by 
the estuaries would be significantly reduced. For example, with the 
above ground and ASR storage facilities proposed in the Lake Okeechobee 
area, the problematic pulse flows currently experienced by the 
Caloosahatchee and St. Lucie estuaries are projected to be virtually 
eliminated.
    The operating depth for the vast majority of the above ground 
storage facilities proposed in the CREP is 6 feet. At this depth it is 
anticipated that these storage facilities will become populated with a 
wide variety of submersed and emergent aquatic plants. Along with the 
physical settling of solids and contaminants associated with those 
solids we expect the aquatic plant community in the storage facilities 
to also provide additional water quality treatment to the stored 
waters. In addition to the water quality improvements associated with 
the relatively shallow storage facilities, we anticipate that these 
facilities will offer desirable habitat and attract a wide variety of 
birds, mammals, fish and reptiles, thus contributing to the biological 
health and abundance of the region.
    An additional water quality benefit that may well be realized by 
the above ground water storage facilities proposed on the former 
Talisman properties in the Everglades Agricultural Area is that of peak 
flow attenuation (flow equalization) for waters entering STA 3/4 (one 
of the STAs required under the EFA). By providing a more uniform inflow 
volume to the STAs, it is likely that the treatment capability of the 
STAs could be enhanced, thus producing a better quality of water to be 
discharged to the Everglades.
    The waters to be stored in the limestone quarries in northwest 
Miami-Dade County (Lake Belt Area) are expected to provide the same 
benefits to the coastal estuaries as the above ground storage 
facilities already discussed. Freshwater that would otherwise be 
discharged through the canals to Biscayne Bay in a pulsed flow manner, 
would be stored.
    The waters to be stored in the central Lake Belt quarries will come 
primarily from the nearby Everglades water conservation areas during 
wet periods and will be returned to the water conservation areas during 
drier times. The stored water should be of good quality since it 
originated in the water conservation areas and not need much, if any, 
treatment prior to its discharge back to the water conservation areas. 
The ecological benefit derived from this water storage scenario is the 
water level relief provided to the water conservation areas. High water 
levels can cause significant damage to the critical tree island 
habitats and to the animal populations in the water conservation areas. 
Storing water in the nearby limestone quarries should provide some 
relief from those high water levels.
    The waters to be stored in the limestone quarries in the northern 
Lake Belt region will come primarily from the nearby urban canals. 
Obviously, these waters will contain some levels of contaminants. Due 
to the deep and quiescent nature of the quarries it is anticipated that 
some of the contaminants will be removed through physical settling. The 
stored water then will be returned to the canal system where it should 
help to recharge the Biscayne Aquifer. To ensure that the waters to be 
discharged are of acceptable quality, contiguous stormwater treatment 
areas are proposed in the CREP, if needed.
    In order to store the water in the quarries, the sides of the 
quarries will be either lined or have slurry walls installed to prevent 
the lateral migration of the waters out of the quarries. These liners 
would also act to prevent the lateral migration of pollutants 
discharged to the quarries from the urban canals. Lining the bottom of 
the quarries is not currently proposed, and the extent of vertical 
migration of the pollutants needs to be further investigated.
    The quarries in the northern Lake Belt region which will receive 
the waters from the urban canals are far enough away from the Miami-
Dade County well fields that contamination problems are not 
anticipated. However, as this storage concept is further refined, more 
investigative work on that issue will be needed.

    Question 4: At the hearing, you seemed unclear about the presence 
of combined sewer overflows (CSOs) in the State of Florida. Can you 
clarify for the record whether CSOs pose a problem, particularly in the 
southern half of the state. Would an increase in population such as 
that being expected over the next 50 years impact the current system in 
any manner?
    Response. We are not aware of any CSOs in the State of Florida. 
Unlike most northern cities, the sanitary sewer systems in Florida are 
relatively new and most were constructed as separate systems. Some time 
ago the City of Sanford had a combined sewer system which was, in fact, 
problematic with respect to downstream water quality. Through the use 
of Construction Grants and local funds those systems were separated a 
number of years ago.
    Approximately 10 years ago a problem with Sanitary Sewer Overflows 
(SSOs), compounded by a minor contribution from a small area with a 
Combined Sewer System, was identified in the Metropolitan Miami area. 
These problems are currently being corrected as a result of a Federal 
Consent Decree and a State of Florida Settlement Agreement with the 
Miami-Dade County Water and Sewer Authority.
    Due to the density of development expected with the projected 
population increases over the next 50 years, we anticipate that most of 
this development will be served by new or expanded separate sanitary 
sewers. However, in some of the more isolated or less densely developed 
areas wastewater treatment and disposal using septic tanks serving 
single family homes also will occur undoubtedly. Construction of 
combined sewers is not allowed under state law. Construction and 
operation of the wastewater collection, treatment and disposal systems 
to serve this expanded population will continue, as usual, to be 
expensive and challenging especially with regard to how to reuse or 
dispose of the treated wastewater.

    Question 5: Is EPA concerned that injecting billions of gallons of 
water into approximately 300 underground storage facilities in the 
upper Floridan aquifer will result in the concentration of that stored 
water with the salt water that currently exists in the aquifer? If the 
storage facilities were to leak and salt water were to intrude, what 
would be the potential costs to treat the water?
    Response. The reason the ASR wells are proposed in the CERP is a 
recognition of the very critical need to have a system to store water 
during the wet season for use during the dry season. Because of 
increased urban and agricultural water needs, and the fact that South 
Florida has been so extensively ditched and drained, Florida needs more 
water at different times of the year, and at the same time it has lost 
a significant amount of its capacity to store water. In general there 
is either too much water during the wet season or too little water 
during the dry season. With the construction of the C&SF project the 
groundwater table over thousands of square miles of South Florida was 
significantly lowered to alleviate flooding problems in urban and 
agricultural areas. During the wet season, the C&SF system is operated 
to rapidly drain off excess water. Because this water is rapidly 
drained to tide during the wet season, during the dry season there 
sometimes isn't enough water to satisfy all of the urban, agricultural, 
and natural system needs of the region. As the area grows these 
extremes will be exacerbated without the above ground and ASR wet 
season water storage components proposed in the CERP.
    There seems to be a misunderstanding regarding how the proposed 
aquifer storage and recovery (ASR) facilities would actually work. The 
proposed facilities would involve injecting a maximum of 5 million 
gallons/day/well of fresh water from various surface water sources such 
as Lake Okeechobee and the Caloosahatchee River during the wet season 
through an injection well into the relatively shallow (1000 to 1500 
feet deep) Floridan aquifer. The total capacity of all of the proposed 
wells would be approximately 1.65 billion gallons/day. Since the 
Floridan aquifer in the area is brackish, the ``storage'' concept is 
that the injected freshwater would form a ``bubble'' that actually 
``floats'' on top of the denser brackish aquifer water. Therefore, at 
the interface between the freshwater bubble and the brackish aquifer, 
the waters would be in direct contact. There are no actual physical 
facilities (storage tanks) that will be constructed underground to 
store the injected water. The water is actually stored in the voids 
(spaces) that exist within the formation materials (limerock). 
Therefore, there are no physical facilities to ``leak.'' Depending on a 
number of factors, such as the transmissivity of the aquifer, the 
amount of interaction/mixing between the brackish and freshwaters will 
vary. If done properly, however, the mixing should be minimal. This 
physical solution, which must be engineered in Florida, actually 
simulates the natural equilibrium that occurs between salt and fresh 
waters in most coastal areas.
    For the 200 wells envisioned to be located around Lake Okeechobee, 
the proposal is for the waters to be withdrawn from the wells and 
discharged back into the lake or into nearby surface waters. Since Lake 
Okeechobee is a freshwater lake EPA would be very concerned if there 
was significant mixing of the injected waters with the brackish aquifer 
waters such that the waters to be discharged back to the lake had a 
high salinity concentration, a low dissolved oxygen level or a 
significantly different pH. In the CERP, the Corps did provide some 
cost estimates for minimal water quality treatment facilities, 
primarily to re-aerate the recovered water, if needed. The cost 
estimate for re-aerating the recovered water from the Lake Okeechobee 
ASR wells was $ 3.0 million. The cost estimates are very preliminary. 
The proposed ASR Pilot Projects should help address the need to treat 
the recovered water and provide more accurate estimates of the costs of 
that treatment.
    For some of the other proposed ASR wells the water would be 
withdrawn and pumped directly to drinking water treatment facilities. 
The Floridan aquifer waters are brackish. If the upper Floridan aquifer 
was currently used as a source of drinking water, membrane treatment 
technology would have to be used to treat those waters to produce a 
finished drinking water. With the injected water, if the ``freshwater 
bubble'' is maintained, the pumped water will not be brackish and would 
not require significant additional treatment, provided other 
contaminants are not present. If the ``bubble'' did not remain intact, 
the salinity of the withdrawn water would be lower than the Floridan 
aquifer, but would most likely require additional treatment.
    There are 333 ASR wells proposed in the CERP; 200 wells around Lake 
Okeechobee, 44 wells along the Caloosahatchee River, 30 wells near the 
proposed Site 1 impoundment, 34 wells along the C-51 Canal, 15 wells 
near the Ag. Reserve reservoir, and 10 wells along the L-8 Canal. 
According to the Corps of Engineers, all of the waters to be withdrawn 
from the ASR wells would first be returned to either the surface water 
body from which the injected water was originally obtained, or 
discharged directly to the proposed impoundments/reservoirs. The wells 
are to be used primarily to store waters that are currently discharged 
to tide.
    In order for the withdrawn waters to be discharged directly back to 
the surface water bodies, or to existing or proposed reservoirs/
impoundments, the salinity concentrations would have to be low enough 
so that water quality problems/violations would not result. In a few 
cases, the waters would be discharged to an existing or proposed 
reservoir that is, or would be, used as a surface water supply for 
local drinking water treatment facilities. In these instances, through 
permit conditions, the salinity concentrations would not be allowed to 
reach problematic levels. Therefore, if the injected waters and the 
brackish Floridan aquifer waters do mix significantly at specific 
wells, resulting in high salinity concentrations, those ASR wells could 
not be used as proposed. In order for the ASR wells to be successful, 
and useful, the freshwater ``bubble'' must not mix significantly with 
the brackish Floridan aquifer waters.
    During the development of the ASR storage concept as part of the 
CERP, several local water utilities did propose the concept of taking 
the waters withdrawn from the ASR wells directly to existing or new 
drinking water facilities. In all of these instances, the existing or 
proposed facilities would use a membrane treatment technology, 
primarily to satisfy current drinking water criteria and to also remove 
the chlorides from their brackish, upper Floridan, source waters. It 
costs approximately $1.30 to $1.40 per thousand gallons for a membrane 
treatment facility versus $1.00 per thousand gallons for a lime 
treatment facility.

    Question 6: What potential alternatives does the Administration 
have at this time should the Aquifer Storage and Recovery system not 
work on the scale proposed by the Comprehensive Plan?
    Response. If the ASR components are not as successful as expected, 
then it is likely that the CERP would be adjusted to include more above 
ground surface water storage. It is expected that the acreage and 
volume capacity of currently proposed above ground reservoirs, 
especially in the vicinity of Lake Okeechobee, could be increased. It 
is also likely that the depths of the proposed reservoirs could be 
increased. However, even with this increase in storage capacity the 
ability to capture and store wet season freshwater flows across South 
Florida for use in environmental restoration purposes would be reduced 
if planned ASR facilities are unsuccessful.
    Although ASR facilities were first used in Florida in 1982, ASR 
wells have never been used on such a large scale and in such a variety 
of geologic conditions as proposed in the CERP. An Aquifer Storage and 
Recovery Team has been formed to work through the various surface 
water, hydrogeological, and water quality uncertainties. Since 
implementation of ASR facilities is expected to occur incrementally 
over a 20 year period, there will be ample time for re-evaluations. 
Pilot projects will evaluate the effectiveness of the technology. If 
ASR use is reduced or eliminated, other features will be substituted.
                               __________
 Statement of Dr. Joseph W. Westphal, Assistant Secretary of the Army 
                            for Civil Works
Rescuing an Endangered Ecosystem: The Plan to Restore America's 
        Everglades
    Mr. Chairman, members of the Committee, I am Joseph Westphal, 
Assistant Secretary of the Army for Civil Works. Sitting with me today 
is Mr. Michael Davis, my Deputy Assistant Secretary for Policy and 
Legislation. Also, with me is Colonel Joe Miller and members of his 
staff from the Jacksonville District. We are pleased to be here today 
to present the Administration's and the Army's views on an important 
national issue the restoration of America's Everglades.
    An American treasure is in trouble. Once the Florida Everglades was 
a vibrant, free-flowing river of grass that provided clean water from 
Lake Okeechobee to Florida Bay. It was a haven for storks, alligators, 
panthers and other wildlife and was critical to the health of estuaries 
and coral reefs. Today this extraordinary ecosystem--unlike any other 
in the world--is dying.
    Over the past half-century, as the population of south Florida has 
grown, the health and size of the Everglades have steadily declined. 
Fully half the Everglades have been lost to agriculture and 
development. And the surviving remnants suffer from a severe shortage 
of clean, reliable water. In our efforts to guard communities against 
flooding and to ensure adequate water supplies for drinking and 
irrigation, we have diverted the natural water flows that are the 
essence and very lifeblood of the Everglades.
    As Marjory Stoneman Douglas said in The Everglades: River of Grass, 
``There are no other Everglades in the world.'' Like the tropical 
rainforest of South America and the giant redwood forest of the west, 
the Everglades is a unique ecosystem. We must act now, and act 
aggressively, if we are to save this special place.
    On July 1, 1999, the Vice President, on behalf of the 
Administration, and in partnership with the State of Florida, submitted 
to Congress a comprehensive plan to restore the South Florida 
ecosystem, which includes the Everglades, Lake Okeechobee, Florida Bay, 
and Biscayne Bay. This Comprehensive Everglades Restoration Plan 
(CERP), which will be implemented over the next 25 years, will:

    <bullet>  Improve the health of over 2.4 million acres of the south 
Florida ecosystem, including Everglades National Park;
    <bullet>  Improve the health of Lake Okeechobee;
    <bullet>  Virtually eliminate damaging freshwater releases to the 
estuaries;
    <bullet>  Improve water deliveries to Florida and Biscayne bays;
    <bullet>  Improve water quality; and
    <bullet>  Enhance water supply and maintain flood protection.

    The CERP, which was formally known as the ``Restudy,'' is the most 
ambitious ecosystem restoration project ever undertaken in the United 
States--if not the world. Its fundamental goal is to capture most of 
the fresh water that now flows unused to the sea and deliver it when 
and where it is needed most. Eighty percent of this ``new'' water will 
be devoted to environmental restoration, reviving the ecosystem from 
the Kissimmee River, through Lake Okeechobee, through Everglades 
National Park, to the coral reefs of Florida Bay. The remaining 20 
percent will benefit cities and farmers, enhancing water supplies and 
supporting a strong, sustainable economy for south Florida. In short, 
the CERP provides the necessary road map for improving the quantity, 
quality, timing, and distribution of the water so vital to the health 
of America's Everglades and the people of south Florida.
    The CERP was developed under the leadership of the U. S. Army Corps 
of Engineers and the South Florida Water Management District. Scores of 
scientists from many agencies, including the Everglades National Park, 
two Indian tribes, the Florida Department of Environmental Protection, 
and many local governments, have helped develop this plan. Extensive 
input has been gathered from interest groups and the general public. 
Twelve formal public meetings were held as well as scores of focused 
interest group meetings.
    While the CERP reflects the best available science, we are prepared 
to refine our thinking as we learn more. Thus the CERP is designed to 
be flexible, to incorporate and respond to new information as it 
becomes available. Continuous monitoring and independent scientific 
review are key components of the CERP. Still, we cannot wait for all 
the answers to begin. There is too much at stake and little time to 
act.
The Problem
    The Everglades of today are not the same place that Mrs. Douglas 
wrote about in 1947. Millions of people have encroached upon the 
ecosystem that once was the domain of panthers, alligators and flocks 
of birds so vast that they would darken the sky. With the arrival of 
people came the desire to manage the water, to tame the free flowing 
river of grass from Lake Okeechobee to the Florida Keys.
    The Central and Southern Florida Project was authorized by Congress 
50 years ago to provide flood protection and fresh water to south 
Florida. This project accomplished its intended purpose and allowed 
people to more easily live on the land. It did so, however, at 
tremendous ecological cost to the Everglades. While the population of 
people has risen from 500,000 in the 1950's to more than 6 million 
today, the numbers of native birds and other wildlife have dwindled and 
some have vanished. The size of the Everglades has been reduced by 
half.
    Over the past 100 years, excessive drainage of wetlands and changes 
in the natural variability of water flows have altered the Everglades 
wetland ecosystem on a regional scale. Today, discharges to the 
Everglades are often too much, or too little, and frequently at the 
wrong times of the year. An over-abundance or scarcity of water affects 
plants and wildlife accustomed to the Everglades' historic range of 
water flows, levels and seasons. In addition, canals and highways that 
criss-cross the Everglades have interrupted its historic overland sheet 
flow.
    Water quality throughout south Florida has deteriorated over the 
past 50 years. More than one-half of the wetlands that act as natural 
filters and retention areas are gone. Some untreated urban and 
agricultural storm water is sent directly to natural areas and 
estuaries. Too much, or too little, water is often sent to estuaries. 
Too many nutrients are entering the Everglades, with an over-abundance 
of cattails a visible indicator of the consequences.
    Historically, most rainwater soaked into the ground in the region's 
vast wetlands. As south Florida developed, the canal system built over 
the past 100 years worked effectively and drained water off the land 
very quickly. As a result, approximately 1.7 billion gallons of water 
per day on average is discharged to the ocean. One very significance 
consequence is that not enough water is available for the environment. 
Under current conditions, these natural systems cannot recover their 
defining characteristics and they will not survive. The growing demand 
for a reliable and inexpensive supply of water for agriculture, 
industry and a burgeoning population will likely exceed the limits of 
readily accessible sources. As the needs of the region's natural 
systems are factored in, as they must be, conflicts for water among 
users will become even more severe. Water shortages will become more 
frequent and more severe unless changes to the water management system 
are made. The health of the ecosystem will continue to decline unless 
we act.
The Comprehensive Everglades Restoration Plan
    First and foremost, the goal of the CERP is to restore, protect and 
preserve the south Florida ecosystem. The focus of the CERP has been to 
restore the defining ecological features of the original Everglades and 
other parts of south Florida ecosystem.
    Both the problems with declining ecosystem health and the solutions 
to Everglades restoration can be framed by four interrelated factors: 
quantity, quality, timing, and distribution of water. The principal 
goal of restoration is to deliver the right amount of water, of the 
right quality, to the right places and at the right time. The natural 
environment will respond to these hydrologic improvements, and we will 
once again see a healthy Everglades ecosystem. The CERP consists of 
over 60 components that work together to accomplish this.
    Quantity Significantly less water flows through the ecosystem today 
compared to historical times. As noted above, on average, 1.7 billion 
gallons of water that once flowed through the ecosystem is wasted each 
day through discharges to the ocean or gulf in excess of the needs of 
the estuaries. The CERP will capture most of this water in surface and 
underground storage areas where it will be stored until it is needed. 
Specifically, this water will be stored in more than 217,000 acres of 
new reservoirs and wetlands-based treatment areas, and 300 underground 
aquifer storage and recovery wells. These features vastly increase the 
amount of water available in south Florida.
    Quality The quality of water in the south Florida ecosystem has 
been diminished significantly. Excess phosphorus, mercury, and other 
contaminants harm the region's surface water and groundwater. The water 
quality of the Everglades Water Conservation Areas, the coastal 
estuaries, Florida Bay and the Keys show similar signs of significant 
degradation. The CERP will improve the quality of water discharged to 
natural areas by first directing it to surface storage reservoirs and 
wetlands based stormwater treatment areas. In addition, the CERP 
recommended the development of a comprehensive integrated water quality 
plan for the region that will further improve water quality.
    Timing Alternating periods of natural flooding and drying, called 
hydroperiods, were vital to the Everglades ecosystem. These natural 
hydroperiods have been severely altered by human activities. Restoring 
these variations in water flows and levels is an integral part of the 
CERP. Specifically, the timing of water held and released into the 
ecosystem will be modified by the CERP so that it more closely matches 
natural patterns. The CERP will reduce the harmful water levels that 
damage Lake Okeechobee and its shoreline. Improved water deliveries to 
the Caloosahatchee and St. Lucie rivers will reduce damage to the 
estuaries caused by too much or too little fresh water. Florida and 
Biscayne bays will receive improved fresh water flows. In other areas, 
an operational plan that mimics natural rainfall patterns will enhance 
the timing of water sent to the Water Conservation Areas, Everglades 
National Park, and other wildlife management areas.
    Distribution The areal extent and movement of water through the 
system is the final factor in the water equation. Over 50 percent of 
the original Everglades have been lost to urban and agricultural 
development. Further, the remaining ecosystem has been separated, or 
compartmentalized, by canals and levees. To improve the connectivity of 
natural areas, and to enhance sheetflow, more than 240 miles of levees 
and canals will be removed within the Everglades. Most of the Miami 
Canal in Water Conservation Area 3 will be filled and 20 miles of the 
Tamiami Trail will be rebuilt with bridges and culverts, allowing water 
to flow more naturally into Everglades National Park. In the Big 
Cypress National Preserve, the levee that separates the preserve from 
the Everglades will be removed to restore more natural overland water 
flow.
    In summary, the CERP will store much of the excess water that is 
now sent to the sea so there will be enough water to meet the needs of 
both ecosystem and urban and agricultural users. The CERP includes a 
number of features to improve the quality of water flowing to the 
natural environment. It will continue to provide the same level of 
flood protection for south Florida. The CERP is not perfect no plan 
could be given the complexity of the ecosystem and the effects of past 
modifications. We know that we do not have all the answers and that we 
will have to make adjustments as we learn more. In this regard, the 
concept of adaptive assessment is an integral part of the CERP. In 
short, we will monitor, use independent peer review, public input, and 
make necessary adjustments as we go, utilizing the effective 
interagency and multi-stakeholder partnerships that allowed us to 
develop the CERP.
    Why Restore the Everglades?
    Perhaps first and foremost, the Everglades are an American treasure 
that is in serious trouble. There is no other wetland system like the 
``River of Grass'' in the world. As with other great natural and 
cultural resources, we have a responsibility to protect and restore 
this treasure for generations to come.
    Implementing the CERP over the next 25 or so years will cost 
approximately $7.8 billion. While the cost of the project is 
substantial, it will be spread over many years and shared equally 
between the Federal Government and the State of Florida. More 
importantly, the environmental and economic costs of inaction are 
enormous. The Everglades will continue to die and water shortages will 
have real effects on Florida's economy.
    The benefits to the Nation of implementing the CERP are tremendous. 
The entire south Florida ecosystem, including the Everglades, will 
become healthy, with many of its natural characteristics restored. 
Urban and agricultural water users will also benefit from enhanced 
water supplies. Flood protection, so important to hurricane-prone south 
Florida, will be maintained and, in some cases, improved.
    The economic benefits from implementation of the CERP are wide-
ranging and are linked with the availability of clean, abundant water 
in the ecosystem. Not only is water the key to ecosystem restoration, 
it is also necessary for sustainable agricultural and urban 
environments. It is important for recreation, tourism and navigation. 
It plays a significant and obvious role in commercial and recreational 
fishing.
    With the CERP, the distribution of plants and animals will return 
to more natural patterns as more pre-drainage water flows are restored. 
The CERP will support the return of the large nesting ``rookeries'' of 
wading birds to Everglades National Park, and the recovery of several 
endangered species, including the wood stork, snail kite, Cape Sable 
seaside sparrow, and American crocodile. We are confident that 
implementation of the CERP will allow us to once again witness an 
abundance of wildlife in the Everglades.
    Lake Okeechobee, which is regionally important to fish and 
wildlife, will once again become a healthy lake. Both the shallow and 
open water areas within the lake, essential to its commercial and 
recreational fishery, will be greatly enhanced by improved water 
levels. This will mean more abundant and healthier fish populations. 
Water quality in the lake will also be improved significantly by 
reducing the pollutant loading of water flowing into the lake.
    The CERP will also improve fresh water deliveries to Florida and 
Biscayne bays and the St Lucie and Caloosahatchee estuaries. 
Appropriate fresh water regimes will result in substantial improvements 
in aquatic and semi-aquatic habitats, including, mangroves, coastal 
marshes, and seagrass beds Interacting together to produce food, 
shelter, and breeding and nursery grounds; these coastal habitat areas 
will support more balanced, productive fish, shellfish, and wildlife 
communities.
    In short, the CERP will begin to reverse, in a relatively short 
time, the pattern of ecological degradation that has been occurring in 
the natural system for many decades. If we start now, the natural 
wetlands system of south Florida will be healthier by the year 2010.
    Like many other public works projects, implementing the CERP is an 
investment in the nation's future. With this investment, we can restore 
this unique ecosystem and leave a proud legacy for future generations. 
If we do not make the investment now, we will suffer the irretrievable 
loss of the Everglades.
    The estimated cost to implement the CERP is $7.8 billion. It will 
also cost approximately $182 million each year to operate, maintain, 
and monitor the CERP. Taken together over the more than 20 years needed 
to implement the CERP, the annual costs amount to just over $400 
million. In general, the Federal Government will pay half the cost and 
the State of Florida and the South Florida Water Management District 
will pay the other half.
    The Restoration Effort Begins with Authorization in the Water 
Resources Development Act of 2000
    In early 2000, the Administration will ask the Congress to 
authorize an initial package of projects that will begin implementation 
of the CERP. This request for authorization will be made through a 
proposed Water Resources Development Act of 2000. The initial 
authorization request will include 1) four pilot projects; 2) ten 
specific project features; and 3) a programmatic authority through 
which smaller projects can be quickly implemented. Authorization for 
the remaining 26 proposed projects will be requested in subsequent 
Water Resources Development Act proposals beginning in 2002.
    Pilot projects will address technical uncertainties. Prior to full-
scale implementation, six pilot projects, costing about $97 million, 
will be built to address uncertainties with some of the features in the 
CERP (two of these pilot project were authorized in the Water Resources 
Development Act of 1999). These six projects include aquifer storage 
and recovery in each geographic region that the technology is proposed; 
in-ground reservoir technology in the lake belt region of Miami-Dade 
County; levee seepage management technology adjacent to Everglades 
National Park; and advanced wastewater treatment technology to 
determine the feasibility of using reuse water for ecological 
restoration.
    Initial set of construction features will provide immediate system-
wide water quality and flow distribution benefits and use already 
purchased land. Ten projects, totaling $1.1 billion, are recommended 
for initial authorization. These projects were selected because they 
can provide system-wide water quality and flow distribution benefits to 
the ecosystem as well as opportunities to integrate these features with 
other ongoing Federal and State restoration programs. For example, if 
authorized, we could update the ongoing Modified Water Deliveries 
Project to make it more consistent with the CERP by taking immediate 
steps to improve flow distribution through the Tamiami Trail. In 
addition, the South Florida Water Management District and the U.S. 
Department of the Interior have already purchased lands, such as the 
Talisman lands, for a number of CERP components. Authorization of 
projects that use lands already purchased will ensure that these lands 
are utilized for restoration as soon as possible.
    Programmatic authority will expedite implementation. An 
authorization will be sought similar to the authorization received in 
1996 for Everglades Ecosystem Restoration Projects (Critical Projects). 
These projects would ``produce independent, immediate, and substantial 
restoration, preservation and protection benefits,'' and expedite some 
components of the CERP. The programmatic authority would be limited to 
those individual components of the CERP that have a total project cost 
of $70 million or less, with a maximum Federal share of $35 million per 
project. A total of 27 components of the CERP, with a total combined 
Federal and non-Federal cost of $490 million, could be implemented in 
an efficient and expedited manner. Components such as the Arthur R. 
Marshall Loxahatchee National Wildlife Refuge internal canal 
structures, the Lake Okeechobee watershed water quality treatment 
facility and the Florida Keys tidal restoration project could be 
accomplished under this programmatic authority.
    The remainder of the CERP's features to be included in future Water 
Resources Development Acts. Congress will be asked to authorize the 
remaining components of the CERP as more detailed planning is 
completed. At a cost of approximately $6.2 billion, the 26 remaining 
features will undergo additional studies and analysis before 
authorization is sought from Congress. Many of these project components 
are dependent on the results of the proposed pilot projects such as 
aquifer storage and recovery features and the in-ground reservoirs in 
Miami-Dade County. Based on the implementation schedule, project 
reports will be submitted to Congress periodically through the year 
2014.
    Implementation of the CERP provides flexibility to adapt to new 
information. No plan can anticipate how a complex ecosystem will 
respond during restoration efforts. For example, the remaining 
Everglades are only one-half as large as their original size and 
current boundaries often do not follow natural ground elevations or 
habitat patterns. For these and many other reasons, the ways in which 
this ecosystem will respond to the recovery of more natural water 
patterns could include some unforeseen outcomes. The CERP anticipates 
such outcomes. The CERP is designed to allow project modifications that 
take advantage of what is learned from system responses, both expected 
and unexpected. Called adaptive assessment, and using a well-focused 
regional monitoring program, this approach will allow us to maximize 
environmental benefits while ensuring that restoration dollars are used 
wisely. The monitoring program measures how well each component of the 
plan accomplishes its objectives, and, this, in turn, sets up 
opportunities for refinement of succeeding components. Independent 
scientific review through a National Research Council ``Science 
Advisory Review Panel'' is an integral part of this process.
    Project Implementation Reports bridge the gap between the CERP and 
detailed design. To continue project implementation, more technical 
information is needed. Additional plan formulation and engineering and 
design will be developed. Additional analysis of the impacts of the 
various projects on the environment, flood protection, water quality, 
economics and real estate will be developed as will supplemental 
National Environmental Policy Act documents. Evaluation of component 
contributions to CERP performance will also provide more information 
toward the overall process and provide opportunities for the overall 
refinement or modification to the CERP as needed. The results of these 
efforts will be documented in a series of Project Implementation 
Reports. These Project Implementation Reports are designed to bridge 
the gap between the conceptual level of the Comprehensive Plan and the 
detailed design necessary to proceed with construction.
    Public involvement key to CERP implementation. Continued outreach 
and public involvement are vital to the successful implementation of 
the CERP. In this regard, we will engage the public and stakeholder 
groups fully as each feature of the plan is sited, designed, and 
evaluated in detail. This will play a key role in shaping the details 
of numerous features of the CERP.
Conclusion
    July 1, 1999, was a historic day for ecosystem restoration. An 
unprecedented ecosystem restoration plan was presented to Congress for 
authorization. The CERP represents the best available science and a 
solid roadmap for restoring an American treasure, the Everglades. The 
CERP also represents a partnership between many Federal agencies, two 
Indian tribes, the State of Florida, and many local governments--all 
who recognize the import of this effort and the consequences of 
inaction. This partnership is vital to our long-term success and we 
must all work to ensure that it is sustained.
    The CERP is also a reflection of the contemporary Army Corps of 
Engineers. An agency that has made environmental restoration a priority 
mission.
    Restoration of the Everglades is a high priority for the Clinton/
Gore Administration, including the Army Corps of Engineers. It is a 
high priority for many in Florida, including the Florida Congressional 
delegation. We must make it a priority for the Nation. The Everglades 
are America's Everglades and each of us should try to understand better 
the importance of saving this treasure.
    The ecological and cultural significance of the Everglades is equal 
to the Grand Canyon, the Rocky Mountains or the Mississippi River. As 
responsible stewards of our natural and cultural resources, we cannot 
sit idly by and watch any of these disappear. The Everglades deserves 
the same recognition and support.
    We are now at an important crossroad in our efforts to restore this 
internationally important ecosystem. The future of the CERP now rests 
with the Congress who must authorize and fund its implementation. If we 
act now with courage and vision to implement the CERP we will be 
successful and we will leave a proud Everglades legacy. If we fail to 
act, our legacy will be one of lost opportunities for all future 
generations. The world is indeed watching as we make this choice.
    Mr. Chairman, that concludes our statement. For the record, we have 
included a copy of Rescuing an Endangered Ecosystem: The Plan to 
Restore America's Everglades. This document provides a more detailed 
summary of the CERP and includes important graphics that help 
illustrate many of the points made in this statement.
    Again, it has been a pleasure to participate in this hearing and we 
look forward to working with you, Senator Graham, and the rest of the 
Committee on this important issue. Mr. Davis and I would be pleased to 
answer any questions you may have.
                                 ______
                                 
Responses by Joseph Westphal to Additional Questions from Senator Smith
    Question 1. What potential alternatives does the Administration 
have at this time should the Aquifer Storage and Recovery system not 
work on the scale proposed by the Comprehensive Plan? What evidence is 
there to give the Administration confidence that the system will work 
on the scale being proposed?
    Response 1. Aquifer Storage and Recovery (ASR) is generally defined 
as ``the storage of water in a suitable aquifer through a well during 
times when water is available, and recovery of the water from the same 
well during times when it is needed.'' (Pyne, 1995) ASR facilities have 
been in operation in the United States for about 30 years. According to 
a report entitled ``Aquifer Storage and Recovery Issue Team Assessment 
Report and Comprehensive Strategy'' prepared for the South Florida 
Ecosystem Restoration Task Force Working Group in July 1999, the first 
ASR facility in Florida was permitted in 1982 and the State had six 
operational ASR facilities, with an additional 12 under construction in 
February 1998. In Florida, ASR is used to store surplus freshwater 
during the rainy summer season, for later use during the usually dry 
winter season. These facilities range in capacity from 1 to 15 million 
gallons of water per day. Also, a number of raw (untreated) ground 
water ASR facilities are currently under construction or in process of 
testing in Florida. Although a number of possible sources of water are 
available for use with ASR (treated surface and ground water, raw 
surface and ground water, reclaimed water), the technology itself is 
the essentially the same for each source.
    The use of ASR is increasing nationally since, with appropriate 
quality of the injected water, it creates few environmental impacts, is 
less expensive than many other water storage options, and can 
efficiently store water for later retrieval. Implementation of the 
planned ASR facilities in the Comprehensive Everglades Restoration Plan 
(CERP) is expected to take up to 20 or more years. The first stage will 
be a pilot program to test the ASR feasibility in specific locations 
such as around Lake Okeechobee. The Corps received authorization for 
the construction of two ASR pilot projects in the Water Resources 
Development Act of 1999. These projects included a pilot facility along 
Hillsboro Canal in southern Palm Beach County and a pilot project at 
the northern half of Lake Okeechobee. The Administration's legislative 
proposal will request authorization of a third pilot project along the 
Caloosahatchee River to complete the ASR testing. As a result of the 
pilot program and future modeling, the decision to either develop more 
ASR wells or end the development will be made. If the decision is to 
continue the development of more ASR wells, periodic evaluations will 
be made as the program progresses. If the decision is to discontinue 
ASR development, other options will immediately be evaluated as 
substitutions for ASR to make-up for performance reductions. Potential 
alternatives to the proposed ASR components may include: increasing 
storage quantity by raising water levels in Lake Okeechobee; deepening 
proposed surface water storage reservoirs or providing additional 
storage reservoirs in the system; and developing alternative water 
sources, including water reuse facilities, desalination features, and 
use of Florida Aquifer water with treatment. After considering the 
efficiencies, ecological impacts, land requirements, and costs, the ASR 
was considered the best alternative to achieve the objectives of the 
CERP.

    Question 2. Dr. Westphal, it is my understanding that under the 
present system, 70 percent of water deliveries are devoted to urban/
agricultural use and 30 percent to the environment. The CERP calls for 
80 percent of the so-called ``new water'' that is captured under the 
plan to be devoted to the environment and 20 percent to urban/
agricultural use.

    Question 2a. Was the 80-20 split a scientific determination based 
on what would be most beneficial to the environment?
    Response 2a. Yes. Hydrologic performance measures and ecological 
outputs were developed for each area of the ecosystem based on 
scientific analysis of ecosystem needs. These performance measures, 
which involved four interrelated factors: quantity, quality, timing, 
and distribution of water, were used to evaluate the performance of the 
CERP. Following that analysis, a water budget analysis of the Plan was 
conducted. The CERP will capture most of the water that is wasted each 
day through discharges to the ocean or gulf in surface and underground 
storage areas where it will be stored until it is needed. Eighty 
percent of this captured water will be devoted to environmental 
restoration. The remaining 20 percent will benefit cities and farmers, 
enhancing water supplies and supporting a strong, sustainable economy 
for south Florida well into the 21st Century.

    Question 2b. Are there safeguards in place to ensure that, indeed, 
80 percent of the ``new water'' will be delivered to the Everglades 
ecosystem?
    Response 2b. The primary and overarching purpose of the 
Comprehensive Plan is to restore the south Florida ecosystem. 
Accordingly, to ensure the successful implementation of the 
Comprehensive Plan, the Corps will continue to work with the Department 
of the Interior, the Environmental Protection Agency, and other Federal 
agencies and the State of Florida to develop the necessary assurances 
to ensure that the natural system benefits are achieved and maintained. 
The assurances will address the proper quantity, quality, timing, and 
distribution of water for the natural system.
    A major strength of the CERP is that its flexibility allows for 
opportunities to make further improvements as we refine individual 
projects and obtain new information. It contains an aggressive adaptive 
assessment strategy that includes independent scientific peer review 
and a process for identifying and resolving uncertainties. Operational 
rules are critical to maintaining the benefits of ecosystem restoration 
envisioned in the Comprehensive Plan. We will monitor and periodically 
revise our rules regarding the operation of the Central and Southern 
Florida Project to ensure that the hydrologic and ecological benefits 
anticipated in the Plan are maintained. This recurring evaluation of 
operational rules is appropriate considering that the restoration 
project is justified on the basis of environmental benefits. Further, 
the Administration's proposed legislation to authorize the Plan will 
include assurance language on the future evaluation of project features 
and to ensure that the benefits to the natural system will be achieved, 
maintained and preserved.

    Question 2c. In the case of a dry year, if an optimal amount of 
water is not captured, does the split remain 80-20 or does the 
environment have ``first dibs,'' so to speak?
    Response 2c. The distribution of water at any moment in time will 
be based on the needs of the natural system as identified by a rainfall 
model. The Everglades naturally experienced dry periods and we would 
expect to mimic these conditions. Operational rules and procedures 
established as part of the implementation process for the CERP will 
ensure that the ecosystem receives water based on the natural system 
need during dry years. The Administration's proposed legislation will 
include appropriate assurance language to ensure that the benefit to 
the natural system will be maintained and preserved.

    Question 2d. Would the expected increase in Florida's population or 
development of urban areas of South Florida impact the proposed 
delivery of new water?
    Response 2d. No. The Comprehensive Plan was formulated and 
evaluated with full recognition of the anticipated increase in 
population in south Florida over the next 50 years. Therefore, the Plan 
will be able to deliver the appropriate amount of water to the 
ecosystem with an increased population.

    Question 2e. How do you respond to criticism that this restoration 
effort is nothing more than a water supply plan?
    Response 2e. The existing Central and Southern Florida Project, 
which was first authorized in 1948, is a multi-purpose project that 
provides flood protection, water control, regional water supply for 
agricultural and urban uses, prevention of salt water intrusion into 
coastal wellfields, preservation of fish and wildlife resources, and 
recreation. Regional water supply is provided by the project through 
the maintenance of ground water levels, recharge of ground waters, and 
prevention of saltwater intrusion rather than through direct withdrawal 
of water.
    The CERP consists of 68 components. Of the 68 components that 
comprise the Plan, only 11 components provide direct or indirect water 
supply for urban or agricultural uses. If the Plan had been developed 
as a single-purpose ecosystem restoration plan, 10 of those 11 
components would not have been significantly different since they would 
still need to capture and store water needed for restoration. Together 
these features provide the quality, quantity, timing, and distribution 
of flows to the ecosystem. [Example, one of the cells in the proposed 
Everglades Agricultural Area (EAA) reservoir catches EAA runoff that 
would otherwise flood the water conservation areas. This same cell also 
releases that water to the EAA for agricultural water supply. That in 
turn reduces the EAA's reliance on Lake Okeechobee for water supply in 
the dry season. This reduced reliance of the EAA on Lake Okeechobee 
ensures that more water is available to the natural system. Thus, this 
single reservoir area within the EAA provides water supply and water 
quality to both the Everglades ecosystem as well as to urban and 
agricultural users.]
    Finally, the overarching purpose of the Comprehensive Plan is to 
restore, preserve, and protect the south Florida ecosystem, while 
providing for the other water-related needs of the region. The 
overwhelming majority (80 percent) of ``new water'' captured by the 
Comprehensive Plan will be provided to the natural system. This will 
ensure that the ecosystem will receive the water it needs for 
restoration.

    Question 3a. WRDA 1996 stipulates that Operation and Maintenance 
(O&M) shall be a non-Federal responsibility. Yet the CERP proposes that 
the Federal Government assume 50 percent of this cost, estimated to be 
$182 million a year once all components of the project are implemented. 
How does the Corps justify this extra Federal expenditure?
    Response 3a. Mr. Chairman, I would like to provide clarification on 
the recommended O&M cost sharing for the Plan. The Jacksonville 
District's Comprehensive Review Study (Restudy) completed in April 1999 
recommended 50-50 cost sharing for annual O&M of the Plan. This 
recommendation was based on their determination that the Plan will 
provide substantial benefits to Federal lands. The Chief of Engineers 
report recommended O&M cost sharing in accordance with the Water 
Resources Development Act of 1996 that established O&M is a non-Federal 
responsibility. When I transmitted the CERP to Congress on July 1, 
1999, my letter indicated that this is a very important issue that will 
require further review before I could make a final recommendation. In 
this regard, the Army's legislative proposal will include my 
recommendation on O&M cost sharing on behalf of the Administration.

    Question 3b. I understand that Everglades National Park, Biscayne 
National Park, Big Cypress National Preserve, and Loxahatchee National 
Wildlife Refuge will all benefit from the proposed plan. If that is the 
case, then shouldn't the Department of Interior be sharing the cost of 
O&M since these are DOI administered lands?
    Response 3b. The CERP will provide benefits to DOI administered 
lands including Everglades National Park, Big Cypress National 
Preserve, Loxahatchee National Wildlife Refuge, and Biscayne Bay. The 
Chief of Engineers recommended that O&M is a non-Federal responsibility 
in accordance with the Water Resources Development Act of 1996, and 
therefore, no consideration was given to potential funding for O&M from 
DOI or other Federal agencies. We are currently engaged in discussions 
within the Administration on this issue and the Army's legislative 
proposal will include my recommendation on O&M cost sharing on behalf 
of the Administration.

    Question 4. What would be the effects on the ecosystem if 
implementation of the Plan were delayed and only pilot projects 
authorized in WRDA 2000? Alternatively, what if authorization of some 
of the pilot projects were delayed?
    Response 4. The features of the CERP which are recommended for 
authorization in WRDA 2000 include projects that are necessary to 
expedite ecological restoration of the Everglades and other south 
Florida ecosystems. Authorization of these features in WRDA 2000 will 
ensure maximum integration with ongoing Federal, State, and local 
ecological restoration and water quality improvement programs. The 
immediacy for authorization of these select features involves two 
factors: (1) efficiency with ongoing projects; and (2) realizing the 
benefits of Federal investments already undertaken. Authorization of 
these features in WRDA 2000 will maximize the opportunity to integrate 
them with other ongoing Federal and State programs. It is anticipated 
that this would ultimately result in substantial cost savings to the 
Federal Government while expediting the restoration of an ecosystem in 
serious trouble. Furthermore, the South Florida Water Management 
District and the U.S. Department of the Interior have purchased lands 
associated with a number of components of the Comprehensive Plan, 
including nearly 51,000 acres of land as a result of the purchase and 
exchange of the Talisman property in the Everglades Agricultural Area 
(EAA) for water storage. Immediate authorization of the components that 
use these lands will improve timing of environmental water deliveries 
to the Water Conservation Areas including reducing damaging flood 
releases from the EAA to the Water Conservation Areas, reduce Lake 
Okeechobee regulatory releases to estuaries, meet supplemental 
agricultural irrigation demands, and increase flood protection within 
the EAA.
    Pilot projects are needed to address technical uncertainties 
associated with some of the physical features that are proposed in the 
Comprehensive Plan. To ensure that the Comprehensive Plan is 
implemented in a timely manner, it is necessary to expedite the pilot 
projects. These pilot projects are designed to determine the 
feasibility, as well as optimum design, of the features prior to 
embarking on the full-scale development of these features. Therefore, 
any delay in authorizing and implementing the pilot projects will 
result in an even greater delay in implementing features that are 
dependent on the result of the pilot project.

    Question 5. I believe there is some confusion as to what the 
process is going to be for authorization of the Comprehensive Plan. For 
the record, could you break down the different components of the Plan 
and when the Administration expects to request authorization (i.e. in 
what WRDA bill?).
    Response 5. The process and schedule for authorizing the CERP and 
its components was developed based on an analysis of the scheduling of 
plan features and ongoing Federal and State programs, such as the C-111 
Project and the Everglades Construction Project. The process for 
obtaining authorization of the Comprehensive Plan includes:
    a. Congressional approval of the CERP as the appropriate framework 
or roadmap for Everglades restoration;
    b. Initial authorization of a specific set of key components in the 
Water Resources Development Act (WRDA) of 2000;

           Projects Recommended for Authorization in WRDA 2000
------------------------------------------------------------------------
             Project                      Cost        Construction Dates
------------------------------------------------------------------------
C-44 Basin Storage Reservoir.....       $112,562,000  6/04-6/07
Everglades Agricultural Area            $233,408,000  9/05-9/09
 Storage Reservoirs Phase I.
Site 1 Impoundment...............        $38,535,000  9/04-9/07
WCA 3A/3B Levee Seepage                 $100,335,000  9/04-9/08
 Management.
C-11 Impoundment & Stormwater           $124,837,000  9/04-9/08
 Treatment Area.
C-9 Impoundment/Stormwater               $89,146,000  9/04-9/07
 Treatment Area.
Taylor Creek/Nubbin Slough              $104,027,000  1/05-1/09
 Storage and Treatment Area.
Raise and Bridge East Portion of         $26,946,000  1/05-1/10
 Tamiami Trail and Fill Miami
 Canal within WCA 3.
North New River Improvements.....        $77,087,000  1/05-1/09
C-111 N Spreader Canal...........        $94,035,000  7/05-7/08
Adaptive Assessment and                 $100,000,000
 Monitoring Program (10 years).
    TOTAL........................     $1,100,918,000
------------------------------------------------------------------------

    c. Authorization of four pilot projects;

           Projects Recommended for Authorization in WRDA 2000
------------------------------------------------------------------------
             Project                      Cost        Construction Dates
------------------------------------------------------------------------
Calooshatchee River (C-43) Basin          $6,000,000  10/01-10/02
 ASR.
Lake Belt In-Ground Reservoir             23,000,000  06/01-12/05
 Technology.
L-31N Seepage Management.........         10,000,000  10/01-10/02
Wastewater Reuse Technology......         30,000,000  09/03-09/05
    TOTAL........................         69,000,000
------------------------------------------------------------------------

    d. Future Congressional authorization of components in subsequent 
WRDAs;

                                Projects Requiring Authorization Beyond WRDA 2000
----------------------------------------------------------------------------------------------------------------
                                                                    Potential
                    Project                             Cost           WRDA            Construction Dates
----------------------------------------------------------------------------------------------------------------
L-31N Improvements for Seepage Management and S-      $184,218,000      2002   10/05-10/10
 356 Structures.
Bird Drive Recharge Area.......................       $124,083,000      2002   12/08-12/13
C-23/C-24 Storage Reservoirs...................       $369,316,000      2002   6/05-5/09
C-25/Northfork and Southfork Storage Reservoirs       $340,907,000      2004   7/06-5/10
Seminole Big Cypress Water Conservation Plan           $75,288,000      2004   6/05-6/08
 East & West.
C-43 Basin Storage Reservoir & Aquifer Storage        $440,195,000      2004   4/05-3/12
 and Recovery.
C-51 Regional Groundwater Aquifer Storage and         $132,336,000      2004   9/08-9/13
 Recovery.
Palm Beach County Agricultural Reserve                $124,099,000      2004   8/09-8/13
 Reservoir and Aquifer Storage and Recovery.
Water Preserve Area / L-8 Basin................       $415,182,000      2006   9/07-9/14
Site 1 Aquifer Storage and Recovery............        $92,844,000      2006   10/10-10/14
Biscayne Bay Coastal Wetlands..................       $299,583,000      2006   5/12-5/18
Caloosahatchee Backpumping with Stormwater             $82,895,000      2008   9/11-9/15
 Treatment.
Lake Okeechobee Aquifer Storage and Recovery...     $1,097,312,000      2008   7/10-6/20
Everglades Agricultural Storage Phase 2........       $203,240,000      2010   7/12-12/15
North of Lake Okeechobee Storage Reservoir.....       $284,854,000      2010   9/11-9/15
Water Conservation Area 3                              $59,204,000      2012   1/15-1/19
 Decompartmentalization and Sheetflow
 Enhancement.
Central Lake Belt Storage Area.................       $489,861,000      2012   2/15-12/36
North Lakebelt Storage Area....................       $516,061,000      2012   2/16-6/36
Diverting Water Conservation Area 2 and 3 Flows        $79,657,000      2012   2/14-2/18
 to Central Lake Belt Storage.
West Miami Dade County Reuse...................       $437,237,000      2014   6/16-6/20
South Miami-Dade County Reuse..................       $363,024,000      2014   6/16-6/20
    TOTAL......................................     $6,211,396,000
----------------------------------------------------------------------------------------------------------------

    e. A programmatic authority similar to the existing Critical 
Projects authority contained in WRDA 1996. This authority, if provided 
by Congress in WRDA 2000 will allow the Corps to expedite 
implementation of the Comprehensive Plan through modifications to the 
Central and Southern Florida Project that are consistent with the CERP 
and that will produce independent and substantial benefits. The total 
Federal cost for any project implemented under this authority would not 
exceed $35,000,000. If Congress provides this programmatic authority, 
these projects would not require additional authorization but would 
require appropriate technical analyses and documentation of 
environmental effects in accordance with the National Environmental 
Policy Act before work begins.
    f. Implementation of some components will not require further 
congressional action. These include:

               Projects Not Requiring Congressional Action
------------------------------------------------------------------------
              Project                            Explanation
------------------------------------------------------------------------
Lake Okeechobee Regulation Schedule  Operational change only; implement
                                      when appropriate as other
                                      facilities come on line
Environmental Water Supply           Operational change only; implement
 Deliveries to the Caloosahatchee     when appropriate as other
 Estuary.                             facilities come on line
Environmental Water Supply           Operational change only; implement
 Deliveries to the St. Lucie          when appropriate as other
 Estuary.                             facilities come on line
Everglades Rain Driven Operations..  Operational change only; implement
                                      when appropriate as other
                                      facilities come on line
Change Coastal Wellfield Operations  Operational change only
Modified Holey Land Wildlife         Implement under existing state
 Management Area Operation Plan.      process
Modified Rotenberger Wildlife        Implement under existing state
 Management Area Operation Plan.      process
Lower East Coast Utility Water       Implement under existing state
 Conservation.                        process
Operational Modifications to         Operational change only; implement
 Southern Portion of L-31N and C-     as part of C-111 Project
 111.
------------------------------------------------------------------------


    Question 6. How does a Project Implementation Report compare to a 
Feasibility Study?
    Response 6. A Project Implementation Report (PIR) is a new type of 
reporting document unique to the Everglades and South Florida ecosystem 
restoration initiative. These documents will bridge the gap between the 
conceptual nature of the CERP and the detailed design necessary to 
proceed to construction. A PIR will be similar to a traditional Corps 
feasibility report in that it will contain detailed information on the 
planning and design of a component or series of components proposed for 
implementation. Specifically, PIRs will develop the detailed technical 
information to implement the project, including additional plan 
formulation, engineering and design, detailed cost estimates, 
environmental analyses, flood protection analyses, water quality 
analyses, economic analyses, siting and real estate analyses, and 
preparation of supplemental National Environmental Policy Act 
documents. PIRs will also document a Plan component, or group of Plan 
components, contribution to the CERP performance and describe any 
needed refinements and modifications to the CERP resulting from the 
detailed planning and design efforts.
    The purpose of the PIR is to affirm, reformulate or modify a 
component, or group of components, in the CERP. All planning analyses, 
including economic, environmental, water quality, flood protection, 
real estate, and plan formulation, conducted during preconstruction 
design studies will be documented and included in PIRs. The PIR will be 
the vehicle to identify, quantify and attempt to resolve any 
uncertainties surrounding the cost and performance of each major 
component. These uncertainties are not limited to hydrologic 
performance of the specific structure component, but also include the 
uncertainties surrounding the expected ecosystem response to the 
component. A clear description of the expected environmental outcome of 
each component will be included in the PIR. PIRs will typically be 
completed in 18 to 36 months.
    The PIRs for those projects recommended for initial authorization, 
and projects implemented under the programmatic authority, would be 
reviewed and approved by the Secretary of the Army prior to 
construction. All other PIRs for future projects would be submitted to 
the Congress for authorization similar to traditional Corps feasibility 
reports.

    Question 7. What is the Administration's position on authorizing 
this measure as stand-alone legislation, separate from a WRDA package?
    Response 7. Both the Administration and the Congress have committed 
to the biennial WRDA process as the proper vehicle for authorizing all 
Army Corps of Engineers water resources projects. We believe that this 
is the best approach for authorizing the CERP.

    Question 8a. Is it reasonable to expect that there is going to be 
``equity'' between states on how much money is expended on Corps Civil 
Works projects?
    Response 8a. Yes, and we believe we are equitable in our 
distribution of funding. We use no criteria that is designed to favor 
Civil Works projects in any one state. Ceilings are allocated 
proportionally to the individual divisions based on workload. The 
states that expend the most money are the states that have the most 
pressing needs and/or largest Civil Works projects.

    Question 8b. Can you list the ten states that have received the 
most funding to date?
    Response 8b. The ten states that have received the most 
Construction, General funds over the last 10 years are shown in the 
table below.


------------------------------------------------------------------------
                    Number                      State       Total $
------------------------------------------------------------------------
1............................................      CA      1,520,303,640
2............................................      LA      1,472,034,653
3............................................      TX        893,325,572
4............................................      WV        805,291,279
5............................................      IL        776,743,127
6............................................      KY        741,220,454
7............................................      WA        644,700,231
8............................................      OR        561,682,650
9............................................      NJ        448,774,638
10...........................................      PA        442,688,415
------------------------------------------------------------------------


    Question 9a. Regarding the $27 billion backlog, are all the 
projects in the backlog current? That is, is there a portion of these 
projects that are poised to be automatically deauthorized under the 
conditions of the 1986 act?
    Response 9a. Yes, there are. Two ongoing projects have two 
separable elements each that are included in the list of projects that 
are eligible for deauthorization that the Assistant Secretary of the 
Army (Civil Works) submitted to the President of the Senate and the 
Speaker of the House of Representatives on 15 October 1999. $78 million 
is included on the backlog list for two elements of the Central and 
Southern Florida project, Martin County Backflow and Martin County 
Flood Control. Also included on the backlog list is $28 million for two 
elements of the Ascalmore-Tippo-Opossum and Backwater-Rocky Bayou 
elements of the Yazoo Basin, Mississippi project.

    Question 9b. Does this $27 billion include studies or is it purely 
from the construction account?
    Response 9b. The construction backlog of $27 billion consists of 
Construction, General and Mississippi River and Tributaries 
construction projects and does not include studies.
                                 ______
                                 
   Responses by Joseph Westphal to Additional Questions from Senator 
                               Voinovich
    Question 1. Twenty percent of the new water provided by the 
Comprehensive Plan is for municipal and agricultural water supply. This 
water supply will accommodate a growth in South Florida population from 
its present level of 6 million to a projected level of 11 million by 
2050. The Water Supply Act of 1958 and Section 103 of the Water 
Resources Development Act of 1986 make it clear that municipal water 
supply is to be a 100 percent non-Federal responsibility. What is the 
rationale for Federal participation on a 50-50 basis in the portion of 
the Comprehensive Plan attributable to proving water supply for 
municipal uses and to accommodate future population growth in South 
Florida?
    Response 1. The existing Central and Southern Florida Project, 
which was first authorized in 1948, is a multi-purpose project that 
provides flood protection, water control, regional water supply for 
agricultural and urban uses, prevention of salt water intrusion into 
coastal wellfields, preservation of fish and wildlife resources, and 
recreation. Regional water supply is provided by the project through 
the maintenance of ground water levels, recharge of ground waters, and 
prevention of saltwater intrusion rather than through direct withdrawal 
of water.
    The Comprehensive Everglades Restoration Plan (CERP) consists of 68 
components. Of the 68 components that comprise the Comprehensive Plan, 
only 11 components provide direct or indirect water supply for urban or 
agricultural uses. If the Comprehensive Plan had been developed as a 
single-purpose ecosystem restoration plan, 10 of those 11 components 
would not have been significantly different since they would still need 
to capture and store water needed for restoration. Only one component, 
the Broward County Secondary Canal Improvement component ($12.9 
million), might not have been included in a restoration only plan. Most 
of the components of the CERP are multi-purpose and cannot be 
categorizes simply in terms of a single intended purpose such as 
environmental restoration or urban or agricultural water supply. 
Additional water conservation in the urban areas, which will decrease 
water supply demand by approximately 6 percent more than the 
conservation incorporated in the future without project condition, is 
one of the components of the Comprehensive Plan. [For example, one of 
the cells in the proposed Everglades Agricultural Area (EAA) reservoir 
catches EAA runoff that would otherwise flood the water conservation 
areas. This same cell also releases that water to the EAA for 
Agricultural water supply. That in turn reduces the EAA's reliance on 
Lake Okeechobee for water supply in the dry season. This reduced 
reliance of the EAA on Lake Okeechobee ensures that more water is 
available to the natural system. Thus, this single reservoir area 
within the EAA provides water supply and water quality to both the 
Everglades ecosystem as well as to urban and agricultural users.]
    Urban water supply in south Florida is currently met from two 
sources: local groundwater pumping and deliveries from the regional 
system (Lake Okeechobee and the Water Conservation Areas). During 
normal years, the lower east coast draws most of its water supply 
directly from the Biscayne aquifer. As water levels in the aquifer are 
drawn down during dry years, water is then released from the Water 
Conservation Areas to recharge the aquifer. Under more severe drought 
conditions, water must be brought from Lake Okeechobee to meet the 
needs of the lower east coast. With the CERP in place, the lower east 
coast receives less water from the Water Conservation Areas and Lake 
Okeechobee than under either the existing or future without project 
conditions. It is important to note that much of the increased demand 
for future water supply will be met by increased pumping from the 
Biscayne aquifer.
    Here, the vast majority of the water supply comes as an indirect 
result of increasing water supply to the natural system. Thus, water 
supply is inextricably linked to restoration, adds little if any 
additional cost, and, therefore, it was recommended that it be cost 
shared in the same manner as restoration.

    Question 2a. The $1.1 billion of projects proposed for initial 
authorization are developed only to a conceptual level of detail. 
Information typically developed before a project is authorized has not 
yet been developed including the exact location of project feature 
(reservoir sites for example); the exact size and dimensions of project 
features (levee heights, dam heights, pump sizes, etc.); the tracts of 
land that will need to be acquired to construct the project, 
engineering information such as subsurface exploration, detailed 
topographic information, and hydrologic modeling; and other design 
details. Please provide details on how the information developed for 
the projects proposed for initial authorization studies compares to the 
information normally developed in feasibility studies.
    Response 2a. While the Comprehensive Plan report was written at a 
level of detail that is less specific in nature than recent projects 
recommended for congressional authorization, the feasibility report has 
been completed in accordance with legislation and Army policy and 
guidance. Further, the Programmatic Environmental Impact Statement 
(EIS) addresses the potential environmental effects of the actions 
proposed in the Comprehensive Plan. The Programmatic EIS addresses, at 
a general level, the alternatives and environmental effects of the 
overall project.
    The Comprehensive Plan presented in the feasibility report is 
similar in scope to the 1948 Comprehensive Report for the Central and 
Southern Florida Project. The original plan provided a framework from 
which all subsequent planning and design could follow. The plan was 
general in nature and did not identify precise locations of project 
features. Further, minimal alternative analysis was accomplished. At 
that time, it was understood that more detailed alternative analysis 
would be accomplished during subsequent planning and design. Hence, a 
phased implementation of a comprehensive plan for south Florida was 
recommended and implemented.
    Further, due to the reduced level of detail, prior to initiation of 
detailed design and construction, Project Implementation Reports will 
be completed for each project proposed for authorization in WRDA 2000 
and any project which will be implemented under the programmatic 
authority. These reports will be approved by the Secretary of the Army 
and will document advanced planning, engineering and design, real 
estate analysis, and supplemental requirements under the National 
Environmental Policy Act.

    Question 2b. What are the risks if any in authorizing these 
projects based on only conceptual information?
    Response 2b. The Administration believes that there are minimal, if 
any, risk associated with authorizing the initial ten projects 
recommended in the CERP. A Chief of Engineer's Report has been 
completed and these projects have been developed to sufficient detail 
to support authorization. The CERP is a scientifically and economically 
sound plan that provides the framework and guide for needed 
modifications to the Central and Southern Florida Project and related 
actions that are integrally linked.
    The effort to develop the CERP has been an open, collaborative 
process involving Federal and state agencies, local government and 
tribal participation. This inter-agency, inter-disciplinary process 
ensured that the Plan evolved from a healthy diversity of backgrounds, 
interests, and agency missions. The project components recommended for 
authorization have been developed by scores of scientists and engineers 
from many agencies and extensive input has been gathered from interest 
groups and the general public. We recognize that there are technical 
and cost uncertainties associated with some of the components included 
in the CERP. As each component proceeds toward actual implementation, 
technical uncertainties will be addressed through pilot projects and 
more detailed analysis. We will develop contingency plans as necessary 
during the implementation phase for appropriate components and 
technologies to ensure that the benefits of the Plan are obtained.
    To minimize potential risks associated with the conceptual nature 
of the CERP, the Administration will propose assurance language in its 
legislative proposal to address the evaluation and implementation of 
project features. This language will state that prior to the initiation 
of construction of project components and features in the CERP, the 
Secretary of the Army will complete Project Implementation Reports 
(PIRs), which will be similar to feasibility reports, to address the 
project(s) economic justification, engineering feasibility, and 
environmental acceptability, including National Environmental Policy 
Act compliance. Prior to finalization, these PIRs will be coordinated 
with appropriate Federal, state and local agencies, tribal governments, 
public interest groups, and stakeholders. These reports would also be 
subjected to the normal budgetary review process. The Administration 
will propose that PIRs for the CERP components and features recommended 
for authorization in WRDA 2000 be reviewed and approved by the 
Secretary of the Army. All other PIRs for plan components and features 
to be implemented in the future will be submitted to the Congress for 
authorization.
    The Plan is designed to be flexible, to incorporate and respond to 
new information as it becomes available. Continuous monitoring and 
independent scientific review are key components of the Plan. By acting 
now, we can reverse the damage of the past and rescue this unique and 
remarkable landscape.
    The risks of not implementing this Plan and authorizing the initial 
projects are severe. Reductions in the spatial extent of healthy 
wetlands will continue. Species that require large expanses of natural 
habitat, such as the Florida panther, snail kite, and wading birds, 
will increasingly become stressed by the loss of habitats. Losses of 
organic soils will continue to reduce water storage capacity and 
ecological productivity throughout the ecosystem. Canals and levees 
will continue to encourage the introduction and spread of exotic plants 
and animals. Unnatural fire patterns will increasingly damage the 
natural landscapes of south Florida. South Florida recreational and 
commercial fishing will decline, both in freshwater Everglades and Lake 
Okeechobee, and in the Caloosahatchee and Florida Bay estuaries. 
Finally, the Everglades will cease to exist as a functional, 
recognizable ``River of Grass.''

    Question 2c. What precedent will be set in authorizing these 
projects based on conceptual information?
    Response 2c. The Everglades restoration effort is of national and 
international significance. We consider the CERP as a unique initiative 
that can be separated from traditional Corps projects. The projects 
recommended for initial authorization are an integral part of an 
overall Plan that will begin to reverse, in a relatively short time, 
the pattern of ecological degradation that has been occurring in the 
natural system for many decades. We recognize that this is an ecosystem 
in peril, and time is of the essence. Implementation of the restoration 
features as scheduled will provide substantial hydrologic, water 
quality, and ecological benefits to the ecosystem by the year 2010.

    Question 2d. Is the Administration prepared to seek authorization 
of other water resources projects based on a conceptual level of 
detail?
    Response 2d. We are not proposing authorization of a project based 
on only conceptual level of detail. The CERP, however, is a relatively 
detailed plan. It is based on extensive analysis of problems and issues 
and comprehensive modeling of conditions and options to be considered 
for addressing the environmental restoration, water supply and flood 
control needs of the region. These efforts have been ongoing for 7 
years and included independent scientific review and input from all 
affected and interested parties. We recognize there are unknowns as to 
the full effectiveness of some of the proposed actions. To address 
this, the plan allows early implementation of those actions that will 
provide clear and significant benefits while other actions are more 
fully evaluated as to need and scope based on effectiveness of initial 
actions and pilot projects.

    Question 3. The Chief of Engineers Report on the Comprehensive Plan 
contains a commitment to complete the additional analysis that is 
necessary to refine the Comprehensive Plan to deliver additional water 
(approximately 245,000 acre-feet) to Everglades National Park and 
Biscayne Bay, either by capturing additional runoff from urban areas or 
by some other means. This additional water was not part of the report 
of the District Engineer and was added at the Washington level. This 
commitment was made without coordination with the State of Florida, the 
Miccosukee tribe, agricultural interests and other members of the South 
Florida Ecosystem Restoration Task Force. While there is support for 
examining the potential use of this additional, there is a widespread 
concern about the economic and environmental feasibility of its use. 
Can you describe the process that will be used to develop, review and 
approve the plans for this additional water?
    Response 3. In response to the October 1998 draft report on the 
Comprehensive Plan, the Department of the Interior and other scientists 
suggested that additional water was needed to ensure restoration of 
Everglades National Park and Biscayne Bay. The interagency team that 
developed the Comprehensive Plan evaluated several options and 
concluded that additional water would provide important benefits to 
Everglades National Park and Biscayne Bay. The principal remaining 
questions are how to deliver this water without impacting other parts 
of the ecosystem (e.g. the Water Conservation Areas), impacts on 
secondary canals in Palm Beach County, and how much the water would 
have to be cleaned before it could be delivered to the ecosystem. A 
discussion of this proposal in general terms was included in the Corps' 
final report that was released in April 1999. A letter clarifying this 
issue was distributed with the report last April, and the commitment to 
further study the delivery of additional water was discussed with and 
endorsed by the Task Force. The Chief of Engineer's Report commits that 
the Corps will prepare a Project Implementation Report by 2004 to 
determine how much of the 245,000 acre-feet is necessary to restore 
Everglades National Park and Biscayne Bay. The evaluation will include 
more detailed studies, an Environmental Impact Statement, and full 
public review. Once this has been completed, a final executive branch 
decision will be made and a proposal will be forwarded to Congress for 
consideration in a Water Resources Development Act of 2004. Congress 
would then have the opportunity to discuss and debate the proposal. In 
short, construction would not start on this proposal until it has been 
studied fully and congressional authorization is obtained.
                                 ______
                                 
   Responses by Joseph Westphal to Additional Questions from Senator 
                                 Graham
    Question 1. In your brief testimony, I know you did not have an 
opportunity to discuss the restoration work that the Army Corps has 
already conducted on the Everglades project. Can you describe these 
projects and their status?
    Response 1. There are a number of significant and important 
restoration projects currently underway in South Florida. I will 
briefly summarize these projects below:
    a. The Kissimmee River Restoration Project involves the ecosystem 
restoration of the historic floodplain to reestablish wetland 
conditions resulting in the restoration of 27,000 acres of wetlands and 
riverine habitat in the Kissimmee watershed. The project will be 
accomplished through the backfilling of 22 miles of canal C-38, 
modifications to the operation of the lakes, modification or removal of 
several structures and canals, and excavation of about 9 miles of new 
river channel. Construction was initiated in the fall of 1997 and is 
scheduled to be completed in September 2009.
    b. The West Palm Beach Canal Project (C-51) provides water quality 
treatment, reduction of damaging freshwater discharges to Lake Worth, 
and increased water supply for the Loxahatchee National Wildlife 
Refuge, the Everglades and other users. Construction was initiated last 
year. The eastern basin works are complete and work continues in the 
western basin, which is scheduled for completion in March 2003.
    c. Another project underway is the South Dade County Project (C-
111). Canal C-111 normally discharges into Florida Bay via overland 
flow across the eastern panhandle of ENP and discharges into Taylor 
Slough which ultimately also flows to Florida Bay. The project will not 
only maintain existing flood protection to the southeast coast urban 
areas, but will also minimize the need for damaging freshwater 
discharges to Barnes Sound, restore more natural hydrologic conditions 
to the Taylor Slough Basin in Everglades National Park and restore 
historic freshwater flows to Florida Bay. Project construction was 
initiated in Aug 1996 and is scheduled for completion in May 2003.
    d. The Corps/DOI/South Florida Water Management District 
partnership for Modified Water Deliveries to Everglades National Park 
will make structural modifications and additions to the Central & 
Southern Florida Project (C&SF) enabling water deliveries for the 
restoration of more natural hydrologic conditions in Everglades 
National Park's Northeast Shark River Slough basin. Project 
construction is scheduled for completion in Nov 2003.
    e. Section 528 of WRDA 96 provided authority for Critical 
Restoration Projects that would provide immediate, independent and 
substantial restoration benefits. Last year we executed the first 
Project Cooperation Agreement with the State of Florida for a carrying 
capacity study of the Florida Keys and on 7 January 2000 the Corps 
executed 7 more Project Cooperation Agreements with the South Florida 
Water Management District and one with the Seminole Tribe of Florida to 
implement the following projects:


------------------------------------------------------------------------
                       Project                            Total Costs
------------------------------------------------------------------------
East Coast Canal (C-4)...............................         $1,300,000
Tamiami trail Culverts...............................         $8,336,000
Western C-11 Water Treatment.........................         $9,630,000
Seminole Big Cypress Water Conservation..............        $49,332,000
Southern CREW/Imperial River Floodway................        $12,021,000
Lake Okeechobee Water Retention/Phosphorus Removal...        $16,360,000
Ten Mile Creek Water Preserve Area...................        $29,066,000
Lake Trafford........................................        $17,540,000
Florida Keys Carrying Capacity Study\1\..............         $6,000,000
                                                      ------------------
    TOTAL............................................       $149,585,000
------------------------------------------------------------------------
\1\PCA executed in Fiscal Year 1999

    Design activities are currently underway, with the first 
construction contracts scheduled for award later this year. All 
projects are scheduled to be complete by September 2004.
    f. Further studies underway will examine alternatives available for 
protecting wetlands outside the remaining Everglades, as well as 
coastal estuaries such as those in the St. Lucie estuary, Indian River 
Lagoon and Biscayne Bay.
    These ongoing projects were all considered in the development of 
the Comprehensive Everglades Restoration Plan (CERP). Each will 
contribute to the overall goals to restore the quantity, quality, 
distribution and timing of water to more natural conditions. As the 
CERP is implemented, the current ongoing projects will be monitored to 
ensure that they are optimally integrated into the overall effort.

    Question 2. How are these initial projects similar or different 
than what is being proposed in the Restudy?
    Response 2. For the purposes of developing the CERP, the Restudy 
team assumed that authorized/ongoing projects were in place and 
operating. This assumption provided a basis for developing the future 
``Without Project Condition'' which all alternative plans were compared 
against. Since these projects had already been authorized, no attempt 
was made to reevaluate the merits of these on going projects. Instead, 
the team utilized data and reports developed for these projects to 
determine if modifications were necessary.
    Generally, the team determined that these projects provide an 
important first step toward ecosystem restoration of the Everglades. 
However, there are some projects, such as the Modified water Deliveries 
Project, that will need to be modified based on the Comprehensive Plan. 
To implement these modifications, the Restudy Team is working closely 
with the Modified Water Deliveries team and other project teams to 
ensure integration of these modifications. Further, to facilitate and 
expedite these modifications, the Corps is recommending immediate 
authorization of features that will have an impact to ongoing projects. 
This initial authorization will ensure the development of comprehensive 
solutions that otherwise could not be pursued under existing 
authorities.
    With regard to the Everglades and South Florida Ecosystem 
Restoration, the Water Resources Development Act (WRDA) of 1996 
authorizes the Secretary of the Army to expeditiously implement 
restoration projects that are deemed critical to the restoration of the 
south Florida ecosystem. These projects are referred to as ``Critical 
Projects.'' This authority resulted in an expedited study to identify 
projects that would meet the criteria set forth in the authorizing 
legislation. A total of 35 projects were nominated as Critical Projects 
under this authority by the Working Group of the South Florida 
Ecosystem Restoration Task Force. This nomination process involved 
considerable input from the Governor's Commission for a Sustainable 
South Florida and the public. Based on the priorities developed during 
the nomination process, the Corps of Engineers conducts an abbreviated 
study and produces a letter report that is transmitted to the Secretary 
of the Army to obtain approval for construction of the project. All 
Critical Projects were considered as described above and included as 
features for future implementation under the CERP due to funding 
limitations under the Critical Projects authority.

    Question 3. Can you describe the impact to the Everglades and 
surrounding ecosystems if we move forward with this project?
    Response 3. The entire south Florida ecosystem, including the 
Everglades, will become healthy, with many of its natural 
characteristics restored. Urban and agricultural water users will also 
benefit from enhanced water supplies. Flood protection, so important to 
hurricane-prone south Florida, will be maintained and, in some cases, 
improved.
    Economic benefits from the implementation of the Comprehensive Plan 
are wide-ranging and are linked with the availability of clean, 
abundant water in the ecosystem. Not only is water the key to ecosystem 
restoration, it is necessary for a sustainable agricultural and urban 
environment. It is important for recreation, tourism and navigation. It 
plays a significant and obvious role in commercial and recreational 
fishing.
    The Comprehensive Plan will provide for ecosystem restoration. 
First and foremost, the goal of the Comprehensive Plan is to restore, 
protect and preserve a natural treasure the south Florida ecosystem. 
The focus of the Plan has been to restore the defining ecological 
features of the original Everglades and other parts of south Florida. 
In response to this substantial improvement, the characteristic animals 
will show dramatic and positive responses. The numbers of animals--
crayfish, minnows, sunfish, frogs, alligators, herons, ibis, and 
otters--at virtually all levels in aquatic food chains will markedly 
increase. Equally important, the natural distribution of plants and 
animals will return to more natural patterns as more pre-drainage water 
flows are restored.
    The Plan will support the return of the large nesting ``rookeries'' 
of wading birds to Everglades National Park, and the recovery of 
several endangered species to more certain and optimistic futures. 
Wading birds, such as herons, egrets, ibis and storks, are symbolic of 
the overall health of the Everglades. As recently as the 1950's and 
1960's, large ``super colonies'' of nesting waders remained in the 
Park. Today there are none. Wading birds, perhaps more than any other 
animal, ``assess'' the quality of the entire basin of south Florida 
wetlands, before making ``decisions'' about where and when, or even 
whether, to nest. The recovery of the super colonies will be a sure 
sign that the entire ecosystem has made substantial progress toward 
recovery. Of the endangered species, the wood stork, snail kite, Cape 
Sable seaside sparrow, and American crocodile, among others, will 
benefit and increase. We are confident that implementation of the 
Comprehensive Plan will once again allow us to witness what is now only 
a fading memory of the former abundance of wildlife in the Everglades.
    Lake Okeechobee will once again become a healthy lake. Both the 
shallow and open water areas within the lake, essential to the its 
commercial and recreational fishery and other aquatic species, will be 
greatly enhanced by the improved water levels as a result of the 
Comprehensive Plan. This will mean more abundant and healthier fish 
populations. Water quality in the lake will also be improved 
significantly by reducing the pollutant loading of water flowing into 
the lake. Lake Okeechobee provides huge regional benefits to wildlife, 
including waterfowl, other birds, and mammals.
    Major benefits will be provided to the Caloosahatchee and St. Lucie 
estuaries, and Lake Worth Lagoon. The Comprehensive Plan eliminates 
almost all the damaging fresh water releases to the Caloosahatchee and 
most detrimental releases to the St. Lucie and makes substantial 
improvements to Lake Worth Lagoon. As a result, abundant favorable 
habitats will be provided for the many aquatic species that depend on 
these areas for food, shelter, and breeding grounds, thereby enhancing 
the productivity and economic viability of estuarine fisheries.
    The Plan will also improve fresh water deliveries to Florida and 
Biscayne bays. Appropriate fresh water regimes will result in 
substantial improvements in aquatic and semi-aquatic habitats, 
including, mangroves, coastal marshes, and seagrass beds Interacting 
together to produce food, shelter, and breeding and nursery grounds, 
these coastal habitat areas will support more balanced, productive 
fish, shellfish, and wildlife communities.

    Question 4. Can you describe the impact to the Everglades and 
surrounding ecosystems if we do not move forward with this project?
    Response 4. Although some level of ecological improvement will 
occur in the south Florida ecosystem as a result of implementation of 
projects currently planned outside of the CERP, the cumulative, 
regional benefits from these projects would not result in a sustainable 
south Florida ecosystem. Specifically, based on an evaluation of 
conditions in the year 2050 without the Comprehensive Plan, the overall 
health of the ecosystem will have substantially deteriorated. Analyses 
conducted during the feasibility study show that making modifications 
to only some portions of the C&SF Project in order to achieve 
sustainable natural systems will not succeed. Conditions without the 
Comprehensive Plan in 2050 fail to meet the basic needs of the south 
Florida ecosystem.
    Demands placed on Lake Okeechobee result in damaging water levels 
and extreme harm to the littoral zone. Damaging fresh water discharges 
into the Caloosahatchee and St. Lucie estuaries result in major harm to 
fisheries. Damaging high flows alter salinity balances in Lake Worth 
Lagoon. Hydropatterns predicted for the Water Conservation Areas are 
harmful to tree islands. Everglades National Park does not receive 
enough freshwater flow to maintain important aquatic habitat in Shark 
River Slough. Low flows to Florida and Biscayne bays also result in 
harm to the resources in these areas. These ecological problems would 
not be corrected solely by implementation of currently planned or 
ongoing projects.

    Question 5. Based on your view of how the Restudy authorization 
process will move forward, will Congress' action in WRDA 2000 be the 
first phase in a multi-stage authorization process or will this year be 
the only time this project comes before Congress?
    Response 5. No, this will not be the last time Congress is asked to 
authorize CERP projects. The process and schedule for authorizing the 
Comprehensive Plan and its components was developed using a phased 
approach based on an analysis of the scheduling of plan features and 
ongoing Federal and State programs, such as the C-111 Project and the 
Everglades Construction Project. The process for implementing the 
Comprehensive Plan through Congressional action assumes:

    a. Congressional approval of the CERP in WRDA 2000 as the 
appropriate framework for restoration;
    b. Initial authorization of a specific set of key components and 
pilot projects in the WRDA 2000;
    c. A programmatic authority in WRDA 2000 similar to the existing 
Critical Projects authority contained in WRDA 1996;
    d. Future Congressional authorization of components in subsequent 
WRDAs through 2014; and
    e. Implementation of some components without further Congressional 
action.

    Question 6. Can you describe the consequences of beginning this 
project without completing it?
    Response 6. The Comprehensive Plan was designed using a set of 
discrete project components that together work synergistically to 
restore the Everglades ecosystem. Using your analogy, Everglades 
restoration is like heart surgery--once you start you got to complete 
it. While implementation of each component allows us to incrementally 
improve conditions, restoration will not be achieved without the entire 
project being completed.

    Question 7. This year in the Interior Appropriations bill, 
Congressman Regula called for the development of ``assurances'' 
language that would ensure that the park and natural systems in the 
Everglades region receive adequate quantities of water. I know that the 
Administration and the state are working very hard to develop this 
language for inclusion into the Administration's WRDA proposal. Can you 
describe for me the basic principles that you feel are critical 
elements of this language and why?
    Response 7. The Department of the Army's legislative proposal will 
include assurance language addressing two issues: (1) the evaluation 
and implementation of CERP project features; and (2) assuring project 
benefits to provide clarity and certainty not only to natural system 
managers but to the South Florida Water Management District in the 
discharge of its water-use permitting function.
    Regarding the evaluation and implementation of project features, 
the Army is proposing legislation stating that prior to initiation of 
construction of project components and features in the Comprehensive 
Plan, the Corps will complete Project Implementation Reports (PIRs) to 
address the project(s) cost effectiveness, engineering feasibility, and 
environmental acceptability, including National Environmental Policy 
Act compliance. During development, such reports shall be coordinated 
with appropriate Federal, state and local agencies, tribal governments, 
and the public. PIRs for features of the CERP authorized under this 
legislation will be reviewed and approved by the Secretary.
    Assurance language will also be included in the legislative 
proposal to ensure that benefits to the natural system are achieved and 
maintained. The primary and overarching purpose of the CERP is to 
restore the south Florida ecosystem while meeting the other water 
related needs of the region such as water supply and flood protection. 
The Plan must be implemented in a manner that ensures that the natural 
system benefits are achieved and maintained. These assurances must 
address the proper quantity, quality, timing and distribution of water 
for the natural system, while taking into account water supply and 
flood protection.

    Question 8. As you described in your testimony, some of the 
projects submitted to Congress for authorization in WRDA 2000 will not 
have the traditional, detailed feasibility study completed. Can you 
provide justification for authorization given that situation?
    Response 8. The features of the Comprehensive Plan which are 
recommended for authorization in WRDA 2000 include projects that are 
necessary to expedite ecological restoration of the Everglades and 
other south Florida ecosystems. Authorization of these features in WRDA 
2000 will ensure maximum integration with ongoing Federal, State, and 
local ecological restoration and water quality improvement programs. 
These features consist of pilot projects, initial construction features 
and an adaptive assessment and monitoring program.
    The immediacy for authorization of these select features involves 
two factors: (1) efficiency with ongoing projects; and (2) realizing 
the benefits of Federal investments already undertaken. This 
authorization will allow for detailed development of future projects 
under the Comprehensive Plan while maximizing the opportunity to 
integrate those features with other ongoing Federal and State programs, 
including the Modified Water Deliveries Project and the Everglades 
Construction Project. This integration will allow development of 
comprehensive solutions to ongoing Federal projects, such as the 
Modified Water Deliveries Project, that could otherwise not be pursued 
under existing authorities. It is anticipated that this would 
ultimately result in substantial cost savings to the Federal 
Government.
    Furthermore, the South Florida Water Management District and the 
U.S. Department of the Interior have purchased lands associated with a 
number of components of the Comprehensive Plan, including nearly 51,000 
acres of land as a result of the purchase and exchange of the Talisman 
property in the Everglades Agricultural Area (EAA) for water storage. 
Immediate authorization of the components that use these lands will 
ensure that these lands will be utilized and the benefits accrued as 
soon as possible.

    Question 9. Can you compare other projects authorized by Congress 
that do not have a traditional detailed feasibility study with the 
Restudy?
    Response 9. Each feature of the Comprehensive Plan proposed for 
authorization requires completion of a Project Implementation Report 
reviewed and approved by the Chief of Engineers and the Secretary 
before implementation. The detail of evaluations in the PIR is 
comparable to a Chief of Engineers report. The Congress has included 
many project authorizations in recent WRDAs which require completion of 
either a Chief of Engineers report or other comparable report that is 
reviewed and approved by the Secretary before implementation.

    Question 10. Regarding the property purchased by the Federal 
Government in the Talisman transaction in 1998, can you identify what 
benefit the use of these lands as a reservoir will bring to the 
restoration project? Are these benefits wholly dependent on 
construction of additional features called for by the plan? Are the 
benefits dependent on use of the entire Talisman property or can use be 
phased-in? Based on authorization of this reservoir in the initial 
suite of projects, when do you anticipate the reservoir will be 
operating?

    Response 10. The EAA Storage Reservoir component includes above 
ground reservoir(s) with a total storage capacity of approximately 
360,000 acre-feet located on land associated with the Talisman Land 
purchase in the EAA. The design for the reservoir(s) assumed 60,000 
acres, divided into three, equally sized compartments with the water 
level fluctuating up to 6 feet above grade in each compartment. The 
Implementation Plan proposes to construct this component in two phases. 
The first phase would include construction of the first two 
compartments on lands purchased with Department of Interior Farm Bill 
funds, with South Florida Water Management District funds, and through 
a series of exchanges for lands being purchased with these funds. This 
phased approach was developed consistent with the Farm Bill land 
acquisition lease agreements.
    The first phase of this component will improve timing of 
environmental deliveries to the Water Conservation Areas including 
reducing damaging flood releases from the EAA to the Water Conservation 
Areas, reduce Lake Okeechobee regulatory releases to estuaries, meet 
supplemental agricultural irrigation demands, and increase flood 
protection within the EAA. Further, this component will reduce the need 
to make damaging regulatory releases from Lake Okeechobee to the St. 
Lucie and Caloosahatchee estuaries and will help meet EAA irrigation 
needs while increasing flood protection in the area.
    Compartment 1 of the reservoir would be used to meet EAA irrigation 
demands. The source of water is excess EAA runoff. Overflows to 
Compartment 2 could occur when Compartment 1 reaches capacity and Lake 
Okeechobee regulatory discharges are not occurring or impending. 
Compartment 2 would be used to meet environmental demands as a 
priority, but could supply a portion of EAA irrigation demands if 
environmental demands equal zero. Flows will be delivered to the Water 
Conservation Areas through Stormwater Treatment Areas 3 and 4.
    This feature is currently scheduled for construction initiation in 
September 2005 with completion in September 2009. The scheduled 
construction start is based on the existing lease agreements that were 
part of the Farm Bill land acquisition agreement.

    Question 11. The Chief of Engineer's Report indicates that the 
Corps will prepare a Project Implementation Report by 2004 analyzing 
the impact of adding 245,000 acre-feet to Biscayne Bay and the 
Everglades National Park. Can you explain the scope of that report and 
indicate whether it will be circulated for public review and comment?
    Response 11. The Project Implementation Report will determine how 
much of the 245,000 acre feet is necessary to restore Everglades 
National Park and Biscayne Bay. The evaluation will include more 
detailed studies, an Environmental Impact Statement, and full public 
review. Once this has been completed, a final executive branch decision 
will be made and a proposal will be forwarded to Congress for 
consideration in a Water Resources Development Act of 2004. Congress 
would then have the opportunity to discuss and debate the proposal. In 
short, construction will not start on this proposal until it has been 
studied fully and congressional authorization is obtained.

    Question 12. The Chief Engineer's Report indicates that the Corps 
intends to provide 245,000 acre-feet of additional water to the 
Everglades National Park and Biscayne Bay. What is the anticipated 
benefit from the addition of this water?
    Response 12. In response to the October 1998 draft report on the 
Comprehensive Plan, the Department of the Interior and other scientists 
suggested that additional water was needed to ensure restoration of 
Everglades National Park and Biscayne Bay. The interagency team that 
developed the Comprehensive Plan evaluated several options and 
concluded that additional water, would provide important benefits to 
Everglades National Park and Biscayne Bay. The principal remaining 
questions are how to deliver this water without impacting other parts 
of the ecosystem (e.g. the Water Conservation Areas), impacts on 
secondary canals in Palm Beach County, and how much the water would 
have to cleaned before it could be delivered to the ecosystem. A 
discussion of this proposal in general terms was included in the Corps' 
final report that was released in April 1999. Letters clarifying this 
issue were part of the public record that was available for review last 
April.

    Question 13. Is the Corps planning to accelerate the completion of 
the North Lake Okeechobee and Central Lake Belt storage areas? How is 
the Corps planning to implement this goal? When does the Corps plan to 
have these storage areas completed?
    Response 13. The Corps has committed to investigating the potential 
of accelerating the implementation of these project components to 
maximize early ecosystem restoration benefits. These features provide 
significant storage capacity that significantly improves the ecologic 
health of Lake Okeechobee and the Everglades. The North Lake Okeechobee 
Storage Area is currently scheduled for completion in 2014. This 
feature will help reduce eutrophication of the Lake and provide 
significant water quality improvement and ecologic restoration of the 
lake. The existing schedule for completing the first phase of the 
Central Lake Belt Storage Area is 2021. However, the Corps has 
committed to working with industry and local government to identify 
ways to expedite this feature. Accelerating this feature will reduce 
ecologically damaging high water levels in the Water Conservation Areas 
and will help restore flow into Everglades National Park.

    Question 14. The Chief Engineer's Report indicates that an 
additional 245,000 acre-feet will be captured from urban runoff or by 
some other means. If the Corps adds 245,000 acre-feet of water captured 
from urban runoff to the Everglades system, will the PIR address 
potential environment hazards from this water? What would the potential 
method be for removing any contaminants?
    Response 14. The Project Implementation Report will fully assess 
the environmental impacts of capturing urban runoff and evaluate 
potential treatment strategies. The types and extent of contaminants 
and the potential methods for removing them can not be assessed until 
the studies are completed.

    Question 15. In Senator Voinovich's remarks, he mentioned the 
Corps' ``backlog'' of projects in the state of Florida. Can you provide 
me with a definition of the term backlog, a list of all such projects 
in each state in the nation, and, for the Florida projects, the 
legislative history including authorization and follow-on changes to 
the authorization.
    Response 15. The $27 billion backlog of construction projects 
represents the unfunded, unconstructed portion beyond fiscal year 2000 
for all the active, authorized projects. Tables showing the backlog 
list (encl. 1) and the authorities for the Florida projects (encl. 2) 
are attached.
                               __________
Statement of Mary Doyle, Counselor to the Secretary, Department of the 
                                Interior
    Mr. Chairman, my name is Mary Doyle. I am Counselor to Secretary of 
the Interior Bruce Babbitt. Secretary Babbitt has recently appointed me 
to serve as Chair of the South Florida Ecosystem Restoration Task 
Force. The Task Force is an interagency and intergovernmental entity 
created by the Congress in the 1996 Water Resources Development Act 
(WRDA) to guide the restoration of the South Florida ecosystem. I am 
pleased to have the opportunity to address you today and I thank the 
Committee for its leadership and true bipartisanship throughout this 
effort.
    Restoring the South Florida ecosystem is in its essence comprised 
of numerous inter-related partnerships. It is a partnership between 
agencies and departments of the Federal Government the Army Corps of 
Engineers, the Department of the Interior, and the Environmental 
Protection Agency, among others. It is a partnership between the 
executive branch and Congress; the executive branch and the Seminole 
and Miccosukee Tribes; the executive branch and the State of Florida, 
including its people and State and local levels of government. And it 
includes the active involvement of concerned environmental and citizen 
advisory groups. As demonstrated by the dynamic and well attended 
conference where we meet today, these multiple partnerships reflect the 
significance of the entire restoration effort for the future of South 
Florida and the superlative natural resources located here.
    An undertaking of this outstanding size, scope and ambition, 
consisting as it does of numerous whirring parts or partnerships is not 
simple or easy. These complex inter-relationships are required because 
the effort here spans the entire ecosystem 18,000 square miles of land 
and water stretching from the Chain of Lakes south of Orlando to the 
coral reefs off the Florida Keys. The natural system within the region 
contains areas with special designations such as outstanding Florida 
waters, a national marine sanctuary, an international biosphere reserve 
and numerous State and Federal parks, preserves and national wildlife 
refuges, all of which are interconnected. The built environment is 
equally complex, with more than 6.5 million residents, 37 million 
tourists every year and a $200 billion economy, as well as 16 counties 
and 150 municipalities. All of which depend upon clean and plentiful 
supplies of fresh water produced by the natural system.
    The goals of the effort, as you know, are three: (1) get the water 
right: that is, to restore a more natural water flow to the region 
while providing adequate water supplies, water quality and flood 
control; (2) restore and enhance the natural system protecting natural 
habitats and reestablishing threatened and endangered species; and (3) 
transforming the built environment to develop lifestyles and economies 
that do not degrade the natural environment and improve the quality of 
life in urban areas. Our vision for the future is a landscape whose 
health, integrity, and beauty are restored and nurtured by its 
interrelationships with South Florida's human communities.
    For many of the public agencies committed in this effort, both 
Federal and State, the challenge of working on an ecosystem-wide basis, 
with a dynamic and unfolding understanding of the interconnectedness of 
the vast system, is new and unprecedented. Each of these agencies has 
come to this partnership with its own set of authorities, 
constituencies, traditions and funding sources. While inevitably we 
have seen conflicts among these diverse partners at times, overall and 
overtime the partnerships have brought a great deal of progress toward 
the goal. For example, with the $200 million provided to us by Congress 
in the 1996 Farm Bill, the Department of the Interior, together with 
the State, has recently completed the acquisition of approximately 
92,000 acres of land within the ecosystem, including the Talisman 
acquisition, that is critical for increasing regional water storage 
capacity and improving water quality and habitat. In addition, the Fish 
and Wildlife Service, working with over 200 experts from Federal, 
State, and local agencies, conservation organizations, and private 
industry, developed a Multi-Species Recovery Plan for the imperilled 
plants and animals of South Florida, representing a comprehensive 
blueprint for restoring native plants and animals throughout the 
Florida Everglades. Unprecedented in scope or scale, covering over 
26,000 square miles in Florida's 19 southernmost counties, this plan 
will guide the actions of all parties toward the recovery of the 68 
federally listed threatened or endangered species of plants and animals 
in South Florida.
    I think all of us fortunate enough to be involved in this great 
effort of restoration know that the ecosystem-wide approach, the need 
to renew and resume ancient natural connections, is the call of the new 
century. Restoration--a fuller understanding of how it is defined and 
implemented--is the hallmark of a new era in natural resource 
management and environmental policy. The pioneering quality of this 
great effort in South Florida inspires each of us working within the 
complex public and private partnership with a powerful motivation to 
succeed. We must succeed, not only to secure the values sought in South 
Florida, but in order to show others the way.
    In July of last year, the Army Corps of Engineers, with local 
sponsorship by the South Florida Water Management District, submitted 
to Congress its Central and Southern Florida Project Comprehensive 
Review Study (now known as the Comprehensive Everglades Restoration 
Plan or Comprehensive Plan) to restore America's Everglades. The 
Comprehensive Plan is a conceptual framework for structural and 
operational changes to the Central and South Florida Project that will 
result in restoration of the ecosystem over the next 20 years. The 
Corps deserves enduring credit for working constructively with all 
parties in developing the Comprehensive Plan. The Department of the 
Interior fully supports the Comprehensive Plan with the assurances 
provided in the Chief of Engineer's report accompanying its submission 
to Congress. We believe the Comprehensive Plan provides a practical and 
effective approach to ensure the long-term restoration of the South 
Florida ecosystem while meeting future water supply and flood control 
needs. We are eager to work with this committee and other Members of 
Congress to obtain the necessary authorizations and funding to allow 
the Corps of Engineers to proceed with implementation of the 
Comprehensive Plan.
    This Committee has asked the Department of the Interior to address 
three issues in this hearing: (1) The future role of the South Florida 
Ecosystem Restoration Task Force in the overall effort; (2) The role of 
the science advisory panel recently created by the National Academy of 
Sciences at Secretary Babbitt's request to advise the Task Force; and 
(3) Issues raised in the Comprehensive Plan for which the National Park 
Service and the Fish and Wildlife Service has responsibilities.
The Future Role of the Task Force
    The Task Force first took life in 1993 through an inter-agency 
agreement among the seven Federal agencies with key roles to play in 
the Everglades ecosystem. The idea was for these Federal Agencies to 
coordinate their plans and activities; the Department of the Interior 
was designated as chair. The experience of the next few years, however, 
during which the Corps of Engineers and the South Florida Water 
Management District were developing the Comprehensive Plan, showed the 
need for broader consultation and coordination among all the public 
entities engaged in restoration planning. So in the Water Resources 
Development Act of 1996, Congress established the Task Force in its 
present form to include seven Federal agencies, the Seminole and 
Miccosukee Tribes, the State of Florida, the South Florida Water 
Management District, and two representatives of local government. It is 
directed to coordinate the development of consistent policies and plans 
for the ecosystem restoration, facilitate the resolution of interagency 
and intergovernmental conflicts along the way, and coordinate 
scientific research associated with the restoration of the South 
Florida ecosystem. In the 1996 legislation, Congress also directed the 
Task Force to establish a Florida-based Working Group including 
representatives of its member agencies and entities, as well as other 
governmental entities as appropriate. Today's Working Group has a 
membership of 29, including representatives of State and local 
government agencies with expertise to bring to the restoration effort. 
Over the past several years, the Task Force and its Working Group have 
worked closely with the Corps, providing advice on all aspects of the 
Comprehensive Plan, and facilitating the development of agreement among 
its members on significant issues addressed in the Comprehensive Plan.
    The Task Force will address several key issues in the future. 
First, the Task Force will continue its consultation role with the 
Corps to assist in timely implementation, as authorized by Congress, of 
the Comprehensive Plan. Second, the Task Force, along with its Working 
Group, will continue its traditional role of providing a forum for 
planning and coordination among its member agencies. An extremely 
important element of this continuing interagency planning will be its 
work with the recently established Science Advisory Panel to ensure 
that implementation of the Comprehensive Plan and the adaptive 
assessment process will benefit at every stage from sound science. 
Third, the Task Force is developing an Integrated Strategic Plan that 
will synthesize existing plans and activities throughout the region and 
serve as the framework for future adaptive management for the next 50 
years. In this strategic planning process, the Task Force is engaging 
community leaders and decisionmakers at all levels of government as 
well as the private sector in an effort to achieve a common vision and 
set of goals that will reflect the interrelationships of the natural 
environment, the economy and society, as well as stressing the 
dependence of each element upon the others. The Department expects to 
submit this Integrated Strategic Plan to the Congress by July 31, 2000. 
Finally, the Task Force will continue to report on a biennial basis to 
Congress on, among other things, progress made toward restoration.
The Science Advisory Panel
    For many decades, science has been the motivating engine in 
alerting us to the environmental problems associated with the Central 
and Southern Florida Project and in describing the needs and values of 
Everglades restoration. Scientists have guided the establishment of 
restoration goals and have identified approaches to achieve them. In 
his 1993 speech to the Everglades Coalition, Secretary Babbitt declared 
his strong commitment to science as the foundation upon which the 
restoration effort would be built. Similarly, Congress directed the 
Task Force to ``. . . coordinate scientific and other research 
associated with the restoration of the South Florida ecosystem.'' 
Accordingly, with the help from increased funding provided by Congress, 
agency scientists have identified key gaps in our understanding of how 
the ecosystem functioned and recommended a coordinated research program 
to address long-term restoration requirements. Overall, we believe that 
research and applied science will allow us to evaluate the 
effectiveness of management actions, enable future outcomes and promote 
common understandings of ecological success. And it is extremely 
important that we make use of the best available science and take full 
advantage of peer review processes.
    To that end, with the completion of the Comprehensive Plan and at 
the request of the Task Force for peer reviewed science, Secretary 
Babbitt requested the National Academy of Sciences to provide 
additional scientific input on Plan implementation. The science 
advisory panel, which has now renamed itself the Committee on 
Restoration of the Greater Everglades Ecosystem, or ``CROGEE'', began 
its work last month. It is composed of 16 scientists representing a 
broad range of expertise including biology, ecology and hydrology. They 
also bring an objective scientific viewpoint, as none of them are 
presently involved in South Florida research and monitoring.
    The purpose of CROGEE is to provide scientific advice to the 
agencies responsible for implementing the restoration and preservation 
plan for the South Florida ecosystem. The Comprehensive Plan is 
predicated upon the concept of ``adaptive assessment,'' which calls for 
careful scientific monitoring over the entire 20-year period of 
implementation to assure that restoration goals are being met as 
planned projects come on line, and where the goals are not being 
achieved to devise science-based approaches in response to emerging 
needs. CROGEE is currently drafting its initial work plan, which will 
be submitted for discussion and approval to the Task Force at its 
meeting next month.
Fish, Wildlife and Parks Issues in the Comprehensive Plan
    The development and drainage of South Florida over the last 50 
years has pushed the natural system to the brink in many ways, 
threatening or endangering plants, animals, national wildlife refuges 
and national parks dependent on the natural quantity, quality, timing, 
and distribution of water, the driving force in South Florida's 
ecosystem. The Comprehensive Plan holds the promise of substantial 
restoration, with large benefits not only for the plants, animals, 
refuges, and parks, but also for the human beings of South Florida and 
the nation. The U.S. Fish and Wildlife Service and the National Park 
Service have provided their expertise to the Corps in the development 
of the Comprehensive Plan, and will continue to consult and coordinate 
after authorization in the Comprehensive Plan's implementation.
    This final plan incorporates significant changes from the 1998 
draft plan, based on comments from the Department of the Interior and 
others, that improves the prospects for long-term ecosystem 
restoration. For example, the final plan includes a process for 
targeting water deliveries to Everglades and Biscayne National Parks 
that would approximate 90 percent of the pre-drainage volumes, compared 
to only 70 percent of such volumes in the draft plan. The Department 
believes that the additional 245,000 acre feet of water per year for 
these parks will be critical to restoring natural habitats and we look 
forward to working with the Corps and others in the planning effort to 
provide this additional water. As another example, the final plan 
accelerates implementation of Comprehensive Plan components, providing 
for completion of two-thirds of the projects by 2010, so that more 
environmental benefits can be realized earlier in the process than 
proposed in the draft plan. As a last example, the final plan improves 
upon the draft plan by making maximum use of available acreage in the 
Everglades Agricultural Area for water storage and providing for a 
comprehensive water quality plan.
    The primary and overarching purpose of the Comprehensive Plan is to 
restore the South Florida ecosystem on which fish, wildlife, refuge, 
and park resources depend. The promise of the Comprehensive Plan 
depends on effective implementation to ensure that the natural system 
benefits are achieved in a timely manner and maintained for the long-
term. These assurances must address the proper quantity, quality, 
timing, and distribution of water for the natural system, even in times 
of stress on the water system. We need assurances that benefits 
promised in the Comprehensive Plan are provided. The Department 
strongly encourages the initial authorization for the Comprehensive 
Plan includes assurances to guarantee sufficient quantities of clean 
fresh water at the right place and the right time for the environment.
    We have an historic opportunity to address the negative 
environmental impacts of past activities and save a national treasure 
for our future generations while at the same time ensuring South 
Florida's future viability. We are trying to do things that have never 
before been attempted, certainly not at this scale. This effort has 
always enjoyed bipartisan support and reflects a level of partnership 
among the State of Florida, the Federal Government and concerned 
citizens that we wish to emulate elsewhere.
    We appreciate the leadership and commitment by Chairman Smith and 
Senator Graham have shown in helping us achieve the many 
accomplishments I have mentioned today. If we are to truly succeed, 
that commitment will need to continue for many years to come, and we 
look forward to working with you and Congress as we proceed.
    Mr. Chairman, that concludes my statement. Thank you for the 
opportunity to address the committee on this important effort and I 
will be pleased to answer any questions you or the other members of the 
committee may have.
                               __________
    Statement of David B. Struhs, Secretary, Florida Department of 
                        Environmental Protection
    Chairman Smith and distinguished members of the Committee on 
Environment and Public Works: Good afternoon and welcome to Florida. 
Though unable to be with us today due to a special session of Florida's 
legislature, Governor Bush has asked me to communicate to the members 
of the committee the message he delivered to the Coalition yesterday--
we are ready, willing and waiting to take action.
    Just 6 months ago, I had the privilege of again representing 
Governor Bush and our State by joining Vice-President Gore, 
Administrator Browner, Senators Graham, Rack and one of my mentors, 
Senator John Chafee, along with a Florida Legislative Delegation to 
present the Central and Southern Florida Project Comprehensive Review 
Study, formerly known as the Everglades Restudy, to Congress.
    It was a significant moment. On July 1, 1999, the State made a 
commitment to act boldly, decisively, and responsibly. We pledged to 
act. We pledged to continue doing our part to restore the world's most 
unique ecosystem, Not only to replenish the Everglades, but to restore 
the historic balance between lard and water, protecting critical 
habitats and dramatically improving water quality. We pledged our 
resources to remove levees and reclaim billions of gallons of fresh 
water, yet provide necessary flood protection for what will soon be the 
nation's third most populous State.
    The State has long understood that our Federal partners would want 
to see vivid demonstrations of the notion ``actions speak louder than 
words'' Florida's leadership in preserving the Everglades is deafening. 
Since 1947, the State has purchased almost 3.4 million acres of 
conservation lands in the greater Everglades ecosystem at a cost of 
over $1.1 billion. This is in addition to the $2.2 billion that has 
been spent on restoration and protection activities. This year alone, 
the State will spend almost $155 million on Everglades protection 
efforts.
    But what have we accomplished since jumping into action on July 1? 
Over the past 6 months:
    The State has acquired, or has a contract to acquire, 80,000 acres 
of conservation land.
    The State has allocated over $133 million for acquisition of lands 
identified in the Restudy. Most notable are funds for East Everglades, 
Belle Meade, Southern Golden Gate Estates and Southern Corkscrew 
Regional Ecosystem Water Projects.
    The South Florida Water Management District has completed 
construction on Everglades Stormwater Treatment Areas 2 and 5 and now 
have 17,248 acres of filter marshes to cleanse the waters flowing into 
the Everglades.
    Just 2 weeks ago, the State announced landmark legislation to begin 
the restoration of Lake Okeechobee, the headwaters of the Everglades. 
The initial program, to be backed with $30 million in funding, will 
dramatically reduce Phosphorus loads in the lake. Priority projects are 
part of the Restoration Plan and have also been identified as 
priorities by the South Florida Ecosystem Restoration Working Group and 
Florida Audubon.
    However, we recognize there is still much to do. Governor Bush 
stressed yesterday the need for a set of standards, a test if you will, 
that each plan put forth for successful and complete restoration of the 
Everglades must meet.
    First, we must continue building consensus with as many interests 
as possible. We have made significant progress in this area. The recent 
activity surrounding Lake Okeechobee is a good example of this.
    Second, decisions need to be data-driven and science based. 
Physical science, not political science, must guide our decisions. It 
is more important to get it right rather than getting it first.
    Finally, there needs to be financial accountability. We have a 
fiduciary responsibility to the people of Florida and the Nation as a 
whole. Tax dollars must be spent both wisely and efficiently. .
    There are 7 principles behind the funding of Florida's portion of 
the Everglades Restoration. These principles will be discussed in depth 
in the coming weeks but I would like to highlight three of them today.
    First, Florida's funding commitment will be adequate to fully fund 
Florida share of the project. Second, Florida's funding commitment will 
not siphon resources from other statewide environmental restoration 
programs. And finally, Florida's funding commitment will not add to 
Florida's long term debt.
    While the costs to implementing the Comprehensive Plan are 
substantial, they are within the collective reach of State and Federal 
Governments, working together. The State legislature, the South 
Florida: Water Management District and the executive branch of State 
government will work together to fund the State's share of the costs. 
As Governor Bush said yesterday ``There should be no question about 
Florida's commitment to finish what we have begun.''
    Florida has been and will continue to be a leader in the 
preservation of this unique and historic area. There is no greater 
example of our commitment than Everglades National Park, just a short 
distance from here, whose 1.6 million acres is comprised mostly of 
state-donated land.
    In 1948, just after President Harry Truman signed the legislation 
authorizing construction of the C&SF project, Senator and former 
Governor Spessard Holland remarked, ``The whole Florida delegation has 
stuck together in this matter and will, I am sure, continue to do so, 
and each member of the delegation is entitled to his full share of the 
credit. The Florida citizens, industries, and public units have also 
cooperated to the fullest degree as has the Republican delegation. I 
want you to remember that this is not a partisan project and should 
continue to merit the united efforts of all our people.''
    That quote is as applicable in the year 2000 as it was in 1948. We 
are all in this together. The stakes are high, but the rewards are even 
greater.
    Thank you.
                                 ______
                                 
Responses by David B. Struhs to Additional Questions from Senator Smith
    Question 1. Mr. Secretary, could you please provide the Committee 
with a copy of the State's funding Plan for the Comprehensive 
Everglades Restoration Plan? What assurances can the State of Florida 
provide to demonstrate to the Federal partners its commitment to 
finance the non-Federal share of the project?
    Response. Governor Bush recently announced his funding commitment 
of $1.25 billion of statewide funding which, along with resources from 
south Florida willfully fund the local sponsor's share. We will have 
mechanisms that anticipate peak year funding needs and will not siphon 
resources from other statewide environmental restoration programs. 
Florida has the fiscal capability to fully fund its share without 
adding to Florida's long term debt burden.

    Question 2. Regarding ``new water'' captures, are there safeguards 
in place, particularly under state law, to ensure that 80 percent of 
the ``new water'' will be delivered to the environment and not for 
urban/agricultural use?
    Response. Florida Water Law (Chapter 373, F.S.) provides many 
safeguards to ensure the proper quantity, quality, timing and 
distribution of ``new water'' over time. These safeguards are as 
follows:
    Water reservations: Provides broad authority to the water 
management districts to identify quantizes of water to protect fish and 
wildlife. Water reserved for fish and wildlife cannot be allocated to 
any consumptive user. Reservations are adopted by rule, cannot be 
changed without participation by all stakeholders, including the 
Federal and environmental interests and are not limited to water 
quantizes provided during the initial creation of a national park, such 
as the Everglades.
    Florida's water management district's must identify the point at 
which further withdrawals would be significantly harmful to the water 
resources. This concept, known as minimum flows and levels, are another 
layer of protection for natural systems and are used most effectively 
to restrict consumptive use withdrawals during droughts, when the 
natural systems may be most threatened.

    Question 3. If the population of Florida indeed doubles over the 
next 50 years, will this 80-20 percent delivery remain intact?
    Response. Yes. While it may not be a precise 80-20 split, full 
implementation of the Comprehensive Everglades Restoration Plan will 
meet the water supply needs of the natural system and the projected 
population in south Florida of 12 million people in the year 2050.

    Question 4. How do you respond to criticism that this restoration 
effort is nothing more than a water supply plan for the State of 
Florida?
    Response. Performance measures developed to determine the 
effectiveness of the Restudy indicate that implementation of the 
Restudy will provide phenomenal restoration results. Most areas of the 
remaining natural system will have their natural hydroperiods restored. 
. Large portions of the remnant ecosystem will be reconnected. The 
coastal estuaries will be protected from the frequent catastrophic 
releases of excess freshwater that currently occur about every 3 years. 
As a result of the Comprehensive Everglades Restoration Plan, habitat 
for wildlife will improve. An ancillary benefit of keeping this water 
in the system is that there is also an increase in available water 
supply. If the Restudy is not implemented, there is a high probability 
that new water supply demands will be met with alternative sources; yet 
the restoration of the natural system would be lost.

    Question 5. How do you see the Everglades Restoration effort being 
impacted by the economic development that is nothing short of the 
inevitable in the State of Florida?
    Response. Everglades restoration and economic development are not 
mutually exclusive. Most of the anticipated development on the East 
Coast will occur through urban redevelopment. The excellent land 
acquisition efforts of the state and water management district have 
resulted in an extensive network of conservation lands and buffers that 
are protected from future development.
                                 ______
                                 
   Responses by David B. Struhs to Additional Questions from Senator 
                                 Graham
    Question 1. Can you describe the impact to the Everglades and 
surrounding ecosystems if we move forward with this project.
    Response. The performance measures demonstrate that essentially 
every part of the natural system from Lake Okeechobee to Florida Bay 
will show dramatic improvements. Conditions will be improved for the 
recovery of large wading bird populations. Populations of endangered 
species including the wood stork, snail kite, Cape Sable seaside 
sparrow, and American crocodile will benefit from the improved habitat 
as a result of the recommended plan. We also expect great improvements 
in water quality throughout the system. Observable beneficial changes 
are:
    <bullet>  Substantial reduction in the number and severity of 
ecologically damaging extreme high water and low water events on Lake 
Okeechobee, resulting in protection of the Lake's littoral wetlands and 
deep water zones and associated ecological And fisheries resources.
    <bullet>  Reduced inputs of excessive nutrients into Lake 
Okeechobee.
    <bullet>  Substantial reduction or elimination of damaging flows of 
excessive nutrients, pesticides, and suspended materials to the 
Caloosahatchee and St. Lucie estuaries due to improved water quality 
and water depths in Lake Okeechobee.
    <bullet>  Recovery of desirable salinity ranges in the 
Caloosahatchee and St. Lucie estuaries, benefiting ecological and 
fisheries resources.
    <bullet>  Recovery of more natural volume and timing patterns 
offlow between Lake Okeechobee and the northern Everglades.
    <bullet>  Recovery of more natural volume and timing patterns 
offlow into the eastern Big Cypress basin, including improved habitat 
conditions for the endangered Cape Sable Seaside Sparrow.
    <bullet>  Reduced inputs and distribution of excessive nutrients in 
the Everglades.
    <bullet>  Substantial recovery of more natural hydroperiods, 
surface water distribution and timing patterns in the Everglades, 
resulting in recovery of more healthy Everglades ecosystems and the 
characteristic animals of these wetlands.
    <bullet>  Substantial recovery of more natural flow patterns and 
volumes into Florida Bay, including recovery of natural salinity 
ranges, resulting in recovery of ecological and fisheries resources.
    <bullet>  Substantial increase in the spatial extent of healthy 
wetlands in the southern Everglades.
    <bullet>  Substantial improvements in reaching desired salinity 
range and timing offlows for Lake Worth Lagoon, and recovery of healthy 
fisheries.
    <bullet>  Recovery of more natural flow distribution patterns and 
in desired salinity range for Biscayne Bay, and recovery of healthy 
near-shore ecological and fisheries resources.
    <bullet>  Increased spatial extent, hydropatterns and quality of 
southern Miami-Dade wetlands.

    Question 2. Can you describe the impact to the Everglades and 
surrounding ecosystems if we do not move forward with this project?
    Response. If we don't move forward, the evaluation tools used in 
the Restudy indicate that virtually every part of the natural system 
will decline and be imperiled in the year 2050. The consequences of not 
moving forward are great. The health of the natural system is directly 
linked to the economy of Florida and the nation. Observable negative 
consequences of not moving forward are:
    <bullet>  Reductions in the spatial extent of healthy wetlands will 
continue.
    <bullet>  Species that require large expanses of natural habitat, 
such as the Florida panther, snail kite, and wading birds, will 
increasingly become stressed by the loss of habitats.
    <bullet>  Losses of organic soils will continue to reduce water 
storage capacity and ecological productivity throughout the Everglades.
    <bullet>  Canals and levees will continue to encourage the 
introduction and spread of exotic plants and animals.
    <bullet>  Unnatural fire patterns will increasingly damage the 
natural landscapes of south Florida.
    <bullet>  South Florida recreational and commercial fishing will 
decline, both in the freshwater Everglades and Lake Okeechobee, and in 
the St. Lucie, Caloosahatchee and Florida Bay estuaries.
    <bullet>  Endangered species will continue to decline, and some 
species may be irreversibly lost in south Florida.
    <bullet>  The Everglades will cease to exist as a functional, 
recognizable ``River of Grass.''

    Question 3. Based on your view of how the Restudy authorization 
process will move forward, will Congress' action in WRDA 2000 be the 
first phase in a multi-stage authorization process or will this year be 
the only time this project comes before Congress?
    Response. The State of Florida would like to see the Restudy 
authorized through a stand-alone Everglades bill. This legislation 
should direct the Army Corps of Engineers, in conjunction with its 
State partner, proceed expeditiously in implementing the Central and 
Southern Florida Restudy ``restoration'' in accordance with the 
implementation plan developed and submitted to Congress on July 1, 
1999. Otherwise, WRDA 2000 action will begin a series of authorizations 
to be taken in future WRDAs for a number of years. Based on the current 
implementation schedule, authorizations for construction would be 
requested through WRDA 2014.

    Question 4. Can you describe the consequences of beginning this 
project without completing it?
    Response. In general, most ecological and biological restoration 
targets for sustainable natural systems will not be reached. Because 
restoration must proceed far enough to get critical ecological 
components and processes past some minimal ``threshold `` level of 
health, it is possible that little in the way of long-term recovery 
will occur. Fresh water flows may be inadequate to counter the adverse 
effects of sea level rise and sinking shorelines; of special concern, 
degrading coastal forests may eventually be ``overtopped `` by future 
hurricanes, resulting in substantial increases in flooding. Partially 
recovered wetland systems may exhibit unnatural fluctuations in 
ecological conditions, thus maintaining unstable and unpredictable 
habitat conditions for native animals and plants.

    Question 5. This year in the Interior Appropriations bill, 
Congressman Regula called for the development of ``assurances'' 
language that would ensure that the park and natural systems in the 
Everglades region receive adequate quantities of water. I know that the 
Administration and the state are working very hard to develop this 
language for inclusion into the Administration's WRDA proposal. Can you 
describe for me the basic principles that you feel are critical 
elements of this language and why?
    Response. The State of Florida's basic principles are:
    <bullet>  Distribution of ``new water'' should be dictated by sound 
science.
    <bullet>  Best way to ensure the proper quantity, distribution and 
timing of water to the natural system is to develop design criteria for 
each project component to achieve the targets set forth in the natural 
systems model.
    <bullet>  Existing Florida Water Law is very protective of the 
natural system and should be considered in Federal legislation.

    Question 6. Can you elaborate on the Florida DEP's plan for 
ensuring that the quantities of water generated by the Restudy meet 
water quality standards of their intended uses?
    Response. The Department of Environmental Protection is an active 
member of the Restudy Team. Our strategy from the beginning has been to 
actively participate on the Restudy implementation team and through 
this participation demand the incorporation of water quality features 
into the design of each and every Restudy project component. We also 
stand committed to permit the construction and operation of the 
individual project components only if the Army Corps of Engineers and 
South Florida Water Management District can provide reasonable 
assurance that the structures will meet all water quality standards.

    Question 7. What actions is Florida DEP taking to ensure that 
actions surrounding Lake Okeechobee do not degrade water quality in the 
system?
    Response. The Department supports proposed Comprehensive Lake 
Okeechobee legislation. The Lake Okeechobee legislation commits the 
State to a long-term effort to construct new stormwater containment and 
treatment structures and to better control phosphorous at its source. 
The water containment and treatment structures are also project 
components of the Restudy. The legislation will provide the state's 
funding for two of the treatment areas and provides a schedule for the 
construction of the remaining stormwater treatment areas. The cleanup 
of Lake Okeechobee is critical to the restoration of the Everglades.
                               __________
 Statement of Michael Collins, Chairman, Governing Board of the South 
                   Florida Water Management District
    Mr. Chairman, honorable members of the committee, I am Michael 
Collins, Chairman of the Governing Board of the South Florida Water 
Management District. It is a pleasure to stand before you today to talk 
about restoration of the Everglades and to support the roadmap for 
getting there the Comprehensive Plan.
    Before being appointed by Governor Bush to serve on the governing 
board of the Water Management District, I served as a member of the 
Florida Keys National Marine Sanctuary Water Quality Protection Program 
Steering Committee and the Governor's Commission for a Sustainable 
South Florida. I have been a member of the Florida Keys Fishing Guides 
Association since 1976, serving as president from 1982-1997.
    I have spent countless hours on the waters of Florida Bay. I have 
watched the population of South Florida grow and the health and size of 
the Everglades steadily decline. I can speak from experience about the 
inextricable link between the health of our environment and the health 
of our economy. The survival of the Everglades is indeed essential to 
residents, and there are 6.5 million of us. It is essential to business 
and agriculture. And, it is essential to the $13-billion-a-year tourism 
industry.
    Today many talk about the importance of our partnership with the 
Federal Government and I would like to underscore the importance of the 
partnership. It was not an accident that Governor Bush appointed me to 
the governing board of the Water Management District. This 
administration is committed to restoration of the Everglades. The State 
of Florida has demonstrated this commitment through several changes in 
administrations and through several changes in political party 
leadership. Indeed Everglades Restoration is a bipartisan effort. I 
remember back in 1983 then Governor Bob Graham started the Save Our 
Everglades Program. Sir, we are fortunate to have your knowledge and 
leadership in Washington. We are especially fortunate that you now 
serve on the committee that will make the decision to authorize the 
Comprehensive Plan. The State of Florida has also benefited from the 
strong relationship between our two Senators and the united front taken 
on behalf of the Everglades. The State of Florida, under the leadership 
of Governor Bush intends to continue this dedication and commitment to 
Restoration and to the partnership we have with the Federal Government.
    Speaking of the partnership between the State and the Federal 
Government. I would like to point out that this is a very established 
partnership. The Federal Government has played an integral role in the 
development of the area encompassed by the Comprehensive Plan to 
restore the Everglades for almost exactly 100 years, when the U.S. Army 
Corps of Engineers' began surveying the Kissimmee/Okeechobee/
Caloosahatchee water system to assess ways to improve navigation. 
Recognizing its temperate climate and good soil, the State became 
extremely interested in draining the land of water. It created the 
Everglades Drainage District as well as a funding mechanism that funded 
construction of a system of canals around Lake Okeechobee. However, 
following two devastating hurricanes that killed thousands of people 
south of Lake Okeechobee, in the late 1920's, the Corps, in conjunction 
with a newly created State agency (the Okeechobee Drainage District), 
improved the region's flood control ability by adding major levees.
    Being an area of extremes, this region experienced major droughts 
for close to 15 years, followed by more devastating hurricanes in 1947. 
It became apparent that a master plan would have to be developed that 
balanced the demands for flood protection as well as reliable water 
supply. Congress authorized the Central and Southern Florida Flood 
Control Project in 1948. The South Florida Water Management District 
now serves as local sponsor to the Corps for this massive project, 
which includes some 1800 miles of canals and levees that run through 16 
counties.
    The system that was requested by the State, built by the Federal 
Government and is now operated and maintained by the Water Management 
District accomplished its intended purpose. It allowed people to live 
and prosper on land in South Florida. Unfortunately, it did have 
unintended consequences for the environment. You will hear a lot today 
about the four interrelated factors necessary to restore the Everglades 
ecosystem: quantity, quality, timing, and distribution of water. 
Getting the water right, striking a balance and sharing adversity among 
the urban, agricultural and environmental demands will define success.
    The fundamental concept upon which implementation of the 
Comprehensive Plan rests ``adaptive assessment'' is the key to 
achieving this success. This approach will allow for continuous 
refinements as more is learned through scientific monitoring over the 
20 to 25-year period of implementation.
    The importance of the adaptive assessment approach can not be over 
emphasized. While the Plan was developed under the leadership of the 
U.S. Army Corps of Engineers and the South Florida Water Management 
District, countless scientists from many agencies, including the 
Everglades National Park, two Indian tribes, and many local 
governments, participated in development of the Plan. Overall, the Plan 
enjoys broad-base support. However, there are still issues close to 
certain interests that must be worked out along the way. And, based on 
the past 50 years, we know enough to know that we don't have all of the 
answers today.
    The Comprehensive Plan before you for consideration is not the 
ultimate perfect plan for restoration of the Everglades. The perfect 
plan does not exist. As we debate the merits of the Plan before you the 
health of the Everglades continues to decline. It is time to move 
forward and we must do it together. The Plan is flexible enough to 
allow for needed adjustments along the way.
    To fully appreciate the Plan before you for consideration you must 
appreciate the dynamics of the complexities involved in creating an 
ecosystem-wide restoration plan and realize that the interconnectedness 
of this vast system. The coordination efforts in developing a Plan such 
as this one are enormous. Within the boundaries of the Plan there are 
16 counties, 150 municipalities, 2 Indian Tribes, a multitude of State 
and Federal agencies, utilities, agricultural interests, and 
environmental interests. Overlay these dynamics over the scientific 
complexities associated with getting the water right for a natural 
system that is home to an international biosphere reserve, four 
national parks and wildlife refuges, a national marine sanctuary, areas 
of special designations such as outstanding Florida waters, and 
numerous State parks, preserves and wildlife refuges. Developing a plan 
with broad base support appears insurmountable. Yet, we did it. How? It 
was accomplished through a comprehensive inclusive process.
    The Restudy now referred to as the Comprehensive Everglades 
Restoration Plan was developed by multi-agency teams and through the 
efforts of groups like the Governor's Commission for a Sustainable 
South Florida. I believe so strongly in the merits of the role the 
Governor's Commission played in development of the Plan that I was 
instrumental in the Governor Bush's decision to continue this type of 
process by creating the Governor's Commission for Everglades 
Restoration. I contend that decisions about implementation of the 
Comprehensive Plan should not be made outside of the process that has 
proven to work. Any attempt to bypass the process will only create 
distrust on many fronts.
    The Comprehensive Plan provides the best opportunity for solving 
the region's environmental and waters resource problems within the 
region. The South Florida Water Management District strongly supports 
the Comprehensive Plan and the process used for developing this 
product. We believe the Plan is the roadmap for providing adequate 
water for a healthy, sustainable Everglades ecosystem as well as for 
maintaining urban and agriculture use.
    Finally, I would like to emphasize the uniqueness of Everglades 
Restoration. Many of the comments today will highlight the uniqueness 
of the ecosystem. The international attention this ecosystem receives 
certainly validates this fact. As I previously stated the process used 
to develop a plan to restore the Everglades is also unique. And, 
finally the State of Florida and the local sponsor standing head to 
head with the Federal Government ready to implement this plan are also 
unique.
    Since 1947 the State of Florida has acquired 3.4 million acres of 
conservation lands at a cost of $1.1 billion. In addition, the State 
has spent approximately $2.2 billion in other restoration activities. 
The State Florida and the local sponsor to the Comprehensive Plan for 
restoring the Everglades will pay 50 percent of the cost of 
implementation. As equal partners we will be looking for your approval 
for the Federal Government to also share the operation, maintenance and 
monitoring costs associated with this Plan estimated to be $175 million 
annually.
    The South Florida Water Management District in addition to serving 
as local sponsor for the Comprehensive Plan is also local sponsors for 
the Kissimmee River Restoration Project and the C-111 Project in South 
Dade. In addition, our agency is solely responsible for a major 
restoration project designed to address water quality issues in the 
Everglades. This estimated cost of this long-term project known as the 
Everglades Construction Project is estimated over $800 million.
    Today, after this hearing, there is a signing ceremony for eight 
critical projects. You will remember that this Committee authorized 
Critical Projects to allow for a jump-start on Everglades Restoration, 
thank you! The South Florida Water Management District will sign a 
project cooperation agreement with the U.S. Army Corps of Engineers to 
serve as local sponsor for seven of the eight projects. The total 
estimated cost for our contribution is approximately $47 million. Are 
we committed? You bet we are! Are we in it for the long haul? With the 
investments made to date it would be irresponsible not to be!
    In closing, I would like to reiterate that as we go through the 
legislative process toward authorization, the Committee will here many 
challenges to the Comprehensive Plan suggesting that more studies are 
needed. I strongly contend it is time to move forward and you have 
before you a Plan that has incorporated the flexibility to do just that 
in a cost effective, scientifically based way.
    We the South Florida Water Management District have set a budget 
reserve account dedicated to the implementation of the Comprehensive 
Plan to the tune of $``X'' annually. We will work with the State to 
obtain the remainder of the necessary funds to achieve implementation. 
We urge you approval for the Federal Government to move forward on this 
unprecedented ecosystem restoration plan and for the U.S. Army Corps of 
Engineers to be given the flexibility to do so in a way that maximizes 
environmental benefits while ensuring the other needs of the region are 
maintained.
    With that Mr. Chairman I conclude my remarks. Thank you and the 
committee members for the opportunity to speak today. And, thank you 
Mr. Chairman for your leadership and commitment to Everglades 
Restoration.
                                 ______
                                 
Responses by Michael Collins to Additional Questions from Senator Smith
    Question 1. Regarding the Stormwater Treatment Areas, do you have 
good scientific evidence to demonstrate that these areas have been 
effective and will be effective in achieving seater quality standards 
for phosphorus'? Can these areas really treat the volume of water that 
the Comprehensive Everglades Restoration Plan (CERP) envisions being 
redirected through the Everglades systems What happens then? Do you 
foresee the need for additional treatment and if so, at what cost?
    Response. Regarding the Stormwater Treatment Areas (STAs), we have 
good scientific evidence from the two initial constructed wetlands that 
the STAs will achieve their design goal of 50 pars per billion. 
However, eve do not have good scientific evidence that they alone will 
be able to achieve the long-term water quality standard for phosphorus, 
assumed for planning purposes to be around 10 parts per billion. In 
addition to researching ways to optimize STA performance, we are 
investigating advanced treatment technologies to be incorporated with 
the STAB, and also looking at ways we enhance the phosphorus load 
reduction at the farm level. Additional details are found in the 
Everglades Consolidated Report (SFWMD January 2000). Additional 
treatment measures will be required to work in concert with the 
additional components of the Comprehensive Everglades Restoration Plan. 
Depending on the treatment measure implemented, the costs will vary. At 
this time, insufficient information exists to estimate these additional 
treatment costs.
    Analysis conducted during the development of the Comprehensive 
Everglades Restoration Plan indicated that the performance of the STAs 
would be enhanced with the construction of storage facilities in the 
Everglades Agricultural Arca. Lois is due to the fact that the 
reservoir is able to capture large discharges of water during periods 
of high rainfall which is then released to the STA's for treatment when 
there is a downstream environmental demand in the Water Conservation 
Areas throughout the year.

    Question 2. Concerning He ``adaptive assessment program'' which is 
at the heart of the CERP, there has been criticism that this plan 
essentially equates to the Federal Government writing a blank check for 
the restoration effort. Can you respond to those criticisms and 
recommend safeguards we can put into place to balance the concepts of 
flexibility and oversight? Was there such flexibility in place for the 
original Central and Southern Florida Project? What were the 
ramifications?
    Response. The Army Corps of Engineers Civil Works pro&rams have 
built-in safeguards that respond to this question. The primary 
safeguard is that a project cannot overrun its costs by more than 15 
percent without the Corps returning to Congress for further 
authorization Additionally, the Congress funds Cows programs on a year-
to-year basis.
    The concept of adaptive assessment is new to the current 
Comprehensive Plan. The C&SF Project has, however, had numerous 
authorizations over the Scars since 1948 when the project was initially 
authorized. Each authorization addled to the project. If one looks at a 
map of the current project, one can see that there are parts of the 
project that were authorized to be constructed, but for varying 
reasons, never were constructed. It could be argued that the project 
has, in effect, been managed ``adaptively'' since it was first 
constructed.

    Question 3. What would be the effects on the ecosystem if 
implementation of the Plan revere delayed and only pilot projects 
authorized in WRDA 2000? Alternatively, what if authorization of some 
of the pilot projects Acre delayed?
    Response. Authorization of only pilot projects would help to answer 
questions regarding those technologies that have uncertainty in their 
application in the Comprehensive Everglades Restoration Plan. However, 
delaying the authorization of an initial set of projects for 
construction would set the implementation schedule back for key 
elements of the Water Preserve Area. In addition the construction of 
storage and treatment facilities that would have positive affects on 
the quality of water flowing into Lake Okeechobee and the St. Lucie 
Estuary as well as the quantity and timing of waler flowing to the 
Everglades would be delayed.
    If pilot projects were delayed key questions regarding the 
uncertainties of these technologies ant their full scale application 
would be delayed, thus delaying many key projects which would accrue 
significant restoration benefits.
    If implementation of the Plan were delayed, the state's on-going 
restoration program would achier intermediate goals. Florida's 1994 
Everglades Forever Act requires that all waters discharging to the 
Everglades Protection Area must achieve and maintain compliance with 
all water quality standards by December 31, 2006. In addition, the 
Everglades Forever Act requires that the volume of inflows to the 
Everglades Protection Area should be increased by over 25 percent. The 
District and other State agencies are conducting research and are 
preparing to implement these long-term solutions, although the 2006 
timeframe is ambitious. At this time no funding has been designated or 
allocated for these long-term measures.

    Question 4. What is the SFWMD's position on authorizing this 
measure as stand-alone legislation, separate from a WRDA package?
    Response. The South Florida Waler Management Districts Governing 
Board has nor taken a position on stand-alone legislation, however 
Governor Bush has taken a position in support of stand-alone 
legislation.
                                 ______
                                 
 Responses by Michael Collins to Additional Questions from Senator Bob 
                                 Graham
    Question 1. Can you describe the impact to the Everglades and 
surrounding ecosystem if we move forward with this project?
    Response. Substantial reduction in the number and severity of 
ecologically damaging extreme high water and low water events on Lake 
Okeechobee, resulting in protection of the lockets littoral wetlands 
and deep water zones and associated ecological and fisheries resources.
    <bullet>  Reduced inputs of excessive nutrients into Lake 
Okeechobee.
    <bullet>  Substantial reduction or elimination of damaging flows of 
excessive nutrients, pesticides and suspended materials to the 
Caloosahatchee and St. Lucie estuaries due to improved water quality 
and water depths in Lake Okeechobee.
    <bullet>  Recovery of desirable salinity ranges in the 
Caloosahatchee and St. Lucie estuaries, benefiting ecological and 
fisheries resources.
    <bullet>  Recovery of more natural volume and timing patterns of 
flow between Lake Okeechobee and the northern Everglades.
    <bullet>  Recovery of more natural volume and timing patterns of 
flow into the eastern Big Cypress basin, including improved habitat 
conditions for the endangered Cape Sable Seaside Sparrow.
    <bullet>  Reduced inputs and distribution of excessive nutrients in 
the Everglades.
    <bullet>  Substantial recovery of ashore natural hydroperiods, 
surface water distribution and timing patterns in the Everglades, 
resulting in recovery of more healthy Everglades ecosystems and the 
characteristic animals of these wetlands.
    <bullet>  Substantial recovery of more natural flow patterns and 
volumes into Honda Bay, including recovery of natural salinity ranges. 
resulting in recovery of ecological and fisheries resources.
    <bullet>  Substantial increase in the spatial extent of healthy 
wetlands in the southern Everglades.
    <bullet>  Substantial improvements in reaching desired salinity 
range ant timing of flows for Lake Worth Lagoon, and recovery of 
healthy fisheries.
    <bullet>  Recovery of more natural flow distribution patterns and 
in desired salinity range for Biscayne Bay, and recovery of healthy 
near-shore ecological and fisheries resources.
    <bullet>  Increased spatial extent, hydropatterns and quality of 
southern Miami-Dade wetlands.

    Question 2. Can you describe the impact to the Everglades and 
surrounding ecosystems if we do not move forward with this project?
    Response. Reductions in the spatial extent of healthy wetlands will 
continue. Species that require large expanses of natural habitat, such 
as the Florida panther, snail kite, and wading birds, will increasingly 
become stressed by the loss of habitats.
    <bullet>  Losses of organic soils will continue to reduce water 
storage capacity and ecological productivity throughout the Everglades. 
Canals and levees will continue to encourage the introduction and 
spread of exotic plants and animals. Unnatural Ore patterns will 
increasingly damage the natural landscapes of south Florida. South 
Florida recreational and commercial fishing will decline, both in the 
freshwater Everglades and Lake Okeechobee, and in the St. Lucie, 
Caloosahatchee and Florida Bay estuaries. Endangered species will 
continue to decline, and some species may be irreversibly lost in south 
Florida. The Everglades will cease to exist as a functional, 
recognizable ``River of Grass.''

    Question 3. Based on your view of how the Restudy authorization 
process will move forward. will Congress' action in WRDA 2000 be the 
first phase in a multi-stage authorization process or will this year be 
the only tithe this project comes before Congress?
    Response. WRDA 2000 action will begin a series of authorizations to 
be taken in future WRDA s for a number of years. Based on the current 
implementation schedule, authorizations for construction would be 
requested through WRDA 2014.

    Question 4. Can you describe the of beginning this project without 
completing it?
    Response. In general, most ecological and biological restoration 
targets for sustainable natural systems will not be reached. Because 
restoration must proceed far enough to get critical ecological 
components and processes past some minimal ``threshold'' level of 
health, it is possible that little in the way of long-term recovery 
will occur. Fresh water flows may be inadequate to counter the adverse 
effects of sea level rise and sinking shorelines; of especial concern, 
degrading coastal forests may eventually be ``overtopped'' by future 
hurricanes, resulting in substantial increases in flooding. Partially 
recovered wetland systems may exhibit unnatural fluctuations in 
ecological conditions, thus maintaining unstable and unpredictable 
habitat conditions for native animals and plants.

    Question 5. Is the majority of the runoff that enters the canal 
system from urban or agricultural use?
    Response. The answer to this question depends on what part of the 
canal system we are referring to. In the lower east coast urban area, 
much of the runoff reaching the canal system is a direct result of 
providing drainage to people who live in that area. Compared to the 
natural condition, the runoff discharged by the canal system in the 
urban areas has increased substantially. The contribution to runoff 
from the relatively small agricultural acreage in the urban area is 
estimate.
                               __________
        Statement of Jim Shore, on Behalf of the Seminole Tribe
Introduction
    On behalf of the Seminole Tribe of Florida, I wish to join the 
other Floridians participating in this hearing in providing a warm 
welcome to our Federal legislators from the north. I hope you enjoy the 
warm breezes of our Florida winter.
    I am Jim Shore, General Counsel of the Seminole Tribe of Florida. I 
am honored to represent our Chairman, James Billie, who was unable to 
join us today, and the almost 3000 members of the Seminole Tribe of 
Florida.
    The Seminoles have been active participants in the multi-faceted 
efforts to restore the South Florida Ecosystem and to provide a healthy 
future for people of Florida, as well as for the natural environment, 
including the Everglades, that draws so many more people to visit and 
move here. We appreciate being invited to share our views with Senators 
Smith, Voinovich, and Graham on the Restudy presented to Congress last 
July. The Tribe supports the Restudy.
    In this testimony, I will discuss, briefly, who we, the Seminole 
Tribe of Florida, are; our general philosophy regarding ecosystem 
restoration in South Florida; the Tribe's contribution to the 
restoration; and specific comments on the Restudy. I will be happy to 
entertain your questions at the conclusion of my remarks.
The Seminole Tribe of Florida
    The Seminole Tribe lives in the South Florida ecosystem. The Big 
Cypress Reservation is located in the Everglades about 60 miles east of 
here, directly north of the Big Cypress Preserve. The Immokalee 
Reservation is approximately 30 miles northeast of here, near the Big 
Cypress Preserve. The Brighton Reservation is located on the 
northwestern shores of Lake Okeechobee. Tribal headquarters in located 
on the Hollywood Reservation on the east coast. The Tribe relies on all 
aspects of a healthy ecosystem, including the Everglades which provide 
many of our tribal members with their livelihood. Our traditional 
Seminole cultural, religious, and recreational activities, as well as 
commercial endeavors, are dependent on a healthy South Florida 
ecosystem. In fact, the Tribe's identity is so closely linked to the 
land that Tribal members believe that if the land dies, so will the 
Tribe.
    Die ring the Seminole Wars of the lath (century, our Tribe found 
protection in the hostile Everglades and Big Cypress Swamp. But for 
this harsh environment filled with sawgrass and alligators, the 
Seminole Tribe of Florida would not exist today. Once in the Everglades 
and Big Cypress, we learned how to use the natural system for support 
without doing harm to the environment that sustained us. For example, 
our native dwelling, the chickee, is made of cypress logs and palmetto 
fronds. It protects its inhabitants from sun and rain, while allowing 
maximum circulation for cooling. When a chickee has outlived its useful 
life, the cypress and palmetto return to the earth to nourish the soil.
    In response to social challenges within the Tribe, we looked to our 
Tribal elders for guidance. Our elders taught us to look to the land, 
for when the land was ill, the Tribe would soon be ill as well. When we 
looked at the land, we saw the Everglades and supporting ecosystem in 
decline. We recognized that we had to help mitigate the impacts of man 
on this natural system. At the same time, we acknowledged that this 
land must sustain our people, and thereby our culture. The clear 
message we heard from our elders and the land was that we must design a 
way of life to preserve the land and the Tribe. Tribal members must be 
able to work and sustain themselves. We need to protect our Tribal 
farmers and ranchers.
Seminole Everglades Restoration Projects
    Recognizing the needs of our land and our people, the Tribe has 
developed a plan to mitigate the harm to the land and water systems 
within our Reservations while ensuring a sustainable future for the 
Seminole Tribe of Florida. The Big Cypress Reservation is the first of 
our Reservations for which this plan has been implemented. The Tribe is 
in the early stages of developing a plan with similar goals on the 
Brighton Reservation.
    On Big Cypress, the restoration plan will allow Tribal members to 
continue ongoing farming and ranching activities while improving water 
quality and restoring natural hydroperiod to large portions of the 
native lands on the Reservation and ultimately, positively affecting 
the Big Cypress National Preserve and Everglades National Park. 
Construction activities on the western side of the Reservation have 
been identified as a ``Critical Project'' under section 528 of WRDA 
1996. The Tribe is working closely with the NRCS to identify 
appropriate programs to complete construction of the project on the 
eastern side of the reservation. Two Wetland Reserve Projects are 
currently underway.
    The Seminole Tribe is committed to improving water quality and 
flows on Big Cypress and has expressed that commitment by dedicating 
significant financial resources to our environmental programs and 
projects, as well as estimates of 9,000 acres of land to support the 
projects on Big Cypress alone.
General Comments on Everglades Restoration
    The Seminole Tribe participates in the task forces, working groups, 
commissions, and committees too numerous to list. In these various 
fore, stratified levels of detail are debated and discussed. Throughout 
our involvement, the Tribe has applied the following guidelines to the 
many proposals and plans that have been produced and vetted. Our 
resources limit our specific comments to portions of the plans that 
will directly affect our lands. Our ``philosophy,'' so to speak. 
however, can be applied to all of the plans.
    Shared adversity. No one place or group of people should be 
required to shoulder more than their proportional cost of the fix to 
the problem caused by the Federal project created to help all 
Floridians.
    If you messed it up, you clean it up. While all should share in the 
corrections to the built system to provide for sustainability, if an 
entity has created a specific problem, that entity is responsible for 
correcting the problem. For example, the Big Cypress projects are 
designed to improve the quality of the water that the Tribe discharges.
    <bullet>  Get the science right. The Tribe recognizes the 
complexity of the Everglades ecosystem. Understanding these 
complexities and the developing the applied scientific principles is 
critical to saving the ecosystem.
    Adaptive management. While, in the perfect world, the scientists 
would have all the answers to provide the design engineers building the 
projects needed to improve water quality, quantity, flows, and levels, 
in the real world, some projects need to proceed on the best available 
information. Best professional judgment must be executed in the design 
and implementation projects for which there is an absence of all needed 
data points. However, it is crucial that monitoring and data analysis 
continues for such projects and required adjustments to the design and/
or operation of the projects be undertaken in a timely way. In this 
way, adaptive management allows important restoration projects to 
proceed.
Specific Comments on the Restudy
    The Seminole Tribe supports the Restudy and its goals of addressing 
environmental restoration and adequate flood protection and water 
supply. The Tribe reviewed and commented on all drafts of the Restudy. 
Rather than provide extensive comments here, I will highlight our four 
most significant concerns:
    Ecological models and monitoring. While computer-generated models 
are useful and necessary analytical tools, the information they provide 
is not reality. It is important to recognize their limitations--limited 
to current knowledge, contain assumptions, and subject to computational 
constraints--and to deal with project planning accordingly. In 
addition, the Restudy computer models were designed so that many of the 
Tribe's lands are outside or at the edges of the models. This situation 
has forced the Tribe to infer the likely effects of the selected 
alternative on its lands. Because the predicted behavior of the model 
may not be accurate, the Tribe urges that project authorization include 
ongoing data gathering and monitoring.
    Adaptive management. The Tribe strongly supports the Restudy's 
incorporation of the adaptive management concept. The Tribe urges 
Congress to incorporate in the authorization of the initial projects 
the flexibility needed to allow for the application of adaptive 
management.
    <bullet>  Federal funding for water quality improvements. The Tribe 
believes that the Federal Government shares the responsibility for 
improving water quality. WRDA 2000 should incorporate the WRDA 1996 
provision requiring 50/50 Federal/local cost share for water quality 
projects.
    <bullet>  Critical projects and programmatic authority. Should any 
of the projects identified as ``critical projects'' under WRDA 1996 
section 528 fail to be implemented due to lack of Federal 
appropriations, programmatic authority under WRDA 2000 should renew 
authorization for the projects.
Conclusion
    Thank you for the opportunity to share the views of the Seminole 
Tribe of Florida with you. While the Tribe is a strong supporter of the 
Restudy, we will continue to be vigilant in our review of its 
implementation. We look forward to a continued partnership on a 
government-to-government basis in the challenging effort to save our 
Everglades.
                               __________
    Statement of Dexter Lehtinen, on Behalf of the Miccosukee Tribe
    My name is Dexter Lehtinen. I serve on the South Florida Ecosystem 
Restoration Task Force and the Governor's Commission for the 
Everglades. I previously served as a Florida State Representative and 
State Senator where I helped author the Surface Water Improvement and 
Management Act, which established the goal of saving the entire 
Everglades, whether federally, State, or tribally owned. I also served 
as U.S. Attorney for the Southern District of Florida, where I filed 
the so-called ``Everglades lawsuit''. I represent the Miccosukee Tribe 
of Indians of Florida, the Dade County Farm Bureau, and many residents 
of west Miami-:Dade County, Florida.
    My main point is that Everglades restoration is in serious trouble 
due to misplaced priorities, subordination of fundamental democratic 
values, Federal intransigence and bureaucratic arrogance and 
incompetence.
    Let me emphasize at the outset that the issue before this committee 
and the Congress as a whole is not whether Everglades restoration is a 
proper goal or whether restoration is worth the effort. Those who have 
struggled for years to achieve the primacy of Everglades restoration as 
a goal, including Senator Graham on your panel (and, if I may be so 
bold, I would add myself and others here at the Everglades Coalition to 
that group), have achieved at least the nominal commitment, or (perhaps 
more correctly described) the ``politically correct'' commitment, to 
that stated goal.
    But the harder questions relate generally to ``implementation.'' 
These questions include:

    (1) Restoration Goal: What does ``restoration'' mean? Are agencies 
really committed to Everglades restoration as the No. 1 priority?
    (2) Natural Conditions--As odd as it may sound: Do agencies really 
want natural conditions? And, what do ``natural'' conditions mean?
    (3) ``Everglades'' Scope--Perhaps odder sounding still: Which 
Everglades do we restore? Whose Everglades do we save?
    (4) Execution--How do we achieve it? Does the Restudy Plan achieve 
it? Does the Restudy process achieve it?
    (5) Fundamental Values--Are we really prepared to sacrifice 
fundamental property rights and the rule of law in favor of unbridled 
agency discretion?

    Many current problems stem from the deep-seated (though hidden) 
disagreements over the answers to these questions, illustrating many 
misconceptions about Everglades restoration, These problems include:
    A. System Problem (Lack of a System-wide, Everglades-wide 
Commitment: Parochial Approach).--Many agencies (particularly DOI 
agencies) seek only to protect their piece of the Everglades ecosystem 
(whether it be geographic, such as the Everglades National Park, or 
subject-matter, such as a single species), deliberately sacrificing 
other parts of the Everglades. These agencies readily discriminate 
against State-owned and tribal-owned Everglades, despite the 
congressional and Florida legislative mandate that these areas be 
preserved in their ``natural state'' and despite the Federal Trust 
responsibility owed to the Tribe.
    The Federal Government is sacrificing the State and tribal 
Everglades in favor of the smaller Federal Everglades (ENP and LNWR). 
The Water Conservation Areas (especially WCA 3-A) are dying due to 
Federal actions.
    Examples include: (i) flooding WCA 3-A for sparrow (resulting in 
destruction of WCA 3-A and damage to Florida Bay through uneven 
freshwater pulses); (ii) blocking Modified Water Deliveries with the 
effect of destroying WCA 3-A; and (iii) Chief's Letter rejection of 
Restudy water volumes, favoring ENP with adverse effect on WCA 3-A and 
Florida Bay; and (iv) blocking S-332D implementation in C-111 Project.
    Recommendation--The committee should establish the guideline that 
no part of the Everglades Protection Area (including Everglades 
National Park) should be treated more favorably than any other part 
with respect to hydrology (water volume and timing).
    B. Process Problems (Lack of Commitment to Decision-making Process; 
Lack of ``Partnership''; Low Inter-agency Cooperation; pro Forma Use of 
Task Force).--Inter-agency cooperation (particularly by Department of 
the Interior agencies) remains low and many agencies refuse to commit 
to the overall Restudy process. In addition, many agencies refuse to 
implement programs which, have been finalized through the NEPA 
(National Environmental Policy Act) and EIS (environmental impact 
statement) processes. Furthermore, the South Florida Ecosystem 
Restoration Task Force seems to serve the main purpose of giving the 
appearance of oversight or coordination, while avoiding serious matters 
or defects in the restoration process.
    The present Federal approach is little more than lip-service to so-
called ``partnership''. Deals are made in Washington, informing the 
public, the Tribes, and the State afterwards.
    Examples include: (i) Chief's Letter rejection of Restudy process 
(closed door meetings after Restudy complete); (ii) improper use of 
Endangered Species Act to override regular State role in water 
management (Corps actions on sparrow); (iii) exclusion of all-but-
favored private groups (exclusion of State and tribes) from sparrow 
meetings; (iv) disregard of NEPA public process on sparrow, Modified 
Water Deliveries, and elsewhere (iv) DOI lobbying anti-State and anti-
Tribe agenda on WRDA and Appropriations Bills; and (v) South Florida 
Ecosystem Restoration Task Force unresponsiveness to members' 
questions.
    Recommendation--The Committee should ensure as follows:
    (a) The Federal Government and its agencies should recognize the 
State's right of control over its lands and waters and right to equal 
involvement in the Everglades restoration policymaking process.
    (b) Congress and all agencies should disregard the Chief's Letter 
to the Restudy as exceeding the scope of the Chief's authority, 
procedurally infirm, and unacceptable.
    C. Execution Problems (Inability or Failure to Execute Specific 
Projects).--Frankly, the track record to date in implementing or 
executing specific congressionally directed and approved projects, from 
the mid-1980's to date, is abysmal (``shocking'' is probably a better 
word). Stalled ``Critical Projects'' include Modified Water Deliveries 
and the C-111 Project, both held up for a decade. These projects are 
assumed by the Restudy and by Congress be completed, a starting point 
for the restudy as the next step. The ``immobilisma'', agency 
incompetence, and outright refusal of agencies to execute any plan 
which the agency doesn't like even if it has been approved through the 
appropriate process, raises serious doubts about the wisdom of 
entrusting these agencies with the authority and funds involved in 
restoration.
    Neither Federal nor State government agencies are held accountable 
for gross errors and intentional deviations from law. In essence, the 
rule of law has ceased to be a relevant concept in Everglades 
restoration.
    Examples include: (i) failure to conduct required annual reviews of 
Test Iteration 7 of Experimental Water Deliveries Program; (ii) permit/
test 7 violation at G-211 structure in West Dade prior to Hurricane 
Irene; (iii) excessive groundwater levels in West Dade prior to 
Hurricane Irene; (iv) failure to follow public meetings law by SFWMD 
(local option to Modified Water Delivery); (v) Corps failure to follow 
Restudy procedures; (vi) failure to follow Regulation Schedule for WCA 
3-A; (vii) failure to follow NEPA for WCA 3-A; (viii) failure to 
implement Modified Water Deliveries Project; and (ix) failure to 
implement C-111 Project.
    Recommendation--The committee should ensure that both the Florida 
Legislature and the U.S. Congress hold their agencies and employees 
responsible for errors and accountable for delays in implementing 
policy and for deviations from and violations of law.
    D. Problems with Fundamental Values (Disregard of Fundamental 
Rights and Values of Liberty: Basic Property Rights and the Rule of 
Law).--Everglades restoration programs, at least their implementation 
by the Federal Government, is showing an alarming disregard for 
fundamental values (property rights and the rule of law). Everglades 
restoration must not be achieved at the expense of fundamental concepts 
of liberty, including property rights. The right to private property is 
so fundamental to ordered liberty and freedom that its sacrifice is 
simply not justified (and its sacrifice is also not necessary for 
Everglades restoration). A closely related concept is the legitimacy of 
government provided flood protection. When flood protection and private 
property rights are demeaned, the core rights of the average American 
are threatened. Such misalignment of values will not prevail but the 
ultimate rejection of this misalignment by the public will destroy the 
viability of restoration.
    Examples include: (i) The Corps actions for the sparrow (increasing 
flooding of lands in South Dade, West Kendall, 8.5 Square Mile Area, 
and WCA 3-A); (ii) increasing water levels in Dade under Test Iteration 
7 of Experimental Water Deliveries without implementing concomitant 
flood protection; (iii) failure to implement Modified Water Deliveries 
Project protection for property; and (iv) failure to implement C-111 
Project.
    Recommendation--The committee should reaffirm as follows:
    (a) Private property and flood protection are legitimate social 
values and neither property rights nor flood protection should be 
diminished in any respect in the course of Everglades restoration.
    (b) The triple goals of environmental protection, flood protection, 
and water supply must each be met without undue sacrifice. Plans which 
seek Everglades restoration at the expense of flood protection or urban 
and agricultural water supply are unacceptable. Plans which seek to 
transform Everglades restoration into a tool for ``no growth'', 
``growth management'', or urban planning are unacceptable, because 
these matters raise different issues and involve different social 
values.
    From a review of these problems, several major misconceptions about 
Everglades restoration are apparent, including:
    (i) The ``Everglades'' is ``Everglades National Park''--The 
misconception that the term ``Everglades'' means and is the same as 
``Everglades National Park'' leads to sacrificing the central 
Everglades, which are the jewels of the famous ``River of Grass''. The 
Florida and Miccosukee-owned Everglades north of Tamiami Trail are just 
as important and Federal and State policy call for the entire 
Everglades to be saved.
    (ii) Everglades Restoration is the Number One Federal Priority in 
the Everglades--This is clearly not the case in fact, although often 
stated in words. This unexamined misconception allows the Federal 
Government to place the Everglades second or even lower in priority 
while putting other goals first. The latest example is the flooding and 
destruction of the central Everglades by maintaining unnaturally high 
water levels in WCA 3-A and ``unnaturally'' low water levels in ENP, by 
closing structures along an unnatural barrier (Tamiami Trail), for the 
purpose of protecting a 10 percent subpopulation of a subspecies of 
bird which moved recently into the area (outside of its critical 
habitat) when water was unnaturally low. The stated policy is to 
maintain the Everglades unnaturally dry in parts and unnaturally wet in 
parts for the goal of protecting the bird; clearly, preserving the 
natural Everglades is not a No. 1 priority.
    (iii) At Least We're Making Progress/What We're Doing is Helping--
While we're making some progress, especially in water quality issues in 
the Everglades Agricultural Area (EAA), elsewhere we're deteriorating 
badly. The Florida Fish and Wildlife Conservation Commission said less 
than a month ago that ``WCA 3-A has degraded more in the last 5 years 
than in the previous 40 years together''. This on-going degradation of 
Florida and Tribal lands is a direct result of parochial Federal water 
policies, which the Federal Government shows no signs of changing.
    (iv) Everglades restoration is a Federal/State/Tribal Partnership--
The partnership is in name only, with Federal agencies constantly end-
running the established process whenever they don't get their way. The 
history of Federal relations with the Miccosukee Tribe, the Federal 
sacrifice of tribal lands and breaking of environmental commitments, is 
just another saga on the trail of Tears on which the Federal Government 
has sent its Native Americans.
    (v) The Problem in Everglades Restorable is Funding--The idea that 
the Everglades ``problem'' is a new version of the old approach of 
throwing Federal dollars at whatever problem is perceived to exist. But 
is also has the effect of ignoring real issues in restoration. A 
related misconception is that additional Finding can't hurt. But more 
than just wasting money, could actually result in damaging the 
Everglades more than if the money wasn't available.
    Many of these issues were discussed more thoroughly in my report 
accompanying the 1999 Report of the South. Florida Ecosystem 
restoration Task Force, on which I am a Member. It is interesting that 
the Task Force staff regularly distributes their glossy-print report 
without distributing the minority report which I filed as a Task Force 
Member. I have attached my April 1999 report. entitled Facing Up to 
Problems in Everglades Restoration (An Additional View): Supplement to 
``Maintaining the Momentum, 1999 Report of the South Florida Ecosystem 
Restoration Task Force'' (Exhibit A) for the committee's use. I have 
also attached my April 27, 1999 testimony to the House of 
Representatives, entitled South Florida modified Water Delivery: A Case 
of Agency Obstructionism (Exhibit B), my September 23, 1999 statement, 
entitled Statement of Dexter Lehtinen Regarding Backwood Deals on the 
Everglades (Exhibit C), and my November 10, 1999 testimony, entitled 
Putting People Last: Excessive Groundwater Levels in West Dade (Exhibit 
D).
    In addition to the recommendations identified with particular issue 
above, I recommend the following regarding general Everglades 
restoration and resource management:
    I. Create a Cabinet Agency For Indian Affairs--The discrimination 
against tribal lands and their destruction to serve Department of the 
Interior interests shows how Interior sacrifices Indian interests to 
serve other agency goals.
    II. Reduce Role of the Depart of the Interior--The role of Interior 
in Everglades restoration should be reduced to that of any landowner. 
The most destructive special interest in Everglades policy today is the 
U.S. Department of the Interior.
    III. Shift Chair of South Florida Task Force to Corps. The Task 
Force should be chaired by the Corps of Engineers, which is otherwise 
responsible for the overall Central and Southern Florida Project and 
for Water Resources Development Acts in general. The Task Force is now 
used to further parochial Interior (not general) interests.
    IV. Fund Everglades Restoration Through Corps of the State, Rather 
Than Interior. Interior improperly uses its role in funding to achieve 
collateral, parochial goals of the agency. Channeling Farm Bill (land 
acquisition) and Modified Water Deliveries money through Interior, for 
example, was a mistake.
    In conclusion, the current chaos, agency parochialism, and agency 
arrogance are threatening the viability of Everglades restoration, as 
is the subordination of fundamental property values and the rule of 
law. The public officials who ignore this reality in a ``politically 
correct'' assertion, but ``everything is going well in the Everglades'' 
are in effect the enemies of the Everglades. On the other hand, the 
public officials who recognize the reality, cut through this chaos, and 
suffer initial criticism from those who either don't want to admit 
problems or don't avant their parochialism to be unmasked, will be the 
heroes of Everglades restoration to whom future generations of 
Americans (Native Americans and non-Native Americans) will be eternally 
grateful.
                                 ______
                                 
Responses by Dexter Lehtinen to Additional Questions from Senator Smith
    Question 1. Can you describe the impact on the Miccosukee Tribe if 
we go forward with this project as currently proposed?
            I. Summary: Vagueness Renders Conclusions Premature
    The outcome or impact on the Tribe could be very negative or very 
positive (or somewhere in between), depending upon how the ``project.' 
is eventually defined and executed. Until the project components are 
each developed in greater detail, there is insufficient detail to 
determine whether the vague and ambiguous goals of the Plan will be met 
or whether certain elements might actually cause harm.
            II. Ambiguities and Dangers in the Comprehensive Plan
    The Comprehensive Plan (April 1999) is ambiguous in certain 
essential points and relies on inadequate models in several critical 
issues, leaving room for numerous areas of potential harm. In addition, 
the Chief's Transmittal Letter contradicts the Comprehensive Plan and 
raises serious concerns.
    1. Defining the ``Project''.--More Details Needed on Project 
Components--The Comprehensive Plan (Restudy, April 1999) is still vague 
and ambiguous on many essential elements, so that current assumptions 
or conclusions about its utility or impact on the Tribe or even the 
greater Everglades ecosystem are premature at best. Such premature 
assumption could even be dangerous and counter-productive, because they 
could lead to unbridled agency discretion, lax oversight, poor 
planning, and sub-optimal outcomes (outcomes which destroy part of the 
Everglades while helping other parts).
    2. Inadequate Modeling.--The possibility of adverse impacts Has 
discussed above) is magnified by the alarming admission within the 
restudy that two critical models are inadequate for the analytical 
tasks at hand. Ha) First, the ``natural Systems Model'' (NSM)uses very 
large grids ((2x2 miles) and does not have accurate topographic data in 
its data base. Accurate topographic data must be obtained and 
incorporated before predictions can be used with any reasonable 
assurances See p. 7-73. (b) Second, the ``South Florida Water 
Management Model''. (SFWMM or WMM) is inadequate to predict flood 
control outcomes. See ``Flood Control'' entry, pp. 7-65 and 7-62. 
Before project components are designed in detail and approved by 
Congress, these models must be upgraded.
    3. Potential Adverse Effects.--Within the scope of the Restudy, 
several possible adverse effects could develop if future detailed 
planning does not adequately address certain hydroperiod and water 
quality issues. These include, but are not limited to, the following: 
(a) excessive water levels in Water Conservation Areas (``flooding'' 
the central Everglades); (b) discharging polluted water into the 
central Everglades (essentially using the central Everglades to clean 
up water pollution before it reaches Everglades National Park to the 
south'; (c) discrimination against Water Conservation Area 3-A 
(treating the central Everglades less favorably than Everglades 
National Park); (d) discriminatory treatment of minority Americans 
(Hispanics, African-Americans, and Indians); and (e) flooding in 
residential and commercial land outside the Everglades <where the Tribe 
and tribal members, as well as many Miami-Dade County residents, own 
property)
    4. Dangers in the Chief's letter.--In addition, the Chief's Letter 
could be very harmful, as it contradicts part of the April Restudy by 
approving additional water deliveries which could be both unnecessary 
and harmful, and erodes flood protection commitments (among other 
problems) The Tribe urges Congress to reject the Chief as Letter, both 
on the merits and because it was developed behind closed doors without 
public input, after the April 1999 Comprehensive Plan was completed.
            III. Beyond the Comprehensive Plan: Prior Projects and 
                    Future Planning
    Congress must look beyond the Comprehensive Plan itself, toward 
both prior projects which are essential to restoration but have been 
blocked by bureaucratic logjams and future planning to produce detailed 
plans for component projects.
    1. Failure to Implement Modified Water Deliveries Project--One of 
the most important elements of Everglades restoration, with the 
greatest impact on the Tribe, is the Modified Water Deliveries Project, 
authorized by Congress in 1989 (P.L. 101-229, section 104). The MUD 
Project is ``assumed'' by the Restudy to be in place (a pre-Restudy 
condition), yet bureaucratic stalling, agency selfishness, and gross 
ineptitude have blocked the execution of this Project for 10 years. If 
the MAD Project is not carried out as Congress directed (P.L. 101-229, 
sec. 104), much of the subsequent Restudy is rendered moot and 
pointless.
    2. Inappropriate Assumption that Restudy is Itself a Definable 
``Project''--By referring to the Comprehensive Plan as a ``Project'', 
the question makes the assumption that the Comprehensive Plan is itself 
an identifiable ``Project'', with sufficient planned details to allow 
analysis of impacts or effects. In fact, however, the Comprehensive 
Plan is general in nature, identifying components which themselves must 
now be planned and developed in detail.
    3. Dangers of Programmatic Authority--The Tribe believes that 
various project components, which are themselves really the 
``projects'' regarding which analysis of impacts is appropriate, must 
be planned in greater detail before definitive conclusions regarding 
impacts or effects can be reached. For this reason, the Tribe is 
reluctant to grant ``programmatic authority'', instead urging that each 
project component be planned in greater detail before being 
individually approved.

    Question 2. What will be the impact if nothing is done?
    Response. The Tribe believes that perhaps half of the solution to 
Everglades restoration lies in implementing projects which are already 
authorized and assumed to be in place as pre-existing conditions to the 
Restudy. These projects include the Modified Water Deliveries Project 
(restoring NE Shark River Slough and protecting residential lands), the 
C-111 Project (restoring Taylor Slough and protecting adjoining 
agricultural and residential lands), and the Everglades Construction 
Project (pollution clean-up of water entering the Everglades south of 
the Everglades Agricultural Area, from north of Bake okeechobee, the 
Lake itself, and the EAA).
    The failure to implement these projects is more damaging than the 
failure to move forward at this time with the Restudy (which is 
supposed to follow these projects). Of course, the Tribe would prefer 
that both the existing projects and the Restudy go forward (assuming 
the Restudy is refined to specific component projects before final 
authorization), but the biggest danger or harm is in not executing 
existing projects.
                               __________
    Statement of Nathaniel P. Reed, Former Secretary of the Interior
Introduction
    Mr. Chairman, my name is Nathaniel Reed of Hobe Sound, Florida. I 
want to welcome you to South Florida and say that we are greatly 
encouraged by the reports of your support and enthusiasm for restoring 
the Everglades. We look forward to working with you to restore, 
preserve, and protect South Florida's contribution to America's natural 
heritage--the Everglades ecosystem. From Lake Kissimmee to Florida Bay 
and the Florida Keys coral reef tract, this complex, delicate and 
endangered natural wonder needs all the friends it can find.
    Fifty years ago the Federal Government we undertook two parallel 
and conflicting actions--the establishment of Everglades National Park 
and the construction of the Southern and Central Florida Project (C&SF 
Project). Like all National Park designations, the Everglades were 
supposed to be protected and preserved for the benefit and enjoyment of 
future generations. However, the series of canals, levees, and other 
flood control structures constructed by the C&SF Project disrupted the 
life-blood of the Everglades--the flow of clean fresh water--and has 
imperiled its fate.
    Whether or not future generations will benefit of enjoy the 
Everglades will depend on the outcome of the coming congressional 
debate on the very solid plan put forth by the Army Corps of Engineers 
last July. I respectfully appear before you today to urge you to make 
Everglades restoration your highest priority. The Everglades have 
suffered enough, this year should be the year in which we end the 
suffering and begin making amends for our past mistakes.
    My testimony addresses three overarching issues of Everglades 
restoration that I believe are central to the questions that you and 
your colleagues must consider. They are cooperation between State and 
Federal Partners; the benefits of Everglades restoration; and, the 
central issues related to the Everglades Restoration Project.
Will It Work?
    Will the Comprehensive Everglades Restoration Plan be successful in 
restoring a healthy Everglades ecosystem, and recover the biological 
power to a once-magnificent locational Park? I am convinced that the 
answer to this huge question is an unequivocal ``yes!'' While the 
reasons for my confidence are numerous, they can be summarized as 
``Good Science'' and ``Good Process.'' Let me explain!
Good Science
    The scale and organization of the scientific contribution to the 
Everglades restoration plan is unprecedented. Scientists from every 
Federal and State agency that has a major stake in the future of the 
vital connections between the natural and human environments in south 
Florida have worked together in teams to design the Everglades plan. 
Overall, more than 125 local and regional scientists participated in 
this effort.
    The fact that so much science has become integrated into the 
Comprehensive Plan is, in itself, a remarkable accomplishment. Perhaps 
because we are still too close to what is going on, the significance of 
this science integration has, I believe, not been fully recognized. The 
integrated effort has elevated the vital communications that must go on 
between science and management from the traditional intra-agency 
linkages to a new, inclusive inter-agency process. Now it is teams of 
scientists from many agencies that are speaking with teams of managers, 
as a means of maximizing the role that the Comprehensive Plan will have 
in achieving the numerous, complimentary objectives of each of the 
participating agencies.
    For the past 3 years the scientific teams have focused their 
coordinated efforts on developing a consensus opinion on the specific 
ecological and hydrological problems that must be solved by the 
restoration plan. They brought the full range of scientific disciplines 
and the best understandings of the natural systems to the debate. What 
emerged from this prolonged effort was strong scientific consensus. 
With broad agreement on the nature of the problems, the scientists then 
led the way us evaluating alternative plans to determine which would be 
most successful in recovering the environmental health to both natural 
and human systems in south Florida. The Comprehensive Plan before you 
is that plan.
    Recently these same scientists have raised the level of optimism by 
offering an answer for a question that eve all have asked. Are we too 
late? Can an ecosystem as badly damaged as the Everglades ever recover? 
By examining the way that these wetlands have recently responded to 
several years of high rainfall, the scientists have been able to tease 
out understandings of the potential success of restoration. The higher 
rainfall has provided a hint of the wetter and healthier hydrological 
patterns that will come from the Comprehensive Plan. What the 
scientists have learned from this high rainfall event is most 
encouraging: the beginnings of healthier seagrass beds in Florida Bay, 
increased nesting by egrets in the central and northern Everglades, 
better production of fish in the mangrove estuaries.
    The scientists are also using their knowledge of the south Florida 
wetlands to answer another key question. How do we define success? What 
should the future Everglades Lake Okeechobee and Florida and Biscayne 
Bays look like if else Comprehensive Plan is successful, and what is it 
about these systems that we should be measuring to track the progress 
of the restoration program? The answers that scientists are giving us 
to these questions add greatly to my confidence that we know what we 
are attempting to achieve with the restoration program. We will be 
watching the results closely, and will be continually adjusting our 
efforts so that we stay focused on our gods.
Good Process
    Some aspects of the good process used to create the Comprehensive 
Everglades Restoration Plan have already been revealed in my comments 
about the good science. The key point to be made here is that the 
tremendous complexity of the Everglades restoration program has 
required new ways of doing business. The large number of participating 
agencies, the expansive and complex ecological scales of the program, 
and the fact that the information and expertise that is required to 
design and implement such a program are scattered both in time and 
place, are all essential reasons for coming up with entirely new 
strategies.
    I believe the agencies, both Federal and State, have recognized 
this need, and together have been remarkably successful in developing 
the multi-agency processes that are required. The multi-agency teams 
have created a common vision of the restoration goals, and have brought 
the combined technical skills to the task of designing a program that 
can achieve these goals. The good worlds of the multi-agency planning 
team for the Central and Southern Florida Project ``Restudy'', and the 
Governor's Commission for a Sustainable South Florida, testify to the 
success of the new strategies. The integration of time and knowledge by 
many people from many agencies and institutions has been achieved 
because all parties ultimately have known that the regional water 
problems in south Florida must be resolved by means of this 
Comprehensive Plan.
    New processes and teams for achieving the integration of effort 
during the implementation of the Comprehensive Plan are now being 
established. The new teams should be even more successful, because they 
build on the considerable experience that has come from the earlier, 
multi-agency planning teams.
    Key among the new teams is an Adaptive Assessment Team, which will 
have lead responsibility for reporting on how the natural and human 
systems actually respond as the plan is implemented. This new team will 
use a regional monitoring program to determine how well the plan 
achieves its objectives and where unexpected or undesirable responses 
appear. Monitoring is also a valuable way of adding to our 
understanding of the nature system! The Adaptive Assessment Team will 
use all of the information that comes from the monitoring program to 
recommend improvements in the Comprehensive Plan during the 
implementation period. five mill build as we learn, and learn as we 
build!
Cooperation Between State and Federal Partners
    An absolutely critical element to the Everglades restoration 
project is the relationship and cooperation between the State of 
Florida and the Federal Government, Senator Graham has already 
characterized this as a marriage, and that every successful marriage 
depends on communication and compromise between partners. What a 
splendid analogy!
    It does not mean it will be easy. The Federal and State partners in 
Everglades restoration have different mandates, management 
responsibilities, and approaches. That means they will approach issues 
differently and have different ideas of how to solve the same problem. 
That is natural and these approaches and ideas will reflect their 
mandates. The Federal Government will attempt to ensure that its 
responsibility, to preserve and protect South Florida's national parks, 
wildlife refuges, and marine sanctuary is fulfilled. The State of 
Florida and the South Florida Water Management District Drill attempt 
to balance its three responsibilities--provide flood protection, ensure 
water supply, and protect the environment. Finally, local governments 
will also be at the decisionmaking table depending on the issue.
    This process has worked, although to the casual observer it could 
appear to be full of conflict and controversy. This perception is the 
result of a very public, inclusive, and consensus-based decisionmaking 
process. However, what is impressive is how these differing 
perspectives have consistently been rewelded to produce a final 
decision that meets the common objective of restoring the Everglades 
and allows the process to move forward.
    I believe this approach has worked because of the bipartisan 
cooperation of our congressional delegation and of every Governor since 
Senator Graham began the Save our Everglades program during his tenure 
in Tallahassee. I believe that the progress on Everglades restoration 
in the 1990's has been extraordinary and it is the result of 
bipartisanship and intergovernmental cooperation. This is not 
surprising because history demonstrates that adversity breeds unity.
    Those of us who grew up in Florida in a different era can tell 
stories of a Florida that barely exists anymore. Ire my lifetime, eve 
have drained and paved South Florida in the name of progress based on a 
set of values reflective of the time. We now know of the humble 
consequences that the Everglades has paid, but we are fortunate that we 
still have a resource that is savable. Let there be no question that it 
is worth saving.
    We have a rare opportunity to give back to our children and 
grandchildren an opportunity to experience what my generation of 
Floridians was fortunate enough to enjoy--a pristine Everglades. It is 
enormously important to Florida, and it is equally important to the 
catalog of American treasures that many of us have worked so hard to 
protect. That's why, I believe, the State and Federal Governments have 
worked so hard to get us to this point and it is why I urge Congress to 
continue to insist on such an arrangement while meeting its statutory 
mandate to make this a project worthy of its name--Everglades 
restoration.
The Benefits
    Restoration of the greater Everglades Ecosystem will yield long-
lasting human and environmental benefits. Although the project is 
geared toward protecting and enhancing Federal lands including two 
national parlors, one national preserve, national marine sanctuaries 
and several wildlife refuges, spin-off benefits are also substantial. 
In terms of environmental benefits, the restoration effort fill, at its 
conclusion, provide the proper timing, distribution, quantity and 
quality of water to ensure a sustainable natural environment. In 
addition, the project. at its completion, will provide sufficient clean 
water to supply groveling urban needs as well as irrigation water for 
the substantial agricultural interests that will help filet South 
Florida's economy well into the future.
    In South Florida, the environment is the economy. In addition to 
meeting the water needs of the region, the restoration will ensure a 
healthy ecosystem. The four major tropical estuaries in the area 
(Florida and Biscayne Bays, Indian River Lagoon, and the 
Caloosahatchee) will receive adequate amounts of clean water at the 
right tunes. This will allow for these water bodies to come back into 
balance, thus restoring Me commercial and recreational value that they 
were once renowned for. It will also help to stabilize our reef tract, 
allowing this Wile resource to remain the world's top diving 
destination. In addition the Everglades will be restored and 
maintained, so that they remain a place of awe-inspiring beauty that 
draws millions of visitors each year. Lake Okeechobee will also benefit 
immensely. Lake Okeechobee will no longer serve as the water reservoir 
of the region. Water levels will be stabilized, and the lake will be 
restored to its past glory, once again becoming a haven for multitudes 
of wildlife, and a world class boating and bass-fishing mecca.
    Specific ecological restoration benefits include:
    Kissimmee River Basin--Historically, the Kissimmee River was a 
slowly meandering shallow river. It flowed 103 miles from Lake 
Kissimmee south to Lake Okeechobee. Major channelization of the river 
was completed in the 1960's, converting the river system into a fast 
flowing canal and draining tens of thousands of acres of marshy 
floodplain. The restoration project will restore 43 continuous miles of 
meandering river channels and restore 40 square miles of river 
floodplain. This plan will also be protective of the existing ranch and 
dairy operations in the basin.
    Lake Okeechobee--Lake Okeechobee is 730 square miles in size. It is 
the second largest freshwater lake in the continental United States, 
with an average depth of only 9 feet. Historically the lake had no 
direct connections to the ocean, but now is directly connected to the 
Gulf of Mexico through the Caloosahatchee Canal, and to the Atlantic 
Ocean by the St. Lucie Canal. In addition, the lake is surrounded by 
the Hoover Dike, cutting the lake off from its productive marshes and 
floodplain. Lake Okeechobee currently serves as a reservoir with widely 
fluctuating water levels. The restoration project includes significant 
above and below ground water storage features that will allow for more 
natural lake level fluctuations, and will reduce reliance on the lake 
for water supply needs. This will help to stabilize the lake and return 
it to a more natural system that will support a multitude of wildlife 
as well as becoming a recreational boating and fishing: mecca once 
again.
    Caloosahatchee and St. Lucie Estuaries--Currently, as lake levels 
rise, there is no place to store excess water Therefore, when Lake 
Okeechobee reaches maximum stages, water is dumped into both the 
Caloosahatchee and St. Lucie Estuaries. This water dumping turns these 
brackish estuaries into muddy, freshwater systems with devastating 
results to the fish and other species that use these systems. Therefore 
these estuaries are in a constant state of disruption with a 
concomitant decrease in productivity. The restoration plan will provide 
water storage and natural water cleansing features which will 
ameliorate the adverse effects of dumping water into the estuaries, and 
will have the added benefit of holding water upstream until these 
brackish bays need flows of freshwater, particularly in the dry season.
    Southern Everglades and the Big Cypress--The majority of the 
federally protected lands in South Florida lie south of Lake Okeechobee 
and the Everglades Agricultural Area. Being at the end of the system, 
these lands are most greatly affected by water manipulations. In 
general, these lands receive too much water flow during the rainy 
season (summer) and too little if any water flow during the dry season 
(winter). This ecosystem adapted to the wet and dry season over 
thousands of years. The flora and fauna in most cases require the wet 
and dry cycles to complete their life cycles. Water mismanagement has 
disrupted many of these life cycles. These disruptions, and the loss of 
habitat to agriculture and development have directly caused the 
declines of numerous populations, and have driven almost 70 species to 
the brink of extinction. The flora and the fauna depended on the cyclic 
flow of water through the Everglades. Currently, the natural cyclic 
flows are gone. Instead of water flow changing through the seasons, the 
Everglades now receives abnormal flood stages or drought. The 
restoration initiative will reintroduce the cyclic nature of water flow 
into the Southern Everglades and Big Cypress National Preserve. With 
the restoration of proper timing, distribution, quantity and quality of 
water to the remaining Everglades, the system will rebound in a 
sustainable manner, providing habitat for species recovery ant 
providing the recreation and tourism dollars to sustain the economy.
    Biscayne Florida Bays, and the reef tract--Historically, both 
Biscayne and Florida Bays, major components of our National Park 
System, had upwellings of freshwater rejuvenating them during the wet 
season. Now Biscayne Bay receives most of its freshwater flows through 
canals passing through urban and agricultural areas. Florida Bay 
receives very little freshwater flow at all. Florida Bay has collapsed 
along with a major portion of the fishing and tourism industry that it 
once supported. Point source discharges and water quality problems 
plague Biscayne Bay. These two bays, along with the reef tract and the 
Keys are at the end of the system. They receive much of the brunt of 
the ecological devastation that is wrought by the mismanagement of 
water in South Florida. The restoration project will act the water back 
into more normal cycles. By doing this, and assuring proper water 
quality, these national treasures will also rebound, helping to both 
sustain the economy and the environment of South Florida.
The Restoration Project
    The following is lied first among the principles used to develop 
and guide the restoration project (page 9-1 of the Final Feasibility 
Report and PEIS).
    ``The overarching objective of the Comprehensive Plan is the 
restoration, preservation and protection of the south Florida ecosystem 
while providing for other water related needs of the region'' (USAGE, 
1999)
    To achieve this primary objective, the restoration plan development 
team had to develop a plan that would capture water resources that are 
presently lost to tide and treat the water to levels that are suitable 
for discharge into the Everglades, use the stored water to restore more 
natural flows through the Everglades, and where necessary, physically 
restore natural landscapes.
    The restoration plan employs a great deal of contemporary and 
cutting-edge technologies for water storage, water treatment, and 
controlling exotic/invasive species. Likewise, ongoing research efforts 
and pilot projects are intended to provide realtime input to 
restoration projects. The research, the findings, and the application 
of the newly found knowledge have been and continue to be subject to 
review by government agencies, independent scientists engineers, and 
other professionals, and the general public. In general, the 
development of this restoration plan has been a remarkably inclusive 
process.
Water Storage and Treatment
    The restoration project team developed a plan that would 
``capture'' approximately 20 percent (further analysis may demonstrate 
greater riveter savings) of the nearly 1.4 trillion gallons of water 
that are presently discharged to Florida's coastal waters for the 
purposes of flood protection.
    The mechanisms that are proposed for capturing these ``lost 
resources'' include approximately 204,000 acres (approximately 530 
billion gallons of storage) of conventional water reservoirs (in-ground 
excavations), impoundments (above-ground pools), and stormwater 
treatment areas (treatment wetlands). Also proposed in the restoration 
plan are contemporary aquifer storage and recovery (ASR) facilities, 
intended to provide in the vicinity of 1 million gallons of multi-year 
water storage deep below the ground (approximately 800 to 1,000 feet 
below land surface) in the Floridan Aquifer. Many ASR facilities exist 
and are successfully operating in Florida, but at much smaller scales, 
indicating that this form of water storage is viable, In general, these 
storage and treatment components are intended to capture and treat 
water resources presently low to tide and detain those resources so 
that they are available to the natural system in adequate quantities 
and at appropriate times.
    Some key storage and treatment components are proposed for the 
vicinity of Lake Okeechobee and are necessary to reduce stresses on 
Lake Okeechobee, the St. Lucie Estuary, and the Caloosahatchee Estuary 
ecosystems. Together, the components encompass approximately 180,000 
acres of storage and treatment areas. Notable components include 20,000 
acres of storage norm of Lake Okeechobee, 20,000 acres of storage west 
of Lake Okeechobee, 39,000 acres of storage east of Lake Okeechobee In 
addition, 60,000 acres of land (the Talisman Land Exchange) has been 
purchased south of Lake Okeechobee for the purposes of water storage in 
the restoration project.
Restoration of Flows
    Once the water is captured and treated to levels that are 
appropriate for the natural plants and animals of the Everglades, it 
must be delivered to the Everglades and other natural areas in 
appropriate quantities and at appropriate times. In essence, the 
restoration project proposes to restore natural flows to the remaining 
Everglades.
    To restore more natural flows to the Everglades and other natural 
areas, the restoration plan has numerous components that aim to 
decompartmentalize the Everglades by removing canals and levees from 
within the remaining Everglades. In addition, measures for mug seepage 
beneath levees (water seeping out of the Everglades) have been proposed 
that would allow for the restoration of more natural flows in the 
Everglades, while ensuring that existing levels of flood protection and 
water supply would not be decreased.
Habitat Restoration
    In addition to modifying the regional hydrologic system (storage 
and treatment facilities, canals and levees, and other water management 
infrastructure) the restoration project includes several projects that 
aim to restore habitat.
    To ensure that Florida's unique ecosystem is restored to 
sustainable levels, the restoration project development team recognized 
a need to physically restore and improve important habitat areas so 
that Florida's plants and animals have adequate ``breathing space.'' 
bootable restoration components include the restoration of Lake 
Trafford, C-111 Basin pineland and hardwood hammock restoration, as 
well as various exotic/invasive species removal projects just to name a 
few.
11Conclusion
    Once again, thank you for the opportunity to testify today. I 
conclude where Marjorie Stoneman Douglas began her tale in the River of 
Grass. ``There are no other Everglades in the world.'' For 100 years we 
have, in the finest American tradition, attempted to tame nature. We 
successfully tamed the Everglades, but it has come at an enormous 
ecological and economic cost. Taming nature is Me value of America's 
past, and I believe the values of our fixture are to live in harmony 
with nature. That legacy has to start some where, ant I believe if eve 
are to save the Everglades it starts here today.
                               __________
  Statement of Malcolm S. (Bubba) Wade, Jr. , Senior Vice President, 
         Administrative Services Group, U.S. Sugar Corporation.
Introduction
    Mr. Chairman, members of the committee, I am Malcolm Wade, a Senior 
Vice President of U.S. Sugar Corporation. I am appearing today as a 
representative of the South Florida agricultural sector. In developing 
the views presented today, I have attempted to represent the consensus 
of the Florida agriculture community. I am sure the committee would 
welcome receipt of additional perspectives, however.
    I will summarize my remarks and ask that my prepared statement be 
included in the hearing record.
    I want to thank the committee for coming to South Florida and for 
its work in the past. After all, this committee and its predecessors 
authorized the Central and Southern Florida Project that freed this 
part of the State from its seasonal cycle of floods and drought and has 
allowed the region to flourish. I want to particularly single out 
Senators Graham and Mack, and others in our House delegation who have 
done the difficult balancing act between the various interests and done 
it successfully in a way that would challenge the Flying Wallendas on 
the high wire.
    The Central and Southern Florida Project is one of the world's 
great engineering accomplishments and has been critical to the 
development of a large and vibrant agricultural economy which benefits 
every consumer in America. In addition, it has allowed millions of 
people to live along the Coasts of Florida with the security of a 
reliable water supply and extensive flood protection.
    The unanticipated adverse project impacts on the ecosystem as well 
as continuing population and economic growth in South Florida require 
that new investments be made. We have participated extensively in the 
Federal/State Restudy process that has produced the comprehensive plan 
we are discussing today, and we expect to continue to participate as 
the process moves forward. We are prepared to support major 
improvements to the water management system. However, we insist that 
project modifications be based on sound science, be the product of 
analysis, and be implemented in an orderly way that ensures that the 
needs of existing landowners and businesses are met.
Role of Agriculture in the South Florida Economy
    All but 3 of the top 13 Florida agricultural production counties, 
as measured by total cash receipts in 1991, are within the area studied 
by the Corps of Engineers to develop its comprehensive plan. All but 2 
of the study area's 16 counties are in the top half of Florida's 
counties when ranked by 1991 agricultural production cash receipts.
    The economy of the Everglades Agricultural Area (EAA), the area 
between Lake Okeechobee and the Everglades, is based on agriculture. 
The primary centers for the economies of the area are the towns of 
Clewiston, South Bay, Belle Glade, and Pahokee. Besides being the 
hometowns of most of the permanent labor force, they support much of 
the agriculturally related supply and processing activities and are the 
headquarters of many of the agricultural enterprises. They also support 
the businesses oriented to serving recreational use in the southern 
part of Lake Okeechobee. Agriculture in the EAA encompasses over 
500,000 acres of rich muck soils irrigated, drained and under 
cultivation. The dominant crops are sugarcane, vegetables, sod and 
rice. Farm employment in the EAA is seasonal because of the seasonal 
nature of crop production and harvest activity, although somewhat less 
so now that sugar cane is mechanically harvested. Jobs attributable to 
agriculture in the EAA have been estimated up to 40,000 jobs.
    While the vegetables are packed and shipped fresh and are not 
subject to extensive processing, sugar cane is locally processed which 
adds considerably to its value and the local output of the industry. 
Six sugar mills in the EAA process all the cane produced in South 
Florida, both inside and outside the EAA. All sugar cane is grown under 
contract for processing at these mills. A significant portion of the 
raw sugar produced by the mills is processed outside of Florida. 
Implementation of the Jacksonville District's recommended comprehensive 
plan will have a direct economic impact on agriculture in South Florida 
with hundreds of thousands of acres of agricultural land taken out of 
production by the conversion to storage and other Restudy uses. The EAA 
is one of several areas that will lose tens of thousands of acres of 
prime agricultural land.
    Agricultural production in the study area beyond the EAA consists 
almost entirely of winter vegetables, tropical fruits, vegetables, 
citrus and nursery crops. Florida is the national leader in citrus 
fruit production and the manufacture of processed citrus products and 
accounts for over 80 percent of the nation's citrus production. Florida 
is the world leader in the production of grapefruit, accounting for 
nearly a third of the world's annual supply, and ranks second in the 
world production of oranges, accounting for almost one fifth of the 
world's supply. Florida produces 100 percent of the nation's tangelos 
and over 95 percent of its limes. Florida also is the second ranking 
State in the production of fresh vegetables. South Florida shares 
significantly in this agricultural productivity.
Agriculture as an Environmental Steward
    Agriculture in South Florida is highly dependent on the quality of 
the land and water resources, which provide the inputs necessary for 
profitable production. The sugar cane, citrus, tropical fruits and the 
wide variety of vegetables that supply the nation's tables, as well as 
the extensive ornamental plant nurseries, all benefit from the rich 
soils and high quality water supplies that are essential elements of 
successful farming practices. South Florida Agriculture has long 
recognized the value of environmental stewardship to the larger 
community as well.
    Landowners north of Lake Okeechobee have been subjected to special 
regulations to protect water quality for the last decade. The dairy 
industry has been reduced by 25 percent and the remaining dairies have 
invested hundreds of thousands of dollars each to comply with water 
quality regulations enacted in 1989. The EAA implemented a Best 
Management Practices program in 1995 that has resulted in a 50 percent 
reduction in phosphorus in the stormwater runoff leaving the EAA.
Overview of the Jacksonville District's Recommended Comprehensive Plan
    Section 528 of the Water Resources Development Act of 1996 directed 
the Secretary of the Army to develop ``a proposed comprehensive plan 
for the purpose of restoring, preserving, and protecting the South 
Florida Ecosystem.'' Section 528 also directed that the comprehensive 
plan is to, ``include such features as are necessary to provide for the 
water-related needs of the region, including flood control, the 
enhancement of water supplies, and other objectives served by the 
Central and Southern Florida Project.''
    The Jacksonville District's Recommended Comprehensive plan, 
completed in April 1999, responds to the requirements of Section 528 by 
developing a conceptual plan and framework for future structural and 
operational modifications to the Central and Southern Florida Project 
that will provide for both ecological and economic demands for water 
for South Florida for the next 50 years. This conceptual plan was 
developed by an interagency, inter-disciplinary team of experts, and 
subjected to extensive public review and comment.
    The agricultural groups I have talked to throughout South Florida 
are generally supportive of the Restudy and believe it is needed to 
assure a sustainable South Florida, both economically and ecologically. 
However, we in agriculture recognize the enormous task ahead of all of 
us and want to make sure the project is carried out correctly, 
efficiently and cost effectively to the greatest extent possible. 
Although agriculture is supportive of the Restudy, we have concerns 
which we will address in the following paragraphs.
    I should note here that a number of groups ranging from the Sierra 
Club to Citizens for a Sound Economy share many of the concerns that I 
will lay out. Of course, we differ with each of these groups on some 
items, as well. For example, we are broadly supportive of the Restudy, 
while CSE, with which we agree on issues such as tort reform and taxes 
and have supported in the past, has become broadly opposed. But there 
is a consensus spanning the political spectrum that many of the 
concerns I will discuss need much more careful consideration than they 
have received to date.
    We recognize that the District's study was abbreviated in both 
scope and depth to ensure that the July 1, 1999, deadline for 
transmission of the comprehensive plan to Congress could be met. While 
referred to as a feasibility report, the Central and Southern Florida 
Project Comprehensive Review Study does not contain the engineering, 
real estate, economic and environmental analyses that normally support 
recommendations for authorization of Civil Works projects. Moreover, 
there simply was not sufficient time to integrate water quality and 
quantity considerations or to make the usual calculations of the 
economic benefits and costs associated with the conceptual plan.
    In addition to abbreviated engineering and other data collection 
and analytical shortcuts, there is an extraordinarily high level of 
uncertainty with the plan because of its reliance on undemonstrated 
technologies and the evolving understanding of the science of ecosystem 
restoration. These uncertainties are frankly acknowledged in the report 
in the following ways: 1) the clear statement that the ecological 
changes that will occur in the Everglades as a result of the restudy 
cannot be forecast at this time, 2) the recommendation for construction 
of $100 million of pilot projects to demonstrate the technology, and: 
3) the commitment to the principle of ``adaptive management.'' Adaptive 
management essentially means: ``build projects, operate them and 
evaluate their performance; if the results are not as intended, try 
something else.''
    The Administration has taken the important step of contracting with 
the National Research Council of National Academy of Sciences to form 
an advisory committee. The Committee on Restoration of the Greater 
Everglades Ecosystem will provide a scientific overview and technical 
assessment of the many complicated, inter-related activities and plans 
that are occurring at the Federal, State, and local governmental 
levels. In addition, the National Research Council will provide advice 
on technical topics of importance to the restoration efforts.
    Congress needs to recognize the extraordinary scientific, 
analytical and technological uncertainties associated with the 
comprehensive plan. Extra prudence and discipline are essential in the 
authorization and implementation of this unparalleled series of massive 
investments in the future of South Florida. Otherwise, we will continue 
to experience the delays, continuing reconfigurations of project design 
and operations, and cost increases that presently plague the Everglades 
National Park Modified Water Deliveries Project.
Agriculture's Benefits from Successful Implementation of the 
        Jacksonville District's Comprehensive Plan
    Florida Agriculture has a vital interest in the successful 
implementation of the Comprehensive plan. Without continuing 
investments in water storage, the Corps' Restudy predicts that water 
availability for agriculture will decline as environmental restoration 
and urban growth place greater demands on the existing system.
    New storage facilities associated with Lake Okeechobee, such as 
those north of the lake and Lake Okeechobee aquifer storage and 
recovery, will enable the lake to remain an important source of water 
supply while keeping lake stages at more ecologically desirable levels 
and avoiding damaging flood releases to the coastal estuaries. 
Additional storage facilities built throughout the system will 
diversify sources of water for many users and enable continued economic 
growth and environmental restoration.
The Report of the Chief of Engineers
    The June 22, 1999, Report of the Chief of Engineers on the Restudy 
and the July 1, 1999, Assistant Secretary of the Army for Civil Works' 
letter which transmitted this report to Congress, radically departed 
from the Jacksonville District's April 1999 Report and from the draft 
report of the Chief of Engineers which was sent to the Governor of 
Florida and the Federal agencies on April 19, 1999. Rather than 
affirming the draft Chief's Report which endorsed the recommendations 
of the Jacksonville District Engineer and the South Atlantic Division 
Engineer, the final Chief's Report made several major new commitments 
which dramatically changed the Restudy Plan's priorities and scale, its 
concept of operation and assurances to water users. Paragraph 31 of the 
Chief's Report makes 13 specific new commitments including:

    <bullet>  ``The Corps proposes to deliver additional water 
(approximately 245,000 acre-feet) to ENP and Biscayne Bay by either 
capturing additional runoff from urban areas or by some other means.''
    <bullet>  ``The primary and overarching purpose of the 
Comprehensive plan is to restore the South Florida ecosystem. 
Accordingly, to ensure the successful implementation of the 
Comprehensive plan, the Corps will work with the Department of the 
Interior, the Environmental Protection Agency, and other Federal 
Agencies and the State of Florida to develop the necessary assurances 
which will address the proper quantity, quality, timing and 
distribution of water for the natural system. Such assurances will not, 
to the extent practicable, impact other existing legal water uses and 
flood protection.''

    These two are among the most egregious examples of new 
recommendations that were made without the benefit of any additional 
NEPA analysis or opportunity for public review and comment. The first 
is an increase in total water supplied by the project for all purposes 
by more than 20 percent. Remarkably, no increase in the cost of the 
Comprehensive plan is identified to collect, store, treat and deliver 
this additional water. Moreover, this idea of 245,000 additional acre-
feet was rejected in the Jacksonville District's analysis because of 
its adverse impacts to vast stretches of state-owned Everglades.
    The second commitment abandons the balanced multipurpose nature of 
the comprehensive plan called for by Section 528 of the Water Resources 
Development Act of 1996 that authorized the development of the plan. 
The new commitment unequivocally subordinates the claims of economic 
users in time of drought to those of restoration without any evaluation 
of the economic or the environmental impacts of such a decision. 
Extreme climatic conditions sometimes call for difficult operational 
decisions. These decisions are best made in light of the environmental 
and economic conditions prevailing at the time.
    The addition of these commitments has led to litigation in Federal 
Court. The complaint is supported by a broad spectrum of Florida 
interests, including the Miccosukee Tribe and several agricultural 
producers. Its purpose is to seek injunctive relief to prevent the Army 
Corps of Engineers from implementing them in subsequent planning and 
design activities in furtherance of the Comprehensive plan. The 
agricultural community strongly opposes the inclusion of any of the 13 
additional commitments in the Chief's Report in any congressional 
authorization of the comprehensive plan.
Florida Agriculture's Recommendations for WRDA 2000 Authorizations
    <bullet>  Affirm the statement of the Comprehensive plan's multiple 
project purposes contained in the WRDA 1996 authorization.
    Florida agriculture supports the statement of Plan purposes 
contained in Section 528 of The Water Resources Development Act of 
1996: ``The comprehensive plan shall provide for the protection of 
water quality in and the reduction of the loss of freshwater from, the 
Everglades. The comprehensive plan shall include such features as are 
necessary to provide for the water-related needs of the region, 
including flood control, the enhancements of water supplies, and other 
objectives served the Central and Southern Florida Project.'' Congress 
should affirm this fundamental statement of purposes and priorities in 
authorizing the comprehensive plan.
    <bullet>  Approve the Comprehensive Plan presented in Jacksonville 
District's Feasibility Study as a framework to guide future project 
planning and require periodic updating.
    Florida agriculture believes that the Jacksonville District's 
recommended comprehensive plan is an appropriate guide and framework 
for the continued plan formulation and detailed technical analysis 
necessary to achieve the environmental and economic purposes served by 
the Central and Southern Florida Project for the next half-century. 
Congress should approve the plan as the framework for future planning 
and design of the new Central and Southern Florida Project elements and 
operational modifications.
    In approving the comprehensive plan, Congress should require it to 
be revised periodically based on (1) new scientific knowledge, (2) the 
results of the pilot projects discussed below, (3) the results of the 
three feasibility studies recommended in the District's report, (4) the 
actual benefits and other impacts resulting from newly completed 
features and changed operational rules and (5) the projected benefits 
and other impacts of further proposed modifications and additions to 
the Central and Southern Florida Projects. Such revisions are essential 
to maintain the comprehensive plan as a current framework guiding 
future project investments and operational changes over the two-decade 
implementation period.
    Without doubt, integration of the feasibility studies of Florida 
Bay and Florida Keys, of Southwest Florida, and of the Comprehensive 
Integrated Water Quality Plan, the actual results received from the 
completion of feasibility level studies of new construction elements as 
well as implementation and evaluation of the pilot projects will result 
in substantial modifications to the plan. Such changes must be 
anticipated and provided for in congressional action on the 
comprehensive plan in 2000. A revised comprehensive plan should be 
submitted to Congress whenever future recommendations for further 
project authorizations are requested.
    <bullet>  Authorize cost sharing for project operation and 
maintenance that reflects the unique combination of project purposes 
served by the Comprehensive Plan.
    Congress must recognize that a substantial share of the costs of 
operating and maintaining the new structures needed to implement the 
comprehensive plan are associated with ecosystem restoration and with 
Everglades National Park, specifically. The benefits of restoration are 
enjoyed across the nation, and indeed internationally, in the case of 
migrating species and rare and endangered species unique to South 
Florida. These costs are properly borne by the Federal Government.
    <bullet>  Authorize reallocation of present water users' supplies 
only when comparable replacement supplies are available to those users.
    Florida agriculture supports the Jacksonville District's 
recommended comprehensive plan because it recognizes that ecological 
and economic health of South Florida is at risk, and implementation of 
the plan is essential to restoring and maintaining that health. As an 
industry which contributes very little to the increase in demand for 
water over the next 50 years, we are concerned that our existing 
supplies not be taken from us and given to other users before 
replacement supplies are in place. Authorize the pilot projects not 
authorized in WRDA 1999.
    Florida agriculture supports the authorization of the five 
remaining pilot projects recommended in the comprehensive plan which 
were not authorized previously. Implementation of the $100 million in 
pilot projects is essential to demonstrate the technology underlying 
the comprehensive plan. Until we are confident this technology will 
perform as anticipated and at the projected cost, we can not be 
confident that the comprehensive plan can serve as the ultimate 
blueprint for meeting our future water demands.
    <bullet>  Authorize construction projects only when supported by 
feasibility level studies that have been formally transmitted to 
Congress by the Administration.
    The Restudy has succeeded in producing a conceptual plan that 
enjoys broad support; however, it is not at the level of detail 
necessary to define specific construction projects with any reasonable 
degree of certainty as to their costs, their benefits or even their 
physical impacts and performance; therefore, the Comprehensive Plan 
should not be authorized in its entirety. The large geographic area, 
project scope and complexity of issues have precluded the conduct of 
studies at the level of detail that normally supports Corps of 
Engineers construction authorizations. Congress should not authorize 
construction projects unless feasibility level studies have been 
completed and the report has been officially transmitted to Congress 
after full public and interagency review.
    The need for strict adherence to this rule is particularly 
important in the case of these projects because of the uncertainties of 
restoration science and the complex interaction among individual 
projects. We are painfully aware that even when projects are authorized 
after a full feasibility investigation,--in the case of South Florida, 
the Modified Water Deliveries Project for Everglades National Park--
these projects can become mired in design problems and scientific 
uncertainty and their implementation delayed for years. The 
comprehensive plan is too important to South Florida and the Nation, to 
prematurely authorize land acquisition and project construction. 
Florida agriculture urges Congress to authorize project construction 
only when a feasibility study has been completed and transmitted by the 
executive branch. It is also essential that this authorization function 
be retained by the Congress and not delegated to the executive branch.
    <bullet>  Require incremental justification of projects authorized 
for construction.
    We recommend that Congress require the Corps of Engineers to 
describe the benefits of each project in the feasibility report 
supporting project construction. Consistent with Section 528 of WRDA 
1996, we are not suggesting that an economic justification be required 
for projects which do not supply water for economic purposes. However, 
we believe it is essential that each project be formulated in 
accordance with the 1983 Principles and Guidelines for Water and 
Related Land Resources Implementation Studies of the U.S. Water 
Resources Council and that the contribution of each project to the 
objectives of the comprehensive plan be described. We believe it is 
important for Congress to understand the incremental contribution of 
each investment to the ecological and economic purposes served by the 
plan before authorizing its implementation. This is a standard 
requirement for other projects across the nation, and there should be 
no exception for modifications to the Central and Southern Florida 
Project.
    <bullet>  Require development and periodic updating of a strategic 
plan identifying all measures (and their associated life-cycle costs) 
necessary to achieve restoration and other project purposes including 
water quality and exotic species management. We share the concerns 
articulated in the Conference Committee report accompanying the fiscal 
year 2000 Interior Appropriations Act. The costs of restoration far 
exceed the $7.8 billion identified as the cost of the comprehensive 
plan. Moreover, there are several uncompleted projects, including 
Modified Water Deliveries to Everglades National Park, which will have 
important impacts on the South Florida Ecosystem. Congress should 
require the maintenance of the Strategic plan which would integrate all 
activities, including management of exotic species relating to 
restoration and a full identification of all restoration related 
measures and their life-cycle costs.
    <bullet>  Projects should use land acquired from willing sellers 
and land already in public ownership where practical; otherwise the 
State condemnation process should be followed.
    The Comprehensive Plan calls for acquisition of approximately 
248,000 acres of land needed for the various components of the Plan. 
Most of these acres will be targeted in the rural agricultural areas. 
To minimize the impact on one segment of the economy, the acquisitions 
should be focused to the greatest extent practical on willing sellers 
and government owned land. No one basin or sector of the economy in 
South Florida should bear a disproportionate burden if land is required 
to be taken though condemnation.
    Agriculture also feels that if condemnation is required, then the 
State of Florida's condemnation law should be followed which allows the 
landowner whose land is being taken to be reimbursed for all reasonable 
costs expended. We believe it is unfair to take someone's land and not 
reimburse the landowners reasonable costs, such as legal costs and 
appraisal costs, as is done in the Federal condemnation process.
    <bullet>  Water quality requirements should be agreed to by the 
Federal and State agencies before any project element is authorized.
    Currently, there is no requirement that the Federal or State 
agencies must present to Congress and the Florida Legislature how water 
quality standards will be met upon completion of a project component. 
Water quality must be an integral component of the Restudy. If we don't 
assess how water quality requirements will be met, we run the risk that 
we will spend millions and billions of dollars only to discover that we 
built systems that are albatrosses and must be retrofitted with many 
more billions of dollars to meet water quality standards. If water 
quality is not totally integrated with the flood control and water 
supply aspects of the project we run the risk that the project will be 
a failure or that the project will ultimately be too costly to 
complete. By addressing water quality during the authorization process, 
we will help assure that we build the most efficient systems at the 
outset and thus the overall success of the project.
    <bullet>  Funding issues must be resolved.
    In the recent past, the Federal Government has had difficulty 
funding projects such as the Kissimmee River Restoration, the C-111 
Project, Stormwater Treatment Area 1-East, etc. The State has not yet 
found a dedicated source of funds to fund the Restudy projects. Each 
Restudy project element should have reasonably assured funding from 
both the State and Federal Government before it is authorized. If 
authorization and funding commitments are not closely tied, we run the 
risk of condemning agricultural land and starting construction only to 
have projects unfinished for years.
Conclusions and Summary of Proposed Principles to Guide Further 
        Authorizations of the Comprehensive Plan
    I thank the Committee for this opportunity to present the views of 
Florida Agriculture on the results of the Central and Southern Florida 
Project Comprehensive Review Study. Successful implementation of the 
comprehensive plan is essential to the ecological and economic health 
of all of South Florida during the next century. The agricultural 
community is a vital element of the economy of South Florida and will 
benefit greatly from ensuring that additional water is made available 
to restore South Florida ecosystems and to provide for a growing urban 
population.
    Congress should affirm the multiple purpose nature of the 
comprehensive plan and direct its use as a framework and guide to 
future project planning and design, provided it is regularly updated. 
It should assure existing water users that their supplies would not be 
reallocated without replacement water being available on comparable 
terms. It should act quickly to reduce the uncertainties associated 
with the proposed comprehensive plan by authorizing and funding the 
pilot projects as soon as possible. It should not authorize any 
construction projects that are not based on the same level of 
engineering, economic and environmental analysis that is required of 
other projects nationwide.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Responses of Malcolm Wade to Additional Questions from Senator Smith
    Question 1. What is the contribution that the sugar industry is 
making in the Everglades restoration effort?
    Response. Florida's sugar farmers are paying approximately $12 
million a year in special ``Agricultural Privilege Taxes'' mandated by 
Florida's 1994 Everglades Forever Act. (This is the only place in the 
country where farmers are taxed for the ``privilege'' of farming). 
These taxes will provide at least $233 million, which is more than 100 
percent of the project costs associated with cleaning farm water. The 
sugar farmers are the only stakeholders that are currently paying a tax 
in excess of general ad valorem taxes for the restoration.
    Forty thousand acres (60 square miles) consisting primarily of 
sugar cane farm land were taken out of production to build Stormwater 
Treatment Areas (STAB) to filter farm, urban and Lake Okeechobee water 
before it enters the Everglades system.
    In addition, sugar farmers contributed $1 million to help build the 
experimental prototype filter marsh, the Everglades Nutrient Removal 
Project.
    In addition, farmers have spent tens of millions of dollars on the 
farms to implement a series of Best Management Practices (BMPs)--soil 
and water management techniques which clean the water before it leaves 
the farms. These BMPs have been quite successful, reducing phosphorus 
levels an average of 50 percent a year since 1994, which is twice the 
legal requirement.
    In addition, the farmers formed a special environmental taxing 
district that has generated about $2,500,000 annually since 1989, used 
exclusively for environmental restoration within the Everglades 
ecosystem.
    U.S. Sugar also contributed more than 6 years of a top executive's 
time and expertise serving on the Governor's Commission for a 
Sustainable South Florida. This commission developed consensus support 
for the U.S. Army Corps of Engineers Restudy of the Central and South 
Florida Flood Control System. Sugar farmers continue to support the 
Restudy in public forums across the country.
    In addition, sugar farmers, as large property owners, also pay over 
$200,000 a year for Everglades Construction as part of property taxes 
levied by the South Florida Water Management District.
    Members of management in all of the major sugar companies have 
participated in a proactive way on all of the significant committees in 
the Everglades restoration process, including:
    <bullet>  Governors Commission on the Everglades;
    <bullet>  Governors Commission for a Sustainable South Florida;
    <bullet>  SFWMD Lower East Coast Water Supply Committee;
    <bullet>  SFWMD Lower West Coast Water Supply Committee;
    <bullet>  SFWMD Caloosahatchee River Advisory Committee;
    <bullet>  SFWMD Agriculture Advisory Committee;
    <bullet>  Everglades Forever Act Technical Mediation Group 
Everglades Technical Advisory Committee;
    <bullet>  Lake Okeechobee Technical Advisory Committee.

    Question 2. What have been the effects of the Federal sugar program 
on the Everglades ecosystem?
    Response. The Federal sugar program has had a positive effect on 
the Everglades ecosystem. It has enabled farmers to continue to keep 
these environmentally sensitive lands in agriculture. Sugarcane farming 
has been determined to be the best possible use for land in the 
Everglades Agricultural Area (EAA). Sugarcane is basically a tropical 
grass--it needs very little in the way of fertilizers or chemicals. If 
sugar farmers shifted from sugar to other crops the phosphorus run-off 
would be at least 200 percent greater.
    Other options for these 500,000 acres of land--located near Lake 
Okeechobee and less than an hour's drive from both east and west 
coasts--would be development or production of alternative crops. 
Development would be disastrous for the Everglades, and other crops 
require many times more fertilizer and pesticides.
    There are no subsidy payments to sugar farmers, and the Federal 
sugar program has operated at no cost to the Federal Government for 
many years. Reforms to the sugar program in the 1996 Freedom to Farm 
Bill removed government price supports, which have resulted in sugar 
prices dropping to 20-year lows. Yet, Florida's sugar farmers are 
efficient and have been vertically integrating, adding refining 
operations to compete in an increasingly competitive sugar market.
    The Federal sugar program is a response to predatory trading 
practices by foreign governments who heavily subsidize sugar production 
in their own countries. Absent the sugar program's import restrictions, 
this heavily subsidized foreign sugar would flood our markets, driving 
efficient American producers out of business. Farmers in the EAA would 
be forced to alternative uses for their land, with many negative 
consequences for the Everglades.
    The option (and ultimate goal of environmental extremists) of the 
Federal Government buying almost half a million acres of private land 
and returning it to nature is simply unrealistic. Money for purchasing 
the land aside, just managing such an expanse would be nearly 
impossible given the rapid invasion of exotic species on other 
government-owned land in the South Florida ecosystem. The government 
would also have to operate and maintain hundreds of pumps (currently 
owned and operated by the farmers) to move water from Lake Okeechobee 
south into the Everglades to maintain the water supply for South 
Florida as the natural contours of the land have changed over the last 
50 years.

    Question 3. In what capacity is the Talisman property currently 
being used by the sugar industry?
    Response. The transaction that gave the government the title to the 
``Talisman Property'' was a complex package of trades with, and lease-
backs to, several agricultural companies. The former Talisman tracts 
that were traded to consolidate the government ownership are now owned, 
and are being farmed, by the companies who participated in the trades. 
These properties are shown in dark green on the attached sketch.
    The land that is now owned by the government (the South Florida 
Water Management District), whether it was originally owned by Talisman 
(shown in orange on the attached map) or another company (shown in pink 
on the attached map), is being farmed under leases held by the SFWMD. 
The understanding during the negotiations of the Talisman agreements 
was that this land would continue to be farmed until the government 
needed the property for the construction of the water projects 
envisioned in the Restudy. Essentially all of the land now controlled 
by the government in anticipation of it being found suitable for use as 
part of the EAA reservoir project is encumbered with leases that allow 
farming at a minimum through 2005 or 2008, depending on the specific 
parcel, with a maximum term of 20 years.
    The parcels that were owned by a company other than Talisman, but 
are now part of the government holdings, are under lease to the 
original owner and are still being farmed and are shown in pink on the 
attached schedule. The government owned land that formerly belonged to 
Talisman is leased to the companies who participated in the land 
exchange. Because of the cropping cycles associated with sugar cane the 
government agreed to give the lessees a 30-month notice prior to 
requiring them to vacate the land.
    The attached sketch illustrates the government land holdings as a 
result of the Talisman transaction and the related lease expiration 
dates.

    Question 4. How does this change once the Everglades Agricultural 
Area Storage Reservoirs are put into place?
    Once it is determined how much land is needed for reservoirs and 
where these reservoirs will be located, there will be no use by the 
sugar companies. The water storage projects will become components of 
the Central and Southern Florida Project and will be owned and operated 
by the SFWMD. It is worth noting that the location of the EAA storage 
facilities modeled in the Restudy does not match the real estate the 
SFWMD now controls as a result of the Talisman transaction.
    It will be necessary to reformulate the reservoir plan during the 
design process to determine the final configuration, operation, cost 
and feasibility of the facilities.
                                 ______
                                 
  Responses by Malcolm Wade to Additional Questions from Senator Bob 
                                 Graham
    Question 1. This year in the Interior Appropriations bill, 
Congressman Regula called for the development of ``assurances'' 
language that would ensure that the park and natural systems in the 
Everglades region receive adequate quantities of water. I know that the 
Administration and the state are working very hard to develop this 
language for inclusion into the Administration's WRDA proposal. Can you 
describe for me the basic principles that you feel are critical 
elements of this language and why?
    Response. 1. Assurance provisions should be incorporated into WRDA 
2000 that are consistent with the Restudy purposes expressed in WRDA 
1996 that, through implementation of the Comprehensive Everglades 
Restoration Plan, both environmental needs and other water related 
needs of the region will be met in a balanced way.
    The goals and purposes of the Proposed Comprehensive Plan include 
meeting not only environmental needs but the other water related needs 
as well. The South Florida Water Management District, as local sponsor 
of the C&S Florida Project is relying on the Comprehensive Plan to meet 
not just environmental water needs but other water supply and flood 
protection needs for urban and agricultural areas.
    Consequently, providing assurances that both environmental and 
economic needs will be met is fully consistent with the goals of the 
overall Comprehensive Plan of the Restudy. The current assessment of 
the Restudy team is that to meet all needs, roughly 80 percent of the 
new water will be used for the environment and the remaining 20 percent 
for other needs.
    2. Assurance that all needs will be addressed in a balanced way 
must also be provided through a clearly defined authorization process 
for plan components which will rely upon the Project Implementation 
Reports now proposed by the Restudy's Implementation Plan.
    The Proposed Comprehensive Plan is highly conceptual and based on 
hydrologic models that will be further refined and are likely to 
produce changing environmental restoration targets. The currently 
proposed project components are based on these model results, not on 
engineering designs or evaluations of operating efficiency or cost-
effectiveness. The pilot projects may also reveal the need for 
substantial changes to the proposed Plan. These uncertainties are 
acknowledged within the Restudy Report of April 1999.
    Consequently, each project implementation report should be required 
to identify the increase in, or reallocation of water supplies that 
would result from the project component and the uses to be served upon 
completion of the component. When Congress authorizes the component, it 
would then also affirm the assurances as to the uses that would receive 
the benefits of the component's implementation.
    This continuing process will meet the goals and objectives of the 
Everglades Restudy in a more direct and quantitative way and can be 
used to provide specific guarantees to all interests that individual 
project components will provide measurable and enforceable 
contributions to the Comprehensive Everglades Restoration Plan 
objectives.

    Question 2. You have raised some concerns regarding this 
authorization of the Restudy without a detailed feasibility study. Can 
you explain why you feel the Restudy should not move forward without 
this level of detail?
    Response. Our position has never been that the Restudy should not 
move forward. We have been active players in the formulation of the 
Comprehensive Plan and now support its approval (without the additional 
commitments in the Chiefs Report) by Congress as a framework for 
continued planning and design of future project modifications. We 
supported the Critical Projects process authorized in 1996, and we 
supported expediting the two ASR Pilot Projects authorized in 1999. We 
support authorization of the additional Pilot Projects in WRDA 2000. 
Congressional direction regarding the comprehensive plan and 
construction of the pilot projects are essential if the restoration 
process is to proceed as quickly as Federal and State resource 
limitations will allow. We support funding of all restoration 
activities at the Corps' capability level in fiscal year 2001 and 
beyond and note the Corps presently has the authority to continue 
preconstruction planning and design of additional project elements.
    We believe that the Restudy should move forward without delay at 
both the state and Federal levels. We do not, however, support 
construction authorization by Congress for major Restudy components in 
the absence of the basic engineering, economic and environmental 
analysis that details the project's cost, performance and feasibility. 
Premature authorization will not speed up the final construction or 
operational date for any project. In fact, it may become an obstacle to 
the process if the detailed analysis leads to a significant deviation 
from the conceptual plan that would be authorized in WRDA 2000. We 
believe that all parties should work together to find a process that 
allows the Restudy to move forward without delay while the needed final 
engineering analysis is completed. Our position is no different from 
the long-standing position of several administrations concerning water 
project authorizations, and we note that this position was affirmed by 
President Clinton as recently as his signing statement for WRDA 99.
    In addition, the detailed feasibility studies, referred to as 
Project Implementation Reports (PIR) in the Restudy, are the most 
appropriate vehicles for providing the assurances to Congress and other 
interested parties that the benefits projected to flow from the 
Comprehensive plan will actually be obtained. These reports will 
document and quantify how each component will work, what the 
restoration goals are and how much water can be expected to be provided 
to the ecosystem and other uses. This information can form the basis of 
binding water allocations to the environment and to other users that 
can be tied to completion of the component and the resulting change in 
systems operation. Water quality and other environmental and economic 
considerations will also be clarified.
                               __________
  Statement of Nora Williams, Monroe County Commissioner, Marathon, FL
    Mr. Chairman and members of the Committee, I want to thank you for 
this opportunity to testify before the Senate Committee on the 
Environment and Public Works on the important issue of the Everglades 
Restudy.
    Mr. Chairman, as a member of the Board of Monroe County 
Commissioners, I serve as the County's Land Use Liaison to the State of 
Florida, and I represent the Commissioners on the National Marine 
Sanctuary's Water Quality Steering Committee. I am also a recent 
appointment to the Governor's Commission for the Everglades. My county, 
Monroe, is better known as the Florida Keys, but it also includes vast 
tracks of the mainland Everglades and is the southernmost component of 
the Everglades ecosystem.
    My testimony before you today will be confined to five critical 
points:

    ONE: The restoration of the Everglades is absolutely critical to 
the future of South Florida and the Restudy is our last best chance to 
restore the Everglades. This is about more than our water supply--there 
simply is no South Florida as we know it without the Everglades. Fully 
one third of Everglades National Park is Florida Bay, the shallow body 
of water between the mainland and the Florida Keys. It is the nursery 
ground of the marine creatures that make their homes on the reefs of 
the Florida Keys, thus serving as the foundation of both the Florida 
Keys' ecosystem and its economy.
    TWO: We must start right away. The Restudy really must be 
authorized in the year 2000. The condition of the Everglades is not 
stagnant, but is getting steadily worse over time, and can be expected 
at some point to reach ecological collapse. And there often isn't 
recovery from collapse. Fragile ecosystems reach a point where no 
amount of action can ever restore what has been lost And sometimes when 
I'm walking along the edge of the grassy wetlands of the Everglades, 
I'm deeply frightened of how close we are to irretrievable loss.
    THREE: The Restudy is an evolving process. When you examine the 
Restudy, you're definitely looking at a flawed document--there can be 
no question about it. There's a paragraph for just about every vested 
special interest in the State--with one major exception I will mention 
later--and the plan is fundamentally compromised repeatedly on one side 
or the other. But, as it stands, it's as close as we're likely to get 
to consensus with something this mighty, this expensive and this 
complex. Please recognize that your approval of the Restudy begins a 
process of refinement of these expressed objectives and plan--work to 
be done not before the passage of the Restudy but as the approved and 
funded Restudy evolves.
    FOUR: The Restudy must not be the basis for further degradation of 
the Everglades ecosystem. Much of the expense of the Everglades Restudy 
is directly traceable to undoing the earlier work of the Army Corps of 
Engineers this century in Florida. Work to control and direct the flow 
of water for the convenience and profit of a single species is rarely 
wise, even when that species is us--and we're now finding the cost of 
single species ecosystem manipulation is not only expensive, its 
devastating and almost always harmful even to the single species it is 
designed to benefit. Let's enter this Restudy pledged not to commit the 
mistakes of the past and determined that we will not balance every step 
forward with a step back.
    FIVE: Funding water quality improvements in the Florida Keys is 
crucial to the Restudy's success. Increasingly, the Army Corps of 
Engineers has come to see that their job, if responsibly undertaken, 
isn't just about the movement of water--it's about the quality of the 
water that is moved. That's why I'm deeply distressed by the one 
special interest I know of that didn't get included in this Restudy 
you'll find remarkably little mention of the Florida Keys, the enormous 
wastewater and stormwater challenges we face, and no money allocated to 
help with those problems.

    The Florida Keys are essentially the southernmost third of the 
Everglades. What happens in South Florida to the north of us ends up in 
our Bay, in our backyards, flowing through to the precious reef tract 
that is not only the world's No. 1 dive destination, but the boundary 
of the Everglades ecosystem. With documented water quality concerns 
that made headlines in national press across the Nation last year, how 
could we have emerged completely unfunded from the Restudy? Our 
wastewater system upgrade costs are higher than anywhere else because 
our islands are solid rock, and the water quality standards to which we 
are being held are higher than anywhere else. And yet, with our cost of 
living among the highest in Florida, our citizens have one of the 
lowest incomes. We brought these issues formally before the Army Corps 
of Engineers during their public hearings to no avail.
    I can't accept the argument I hear most frequently for our 
exclusion--that the Restudy is a delicately balanced Christmas tree, 
already heavily laden with special interest and specific project 
ornaments--that one more may topple this precious tree. Ignoring what 
the Keys face, and those impacts on the Everglades ecosystem, is like 
saying the tree is finished before you put the star on top.
    We have a Restudy that recognizes the wastewater crisis in the 
Florida Keys, that acknowledges that solutions for this crisis are, and 
I'm quoting here, Beyond the means of Tanya and yet offers no help for 
us in its $8 billion budget. We're not left out because the problem 
isn't recognized, and we're not left out because our problems and their 
expense pale in comparison with those that were selected for funding 
inclusion.
    Can it simply be about our lack of clout? With only 85,000 people 
spread across 150 miles of islands, have we so little voice in the 
process? I just don't know. But I can tell you with absolute conviction 
something that I really DO know--water quality surrounding the Florida 
Keys is deeply threatened and we cannot bear the burden alone. I am 
here before you today to ask, whether within the Restudy or through a 
separate appropriation, that you don't forget us. The Florida Keys are 
a national treasure, a part of the Everglades ecosystem, and we too are 
in danger of irretrievable loss and unbearable burdens.
    The Everglades Restudy is our last, best chance to recover 
something we can't afford, in any sense of the word to lose, and the 
time for the Restudy's approval is now. Let us acknowledge that the 
Restudy is flawed and that it will evolve over time. And let us pledge 
to one another that the Restudy will be committed to movement forward! 
not used as an excuse for allowing additional degradation of the 
Everglades. And let me beg that you not forget the place I'm so proud 
to call home the Florida Keys.
                               __________
                                          State of Florida,
                    Office of the Attorney General, January 3, 2000

The Honorable Bob Smith, Chairman,
Senate Committee on Environment and Public Works,
Dirksen Senate Office Building,
Washington, DC 20510-6175.

Dear Senator Smith: It is a privilege and a pleasure to welcome you to 
Florida as part of the review of Everglades legislation by the Senate 
Committee on Environment and Public Works.
    Few issues are more important, or more galvanizing, for Florida 
than the fate of the Everglades. I am sure your committee colleague 
Senator Bob Graham has on more than one occasion described to you the 
splendor of the Florida Everglades and the crucial role played by the 
Everglades system. Senator Graham's efforts to protect and restore the 
Everglades system, begun when he was our Governor, remain at the top of 
Florida's agenda. In a newspaper survey just this week, Florida's eight 
living Governors unanimously agreed that the environment--led by the 
Everglades--is the central issue facing our state in the 21st Century.
    The Everglades restoration legislation under review by your 
committee is desperately needed to ensure the long-term protection of 
this vital environmental resources. In welcoming you to our state, I 
strongly urge you to lend you full support to the legislation.
            Sincerely,
                   Robert A. Butterworth, Attorney General.
                               __________
                          Florida House of Representatives,
                  Tallahassee, Florida 32399-1300, January 5, 2000.

The Honorable Bob Smith, Chairman,
Senate Committee on Environment and Public Works,
Dirksen Senate Office Building,
Washington, DC 20510.

Dear Senator Smith: Allow me to take this opportunity to welcome you 
and the members of the Committee on Environment and Public Works to 
Florida.
    We are pleased to have the opportunity to reiterate the state's 
longstanding commitment to the restoration of Florida's Everglades. The 
Everglades are a uniquely valuable natural resource and well worth our 
best efforts to assure that restoration is ultimately successful. What 
we have in the Comprehensive Plan for the Restudy is an overall 
strategy for restoration. Now that it is time to begin implementation, 
it is imperative that we closely examine each planned project to 
determine those that maximize ecosystem benefits. Moreover, it is our 
responsibility to see that the public dollars available for Everglades 
restoration are put to their best use.
    Rest assured that Florida is committed to continuing our 
partnership with the Federal Government to restore the beauty and 
vitality of the Everglades ecosystem. file will be following your 
committee's actions with great interest and look forward to working 
with you.
            Sincerely,
                                    John Thrasher, Speaker.
                               __________
Statement of Hon. Carrie P. Meek, U.S. Representative from the State of 
                                Florida
    Mr. Chairman, I bid you a heartfelt welcome to this part of the 
Sunshine State. I want you to know that I am a native Floridian. For 
this reason, I am honored to participate in these proceedings that, I 
hope, will finally lead to a sensible and realistic legislation in the 
Congress as soon as possible.
    In the interest of time, I will be brief but succinct in my 
remarks, knowing full well that we have among us today a group of the 
most committed and erudite witnesses whose resilient dedication to the 
Everglades has withstood the challenges of the times. I also would like 
these remarks to be included in the proceedings of this hearing.
    Mr. Chairman, from my perspective I want to focus on one basic 
issue: The Comprehensive Plan that should define our legislation for 
the restoration of our precious Everglades should include specific 
elements designed to ensure equitable treatment of all segments of 
South Florida's population in order to prevent disproportionate 
negative impacts on minority populations due to the implementation of 
specific engineering projects.
    In light of this issue, I see two glaring consequences of the 
Everglades restoration on inner city residents.
    1. The implementation of market-driven initiatives of the State of 
Florida that are linked to Everglades restoration will redirect 
development and growth to communities where African-Americans live and 
will result in their displacement and dislocation and thereby diminish 
their quality of life.
    As is usually assumed, growth is not always synonymous to progress.
    2. Whatever comprehensive plan that will emerge from the Everglades 
restoration will alter the South Florida landscape in a manner that 
creates opportunities for the kind of excesses we Floridians have 
experienced over the last half-century.
    It is not tenable to then say those results--unintended 
consequences, for the most part--were not also the responsibility of 
those who devised and supported the Plan. And if the genuine measure of 
a society is how it takes care of the least of its members, the 
disenfranchised, the young and the old, the poor and, the sick, then in 
order for the Everglades restoration to be the success we all want it 
to be, the Comprehensive Plan must include, as part of its essential 
thrust, measures that address environmental justice and community 
revitalization. It will not long succeed unless all of us are included 
in this Plan.
    Mr. Chairman, it is my understanding that this project carries 
along with it some $8 billion. It is easily the largest public works 
project not only in the United States, but throughout the world.
    Accordingly, I would like to issue a call to action to the 
proponents of this project not to summarily exclude our inner city 
residents--African-Americans and other minorities--whose lives will 
surely be affected by it.
    Let us not be oblivious of one other Federal program that 
masqueraded as ``urban renewal,'' whose glaring effects resulted in the 
disingenuous dislocation of many African-American families in the inner 
cities.
    Rather, let us be inclusive and responsive by aggressively engaging 
these very same affected residents via a comprehensive program designed 
to teach them on strict environmental clean-up standards, train them on 
environmental rehab and health safety projects, as well as job creation 
criteria.
    Finally, Mr. Chairman, as we discuss, debate and think through the 
various phases of any plan to restore the pristine beauty and 
strengthen the longevity of our precious Everglades, indeed the most 
crucial and challenging undertaking in this new millennium, I would 
like all of us to hearken to the wisdom of the 1987 United Nations' 
World Commission on Environment and Development Report. Though written 
more than a decade ago, its timeliness is as salient today.
    It defined sustainable development as ``. . . development which 
meets the needs of the present without endangering the ability of 
future generations to meet their own needs.''
    That definition rests on three principles:

    1) that the future must not be sacrificed to the demands of the 
present;
    2) that humanity's economic is linked to the integrity of the 
natural systems; and
    3) that protecting the environment is impossible unless improve the 
economic prospects of the Earth's poorest people.

    Mr. Chairman, thank you once again for this opportunity and I look 
forward to working with you in the Congress for the good of my fellow 
Floridians, for the good of our nation, and for the longevity of Mother 
Earth.
                               __________
                             U.S. House of Representatives,
                                    Washington, DC, January 6, 2000

The Hon. Bob Smith, Chairman,
Committee on Environment and Public Works,
410 Dirksen Building,
Washington, DC 20510

Dear Bob: As the Dean of the Florida Congressional Delegation, let me 
welcome you to Florida for your hearing on the Everglades restoration 
project.
    As you know, this project is a top priority for our entire 
delegation as well as our Governor Jeb Bush. However, restoring the 
Everglades is more than a state priority, it is a national priority. As 
you will see and hear during your visit, the Everglades is a unique 
ecosystem and the decisions we make about its future are critical and 
very complicated.
    One of the principal witnesses who will testify before your 
Committee tomorrow is Nat Reed, who has long beers a very good friend 
of mine. His resume lists his many distinguished accomplishments 
including his service at the Department of Interior. What his resume 
does not say is how widely respected he is throughout our state and 
throughout the environmental community. He has devoted himself to the 
Everglades project and I know you will find his thoughts to be very 
compelling.
    Again, welcome to Florida and I look forward to any thoughts you 
might have about the Everglades project when you return. With best 
wishes and personal regards, I am
            Very truly yours,
                                           C.W. Bill Young,
                                                Member of Congress.
                               __________
                         Treasurer of the State of Florida,
                                                   January 4, 2000.

The Honorable Bob Smith,
Dirksen Senate Office Building,
Washington, DC 20510.

Dear Senator Smith: I wish to welcome you and your committee to sunny, 
southwest Florida and to thank you for holding a field hearing 
regarding the proposed Everglades restoration. Florida is honored to 
act as host to your committee.
    I have been a long-time advocate of restoring the Florida 
Everglades ecosystem and support you and your committee in your efforts 
toward this worthy goal.
            Sincerely,
                                               Bill Nelson.
                               __________
  Statement of Hon. Mark Foley, U.S. Representative from the State of 
                                Florida
    First and foremost, I want to thank Chairman Smith for this 
hearing. It is the first one in his capacity as chairman of the Senate 
Committee on Environment and Public Works--and, by that virtue alone, 
sends a strong signal on the importance of restoring the vitality of 
the Florida Everglades.
    Thanks to the support of congressional colleagues such as the 
Chairman, all of us who are part of the Florida congressional 
delegation have been able to bring the issue of the Everglades into the 
national spotlight. It is now recognized across America--as it long has 
been by Floridians--as a national treasure that needs to be protected.
    It also is now widely recognized that it is a treasure in need of 
help.
    The good news is that we know the cause of its problems: more than 
50 years of diverting the natural ebb and flow of water--the lifeblood 
of the Everglades--from the Kissimmee River north of Lake Okeechobee to 
the Park's boundaries in Florida Bay. This diversion has often left the 
Everglades with too much or too little water, endangering the native 
plant and wildlife accustomed to the Everglades historic water flows.
    In order to preserve the Everglades, we need to restore its natural 
flow of water--and that will take a tremendous and vital partnership 
between Federal, state and local governments. That is why I so welcome 
Chairman Smith's committee here today, to officially begin our 
congressional review of the recommendations contained in the Restudy, 
which was presented to Congress last July.
    The Restudy is vital to reestablishing the Everglades' traditional 
water flow while maintaining existing levels of flood control and 
improving urban and agricultural water supplies.
    Ever since the U.S. Army Corps of Engineers began the Restudy 
effort to reevaluate the damage done by its old public works projects, 
we have learned that drainage improvements designed to supply water and 
protect us from devastating floods also have caused the decline of much 
of the South Florida ecosystem.
    Nowhere is this more evident than the St. Lucie River in my own 
congressional District.
    The St. Lucie River has long been a vital part of our local 
economy. Aside from the obvious draw of our beaches, tourists from all 
over come to Florida for boating, fishing, and other water-related 
activities. The St. Lucie River has always attracted many of these 
tourists because of its clear waters rich in fish and surrounding 
wildlife. Historically, this pristine ecosystem was supported by the 
slow natural drainage system of creeks and wetlands in central Martin 
and southern St. Lucie counties.
    As demand for agricultural and residential development grew, 
however, the advent of drainage canals caused dramatic changes in this 
fragile ecosystem, especially in the past few years. With each heavy 
rainfall in South Florida' the St. Lucie River has had to absorb 
billions of gallons of phosphorus-laden excess water from Lake 
Okeechobee, stressing the mix of saltwater and freshwater needed by 
marine life in the river. This situation has begun to have a 
devastating effect not only on the river, but on the economies derived 
by local fishermen and from tourism.
    Thankfully, the mission outlined by the Restudy will help us 
restore not only the Everglades National Park but also the St. Lucie 
River, which needs to return to its historic, pristine state. By 
addressing water storage problems on a regional scale, recommendations 
in the Restudy will mitigate future freshwater releases into the St. 
Lucie River.
    I look forward to working with Chairman Smith and my colleagues in 
the House to move forward with the Restudy this year. We must do 
everything we can to restore a national treasure place bit as precious 
and unique as the Grand Canyon and Yosemite National Park.
                               __________
                               West Palm Beach, FL, January 6, 2000

Dear Honorable Senators: I have asked Mr. Reed to add my message in 
with the materials that accompany his testimony before your 
subcommittee.
    My message is an ancient one: people, not governmental bodies, do 
the work. People like yourselves and those who are before and behind 
you are the engines that power action.
    We are blessed that the remnant Everglades still exists, in part 
due to the actions taken by brave individuals nearly a century ago. In 
1905, Audubon conservation officer Guy Bradley was shot dead while 
protecting wildlife in the Everglades. His death--the first 
conservationist to die tragically in the line of duty--rallied others 
to take action to protect the Everglades. It saddens fine to add that 
many others have died tragically in the Everglades and elsewhere in the 
world while protecting nature from our greed. I have included materials 
on some of those who have died tragically while working in the 
Everglades.
    We are now on the brink of destroying what our ancestors worked so 
hard to protect for us and for those who will follow us, If they were 
with us today, how would those ancestors react to our inaction? How 
will our children children judge our actions?
    Our offspring are facing a paved wasteland overrun by invasive 
exotic plants and animals because of our inaction. Future generations 
will see the evidence of many hearings and words ire The Congressional 
Record, but that is not action. What you do or not do is most important 
to future generations, but they cannot be here before you to make their 
pleas.
    This past May I was also privileged to be the developer/coordinator 
of the first South Florida Restoration Science Forum. The online forum 
registry has the names of nearly 400 people who registered. It is 
estimated that hundreds more also participated in the no-charge 3 day 
event. Now, thousands participate in the forum as it continues on the 
Internet (http://sofia.usgs.gov/sfrsf/). I have included several pages 
on the forum exhibits, so that you can see how the forum focused on the 
science reseeded for resource management decisionmaking actions.
    Presently, I'm part of a collaborative effort to build a web-based 
``virtual village'' to connect the many disparate and often 
disconnected Internet sites for the efforts that are vital for 
balancing the needs of nature and man in southern Florida. 
Evergladesvillage is organized to provide knowledge by regional 
location and by specific interest. It eliminates the need to jump 
between the web sites of numerous organizations to find what each is 
contributing. I have attached informational cards about 
Evergladesvillage. It's Internet address is http:/
fwww.evergladesvillage.net.
    I thank you for the opportunity to be part of your work. Best 
wishes in your decisions and your actions,
            Respectfully submitted,
                                             Robert Mooney,
                                                   P.O. Box 222154,
                                     West Palm Beach, FL 33422-2154
                               __________
   Response of the Lake Worth Drainage District to the Comprehensive 
                              Review Study
Executive Summary
    On July 1, 1999 the United States Army Corps of Engineers (Corps) 
submitted the Final Report of the Central and Southern Florida Project 
Comprehensive Review Study (Restudy) to Congress. The Restudy Plan 
recommends wholesale changes to the water management system in south 
Florida to provide for urban, agricultural and ecosystem sustainability 
through the construction of $7.8 billion worth of new water projects. 
The emphasis is on creating new water storage features to provide for 
growing environmental and urban demand.
    The Restudy Plan recommends several project features within or 
adjacent to the Lake Worth Drainage District (LWDD). Although these 
will necessitate structural changes to the LWDD facilities, of more 
concern are the significant operational changes that will be needed to 
incorporate new sources of water, which will include numerous Aquifer 
Storage and Recovery (ASR) systems and new above ground reservoirs.
    The LWDD has participated in the process to develop the Restudy 
Plan and strongly supports congressional action to continue the 
process. Like many in south Florida we acknowledge the need to 
modernize the Federal water management system to promote both 
restoration of the ecosystem and continued economic prosperity. For the 
Restudy to succeed, the implementation phase must demonstrate that the 
technological solutions that are proposed will work, are affordable and 
will be constructed in a sequence that minimizes disruptions to 
existing activities and investments. There was broad consensus on these 
concepts throughout the development and publication of the Draft Plan 
last fall.
    Unfortunately, as soon as the public comment period was closed the 
Department of Interior expressed its dissatisfaction with the plan they 
had been instrumental in developing and demanded expensive, impractical 
changes to meet a narrow set of objectives. This led to a hurried ad 
hoc analysis by the Restudy planners of new features to pump large 
quantities of urban stormwater from West Palm Beach all the way to 
Everglades National Park. The structural changes necessary to make this 
possible are overwhelming. It would require the complete reorientation 
of a major portion of the LWDD system. Canals would have to be enlarged 
onto property that now holds hundreds of houses, business and major 
highways. The costs would be staggering. These costs are not included 
in the current $7.8 billion price tag.
    The process that led to this revised plan has reinforced a general 
discomfort with the Federal process controlling the Restudy. Local 
government staff and various public groups worked with the Corps over 
several years to develop a balanced plan that most people understand, 
only to have an elite group within one Federal agency attempt to obtain 
major changes without any public participation. The Corps has 
legitimized this closed door process by committing, in the Chief of 
Engineers' Report, to water diversions that cannot be made with the 
facilities in the Recommended Plan. Unless Congress insists on an open 
process to implement a plan that is based on sound engineering and 
economics the restoration of the Everglades will not have the support 
of the people of Florida.
Conclusions
    1. The Comprehensive Review of the Central and Southern Florida 
Flood Control Project is timely and necessary to assure the protection 
of the Everglades and future water supply for the people of south 
Florida.
    2. The Recommended Plan presented in the Draft Integrated Report, 
although dependent on the large-scale application of untested 
technologies, nevertheless provides a reasonable framework to begin a 
deliberate program to accomplish the objectives.
    3. Due to doubts about the viability of several of the most 
important Restudy Plan components, Congress should authorize and fund 
the pilot projects necessary to prove the feasibility of the new 
technologies and a few critical projects for which the engineering, 
economic and social impacts are not an issue.
    4. Diverting urban runoff from West Palm Beach through the LWDD 
canal system to Water Conservation Area 2 is not practical, and may not 
even be possible, given the number of existing public and private 
facilities that would have to be abandoned or significantly modified.
    5. The commitment by the Chief of Engineers to provide 245,000 
acre-feet of additional flow to Everglades National Park, above the 
unprecedented increases already provided by the Recommended Plan, is a 
breach of faith with those who participated in the development of the 
Plan and should be flatly rejected by Congress.
    6. The recommendation by the Chief of Engineers that the Federal 
Government pay none of the future operations and maintenance costs, 
when the process has been controlled to favor the agendas of Federal 
agencies at the expense of local interests, will eliminate any chance 
of the Plan being accepted by the people of Florida.
Introduction
    The Lake Worth Drainage District (LWDD)(see Figure 1) was 
established June 15, 1915 to provide water management to a 218 square 
mile area of eastern Palm Beach County. The mission has evolved as the 
area developed such that the LWDD now provides essential groundwater 
recharge to support 23 public water utilities serving over six hundred 
thousand people. For the last 45 years the District has relied on water 
supply deliveries from the Central and Southern Florida Project to 
recharge public water supply wellfields, maintain canal levels to 
prevent saltwater intrusion and provide irrigation and drainage to a 
vital agricultural area.
    In 1992, The United States Army Corps of Engineers (Corps) was 
authorized by Congress to develop a plan to reconfigure the water 
management system in south Florida to provide for urban, agriculture 
and ecosystem sustainability. On October 13, 1998, after 3 years of 
multi-agency effort to develop a plan, the draft Comprehensive Plan of 
the Central and Southern Florida Comprehensive Review Study Project was 
released for public comment. Public meetings were held around south 
Florida to present the Dratt Plan and receive public testimony. 
December 31, 1998 marked the conclusion of the public comment period 
and the Corps subsequently began preparation of the final Plan 
considering responses to the draft by the public and other agencies.
    The Final Plan presents a conceptual outline of $7.8 billion worth 
of capital projects to rebuild the water management system in south 
Florida. It is a plan that requires all interest groups to place their 
faith for ecosystem restoration and reliable water supplies in a 
process that will unfold over the next 20 years. Federal commitments to 
early investments in restoration are accompanied by assurances to 
existing water users that the transition to new technologies will not 
deprive them of the water supply and flood protection they now enjoy. 
Questions about the feasibility of the new technologies are to be 
answered by a series of up front pilot tests of field scale prototypes.
    Given enough time, money and sustained good faith by all involved 
parties the Restudy has the potential to provide a healthy ecosystem 
and economy for generations to come. Unfortunately the door was barely 
closed on the public comment period when the Department of Interior 
began demanding changes to the Plan which would add hundreds of 
millions of dollars to the cost of the plan.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    On December 31, 1998, the last day to submit written comments to 
the Corps, the staff of the National Park Service delivered a 70 page 
indictment of the $7.8 billion plan. They concluded that there was 
insufficient evidence to claim the recommended plan would result in the 
recovery of a healthy, sustainable ecosystem. ``Rather, we find 
substantial, credible, and compelling evidence to the contrary'' their 
report stated.
    This response by a lead Federal agency involved in the study 
prompted an immediate, closed door, redesign process to see if the plan 
could be amended to satisfy the Park Service. This process has had a 
significant impact on the recommendations contained in the Chief of 
Engineers' Report to Congress, without having been exposed to public 
review and comment.
The Lake Worth Drainage District
    The LWDD water management system provides flood protection to 
20,000 acres of prime agricultural land and 100,000 acres of urban 
development. Facilities include over 511 miles of' canals and 20 water 
control structures.
    Protecting private property and public facilities from flooding has 
always been an essential service provided by the LWDD. This is 
accomplished by a well-designed and maintained network of canals and 
control structures capable of removing excess stormwater without over 
draining the land or wasting valuable water. The present system is 
functioning at its build out capacity and new developments are required 
to hold water onsite and elevate roads and buildings so the present 
discharge capabilities are not exceeded. It is essential that any new 
facilities added to accomplish Restudy goals recognize the constraints 
inherent in the existing flood protection mission and capabilities of 
the LWDD.
    In the 1950's the Corps of Engineers connected the LWDD canal 
network to the water storage features of the Central and Southern 
Florida Project. (Figure 2) This transformed the drainage and water 
conservation system of the LWDD to an integrated water management 
system capable of supplying dry season recharge to urban wellfields 
supplying water to hundreds of thousands of people. Water delivered by 
the LWDD system is used to satisfy the needs of public utilities, golf 
courses, residential landscaping and a diverse and economically 
important agricultural economy. It is also essential to protect water 
supply wells from salt water intrusion during droughts. (See Figure 3)
    (1) Quoted from a report entitled ``Comments of Everglades National 
Park on the Programmatic Environmental impact Statement and Alternative 
D13R'' December 31, 1998.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

The Restudy Recommended Plan
            General Overview
    Four of the proposed 68 components in the Recommended Plan will 
directly affect LWDD facilities; however, because of the interactions 
between most Plan components, the Corps' analysis has shown that 
operational or structural changes in any of the main components can 
potentially affect the rest of the system. For that reason it has been 
necessary for the LWDD to actively monitor and participate in Restudy 
activities to assure that water supply and flood protection are not 
impaired. Figure 4 is a conceptual drawing of the major structural 
features of the Recommended Plan.
    Table I lists the estimated capital and operations and maintenance 
costs for the Plan components in or adjacent to the LWDD. If these 
components are constructed and function as projected in the Corps 
computer model they will reduce the dependency of water users within 
the LWDD on the existing Federal project and make them more dependent 
on the new Federal features proposed -for construction. This has the 
effect of allocating most water from existing sources to environmental 
uses while new, expensive projects are required to meet the existing 
and future needs of the developed area.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Appendix A gives a brief description of each of the projects listed 
in Table 1. The Agricultural Reserve Reservoir is the most significant 
project proposed within the LWDD boundary. This project will store 
local runoff that is now released to the ocean and make it available 
for local uses during dry periods. It is a worthwhile proposal in 
concept but there are important engineering details that must be 
resolved before the feasibility of the project can be assessed.
    The Corps has recommended a reasonable approach to implementation 
of the Agricultural Reserve Reservoir. They have committed to producing 
a detailed engineering, economic and environmental evaluation prior to 
returning to Congress for specific authorization to construct the 
reservoir. If this approach is followed for all the major components of 
the Plan continuing public support should be forthcoming.
            Doubts About the Final Report
    The Draft Comprehensive Plan was broadly circulated to all 
interested parties, numerous public hearings were held in south Florida 
and written comments were accepted through December 31, 1998, a period 
of 1 1 weeks from the first release of the 3,000 page report on October 
13. In most cases written comments were summarized by the Corps staff, 
and brief responses were drafted and included in an appendix to the 
Final Integrated Report.
    The comments from the National Park Service were treated much 
differently however. On the last day to submit comments, December 31, 
1998, the staff of Everglades National Park submitted a 70 page 
criticism of the Recommended Plan, even though the same staff was 
involved on a daily basis during every step of the plan development 
process. The Park Service threatened to withhold support for the 
Restudy unless significant last minute changes were made to the plan.
    The chief complaint of the Park Service was that the plan would not 
guarantee enough of an increase in flow to Everglades and Biscayne 
National Parks and that the time it would take to implement the 
components providing the most environmental benefits was not 
acceptable.
    In response, the computer modeling team began an expedited analysis 
to increase the water supply to Everglades National Park and Biscayne 
Bay. One of the premises of the Restudy Planning effort from the 
beginning was to avoid any proposal that would discharge urban runoff 
into the Everglades. With the Park Service requesting as much as 
500,000 acre feet per year of additional flow above what was provided 
by the Draft Plan, it became necessary to abandon that premise. In 
addition, since one of the demands was to provide more water to 
Biscayne Bay, the new water could only be obtained by diverting 
stormwater from coastal urban areas as far north as West Palm Beach.
    Impacts to LWDD
    The modifications that would have to occur within and around the 
LWDD to accommodate Park Service demands (Figure 5) included:
    <bullet>  Stormwater runoff from the West Palm Beach Canal would be 
pumped uphill through the Lake Worth Drainage District's primary canal 
running along the Florida Turnpike. From there it would be pumped again 
into the Agricultural Reserve Reservoir.
    <bullet>  From the Agricultural Reserve Reservoir, water would then 
be discharged south into another Lake Worth Drainage District canal and 
pumped again into the Hillsboro Impoundment.
    <bullet>  The Hillsboro Impoundment would be modified to accept the 
runoff from West Palm Beach and from the Hillsboro Canal which drains 
the cities of Boca Raton and Deerfield Beach. The Hillsboro Impoundment 
will require significant design and operational modifications to 
accommodate this inflow and treatment of urban runoff. The water would 
then be allowed to flow into Water Conservation Area 2A.
    The end result of these and other changes to the Plan was a 
conclusion that as much as 250,000 acre feet per year of additional 
water could be sent to the National Parks on top of the 62 percent 
increase projected with the Recommended Plan.
            Unresolved Technical Issues
    The proposed changes to the plan to satisfy the Park Service were 
forced into the hydrologic computer model without time to verify that 
the model's representation was accurate or whether the ideas were even 
feasible in the field. Questions include:
    <bullet>  How will urban runoff be cleaned to a sufficient degree 
to allow its release into the Everglades and how much will the 
treatment facilities cost?
    <bullet>  Is the re-routing of the stormwater from West Palm Beach 
even possible? The concept requires that two primary flood control 
canals that are already operating at the limit of their design capacity 
be enlarged to accommodate roughly a tripling of the hydraulic 
capacity. These primary canals currently share a narrow right of way 
with the Ronald Reagan Florida Turnpike with dense suburban development 
on both sides.
    <bullet>  How will the LWDD be able to provide flood protection to 
the landowners in their western service area? This plan would require 
the complete redesign of the western one third of the LWDD canal 
system. A system that works now by gravity flow would have to be 
retrofitted to connect to a primary canal controlled by large pump 
stations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    <bullet>  Who would pay to build and operate this system? Even if 
Congress agrees to pay 50 percent of the initial cost a significant new 
source of funding would have to be found to pay the other half of the 
capital costs and all of the operating expenses. The LWDD does not have 
the tax base or legal authority to take on even a fraction of these 
extreme costs. Even though these extremely expensive structural changes 
are being proposed solely to satisfy the demands of the National Park 
Service, The Corps of Engineers Report recommends that all operation 
and maintenance costs be born by non-Federal entities in south Florida.
                               appendix a
Features of the Restudy Recommended Plan That Will Have a Direct Impact 
        on the Facilities or Operations of the Lake Worth Drainage 
        District
    The following pages give a brief description of several projects 
proposed by the restudy which will have a direct impact on the 
facilities or operation of the Lake Worth Drainage District. The 
sketches are extracted directly from the Restudy web site or the Final 
Integrated Report submitted to Congress on July 1, 1999 and are 
conceptualizations of the principle elements of each component.
    The Restudy Plan seeks to achieve its regional ecosystem goals 
through a combination of interrelated projects, some of which are large 
scale, such as 200 ASR wells around Lake Okeechobee and have distinct 
regional operational impact. Others are smaller in scope with most 
direct impacts limited to a local area. Although the components of most 
interest to the LWDD fit into this latter category, the performance of 
the entire mix of regional and local elements will determine the final 
performance of the Plan.
C-51 Backpumping to West Palm Beach Water Catchment Area
            Description and Purpose
    The purpose of this component is to reduce water supply 
restrictions in Northern Palm Beach County by providing additional flow 
to the West Palm Beach Water Catchment Area and to enhance Loxahatchee 
Slough. Figure 6 illustrates the conceptual features.
            Potential Impacts and Concerns for the LWDD
    The C-51 Canal receives flood flows from the LWDD system. The 
relocation of the S155A structure will reverse the direction of flow 
for this segment of the canal and must be accomplished in a way that 
preserves the flood control function of the existing canal.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Hillsboro Impoundment and ASR
            Description and Purpose
    The purpose of this component is to provide a water supply storage 
reservoir to supplement water deliveries to the Hillsboro Canal during 
the dry season. The 2,460 acre reservoir with a maximum depth of 6 feet 
will be located both north and south of the Hillsboro Canal. Thirty 
Aquifer Storage and Recovery (ASR) wells with a total injection and 
recovery capacity of 150 MOD will be used to enhance the storage 
capabilities of the project. Figure 7 illustrates the details of its 
conceptual features.
            Potential Impacts and Concerns
    The Hillsboro Impoundment receives excess water from the Hillsboro 
canal during the wet season and releases that water back for water 
supply during the dry season. The operation and design of the reservoir 
must be implemented in a manner that preserves the water supply and 
flood control function of the LWDD existing canal system. If properly 
implemented, the LWDD will benefit from the storage capabilities of 
this component. However, care must be taken to ensure that the LWDD's 
existing sources are not impacted until the storage capabilities 
including ASR are a proven reliable source.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Palm Beach County Agricultural Reserve Reservoir
            Description and Purpose
    The Agricultural Reserve Reservoir will supplement water supply for 
central and southern Palm Beach County by capturing and storing water 
currently discharged to tide. These supplemental deliveries will reduce 
demands on Lake Okeechobee and Water Conservation Area 1. Runoff from 
the western portion of the LWDD will pump into the 1660 acre 12 foot 
deep reservoir during wet periods and receive water from the reservoir 
during the dry season. Fifteen Aquifer Storage and Recovery (ASR) wells 
totaling 75 MOD of injection and recovery were added to this component 
to increase its storage capabilities. Figure 8 illustrates the detail 
of its conceptual features.
            Potential Impacts and Concerns
    This component will impact the LWDD operations requiring a pumped, 
rather than a gravity system for flood protection. It will require the 
installation of two new pumps in addition to improving several existing 
LWDD canals. Potential flood impacts from the 12 ft. deep above ground 
reservoir need to be addressed. As with the Hillsboro Impoundment, the 
LWDD will benefit from the storage capabilities of this component; 
however, care must be taken to ensure that the LWDD's existing sources 
are not reallocated until this is proven to be a reliable substitute. 
The cost to construct and operate this facility is beyond the means of 
the LWDD.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Water Preserve Area / L-8 Basin
            Description and Purpose
    This component involves the combination of two separate components 
in the Restudy. The first being the L-8 Project enhancements and the 
second being the C-51 and Southern L-8 Reservoir. The combination these 
two components is intended to enhance the Loxahatchee Slough, increase 
base flows to the Northwest Fork of the Loxahatchee River and reduce 
water supply restrictions in the Northern Palm Beach County Service 
Area. This is accomplished by capturing more of the wet season 
discharge from portions of the southern L-8, C-51 and C-17 basins and 
routing this water to the West Palm Beach Catchment Area and C-51 and 
1,200 acre 40 foot deep Southern L-8 Reservoir. Figure 9 illustrates 
the detail of its conceptual features.
            Potential Impacts and Concerns
    The LWDD can benefit from this component if it is used to supply 
water to the C-51 canal during dry periods. Although the Final Plan 
mentions that this component will provide water to the LWDD, the 
quantity and timing of these deliveries is unclear.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                         EVERGLADES RESTORATION

                              ----------                              


                         THURSDAY, MAY 11, 2000

                               U.S. Senate,
         Committee on Environment and Public Works,
                                            Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
406, Senate Dirksen Building, Hon. Bob Smith (chairman of the 
committee) presiding.
    Present: Senators Smith, Graham, Chafee, Voinovich, Reid, 
Baucus, Warner, and Lautenberg.
    Also present: Senator Mack.

             OPENING STATEMENT OF HON. BOB SMITH, 
          U.S. SENATOR FROM THE STATE OF NEW HAMPSHIRE

    Senator Smith. The hearing of the Environment and Public 
Works Committee on the Everglades will please come to order.
    I would like to say to my colleagues that due to the fact 
that we are having a vote approximately somewhere in the 10 
vicinity, and Governor Bush has to leave at 10:30, I am going 
to dispense with opening statements, including my own, so that 
we can start right off the Governor's testimony.
    So let me start, Governor, by welcoming you. We are glad to 
see you here and our two colleagues, Senator Graham and Senator 
Mack. I am not sure how you want to do this. I think the two 
Senators are going to introduce the Governor, but welcome.
    [The prepared statement of Senator Smith follows:]
    Statement of Hon. Bob Smith, U.S. Senator from the State of New 
                               Hampshire
    Good morning. Four months ago, the committee held a hearing in 
Naples, Florida on the Everglades. It was my first hearing as Chairman 
of the committee. I said then, and reiterate now, that the passage of a 
bill to restore the Everglades is my top priority for the committee 
this year.
    The purpose of today's hearing is to receive comments on the 
Administration's Everglades proposal, submitted as part of its ``Water 
Resources Development Act of 2000'' request. The hearing is divided 
into morning and afternoon sessions. In the morning session, we will 
start with Governor Jeb Bush of Florida. I would like to extend my 
congratulations to Governor Bush, who just successfully shepherded 
legislation through the Florida legislature to implement the Everglades 
restoration plan which, I might add, passed both bodies unanimously. We 
will also hear from representatives of two impacted Indian Tribes, and 
from the South Florida Water Management District.
    The afternoon session will begin with a panel of witnesses from the 
``Federal Family'' the Army Assistant Secretary for Civil Works, the 
General Counsel of EPA, and the leader of the Administration's 
Everglades Task Force from the Department of Interior. They will be 
followed by representatives of the agriculture and environmental 
communities. I welcome all of our witnesses, and thank them for their 
testimony today.
    We all know that the Everglades face grave peril. The unintended 
consequence of the 1948 Federal flood control project is the too 
efficient redirection of water from Lake Okeechobee. Approximately 1.7 
billion gallons of water a day is needlessly directed out to sea. This 
project was done with the best of intentions--the Federal Government 
simply had to act when devastating floods took thousands of lives prior 
to the project. Unfortunately, the very success of the project 
disrupted the natural sheet flow of water through the so-called ``River 
of Grass,'' altering or destroying the habitat for many species of 
native plants, mammals, reptiles, fish and wading birds.
    The purpose of our January hearing was to receive comment on the 
``Central and South Florida Comprehensive Review Study,'' popularly 
known as the ``Restudy.'' Congress mandated the Restudy to preserve the 
Everglades in previous Water Resources Development Acts, and the 
Administration submitted the Restudy to Congress on July 1, 1999, as 
WRDA 1996 required.
    The Restudy includes a ``programmatic'' environmental impact 
statement; as such, it serves as a road map for the future restoration 
of the Everglades. All journeys need a road map. We will look to the 
Restudy as the roadmap for general guidance on restoring the 
Everglades, but we know in advance there maybe both unanticipated 
detours, and hopefully a few time-saving shortcuts, along the road we 
are about to travel. This inherent flexibility to adapt and change as 
future circumstances dictate is an integral part of the Restudy's 
approach to restoration. The risks of waiting much longer to reverse 
the Everglades' decline far outweigh the risks of starting now even as 
we continue to study and modify the plan. ``Adaptive Assessment'' means 
that we can move forward now, even in the face of some uncertainty.
    Everyone has had 10 months to evaluate the Restudy. Senators 
Voinovich, Graham and I visited Florida in conjunction with the January 
hearing on the Restudy. We are now at the next step of the process. As 
I have mentioned repeatedly, it is my top priority to pass a bill this 
year to begin restoration the Everglades. I want to applaud Senators 
Mack and Graham for their leadership on this issue. Over the next few 
weeks I look forward to working with them and Senators Voinovich and 
Baucus to draft a bill that takes into account the comments that we 
hear today. The goal that I have set for the committee is to report 
Restudy implementation legislation next month. Everglades may be part 
of a larger WRDA bill, or it may move as a stand-alone bill. I will 
follow whichever path that gives an Everglades bill the best chance of 
becoming law this year.
    As we proceed, I want to let everyone know that I will approach any 
problems with an open mind. We have studied these issues for a long 
time and we are ready to move forward. Some of the issues are complex, 
but I want my colleagues on the committee to know that it is my 
priority to get this bill ready for committee consideration 
expeditiously. The window of opportunity to have the bill considered on 
the Senate floor is closing rapidly.
    Today I am asking our witnesses to provide constructive comments on 
the Administration's proposal in order to make real progress, not just 
to hear a recitation of ``positions.'' For example, we need to find a 
principled basis we can use to determine how much, if anything, the 
Federal government should contribute to Operations & Maintenance of the 
completed Restudy. Another example--even if wastewater treatment proves 
technically feasible, is it cost-effective as compared to other means 
to provide water? Further, do we, as a national policy matter, want to 
encourage the return of treated wastewater back into the natural 
system? Should the Congress authorize the initial set of 10 projects 
now, or wait until the project implementation reports are complete, as 
some will testify today? These and many other issues need to be 
addressed thoughtfully in the next few weeks, and we seek your 
constructive comments.
    In preparing the hearing I directed staff to invite representatives 
from the sugar industry and the Citizens for a Sound Economy. In Naples 
last January, I promised representatives from Citizens for a Sound 
Economy, which voiced concerns about the costs of the Restudy, that 
they would have an opportunity to testify at a future hearing to raise 
their concerns. They were invited today but declined to testify in 
person.
    As for the sugar industry, we did invite them to testify today but 
they would not provide a witness. Though it is true that the sugar 
industry testified last January in Florida, it is unfortunate that they 
would not testify on the Administration's proposal. I had hoped to 
question a representative from the sugar industry in depth on several 
issues that I know they consider important. Among the issues that I 
wanted to question them about are: the extent of their support for the 
April 1999 Restudy; the rationale for their opposition to authorizing 
the 10 initial projects; and details regarding continued farming on the 
Talisman property if authorization is delayed. They should be here.
    The April 1999 Restudy was unanimously agreed to by the South 
Florida Ecosystem Restoration Task Force members. It was unanimously 
approved by the Governor's Commission for a Sustainable Florida, which 
included all of the major public and private interest groups. Since the 
Task Force and Commission attained that landmark effort in consensus 
building, it seems that some of the parties have backed away from the 
deal that was struck. The Administration may have started this, as the 
Chief's Report that transmitted the Restudy to the Congress made 
additional ``commitments'' that went well beyond the Restudy itself. 
Also, some in the agriculture industry seem to have backed away from 
key Restudy components that were included in the Plan the Gov's 
Commission unanimously approved on March 3, 1999. As we move forward, I 
hope to refocus our legislative efforts on the groundwork that Congress 
laid with the 1992 and 1996 Water Resources Development Acts, and the 
agreement that you all reached on the Restudy in April 1999. Let's stop 
backtracking, stop trying to sweeten the deal, and get on with the 
fairly straightforward task of implementing the Restudy.
    I am afraid too often people forget that the Everglades is a 
national environmental treasure. Restoration benefits not only 
Floridians, but the millions of us who visit Florida each year to 
behold this unique ecosystem. We also need to view our efforts as our 
legacy to future generations. As I said in Naples last January, many 
years from now I hope that we will be remembered for putting aside 
partisanship, narrow self-interest and short-term thinking by answering 
the call and saving the Everglades while we still could.
    I look forward to the testimony from our witnesses.
    Senator Graham?

             OPENING STATEMENT OF HON. BOB GRAHAM, 
             U.S. SENATOR FROM THE STATE OF FLORIDA

    Senator Graham. Thank you, Mr. Chairman and members of the 
committee. In deference to the time constraints, I will be 
brief in my introductory comments.
    I want to first thank you, Mr. Chairman, for convening this 
almost full day of hearing on the Everglades. This is a very 
momentous occasion for the Nation and for this important 
environmental treasure.
    It was approximately 52 years ago that this committee first 
authorized the Central and South Florida Flood Control Project, 
which started the largest public works project in the history 
of the Nation, since the Panama Canal.
    That project is now, for the first time in its history, 
being subject to a comprehensive reexamination. In 1992/1996, 
the Congress, through the Water Resource Development Act, 
directed the Corps of Engineers to undertake the basis of the 
study.
    In July 1999, the Corps. submitted its plan to the Congress 
in accordance with the congressional deadlines. And today, we 
commence the process of reviewing that Corps of Engineers 
report.
    This project has had several characteristics during the 
time of the preparation for this Restudy. And one of them has 
been its bipartisanship. This has been supported by Republican 
Presidents and Republican Congresses and Democratic Presidents 
and Democratic Congresses; and in Florida, by Republican and 
Democratic Governors and legislatures. This is a project that 
represents the best of the American political process, trying 
to deal with an extremely complex environmental and economic 
issue.
    I am pleased that today one of the persons who has 
continued this tradition of bipartisanship, our current 
Governor, Governor Jeb Bush, is here to present the primary 
presentation on behalf of the State of Florida as an indication 
of the great importance that this issue has for our State.
    The Governor demonstrated his commitment by spearheading 
two critical pieces of legislation through the just-adjourned 
Florida legislature, one of those related to Lake Okeechobee, a 
major clean-up, providing funding for the restoration of that 
extremely important water body, and the Everglades funding 
package that provides funding for the State share of this 50/50 
partnership for Everglades restoration.
    The State of Florida has now accepted its part of 
responsibility for this partnership. The challenge is now here 
at the Federal level. I look forward to working with you and 
the other members of the committee in discussing, understanding 
and, I hope before this Congress is over, authorizing this new 
restoration of the Florida Everglades.
    Thank you, Mr. Chairman.
    Senator Smith. Thank you, Senator Graham.
    Senator Mack?

 STATEMENT OF HON. CONNIE MACK, U.S. SENATOR FROM THE STATE OF 
                            FLORIDA

    Senator Mack. Thank you, Mr. Chairman, and members of the 
committee. Thank you for holding this hearing today, and for 
allowing me to attend, and to speak on behalf of the 
Everglades. I am especially honored to introduce my friend, and 
Florida's Governor, Jeb Bush.
    Today is an important day. It is important because we stand 
at an historic juncture between planning and action. It is 
important because now, at long last, we have a realistic chance 
at restoring and protecting for future generations a unique 
environmental treasure that is fractured, starved for water, 
and in a state of steady decline.
    It is an important day because the document before you 
represents the cumulative efforts of all those who did the 
work, not the least of which are the efforts of my friend and 
colleague, Senator Graham, on the largest and most significant 
environmental restoration project in our Nation's history.
    Why does this matter? Why are the Everglades deserving of 
Congress' time and effort? Let me offer a few reasons.
    This restoration matters because in the last century, a 
wonderful, pristine, natural system has been systematically 
robbed of its beauty and its uniqueness in the name of short-
term human interests. The restoration matters because America's 
Everglades are a national treasure, unique in the world, and 
deserving of a better fate than what is currently written for 
it in the laws of this county.
    The restoration matters because we Floridians, after years 
of acrimony and conflicting goals, have come together behind a 
balanced plan that fully reconciles the needs of the natural 
system with those of the existing water system for water users. 
And the restoration matters to us as legislators, because 
Congress, in the past, caused the problem, and we should fix 
it.
    It has been well documented how Congress acted under the 
pressures of the day, and authorized the systematic destruction 
of the Everglades in the nature of flood control, urban 
development, and agriculture. That is history, and we can not 
change that.
    Instead, we must respond to the needs and priorities of our 
own generation, as well as generations to come, and pass this 
plan to restore America's Everglades.
    Mr. Chairman, passing this plan is all that remains between 
the long years of study and the actual restoration of the 
Everglades. The Administration has done their part in devoting 
a tremendous amount of time and effort on the document before 
you.
    To Governor Bush's credit, the State of Florida has already 
written this plan into Florida's laws, and arranged funding for 
Florida's share of that cost. There is only one task remaining. 
We, in Congress, must pass this plan this year, and let the 
work of restoration begin.
    I want to especially highlight the commitment of Governor 
Bush. He has consistently demonstrated with both words and 
actions that Florida is and will remain a full partner with us. 
He has instructed the members of his administration to provide 
valuable technical support to the Congress, during our efforts 
here.
    He has worked with Florida's legislature to set up a legal 
framework for the Everglades restoration. And he has assembled 
an impressive coalition of legislatures and local government 
officials to fully fund Florida's share of the cost.
    Mr. Chairman, again, it gives me great pleasure to present 
Governor Bush to the committee. Thank you.
    Senator Smith. Thank you very much, Senator Mack.
    Governor Bush, welcome; we are delighted to have you. We 
thank you and your staff for all of the help that you have 
provided us, over the past several months, since I was in 
Florida for the Everglades hearing.
    I just want to say to my colleagues that as soon as 
Governor Bush completes his statement, I would like to have one 
question for each member, in the order that they came in, 
simply because we will have a vote in the vicinity of 10, and 
Governor Bush has to leave at 10:30. If we get a second round, 
we will go to a second question.
    Governor, welcome.

     STATEMENT OF HON. JEB BUSH, GOVERNOR, STATE OF FLORIDA

    Governor Bush. Thank you, Senator Smith. And Senator 
Baucus, thank you. I want to also say hello to Senator Chafee, 
who I went to high school with. And it is a joy to see you here 
on the same committee as your father, who was a great supporter 
of this project, I might add.
    Senator Smith. And we want to keep him here.
    Governor Bush. Yes, we do.
    [Laughter.]
    Governor Bush. It is a joy to be here to have the 
opportunity to speak about one of our true national treasures, 
America's Everglades. And I want to thank Senator Graham and 
Senator Mack for being here and introducing me. It is a real 
privilege to be here. I would like to have my extended written 
statement, if you do not mind, included in the record.
    I am here to bring some good news, some hard truths, and a 
challenge. This year, together, we will begin this massive, yet 
essential, undertaking of restoring the Everglades.
    Restoring America's Everglades builds on the very American 
ideal that there are unique landscapes that we, as a Nation, 
believe are worth preserving. It is also an idea that is now 
worthy of action.
    First, the good news, last Friday, and I can tell you 
personally the good news, as another couple of Governors are 
here, when legislative sessions finish, Governors are always 
very happy. And in this case, last Friday, Florida concluded 
its annual legislative session.
    I can proudly report to the Congress that our commitment to 
the Everglades is solid. In fact, it is more than solid. As of 
next Tuesday, it will be the law.
    As part of our State budget, the Florida legislature has 
appropriated an unprecedented level of funding to begin the 
implementation of the Restudy; more than $136 million in the 
first year alone. These dollars will be matched by local 
governments in the South Florida Water Management District, for 
a total of $221 million to begin this important work.
    Next week, I will be joined by Federal, State, and local 
leaders to sign into law Florida's Everglades Restoration 
Investment Act, a measure that passed the Florida Senate and 
the Florida House of Representatives, unanimously. There was 
not one dissenting vote. Republicans and Democrats, alike, 
support this bill.
    With this new law, Florida will contribute over $2 billion 
to the Restudy project over the next 10 years. It will not only 
codify our long term monetary commitment to the Everglades, but 
it will also create a Save Our Everglades trust fund, that will 
enable Florida to save money for peak spending years on the 
horizon.
    In fact, the $221 million that will be invested this first 
year in the trust fund will not be spend. We are preparing, on 
the long term, to be able to buildup, because this project has 
many different projects inside of it, and the funding patterns 
go up and down, we are making a long-term commitment, from the 
get-go, to have a stable source of funding that will allow us 
to make this budget process work.
    Second, the hard truths; this is not the first time that 
Florida has gone first. Since 1983 when then-Governor Bob 
Graham created the Save Our Everglades Program, the State of 
Florida has spent over $2.3 billion, and acquired more than one 
million acres of land to avoid further destruction and 
degradation of the river grass.
    All of this is to say that the time has come for a 
legitimate and equal partnership with the Federal Government. 
For us, we have made this commitment, and we are looking to be 
an active partner with the Federal Government to carry out this 
project.
    I believe it will require Washington to think anew, to 
think a little bit differently about this; maybe less as a 
water project, and more as the protection of a national 
treasure.
    Too often in the past, the partnerships of this nature 
between the Federal and State Governments have been anything 
but partnerships. At their worst, they have been master/servant 
arrangements. The Administration's bill that you are 
considering today, I believe, is an example of this. And I have 
to admit, we are disappointed about their recommendations for a 
government structure.
    This has been a consensus plan, all along, by all parties, 
and I can assure you that this has not been an easy thing to 
accomplish. Senator Graham can attest to the fact that back 
home there are a lot of people, and Senator Mack can certainly 
agree, there are a lot of people that have very divergent views 
on this subject.
    They have been in the court, up until the last couple of 
years, for most of the decade of the 1990's. There was broad 
consensus on both the governance and the course of action for 
the Restudy. And we believe it is important to maintain that 
delicate balance. And the governance issue, I think, is one 
that is quite important.
    The Administration bill seeks to redefine the project 
purpose; to establish Federal agencies as the principal 
managers of South Florida's water resources; and to be the sole 
arbiter of differences that exist. And they will exist on a 
project of this magnitude. I believe we must rebalance this 
relationship into a true and equal partnership.
    Water Resources Develop Act projects typically require 20 
to 30 percent financial commitment from the States. Yet, 
Florida now stands ready to deliver with a 50 percent 
commitment. In exchange, we seek a new structure of governance.
    Because of the importance of this project and the enormity 
of the task ahead, Florida believes that it should be on equal 
footing with the Federal Government, not only in terms of 
financing, but in managing and governing and operating this 
project, as well.
    Working as equal partners not only makes business sense, 
but it also makes good public policy sense. Disputes will be 
resolved quickly and fairly. Opportunities for cost savings 
will be more readily identified and pursued, and both partners 
will reap the benefits of cooperation and consensus.
    Finally, the challenge: Florida needs your commitment. It 
is apparent that Americans across the country support restoring 
America's Everglades the same way we protected Yellowstone and 
the Grand Canyon.
    Foremost, we need to put Washington's financial commitment 
on the table. Congress should not delay in providing funding to 
match, dollar for dollar, Florida's commitment.
    Congress should also pass a stand-alone Everglades bill if 
it possible; one that demonstrates your own dedication to this 
endeavor. And Congress should, in cooperation with the 
Administration and the State of Florida, craft a project 
authorization that for the first time puts Florida and the 
Federal Government on equal footing.
    With this commitment from Washington, our Federal, State, 
and local governments will protect 68 federally Endangered 
Species that call America's Everglades their home.
    We will recapture 1.7 billion gallons of water that are now 
channeled out to sea, and use it to help restore our natural 
systems. And we will, in the tradition of Theodore Roosevelt, 
continue America's legacy of stewardship.
    Mr. Chairman and members of the committee, let your own 
legacy be that of saving America's Everglades. All the elements 
are in place. All that remains is your steadfast response; 
first through authorization, then through appropriation.
    We have done everything possible to make it as easy as it 
humanly can be for something of this magnitude to say yes. The 
State of Florida is now ready, willing, and able to be your 
partner to restore America's Everglades.
    Thank you very much.
    Senator Smith. Thank you very much, Governor. I will start 
off with the first question, and then we will rotate through 
and see where we are with the time.
    First of all, I want to say to Senators Mack and Graham and 
to you, Governor, that it is not very often, and I think both 
the Senators sitting next to you can attest to this, that we 
see a situation where a State puts up its matching money, 
first, in anticipation of the Federal Government.
    So it certainly is a tremendous gesture on the part of the 
citizens of Florida, and the Governor, and the legislature. So 
that certainly adds considerably, I think, to the equation. And 
certainly, it adds a lot to us moving forward on this 
legislation.
    There has been controversy, and in fact, it is probably one 
of the most contentious issues in the project, Governor, about 
the authorizing in the year 2000, the initial 10 projects, if 
you will, that we have to start, because the project 
implementation reports will not be complete.
    Because of that, usually the committee does not authorize 
these projects without that kind of completion. So basically, 
the committee is being asked to reauthorize 10 projects, the 
first 10, which is what those dollars are for that you talked 
about in the comprehensive plan.
    So I guess the question is why the State believes that we 
should proceed differently by authorizing this year these 10 
projects.
    Governor Bush. Well, I truly believe that this is different 
than a typical water resource development project. If you 
visit, as I know you have, Senator, the Everglades and have 
seen its majesty, this is on par with the Grand Canyon, or 
other great monuments of nature in our country. And I believe 
we need to have a sense of urgency about this.
    Our State did not just start funding projects to protect 
the Everglades. This has been an ongoing efforts for a 
generation. In fact, Washington has provided support in land 
purchasing and other areas, as well.
    In our State, we believe that there should be a sense of 
urgency about this. We are prepared, unlike other Water 
Resource Development Act projects, to put up 50 percent of the 
money. The money is in place.
    There is a consensus. The water management District, whom 
you will hear from, and the Chairman will talk later today, I 
believe, will describe the efforts they have done to totally 
re-prioritize their spending, so that they can have resources 
available to take care of their responsibility.
    At the State level, we are spending more on the purchase of 
endangered lands than any State in the country; I believe more 
than national government's budget in this regard. So we have 
made a commitment that I believe shows that we need to 
accelerate this project.
    The Restudy, itself, had lots of input. There was a 
tremendous amount of debate over the last year. And I would 
just respectfully say that it is time to move on.
    Senator Smith. Thank you.
    Senator Baucus. Yes, thank you.
    Governor, I was interested in your comments about 
management. Could you go into that in a little more detail, 
please. What is in the Administration's proposal that you think 
is good with respect to management; and then what problems you 
might have; and why? If you could just go into that in a little 
more detail, so I can get a better flavor.
    Governor Bush. In a public works projects of this 
magnitude, I think it is important to have clear lines of 
authority, and a means to mitigate disputes.
    If this was not a Government project, and we just closed 
our eyes and assumed that this was a private sector development 
of some kind, we would have a Board of Directors, if you will. 
There would be clearly established, when there are disputes, 
how you would resolve them. It would not be done unilaterally.
    The Administration's governance proposal, in my opinion, 
does not allow us to be partners. The Governor, I believe, the 
way it was described, consults.
    If we are putting up half the money, we have a shared 
interest in this. We have a plan that has received the full 
support of all of the parties. It seems to me that we ought to 
have a means where we share in innovations that and where we 
discuss major decisions along the way.
    Senator Baucus. I was just curious though, as I understand 
it, a lot of the science is not yet complete on the project. 
And undoubtedly, there are going to be differences of opinion 
as to what to do with one portion of the project, and so on and 
so forth.
    I am just curious, how you envisioned, under the proposal 
that you would like to see adopted, those disputes being 
resolved. Like I said, the Governor of Florida says well, it 
should be (a), and whoever it is says, well, no, it should be 
(b). And if we have equal sharing, how are you going to work 
that out?
    Governor Bush. Well, I think it would be a better way of 
resolving the dispute to have a shared vision than to have a 
disagreement, where you default automatically to the Department 
of the Interior, which is the Administration's position on 
this.
    The other element of the governance issue that is important 
was that the foundation for the Restudy was that there would be 
an equal commitment to the natural system, to flood protection, 
and to water supply. And as I understand it that, too, has 
shifted.
    It is important to have this delicate balance between the 
interests that are all impacted. And this is a fully integrated 
project. You can not separate one from the other.
    Our own State laws give primacy to the natural system. So 
we are not suggesting that the natural system is not the 
principal purpose for doing this. But that is an example of, if 
the underlying policy changes by unilateral decision, that 
creates problems for the State being able to maintain the 
support that we have for this project, which is now near 
unanimous. I mean, it is strong, because people know that we 
are going to have a say in the implementation of it.
    Senator Baucus. Thank you.
    [The prepared statement of Senator Baucus follows:]
  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana
    Thank you, Mr. Chairman. I would like to join you in welcoming our 
witnesses here today. I'm pleased to be here today to welcome our 
Florida witnesses, including the distinguished Governor, Jeb Bush.
    The Comprehensive Everglades Restoration Plan has been many years 
in the making. In the 1970's, the State of Florida began looking at the 
adverse impacts the Central and South Florida project was having on the 
Everglades.
    Under the leadership of my current colleague from Florida, Senator 
Graham, who was Governor Graham in the early 1980's, the Governor's 
Save Our Everglades Program recognized that the health of the entire 
ecosystem was in jeopardy and that efforts were needed to protect and 
restore it. Ever since, he has worked tirelessly to get to the point 
where we find ourselves today--that is, having a comprehensive plan 
that will restore this valuable ecosystem.
    The Everglades is a national treasure, and I know, it holds a 
particularly special place in the hearts of Senator Graham.
    Like most plans, the Comprehensive Everglades Restoration Plan 
isn't perfect and everyone didn't get everything they wanted. But the 
Administration, under the leadership of the Corps of Engineers and with 
the cooperation of the Department of the Interior and the Environmental 
Protection Agency are to be commended for bringing all of the effected 
parties to the table to develop a plan that can work for all of them--
the State of Florida and the ecosystem.
    I thank our witnesses for the time and energy they have put into 
the Everglades restoration effort. I look forward to hearing from them 
today and to working with the Chairman to move this plan forward.
    Senator Smith. Senator Voinovich?

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. First of all, I would like to welcome 
you. It is nice to see you, again. And I think it is 
significant that your two senators are with you, and that this 
proposal is coming from Florida on a bi-partisan basis. And I 
congratulate the State of Florida for their moving forward in 
terms of doing their share of this project.
    I would also like to congratulate the Chairman of this 
committee. Ordinarily, this hearing would have been held before 
the subcommittee of the Environment and Public Works Committee, 
the Transportation and Infrastructure. And the Chairman thinks 
so much of this project that he has called a meeting of the 
full committee to hear this proposal. And he should be 
congratulated for doing that. That shows the high priority that 
he places upon this initiative.
    The Comprehensive Everglades Plan that we are considering 
has a cost of about $7.8 billion, of which we are talking a 50/
50 share. During the peak years of the Everglades Comprehensive 
Plan, this will require a yearly appropriation of about $200 
million a year.
    The State of Florida has a current backlog of active 
authorized projects of about $1.5 billion. We have about a $30 
billion backlog right now, and the State of Florida has got 
about $1.5 billion of that backlog. These are authorized 
projects that are already in the pipe.
    In addition to the South Florida restoration, this includes 
beach nourishment projects, harbor deepening, and flood 
control. In the President's fiscal year 2001 budget, the 
construction requests for the State of Florida is about $176 
million.
    My question is that in view of the fact that during the 
1990's, the core construction appropriation is, on the average, 
$1.6 billion, how do you anticipate the Federal share of this 
to be funded? In other words, you have got $1.5 billion on the 
books now. In order to do this project, it is going to take an 
average of $200 million a year. And we only appropriate about 
$1.6 billion.
    The question is, have you thought about that at all, and 
have some concern about whether the Federal money is going to 
be available so that you can move forward with this project?
    Governor Bush. I think about it a lot. I certainly do not 
have much control over the budget process up here. What we have 
tried to do is to say, let us make this a high priority in our 
own State.
    Last year, we passed Florida Forever, which is a 
continuation of Preservation 2000, which I believe is the most 
ambitious land purchasing program of any State in the country, 
where we spend $300,000 a year purchasing pristine lands to 
keep them out of the path of development, and provide support 
for the natural systems.
    This year, we have continued that, as well as we are 
spending a 140 percent increase in water projects in our own 
State. So we have tried to make it easier for Washington to 
recognize that we are stepping up to the plate, as well. We are 
not asking for something and not making a commitment ourselves.
    We have limited resources, like any government. And we are 
saying that these water projects, in general, have a high 
priority, because it is an investment in the long term future 
of our State.
    We are a fast growing State. We have development 
encroaching into the natural systems. We are redefining our 
heritage, if we do not watch it. So we are stepping up to the 
plate on these projects. And we would encourage the Congress to 
prioritize their spending toward these projects, as well.
    With all due respect, Senator, I do not know where the 
money comes from up here, other than from our pockets. We give 
it to you all, and we would hope that you would spend it on the 
things that are of high priorities for Americans.
    Senator Voinovich. I would hope that the next 
Administration would recommend doubling the amount of money in 
the Water Resources Bill, so that we can move forward and deal 
with this $30 billion backlog of projects. And the prospect of 
reimbursing Florida for our share of it would be more 
realistic.
    I would like to just ask one other question. You are asking 
for a fast track authority here, to move with this. And you are 
talking about an even playing field. But, in effect, what you 
would like to do is move forward with this project.
    Anticipating that we do not get the money on the Federal 
level to do the Federal share of this, is it your thought, and 
maybe some of the other witnesses may shed some light on this, 
that you would just move forward with this project? And then, 
ordinarily, on this type of project, you only can move forward, 
based on whether or not you have got the Federal authorization.
    I think this plan anticipates that you will move with this, 
and that down the road, you will spend this money, and then 
come back and ask that it be reimbursed. And the understanding 
is on a 50/50 basis.
    If this authority is granted, would the State give any 
consideration of maybe even a larger share of paying for it? In 
other words, projects like this need to have the authorization 
from Congress to go forward. So we will give you the money, and 
we are giving you credit for land purchase and a lot of other 
things, as a special kind of permission that you would be 
getting, that is different than what we do on other projects.
    If we let you fast track this project, would the State give 
any consideration to perhaps changing the participation on it? 
Is my question clear?
    Governor Bush. It is clear, and I hope it is hypothetical.
    [Laughter.]
    Governor Bush. We have worked very hard. The back-home 
people believe that there has been strong support for a 50/50 
partnership in this, and that we hope that that will continue 
on to be the case.
    We are committed to restoring this treasure. And we would 
like to do it as an equal partner with the Federal Government, 
which I consider to be quite unique, given the history of these 
projects, where the States have been asked to make smaller 
commitments.
    We are here to say that we are prepared to make larger 
commitments. And this is a tradition that has been in existence 
long before I was Governor. And we are asking for Washington to 
continue to provide the kind of support that we would hope 
would make this project work.
    [The prepared statement of Senator Voinovich follows:]
 Statement of Hon. George V. Voinovich, U.S. Senator from the State of 
                                  Ohio
    Good morning, Mr. Chairman, and let me start out by thanking you 
for holding this hearing today on the future of the Everglades. I 
consider this to be of tremendous importance to this nation and I am 
pleased to be here.
    Mr. Chairman, I am no stranger to the Everglades.
    When I was Governor of Ohio, in response to my interests in the 
Everglades and thanks to the courtesy the Florida Fish and Wildlife 
Conservation Commission, I spent a day observing the environmentally 
impacted areas of the Everglades by helicopter and airboat.
    In addition, my wife Janet and I have made many visits to Florida 
including trips to the Loxahatchee National Wildlife Refuge and 
Everglades National Park. I have enjoyed fishing in the Florida Bay and 
fishing for snook in the Everglades.
    This past January, I had the opportunity to participate with you, 
Mr. Chairman, and our colleague, Senator Graham, in this Committee's 
Everglades field hearing in Naples, Florida.
    While I was there, I had the opportunity to fly over portions of 
the ongoing water quality restoration efforts associated with the 
stormwater treatment areas of the Everglades Construction Project. I 
also got the chance to revisit the Loxahatchee National Wildlife Refuge 
and tour it by airboat.
    I mention all of this to emphasize that I have invested a lot of 
time on the Everglades, and in particular, the Comprehensive 
Restoration Plan.
    I am unequivocally committed to the fact that the Everglades are a 
national treasure that must be protected and restored. Having said 
that, my detailed review of the Comprehensive Plan has also convinced 
me that the Everglades Comprehensive Restoration Plan was rushed to 
this Congress for its consideration.
    At a cost of $1.1 billion, the plans for the 10 initial projects 
that Congress has been asked to authorize are only conceptual and do 
not even begin to meet the standards that this Congress has set for 
project authorizations.
    There are some who will say that the Administration is only 
responding to what Congress requested back in 1996 when it called for a 
Comprehensive Plan by July 1,1999. However, the clear words of the 1996 
Act call for a feasibility report.
    Feasibility studies have not been completed on any portion of the 
comprehensive plan, and yet the Administration is seeking a $1.1 
billion authorization based on a ``conceptual'' plan that does not 
contain any meaningful level of detail regarding costs, benefits, 
environmental analysis, design, engineering or real estate.
    To authorize projects without this information would be a radical 
departure from the past oversight of the Corps' program by this 
Committee, and would make it very difficult to enforce historic 
standards of this Committee for authorization of Corps projects in 
this, and future, Water Resources Development Acts.
    This does not mean we cannot act on the Everglades Comprehensive 
Plan.
    I think we can and should act to advance the critical national 
issue of Everglades restoration. We can certainly endorse the 
Comprehensive Plan as a framework and guide for future action. We can 
authorize pilot projects to obtain the information we need to move 
forward.
    I am sure that under Chairman Smith's leadership, we can agree on 
some process that will advance the authorization of the initial 
projects while assuring that Congress has an opportunity to review and 
approve feasibility-level reports on these projects before they are 
implemented.
    Mr. Chairman, in addition to my service on the Environment and 
Public Works Committee, I also serve on the Government Affairs 
Committee where we are concerned about issues of Government efficiency, 
effectiveness and coordinated activity. I can't leave the topic of the 
Everglades restoration without this one observation.
    Homestead Air Force base is located only 8 miles from Everglades 
National Park, one and one half miles from Biscayne Bay and just north 
of the Florida Keys National Marine Sanctuary. The Air Force is seeking 
to transfer property at the Homestead Air Force Base in accordance with 
the recommendations of the Base Realignment and Closure Commission.
    The Air Force has prepared a draft Supplemental Environmental 
Impact Statement that presents as the proposed action, the reuse of the 
airbase as a regional commercial airport.
    I am very concerned that the noise, air quality impacts, water 
quality impacts and developmental pressure of commercial airport 
operations may not be compatible with the adjacent National Parks and 
Sanctuary.
    I believe it would be irresponsible for the Federal Government to 
approve an investment of billions of taxpayer dollars in restoration of 
the south Florida ecosystem, while at the same time, approving a reuse 
plan for Homestead Air Force base that is incompatible with such 
restoration objectives.
    I urge the Administration to pursue consistent objectives in South 
Florida's restoration and assure that the actions of the Air Force and 
Federal Aviation Administration are coordinated with the Federal, 
state, tribal and local agencies, and groups making up the South 
Florida Ecosystem Restoration Task Force.
    Finally, I would like to touch on the Everglades restoration in the 
context of the total, nationwide program of the Corps of Engineers.
    We cannot talk about the Everglades restoration in a vacuum. 
Currently the Corps of Engineers has a project backlog totaling about 
$30 billion needed to design and construct over 400 active authorized 
projects.
    These are not old outdated projects but projects that have been 
recently funded, which are economically justified and supported by a 
non-Federal sponsor. This backlog includes $1.5 billion worth of work 
within the State of Florida. The State of Florida work represents about 
5 percent of the backlog.
    The President's 2001 budget includes a construction funding request 
for the State of Florida of about $176 million--more than 10 percent of 
the nationwide construction account. This is before consideration of 
construction funding for the Comprehensive Everglades Restoration Plan, 
which will require construction appropriations of $200 million a year 
during the peak years of construction.
    Mr. Chairman, I do not mean to single out the State of Florida, but 
rather, to emphasize that with construction appropriations for the 
Corps of Engineers averaging about $1.6 billion a year in the 1990's 
there is not enough money to accomplish all of the proposed work in the 
State of Florida and address the water resources needs of the rest of 
the Nation.
    Unless the Corps' construction appropriations is substantially 
increased to meet these needs, the State of Florida in particular and 
the Nation in general are going to have to make some very painful 
decisions on priorities. I believe this is a very critical issue for 
this committee as we consider the Water Resources Development Act and I 
plan to explore it further in a Subcommittee hearing on May 16.
    So, once again, I appreciate you calling this hearing this morning, 
Mr. Chairman, and I look forward to what I believe will be a lively 
discussion on some very topical issues.
    Senator Smith. I need to move forward. We are going to try 
one question, and then come back around, because of the vote. 
Senator Graham, you were here, and you are a member of the 
committee, too. Do you have a question from either that seat or 
up here?
    Senator Graham. Mr. Chairman, I have a lot of questions. 
But I think I will defer to the Governor's time, and the fact 
that I get an opportunity to pepper the Governor on a more 
frequent basis.
    Governor Bush. And if you can clean up after me, if I said 
something wrong, that would be good.
    [Laughter.]
    Senator Graham. No, I think the Governor has articulated 
the policy rationale and the State's position extremely well. 
So I would defer to the other members of the committee for 
their questions at this time.
    Senator Smith. Senator Chafee?
    Senator Chafee. As Governor Bush said, we went to high 
school together. I have not seen in 29 years.
    Governor Bush. The statute of limitations has run out.
    [Laughter.]
    Senator Chafee. But you mentioned in your statement the 
sense of urgency, and I will certainly do all I can to be 
supportive on my level here. It is a great project, and we wish 
to move forward.
    Senator Smith. There is no question? You would not do that 
to an old high school mate, would you?
    Senator Warner?

           OPENING STATEMENT OF HON. JOHN W. WARNER, 
         U.S. SENATOR FROM THE COMMONWEALTH OF VIRGINIA

    Senator Warner. Welcome Governor, and I would just like to 
talk a little bit about the history of this committee. I have 
been on it, out of my 22 years in Senate, about 12 or 14. And I 
am referring to the Water Resources Development Act of 1998, 
which contains the statement, and this statement has been in 
every single committee report since 1986. I will read from page 
3.
    ``Since 1986, it has been the policy of the committee to 
authorize only those construction projects that conform with 
cost sharing and other policies established in the Water 
Resources Development Act of 1986. In addition, it has been the 
policy of the committee to require projects to have undergone 
full, final engineering, economic, and environmental review by 
the Chief of Engineers, prior to project approvals by the 
committee.''
    As I read through your petition, you are asking us to waive 
a policy which has guided this committee since 1986. And that 
is a very significant precedent.
    I also wish to make an observation. You said, ``Roosevelt's 
legacy of stewardship.'' And how well you understand, coming 
from a very historic family that has provided leadership for 
this Nation for so long, that there are the 50 States, and that 
we all compete among each other for the scarce moneys to 
preserve those portions within our States which relate to 
Roosevelt's Stewardship Program.
    Shortly after I came to the Senate, and specifically in 
1984, I joined with marvelous Senator, Senator Mac Mathias, and 
we devised the legislation to begin the preservation and the 
restoration of the Chesapeake Bay. That magnificent watershed 
serves seven States in the immediate touching of the bay, and 
the migratory birds, fish, waterfowl, in many, many, many other 
States.
    We have worked very hard with the Federal/State 
partnership. And since 1984, we have gotten only $150 million 
from the Federal Government, and several States have applied 
$300 million, to show you a comparable project and the funding 
levels that we have received and struggled each year to get, 
bit by bit.
    So as strongly as I feel about this project, I must tell 
you that I feel that I have a stewardship and a trusteeship to 
my State and seven other States and the balance of the States, 
as we look at the very significant cost of this project, which 
could, in the estimate of some, go as high as $12 billion.
    So that concerns me that this committee is being asked to 
approve construction of 10 projects for $1.1 billion, without 
the information being completed, in sharp contrast to our 
policy.
    The project implementation reports will not be done for 
another 18 months or more, and construction is not scheduled 
until 2004, at the earliest.
    I know that your State has taken significant financial 
steps to participate in this restoration, as you have so stated 
today. You have acquired significant acreage that will be 
important to improving water flows into the Everglades. I am 
aware that legislation has been enacted to provide $100 million 
over 10 years for this restoration effort.
    However, the same level of progress can be made on these 10 
projects, with the Corps. continuing planning, engineering, and 
design for the next 2 years. By the time the 2000 bill comes 
up, Congress would have the benefit of the project 
implementation reports on these 10 projects, and then be ready 
for construction authorization. This approach would not delay 
the construction of any of these projects now tentatively set 
for 2004.
    I really feel that the policy which has guided us these 
many years has to be protected. And I will just finish. 
Basically, I am stating in candor, before my two very dear 
friends and colleagues here who are supporting you, the 
concerns that this one Senator has.
    Now there is a provision in the legislation relating to the 
distribution of water flow from the project. It seems that the 
restoration of the Everglades is only one feature of the 
project. Others involve flood protection and water supply for 
urban/suburban areas, and for agriculture uses.
    In light of the complexity and the cost of the restoration 
effort, I want to be sure that Federal dollars are used to 
restore our national assets, Everglades Park, Big Cypress 
Preserve, and other wildlife refuges.
    We must have a guarantee, and I underline that, that these 
properties will receive the amount of water they need when they 
need it, and carefully be sure that the environmental 
restoration of the Everglades gets water over and above the 
commercial, urban, and agricultural uses that will come.
    So that is my statement, Mr. Chairman and our distinguished 
witness. I do not want to put a few raindrops on this parade, 
but that is about it.
    Governor Bush. We need a little rain down in the 
Everglades, so that would not be too bad.
    Senator Warner. I do not want to be a constructive partner, 
but I must go back to Roosevelt's stewardship program, and it 
is for 50 States. And I gave you one example of something that 
has been very dear to my heart for these many years that I have 
been privileged to serve in this body.
    Mr. Chairman, I think given the vote and the Governor's 
schedule, I have said my piece.
    Senator Mack. Mr. Chairman?
    Senator Smith. Certainly, Senator Mack.
    Senator Mack. Let me just make a comment or two. I 
understand Senator Warner's concern about making sure that the 
Federal interest is protected.
    I think one of the very unique things that has happened in 
this plan is the coming together of all the different interests 
in the State of Florida that have worked together on this 
project to, at this point, superimpose on that, that there is a 
No. 1 objective that we are going to establish that does not 
take into consideration the working relationship among the 
entities in our State. I think that could be disastrous for 
this effort.
    Senator Warner. I am not sure I follow exactly what you 
mean. I commend the Governor, his leadership, and the State 
entities to come together.
    Senator Mack. If we now say, though, that the primary 
objective is the water for the park, as opposed to all other 
interests, then the political dynamics that have brought people 
together to be able to support this plan, both nationally and 
within our State; and within our State, the commitment that the 
State legislature has made unanimously for over $100 million, 
plus what is going to be done by the Water Management District 
of over $200 million totally, what I am saying to you is, if we 
superimpose the No. 1 objective established up here, that does 
not take into consideration the other interests, and I find 
that that could be troublesome.
    Senator Warner. But, you know, Senator, I see estimates of 
$12 billion of taxpayers' money for this project. Do disavow 
those?
    Senator Smith. No, it is not that much.
    Senator Warner. All right, well, I am sorry, that was the 
figure that was given to me. We have already put in $500-plus 
million on this project.
    Senator Smith. It is a 50/50 cost split, between the 
Federal Government and the State government. The highest 
estimate that I have seen is $5 billion to the Federal side, 
over the 36 year life of the plan.
    Governor Bush. And if I could just add, the question of 
primacy of one use over the others, our State law requires 
minimum levels and flows that gives primacy to the natural 
system.
    Without doing this plan, we can not implement that. We need 
to find ways to capture water, not allow it to go out to tide. 
And you can not separate these projects, one from the other. 
They are fully integrated to be able to achieve the desired 
result. So that would be one point.
    The second point is, this is a federally created problem, 
which may be different than other projects such as Beautiful 
Chesapeake Bay. The mess that has been created was created by 
well-intended engineers, that engineered a system that now we 
need to completely re-engineer. And so I think that makes it a 
little bit different.
    I would just argue that while this is not a typical water 
resource development project, we are not typically putting up 
the 20 percent, either. We are putting up 50 percent, and we 
are putting it up in advance. And we are putting it in a trust 
fund that can not be touched. We are making our commitment a 
long-term commitment, which does distinguish our State's 
commitment from other States that have come and respectively 
asked for cooperation and money from the Congress.
    Senator Smith. Senator Warner, you are correct, that the 
policy of the committee is as indicated. Normally, the policy 
is that the study would be complete, the PIRS. However, it is 
not a policy that we have been rigidly sticking to. As you 
know, we authorize projects on a regular basis here, contingent 
upon the later completion of a favorable report. And if those 
reports are not favorable, then we do not approve it.
    So I think, under the adaptive management concept that we 
have outlined here throughout this plan, we certainly would 
have the opportunity to pull the plug, should something not 
come out the way we would anticipate it, in my view.
    Senator Smith. Mr. Chairman, the $12 billion figure I used 
has been discussed with staff, with the GAO. Apparently, it is 
$7.8 billion that would be expended over 30 years for the 
project. The balance in the $12 billion is land acquisition 
costs and other things like that, I am told.
    Senator Smith. But that is split between the Feds and----
    Senator Warner. That is correct. But, again, you know, $7.8 
billion is quite significant, in contrast to what I have been 
able to achieve for the Chesapeake Bay.
    Senator Smith. Let me just make a 10 second comment here. 
We have got 3 minutes left on the vote, and we have at least 
five Senators here that need to go down there. So if you have 
another comment, go ahead.
    Senator Warner. No, I am finished. I am fine, Mr. Chairman. 
I have rained enough on this parade.
    Senator Smith. Senator Chafee, do you have any other 
questions or comments?
    Senator Chafee. No.
    Senator Smith. Does anybody else?
    [No response.]
    Senator Smith. Well, Governor, I think it would probably be 
a good time to make the break here, and to thank you for, 
again, your support and your help, and Senators Mack and 
Graham, as well, will be proceeding along the line.
    The objective here is to have this hearing, meet with you 
and the respective Senators, and the Administration, and the 
committee, and try to put a bill together that I think comes as 
close to that agreement as possible.
    I am sure there are going to be a few bumps in the road, 
but we are going to try to do that. And I am going to try to do 
it soon, within the next 30 days, if we can pull it off, so 
that we can get it considered before the Senate.
    So thank you very much for being here.
    Governor Bush. Thank you, Mr. Chairman.
    Senator Smith. Let me just say, I am going to recess for 
about 15 minutes or so, while I go down and vote. And the next 
panel will come up, as soon as I return, which should be in 
about 15 minutes. The hearing is recessed.
    [Recess.]
    Senator Smith. The committee will come to order, please.
    I would ask the second panel to please come to the table: 
Ms. Patricia Power, on behalf of the Seminole Tribe; and Dexter 
Lehtinen, on behalf of the Miccosukee Tribe. So it is the 
Miccosukee Tribe and the Seminole Tribe.
    Because of the fact of the Governor's schedule, we had to 
take his remarks and questions early. I am going to take this 
opportunity to give a brief opening statement, and any other 
member who wishes to have an opening statement may do so, and 
then we will move directly to the testimony of the two 
witnesses.
    I might just say to the Clerk that these opening statements 
should be put in the record, ahead of Governor Bush's 
testimony.
    The committee held a hearing on this issue in Naples, 
Florida. It was the first hearing that I had, as the Chairman 
of the committee. And I said then, and I believe now, that we 
need to restore the Everglades. It is a top priority for the 
committee this year.
    I say that, recognizing that there are differences on 
various components of the plan. But I am committed to work 
those differences out, and pass a bill out of committee on the 
Everglades restoration.
    The purpose of today's hearing is to receive comments on 
the Administration's proposal, submitted as part of its Water 
Resources Development Act 2000 request. We have two sessions, 
one this morning and one in the afternoon.
    We have already had Governor Bush. And I want to just 
extend my congratulations to Governor Bush, who just 
successfully shepherded legislation through the Florida 
legislature, unanimously, to implement the Everglades 
Restoration Plan.
    We will hear from two representatives of the Indian tribes 
of South Florida, and the South Florida Water Management 
District this morning. And then the afternoon session will 
begin with a panel of witnesses from the ``Federal family'': 
The Army Assistant Secretary for Civil Works, the General 
Counsel of the EPA, and the leader of the Administration's 
Everglades Task Force from the Department of Interior. And they 
will be followed by representatives of the agricultural and 
environmental communities.
    I certainly welcome all of the witnesses today. I know some 
of you traveled a long distance, and we appreciate you being 
here.
    We all know, whatever our views are on the specifics of the 
plan, that the Everglades faces great peril, the unintended 
consequence of the 1948 Federal Flood Control Project is the 
too efficient redirection of water from Lake Okeechobee. 
Approximately 1.7 billion gallons of water a day are needlessly 
directed out to sea.
    It was done, this project in 1948, with the best of 
intentions, but the results were not good. The Federal 
Government simply had to act when devastating floods took 
thousands of lives.
    But, unfortunately, the success of the project disrupted 
the natural flow of the water, the so-called ``river of 
grass,'' altering or destroying the habitat for many species of 
animals, birds, reptiles, and fish.
    The purpose of the January hearing was to receive comment 
on the Central and South Florida comprehensive review study, 
properly known as the Restudy. And Congress mandated the 
Restudy to preserve the Everglades in previous WRDA acts, and 
the Administration submitted the Restudy to Congress on July 1, 
1999, as the WRDA 1996 required it to do.
    The Restudy includes a programmatic environmental impact 
statement. As such, it serves as a road map for the future 
restoration of the Everglades. All journeys should have a road 
map, if you want to know where you are going.
    We will look to the Restudy as the road map for a general 
guidance on restoring the Everglades. But we know in advance, 
there are going to be unanticipated detours and, hopefully, a 
few timesaving shortcuts, as well, along this road.
    That does not mean that we should not take the journey. And 
I want to repeat that. It does not mean that we should not take 
the journey. We can deal with the detours. And, hopefully, we 
can even have shortcuts.
    This inherent flexibility to adapt the adapted management 
concept and change, as future circumstances dictate, is an 
integral part of the Restudy's approach to restoration. Some 
think that this plan, once it is passed, is locked in and we 
can not change it, we can not adapt to any new science or any 
new information. That is simply not true.
    The risks of waiting much longer to reverse the 
Everglades's decline far outweigh the risks of starting now, 
even as we continue to study and modify the plan. Adaptive 
assessment or adaptive management means we can move forward 
now, even in the face of some uncertainty; even in the face of 
not having every single bit of information that we might like 
to have.
    Everyone has had 10 months to evaluate the Restudy. 
Senators Voinovich, Graham, and I visited Florida, in 
conjunction with the January hearing on the Restudy, and we are 
now at the next step of the process.
    As I have said before, and I will say it again, it is a top 
priority for me, and I believe the committee, to pass a bill to 
begin the restoration of the Everglades. I applaud Senators 
Mack and Graham for their leadership over the next few weeks. I 
look forward to working with them and Senators Voinovich and 
Baucus to draft a bill that takes into account the comments 
that we hear today.
    The goal that I have set for the committee is to report 
Restudy implementation legislation next month. The Everglades 
may be part of a larger WRDA bill, or it may move as a 
standalone bill. I will follow whichever path it takes to give 
the Everglades restoration the best chance of becoming law this 
year.
    I want to just make one comment about cost. There have been 
a lot of numbers thrown around. This fiscal year, the cost 
would be in the vicinity of $100 million. The 14 year cost of 
the 10 initial projects would be in the vicinity of $1.1 
billion. And that would be split between the State and the 
Federal Government.
    If you break it down into something a little simpler, in 
terms of the entire cost, it is about 50 cents a person, per 
year. So if you find a cheap Coke machine, it costs you a can 
of Coke a year for the restoration of the Everglades. That is 
not a high price to pay.
    As we proceed, I want to let everyone know that I have an 
open mind on these issues. I am not locked into any plan or any 
study or any detail. We have studied these issues for a long, 
long time. But we can not study them forever if we are going to 
save the Everglades. Sometimes, we have to act around this 
place, and I am prepared to do it.
    I want my colleagues on the committee to know that it is my 
priority to get this bill ready for the committee, and to get 
it done expeditiously. If we have problems, we are going to 
resolve them. And if we have to take a vote to resolve them, 
then we will take a vote and resolve them, if we have 
differences.
    The window of opportunity to have the bill considered on 
the Senate Floor is closing, and it is closing rapidly. The 
leader has already told us that Appropriations bills are 
expected to be completed perhaps as early as the August recess.
    That perhaps might be a little bit too rosy, but it may 
happen. And if it does, the window is going to close even 
faster. So we do not have a lot of time.
    So I am asking our witnesses today to provide constructive 
comments on the Administration's proposal, in order to make 
real progress; not just to hear a recitation of positions. We 
have your written statements. But we need to find a principal 
basis that we can use to determine how much, if anything, the 
Federal Government should contribute to O&M, operation and 
maintenance, of the Restudy.
    Another example, even if waste water treatment proves 
technically feasible, is it cost effective, as compared to 
other means, to provide water further? Do we, as a national 
policy matter, want to encourage the return of treated waste 
water back into the natural system? That is another key 
question.
    Should the Congress authorize the initial set of 10 
projects now, or wait until the project implementation reports 
are complete? You heard comments from both Senator Warner and, 
I believe, Senator Voinovich; but, certainly, Senator Warner a 
little while ago on that issue.
    These and many other issues need to be addressed 
thoughtfully in the next few weeks, and we seek your 
constructive comments. That is the only way we are going to be 
able to work it out.
    In preparing the hearing, I asked the staff to invite 
representatives from the sugar industry and the Citizens for a 
Sound Economy, both of whom were down in Florida last January. 
I promised the representatives from Citizens for a Sound 
Economy, who had some concerns about the cost of the Restudy, 
that they would have an opportunity to testify. They were 
invited, and declined. So I want to put that on the record.
    As for the sugar industry, we did invite them to testify 
today, but they also declined. Though it is true that the sugar 
industry did testify last January in Florida, it is unfortunate 
that they would not testify on the Administration's proposal, 
because I believe it would have been helpful in clarifying some 
of the differences that they have.
    Among the issues that I wanted to question on were, the 
extent of their support for the April 1999 Restudy; the 
rationale for their opposition to authorizing the 10 initial 
projects; and details regarding continued farming on the 
Talisman property if authorization is delayed. They should be 
here. They should testify, and they are not here.
    The April 1999 Restudy was unanimously agreed to by the 
South Florida Ecosystem Restoration Task Force members. It was 
unanimously approved by the Governor's Commission for a 
sustainable Florida, which included all of the major public and 
private interest groups.
    Since the Task Force and Commission attained that landmark 
effort in consensus building, it seems that some of the parties 
have backed away from a deal that was struck. Maybe the 
administration started this as the Chief's Report that 
transmitted this Restudy made additional ``commitments'' that 
went well beyond the Restudy, itself.
    Also, some in the agriculture industry seem to have backed 
away from the key Restudy components that were included in the 
plan.
    As we move forward, I want to refocus our legislative 
efforts on the groundwork that Congress laid with the 1992 and 
1996 Water Resources Development Act, and the agreement that 
you all reached, that everybody reached, in the Restudy in 
April 1999. That does not mean that you agreed with everything 
in it, but you agreed to a plan.
    So we need to stop backtracking and start focusing; not 
looking to sweeten the deal, but we need to get on with the 
fairly straight-forward task of implementing this Restudy. And 
not testifying, frankly, is not a good way to do it. It is 
certainly not a good way to endear yourself to me.
    I am afraid too often people forget that the Everglades is 
an environmental and a national treasure. Restoration benefits 
not only Florida, but the millions of us who visit Florida each 
year, and the probably millions more, Senator Graham, who want 
to retire there at some point.
    As I said in Naples last January, many years from now, I 
hope that we will be remembered for putting aside partisanship, 
putting aside differences as to the cost of this project, or 
the date of this project or that project, and that we sit down, 
put aside narrow self interests and short-term thinking, and we 
are willing to sit down at the table, and work out a deal that 
will save the Everglades.
    This is about the next generation. It is not about the next 
election, and it is not about some petty bickering. It is about 
the next generation, as to whether or not we, in this Congress, 
are prepared to stand up in the year 2000 and begin the process 
of saving the Everglades.
    We are not going to save it with one act or one bill this 
year. We are going to start a process that we can adapt to on a 
year-to-year basis to begin the process and find out whether or 
not we are willing to make the commitment to do this.
    Will it work? We are not 100 percent certain. We know one 
thing, though. If we do not do anything, we will lose the 
Everglades. So the risk is worth taking.
    I am committed to the restoration. I am open minded about 
how we do it, and I am willing to listen.
    Senator Graham?
    Senator Graham. Mr. Chairman, prudence would say to be 
quiet after that statement.
    [Laughter.]
    Senator Graham. And I will be as close to quite as I can.
    I would like to submit, for the record, a letter from the 
Corps of Engineers in response to the issue of the total cost 
of this restoration. This was a letter dated March 30.
    Senator Smith. Without objection, it will be admitted into 
the record.
    Senator Graham. Excuse me, I misspoke. It actually is a 
letter from the U.S. Department of Interior, John Berry, 
Assistant Secretary.
    [The referenced documents follow:]
                           U.S. Department of the Interior,
                                   Office of the Secretary,
                                    Washington, DC, March 30, 2000.

Honorable Ralph Regula, Chairman,
Subcommittee on Interior and Related Agencies,
Committee on Appropriations,
House of Representatives,
Washington, DC 20515

Dear Mr. Chairman: On March 8, 2000, the Department submitted a report 
to you on the total cost estimate to restore the South Florida 
ecosystem.
    This provides a revised cost estimate report.
    The total cost of $14.8 billion has not changed, nor has the $8.4 
billion estimated to be the responsibility of the State of Florida. 
Total Federal costs have been revised from $6.4 billion to $6.5 billion 
(+$25.0 million) to reflect revised estimates for the Department of the 
Interior land acquisition needs.
    As a result of this revision, $424.0 million is estimated as the 
balance to complete Department of the Interior funding, subject to the 
availability of appropriations. Through fiscal year 2000, $915.0 
million has been appropriated for the Department of the Interior.
    Again, the Department appreciates the significant support and 
funding that this Committee has provided for the South Florida 
Ecosystem Restoration Initiative.
    Similar letters have been sent to the Honorable Norman Dicks, 
Ranking Minority Member; the Honorable Slade Gorton and the Honorable 
Robert C. Byrd, Chairman and Ranking Minority Member respectively, of 
the Subcommittee on the Department of the Interior and Related 
Agencies, Committee on Appropriations, U.S. Senate.
            Sincerely,
John Berry, Assistant Secretary for Policy, Management and 
                                                    Budget.
                                 ______
                                 
I. Introduction
    The Conference Committee Report language accompanying the 
Department of the Interior and Related Agencies Appropriations Act for 
Fiscal Year 2000, Public Law 106-113, requested that the Department 
submit information, to be updated biennially, on the total cost of the 
effort to--restore the South Florida ecosystem. In relevant part, the 
report language states:
    It would be useful to have a complete estimate of the total costs 
to restore the South Florida ecosystem. The House and Senate Committees 
on Appropriations believe that this new estimate will exceed the 
$7,800,000,000 estimate that has been used over the last 5 years. This 
recalculated estimate should include all three goals of this 
initiative, namely, (1) getting the water right, (2) restoring and 
enhancing the natural habitat, and (3) transforming the built 
environment. The Congress and the American people are committed to this 
project. Over $1,300,000,000 has been appropriated to date; however, 
and the public deserves to know how much this project will truly cost. 
This information should be submitted to the House and Senate Committees 
on Appropriations no later than February 1, 2000, and should be updated 
biennially.
    The purpose of this report is to provide the House and Senate 
Appropriations Committees with the Department's best estimate for the 
total costs to restore the South Florida ecosystem. The estimate 
provided in Part V of this report reflects state and Federal costs to 
date for major on-going programs that advance the goals of the 
restoration effort, as well as future estimated costs to complete this 
work or associated with planned or proposed activities that are not yet 
underway. The estimate exceeds the $7.8 billion figure representing the 
costs to construct project features associated with the implementation 
of the Army Corps of Engineers' Central and Southern Florida Project 
Comprehensive Everglades Restoration Plan presented to Congress on July 
1, 1999. The Department believes that the actual costs to construct the 
Comprehensive Plan may be lower or higher depending upon a variety of 
factors, such as congressional authorization for project features that 
will undergo further site specific studies and analyses prior to 
initiating construction. The Department will update this report 
biennially to reflect any future changes.
    Although some of the activities included in the Department's total 
cost estimate began well before the emphasis in the last decade on 
ecosystem restoration (e.g., state land preservation efforts, the 
Modified Water Deliveries Project for Everglades National Park, the 
State of Florida's Everglades Construction Project), and may well have 
occurred without such increased emphasis, the Department is including 
the non-recurring costs for these activities as their completion is 
integral to the overall success of the restoration of the South Florida 
ecosystem Not included in the Department's estimate, however, are the 
normal recurring operating costs--or ``agency mission'' costs--for 
state and Federal agencies. For example, National Park Service costs to 
operate and maintain Everglades National Park, Fish and Wildlife 
Service costs to provide for Endangered Species Act consultation, and 
South Florida Water Management District costs to operate and maintain 
its water delivery infrastructure are not included. Although the 
Department has cited such figures in the past, as included in the Task 
Force's annual cross-cut budget, to describe its total funding in 
support of the South Florida ecosystem restoration effort, the 
Department believes that it is proper to exclude these agency mission 
costs and focus primarily on the increased funding devoted to this 
effort that occurred or is planned to occur due to specific restoration 
needs or goals.
    To provide context for the total cost estimate, Part II of this 
report provides a brief background on the South Florida ecosystem; Part 
III summarizes major on-going state and Federal efforts key to the 
restoration that preceded the establishment of the South Florida 
Ecosystem Restoration Task Force (Task Force) and the 1992 
congressional authorization and direction for the Army Corps of 
Engineers to complete its Restudy for the Central and Southern Florida 
Project; Part IV briefly describes future efforts; and Part V provides 
the Department's best estimate to date for the total costs to restore 
the South Florida ecosystem. The programs and associated costs included 
in Part V are arranged according to the three goals for the restoration 
effort; Federal and state costs are noted accordingly. Federal costs 
are further subdivided according to individual agencies.
    In accordance with the Committee's directive, this report will be 
updated biennially as more information becomes available and current 
plans and cost estimates are updated in response to lessons learned and 
new information. The Department believes that expanding knowledge of 
ecosystem restoration requirements in South Florida and Me process of 
adaptive management for implementation of the Comprehensive Plan will 
result in changes to the total cost estimate presented in Part V.
II. Background--South Florida Ecosystem
    In its natural state, the South Florida ecosystem was connected by 
the flow of water south from Lake Okeechobee through vast freshwater 
marshes--known as the Everglades--to Florida Bay and on to the coral 
reefs of the Florida Keys. The Everglades covered approximately 18,000 
square miles and were the heart of a unique and biologically productive 
region, supporting vast colonies of wading birds, a mixture of 
temperate and tropical plant and animal species, and teeming coastal 
fisheries.
    During the last century, efforts were made to drain the Everglades 
and make the region habitable. This culminated in the construction of 
the Central and Southern Florida Project, a flood control project 
jointly built and managed by the Army Corps of Engineers and the South 
Florida Water Management District. In response to periods of drought 
and extreme floods, which left 90 percent of South Florida under water, 
this project was authorized by Congress in 1948 and succeeded in 
draining half of the original Everglades, allowing for the expanded 
development of cities on the lower east coast of Florida and the 
farming area south of Lake Okeechobee known as the Everglades 
Agricultural Area (EAA). Although historically most rainwater soaked 
into the region's wetlands, the Central and Southern Florida Project 
canal system, comprised of over 1,800 miles of canals and levees and 
200 water control structures, now drains the water off the land such 
that an average of 1.7 billion gallons of water per day are discharged 
into the ocean. Additionally, phosphorus runoff from agricultural 
operations has polluted much of the remaining Everglades and Lake 
Okeechobee and caused fundamental, and negative, ecological change.
    As a result, not enough clean water is available for the 
environment, resulting in long-term problems for the Everglades and the 
communities in the region. Examples include: (i) 90 percent reductions 
in wading bird populations; (ii) 68 species listed as endangered or 
threatened; (iii) reduced fisheries in Biscayne and Florida Bays; (iv) 
loss of over five feet of organic soil in the EAA; (v) degraded water 
quality in inland and coastal areas; (vi) infestation and spread of 
invasive exotic plant species on over 1.5 million acres; (vii) damaging 
fresh water releases into the St. Lucie, Caloosahatchee, and many other 
estuaries; (viii) loss of wetlands that provide important species 
habitat and ground water recharge; (ix) loss of tree islands and 
damaging ecological effects in the state managed water conservation 
areas. Without significant infrastructure modification, these problems 
have the potential only to get worse and water shortages are a 
certainty in future years as water demands continue to grow.
    Today, South Florida is home to 6.5 million people and the 
population is expected to double by 2050. The region receives over 37 
million tourists annually and supports a $200 billion economy. 
Restoration is an imperative--not only for ensuring a sustainable South 
Florida economy to guarantee clean fresh water supplies for all future 
needs--but also to protect the ecological health of the Everglades that 
has been nationally and internationally recognized as like no other 
place on Earth.
III. Major On-Going State and Federal Efforts to Protect and Restore 
        the South Florida Ecosystem
    Over the last decade, and prior to the establishment of the South 
Florida Ecosystem Restoration Task Force in 1993, significant efforts 
have been made at both the Federal and state level to reverse the trend 
of environmental degradation in the Everglades. These efforts include: 
(i) improving water quality and reducing pollutants entering Lake 
Okeechobee and the Everglades from agricultural interests; (ii) 
restoring more natural hydropatterns in areas such as Everglades 
National Park and the Kissimmee River Basin; (iii) acquiring land for 
Federal and state conservation areas, regional water storage capacity, 
habitat and recreation; and (iv) management and protection of the coral 
reef through the trusteeship of the National Oceanic and Atmospheric 
Administration's (NOAA) Florida Keys National Marine Sanctuary. 
Although other activities are included in the total cost estimate, a 
brief summary of the most significant projects follows:
    Improving water quality: In the late 1970's, the State of Florida 
and the South Florida Water Management District began investigating 
ways to improve ecosystem water quality, including the Lake Okeechobee 
Works of the District, farm Best Management Practices, and a cattle 
buy-out program. By 1988, design had begun on the 3,700-acre Everglades 
Nutrient Removal Project. In 1988, the Federal Government sued the 
State of Florida for its failure to enforce state water quality 
standards on pollution discharges from the EAA into the Everglades. 
This lawsuit was settled in 1991 and a judicially enforceable Consent 
decree ordered the state to take a series of remedial measures, 
including the construction of stormwater treatment areas (STAB) on 
former farms in the EAA to help clean up farm runoff. The technical 
plan in the original Consent decree was expanded significantly after 
mediation with stakeholders. In 1994, the Florida legislature enacted 
the Everglades Forever Act, which codified proposed modifications to 
the consent decree as and provided for other measures to improve 
overall water quality, including funding mechanisms and construction 
timetable for a comprehensive program of six STAB, implementation of 
best management practices, additional research, establishing water 
quality criteria and implementation of advanced water quality treatment 
measures.
    Among the most important of these measures is the completion of the 
Everglades Construction Project, a series of six STAs presently under 
construction and located between the EAA and the natural areas to the 
south. Of the six STAB, five are funded by the State of Florida and the 
sixth, STA 1-E, is federally funded to improve water quality discharges 
into Loxahatchee National Wildlife Refuge. The Everglades Construction 
Project is expected to cost approximately $696 million in capital costs 
to complete, of which $505 million is being financed by the State of 
Florida and $190 million by the Federal Government (of which $46 
million was appropriated to the Department of the Interior in fiscal 
year 1998 for land acquisition within STA 1-E). Construction of the 
STAs are proposed to be complete in December 2006. Although that date 
has yet to be approved by the court, which retains jurisdiction over 
this matter, the projects called for by the Consent decree are 
implemented by the South Florida Water Management District.
    Additionally, as a result of the Everglades Forever Act, the South 
Florida Water Management District established the Everglades Stormwater 
Program, which includes two main components in the form of an EAA 
phosphorus reduction program and the Urban and Tributary Basins 
Program. The EAA phosphorus reduction program includes regulatory 
programs developed to reduce phosphorus loads from the EAA by reducing 
phosphorus on the surrounding farms and other adjacent land prior to 
discharging offsite. Landowners in the EAA have implemented a series of 
best management practices that have effectively reduced the phosphorus 
loads to the Everglades. Over the last 3 years, the total cumulative 
loads attributable to the EAA have been reduced by 44 percent. The 
Urban and Tributary Basins Program was developed to ensure that all 
basins discharging into, from or within the Everglades, other than 
those included in the EAA, meet state water quality standards. Costs 
associated with this program are not included in this report at this 
time as additional strategies, in the form of regulatory changes and 
construction, are still being developed.
    Generally, the STAs and farm Best Management Practices are expected 
to reduce overall phosphorus levels to 50 parts per billion (ppb), thus 
improving water quality from EAA discharges and other sources compared 
to current levels. However, the Everglades Forever Act requires the 
state to adopt a numeric criterion for phosphorus by 2003 so that all 
discharges into the Everglades will meet Federal and state water 
quality standards by 2006. If the state does not adopt a numeric 
criterion, the Everglades Forever Act sets a default standard of 1O 
ppb. It appears that additional measures will likely be needed to 
further enhance the performance of the STAs to meet these requirements; 
however, the costs to make such modifications are not known at this 
time. The South Florida Water Management District is presently 
conducting research into advanced treatment technologies to enhance the 
performance of the STAB, and also to be potentially applied to other 
tributaries of the Everglades. Although funding for the implementation 
of advanced treatment has not been appropriated, to date $10 million 
has been budgeted by the South Florida Water Management District toward 
that research. Once completed, these efforts are expected to 
significantly improve water quality for the region.
    As part of the effort to improve water quality in Lake Okeechobee, 
the South Florida Water Management District is conducting the Lake 
Okeechobee Sediment Removal Feasibility Study. The purpose of the study 
is to identify a feasible method of removing sediment that will reduce 
the internal phosphorus loading and balance the lake's nutrient 
assimilative capacity. Costs to implement this program are not known at 
this time.
    In addition to these measures, and in recognition of the critical 
role of water quality in maintaining coral reef natural resources, the 
Florida Keys National Marine Sanctuary and Protection Act of 1990 
required the Secretary of Commerce, the Environmental Protection 
Agency, and the State of Florida to develop a Water Quality Protection 
Program for the Sanctuary.
    Restoring more natural hydropatterns: More natural hydropatterns 
are presently being restored in Everglades National Park and the 
Kissimmee River Basin. In 1989, Congress enacted the Everglades 
National Park Protection and Expansion Act (Act) to expand Everglades 
National Park and to restore more natural sheet water flows to the park 
and Shark River Slough. To restore more natural sheet water flows to 
the park, the Act authorized the construction of the Modified Water 
Deliveries Project. That project is 100 percent federally funded by the 
Department of the Interior and is presently scheduled for completion in 
2003, depending upon the availability of Federal funding and completion 
of ongoing planning. The estimated total cost for this project is 
between $133.5 million and $212 million. The range of costs is based 
upon alternative design scenarios for certain project features that are 
presently undergoing supplemental National Environmental Policy Act 
(NEPA) compliance. The project is undergoing supplemental NEPA 
compliance because: (i) the original project authorization was amended 
in 1994; and (ii) completion of both the C-111 project design and the 
Comprehensive Everglades Restoration Plan expanded agency knowledge 
that raised questions concerning the original 1992 design for the 8.5 
Square Mile Area flood mitigation component of the Modified Water 
Deliveries Project. This led to technical disagreements among the 
relevant agencies and stakeholders over the appropriate course of 
action and alternatives are being explored under the NEPA process. If a 
locally preferred option for the 8.5 Square Mile Area component of this 
project is chosen the project will be cost shared between the Federal 
Government and the South Florida Water Management District. For the 
purposes of this report, a range of costs is presented for this 
project, although this does not indicate a decision by the Federal 
Government or the South Florida Water Management District to proceed 
with any of the alternatives presently being evaluated under NEPA.
    Authorized by Congress in 1992, the Kissimmee River Restoration 
project is intended to reverse the environmental devastation of earlier 
efforts to channel the once 103 mile free flowing river into a 56 mile 
canal, destroying nearly 43,000 acres of wetlands and important 
habitat. The project involves restoring about 40 square miles of the 
historic habitat in the Kissimmee river floodplain north of Lake 
Okeechobee, as well as restoring water-level fluctuations and seasonal 
discharges from Lakes Kissimmee and in the upper basin lakes. This 
project is estimated to cost approximately $518 million, is equally 
cost shared with the South Florida Water Management District, and is 
expected be complete in 2010.
    The C-111 project comprises modifications to the Central and 
Southern Florida Project to provide more natural hydrologic conditions 
in Taylor Slough and the panhandle of Everglades National Park and to 
minimize damaging flood releases to Barnes Sound and Manatee Bay. 
Restoring natural hydrologic conditions in Taylor Slough is integral to 
restoring fresh water flows to Florida Bay. The project was initially 
authorized by Congress in 1991 at a cost of 5155 million, including 
land, and a completion date of 2001. Reauthorized by Congress in 1996, 
the Army Corps is directed to consider state water quality standards 
and incorporate the necessary features into the C-111 project 
implementation. The 1996 authorization states that all project costs, 
including land, are to be shared equally between the Army Corps and the 
South Florida--Water Management District. A supplement to the 1994 C-
111 General Reevaluation Report will include actual land acquisition 
costs, a water quality strategy, redistribution of funding 
responsibilities and a revised implementation timeline, all of which 
may result in a revised cost estimate.
    In addition to improving water quality, certain components of the 
Everglades Construction Project described above will restore more 
natural hydropatterns in the northern Everglades presently severed by 
the Central and Southern Florida Project. The STA 1-E/C-51W Project 
will provide flood control for the western C-51 basin and will restore 
a portion of the historic Everglades flows to Loxahatchee National 
Wildlife Refuge. The current project was reauthorized by Congress in 
1996; project construction is 15 percent cost shared with the South 
Florida Water Management District, with the District providing all 
lands, easements and rights-of-way, with the exception of those lands 
that are incorporated into STA 1-E, as discussed below, which is 100 
percent federally funded and for which the Department of the Interior 
provided $46 million, through a grant to the South Florida Water 
Management District, toward land acquisition costs. The Department has 
just learned that the costs to complete land acquisition for STA 1-E 
will be higher, but does not have a revised estimate at this time. It 
is estimated that the STA 1-E/C-51W project will cost $210 million when 
complete in 2003, although this number will change once final land 
acquisition costs are known.
    Land Acquisition: The Federal and state governments have expended 
significant funds to acquire and protect lands in the region. Land 
acquisition is a critical part of ecosystem restoration as acquired 
lands are needed to protect key Federal and state conservation areas, 
create and restore additional water storage capacity and recharge areas 
to help increase overall water supplies and restore natural hydrology, 
and for habitat protection and enhancement and for recreation. As 
described above, some lands are also used to improve overall water 
quality (e.g. STAB).
    Significant actions taken to protect South Florida's natural 
resources since the establishment of Everglades National Park in 1947 
and its expansion in 1989 (together protecting 1.4 million acres of the 
remaining Everglades) include: (i) Florida's 1972 Land Conservation 
Act, 1981 Save Our Rivers Program, 1990 Preservation 2000 Act, and the 
Florida Forever Act that dedicate state funding for land acquisition at 
state parks and preserves in the ecosystem; (ii) the 1996 Federal 
Agriculture Improvement and Reform Act (Farm Bill) that provided the 
Department with $200 million for ecosystem restoration, including land 
acquisition; and (iii) numerous annual Interior Appropriations Acts 
that have funded land acquisition at parks and refuges in the region, 
as well as additional state land acquisition assistance funds. The 
state assistance funds provided by the Department of the interior have, 
for the most part, been targeted toward acquisition of lands that 
create additional opportunities for water storage and are generally 
expected to be incorporated into a Comprehensive Plan project feature.
    Through these efforts, it is estimated that $1.6 billion has been 
spent to date (of which $1.1 billion is state funding and $0.5 billion 
is Federal) for the acquisition of 4.7 million acres. It is estimated 
that about 638,000 non-Federal acres remain to be acquired in South 
Florida at an estimated cost of $2.2 billion. These figures do not 
include the 220,000 acres of lands needed for the Comprehensive Plan 
implementation, which are included in the overall cost estimate for the 
Comprehensive Plan.
    Critical Restoration Projects: Pursuant to the Water Resources 
Development Act of 1996, the Army Corps and the South Florida Water 
Management District have entered into agreements to undertake nine 
critical restoration projects that will provide immediate and 
substantial benefits for the ecosystem. The Corps and the Seminole 
Tribe have entered into a similar agreement for one critical project. 
The ten projects have a total cost of $150 million, half of which will 
be paid for by the Federal Government. These projects, although small 
and including such features as improving flows under the Tamiami Trail, 
have immediate environmental benefits that will assist in achieving the 
goals of the restoration.
    Exotic Species Control: Commensurate with land acquisition is 
proper land management and efforts to eradicate and prevent the spread 
of invasive exotic plant species. More than 200 species of exotic plant 
species have invaded the Everglades. The majority of these species 
occur in limited areas, and do not pose a direct threat to native plant 
communities. However, plants like melaleuca, Brazilian pepper, 
Australian pine, and Old World climbing fern, are causing widespread 
damage throughout the South Florida ecosystem, and are considered 
species of primary concern. The South Florida Water Management 
District, state, and Federal Government are all directing resources to 
combat this problem. While areal coverage for some species will 
decrease with vigilant management efforts--which has been the case with 
melaleuca--new species could invade without additional management 
initiatives. The history of this problem indicates that management 
efforts will only intensify with time and should be considered a 
perpetual management requirement in the Everglades region.
IV. Proposed Future Everglades Restoration Efforts
    Despite the on-going efforts described above, it is widely 
recognized that full restoration of the South Florida would require an 
overhaul of the 1948 Central and Southern Florida Project. To this end, 
in the 1992 and 1996 Water Resources Development Acts, Congress 
directed the Army Corps of Engineers to conduct a comprehensive review 
study (now known as the Comprehensive Plan) of the entire project with 
a focus on making changes that would restore, preserve and protect the 
environment, while also providing clean and adequate fresh water 
supplies and flood protection to communities. Completion of the 
Comprehensive Plan was an interagency and intergovernmental effort 
consisting of an inclusive and open process with opportunity for input 
from all stakeholders.
    The Comprehensive Plan was submitted to Congress on July 1, 1999. 
Comprised of over 60 structural and operational elements, the 
Comprehensive Plan proposes a conceptual Stonework to store water for 
critical uses; manage water to improve the quality, quantity, timing 
and distribution of flows to the Everglades; improve wildlife habitat; 
and create wetlands to filter runoff. The estimated non-recurring 
capital cost, including real estate acquisition and construction of 
project features, for the Comprehensive Plan is $7.8 billion, of which 
50 percent is proposed to be provided by the state, with the remainder 
provided by the Federal Government. . Operating costs, or those costs 
that recur on an annual basis, are estimated at $172 million per year 
at full build out and are not included in the total cost estimate as 
they resemble agency mission costs that were excluded for other 
programs. The Administration shortly expects to submit its 
authorization proposal for an initial suite of projects to implement 
the Comprehensive Plan. It is expected that the Comprehensive Plan will 
take more than 20 years to complete, with the Army Corps of Engineers 
providing nearly all of the Federal funding. Its completion is integral 
to achieving two of the three goals of the restoration effort, 
discussed further below, and it is the single largest cost component of 
the restoration effort.
    Also in 1996, in an effort to encourage appropriate Federal and 
state agencies to work more closely together, the Congress established 
the South Florida Ecosystem Restoration Task Force (Task Force), 
chaired by the Secretary of the Interior, with the mandate to guide the 
restoration of the South Florida ecosystem. To this end, the Task Force 
established degree goals: (1) getting the water right: that is, to 
restore a more natural water flow to the region while providing 
adequate water supplies, water quality and flood control; (2) restore 
and enhance the natural system, protecting natural habitats and 
reestablishing threatened and endangered species; and (3) transform the 
built environment to develop lifestyles and economies that do not 
degrade the natural environment and improve the quality of life in 
urban areas.
    The Task Force is presently developing a Strategic Plan, to be 
submitted to Congress by July 31, 2000, that will integrate on-going 
efforts with future proposed actions like the Comprehensive Plan. The 
Strategic Plan will outline how the overall restoration of the South 
Florida ecosystem will occur, identify the resources needed to 
accomplish restoration objectives, assign accountability for 
accomplishing actions, and link the goals established by the Task Force 
to outcome-oriented goals. At this time, and based upon input from 
State of Florida stakeholders, the state is reviewing Goal 3, 
``transforming the built environment,'' including state proposals for 
managing growth. Because implementation of Goal 3 is largely viewed as 
a state responsibility and the State of Florida is considering how to 
address this issue, the Department is including only estimated Federal 
costs in support of the present goal. The Department expects that the 
completion of the Strategic Plan will result in an improved ability to 
report on costs to implement this goal.
V. Estimated Total Costs for the Restoration of the South Florida 
        Ecosystem
    This section presents the Department's best estimate for the total 
costs for South Florida ecosystem restoration. As noted earlier, these 
costs are comprised of: (1) major on-going programs; and (2) future 
planned activities that may change, based uponsite specific designs and 
new information, or may require future Federal and/or state legislative 
authorization.
    Finally, this report may not have captured all of the costs that 
could be categorized by some as meeting the goals of Everglades 
restoration. A sustainable environment will also need a diverse and 
balanced economy. The regional economy should continue to support 
traditional industries such as agriculture, tourism, development, 
fishing and manufacturing. It must ensure that these resource-dependent 
industries are compatible with restoration goals and will maintain or 
enhance the quality of life in built areas. It is difficult to quantify 
the costs of responsible development that would include such 
characteristics as redeveloping declining urban areas, roads, 
utilities, services, and light rail, to name a few.
    Managing growth and development problems cannot be solved by each 
local government acting alone. Roads do not stop at city and county 
boundaries. Our major natural resources and ecosystems frequently 
encompass parts of many local jurisdictions. A decision by one local 
government to construct a major public facility or permit private 
development can have a significant impact on an entire region, and the 
collective decisions of all local governments affect the entire state.
    Among its recommendations to Congress in July 1999, the 
Comprehensive Plan recommended a feasibility study to identify the 
dominant water and environmental resource issues in southwest Florida 
in view of robust population growth in the region and to develop 
potential solutions to any problems that may be identified. The 
Southwest Florida Study is being conducted by the Army Corps and the 
South Florida Water Management District. The study area includes all of 
Lee County, most of Collier and Hendry Counties, and portions of 
Charlotte, Glades and Monroe Counties. It encompasses approximately 
4,300 square miles and includes two major drainage basins. It is likely 
that this feasibility study could recommend programs and costs that 
would support any of the goals of the restoration effort. At this time, 
however, no costs are included as they are not yet known.
    In accordance with the Committee's direction, the Department 
expects to provide updates of this information on at least a biennial 
basis, or more frequently should it be desired, so that all parties 
involved are aware of the significant Federal, state and local 
investments that are being made in this important effort. Following are 
estimated total costs, arranged according to the ecosystem restoration 
goals:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
                           U.S. Department of the Interior,
                                   Office of the Secretary,
                                     Washington, DC, March 8, 2000.

Honorable Ralph Regula, Chairman,
Subcommittee on the Department of the Interior and Related Agencies,
Committee on Appropriations,
House of Representatives,
Washington, DC 20515.

Dear Mr. Chairman: The Conference Committee Report language 
accompanying the Department of the Interior and Related Agencies 
Appropriations Act for Fiscal Year 2000, Public Law 106-113, requested 
that the Department submit information, to be.updated biennially, on 
the total cost of the effort to restore the South Florida ecosystem. In 
relevant part, the report language states:
    It would be useful to have a complete estimate of the total costs 
to restore the South Florida ecosystem. The House and Senate Committees 
on Appropriations believe that this new estimate will exceed the 
$7,800,000,000 estimate that has been used over the last 5 years. This 
recalculated estimate should include all three goals of this 
initiative, namely. (1) getting the water right, (2) restoring and 
enhancing the natural habitat, and (3) transforming the built 
environment. The Congress and the American people are committed to this 
project. Over $1,300,000,000 has been appropriated to date; however, 
and the public deserves to know how much this project will truly cost. 
This information should be submitted to the House and Senate Committees 
on Appropriations no later than February 1, 2000, and should be updated 
biennially.
    The $7.8 billion figure cited in the report language represents the 
estimated costs to construct project features associated with the 
implementation--over the next 20 years or so--of the Army Corps of 
Engineers' Central and Southern Florida Project Review Study (Restudy). 
The Restudy, now known as the Comprehensive Everglades Restoration 
Plan, or Comprehensive Plan, was submitted to the Congress on July 1, 
1999 and is integral to achieving two of the three goals of the 
restoration: (1) ``getting the water right'' to restore more natural 
water flows to the ecosystem, while guaranteeing regional water 
supplies and flood control; and (2) restoring and enhancing the natural 
system. Because congressional authorization is required for the 
Comprehensive Plan's proposed project features, and individual project 
features must undergo additional site specific studies and analyses, 
the Department believes that the overall cost to implement this 
significant and important component of the restoration effort could be 
lower or higher depending upon future analyses and site specific 
studies. Nothing in this report changes the present estimate of $7.8 
billion to complete the Comprehensive Plan, for which the State of 
Florida will provide half, or $3.9 billion, of the cost.
    To develop the total cost estimate, the Department included the 
cost of the Comprehensive Plan, as well as certain on-going programs 
that pre-date the emphasis on ecosystem restoration that developed 
since the establishment of the South Florida Ecosystem Restoration Task 
Force in 1993. This includes several projects authorized prior to and 
independent of the Comprehensive Plan. For example, the Congress and 
the State of Florida have enacted legislation requiring the appropriate 
agencies to take certain steps toward restoration. The Department has 
included the costs for these measures because they actively promote 
overall restoration goals and establish baseline conditions for the 
Comprehensive Plan. An example of this type of cost is the Everglades 
Construction Project, authorized by the State of Florida's 1994 
Everglades Forever Act and undertaken by the South Florida Water 
Management District as a direct result of a judicially enforceable 
consent decree settling water quality litigation brought by the United 
States against the South Florida Water Management District in 1988. The 
Everglades Construction Project is designed to significantly improve 
overall regional water quality through the construction of stormwater 
treatment areas.
    The Department has excluded certain ``agency mission'' costs, which 
are generally recurring in nature, including the operation and 
maintenance costs for the Central and Southern Florida Project, and 
operational costs for national parks and national wildlife refuges 
because the Department believes that these costs would occur without 
any additional emphasis on ecosystem restoration.
    In response to the Committee's request, the Department submits the 
enclosed report with its best estimate for the total costs to restore 
the South Florida ecosystem. As noted in the report, the Department's 
total cost estimate is $14.8 billion, of which $8.4 billion are solely 
the responsibility of the State of Florida and $6.4 billion are Federal 
costs. This total cost estimate represents state and Federal costs to 
date for major on-going programs that advance the goals of the 
restoration effort, as well as future estimated costs associated with 
planned or proposed activities that require congressional authorization 
or are in the preliminary planning stages. Of the Federal costs 
included in this report, $1.3 billion is estimated to be Department of 
the Interior funding supporting Goals 1 and 2; of which $907 million 
represents funding through fiscal year 2000, and $405 million is 
estimated as the balance to complete, subject to the availability of 
future appropriations. A tabular display, by goal, of this cost 
estimate follows on the next page:
    As noted in Part V of this report, the Department has limited 
information concerning state programs affecting Goal 3, ``transforming 
the built environment.'' The state programs affecting Goal 3 are under 
review at this time in response to recent state proposals to manage 
growth and--may be slightly revised, thus the Department is including 
information on Federal programs that it believes support this goal. 
Updated information concerning Goal 3 will be included in the Strategic 
Plan due this July, and a revised cost estimate for Goal 3 will be 
provided at that time.
    The Department appreciates the significant support and funding that 
this Committee has provided for the South Florida Ecosystem Restoration 
Initiative. The Department notes that the State of Florida has recently 
committed to fund its share of the Comprehensive Plan and the 
Department looks forward to working with the Committee to secure the 
necessary funding and legislative authorization that will be required 
to continue our important work in this effort, protect the Federal 
investments made to date in national parks and national wildlife 
refuges, and most importantly, save America's Everglades. The 
Department would be pleased to discuss this report and its contents 
with you further. Similar letters have been sent to the Honorable 
Norman Dicks, Ranking Minority Member; the Honorable Slade Gorton and 
the Honorable Robert C. Byrd, Chairman and Ranking Minority Member 
respectively, of the Subcommittee on the Department of the Interior and 
Related Agencies, Committee on Appropriations, U.S. Senate.
            Sincerely,
    John Berry, Assistant Secretary Policy, Management and 
                                                    Budget.
                                 ______
                                 
I. Introduction
    The Conference Committee Report language the Department of the 
Interior and Related Agencies Appropriations Act for Fiscal Year 2000, 
Public Law 106-113, requested that the Department submit information. 
to be updated biennially, on the total cost of the effort to restore 
the South Florida ecosystem In relevant part, the report language 
states:
    It would be useful to have a complete estimate of the total costs 
to restore the South Florida ecosystem. The House and Senate Committees 
on Appropriations believe that this new estimate will exceed the 
$7,800,000,000 estimate that has been used over the last 5 years. This 
recalculated estimate should include all three goals of this 
initiative, namely. (1) getting the water right, (2) restoring and 
enhancing the natural habitat, and (3) transforming the built 
environment. The Congress and the American people are committed to this 
project. Over $1,300,000,000 has been appropriated to date; however, 
and the public deserves to know how much this project will truly cost. 
This information should be submitted to the House and Senate Committees 
on Appropriations no later than February 1, 2000, and should be updated 
biennially.
    The purpose of this report is to provide the House and Senate 
Appropriations Committees with the Department's best estimate for the 
total costs to restore the South Florida ecosystem. The estimate 
provided in Part V of this report reflects state and Federal costs to 
date for major ongoing programs that advance the goals of the 
restoration effort, as well as future estimated costs to complete this 
work or associated with planned or proposed activities that are not yet 
underway. The estimate exceeds the $7.8 billion figure representing the 
costs to construct project features associated with the implementation 
of the Army Corps of Engineers' Central and Southern Florida Project 
Comprehensive Everglades Restoration Plan presented to Congress on July 
1, 1999. The Department believes that the actual costs to construct the 
Comprehensive Plan may be lower or higher depending upon a variety of 
factors, such as congressional authorization for project features that 
will undergo further site specific studies and analyses prior to 
initiating construction. The Department will update this report 
biennially to reflect any future changes.
    Although some of the activities included in the Department's total 
cost estimate began well before the emphasis in the last decade on 
ecosystem restoration (e.g. state land preservation efforts, the 
Modified Water Deliveries Project for Everglades National Park, the 
State of Florida's Everglades Construction Project), and may well have 
occurred without such increased emphasis, the Department is including 
the non-recurring costs for these activities as their completion is 
integral to the overall success of the restoration of the South Florida 
ecosystem. Not included in the Department's estimate, however, are the 
normal recurring operating costs--or ``agency mission'' costs--for 
state and Federal agencies. For example, National Park Service costs to 
operate and maintain Everglades National Park, Fish and Wildlife 
Service costs to provide for Endangered Species Act consultation, and 
South Florida Water Management District costs to operate and maintain 
its water delivery infrastructure are not included. Although the 
Department has cited such figures in the past, as included in the Task 
Force's annual cross-cut budget, to describe its total funding in 
support of the South Florida ecosystem restoration effort, the 
Department believes that it is proper to exclude these agency mission 
costs and focus primarily on the increased funding denoted to this 
effort that occurred or is planned to occur due to specific restoration 
needs or goals.
    To provide context for the total cost estimate, Part II of this 
report provides a brief background on the South Florida ecosystem; Part 
III summarizes major on-going state and Federal efforts key to the 
restoration that preceded the establishment of the South Florida 
Ecosystem Restoration Task Force (Task Force) and the 1992 
congressional authorization and direction for the Army Corps of 
Engineers to complete its Restudy for the Central and Southern Florida 
Project; Part IV briefly describes future efforts; and Part V provides 
the Department's best estimate to date for the total costs to restore 
the South Florida ecosystem. The programs and associated costs included 
in Part V are arranged according to the three goals for the restoration 
effort; Federal and state costs are noted accordingly. Federal costs 
are further subdivided according to individual agencies.
    In accordance with the Committee's directive, this report will be 
updated biennially as more information becomes available and current 
plans and cost estimates are updated in response to lessons learned and 
new information. The Department believes that expanding knowledge of 
ecosystem restoration requirements in South Florida and the process of 
adaptive management for implementation of the Comprehensive Plan will 
result in changes to the total cost estimate presented in Part V.
II. Background--South Florida Ecosystem
    In its natural state, the South Florida ecosystem was connected by 
the flow of water south from Lake Okeechobee through vast freshwater 
marshes--known as the Everglades--to Florida Bay and on to the coral 
reefs of the Florida Keys. The Everglades covered approximately 18,000 
square miles and were the heart of a unique and biologically productive 
region, supporting vast colonies of wading birds, a mixture of 
temperate and tropical plant and animal species, and teeming coastal 
fisheries.
    During the last century, efforts were made to drain the Everglades 
and make the region habitable. This culminated in the construction of 
the Central and Southern Florida Project, a flood control project 
jointly built and managed by the Army Corps of Engineers and the South 
Florida Water Management District. In response to periods of drought 
and extreme floods, which left 90 percent of South Florida under water, 
this project was authorized by Congress in 1948 and succeeded in 
draining half of the original Everglades, allowing for the expanded 
development of cities on the lower east coast of Florida and the 
farming area south of Lake Okeechobee known as the Everglades 
Agricultural Area (EAA). Although historically most rainwater soaked 
into the region's wetlands, the Central and Southern Florida Project 
canal system, comprised of over 1,800 miles of canals and levees and 
200 water control structures, now drains the water off the land such 
that an average of 1.7 billion gallons of water per day are discharged 
into the ocean.
    Additionally, phosphorus runoff from agricultural operations has 
polluted much of the remaining Everglades and Lake Okeechobee and 
caused fundamental, and negative, ecological change.
    As a result, not enough clean water is available for the 
environment, resulting in long-term problems for the Everglades and the 
communities in the region. Examples include (i) 90 percent reductions 
in wading bird populations, (ii) 68 species listed as endangered or 
threatened, (iii) reduced fisheries in Biscayne and Florida Bays; (iv) 
loss of over five feet of organic soil in the EAA, (v) degraded water 
quality in inland and coastal areas, (vi) infestation and spread of 
invasive exotic plant species on over 1.5 million acres; (vii) damaging 
fresh water releases into the St. Lucie, Caloosahatchee, and many other 
estuaries, (viii) loss of wetlands that provide important species 
habitat and ground water recharge; (ix) loss of tree islands and 
damaging ecological effects in the state managed water conservation 
areas. Without significant infrastructure modification, these problems 
have the potential only to get worse and water shortages are a 
certainty in future years as water demands continue to grow.
    Today, South Florida is home to 6.5 million people and the 
population is expected to double by 2050. The region receives over 37 
million tourists annually and supports a $200 billion economy 
Restoration is an imperative--not only for ensuring a sustainable South 
Florida economy to guarantee clean fresh water supplies for all future 
needs--but also to protect the ecological health of the Everglades that 
has been nationally and internationally recognized as like no other 
place on Earth.
III. Major On-Going State and Federal Efforts to Protect and Restore 
        the South Florida Ecosystem
    Over the last decade, and prior to the establishment of the South 
Florida Ecosystem Restoration Task Force in 1993, significant efforts 
have been made at both the Federal and state level to reverse the trend 
of environmental degradation in the Everglades. These efforts include: 
(i) improving water quality and reducing pollutants entering Lake 
Okeechobee and the Everglades from agricultural interests; (ii) 
restoring more natural hydropatterns in areas such as Everglades 
National Park and the Kissimmee River Basin; (iii) acquiring land for 
Federal and state conservation areas, regional water storage capacity, 
habitat and recreation; and (iv) management and protection of the coral 
reef through the trusteeship of the National Oceanic and Atmospheric 
Administration's (NOAA) Florida Keys National Marine Sanctuary. 
Although other activities are included in the total cost estimate, a 
brief summary of the most significant projects follows:
    Improving water quality: In the late 1970's, the State of Florida 
and the South Florida Water Management District began investigating 
ways to improve ecosystem water quality, including the Lake Okeechobee 
Works of the District, farm Best Management Practices, and a cattle 
buy-out program. By 1988, design had begun on the 3,700-acre Everglades 
Nutrient Removal Project in 1988, the Federal Government sued the State 
of Florida for its failure to enforce state water quality standards on 
pollution discharges from the EAA into the Everglades. This lawsuit was 
settled in 1991 and a judicially enforceable Consent decree ordered the 
state to take a series of remedial measures, the construction of 
stormwater treatment areas (STAs) on former farms in the EAA to help 
clean up farm runoff. The technical plan in the original Consent decree 
was expanded significantly after mediation with stakeholders. In 1994, 
the Florida legislature enacted the Everglades Forever Act, which 
codified proposed modifications to the consent decree as and provided 
for other measures to improve overall water quality, including funding 
mechanisms and construction timetable for a comprehensive program of 
six STAs, implementation of best management practices, additional 
research, establishing water quality criteria and implementation of 
advanced water quality treatment measures.
    Among the most important of these measures is the completion of the 
Everglades Construction Project, a series of six STAs presently under 
construction and located between the EAA and the natural areas to the 
south. Of the six STAB, five are funded by the State of Florida and the 
sixth. STA 1-E, is federally funded to improve water quality discharges 
into Loxahatchee National Wildlife Refuge. The Everglades Construction 
Project is expected to cost approximately $696 million in capital costs 
to complete, of which $505 million is being financed by the State of 
Florida and $190 million by the Federal Government (of which $46 
million was appropriated to the Department of the Interior in fiscal 
year 1998 for land acquisition within STA 1-E). Construction of the 
STAs are proposed to be complete in December 2006. Although that date-
has yet to be approved by the court, which retains jurisdiction over 
this matter, the projects called for by the Consent decree are 
implemented by the South Florida Water Management District.
    Additionally, as a result of the Everglades Forever Act, the South 
Florida Water Management District established the Everglades Stormwater 
Program, which includes two main components in the form of an EAA 
phosphorus reduction program and the Urban and Tributary Basins Program 
The EAA phosphorus reduction program includes regulatory programs 
developed to reduce phosphorus loads from the EAA by reducing 
phosphorus on the surrounding farms and other adjacent land prior to 
discharging offsite. Landowners in the EAA have implemented a series of 
best management practices that have effectively reduced the phosphorus 
loads to the Everglades. Over the last 3 years, the total cumulative 
loads attributable to the EAA have been reduced by 44 percent. The 
Urban and Tributary Basins Program was developed to ensure that all 
basins discharging into, from or within the Everglades, other than 
those included in the EAA, meet state water quality standards. Costs 
associated with this program are not included in this report at this 
time as additional strategies, in the form of regulatory changes and 
construction, are still being developed.
    Generally, the STAs and farm Best Management Practices are expected 
to reduce overall phosphorus levels to 50 parts per billion (ppb), thus 
improving water quality from EAA discharges and other sources compared 
to current levels. However, the Everglades Forever Act requires the 
state to adopt a numeric criterion for phosphorus by 2003 so that all 
discharges into the Everglades will meet Federal and state water 
quality standards by 2006. If the state does not adopt a numeric 
criterion, the Everglades Forever Act sets a default standard of 10 
ppb. It appears that additional measures will likely be needed to 
further enhance the performance of the STAs to meet these requirements; 
however, the costs to make such modifications are not known at this 
time The South Florida Water Management District is presently 
conducting research into advanced treatment technologies to enhance the 
performance of the STAs, and also are potentially applied to other 
tributaries of the Everglades. Although funding for the implementation 
of advanced treatment has not been appropriated, to date $10 million 
has been budgeted by the South Florida Water Management District toward 
that research. Once completed, these efforts are expected to 
significantly improve water quality for the region.
    As part of the effort to improve water quality in Lake Okeechobee, 
the South Florida Water Management District is conducting the Lake 
Okeechobee Sediment Removal Feasibility Study. The purpose of the study 
is to identify a feasible method of removing sediment that will reduce 
the internal phosphorus loading and balance the lake's nutrient 
assimilative capacity. Costs to implement this program are not known at 
this time.
    In addition to these measures, and in recognition of the critical 
role of water quality in maintaining coral reef natural resources, the 
Florida Keys National Marine Sanctuary and Protection Act of 1990 
required the Secretary of Commerce, the Environmental Protection 
Agency, and the State of Florida to develop a Water Quality Protection 
Program for the Sanctuary.
    Restoring more natural hydropatterns: More natural hydropatterns 
are presently being restored in Everglades National Park and the 
Kissimmee River Basin. In 1989, Congress enacted the Everglades 
National Park Protection and Expansion Act (Act) to expand Everglades 
National Park and to restore more natural sheet water flows to the park 
and Shark River Slough. To restore more natural sheet water flows to 
the park, the Act authorized the construction of the Modified Water 
Deliveries Project. That project is 100 percent federally funded by the 
Department of the Interior and is presently scheduled for completion in 
2003, depending upon the availability of Federal funding and completion 
of ongoing planning. The estimated total cost for this project is 
between $133.5 million and $212 million. The range of costs is based 
upon alternative design scenarios for certain project features that are 
presently undergoing supplemental National Environmental Policy Act 
(NEPA) compliance. The project is undergoing supplemental PAPA 
compliance because: (i) the original project authorization was amended 
in 1994, and (ii) completion of both the C-111 project design and the 
Comprehensive Everglades Restoration Plan expanded agency knowledge 
that raised questions concerning the original 1992 design for the 8.5 
Square Mile Area flood mitigation component of the Modified Water 
Deliveries Project. This led to technical disagreements among the 
relevant agencies and stakeholders over the appropriate course of 
action and alternatives are being explored under the NEPA process. If a 
locally preferred option for the 8.5 Square Mile Area component of this 
project is chosen the project will be cost-shared between the Federal 
Government and the South Florida Water Management District. For the 
purposes of this report, a range of costs is presented for this 
project, although this does not indicate a decision by the Federal 
Government or the South Florida Water Management District to proceed 
with any of the alternatives presently being evaluated under NEPA.
    Authorized by Congress in 1992, the Kissimmee River Restoration 
project is intended to reverse the environmental devastation of earlier 
efforts to channel the once 103 mile free flowing river into a 56 mile 
canal, destroying nearly 43,000 acres of wetlands and important 
habitat. The project involves restoring about 40 square miles of the 
historic habitat in the Kissimmee river floodplain north of Lake 
Okeechobee, as well as restoring water-level fluctuations and seasonal 
discharges from Lakes Kissimmee and in the upper basin lakes. This 
project is estimated to cost approximately $18 million, is equally cost 
shared with the South Florida Water Management District, and is 
expected be complete in 2010.
    The C-111 project comprises modifications to the Central and 
Southern Florida Project to provide more natural hydrologic conditions 
in Taylor Slough and the panhandle of Everglades National Park and to 
minimize damaging flood releases to Barnes Sound and Manatee Bay. 
Restoring natural hydrologic conditions in Taylor Slough is integral to 
restoring fresh water flows to Florida Bay. The project was initially 
authorized by Congress in 1991 at a cost of $155 million, including 
land, and a completion date of 2001. Reauthorized by Congress in 1996, 
the Army Corps is directed to consider state water quality standards 
and incorporate the necessary features into the C-111 project 
implementation. The 1996 authorization states that all project costs, 
including land, are to be shared equally between the Army Corps and the 
South Florida Water Management District. A supplement to the 1994 C-111 
General Reevaluation Report will include actual land acquisition costs, 
a water quality strategy, redistribution of funding responsibilities 
and a revised, implementation timeline, all of which may result in a 
revised cost estimate.
    In addition to improving water quality, certain components of the 
Everglades Construction Project described above will restore more 
natural hydropatterns in the northern Everglades presently severed by 
the Central and Southern Florida Project. The STA 1-E/C-51W Project 
will provide flood control for the western C-51 basin and will restore 
a portion of the historic Everglades flows to Loxahatchee National 
Wildlife Refuge. The current project was reauthorized by Congress in 
1996; project construction is 15 percent cost shared with the South 
Florida Water Management District, with the District providing all 
lands, easements and rights-of-way, with the exception of those lands 
that are incorporated into STA 1-E, as discussed below, which is 100 
percent federally funded and for which the Department of the Interior 
provided $46 million, through a grant to the South Florida Water 
Management District, toward land acquisition costs. The Department has 
just learned that the costs to complete land acquisition for STA 1-E 
will be higher, but does not have a revised estimate at this time. It 
is estimated that the STA 1-E/C-51W project will cost $210 million when 
complete in 2003, although this number will change once final land 
acquisition costs are known.
    Land Acquisition: The Federal and state governments have expended 
significant funds to acquire and protect lands in the region. Land 
acquisition is a critical part of ecosystem restoration as acquired 
lands are needed to protect key Federal and state conservation areas, 
create and restore additional water storage capacity and recharge areas 
to help increase overall water supplies and restore natural hydrology, 
and for habitat protection and enhancement and for recreation. As 
described above, some lands are also used to improve overall water 
Quality (em. STAs).
    Significant actions taken to protect South Florida's natural 
resources since the establishment of Everglades National Park in 1947 
and its expansion in 1989 (together protecting 1.4 million acres of the 
remaining Everglades) include (i) Florida's 1972 Land Conservation Act, 
1981 Save Our Rivers Program, 1990 Preservation 2000 Act, and the 
Florida Forever Act that dedicate state funding for land acquisition at 
state parks and preserves in the ecosystem, (ii) the 1996 Federal 
Agriculture Improvement and Reform Act (Farm Bill) that provided the 
Department with $200 million for ecosystem restoration, including land 
acquisition; and (iii) numerous annual Interior Appropriations Acts 
that have funded land acquisition at parks and refuges in the region, 
as well as additional state land acquisition assistance funds. The 
state assistance funds provided by the Department of the Interior have, 
for the most part, been targeted toward acquisition of lands that 
create additional opportunities for water storage and are generally 
expected to be incorporated into a Comprehensive Plan project feature.
    Through these efforts, it is estimated that $1.6 billion has been 
spent to date (of which $1.6 billion is state funding and $0.5 billion 
is Federal) for the acquisition of 4.7 million acres. It is estimated 
that about 638,000 non-Federal acres remain to be acquired in South 
Florida at an estimated cost of $2.2 billion. These figures do not 
include the 220,000 acres of lands needed for the Comprehensive Plan 
implementation, which are included in the overall cost estimate for the 
Comprehensive Plan.
    Critical Restoration Projects: Pursuant to the Water Resources 
Development Act of 1996, the Army Corps and the South Florida Water 
Management District have entered into agreements to undertake nine 
critical restoration projects that will provide immediate and 
substantial benefits for the ecosystem. The Corps and the Seminole 
Tribe have entered into a similar agreement for one critical project. 
The ten projects have a total cost of $150 million, half of which will 
be paid for by the Federal Government. These projects, although small 
and including such features as improving flows under the Tamiami Trail, 
have immediate environmental benefits that will assist in achieving the 
goals of the restoration.
    Exotic Species Control: Commensurate with land acquisition is 
proper land management and efforts to eradicate and prevent the spread 
of invasive exotic plant species. More than 200 species of exotic plant 
species have invaded the Everglades. The majority of these species 
occur in limited areas, and do not pose a direct threat to native plant 
communities. However, plants like melaleuca, Brazilian pepper, 
Australian pine, and Old World climbing fern, are causing widespread 
damage throughout the South Florida ecosystem, and are considered 
species of primary concern. The South Florida Water Management 
District, state, and Federal Government are all directing resources to 
combat this problem. While areal coverage for some species will 
decrease with vigilant management efforts--which has been the case with 
melaleuca--new species could invade without additional management 
initiatives. The history of this problem indicates that management 
efforts will only intensify with time and should be considered a 
perpetual management requirement in the Everglades region.
IV. Proposed Future Everglades Restoration Efforts
    Despite the on-going efforts described above, it is widely 
recognized that full restoration of the South Florida would require an 
overhaul of the 1948 Central and Southern Florida Project To this end, 
in the 1992 and 1996 Water Resources Development Acts. Congress 
directed the Army Corps of Engineers to conduct a comprehensive review 
study (now known as the Comprehensive Plan) of the entire project with 
a focus on making changes that would restore, preserve and protect the 
environment while also providing clean and adequate fresh water 
supplies and flood protection to communities. Completion of the 
Comprehensive Plan was an interagency and intergovernmental effort 
consisting of an inclusive and open process with opportunity for input 
from all stakeholders.
    The Comprehensive Plan was submitted to Congress on July 1, 1999. 
Comprised of over 60 structural and operational elements, the 
Comprehensive Plan proposes a conceptual framework to store water for 
critical uses; manage water to improve the quality, quantity, timing 
and distribution of flows to the Everglades; improve wildlife habitat; 
and create wetlands to filter runoff. The estimated non-recurring 
capital cost, including real estate acquisition and construction of 
project features, for the Comprehensive Plan is $7.8 billion, of which 
50 percent is proposed to be provided by the state, with the remainder 
provided by the Federal Government Operating costs, or those costs that 
recur on an annual basis, are estimated at $172 million per year at 
full build out and are not included in the total cost estimate as they 
resemble agency mission costs that were excluded for other programs. 
The Administration shortly expects to submit its authorization proposal 
for an initial suite of projects to implement the Comprehensive Plan. 
It is expected that the Comprehensive Plan will take more than 20 years 
to complete, with the Army Corps of Engineers providing nearly all of 
the Federal funding. Its completion is integral to achieving two of the 
three goals of the restoration effort, discussed further below, and it 
is the single largest cost component of the restoration effort.
    Also in 1996, in an effort to encourage appropriate Federal and 
state agencies to work more closely together, the Congress established 
the South Florida Ecosystem Restoration Task Force (Task Force), 
chaired by the Secretary of the Interior, with the mandate to guide the 
restoration of the South Florida ecosystem. To this end, the Task Force 
established three goals: (1) getting the water right: that is, to 
restore a more natural water flow to the region while providing 
adequate water supplies, water quality and flood control; (2) restore 
and enhance the natural system, protecting natural habitats and 
reestablishing threatened and endangered species; and (3) transform the 
built environment to develop lifestyles and economies that do not 
degrade the natural environment and improve the quality of life in 
urban areas.
    The Task Force is presently developing a Strategic Plan, to be 
submitted to Congress by July 31, 2000, that will integrate on-going 
efforts with future proposed actions like the Comprehensive Plan. The 
Strategic Plan will outline how the overall restoration of the South 
Florida ecosystem will occur, identify the resources needed to 
accomplish restoration objectives, assign accountability for 
accomplishing actions, and link the goals established by the Task Force 
to outcome-oriented goals. At this time, and based upon input from 
State of Florida stakeholders, the state is reviewing Goal 3, 
``transforming the built environment,'' including state proposals for 
managing growth. Because implementation of Goal 3 is largely viewed as 
a state responsibility and the State of Florida is considering how to 
address this issue, the Department is including only estimated Federal 
costs in support of the present goal. The Department expects that the 
completion of the Strategic Plan will result in an improved ability to 
report on costs to implement this goal.
V. Estimated Total Costs for the Restoration of the South Florida 
        Ecosystem
    This section presents the Department's best estimate for the total 
costs for South Florida ecosystem restoration. As noted earlier, these 
costs are comprised of: (1) major on-going programs; and (2) future 
planned activities that may change, based uponsite specific designs and 
new information, or may require future Federal and/or state legislative 
authorization.
    Finally, this report may not have captured all of the costs that 
could be categorized by some as meeting the goals of Everglades 
restoration. A sustainable environment will also need a diverse and 
balanced economy. The regional economy should continue to support 
traditional industries such as agriculture, tourism, development, 
fishing and manufacturing. It must ensure that these resource-dependent 
industries are compatible with restoration goals and will maintain or 
enhance the quality of life in built areas. It is difficult to quantify 
the costs of responsible development that would include such 
characteristics as redeveloping declining urban areas, roads, 
utilities, services, and light rail, to name a few.
    Managing growth and development problems cannot be solved by each 
local government acting alone. Roads do not stop at city and county 
boundaries. Our major natural resources and ecosystems frequently 
encompass parts of many local jurisdictions. A decision by one local 
government to construct a major public facility or permit private 
development can have a significant impact on an entire region, and the 
collective decisions of all local governments affect the entire state.
    Among its recommendations to Congress in July 1999, the 
Comprehensive Plan recommended a feasibility study to identify the 
dominant water and environmental resource issues in southwest Florida 
in view of robust population growth in the region and to develop 
potential solutions to any problems that may be identified. The 
Southwest Florida Study is being conducted by the Army Corps and the 
South Florida Water Management District. The study area includes all of 
Lee County, most of Collier and Hendry Counties, and portions of 
Charlotte, Glades and Monroe Counties. It encompasses approximately 
4.300 square miles and includes two major drainage basins. It is likely 
that this feasibility study could recommend programs and costs that 
would support any of the goals of the restoration effort. At this time, 
however, no costs are included as they are not yet known.
    In accordance with the Committee's direction, the Department 
expects to provide updates of this information on at least a biennial 
basis, or more frequently should it be desired, so that all parties 
involved are aware of the significant Federal, state and local 
investments that are being made In this important effort. Following are 
estimated total costs, arranged according to the ecosystem restoration 
goals:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    It points out that the $7.8 billion figure that we are 
talking about is the cost to complete the plan, which the Corps 
of Engineers has submitted.
    There are other costs that will be incurred by the Federal 
Government in the Everglades, whether we decided to go forward 
with this plan or not. We are operating a major national park 
in the midst of the Everglades. And there will be costs 
associated with that, that are unrelated to the restoration.
    It is those costs and other similar items that were added 
to the $7.8 billion, in order to arrive at the larger number 
that was suggested. I think the letter that I will submit will 
detail how those numbers were arrived at.
    In the testimony that the Governor gave on panel one, I 
thought he did an outstanding job of elaborating, as you have 
just done, Mr. Chairman, the theory behind what we are doing.
    I would only seek to add one item. And that is that we are 
about to embark on the largest environment restoration, 
certainly in the history of this country, and probably in the 
history of the world. It is not, by any means, the last major 
environmental restoration which this country will undertake.
    So part of the rationale for what we are doing and part of 
the rationale for some of the techniques that are going to be 
suggested is that this is a learning process which will be 
looked to as a laboratory for other restoration projects that 
America will be doing in the 21st century.
    I think that is an important part of the rationale for what 
we are doing, and an explanation for some of the techniques 
that are being used. We are going to learn more about the 
science of unique environmental systems, and we are going to 
learn more about the public administration for how to go about 
the governance and the financing and administration of these 
projects, as we go forward, and there will be great benefit 
from that.
    Mr. Chairman, as we start these hearings, again, I want to 
thank you for the tremendous personal commitment that you have 
made to understanding this complicated initiative and the 
leadership which you just indicated that you intend to provide.
    Senator Smith. Thank you, Senator Graham.
    Senator Voinovich?
    Senator Voinovich. Thank you. It is interesting that the 
three of us were together in Florida. And it is almost a repeat 
of the visit that we had there. I, too, am pleased that so many 
people from Florida came here today for this hearing.
    Mr. Chairman, as you know, I am no stranger to the 
Everglades. When I was Governor of Ohio, in response to my 
interest in the Everglades and thanks to the courtesy of the 
Florida Fish and Wildlife Conversation Commission, I spent a 
day and a half observing the environmentally impacted area of 
the Everglades by helicopter and by airboat.
    In addition, my wife, Janet, and I have made many visits to 
Florida, including trips to the Locks Hatchery National 
Wildlife Refuge in Everglades National Park. I enjoyed fishing 
in the Florida Bay and fishing for snook in the Everglades.
    This past January, as I mentioned, we were all together in 
Florida, and had a wonderful opportunity to again see the 
Everglades and the problems that are connected with it.
    I mentioned all of this to emphasize that I have invested a 
lot of time in the Everglades and, in particular, the 
Comprehensive Restoration Plan, and intend to continue to do 
so. I am unequivocally committed to the fact that the 
Everglades are a national treasure that must be protected and 
restored.
    Having said that, my detailed review of the comprehensive 
plan has also convinced me that the Everglades Comprehensive 
Restoration Plan was rushed to this Congress for its 
consideration.
    At a cost of $1.1 billion, the plans for the 10 initial 
projects that Congress has been asked to authorize are only 
conceptual, and do not even begin to meet the standards that 
this Congress has set for project authorizations. I think 
Senator Warner, in his testimony this morning, made reference 
to the word ``act'' and the specificity that is required in 
terms of projects that this committee authorizes.
    There are some who will say that the Administration is only 
responding to what Congress requested, back in 1996, when it 
called for a comprehensive plan by July 1, 1999. However, the 
clear words of the 1996 act call for a feasibility report.
    Feasibility studies have not been completed on any portion 
of the comprehensive plan, and yet the Administration is 
seeking a $1.1 billion authorization, based on a conceptual 
plan that does not contain any meaningful level of details 
regarding costs, benefits, environmental analysis, design, 
engineering, or real estate.
    To authorize projects without this information would be a 
radical departure from the past oversight of the Corps. program 
by this committee, and would make it very difficult to enforce 
the historic standards of this committee for authorization of 
Corps. projects in future Water Resource Development Acts.
    This does not mean that we can not act on the Everglades 
Comprehensive Plan. I think we can and should act to advance 
the critical national issue of Everglades restoration.
    We can certainly endorse the comprehensive plan as a 
framework and guide for future action. We can authorize pilot 
projects to obtain the information we need to move forward.
    I am sure that under Chairman Smith's leadership, we can 
agree on some process that will advance the authorization of 
the initial projects, while assuring that Congress has an 
opportunity to review and approve feasibility level reports on 
these projects before they are implemented.
    Mr. Chairman, in addition to my service on the Environment 
and Public Works Committee, I also serve on the Government 
Affairs Committee, where we are concerned about the issues of 
Government efficiency, effectiveness, and coordinated activity.
    I can not leave the topic of the Everglades restoration 
without one observation. Homestead Air Force Base is located 
only eight miles from the Everglades National Park, one and-a-
half miles from Biscayne Bay, and just north of the Florida 
Keys National Marine Sanctuary.
    The Air Force is seeking to transfer property at Homestead 
Air Force Base, in accordance with the recommendations of the 
Base Realignment and Closure Commission. The Air Force has 
prepared a draft supplemental environmental impact statement 
that presents as a proposed action the reuse of the air base as 
a regional commercial airport.
    I am very concerned that the noise, air quality impacts, 
water quality impacts, and developmental pressures of 
commercial airport operations may not be compatible with the 
adjacent national parks and sanctuary.
    I believe it would be irresponsible for Federal Government 
to improve an investment of billions of dollars in restoration 
to the South Florida ecosystem, while at the same time 
approving a reuse plan for Homestead Air Force Base that is 
incompatible with such restoration objectives.
    I urge the Administration to pursue consistent objectives 
in South Florida's restoration, and assure that the actions of 
the Air Force and Federal Aviation Administration are 
coordinated with the Federal, State, tribal, and local agencies 
in groups making up the South Florida ecosystem restoration 
task force.
    Finally, I would like to touch on the Everglades 
restoration in the context of the total nationwide program of 
the Corps of Engineers. I mentioned earlier that we can not 
talk about the Everglades in a vacuum. We do have an enormous 
backlog, $30 billion worth of projects. The backlog includes 
$1.1 billion in Florida. And as I mentioned, the President's 
budget only includes $176 million for this project.
    The point I want to make, and I will make it very quickly, 
Mr. Chairman, is we have to be realistic about what we can or 
can not do.
    If we are going to be supportive of this project and other 
projects that are so important to the future of this Nation, 
then as a Congress, we need to reevaluate our priorities here, 
and do something about this $30 billion backlog. So the people 
that are here, the people that are anticipating that something 
is going to happen, know that it will occur; that the money 
will be there.
    If we do not do that, and we continue to provide $1.4 
billion every year, then it seems to me that we ought to look 
at what the Administration is proposing and say to the people 
in Florida, this is an important project, go forward with it, 
and work out some other kind of arrangement where they can be 
compensated for the Federal share, and get it over a period of 
time; but allow this project to move forward.
    Now that is going to be an enormous thing for this Congress 
to do, because traditionally, you move forward, based on the 
amount of money that is made available to you in the 
authorization bill.
    So this is something that, I think, Mr. Chairman, we need 
to talk about. It would be rather difficult, I think, to get it 
done, but it might be something that we ought to give 
consideration to. Thank you.
    Senator Smith. Thank you.
    Senator Chafee, do you have an opening statement?

           OPENING STATEMENT OF HON. LINCOLN CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. I would just like to thank the Chairman for 
convening the hearing, and your interest in the subject, your 
passion for it, and for former Governor and now Senator Graham, 
your leadership through the many years to restore the 
Everglades. And I look forward to the testimony.
    Senator Smith. Let me thank both witnesses for being here. 
Let me say, first of all, and it will apply to the remaining 
panels, as well, that all of your prepared statements, as you 
know, will be submitted for the record.
    Again, I want to repeat that as you can tell from the 
comments made here, we are far from being totally in accord on 
the project itself on the details. But, today, your testimony 
will be able to address the Administration's plan. This is a 
plan that has evolved, frankly. You can go all the way back to 
WRDA in 1996.
    It started with the Restudy in April 1999, and that was a 
consensus document. It then moved forward to the Chief's 
Report, which took some of the consensus and set it aside, and 
made changes that are not supported by all the parties.
    Then you have the current proposal, the WRDA proposal. New 
processes and roles are detailed for implementing the study, 
with an expanded role for the Department of the Interior.
    So each of you has 5 minutes to testify. And I would just 
encourage you to leave an impression with the committee on two 
issues: what do you like about the plan, and what do you not 
like about it? What specifically are you telling us that is 
just not acceptable to you and why? And if you can leave us 
with that, that would be very, very helpful as we deliberate on 
putting this together.
    So let me start with you, Ms. Power, welcome. I know you 
represent the Seminole Tribe, and we are glad to have you here.

  STATEMENT OF MS. PATRICIA POWER, ON BEHALF OF THE SEMINOLE 
                        TRIBE OF FLORIDA

    Ms. Power. Thank you. Good morning. My name is Patty Power. 
And it is an honor for me to be here today to talk with you on 
behalf of the Seminole Tribe of Florida. A previously scheduled 
tribal counsel meeting prevents both Chairman James Billy and 
Joint Counsel Jim Shore from being here with you this morning. 
The Seminole Tribe welcomes this opportunity to share its views 
on S. 2437 with the Environment and Public Works Committee.
    As you know, we participated in the committee's Naples 
field hearing on the Comprehensive Everglades Restoration Plan 
or CERP. While the Tribe is a strong supporter of the CERP, we 
oppose the approach proposed by the Administration, as embodied 
in 2437.
    The Seminole Tribe of Florida has been an active 
participant in the multi-faceted efforts to restore the South 
Florida ecosystem. As such, we have seen the value of our 
participation to the Tribe in being able to educate 
policymakers about the Tribe's concerns and needs.
    We have also found value in working with other stakeholders 
to formulate and refine policy positions. The Tribe applauds 
the committee's approach in developing its legislation by 
listening to the input of stakeholders in Florida, as well as 
the Federal policymakers.
    A program developed through consensus will earn the support 
of South Florida, and have an improved prospect for a 
successful restoration of the natural system and stability in 
flood control and water supply for South Floridians.
    The Tribe's great concern about Section 3 of S. 2437 is 
that it lacks the balance necessary for successful 
implementation. The environmental crisis in South Florida was 
brought about by the Central and Southern Florida project so 
efficiently achieving its congressionally mandated goals of 
providing flood protection and water supply to the farms and 
families of Florida, without fully appreciating the resulting 
impacts on the natural system.
    As the damage to the natural environment became evident, 
all entities began to recognize the interdependence of the 
natural system and the built environment.
    Congress, in directing the Corps of Engineers to complete 
the comprehensive plan, described the plan's purposes as 
protecting water quality and reducing loss of fresh water from 
the Everglades.
    Congress also noted in WRDA 1996 that the comprehensive 
plan ``provide for the water-related needs of the region, 
including flood control, the enhancement of water supplies, and 
other objectives served by the Central and Southern Florida 
project.''
    The Restudy, as developed with input from a wide array of 
stakeholders, recognized the importance of addressing the water 
needs in a balanced approach. Section 3 of S. 2437 abandoned 
the balanced approach and reverts to the myopic direction of 
the half century old project authorization by stating that the 
purpose of the CERP and the historic Central and Southern 
Florida project is solely for the protection of the natural 
system.
    We urge the committee to take a balanced approach to 
Section 3 by providing protection to the natural systems, the 
people, and the agricultural communities that share the South 
Florida ecosystem.
    The Tribe also has serious concerns about Section 3(i), 
regarding assuring of project benefits. The Tribe's water law 
is based upon a water rights Compact, codified in tribal, 
State, and Federal law, the implementation of which is based on 
Florida State water law.
    The approach contemplated in Section 3(i), attempting to 
Federalize water allocation decisions, blatantly disregards the 
existing body of Florida water law. With Florida water laws 
thrown into disarray by this approach, the implementation of 
the Tribe's Water Compact is jeopardized.
    The Tribe has proposed an alternative approach to Section 
3(i), and the Tribe also supports the approach taken in the 
recently passed Florida Everglades legislation.
    Shared adversity is a guiding principle of the Tribe's 
approach to water rights, and a basis of the Water Rights 
Compact. Consistently, in commenting throughout the development 
of the Restudy, the Tribe supported the application of shared 
adversity.
    While S. 2437 acknowledges that the rights of the existing 
user should be preserved, S. 2437 does not define existing use. 
Limiting existing use to the water being used today fails to 
take into account long term, permanent rights to water that may 
not be presently used.
    In comments on the lower East Coast Regional Water Supply 
Plan, the National Park Service defined ``existing use'' as 
that amount of water being used on April 13, or the day the 
plan is to be adopted. That interpretation, we believe, would 
lead to a moratorium on water use, including capping the use of 
permitted, but not currently used water, as well as future 
water use.
    The Tribe's economic development has been such that the 
Tribe is not yet using all of its entitlement water. The 
inability to use its water rights would stunt the Tribe's 
economic development.
    We urge the committee to ensure that S. 2437 incorporates 
the concept of shared adversity, and clearly define the 
existing use to prevent a water use moratorium in South 
Florida.
    Thank you for the opportunity to share the views of the 
Seminole Tribe with the committee. While the Tribe is a strong 
supporter of the restoration of the South Florida ecosystem, we 
will continue to be vigilant in our review of its 
implementation.
    We look forward to a continued partnership on a government-
to-government basis, in meeting the challenging effort to save 
the Everglades.
    Senator Smith. Thank you very much, Ms. Power.
    Mr. Lehtinen, representing the Miccosukee Tribe, welcome, 
sir.

STATEMENT OF DEXTER LEHTINEN, ON BEHALF OF THE MICCOSUKEE TRIBE

    Mr. Lehtinen. Thank you. I am General Counsel for the 
Miccosukee Tribe. I serve on the Governor's Commission and the 
South Florida Task Force as former State Representative/State 
Senator and United States Attorney.
    The Miccosukee Indians are the only people who live within 
the Everglades, and have adopted federally approved Clean Water 
Act standards, which exceed all other standards. To understand 
our WRDA positions, you have to know that the Tribe believes 
that the Everglades restoration is in trouble, due to misplaced 
priorities, subordination of fundamental Democratic values, and 
Federal bureaucratic intransigents.
    There are two examples that suffice. First, the Central and 
Tribal Everglades is given second class status, despite 
specific legal protections and the fact that the Central 
Everglades is the largest remaining fresh water Everglades. It 
is a gross misconception, encouraged by the park, that the 
Everglades is the same as Everglades National Park.
    Second, the 1989 modified water delivery project is stalled 
by bureaucratic selfishness, causing destruction of the Central 
Everglades. Agencies spend their time trying to seize the homes 
of the politically weak minority residents, who were guaranteed 
protection in 1989.
    It is curious that the Tribe stands up for these minorities 
more than Government. Undoubtedly, that is because Indians who 
have been targets of land grabs themselves recognize it when 
they see it. If Government can take their land, then it can 
take the Tribe's land, and it can take your land, too.
    Specifically on WRDA, first, the bill would implement the 
July Chief's Report, rather than the April Restudy, which was 
the product of the consensus process. The Chief's Report makes 
new and contradictory commitments, behind closed doors, 
including the 245,000 additional acre fee, even though the 
Restudy specifically rejected this proposal known as D13R4, as 
destructive of other parts of the Everglades.
    This is an outstanding example of politicization by 
Washington's civil interference, with the process to bend to 
placate groups with which the Administration is close.
    The Administration denials of this ring hollow, in light of 
recent documents: for example, e-mails from Assistant Secretary 
Davis stating that, ``The Chief's Report captures the Restudy 
plan, plus the substantial subsequent commitments,'' and also 
cautioning, ``Please keep close hold, and do not distribute 
outside your agency.''
    There was a Corps' e-mail that said, ``We need to keep 
these groups on board,'' but it then goes on and says, ``We are 
uneasy about changing what is in the report.'' There was a DOI 
letter sent to the Corps stating, ``We appreciate the following 
additional commitments, additional water.'' And there was an e-
mail I just reviewed from the Corps that states that we want to 
include some of the commitments we made after the Restudy was 
completed, including additional water.
    Second, the bill gives the Interior Department a veto on 
water deliveries, essentially Federalizing water laws, the 
Seminoles say. DOI is one land owner among others, including 
the State, the tribes, and private citizens, and nobody should 
have a veto.
    Corps. policy processes can certainly protect Federal 
interests. And if the DOI does not trust the Corps. then why 
should the Miccosukee Tribe or the State or private citizens?
    Third, the proposal abandons the balance approach, giving 
the natural system, as the Seminoles mentioned, a higher 
priority. That is just plain wrong. It is not necessary. It 
destroys public support, and it breaks prior legal commitments.
    Even the April Restudy report says that flood control 
models were inadequate and that, ``For those areas that are 
expected to be adversely impacted, further studies are 
recommended.''
    Fourth, the proposal grants broad programmatic authority 
for no real reason, other than to avoid congressional scrutiny. 
While some programmatic authority in pilot projects might be 
appropriate, the other programmatic authority is excessive: 
$100 million for adaptive monitoring, with no actual plan; $250 
million for other program authority, when no projects specified 
at all. These are just cash cows.
    The Restudy admits to a ``high level of technical and 
implementable uncertainties.'' Besides flood control, erroneous 
assumptions of the natural system model are admitted in the 
Restudy. ``Discrepancies in topographic data,'' if consistent 
topographic assumptions were used, target depths would be 
shallower and less water would be needed. We just need to know 
these before we go forward.
    Fifth is a proposal on environmental justice. It should 
prohibit discrimination and disparate impacts on minorities. 
The League of United Latin American Citizens has already found 
minority discrimination in the modified waters project, where 
DOI is trying to forcibly remove more than 300 largely Hispanic 
residents.
    Let me just say what is not in WRDA in one sentence. It 
shortchanges tribal roles. The Tribe needs to be mentioned in 
all parts. It need to go forward and protect the entire 
Everglades with an equal protection clause for the whole 
Everglades. It needs to require implementation of mod. water 
deliveries. It needs to protect private property rights by 
continuing flood protection that is not reduced, and it needs 
to protect equal assurances.
    In conclusion, the Tribe does generally agree with the 
comments of Senator Voinovich in his letter to GAO. It 
generally agrees with the comments of Senator Warner, if we 
interpret those as being that he is committed, but just wants 
good feasibility reports. And we do, however, point out that 
you have got to save the entire Everglades and have equal 
balance. I would not endorse, perhaps, those other remarks of 
Senator Warner.
    In conclusion, what the Tribe really wants is fairness, 
nondiscrimination, and sound planning, and it does want quality 
control in Everglades restoration.
    Thank you.
    Senator Smith. Thank you very much, Mr. Lehtinen.
    Let me just suggest to the members, and there are only four 
of us here, I think we should feel free to interject a 
question, if we wish, and not necessarily have too rigid a rule 
here among members. So if you are so inclined to ask a question 
or followup any particular point, please feel free to do it.
    Senator Graham, did you wish to start? Do you have any 
questions?
    Senator Graham. I guess a baseline question, you both 
raised a series of concerns about the plan. There is the 
fundamental option that is available to us, which is not to 
proceed with the Restoration Plan. What would be the 
consequences to the parties that you represent of a Federal 
policy of non-restoration of the Everglades?
    Mr. Lehtinen. Well, we want the Everglades restored.
    Senator Graham. The question was, would you outline what 
would be the consequences to the parties that you represent of 
the Federal Government not participating in this restoration 
effort?
    Mr. Lehtinen. Well, I am assuming you mean ever 
participating, and not Senator Voinovich's comment that we 
could do something this year, and we can endorse restoration, 
but we do not have to do certain projects.
    If you are talking about it at the macro level, the problem 
today is that mod. water deliveries, which is not part of this 
plan, which was an 1989 act, if you do not implement that and 
other elements of the plan, you end up destroying, through 
water quality damage and through misdelivery of water, water 
conservation area 3(A), which is virtually as large a fresh 
water Everglades as the fresh water parts of the park, 
excluding things worth saving, the Florida Bay, which is salt 
water and the salt water estuaries, the transition zones.
    So Everglades restoration is important to the Tribe. I will 
say, however, that Everglades restoration has to be done right. 
If modified water deliveries, which are not part of this named 
Restoration Plan; it is a precursor, C1-11, and the quality 
aspects of the Everglades Forever Act up around the EAA, the 
Everglades construction project, would be implemented, it is 
important that these add-on projects in this plan not be done 
wrong.
    What the Tribe needs is restoration done right. But if it 
is done prematurely, and water is delivered incorrectly, you 
will do damage. In other words, I guess what I am saying is 
this. It is not simply the case that anything we do will help. 
We want this plan implemented, but we want it implemented 
slowly with feasibility reports. Because if it is implemented 
wrong, it will do more damage than we currently have.
    In summary, we need restoration because of water quality 
and because of misdeliveries. It is essential that Congress 
participate in this program, one way or the other. But we tend 
to believe that it does not require the macro programmatic 
authority that you could pass very substantial bills on this 
without that.
    Senator Smith. Do both of you still support the negotiated 
language in the April 1999 agreement?
    Ms. Power. Yes.
    Senator Smith. You do, Ms. Power?
    Do you, Mr. Lehtinen?
    Mr. Lehtinen. Yes, we generally support that.
    Ms. Power. Senator Graham, if I could address your 
question, I think the State and the tribal and local 
governments would continue with their projects to improve the 
environment in the Everglades.
    However, if the Federal Government does not step up to its 
role, it will slow the whole process down, possibly to the 
point of causing irreversible damage.
    Mr. Lehtinen. Could I add, Senator Smith, one thing about 
the April report, we support that report. We still support that 
report strongly.
    We were always told, however, that certain editorial 
comments in the report about how this would be implemented were 
going to be up to Congress, meaning we wanted the components of 
the April report, and so forth. But we never intended to 
endorse any editorial comments that said, we will go and get 
programmatic authority.
    We are very afraid of this adaptive programmatic 
management, which really means that you can do whatever you 
want, mess it up, come back and say, well, that is all right, 
because we did not have a plan. That is why we endorse April 
1999, but we think it requires the planning of each of those 
components, rather than very, very broad programmatic 
approaches.
    Senator Voinovich. Mr. Chairman?
    Senator Smith. Sure, go ahead.
    Senator Voinovich. Mr. Lehtinen, on April 6, is that what 
you are talking about, the Corps of Engineers general 
reevaluation report and environmental impact statement on 
alternatives for providing flood mitigation to the 8.5 square 
mile area, in conjunction with implementing the modified water 
deliveries project. Is that what you are referencing to?
    Mr. Lehtinen. No, I am referring to the April 1999 Restudy, 
seven or eight volumes.
    Senator Voinovich. The question that I have got is in 
regard to the testimony, that the modified water deliveries 
project is essential to the Everglades restoration. And I guess 
that has been mired in controversy.
    As you mentioned in your testimony, the modified water 
delivery project is essential to the Miccosukee's interest in 
Central Everglades restoration. Besides the authorized general 
design memorandum plan for flood mitigation, which is opposed 
by the Department of Interior environmentalists, is there any 
plan which at least partially would address the concern of 
property owners and be acceptable to the Department of Interior 
and the environmental interests? Is there any way that this can 
be worked out?
    Mr. Lehtinen. I think the Department of Interior is using 
the mantle of restoration to achieve buffer zones in national 
parks around the county.
    I think the Department of Interior's goal, when the Corps 
of Engineers constantly says, in this 100 percent federally 
funded plan, that there is no substantial difference among any 
alternatives in the restoration of the slew, and they must have 
said that four times a week and a half ago, in their oral 
presentation, and they say it in their last EIS, I think the 
Department of Interior is just holding the money hostage. I do 
not think they have got an environmental reason.
    Now when Dante Fascell passed the bill, the Congressman, 
with the help of the Senate and President Bush, signed it, that 
added 107,000 acres to the park, and sought to protect a mere 
6,000 acres that were higher than Miami International Airport 
in ground elevation. Granted, if you now go in and condemn 
those people's land, you get 6,400 more acres, so that is the 
way they are analyzing it now. They agreed to the boundary line 
then, and now they want the boundary line changed.
    I do not know of any compromises that would make a whole 
lot of sense there, in that high ground area. The law was 
passed to protect 6,000 acres, in return for turning over 
107,000 acres to the park, and it is only mired in controversy 
in the Department of the Interior.
    Senator Voinovich. Ms. Power, do you have language that you 
think would deal with your problem, that you would like to have 
the committee recognize or receive?
    Ms. Power. We submitted language in our written testimony 
to address the assurances provisions in the bill. And our 
concerns with the approach taken by the Administration in 
Subsection I on assuring project benefits is that it would not 
result in a supportable balanced approach on water allocations.
    There are actually two different positions that the Tribe 
could support. The one that we outlined in our testimony would 
require the Task Force to prepare a report and recommendations 
to Congress, the Florida legislature, and both tribal counsels, 
to recommend policy decisions on how to allocate water that is 
created by the project features in the CERP. Those 
recommendations would then be acted on by each of the separate 
legislative bodies, and enacted into law.
    The other approach would be that taken in the recently 
passed State legislation, which would use the PIR process 
outlined in the Restudy to identify the increase in water 
created by the new project features, and then use the existing 
State Florida water law to determine how the allocation of that 
new water should be determined.
    Senator Voinovich. Would that take care of it, Mr. 
Lehtinen? Would you feel comfortable with what Ms. Power just 
made reference to?
    Mr. Lehtinen. I think the general approach, I mean, the 
devil is in the details in the writing of that. But we think 
that there are ways to protect everybody's interest that she 
has alluded to.
    Senator Voinovich. Well, what I have heard is that the 
Florida legislature tackled this, and came back with what you 
consider to be some reasonable language. And I suspect they are 
giving this a lot more attention than maybe we possibly could. 
And what I would like to know is that if we were able to adopt 
that language, would you be satisfied?
    Mr. Lehtinen. We generally support, as did the Seminoles, 
the Florida legislation.
    Ms. Power. The other benefit of using the Florida approach 
is that there would be consistency between the State and 
Federal law, which would avoid confusion in implementation and 
potential lawsuits, which would result in delays, as that law 
is interpreted.
    Senator Voinovich. Thank you. There is just one more 
question for me, and if you could both respond to this, on the 
assurances language.
    Are you opposed to the DOI/Army Corps. issuing regulations, 
based on the violation of a tribal water compact only, or do 
you have other objections to this, in terms of the reach of the 
Federal Government into the regulations? Could you clarify that 
for us, as to what your position is on that?
    Ms. Power. Clearly, our concerns are over the strength of 
the Compact, which has been in place for 13 years, and 
functioning without any issues. That would be our primary 
concern, although we would have general concerns about 
Federalizing water allocation decisions in Florida, whether it 
be the Corps. doing it or Interior and the Corps.
    Senator Voinovich. Is that your position, Mr. Lehtinen?
    Mr. Lehtinen. Well, the Miccosukees do not have a Water 
Compact. They rejected it because of elements that they were 
opposed to.
    Our position is that the Department of the Interior and 
national parks, as important as they are, are not more 
important than Federal trust tribal land. They are not more 
important than State land. And in all honesty, in this country, 
they are not more important than private property of private 
landowners.
    This is not the kind of country that says, if the Fed. 
holds title to a piece of property, that that is supposed to 
somehow, under our 14th Amendment, Equal Protection Clause, be 
greater of property value than the other landowners.
    What we believe is that you can protect everybody's rights, 
and should protect everybody's rights. But if you give the 
Department of Interior a veto, then what you do is, in terms of 
systems analysis and theory, you simply remove any duty or any 
motivation to make the water right for everybody by saying, 
well, we are supposed to try to make it right for everybody. 
But if we satisfy one interest, that is enough. You have to 
have a goal in terms of satisfying all needs, or else you 
immediately subordinate and disregard the other goal.
    Now Interior, they are important, but they are a landowner. 
And as a landowner, they will act strictly with regard to their 
land, and they should. We should be happy, because Federal 
Indian trust land is supposed to be guarded by Interior. But if 
you talk to probably 500 tribes, and you are not going to find 
that Interior pays much attention to Federal Indian trust land.
    Interestingly enough right here, it is Federal Indian trust 
land, 500,000 acres of Federal Indian Country, that is historic 
fresh water Everglades. The Marjorie Stoleman Douglas is equal 
in size to the park.
    Their whole program is to save the 500,000 of fresh water 
acres in the park, and the tribal fresh water Everglades can go 
to pot. So we do not trust any process that gives one landowner 
a veto, no matter what id card they carry. Now we do not want 
the State to have a veto, or the Tribe. But we think the Corps 
of Engineers should issue regulations, taking input from 
everybody.
    So it is not just tribal water compacts or anything like. 
It is really a fundamental principle of equality among all 
citizens of the United States, including Indian citizens.
    Senator Smith. Does anyone else have a further question of 
this panel?
    [No response.]
    Senator Smith. I might just ask you to just recap for me, 
two or three points.
    One, what are the two issues that you object to most, from 
the transition or the evolution from the April 1999 agreement 
to where we are today, with what we are hearing, and what we 
are debating this morning.
    Mr. Lehtinen. The two most in the Chief's Report?
    Senator Smith. Right.
    Mr. Lehtinen. That is risky, but it is a 245,000 additional 
acre feet that is not properly studied, and will actually do 
positive damage to most of the Everglades, especially when the 
NSM topographic data is admitted in the same report to be 
inadequate.
    Senator Smith. OK.
    Mr. Lehtinen. No. 2, it is the reduction of water supply 
and flood control to ``as is practicable.'' And in that 
context, you can solve both of these with specific language in 
a bill, but it also illustrates why a broad programmatic system 
is subject to abuse, even by good people.
    Most of the people who legitimized this process in the 
Chief's Report did so out of good faith efforts. And perhaps 
they would not be serving their client's interests if they had 
not taken advantage of their special inside clout.
    If there was a different Administration and I had the 
clout, I ought not be able to use it in that fashion, either. 
We need a neutral process.
    Senator Smith. Thank you.
    Ms. Power, do you agree with those two top points?
    Ms. Power. I do not think those would be the ones that I 
would select.
    The first one would be, as I spoke about earlier, restoring 
the balance to protection to the natural systems, the people, 
and the agricultural communities. And the second would be to 
create a better approach to assuring project benefits.
    Senator Smith. I am sorry, would you repeat that last one.
    Ms. Power. To create a different and better approach to 
assuring projects, and also to restore balance in that area.
    Senator Smith. Thank you very much. I appreciate you both 
being here today. I know you traveled a long distance, and I 
thank you for that.
    We are in the Senate, and we have another recorded vote. So 
I apologize to the next witness of panel three, but we will 
take a 5 or 10 minute break, just so I can run down and vote. I 
will be right back. So we will recess for 10 minutes.
    [Recess.]
    Senator Smith. The hearing will come to order, please.
    I am pleased to welcome Captain Mike Collins, the chairman 
of the South Florida Water Management District. It is nice to 
see you again, Captain Collins.
    Captain Collins. It is a pleasure, also.
    Senator Smith. I liked that term ``Captain'' when it 
applies to a fishing vessel. That is my kind of captain.
    Let me say the same thing I said before. I would like you 
to outline for, after your remarks or in your remarks, which 
are made a part of the permanent record, whatever views you 
have on the plan, as it has evolved, as to where you support it 
and where you do not; or, if you support it all, then so 
indicate.
    I have read through your testimony. And that will be made a 
part of the permanent record. I apologize for the delay. You 
may proceed.

  STATEMENT OF CAPTAIN MIKE COLLINS, CHAIRMAN, SOUTH FLORIDA 
                   WATER MANAGEMENT DISTRICT

    Captain Collins. Mr. Chairman, thank you; it is a pleasure 
to be here. And it is a pleasure to hear your continued support 
for our ambitious program to save the Everglades.
    I am going to skip the remarks about the history. You have 
heard all of that. And I want to just sort of point out that 
the process that we entered into, on the Governor's Commission 
and on the Federal Task Force was to develop a comprehensive 
plan to reserve, preserve, and protect the ecosystem.
    Under Congress' direction, that plan was supposed to 
include features necessary to provide for all the water-related 
needs of the region, including flood control, enhancement of 
water supplies, and other objectives.
    We are never going to be able to protect the natural system 
if we do not deal with the issues related to other competition 
for that system.
    The plan submitted to you in July 1999 is that plan. Is it 
comprehensive to answer all the problems? No, it is 
comprehensive because it was developed by a consensus process 
among all the competition users, and in recognition of the 
interconnectedness that we all have in that system.
    Overlying the dynamic of the interest with scientific 
complexities associated with getting the water right, you begin 
to understand how hard it was to build that consensus. As a 
member of the Governor's Commission that works hard on 
developing that consensus, I still stand behind that original 
plan.
    As the head of an agency who will serve as the local 
sponsor for the State's portion of that plan, I can tell you 
that the Agency still stands behind that Plan.
    We believe very strongly that attempts to alter, after that 
deal was cut, any significant portion of that dynamic balance 
stands a very serious risk of destroying the support that we 
have been able to build, and that the Governor has provided the 
leadership to move through our legislature. That support is 
still unanimous.
    I can not address the issues that may exist for the sugar 
industry. I can only tell you one thing. I share your concern. 
And I have an agreement that I struck with Stewart Strall, who 
is the President of the Florida Autobahn, who is also a member 
of the Governor's Commission; and Malcolm Wade, who is 
Executive Vice President under U.S. Sugar, and myself, to go to 
the editorial boards of the South Florida newspapers, within 
the next 2 weeks, to reiterate our support for that plan.
    In their support, they have raised issues at various times. 
They did it in the Governor's Commission. But I think, like 
you, it is important now that the people who struck those deals 
originally stand up and stand behind the plan that has been 
submitted to Congress, so that at least you know where we 
stand. And I am going to try to help you with that.
    The South Florida Management District still supports this 
plan and the process that we used for developing this. It is 
the best opportunity for solving the regions' environmental and 
water resource problems.
    We believe this plan provides a successful road map for 
providing adequate water, for a healthy sustainable Everglades 
system, as well as maintaining urban and agricultural use.
    Is it perfect? No, it is not perfect. The adaptive and 
controversial adaptive management section of this is an 
admission that over the 20 year period of this, we do not know 
enough to know exactly what is going to happen. Is it a solid 
enough framework for us to proceed? Yes, I believe it is.
    In April, I submitted some testimony that sort of touched 
on our desire for the cost of operating and maintaining the 
comprehensive plan to be shared by the Federal Government. The 
Administration's bill calls for a 60/40 split. I urge you to 
stick to the 50/50 that we originally discussed.
    You can invent all sorts of formulas that allocate certain 
portions of the water to the Federal side or the State side. I 
think all you are doing is setting the ground for future 
arguments. The basic thing that I believe in the strongest is 
that we are partners.
    If we are going to be successful partners, 50/50 is the 
only way that is really going to work. It should be just as 
true of the O&M, as it is of the plan and the funding for that 
portion of it, too.
    I think it eliminates the possibility for a whole lot of 
future arguments, based on shifts in whatever formula we may 
try to draw up. It just makes sense to me.
    And, again, just in closing, I would like to State that we 
have provided, I believe, evidence that we have the expertise. 
We have been the partners of the Federal Government, and the 
agency I represent, for 50 years. Whatever mistakes were made, 
we have made in concert. The effort to improve this, we have 
made in concert.
    I believe we have demonstrated our commitment, in terms of 
funding. And I believe that the Governor of Florida showing up 
here, and then the remarks he made, reiterated every forum 
where he has been presented the opportunity to provide his 
leadership on this issue.
    I would urge you very strongly to continue to support this, 
and pass a bill that gets this moving.
    Thank you.
    Senator Smith. Thank very much, Captain Collins. I 
appreciate it. You indicated in your statement that the plan 
submitted to you in July, 1999, was comprehensive, but it does 
not provide all the answers to all the problems.
    Mr. Collins. No, sir.
    Senator Smith. And I think it is good to go back, and it 
was not sitting at the table, of course, but I think it is fair 
to say that in coming to that agreement, that people probably 
did not get everything they wanted, but it was viewed as a 
compromise plan; is that correct?
    Captain Collins. I do not know any one of the 43 or 44 
people that sat at that table on the Governor's Commission, or 
any of the people that I witnessed on the Federal Task Force 
that left with the impression that they had gotten every single 
thing they wanted.
    It is very hard to describe how many years we took in 
reaching that consensus. It was very difficult for people like 
the Florida Autobahn and U.S. Sugar, you know, to reach 
agreement. So it was very hard for fisherman, who had been 
fighting to save estuaries to reach agreement with Ag. people.
    It was a realization over a period of years, that if we 
were going to survive, we were going to have to do it together; 
that is if we were going to survive, we were going to have to 
recognize each other's needs. I believe that is in that plan.
    I also believe very strongly that it is in Florida water 
law. And to relate some of the comments that Senator Voinovich 
made, we believe that should be the foundation for whatever 
level of what is currently described as assurances takes place.
    I believe Florida water law, and particularly the minimum 
flows and levels section of that, provide better natural system 
assurances than anything that currently exists in Federal law.
    Senator Smith. Is there any one of any of the stakeholders 
that you are personally aware of, other than the obvious one, 
which is EPA or the Administration, whose plan is considerably 
different than the original plan?
    Captain Collins. Yes, sir.
    Senator Smith. Is there any other stakeholder that you are 
aware of who has taken a position now of moving away from the 
plan, as originally agreed to in 1999?
    Captain Collins. It depends on how you describe 
stakeholders. You know, we did not have every single individual 
at the table. We had representatives of agriculture. We had 
representatives of the environmental community.
    A lot of the background noise that I have had to deal with 
in my position, since the plan came out, has been from people 
who are representatives, perhaps of those communities, who were 
not at the table. You know, there were national environmental 
organizations that were not part of the consensus process, that 
have problems with it.
    I am not aware of people that were at the table that we sat 
at, when we drew it up. There has been a certain amount of 
slippage. The Chief's letter was tremendously destructive, in 
terms of trust. There were reasons why it was done. It was done 
in good faith. But I am going to tell you that I have spent a 
lot of time, and had to make a lot of public pronouncements 
because of the lack of trust that created.
    I think we can heal that. People have slipped a little bit, 
yes. I am going to start trying to pull some of the people that 
I worked with back together, and make them stand up in public 
and make some commitments.
    Senator Smith. You, very aggressively in your statement, 
support the 50/50 O&M, operation and management, split on the 
project. You are aware that this is contentious, because of the 
fact that normally the O&M portion is a non-Federal 
responsibility.
    What in your view makes this different than other water 
resources development projects in the past, where traditionally 
we have gone without the 50/50 split, but rather the total non-
Federal participation?
    Captain Collins. I think the 50/50 cost share and 
everything else creates a certain atmosphere. I think the fact 
that what we are dealing with here are massive Federal 
investments and massive State investments in a natural system 
creates an atmosphere that just sitting as the Chairman of the 
Water Management District, I can just tell you that right now, 
when issues come up, there is a certain amount of parochial 
latitude that these are State interests; these are Federal 
interests.
    You know, the law sort of keeps us on line as far as 
protecting both of them equally. Florida water law does.
    I think you set the stage, at least. And in doing this, and 
I have been at it for many years, when I leave, I want to have 
the feeling that we have not set the stage for future battles.
    There are going to be demands made by Federal family 
members, Department of Interior, in particular, on the 
operations of the system. I think it is basically only fair.
    I mean, there are going to be differences of opinion. You 
build a very weak foundation for some of them, if they are not 
paying any of the costs of operation and maintenance. Those are 
significant. They create, I think, just an atmosphere that will 
lead to disputes in the future.
    You build a better case for the idea. And also, like the 
Governor, I believe in an absolute sense that this needs to be 
a partnership to succeed.
    Senator Smith. Captain Collins, the South Florida Water 
Management District is expected, as I understand it, and 
correct me if I am wrong, to provide about $100 million from 
the State, and $100 million from the South Florida Water 
Management District.
    Can you tell me, at this point, what the plans are for 
coming up with that share, and where we are on that part?
    Captain Collins. Yes, that has been a lot of fun. We went 
back and did a basic probably not a zero line budget, but as 
close to it as any agency of our kind ever has.
    We have identified a significant portion of it. You know, 
how much of it, I can not really say until we get through the 
budget process.
    In the process, what we discovered was, there were a large 
number of local projects that are being done by the counties, 
and some of them with State money, that we were not really 
getting credit for, because they were not captured within that 
process. The State spent $78 million or something like that on 
those projects. A number of them are going to be caught up in 
that.
    It would be hard to say that we have got a full $100 
million, but we are very, very close right now. And we have a 
process that is ongoing, through our budget process, that we 
will do between now and September to identify the rest of it. I 
am pretty confident that we are going to get there.
    Senator Smith. I have just a couple more questions. When 
does your board intend to announce the preferred alternative 
for the modified waters project?
    Captain Collins. We will be voting at the next general 
board meeting which, I believe, is June 15. It is the second 
Thursday in June.
    Senator Smith. Do you expect a final decision there?
    Captain Collins. Yes.
    Senator Smith. Is there anything right now in the plan that 
we are now hearing on, the Administration plan, that is an 
absolute deal breaker for you? And you can hedge on that a 
little bit, if you want to.
    Captain Collins. I think if there is no role, I think if it 
continues to state that this will be Federal decisions on 
disputes, I think it will be very, very difficult for any 
governing board of the Water Management District to proceed on 
the investment of State taxpayers money without some kind of a 
guarantee that some role for those taxpayers would be 
guaranteed in disputes. I think that is a deal killer.
    Senator Smith. What about the Department of Interior 
portion on regulating the water?
    Captain Collins. Well, I am going to tell you that I went 
on record as having stated that the money that was encumbered 
with the last language that Congressman Regula submitted would 
prevent us from accepting that money. So I can not speak for 
the board.
    I can tell you personally that it is my opinion that if we 
had accepted it, it would have been very difficult for us to 
comply with Florida's constitution regarding the way we are 
supposed to balance water.
    You know, you are creating a whole new statutory world. We 
are used to being partners with the Army Corps of Engineers, 
and having to consult and consider the Department of Interior. 
I think we would be very hesitant to get ourselves in a 
position where the Department of Interior had veto authority 
over water supply for the people of South Florida.
    Senator Smith. Well, I want to thank you for coming again 
to testify, and adding to the testimony that you gave to us in 
South Florida a few months ago. We appreciate you coming.
    Captain Collins. Thank you, sir.
    Senator Smith. And we anticipate, as I said before, getting 
to the point where we can markup an Everglades restoration 
bill, hopefully within the next 30 or 40 days. It is a tough 
challenge, but if you guys could get together on a plan, we 
should be able to get together as a committee.
    I am going to leave the record open only until tomorrow 
afternoon at 5. Members had plenty of notice to be here. And so 
if they have questions that they want to submit for the record, 
we will close that out at 5 tomorrow for questions. So if any 
of the witnesses, yourself or any others, Captain Collins, get 
any questions, if you would just respond to them as quickly as 
possible, for the record.
    Captain Collins. We will do that. Thank you, sir.
    Senator Smith. Thank you.
    Let me just state for the benefit of those watching and 
listening that we will reconvene this hearing at 2 this 
afternoon.
    At that time, the panels will be the Honorable Joseph 
Westphal, the Assistant Secretary for the Army (Civil Works) 
U.S. Army Corps.; the Honorable Gary Guzy, General Counsel of 
the U.S. EPA; Ms. Mary Doyle, the Acting Assistant Secretary of 
the Office of Water and Science, and the Chair of the South 
Florida Ecosystem Restoration Task Force from the Department of 
Interior; Mr. Ken Keck, Director of Legislative and Regulatory 
Affairs, Florida Citrus Mutual; and Dr. David Guggenheim, 
President, the Conservancy of Southwest Florida, and the Co-
Chair of the Everglades Coalition.
    So we will start again at 2. The hearing is recessed.
    [Whereupon, at 12:04 p.m., the committee was recessed, to 
reconvene at 2:00 p.m. the same day.]


                         EVERGLADES RESTORATION

                              ----------                              


               THURSDAY, MAY 11, 2000--AFTERNOON SESSION

    The committee met, pursuant to notice, at 2:00 p.m. in room 
406, Senate Dirksen Building, Hon. Bob Smith (chairman of the 
committee) presiding.
    Senator Smith. The hearing will come to order. I welcome 
all of the witnesses. This is the second half of the hearing. 
And it actually kind of works a little better that way, to get 
a 2-hour break for lunch. It gives everybody a chance to catch 
their breath.
    I want to welcome the three panelists this morning: the 
Honorable Joseph Westphal, the Assistant Secretary of the Army 
for Civil Works, U.S. Army Corps of Engineers; the Honorable 
Gary Guzy, General Counsel of the United States Environmental 
Protection Agency; and Ms. Mary Doyle, the Acting Assistant 
Secretary of the Office of Water and Science, and the Chair of 
the South Florida Ecosystem Restoration Task Force from the 
Department of Interior.
    We are glad you are here. As you know, your statements are 
all part of the record formally. And if you could give an 
overview of those in 5 minutes or so, it would be appreciated.
    I just want to make a couple of comments regarding this 
morning, and try to bring it into focus a little bit, if we 
could. We heard from the Florida State and tribal governments 
this morning. And this afternoon, we kind of shift the focus to 
the Federal Government, to two important stakeholders, both the 
agricultural and the environmental community, as well as the 
Department of Interior.
    There were several criticisms that the morning witnesses 
raised about the Administration proposal, specifically, the 
proper role for the Department of Interior in managing the 
Restudy; concern about the additional commitments in the so-
called Chief's Report, that is, the additional 245,000 acre 
feet of water, that it might upset the balance achieved in the 
Restudy on how the water would be distributed.
    Also, there was concern that the initial authorization of 
10 projects prior to completion of the project implementation 
reports could be a concern, and the amount of Federal 
contribution to operations and maintenance.
    All these were raised by the first panel. And I think it 
would be good if in your oral testimony you could address 
those. I think it would be fair of the Administration witnesses 
here today to ask how the Administration's plan to restore the 
Everglades evolved and changed. I mean, I think this, as you 
could tell this morning, was a bit of a controversy, and I 
think it is something that we are going to have to come to 
grips with.
    First came the Restudy, and the April 1999 consensus 
document approved unanimously by the South Florida Task Force 
and the Governor's Commission. Then came the Chief's Report in 
July 1999 that made changes to the Restudy plan that are not 
supported by all the parties that agreed to that original 
Restudy.
    Now there is the WRDA proposal, the Water Resources 
Development Act proposal, which includes its Everglades 
proposal, which specifies new processes and roles for 
implementing the Restudy, with an expanded role for the 
Department of Interior now.
    As I indicated, I am trying to keep an open mind on this, 
and to work this through. But I think we are going to have to 
clarify some of these issues. We did hear a fair amount of 
concern. I do not know if the words, ``broke the deal'' was 
used. But certainly there was a lot of concern about the change 
in the plan.
    Perhaps you might say that the changes are merely 
technical. But the fact is that the Administration substituted 
an alternative that was rejected by the Restudy team when it 
added the 245,000 feet of water. I am not taking any position 
on that, one way or the other, other than the fact that it was 
a change in the Restudy.
    So we would like to hear from the Administration on these 
changes. It would be helpful, if you can, to focus specifically 
on them in your oral testimony.
    Senator Baucus, did you have any opening remarks?
    Senator Baucus. No, I am fine. I would just like to hear 
the witnesses.
    Senator Smith. Let us start with you, Dr. Westphal.

 STATEMENT OF HON. JOSEPH WESTPHAL, ASSISTANT SECRETARY OF THE 
        ARMY (CIVIL WORKS), U.S. ARMY CORPS OF ENGINEERS

    Mr. Westphal. Thank you, Mr. Chairman and Senator Baucus. I 
am delighted to be here before your committee, again. I am very 
excited about talking with you about this comprehensive plan.
    As you know, Mr. Chairman, on July 1999, as you mentioned, 
on behalf of the Administration and in a partnership with the 
State of Florida, we submitted to Congress a comprehensive plan 
to restore the South Florida ecosystem by modifying the 
existing Central and Southern Florida project.
    The plan, which we expect to be implemented over the next 
25 years will, we believe, improve the health of over 2.4 
million acres of South Florida ecosystem, including the 
Everglades National Park. It would improve the health of Lake 
Okeechobee.
    It will virtually eliminate damaging fresh water releases 
to the estuaries, improve water deliveries to Florida and 
Biscayne Bay, improve water quality, enhance water supply, and 
maintain flood protection.
    On April 10, 2000, on behalf of the President, I submitted 
to Congress a comprehensive legislation proposal that would 
allow the implementation of the comprehensive plan.
    This legislation, if enacted, will accomplish a number of 
important objectives to include: one, a congressional 
endorsement of the importance of restoring the Everglades, and 
that such a restoration is a national priority; two, a 
congressional endorsement of the CERP, the comprehensive plan, 
as a technical sound blueprint for the Everglades restoration; 
third, an authorization of an initial package of projects, 
including four pilot projects and 10 of 68 project features; 
fourth, the authorization of a program authority to allow the 
expeditious implementation of smaller project features; fifth, 
language that would ensure that project benefits are achieved 
and maintained for as long as the project is authorized; and 
sixth, provisions that recognize the importance of outreach to 
socially and economically disadvantaged individuals and 
business owners in the South Florida ecosystem.
    It is important that Everglades restoration becomes a 
priority, and that the Nation recognizes that a national 
treasure, the American Everglades, is at great risk.
    Our legislation would allow the Congress to declare, like 
the Administration, the importance of this unprecedented 
national resource. Our legislation would have Congress affirm 
that the comprehensive plan is a technically sound blueprint 
for restoring the Everglades.
    With its extensive public involvement and adaptive 
assessment approach, the plan would lead to a healthy and 
sustainable ecosystem.
    It is important that the comprehensive nature of the plan 
be maintained, and that the temptation to pick and choose 
various parts and features be avoided. The 68 plan features 
work together, and each provides an important benefit to the 
ecosystem.
    Prior to full scale implementation of the plans, six pilot 
projects will be built to address uncertainties for some of the 
planned features. These pilot projects include aquifer storage 
and recovery, in ground reservoir technology in the lake belt 
region, levy seepage management technology, and advanced waste 
water treatment technology to determine the feasibility of 
using re-use water for ecological restoration.
    Ten projects totaling $1.1 billion are recommended for 
initial authorization. These projects were selected for initial 
authorization based on the following four criteria: first, the 
ability to provide immediate water quality and flow 
distribution benefits to the ecosystem; second, the ability to 
utilize lands already purchased; third, the linkage to ongoing 
restoration projects; and fourth, maximizing the benefits of 
Federal investment already undertaken.
    For example, if authorized, we will update the ongoing 
modified water deliveries project to make it more consistent 
with the CERP, by taking immediate steps to improve flow 
distribution through the Tamiami Trail. In addition, the South 
Florida Water Management District and the U.S. Department of 
Interior have already purchased lands such as the Talisman 
lands for a number of CERP components.
    Authorization of projects that use lands already purchased 
will ensure that these lands are utilized for restoration as 
soon as possible.
    To expedite the completion of certain smaller features, an 
authorization is being sought similar to the critical projects 
authority in Section 528(b)(3) of the Water Resources Act of 
1996. These projects will produce independent, immediate, and 
substantial restoration, preservation, and protection benefits, 
and expedite some of the components of the CERP, as well.
    The programmatic authority will be limited to those 
individual components of the CERP that have a total project 
cost of $70 million or less, with a maximum Federal share of 
$35 million per project.
    Our legislation makes it clear that Congress will be asked 
to authorize the remaining components with the CERP in 
subsequent water bills. At a cost of approximately $6.2 
billion, these 26 remaining features will undergo additional 
studies and analysis before authorization is sought from 
Congress.
    Before any construction starts on any of the 68 features of 
the comprehensive plan, detailed design, engineering, and 
environmental review will be completed. Specifically, prior to 
implementing any authorized project feature, a project 
implementation report for each project will be completed to 
address its cost effectiveness, engineering feasibility, and 
potential environmental impacts.
    These project implementation reports will include public 
review and comment that will bridge the gap between the 
programmatic level design contained in the comprehensive plan 
that you have before you, and the detailed design necessary to 
proceed to construction.
    These project implementation reports will not be different 
from the feasibility reports that this committee receives on 
other water resource projects. That is, you will receive the 
same level of information that you traditionally receive on 
every other project.
    Both the natural and human environment benefits 
substantially from the implementation of the comprehensive 
plan. Ensuring that these benefits are achieved and maintained 
is an important part of our legislation.
    Further, our legislation ensures that existing legal users 
are not harmed, and that the overall authorized levels of flood 
protection are maintained and enhanced.
    Specifically, our legislation provides that the primary and 
overarching purpose of the plan is to restore, preserve, and 
protect the natural system within the South Florida ecosystem, 
and directs that the plan be implemented in such a way as to 
ensure that the benefits of the natural system and the human 
environment, in the form of proper deliveries of clean, fresh 
water, at the proper time, in distribution are achieved and 
maintained for as long as Central and Southern Florida is 
authorized.
    To meet our assurances objectives, our legislation creates 
a four-part tiered approach. The first part is the legislation 
itself, which makes it clear that Congress intends for the 
benefits to be achieved and maintained.
    The second part involves the development of a programmatic 
regulation to identify, in greater detail, the amount of water 
to be dedicated and managed for the natural system and the 
human environment. This regulation would serve as a bridge 
between the legislation, the project implementation reports, 
and the project specific operating regulations.
    We believe that this will help maximize the unnecessary 
debates 10 to 20 year from now, when the projects are being 
completed.
    The third part or tier is the detail design, engineering, 
and environmental work that would be completed for each feature 
before construction starts. This will also give the public, 
interest groups, the State, and the tribes substantial 
opportunities to influence the final characteristics of each 
feature.
    The final part of our approach is the project-specific 
regulations that will be developed for each feature. These 
regulations will be developed based on public review and 
comment, and in consultation with other Federal agencies, the 
tribes, and the State. These regulations will prescribe in 
greater detail how each feature will provide its intended 
benefits.
    Restoring the Everglades will require a large investment on 
the part of the Nation's taxpayers. We believe that it is 
important to disclose fully how the restoration is going over 
the next 30 years.
    In this regard, we have developed a reporting program. 
Specifically beginning in October of 2005, the Secretaries of 
the Army and Interior, in consultation with other agencies and 
the State, will jointly submit a report to Congress that 
describes the implementation of the comprehensive plan.
    The report will include a determination of the benefits to 
the natural system and the human environment that have been 
achieved as of the date of the report.
    In conclusion, Mr. Chairman, I would like to say that this 
is a true partnership with the State and the tribes. We very 
much believe that the State has done a tremendous job in not 
only helping in participating and preparing the plan itself, 
but in their role in delivering the plan to you, and in their 
role in hopefully subsequently getting this plan approved 
through Congress.
    I, personally, commend the Governor for his efforts in the 
State, through the legislature, and his efforts to secure the 
funding; but also to give the appropriate support that he has 
given to the plan, and I thank him for it.
    I would also like to mention, Mr. Chairman, if I could, 
that this past Monday, May 8, the Restudy team, which consisted 
of maybe 100 people in all the Federal agencies in the State, 
the South Florida Water Management District, and others, 
received a very prestigious award from the American Association 
of Engineering Sciences and the Autobahn Society, a joint award 
called the Palladium Award, for their work in bringing together 
both the engineering sciences and the environmental sciences 
toward this environmental restoration project.
    I know that Stu Applebaum is here sitting behind me. Stu, 
raise your hand. He is one of the study team leaders. And Tom 
Teets received an award for everybody else. And I just wanted 
to congratulate them for that efforts. And thanks for allowing 
me to take time to do that, Mr. Chairman.
    Senator Smith. Certainly, and thank you, Dr. Westphal.
    Let us move to you, Mr. Guzy.

      STATEMENT OF HON. GARY GUZY, GENERAL COUNSEL, U.S. 
ENVIRONMENTAL PROTECTION AGENCY, ACCOMPANIED BY RICHARD HARVEY, 
              DIRECTOR OF EPA SOUTH FLORIDA OFFICE

    Mr. Guzy. Good afternoon, Mr. Chairman, Senator Baucus, 
Senator Graham. I am Gary Guzy, General Counsel of the U.S. 
Environmental Protection Agency. I greatly appreciate the 
invitation to appear here today, along with my colleague and on 
behalf of the Administration, to present the Clinton/Gore 
Administration's proposed legislation to authorization 
restoration of the Everglades.
    This bill represents an historic effort, in part, because 
of the ambition of the proposed endeavor, and the vastness of 
the replumbing effort; in part, because of the significance, 
and in once sense, the sheer humility of the change we are 
seeking--recognizing that the natural Everglades are dying, 
that they are critical to our Nation's future; and that based 
on what we now know, we got it wrong. Our past intensive 
management of the Everglades must be fundamentally re-thought 
and re-ordered for the good of everyone.
    We recognize that we must reinstill a balance to what 
remains of this ecosystem, and have based this work on an 
unprecedented, inclusive process that garnered widespread 
support for this effort.
    The Administration's proposal and the challenge now before 
this committee represents a culmination of sorts. It is a 
recognition--slow perhaps in coming--that the Everglades is a 
national, biological treasure to be cherished, on a par with 
the great mountains or the deep canyons of our land, and that 
it is, in fact, America's Everglades.
    Without this effort, the natural system could well 
collapse. It is choked by cattails and polluted water. It is 
inhospitable to its own natural inhabitants. It is unable to 
store or filter water the way it used to.
    In so collapsing, it could take with it, as well, much of 
South Florida's human potential, from drinking water supplies 
to tourism to fisheries.
    I, personally, have been fortunate enough to witness first 
hand, over the years, several key steps that have brought all 
of us to this new recognition.
    I remember vividly sitting in a courtroom in Florida 10 
years ago, then as part of the Justice Department's Everglades 
litigation team, witnessing the courage of Governor Chiles, who 
despite years of hard-fought and costly litigation, despite 
being surrounded by lawyers with, as he put it, ``a battlefield 
that was littered with swords and the work of swords.''
    He conceded that the Everglades were, in fact, polluted, 
and that we should be about bringing the State and the Federal 
Government together, to work toward a real and lasting 
solution.
    I recall being in Everglades National Park in 1996, when 
the Vice President, joined by Senator Graham and many others, 
set forth the Clinton/Gore Administration's framework for 
Everglades restoration.
    That called for three critical elements: first, developing 
the replumbing plan so that the heart of the Everglades would 
once again pulse with fresh, clean water; second, acquiring 
critical lands for water storage and restoration; and third, 
providing enhanced funding to accomplish this work.
    The Administration, working with Congress, has delivered on 
each of these commitments to the Everglades, submitting to you 
a science-based comprehensive plan that is at once bold and yet 
obvious, acquiring the Talisman Tract, nearly tripling our 
funding for Everglades restoration.
    I think of the most recent instance, when I accompanied 
Administrator Browner to the January field hearing in Naples, 
where Chairman Smith made it abundantly clear that he would 
continue former Chairman Chafee's strong bipartisan leadership 
on behalf of Everglades restoration.
    Each of these acts required looking beyond the horizon and 
exercising leadership. We now ask Congress to take this next 
step with the Administration and with the State of Florida. 
From EPA's perspective, there are several critical elements of 
the approach the Administration is forwarding.
    First, we urge this committee promptly to move forward and 
have Congress pass the Administration's proposal, to authorize 
the Comprehensive Everglades Restoration Plan as a blueprint 
for Everglades preservation and restoration, to ensure that the 
Everglades has clean, abundant water to supply and sustain 
environmental, as well as human needs.
    By recapturing the vast amount of water now lost, that 
water can be managed for the benefit of everyone, and re-
approximate natural flows, including the quantity and quality, 
timing and distribution within the remaining natural system.
    That must be the test for what Congress authorizes; whether 
it will accomplish that change. And this is precisely what 
Congress asked the Corps of Engineers to do in WRDA 1996, in 
developing that plan.
    Second, EPA, as the keeper of our Nation's Clean Water Law, 
and as an entity charged with the whole ecosystem perspective 
and, I might point out, working in an area in South Florida 
that is truly defined by its water, EPA is committed to working 
to ensure that the critical goal of protecting water quality is 
fully integrated into each step of the restoration effort.
    While the State continues to bear important 
responsibilities to meet water quality standards from polluted 
agricultural run-off into the Everglades under a separate 
Federal court degree and under existing State law, we must also 
more broadly assure that getting the water right, as part of 
the comprehensive plan, includes making sure it is clean.
    Ee believe EPA's unique perspective should be formalized in 
the legislation for an independent role in evaluating the 
continuing success of this effort.
    Third, we must ensure that the very purpose of the Central 
and South Florida project is reflected in this new legislation, 
and that it reflects our new collective understanding of the 
importance of the natural system, and we must eliminate forever 
the risk that attention to the natural system will simply be 
placed at the end of the pipe, and that the natural system will 
be provided only what remains, regardless of how much, how 
clean, when or where that water might be. And this is 
fundamental and critical for Congress to clarify this change in 
the project.
    We also believe that this change can be accomplished while 
respecting current urban and agricultural water users. But this 
new purpose should be assured through clearly defined 
principles of shared adversity for all users. Congress and the 
public deserve the assurance that the anticipated benefits to 
the natural system and the human environment are achieved and 
maintained.
    Fourth, we believe that WRDA should provide for 
implementing the comprehensive plan in its totality. While the 
many individual projects will be phased in over time, and they 
ultimately will reflect what we learn along the way, WRDA 2000 
should include a framework that guarantees continuity, because 
each part of this is highly interdependent.
    Our joint efforts in the Everglades represent an 
unprecedented, holistic, science-based approach to ecosystem 
restoration, and we should commit, at the outset, to make this 
entire plan a success. Last, the Everglades have waited simply 
too long and their current condition is too dire.
    The Administration's proposal sets forth several critical 
projects that should go forward in this authorization cycle, 
particularly the acquisition and engineering of critical lands 
such as the Talisman tradelands, for water quality restoration 
and water flow management. These are essential to starting the 
recovery effort off on a sound footing.
    Mr. Chairman, that concludes my statement on behalf of 
Administrator Browner. I thank you and Senator Baucus, as well 
as Senators Graham and Mack, again, for your leadership on 
these issues. We look forward to working with you on these 
matters, as well as on finding a long-term reliable source of 
funding for the Everglades--another critical issue.
    With me today is Mr. Richard Harvey, Director of EPA South 
Florida Office. We would be pleased to answer any questions 
that the committee may have. Thank you.
    Senator Smith. Thank you, Mr. Guzy.
    Ms. Doyle?

  STATEMENT OF MARY DOYLE, ACTING ASSISTANT SECRETARY OF THE 
  OFFICE OF WATER AND SCIENCE; CHAIR, SOUTH FLORIDA ECOSYSTEM 
    RESTORATION TASK FORCE, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Doyle. Mr. Chairman, Senator Baucus, thank you for the 
opportunity to address this hearing, and thank you for holding 
this hearing. And Mr. Chairman, thanks for agreeing to come to 
the Everglades Task Force meeting tomorrow.
    I would like to begin by displaying for you this map, the 
upper map there, which is a map of South Florida, on which are 
marked the Federal parks, wildlife refuges, and sanctuaries 
located in the South Florida ecosystem.
    There are three national parks and 16 national wildlife 
refuges in the area, along with Big Cypress Natural Preserve 
and the Florida Keys Natural Marine Sanctuary.
    The total of federally owned and managed land and waters 
stands at about 5.7 million acres or about 40 percent of the 
remaining Everglades ecosystem. As you may know, Everglades 
National Park is the largest park in the lower 48 States. It is 
the largest remaining subtropical wilderness in the United 
States, and it receives ever year over a million visitors from 
all over the world.
    This park and the other Federal assets pictured on the map 
are national treasures of incalculable value. And as you well 
know, these treasures of our Nation are threatened as the 
entire ecosystem is threatened by environmental harm that is 
being experienced at increasingly rapid rates. You know the 
gory details of the environmental harm, so I will skip over 
those.
    This comprehensive Everglades Restoration Plan, developed 
over several years by the Army Corps. working closely together 
with the South Florida Management District, the Interior, EPA, 
and the tribes is a detailed, long-term ecosystem-wide plan to 
restore America's Everglades. The Department endorses the plan 
and believes that it adopts a practical and effective approach 
to ensuring long term restoration.
    Someone asked me the other day to define restoration. 
Restoration means recovery. The defining characteristic of a 
restored natural system is the re-emergence of what is now 
lacking; the return of the waiting birds as the food chain is 
rebuilt through restoring more natural waterflows, the 
redemption of species now threatened or endangered, the 
reduction of invasive exotics, and proliferation of natural 
vegetation once more, rebounding fisheries and returning 
wetlands. All these aspects of recovery are within our grasp 
today.
    Now Mr. Chairman, you started by asking us to address some 
of the issues that were raised this morning, so I thought I 
would depart from my text and go right to those issues. And in 
particular, you raised the question about the role of the 
Department of Interior in the Administration's bill. And I 
would like to add to that the related issue of the role of the 
State of Florida or the Governor of Florida in the 
implementation of the project.
    As you may know, the bill provides for the establishment of 
what we have termed ``programmatic regulations'' by the 
Department of the Army. And the bill provides that these 
programmatic regulations are to be adopted with the concurrence 
of the Secretary of the Interior.
    I would just like to tell you what our concept was in 
providing for these programmatic regulations. This is a 
provision for a process to quantify the amount of water needed 
to restore and preserve the natural system. And here I am 
talking not just about the federally managed natural system, 
but the tribally and State managed aspects of the interrelated 
ecosystem.
    Although the programmatic regulations are intended to 
provide a process for this quantification, a process that would 
include all stakeholders, it would use rainfall driven modeling 
to develop a set of ranges for the delivery of water to the 
various portions of the natural system in dry, normal, and wet 
years.
    The idea is to lay down at the beginning of the 
implementation a notion of overall what quantities of water 
need to be delivered to the natural system, Federal, State, and 
tribal, so that when all these elements, these 68 project 
features, come on line over a period of 20 years, we can look 
back and see that the sum of the parts adds up to delivering 
the benefits promised.
    The way our bill reads, the regulations that establish the 
detail design features for each of the 68 projects would be 
adopted by the Secretary of the Army, in consultation with the 
Department of Interior, but the concurrence rule would not be 
present there. The idea is that the project specific feature 
regs would have to be shown to be consistent with the 
programmatic regs that set aside the quantities of water for 
the natural system.
    I do not want to go into too much detail here. I would be 
very happy to answer questions. But ideally, we would like to 
see the State using its water statute, which is a very 
progressive one, and adopt essentially a mirror set of 
regulations that by State law made the same set-aside with what 
we had determined.
    The rule of the Secretary of the Interior in concurring on 
these basic set-aside regulation seems to us appropriate for 
several reasons. One is that the Interior Department, the Fish 
and Wildlife Service and the Park Service are one of, if not 
the major, environmental clients of this project, and need to 
be closely consulted, therefore, on the basic fundamental set-
aside decision.
    No. 2, the Federal investment in this project is justified 
by the preservation of these Federal assets. And No. 3, the 
Department has, over this century, developed expertise and 
experience to bring to bear in making this kind of decision.
    We do not view it as a veto role for the Secretary of the 
Interior, but rather a close collaboration in the establishment 
of this basic set of regulations to quantify the amount of 
water to the natural system.
    Finally, on the role of the State or the Governor in 
developing regulations that implement this project, and I think 
Dr. Westphal stated this, and I think all of us agree with 
Governor Bush and his statement this morning, that this is a 
work of a partnership. And it, in fact, is an unprecedented 
work of a Federal/State partnership. It has been, up until now.
    We want to commend the State on not only promising, but 
actually delivering on their promise for financial support for 
the project.
    The Federal Government has enjoyed excellent relationships 
with the Governors of Florida, at least going as far back as 
when Senator Graham was Governor, and I am sure before that, 
too. And we enjoy a very good working relationship with 
Governor Bush at this time.
    We have had a number of discussions with the State on the 
question of the role of the State in crafting the regulations 
for this project. Time ran out on us before we were able to 
nail down the issue.
    Our lawyers have advised us that there are some 
constitutional issues raised by giving the Governor of the 
State a concurrence role in a Federal statute. The lawyers in 
the Justice Department are working through this issue right 
now.
    I want to pledge to you that we want to continue 
negotiations with the State, because I personally believe we 
can find a way to arrive at language that passes muster 
legally, and expresses this unique partnership that is the 
basis of this project.
    Thank you, Mr. Chairman.
    Senator Smith. Thank you very much, Ms. Doyle.
    Let me just comment, since you just had a brief comment or 
two on programmatic regulations. I am trying to understand your 
reasoning here, without getting into a judgment, one way or the 
other, but just to understand it.
    It seems to me that in the adaptive assessment or adaptive 
management approach that we are trying to place into this, that 
when you suggest a one time regulation, only 2 years after the 
date of enactment of a plan, then you take away the flexibility 
of the Corps., and you take away the flexibility of the entire 
adaptive management process for a system that may not be fully 
functioning over perhaps as early as 20 or 30 years.
    So I do not understand the logic there, if you could just 
explain that to me.
    Ms. Doyle. Yes, I would be happy to try. It was never our 
contemplation that the programmatic regs would be inviolate or 
not susceptible to alteration as we gain scientific knowledge, 
which is the essence of adaptive management.
    We felt very strongly that as you go to begin the design of 
the individual components of the project, you have to have some 
sort of benchmark or notion of how much water, in the present 
state of scientific knowledge, that we need to deliver to the 
natural areas in order to achieve the restoration. Otherwise, 
you just start piecemealing it, without reference to sort of a 
baseline.
    Florida has a similar system now in its statutes. It does a 
water supply plan before it decides how many permits it is 
going to issue for what quantity of water, and it does that by 
assessing how much water is available. And this would be 
something along that line.
    Senator Smith. But how do you accomplish that with a one-
time regulation? You can not be that specific.
    Ms. Doyle. No, it would be established, I would hope, 
fairly soon, like in a couple of years, and then it would be 
susceptible to being modified. It would also come through in a 
set of ranges. We are applying these rainfall-driven models to 
establish a set of ranges for the delivery of water.
    Senator Smith. If each one of you could respond to just 
this question, then I will be happy to yield to my colleagues.
    The language in WRDA 1996 says, ``The Secretary shall 
develop a plan for the purpose of restoring, preserving, and 
protecting the South Florida ecosystem.'' That was the language 
that was agreed to, again, without passing any judgment on the 
proposed change, which is how I understand it.
    Now the new language in the Administration plan says, ``The 
overarching purpose of the plan is to protect, preserve and 
restore the natural system.''
    I think this is different language. It does have different 
ramifications. And I guess I need to understand the purpose of 
moving from the language that everyone agreed to, and then 
changing that language to take on a different perspective here. 
What is the rationale behind that? And let me just ask you, 
first, Dr. Westphal, and just go right down the table.
    Mr. Westphal. Well, remember, the comprehensive plan that 
you have before you has been the subject of a considerable 
amount of study and reevaluation since 1996, since you passed 
the WRDA bill.
    The work of the Task Force and the work of the scientists 
in developing the plan simply resulted in a much more 
comprehensive view of what needed to be done, both in terms of 
what the State wanted to do, as well as what the Federal 
Government and its entities wanted to do.
    So I think that is why you are seeing some variation in the 
theme. The theme is still there, that was presented in 1996 and 
mandated by Congress. What we have done is, we have just 
amassed so much research and so much study and so much 
evaluation. And we have come up with so many different 
opportunities to protect and to save and enhance and restore 
the natural environment, that it results in this comprehensive 
plan.
    Senator Smith. But if you allow your position to evolve, 
then you have to allow the other stakeholder's positions to 
evolve, as well, do you not? Is that reasonable?
    Mr. Westphal. I think so. And, again, the adaptive part of 
this plan and the fact that every single project, whether you 
are talking about the programmatic authority, that you were 
talking about a minute ago, or whether you are talking about 
other features of the plan, everything has got to go through a 
feasibility study.
    Everything is going to have to have a cost sharing 
agreement between the State and Federal Government. Everybody 
is going to have a chance to veto, to check, to modify, to 
evaluate and reassess where we are going.
    What we are presenting you is a blueprint; a blueprint that 
is based on a lot of research and a lot of work. We have a 
programmatic feasibility study for the whole piece. What we are 
saying to you is, we have given you a blueprint from which you 
can decide today. But you will be deciding every year from now 
on, as we present new reports to you.
    Senator Smith. Well, I am going to ask for your response, 
Mr. Guzy. I would just say, again, the difficulty that it 
places on the committee and on all of us who are trying to 
draft the bill is that there may very well be justification for 
your position.
    There may be justification for others. But we have now 
removed ourselves from an original agreement, for whatever 
reason. It may be a good reason. But we have done that, and 
that complicates things, in the sense that we have got to go 
back to all stakeholders and get them to reagree, if you will, 
which makes it very complicated.
    Mr. Guzy, is your position the same?
    Mr. Guzy. Well, just very quickly, Mr. Chairman, we believe 
that the heart of the 1996 legislation was a direction to the 
Administration to develop a plan that would ensure that, in 
fact, the Everglades would once again pulse with clean water; 
water that would be provided when needed, where needed, at the 
times and places where it was needed.
    So that understanding, that when you talk about providing a 
plan for restoring the Everglades, you are talking about, as 
its central feature, as its critical component, a plan that 
provides a means for restoring the natural system.
    We do not think that there is any fair debate about what 
the committee and, ultimately Congress, asked the 
Administration and the Corps. specifically to do in developing 
this plan.
    I think the challenge comes only if one believes that you 
can not do that; in other words, respect the natural system. At 
the same time, you also can respect the needs of agriculture 
and the needs of the urban water users in the area.
    Our belief is the fundamental feature of this plan is 
recapturing water that is now lost. And it provides, in fact, 
far more water than currently is available to the system. The 
result of that means that, in fact, there is the ability to 
satisfy the needs of the natural system, as well as existing 
users and the potential that they would have for growth in 
their needs, also.
    So we believe that, in fact, this seeming conflict can be 
reconciled, and this is completely consistent with the approach 
that Congress took in 1996.
    Senator Smith. Would you like to comment, Ms. Doyle?
    Ms. Doyle. Yes, please, Senator Smith, just to followup on 
Mr. Guzy's last point, I think it is a false dichotomy, serving 
the environment versus the needs of water users for secure 
water supply and flood protection.
    This plan calls for building a tremendous amount of 
flexibility into the system, and a tremendous amount of storage 
that is not there now, which is going to ultimately rebound not 
only to the benefit of the natural system, but to those people 
at risk of flood. And it is going to secure water supplies for 
urban users in ways that have not, heretofore, been possible.
    Senator Smith. Senator Baucus?
    Senator Baucus. Thank you, Mr. Chairman. I would like to 
ask Dr. Westphal a question. And that is just to clarify 
whether the list of 27 projects contained in the Chief's Report 
is the total universe of programmatic authority projects; are 
there more or are there fewer? Are others going to come along, 
or is 27 it, under the programmatic authority?
    Mr. Westphal. Under the programmatic authorities, what we 
have studied to date and we think are feasible today, we can 
not predict the future. There may be a need to do other things 
in the future. There may be a need not to do some of those 
things in the future. But I think that that is what our best 
guess is today, based on all the study and research, that those 
27 are what flies.
    Senator Baucus. Will you come back and ask for more 
programmatic authority; more than 27?
    Mr. Westphal. We have no intention to do that today.
    Senator Baucus. What is the likelihood?
    Mr. Westphal. I really can not predict that. I really can 
not tell you what the likelihood of that is. I can not answer 
that question, today.
    Senator Baucus. With respect to the project implementation 
report, will each of the projects under the programmatic 
authority also have the full scope and review of the project 
implementation report like other components of the plan?
    Mr. Westphal. Right, they will.
    Senator Baucus. They will?
    Mr. Westphal. There will be a feasibility study. We are 
calling it something different, because of the nature of this 
particular set of projects. But they are, essentially, 
feasibility studies.
    Senator Baucus. Well, how will they differ from the project 
limitation reports?
    Mr. Westphal. They do not differ. They are the same thing. 
They are feasibility studies, just like for any other project. 
And they go through the same level of analysis and work that we 
do on any other project.
    Senator Baucus. You know, I want to tell everybody, I am 
for restoring the Everglades. I do not know anybody who really 
is not.
    This is a huge project, here. And so far, I am a little 
uneasy, and I will tell you why. First, in 38 years, I do not 
know of a single defense system that takes that long, from 
beginning to end. I am worried about cost overruns, 
particularly over 38 years. And particularly, when I hear the 
words ``tremendous amount of flexibility'' that goes all kinds 
of different directions.
    I worry about seeing on the evening news, a year or two or 
three from now, the ``fleecing of America'' or ``it is your 
money'' or something like that, which certainly does not help 
the Everglades. It does not help our goal, here.
    I am also concerned, frankly, because of the testimony I 
have heard thus far, it is all just kind of plans and reports 
and so forth.
    I have seen nobody, Mr. Chairman, here who can stand up and 
say, well, here is what is going on in the Everglades, here are 
the basic ideas, and here are some of the things that we think 
are going to work, and here are some of the problems that we 
have not yet solved, and just be kind of honest about it. I 
have not seen that.
    I have this funny feeling that I might be buying something 
that sounds good, but on down the road, I am going to leave to 
my successors here a huge, huge problem. And the problem is, my 
gosh, we have spent all this money of the Federal taxpayers' 
dollars on the Everglades. And my gosh, it is not working like 
it was supposed to work.
    Well, we have gone this far. Gee, it is like a Vietnamese 
War, in a sense. We have just got to keep on pouring more money 
in it, because we have gone this far. And what is our exit 
strategy?
    I am not saying that is going to happen. I hope it does not 
happen. But my very strong view, based upon what I have seen 
thus far, is that you have not made a sufficient case. And I 
may be just one person, one Senator, who is not sufficiently 
familiar and has not studied this nearly as much as have 
others.
    I am a Senator who is sitting on this committee, and I only 
know what I know. And what I know is the testimony I hear, the 
words I hear.
    Nobody here yet so far, and maybe they have down in 
Florida, Mr. Chairman, when you had your hearing down there, 
but nobody here in Washington at a hearing where I have heard, 
has really provided a compelling case that this plan is going 
to work. I have not seen it. And I would like you to dissuade 
me of my views, if you could, please.
    Mr. Westphal. Well, let me start with just a couple of 
points. First of all, there is ongoing work. Second of all, the 
pilot projects that we are proposing in this plan are 
essentially to test some of the assumptions about which we are 
basing the longer term solutions to the problems, aquifer 
storage, sheet flow kinds of studies and work to be done to 
determine whether or not the things that we are proposing, in 
fact, will work.
    Those pilot projects are critical. We authorized two last 
year. We are asking for authorization for an additional four 
this year.
    So there is ongoing work. There are ongoing activities now. 
We have tested some of these assumptions. We are proposing to 
test others.
    Senator Baucus. If I might ask, what are the cutoff points 
here? That is, is there a period during which, you know, 
Congress spends this money, hundreds of millions of dollars, 
but which there is sort of a self-contained set of projects, 
where this is all the further we can go, and it will not 
jeopardize what has been spent and the projects that have 
received dollars thus far? Are there discrete parts of this, is 
what I am asking, or is it all necessarily tied together? And 
frankly, either answer is fraught with problems, as you well 
know.
    Mr. Westphal. Right.
    Senator Baucus. But I am trying to get a sense of what is 
going on here.
    Mr. Westphal. Well, to some extent, it is all very much 
interrelated. That is why it is a comprehensive plan, because 
we believe all these elements are tied together and, to some 
extent, depend on each other.
    Mr. Guzy. Senator Baucus, if I may try and address your 
broader question, I think we all share the sense of frustration 
that this is a plan that takes so long and that costs so much 
money. In part, that reflects really the scale of human 
intervention that has occurred up to now in the Everglades.
    Senator Baucus. No doubt; I agree.
    Mr. Guzy. You know, when you look at a plan that involves 
removing 200 miles of canals, that involves altering interstate 
highways over a 20 mile stretch to allow waterflows, that 
involves capturing 1.7 billion gallons of water that is now 
just shunted out to the ocean, I think it is fair to say that 
the essential elements of the plan that you need to recapture 
and store the water that is now lost so that it can, in fact, 
be provided to the system.
    You need to have flexibility in how that water can get 
distributed, so that it can approximate the natural system much 
more in terms of the timing, where it is, when it is there, the 
levels of water--so that you can begin to recreate that natural 
system; and then also can provide for the growing needs of the 
urban water users, such as flood control needs and agriculture.
    Those essential elements do not seem to be particularly in 
dispute that that is what is needed for this system. What we 
would invite in the long years over which this carried out is 
constant scientific scrutiny. And we have proposed setting up a 
premier peer review process that will help to guarantee the 
accuracy of this complex ecosystem, as well as extensive 
congressional oversight to ensure that, in fact, this money is 
being spent wisely and appropriately.
    Senator Baucus. In a certain sense, you are putting 
Congress in a box by saying it is all or nothing. It is 7.8 or 
it is zero, or at least that is how I hear it, thus far.
    Why not first, stage one, $2 billion? And that is a 
discrete, separate set of projects which, if there are no 
further funds, does help to some degree address the problem.
    Then if you want to go farther, you can let another 
Congress and let them decide at a later point to put another 
couple billion dollars in. So if the first stage seems to be 
working, and then we have better science, and the gaps in the 
science are filled. Then we can address the next part.
    I am just very, very nervous to buy everything, at this 
point, when I do not feel good enough about this. Again, you 
know, you all know a lot more about this than I do. I am just 
telling you my gut sense.
    Ms. Doyle. Senator, what we are asking Congress to 
authorize is an initial suite of projects. My understanding is 
they are mainly water storage projects. The site of these 
projects, the location of them has been identified. The 
neighborhood where they need to be located has been identified 
in the plan.
    They will help immediately the system, which now has no 
storage capability, except for Lake Okeechobee. And when these 
initial suite of projects are up and running, we will have to 
come back to you for authorization of the next phase of the 
project. So I think what is contemplated here is quite 
consistent.
    Senator Baucus. So are you asking for 7.8?
    Ms. Doyle. No.
    Mr. Guzy. No.
    Senator Baucus. Oh, how much are you asking for?
    Ms. Doyle. 1.2.
    Senator Baucus. I see, OK.
    Mr. Guzy. Senator, I would just add that the Administration 
has approached this by trying to really reconcile the fact that 
you want to have a set of limited, clearly defined approaches 
in the short term, and not ask Congress for authorization for 
every single thing that might happen way out, 30 years into the 
future.
    It makes little sense to do that, unless there is the kind 
of broad vision; unless there is a framework for how those 
individual projects will fit into accomplishing the ultimate 
goals; unless there is accountability and a test for what you 
hope to achieve. It makes little sense to go down this road 
unless you have an ultimate vision of where the road is going.
    That understanding, that the natural system can work in 
harmony with the built system and the needs of the people of 
South Florida, is really what is represented in the plan.
    Senator Baucus. Well, do not misunderstand. I want this to 
work. And I am just asking tough questions with the view of 
hoping to make it work. So far, it does not totally pass the 
``smell test'' if you want the honest truth. There are parts of 
this that just do not click in and lock in the way I like it to 
feel, at this point.
    Ms. Doyle. Senator, we would be happy to provide you a more 
detailed briefing in a helicopter, if you would like to.
    Senator Baucus. Well, I am sure you would, and I am sure I 
would like to do that. But there are only so many hours in a 
day and days in the week. And I am right here, this is the 
hearing on this subject, and this is what I have, thus far.
    Mr. Westphal. Well, again, this is a large blueprint that 
incorporates a lot of different features. And what we are 
saying to you is, give us your commitment to work toward the 
accomplishment of the overall objective through these series of 
steps.
    Again, every year the appropriators will have to 
appropriate the money. We are asking for an appropriation of 
over $1 billion, but that is over a number of years. As these 
projects come on line, we expect that operation and maintenance 
requirements are not really going to kick in for another 15 
years or so, until some of these projects come to completion.
    So we have got a lot of steps in the process. But we have 
looked at this in a very broad fashion with the State. And the 
State is putting up 50 percent of the money. So they are 
committed to this.
    Senator Baucus. That is not O&M?
    Mr. Westphal. No, they are putting up 50 percent of the 
cost on everything. Well, on the O&M, it is 60 percent, but on 
the construction part it is 50 percent.
    Senator Baucus. Which is contrary to the rule.
    Mr. Westphal. Right.
    Senator Baucus. Well, this comes down to trust, both ways. 
And I just think we need to work on that.
    Thank you, Mr. Chairman.
    Senator Smith. Senator Graham, would you mind if I made a 
comment in response to this? I apologize for interrupting you.
    First of all, I think all three of the witnesses responded 
very well to your points, Senator Baucus. And I think it is 
important that we understand here, we are not authorizing $7.8 
billion. We are not even authorizing even $1.1 billion, if we 
pass this proposal anywhere along the lines we are talking 
about.
    We are talking about perhaps $100 million this fiscal year, 
or the fiscal year that it passes in. The $1.1 billion for the 
10 projects discussed here are over a 14 year period.
    The truth of the matter is, we can not sit here and say, 
with 100 percent accuracy, that everything we do is going to 
work, because we have destroyed an ecosystem that we have to 
restore.
    So the point is, through the policy that is laid out in the 
overall plan here of adaptive assessment or adaptive 
management, we will be able to have the flexibility on almost a 
year by year basis to look at what we are doing and make 
adjustments.
    For example, the Army Corps. can not do one project beyond 
a 20 percent increase in what we think the cost would be 
without coming to us. So there is tremendous control there. And 
so, again, it is a long process. And it is very unique and 
unusual in the sense that it is 34 or 35 years.
    This is an ecosystem that we can not predict how long it is 
going to take. I wish we could say that it could be done for 
``x'' number of dollars over 15 years. But, again, we are not 
committing to anything, other than a step-by-step process, 
which is laid out in the plan.
    So I think it is important to point that out. Your 
questions and your points are valid points. But I really feel 
strongly that whatever form the plan takes, I think, as the 
witnesses have very well stated, we are not accepting an 
overall dollar amount here.
    We are accepting a concept that says that we think we can 
do this. And if it turns out 2 years from now or 3 years or 4 
years or 10 years from now, that what we are doing is not 
right, we can make adjustments. And that is, I think, the 
uniqueness of the plan.
    Senator Graham?
    Senator Graham. I have been listening to the very good 
questions that my colleagues, and particularly Senator Baucus, 
have been raising. And it reminds me that this year we are 
celebrating the 200 anniversary of the movement of the Capital 
of the United States to Washington, D.C.
    That was a bold action. The Capital was functioning 
perfectly well in New York. It was a large city. People were 
comfortable there. But they recognized that the Nation, a new 
Nation less than a dozen years old, was faced with some almost 
intractable problems, which were likely to force it to fly 
apart.
    One of those is that the southern States did not feel 
comfortable in New York. They wanted a site that was closer to 
home. The other was that the northern States were burdened with 
the State debts that had been taken on to fight and win the 
Revolutionary War.
    Well, that is the stuff of a political compromise. The 
compromise was the Federal Government took on the debts, and 
the capital moved from New York to the banks of the Potomac. 
And that political compromise probably saved the Nation from 
disintegration over those disputes. It was a leap of faith, 
that coming here in 1800, that would save the Nation.
    I think most people today would say, given what the likely 
alternative, to have not moved to Washington, D.C. was, it was 
a good decision.
    I think in some ways we are at that point with the 
Everglades. We can predict with a great deal more certainty 
what the consequences of inaction will be than what the 
consequences of action will be.
    The consequences of inaction will be a continued 
disintegration of one of the great international environmental 
system; one of the few which, for instance, the United Nations 
has placed on its list of world treasures. It will probably 
lead to the first de-certification of a national park in the 
history of the country, and to adverse effects on a large and 
important geographic and population area of America.
    Are there risks to going forward? Of course, there are. One 
of the things that is unique about the Everglades is, it is 
unique. Marjorie Stoleman Douglas, in her great book ``Rivers 
of Grass'' said that there is only one Everglades.
    You can look around the world, and maybe the Pontanole in 
Brazil is somewhat analogous to the Everglades, but not quite. 
Maybe there are places in Africa that are similar to the 
Everglades, but not quite.
    We are dealing with a unique system. That means that we can 
not look to other places in the world and say, how did they 
deal with the same problems that we are trying to deal with, to 
restore a sick and broken unique system? We are going to be on 
a rapid curve of increased knowledge, as we get into this 
process.
    Frankly, if there are not changes in this plan over the 
next 38 years, it is a statement of our ineptitude. If we do 
not learn something engaging in this, over the next three or 
four decades, that is not going to be a stamp of our 
intelligence or ingenuity.
    The Senator asked a very good question about what are some 
of the things that are going to give us confidence that this is 
going to work. One, I happen to have a lot of confidence in the 
Corps of Engineers. I think it is a phenomenally effective 
organization, and has done great things for this Nation.
    If you walk down a few blocks and look at the Library of 
Congress, it was designed and built and the interior 
constructed by the U.S. Corps of Engineers. That is a fairly 
phenomenal structure. I think it is the most beautiful 
building; a product of the Corps of Engineers.
    We also have got a State partner, which is going to be 
looking over our shoulder throughout this. And the State of 
Florida has an annual budget of approximately $50 billion to 
$60 billion. It is going to put up $200 million a year for this 
project. The Federal Government has an annual budget of about 
$1.8 trillion, and it is going to put up $200 million.
    So proportionately, the State has got a lot bigger share of 
its treasury that is going to be invested in this than the 
national government. And so it is going to be very concerned. 
And it is sitting there every day, watching what is happening. 
I suspect that if there is a feeling that this has gone 
offtrack, the cell phones, faxes, and e-mails will quickly 
alert us to those concerns.
    Next, the process is very similar to what the Senator was 
suggesting it should be. Today, we are being asked to look at 
first an overall road map of how to get to this goal of a 
renewed Everglades that will protect the natural system, taking 
into account the human systems, as well.
    The implementation will be in a series of short bursts, 
starting with 10 out of 68 to be authorized in this 
legislation; many of those 10 projects taking themselves a 
number of years to complete, starting with land acquisition, 
more detailed design, and then actual construction.
    I anticipate that for the foreseeable future, every 2 or 4 
years, we are going to be asked to evaluate how well the Corps. 
is doing on the set of projects that we sanctioned in the past, 
and to take on another set of projects, as the first groups are 
moved to completion.
    Finally, I believe that we need to recognize that what we 
are doing here is not only going to be beneficial to the 
Everglades, but we are going to learn a lot about the public 
administration, the organization and the financing, as well as 
the science of environmental restoration.
    I mentioned the Pontanole in Brazil. I can tell you from a 
recent visit to Brazil that they are very interested in what we 
are doing in the Everglades, and hope that they will be able to 
take advantage of some of our learning.
    A year ago, I was in New Mexico on the banks of the Rio 
Grande River, which is an environmental system that has got a 
lot of problems. And the people in New Mexico were looking to 
what is happening in the Everglades as maybe a model of how to 
deal with the issues of the headwaters of the Rio Grande.
    So we are going to be making contributions on a national 
and even global basis, as we go through this process. That is 
the end of my editorial.
    Senator Baucus. Thank you.
    Senator Graham. And also, we do hope that you will come and 
look at it from a helicopter.
    Senator Baucus. Not from a helicopter; I want to see it 
from the ground.
    Senator Graham. We have all forms of transportation: 
ground, aquatic, air.
    Senator Smith. And if he does not support it, we will leave 
him down there.
    [Laughter.]
    Senator Graham. There will be one happy alligator down 
there.
    [Laughter.]
    Senator Graham. Now I am moving from the editorial page to 
the front page.
    About a third of the questions that have been asked thus 
far have related to this issue of, is the planning for the 
first 10 projects that were being asked, is it at a level of 
maturity that is appropriate for us to authorize, or should we 
wait until there has been further engineering done of those 
projects?
    I wonder, Dr. Westphal, if you might respond as to why the 
Corps. feels that these 10 projects are at a point that they 
are ready to be authorized by the Congress.
    Mr. Westphal. Well, we feel very strongly that we have done 
the necessary work for you to authorize these projects. They 
are integral to starting us down this path of enhancing the 
overall quality of the environment. We believe the science is 
firmly behind the work we have done to get to that level.
    We picked these 10 projects because I think they provide a 
tremendous amount of enhancement to investments we have already 
made, both in the purchasing of land, as well as testing 
features of the overall set of projects that are critical to 
doing now, and not waiting until later.
    So we believe it is both essential, from a timing 
standpoint, as well as a resource investment standpoint, that 
we go forward with these, that we are confident that we have 
got the science and the research and the study done, that gives 
us confidence that you can be assured that we are embarking on 
the right path here.
    Senator Graham. Ms. Doyle or Mr. Guzy, did you have 
anything to add to what Dr. Westphal has just said?
    Ms. Doyle. Well, only to reinforce a point he made, there 
were hundreds of scientists involved in the development of the 
plan and the designation of the initial suite of features; 
scientists from the State agencies and from all the Federal 
agencies. The science was subject to peer review. And I think 
everybody I have talked to is very confident in the results.
    Mr. Guzy. I would just add, Senator Graham, that 
considering the pace of environmental degradation in the 
Everglades, we look to be opportunistic in the best sense of 
the word, to find places where relatively rapid action could be 
taken, where you could capitalize on those resources that the 
Federal Government or the State Government had already 
established, and you could take some very early steps and 
achieve significant results. And that is what really those 10 
projects represent.
    Mr. Westphal. One more point, Senator, is we have got to 
remember that the State has also made some great investments 
here. And for us to delay going forward really is an affront to 
that investment that the State has made, as well as the Federal 
Government. We have got almost two-thirds of the land already 
purchased for these projects, so we are well under way.
    Senator Graham. Thank you, Mr. Chairman.
    Senator Smith. Thank you, Senator Graham.
    I just want to make a couple of comments, and then let me 
ask one final question. I guess it would be for you, Dr. 
Westphal, before I make a couple of comments.
    On these 10 projects, do you feel very confident, 
relatively confident, or extremely confident that we can expect 
these project implementation reports to be completed on time, 
which I assume is in a 12 to 18 month period? Is that about 
right?
    Mr. Westphal. Do you see any heads nodding behind me here?
    Senator Smith. Let me see some heads nodding.
    [Laughter.]
    Mr. Westphal. Are they nodding? They are the guys that have 
to do this.
    Senator Smith. What is the answer back there?
    Mr. Westphal. The answer better be yes.
    Senator Smith. All right.
    [Laughter.]
    Mr. Westphal. And the adjective is extremely confident.
    Senator Smith. I want to make a couple more points 
regarding some of the questions that were raised by Senator 
Baucus and some of the comments that were made this morning.
    We all know that this is not exact in terms of dollars. I 
think anybody who would say that would be wrong, and it would 
be misleading to the public.
    I do not think there is anybody in the Senate, and maybe 
there is, but I have not met him or her yet, who is more 
conservative than I am with the taxpayer dollars. I do not want 
to waste a penny of it, because they all belong to all of us.
    I think it is important to understand here that this 
project is worth the risk. It is worth the risk perhaps more 
than many other projects in various other aspects of the budget 
that we fund.
    I want to go on record as saying that I am willing to take 
that risk. And if it comes back 50 years from now that Senator 
Graham and I sat here, and we were wrong, because we did not do 
enough and the Everglades failed, we can at least say or at 
least our grandchildren can say, they tried. And we have to 
try.
    It is simply wrong to try to exact this thing down to the 
last dollar, before we begin the implementation of the plan. We 
have the flexibility to make adjustments so if we get to the 
point where we say, this is hopeless; we are going to lose the 
Everglades, we do not have to spend the rest of the money.
    On the other hand, if it starts working, and we can begin 
to make assessments and adaptations to the process, then we can 
do that. And perhaps we will save money, and maybe it will cost 
a few million more.
    Let me just point out, we are being asked to authorize 
about $28 million in 2001, and about $47 million, or rounded 
off, say, $50 million in 2002, in addition to the $1.4 billion 
over that 14 year period for those projects, half of which is 
paid for by the State of Florida.
    Let us look at why we are doing this. You have got a 
situation in this ecosystem where 90 to 95 percent of the 
wading bird population in this ecosystem is gone. That is 90 to 
95 percent.
    Second, the Everglades covers less than half, and that is 
the ecosystem, not the park, of the area it did 50 years ago. A 
billion and a half or a billion, seven gallons of water a day 
are pumped out to sea, critically disrupting the estuaries, the 
health of those estuaries. And 68, at last count, animal and 
plant species are on the endangered list, including the Florida 
panther, which is probably the most prominent one.
    So it is worth the risk. And I am simply not going to allow 
a situation where we are going to get down and we are going to 
have to say that right down to the last penny of every dollar 
that we spend here has got to be accounted for before we embark 
on one of these projects.
    We have the flexibility. And I am going to encourage 
members to read the plan, so that they understand that there is 
the flexibility and the adaptive responses here to make changes 
as we go.
    That is what I like about it. It is not exact. And we need 
to understand that. And if anybody says that they want this to 
be exact, then I guess they should not be for the restoration 
of the Everglades, and they can live with that, maybe. I could 
not live with it.
    So we are going to be proceeding on this in concept, but 
also looking at those dollars where we can. But even if we 
fail, and I hope we do not, and I pray that we do not, we have 
to fail trying.
    It is worth the risk. And I believe that based on all of 
the science that I have seen and the people that I have talked 
to, and many people shared a lot of information, including some 
of the people here, that it looks pretty good that we can make 
a positive impact on that system.
    Now we do have differences. And that concerns me very much. 
I would just conclude on this, and if you want to respond to 
it, fine.
    I am concerned that these changes were made, not because 
some of them may not be good, because some of them, I am sure, 
are. But now we have got to go back and reopen this. If we take 
the Administration plan as it is presented, we have to reopen 
the whole situation, because other people, other entities and 
stakeholders are going to want to be reassessed, as well.
    We had an agreement. Now we do not have an agreement, if we 
adopt this plan. And I would just say to you, look, if we go 
back to the original assessment agreement that we had in July 
1999, we can say, if we adopt that, and I am not necessarily 
taking that position at this point, but I am saying if we did, 
we still have the flexibility to adapt to make some of the 
suggestions that you have all talked about, if we want to. So 
let us not forget that.
    I hope we do not get hung up in a big argument over 
specific proposals that we want to place in, that some of us 
want to place in. That is why I am concerned. And I think I 
want to complement all three of you, because you have done a 
great job in defending not only the plan, but the system and 
the project, in general.
    I do not mean to imply anything else, other than to say, I 
think it is regrettable that we now have to reopen the can and 
start all over again. It is going to make our job very 
difficult. And I hope it does not just die the death of other 
WRDA projects.
    This is not just another Water Resources Development Act 
project. It is not. If we are to throw it in there with, and I 
do not want to pick out anything specifically, but we all know 
how many of these there are.
    I have 100 projects and a number of letters from other 
Senators who want their project in a Water Resources 
Development Act bill. And I am prepared, if I have to, to pull 
this one out of there, and run it through separately, as a 
separate proposal, and let the Congress make a judgment.
    So the American people and those who support the 
Everglades, and I think that is a vast majority of the American 
people, will have the opportunity to know who is for it and who 
is not. Because if I have my way about it, there will be a 
vote.
    I do not care where the party lines fall. I do not think it 
is a party line issue, as you can see from the debate here 
today.
    We will have a vote, if I have anything to say about it, on 
a proposal of some kind, to restore the Everglades. And I think 
the American people deserve that, and I think the American 
people deserve to know who is for it, and who is not, and who 
is willing to take the risk and who is not.
    Does anybody here have a comment before we go to the next 
panel; yes?
    Mr. Westphal. Mr. Chairman, I do not know on the changes if 
you are referring, for example, to the addition of water for 
the environment.
    Senator Smith. That is what, 245?
    Mr. Westphal. Yes.
    Senator Smith. That is one.
    Mr. Westphal. On that point, please remember that the 
report from the district that went to the Chief of Engineers 
including that feature is calling for a study of that.
    All we are proposing to do is to study the ability to get 
that additional amount of water, without having any impact on 
the 20 percent of the water that goes to municipal and 
industrial uses. So we are not advancing a proposal to do it. 
We are advancing a proposal to study the feasibility of doing 
that.
    The other point that I would make is that, you know, we 
have talked a lot about partnerships with the State, the 
tribes, and each other here. But we really have a partnership 
with Congress with this. Because the American people have to 
vote on every feature of this plan down the road and on all the 
appropriations.
    Senator Smith. It is step by step.
    Mr. Westphal. So, really, our requirement will be to really 
link up with you, your committee, and the rest of the members 
here and in the House to make sure that we give you the best 
and all of the information required for you to make judicious 
decisions for the American people.
    Senator Smith. Senator Baucus' point on trust is a good 
point. It does involve trust. And we are going to have to, I 
think, demonstrate to the American people that we can work that 
way; that you can bring this project to us, and you can say, 
here is where we are and here is why we can not approve it yet, 
or here is the reason we can approve it.
    Mr. Westphal. Absolutely.
    Senator Smith. I think that is going to take a lot of work 
together, and I believe we can do that.
    Mr. Westphal. Mr. Chairman, I am confident that whatever 
Administration follows the Clinton/Gore Administration, they 
will sit together here, and they will tell you the same things 
we are telling you, commitment to it and support for it and 
willingness to work with you.
    Mr. Guzy. Mr. Chairman, we really respect and appreciate 
your commitment to move this process forward. And, obviously, 
the Administration will work with you anyway that we can to 
accomplish the appropriate authorization.
    Senator Smith. I do not know if you were in the room when I 
made the comment to the first panel this morning, but let me 
just repeat it.
    The process after we finish this hearing would be to work 
together with the Administration and the Corps. and the 
Department of Interior, as well as Senator Graham and Senator 
Mack and the committee members, Senator Baucus and Senator 
Voinovich, of course, who chairs the subcommittee, to try to 
come up with a some kind of a compromise, if you will, or 
legislation in the next weeks, so that we can get it on the 
Floor before the end of the summer. That is the goal.
    Senator Smith. Thank you all.
    Ms. Doyle. Thank you, Mr. Chairman.
    Senator Smith. Senator Graham?
    Senator Graham. Senator Smith, there are a couple of 
letters, one from Dr. Westphal, and another from General 
Ballard, which attempt to clarify this issue of the 245,000. 
And I would like to ask if those could be submitted for the 
record.
    Senator Smith. Certainly, without objection.
    [The referenced documents follow:]
                                               U.S. Senate,
                                     Washington, DC, July 30, 1999.

Lt. Gen. Joe N. Ballard,
Chief of Engineers,
Department of the Army,
Washington, DC 20314.

Dear General Ballard: We are writing to you regarding the Restudy which 
you released to Congress on July 1, 1999. We appreciate all the hard 
work by the Army Corps in developing this comprehensive plan for 
restoration of the Everglades and in ensuring that it was unanimously 
supported by the stakeholders in Florida.
    The Restudy submission capped a lengthy process of coordination 
among many stakeholders with vital interests in the future of the 
Everglades watershed. The draft Restudy was subjected to extensive 
review and comment--a factor that we believe contributed to the 
remarkable coalition assembled in support of its authorization.
    We have received some questions regarding the transmittal letter 
accompanying the Restudy. This letter contained some significant new 
recommendations that were not reflected in the Restudy itself. For 
example, your letter included a commitment to deliver 245,000 acre feet 
of water beyond that recommended in the Restudy to the Everglades 
National Park and Biscayne Bay National Park. We understand that this 
recommendation did not go through the same rigorous public review and 
comment as did the Restudy itself.
    We know that the inclusion of a transmittal letter from the Army 
Corps with this type of report to Congress is standard practice. This 
letter reflects the views of the Secretary as they relate to the 
project recommendations and technical analysis contained in the Chief's 
report. These views are taken into account by Congress as it considers 
proposals for project authorization. In every case, the final decision 
on the content of the authorization is determined by Congress, normally 
through a Water Resources Development Act.
    We appreciate the comments in the transmittal letter and will 
consider them as we move to authorize the Restudy. Please clarify in 
writing that the transmittal letter for the Restudy will function in 
the same manner as all other transmittal letters, as recommendations 
for consideration by Congress.
    Again, we appreciate your hard work on the Restudy, and we look 
forward to hearing from you.
            Sincerely,
                                  Connie Mack, U.S. Senate.
                                   Bob Graham, U.S. Senate.
                                 ______
                                 
                                    Department of the Army,
                          Office of the Chief of Engineers,
     Planning Division, Eastern Planning Management Branch,
                                Washington, DC, September 27, 1999.

Honorable Connie Mack,
U.S. Senate,
Washington, DC 20510.

Dear Senator Mack: This is in response to your letter dated July 30, 
1999, which was cosigned by the Honorable Bob Graham, U.S. Senate, 
concerning the Central and Southern Florida Project Comprehensive 
Review Study (``Restudy'') submitted to Congress by the Assistant 
Secretary of the Army for Civil Works on July 1, 1999.
    As you know, over a 6-year period involving over 30 Federal, State, 
and local agencies, tribal leaders, stakeholders, other interested 
parties, and the general public and through extensive coordination with 
the Governor's Commission for a Sustainable South Florida and the South 
Florida Ecosystem Restoration Task Force, a Comprehensive Plan for 
restoring the Everglades and south Florida ecosystem has been 
developed. Due to the magnitude and complexity of the project, the 
level of multi-agency involvement, political and public interest, and 
the comprehensive nature of the Plan, a decision was made during the 
final policy review at the Washington level that the draft Chief of 
Engineers report released for State and agency review in April 1999 
needed to be expanded to include the findings, conclusions, and 
recommendations of the Restudy efforts. Though the report is lengthy 
and includes extensive information, it does present the complete and 
the latest information on refinements to the Comprehensive Plan and its 
implementation strategy for consideration by the Administration and the 
Congress.
    In furtherance of the Comprehensive Plan, numerous commitments were 
made by the restoration team during public review of the Comprehensive 
Plan, subsequent coordination with other Federal, State, and local 
agencies, and the South Florida Water Management District to 
significantly improve the implementation plan. Many of these 
commitments, like the Corps decision to complete the additional 
analysis to evaluate the proposal to provide an additional 245,000 
acre-feet of water that may be required to southern Everglades and 
Biscayne Bay are reflected in the Jacksonville District's Final 
Comprehensive Restudy. Other commitments stemmed from the public review 
period on the draft Comprehensive Plan and implementation plan in 
October 1998 and January 1999, respectively and the numerous meetings, 
correspondence, and intense coordination efforts during finalization of 
the Comprehensive Plan.
    The Corps is committed to implementing the final plan in a manner 
that provides more water for the Everglades National Park (ENP) and 
Biscayne Bay. Up to about 245,000 acre-feet of additional water may be 
available from urban sources. Assuming this water can be treated to 
acceptable standards and does not result in unacceptable adverse 
impacts to other areas of the natural system, this water may be used to 
enhance overland flow and ecological conditions in ENP and Biscayne 
Bay. As a matter of clarification, the Corps has only committed to 
completing the evaluation on the additional 245,000 acre-feet of water 
that may be required for southern Everglades and Biscayne Bay. The 
ultimate amount of additional water recaptured, its distribution, and 
resolution of water quality issues, requires much more detailed study, 
analysis, coordination, and public review before any recommendation is 
finalized and a report submitted to Congress for authorization. The 
development of the Comprehensive Plan involved a historic partnership 
among Federal, State, local governments, interested groups and the 
general public, and therefore, I determined that including the Restudy 
team's commitments was necessary to provide the Administration and the 
Congress with all the information that helped shape the Comprehensive 
Plan and the complexity of restoring this significant natural resource.
    Thank you for your continued interest in this project. I will 
continue to keep you advised on the progress of this project as we 
proceed with implementation of the Comprehensive Plan.
            Sincerely,
                        Joe N. Ballard, Lieutenant General,
                                      U.S. Army Chief of Engineers.
                                 ______
                                 
                                               U.S. Senate,
                                  Washington, DC, November 9, 1999.

Dr. Joseph Westphal, Assistant Secretary,
Department of the Army (Civil Works),
The Pentagon,
Washington, DC 20310-0108.

Dear Dr. Westphal: We are writing to you to followup on some 
correspondence we exchanged with Lieutenant General Joe Ballard 
regarding the Restudy which you released to Congress on July 1, 1999. 
In this exchange, we requested clarification that the transmittal leper 
that accompanied the Restudy would function as a recommendation for 
consideration by Congress.
    We know the inclusion of a transmittal letter from the Army Corps 
with this type of report to Congress is standard practice. This letter 
reflects the views of the Secretary as they relate to the project 
recommendations and technical analysis contained in the Chiefs report. 
These views are taken into account by Congress as it considers 
proposals for project authorization. In every case, the final decision 
on the content of the authorization is determined by Congress, 
nominally through a Water Resources Development Act.
    In Lieutenant General Ballard's response of September 27, 1999, he 
indicates that, ``numerous commitments were made by the restoration 
team during public review of the Comprehensive Plan, subsequent 
coordination with other Federal, State, and local agencies, and the 
South Florida Water Management District to significantly improve the 
implementation plan. Many of these commitments, like the Corps decision 
to complete the additional analysis to evaluate the proposal to provide 
an additional 245,000 acre-feet of water that may be required to 
southern Everglades and Biscayne Bay are reflected in the Jacksonville 
District's Final Comprehensive Restudy.''
    He goes on to say that, ``. . . the Corps has only committed to 
completing the evaluation on the additional 245,000 acre-feet of water 
that may be required for southern Everglades and Biscayne Bay.''
    Please clarify the following points:
    1) Were commitments made by the Restudy team to provide a full 
additional 245,000 acre-feet of water to the natural system? If so, 
through what process?
    2) Does the transmittal letter indicate a commitment by the Corps 
to provide this water or a commitment to evaluate the potential to 
provide this water?
    We appreciate your hard work on the Restudy and look forward to 
working together on its authorization. However, we believe that the 
interpretation of the intent of the transmittal letter is a lingering 
issue that we wish to resolve before the end of calendar year 1999.
    We look forward to your response.
            Sincerely,
                         Bob Graham, United States Senator.
                        Connie Mack, United States Senator.
                                 ______
                                 
                                    Department of the Army,
                   Office of the Secretary for Civil Works,
                      Washington, DC, 20310-0108, January 24, 2000.

Honorable Bob Graham,
U.S. Senate,
Washington, DC 20510.

Dear Senator Graham: Thank you for your letter of November 9, 1999, co-
signed by Senator Connie Mack, regarding the Chief of Engineers Report 
on the Comprehensive Everglades Restoration Plan (CERP). Specifically, 
you asked me to clarify the Chief's Report provision concerning the 
additional 245,000 acre-feet of water that may be required for 
Everglades National Park (ENP) and Biscayne Bay.
    First, let me state that our commitment is to completing the 
evaluation that is necessary to determine how much of the 245,000 acre 
feet is necessary to restore ENP and Biscayne Bay. This evaluation will 
include more detailed studies, an Environmental Impact Statement, and 
full public review. Once this has been completed, a final executive 
branch decision will be made and a proposal will be forwarded to 
Congress for consideration in a Water Resources Development Act of 
2004. Congress would then have the opportunity to discuss and debate 
the proposal. In short, construction will not start on this proposal 
until it as been studied fully and congressional authorization is 
obtained.
    In regard to the process that led to the Chief's Report provision 
on the 245,000 acre-feet, let me offer the following history. In 
response to the October 1998, draft of the CERP, Department of the 
Interior and other scientists suggested that additional water was 
needed to ensure restoration of the ENP and Biscayne Bay. The 
interagency technical team that developed the CERP evaluated several 
options and concluded that an additional 245,000 acre-feet of water is 
available, that it would provide important benefits to the ENP and 
Biscayne Bay and that it is conceptually feasible to deliver the water 
to the ENP. The principal questions were how to deliver the water to 
the ENP without impacting other parts of the ecosystem (e.g., WCAs and 
farmland) and how much the water would have to be cleaned before it 
could be discharged into the ENP. Contrary to some reports, this was 
discussed in general terms in the final CERP released in April 1999. 
Further, letters clarifying this issue were part of the public record 
that was available for review last April.
    While we believe that restoration of the greater South Florida 
ecosystem is our principle objective, ensuring effective restoration of 
the ENP is also very important. We are confidant that the CERP in 
general, and the 245,000 acre-feet provision in particular, were 
developed with the health of the overall ecosystem, including the human 
environment, in mind. We are very much aware of the need to look beyond 
the ENP boundary to ensure that other important parts of the ecosystem 
like the estuaries and the WCAs are protected and restored.
    I appreciate your leadership on this important national issue--
restoration of America's Everglades. I look forward to working with you 
this year to obtain authorization of the CERP.
            Sincerely,
                                        Joseph W. Westphal,
                     Assistant Secretary of the Army (Civil Works).
    Senator Smith. We thank the panel.
    The next panel is Mr. Ken Keck, who is the Director of 
Legislative and Regulatory Affairs of the Florida Citrus 
Mutual; and Dr. David Guggenheim, the President of the 
Conservancy of Southwest Florida, and the Co-Chair of the 
Everglades Coalition.
    Welcome, gentlemen, and I appreciate you being here. I 
think you two also traveled a long distance to be here, and we 
appreciate it.
    We do try to take the hearings out of town once in a while, 
and we did have one down there. But the hearing, as you know, 
in Florida, was specifically on the issue itself, and this is 
on the Administration proposal or legislation, so it is a 
little bit different.
    Mr. Keck, we will start with you. I appreciate your being 
here. Again, as I indicated before, your entire testimony is 
part of the record, both of you. If you could summarize in 5 
minutes or so, and also kind of indicate to me where your 
problems are with the plan, as opposed to the agreement that 
you had initially, that helps me to focus a little bit on 
trying to build some type of coalition of support.
    Mr. Keck?

 STATEMENT OF KEN KECK, DIRECTOR OF LEGISLATIVE AND REGULATORY 
                 AFFAIRS, FLORIDA CITRUS MUTUAL

    Mr. Keck. Thank you, Chairman Smith, and Senator Graham, 
thank you very much.
    Mr. Chairman and members of the committee, my name is Ken 
Keck. I am employed by Florida Citrus Mutual as the Director of 
Legislative and Regulatory Affairs. Florida Citrus Mutual, as 
you may know, Senator Graham, is a voluntary grower association 
of about 11,500 growers throughout Central and South Florida.
    While historically we raised citrus more in the central 
part of the State, because of the freeze events in the 1980's, 
fully half of the citrus grown in Florida now is within the 
boundaries of the Restudy.
    Let me let the committee know that in preparing our 
testimony, and I say ``our'' in the sense of a broad coalition 
of ag groups in South Florida, I will, if I could, submit for 
the record, Mr. Chairman, the list of groups who do support our 
testimony, today.
    Senator Smith. That will be made a part of the record.
    [The referenced document follows:]
                                 ______
                                 
                Attachment to the Testimony of Ken Keck
    These organizations have endorsed the attached statement of 
concerns with the Administration's legislative proposal relating to 
Everglades Restoration (Section 3 of S. 2437) as of May 9, 2000.

    Florida Farm Bureau
    Florida Citrus Mutual
    Gulf Citrus Growers Association
    Sunshine State Milk Producers
    Florida Fruit and Vegetable Association
    Florida Fertilizer and Agri-Chemical Association
    Florida Sugar Cane League, Inc.
    Sugar Cane Growers Cooperative of Florida
    Miami-Dade County Farm Bureau
    Palm Beach County Farm Bureau
    Western Palm Beach County Farm Bureau
    Lake Worth Drainage District
                                 ______
                                 
Florida Agriculture's Concerns with Administration's WRDA 2000 Proposal
    This paper summarizes eight fundamental problems with the 
Administration's proposal based on the concepts, authorities and 
processes that would shape future water management in South Florida 
under this draft legislation. We are not, at this time, listing all of 
the specific problems we have with many of the provisions. In all 
cases, specific legislative language can be suggested.
    1. Problem:--The bill modifies the balanced purposes for the 
existing C&S Florida Project and, by amending the balanced purposes 
that were re-affirmed in WRDA 96, eliminates this balance for the 
future of this entire project.
    Fix:--The balanced purposes for both the existing and modified C&SF 
Project should be reaffirmed while providing that the primary purpose 
of the Comprehensive Plan is ecosystem restoration, preservation and 
protection.
    2. Problem:--The assurance provisions preempt Florida law governing 
water allocations and reservations and preclude comprehensive water 
management by the local sponsor. They fundamentally alter current 
Federal policy. These provisions establish unprecedented Federal 
authority and control of water quality and quantity.
    Fix:--Assurances can be provided by utilizing the Project 
Implementation Reports for each project component under the Plan which 
can, by agreement of the Secretary and local sponsor, and consistent 
with State law: (1) allocate and reserve the new water supply made 
available, (2) otherwise provide for the allocation of any other 
benefits and (3) establish the component's operating criteria necessary 
to provide the allocations and other benefits.
    3. Problem:--The bill's provisions regarding Project Implementation 
Reports have much less content and are inconsistent with descriptions 
of those Reports in the Comprehensive Plan. These provisions are also 
inconsistent with representations from the Restudy team that these 
Reports will contain all the information needed for a full feasibility 
report and more. These Reports provide an opportunity to address 
assurance issues with a more complete decisionmaking document.
    Fix:--These Reports should meet the requirements of the U.S Water 
Resources Council's Principles and Guidelines and provide all 
information needed to support congressional authorization, approval 
under state law, and answer all questions regarding the allocation of 
benefits and achievement of Project and Comp Plan purposes.
    4. Problem:--The bill authorizes specific project components and 
undefined other components ``consistent with the plan.'' These are all 
project components whose value, cost-effectiveness and benefits have 
not been demonstrated by feasibility level engineering, economic and 
environmental studies. There are no reliable cost estimates on which to 
base authorization for appropriations.
    Fix:--Authorize project modifications after Congress has been able 
to review a completed and fully coordinated feasibility or Project 
Implementation Report.
    5. Problem:--The bill references the Chief's Report of June 22,1999 
that includes additional commitments that were not part of the Plan 
reviewed in consultation with the State and were included without 
notice or opportunity for public comment. If implemented, these 
conditions would have substantial adverse impacts on State interests 
and substantially increase on project costs.
    Fix:--All references to the Chief's Report should be deleted from 
the Bill, confirming that the Plan is based on the Recommended Plan in 
the document of April 1999.
    6. Problem:--The way the Bill approves the Comprehensive Everglades 
Restoration Plan.
    Fix:--Approve the Comprehensive Plan as a guide and framework for a 
continuing planning process to answer remaining environmental and 
technical questions, requiring periodic updates at the time further 
congressional authorizations are requested.
    7. Problem:--The bill acknowledges the need for but does not 
provide a full and equal partnership between the State and Federal 
Governments.
    Fix:--In addition to deleting provisions by which Federal 
allocation of water preempts state law, the bill should provide for (1) 
equal cost sharing of the C&S Florida project including construction of 
project components and operations and maintenance and (2) equal 
decisionmaking for operating protocols in PIR agreements.
    8. Problem:--Compliance with water quality requirements is not 
ensured.
    Fix:--Require that, prior to authorization, project components 
include features necessary to ensure that all discharges meet 
applicable water quality standards and water quality permitting 
requirements.
    Mr. Keck. Please allow me to name these, just knowing in 
the first panel this morning, there was some question: Florida 
Farm Bureau, Gulf Citrus Growers Association, Sunshine State 
Milk Producers, Florida Fruit and Vegetable Association; 
Florida Fertilizer and Agri-Chemical Association, Florida Sugar 
Cane League, Inc., Sugar Cane Growers Cooperative of Florida, 
Miami-Dade County Farm Bureau, Palm Beach County Farm Bureau, 
Western Palm Beach County Farm Bureau, and Lake Worth Drainage 
District.
    We responded to Senator Graham and Senator Mack's staff who 
asked for a response to the Administration's proposal. Through 
a series of meetings, phone calls, faxes, e-mails, we came up 
with our core eight concerns with the Administration's bill.
    Let me start by saying that all of the groups do support 
the plan; that is, the plan that was submitted to Congress in 
April 1999. However, the implementation of that plan, which of 
course was not subject to review by the groups is what we 
primarily have the difference with.
    Florida ag participated extensively in that Federal/State 
Restudy process that produced that plan, and we expect to 
continue to participate in that process, just to make that 
clear to the committee. We are prepared to support major 
improvements to the water management system.
    However, we believe that the importance of the Everglades 
restoration and the other vital project purposes demand that 
project modifications be based on, and this is no secret, sound 
science, be the product of objective analysis, and be 
implemented in an orderly way. All of this is hopefully to 
ensure that the needs of our growers, landowners, and 
businesses are met.
    Because of the precedent setting nature, the policy issues 
raised by S. 2437 should be the concern of every member, 
obviously, of this committee, as well as the Congress. Because 
the plan is the first large Federal water project with 
ecosystem restoration as its primary objective, we see this 
being modeled perhaps throughout the country, in other areas of 
environmental distress.
    Our profound disappointment with the Administration's bill 
makes us hope that the committee can start with a fresh 
beginning, and that the committee does not feel bound or tied 
to the Administration's approach.
    We see the problems in the Administration continually at 
this table, seeking to insist on the projects with no 
feasibility studies, and ultimately, the Administration 
attempts to undo the balanced purposes of the existing CS&F 
project.
    Moving on to our top three specifics, the bill eliminates 
the balanced purposes of the existing modified CS&F project 
that were affirmed in the WRDA 1996. So to have that Section 
528 of WRDA 1996 reinserted into this committee's product would 
be a real high priority for us.
    We think the balanced purposes that tie into the assurances 
language in that we advocate that the Feds enter into 
agreements with the State, as to what benefits will 
specifically come out of out each project; what water 
quantities will specifically come out of each project; and 
where those will be channeled. We think that these balanced 
purposes can get reflected, or I should say, would subsume the 
assurances issue.
    Second, we really have concerns about this committee giving 
blanket authorizations, and not project-by-project 
authorizations. I think ultimately your constituencies and 
taxpayers who will look for things like flood protection 
ultimately will not favor such a process that has a blanket 
authorization.
    And, of course, my written testimony lists some of the 
other concerns, but I point out those as priorities. Thank you, 
Mr. Chairman.
    Senator Smith. Thank you, Mr. Keck.
    Mr. Guggenheim?

 STATEMENT OF DR. DAVID GUGGENHEIM, PRESIDENT, THE CONSERVANCY 
    OF SOUTHWEST FLORIDA, CO-CHAIR, THE EVERGLADES COALITION

    Mr. Guggenheim. Thank you, Mr. Chairman, good afternoon. I 
am David Guggenheim, the Florida Co-Chair of the Everglades 
Coalition, and President and CEO of the Conservancy of 
Southwest Florida in Naples.
    I am representing the Everglades Coalition, which is 40 
national, State, and local organizations, working together on 
behalf of protecting and restoring the Everglades.
    I first want to acknowledge, Mr. Chairman, your leadership 
and your very eloquent remarks following the previous panel. It 
is very much appreciated. And Senator Graham, of course, your 
ongoing leadership on this issue is also very much appreciated.
    Today, America's Everglades are this Nation's most 
endangered ecosystem. Our lack of foresight over the past 
century has resulted in a devastated ecosystem, threatening not 
only the wildlife that lives within it, but also a way of life 
for millions in South Florida, who call South Florida and will 
call South Florida their home.
    Today, the status quo represents the greatest risk to the 
Everglades ecosystem and to taxpayers. We are pushing the 
ecosystem and the endangered species that live there to the 
brink with unknown consequences. With every passing day, 
restoration becomes more uncertain and more expensive.
    Severe habitat loss and fragmentation of that habitat 
throughout South Florida continues at a very rapid pace, 
threatening 68 species, including the Florida panther, the wood 
stork, the Cape Sable seaside sparrow, among many others. And 
these species continue to decline.
    We have disrupted fresh waterflows, which has led to too 
little fresh water in some cases, and too much fresh water in 
others. And it is a profoundly tragic irony that in a system 
that is often terribly thirsty for water, we have also managed 
to make fresh water a pollutant.
    Just earlier this week, Lee County has filed an injunction, 
or has moved forward to file an injunction, against the Water 
Management District concerning excessive fresh waterflows down 
the Caloosahatchee, as an attempt to reduce water levels in 
Lake Okeechobee. And I think that just very dramatically 
illustrates how the system is being operated under emergency 
conditions. And we are trading impacts in one part of an 
ecosystem for impacts in another on a regular basis.
    I think, Mr. Chairman, as you stated earlier today, we do 
need to act this year. This is the year of the Everglades. And 
like you, the Coalition strongly believes that Congress should 
move forward this year to enact legislation that truly results 
in the restoration of America's Everglades.
    We believe that the Restoration Plan submitted by the 
Corps. clearly contains numerous strong points. For example, 
the legislation appropriately establishes the priority of 
restoring the ecosystem first, with water supply and flood 
protection goals concurrent but subsidiary.
    The legislation also includes initial authorization of 10 
projects that will provide critical benefits for the natural 
system. However, the coalition believes that the legislation 
should be improved in a number of areas to ensure that it 
achieves its intent of restoring the Everglades.
    We have a couple of overarching comments, and then eight 
very specific and brief comments about the legislation.
    First, as I mentioned, the legislation contains 10 specific 
projects for authorization. The Everglades Coalition believes 
approval of all 10 of these is absolutely essential. These 
projects were specifically chosen for their ability in concert 
to provide significant restoration benefits within the first 
decade of this restoration effort.
    Included in that list of 10 projects is the Talisman Water 
Storage Reservoir. This project represents one of the highest 
priorities, in our opinion, because it begins the process of 
recapturing water and seasonally storing water that is 
currently wasted.
    It will provide immediate relief from the current crisis 
conditions by giving water managers the very badly needed 
flexibility to manage that water. And this directly relates to 
the issue with Lee County.
    We also have eight specific and brief comments on the 
legislation. First and foremost, this effort is about restoring 
the ecosystem. The principal goal is to restore the natural 
functioning of the greater Everglades ecosystem. And this 
project also has secondary benefits of flood control and water 
supply, which must be compatible with the principal goal.
    No. 2, the Department of Interior and the Corps. must be 
co-equal partners in developing the design, plan, and 
regulations for at least those new project features that are 
intended to provide benefits for federally managed lands.
    No. 3, the authorization should institutionalize the peer 
review process led by the National Academy of Sciences, to 
review and provide recommendations to the agencies on a 
restoration process for its entire duration.
    Such a body would also provide Congress with an independent 
source of expertise, and enable it to better evaluate the 
progress of restoration and its associated activities. And that 
also includes the development of performance measures.
    No. 4, the authorization should include a process that will 
ensure the coordination of other Federal actions in and around 
the Everglades ecosystem with regard to the restoration effort. 
It is counter-productive to have other Federal agencies working 
at odds with each other. And I think such a provision could 
have avoided the conflict that we are now experiencing with 
regard to the Homestead Air Force Base.
    No. 5, there should be no irreversible or irretrievable 
commitments of resources to the project that rely upon pilot 
projects for their justification. For example, the development 
of land in the L-31N project area should not proceed until the 
completion of the pilot project in that critical project 
feature.
    No. 6, the authorization should be crystal clear about what 
benefits it intends to provide for America's Everglades. This 
will ensure that this bill to restore the Everglades actually 
will restore the Everglades.
    No. 7, the authorization should provide a process to 
expeditiously purchase lands necessary for wildlife habitat and 
projects that are under extreme development pressure in and 
around the ecosystem.
    Finally, the authorization should require agency reports to 
Congress concerning the progress of the restoration every 2 
years, not every 5 years, as currently proposed. The 2-year 
report requirement would be consistent with the WRDA cycle, and 
enable more engaged and effective review by Congress and the 
National Academy of Sciences.
    Summer camp gets under way at the Conservancy in about 2 
weeks. It is a time when I reflect on education. And, Mr. 
Chairman, as you mentioned earlier, this is very much about the 
next generation.
    Many of these kids are rather disturbed to hear that when I 
was their age, the Everglades were in trouble, and that they 
are still in trouble today. And I think it is a commitment that 
we owe them and their children.
    We have a tremendous opportunity before us. We stand at the 
brink of a point in time where we can truly restore America's 
Everglades. And our success depends on swift and decisive 
action this year.
    On behalf of the Everglades Coalition, thank you for the 
opportunity to speak, and thank you again for your leadership 
on this issue.
    Senator Smith. Thank you for your testimony, Dr. 
Guggenheim.
    Senator Graham, you may go ahead, if you have some 
questions.
    Senator Graham. Well, I come back to the continuing issue 
of whether there is a sufficient amount of detail in the Corps. 
plan to justify moving forward this year.
    Mr. Keck, there are 10 specific projects that are being 
recommended for authorization to proceed. Are there any of 
those 10 projects that you think are mature enough to justify 
going forward?
    Mr. Keck. Senator, yes, but in many cases, and this is the 
problem with blanket authorization, many of the feasibility 
studies have not even begun, as of today.
    So if I am looking to plan investments or capital as a 
citrus grower, then I might be concerned if I picked up my 
paper and saw that there could be something happening in a 
certain area, for instance, land purchases for reservoirs, et 
cetera. It might damage or not help my planning process as a 
businessman.
    Senator Graham. Well, there are 10 specific projects 
outlined in the legislation, the first of which is the C-44 
basin storage reservoir. And as Ms. Doyle indicated, most of 
the 10, or at least a majority of the 10, are similar to that, 
in that they are water storage purposes.
    I am not certain whether it was you or Dr. Guggenheim that 
mentioned that there may well be a suit now by Lee County 
against the South Florida Water Management District. As I 
understand it, the basis of that suit is that the Water 
Management District had so much water stored in Lake Okeechobee 
that it was having an adverse effect on the habitat of the lake 
and the fish in the lake.
    And, therefore, they released water out of Lake Okeechobee. 
Under the current options, they had a limited number of places 
to release it.
    One of those is down the Caloosahatchee River. It ends up 
in Lee County. As it has done many times in the past, it caused 
environmental damage by having that surge of fresh water hit 
the salt water. Bad things have happened, and it may now end up 
in more litigation.
    So there are 10 of these projects, of which several, 
including that first one, have as their specific objective to 
try to avoid those kind of surge releases. So there is some 
sense of urgency to get on with those projects so we do not 
have more examples in Lee County, on the Gulf Coast, and around 
the Steward area on the East Coast being affected by these 
surge releases.
    So I guess the question is, taking that first one, the C-44 
basin storage reserve or reservoir, do you feel that one is 
mature enough that the Congress could proceed in 2000 to 
authorize that project?
    Mr. Keck. As long as there was some provision, perhaps, to 
come back to the Congress when feasibility has been better 
explored or nailed down.
    Senator Graham. I wonder if you might suggest what you 
think would be a set of sort of gates that should be erected 
between authorization and actual proceeding to either purchase 
land or commence design or start construction that should be 
created. And on these 10 projects, if you could almost rate 
them as to which ones you think are closet to being mature, and 
those that are the furthest away from being ready to be 
authorized.
    Mr. Keck. And Senator, on that latter part of your 
question, I would ask to submit that for the record at a later 
point, just with more specificity.
    The Restudy submitted to the Congress back in April had a 
definition of PIRS that is very different from the bill that 
the Administration presents to this committee today. So in 
other words, I would ask this committee and the committee staff 
to go back to the Restudy, itself. Because we are very 
confident that that PIR system that we all agreed to would be 
ideal.
    Mr. Guggenheim. I think we are discussing two issues here. 
One deals with the process. And it is the view of the Coalition 
obviously, that there is extreme urgency to take action.
    We also respect the need for congressional oversight. And 
we would just ask, respectfully that however Congress decides 
to solve this issue, it not be an excuse to hold up 
authorization this year; that there is some sort of set of 
oversight that can be achieved to allow these projects to move 
forward.
    The other issue that is, I think, embedded in this 
discussion is the one of scientific uncertainty. You know, 
speaking as a scientist, I should be the one that says we 
should do more studying. But at the same time, there is a 
practical side of this. And I think we run the risk, quite 
literally, of studying the Everglades to death.
    We need to take action, which means that there is 
uncertainty in the Comprehensive Restoration Plan. The first 
thing is, how do we evaluate whether the plan is going to work? 
I heard Senator Baucus ask that question earlier.
    Well, in order to get a grasp on the success, the Corps. 
has simulated the behavior of the system under different 
strategies through computer modeling. And as a modeler, myself, 
that is something that I understand and appreciate.
    There are two fundamental questions that I ask, when I look 
at a computer model. The first question is, is this a robust 
system? In other words, as you tweak different variables in the 
system, will the whole house of cards fall apart?
    Well, the Corps. convinced me that this is a robust system; 
that it is not fragile in that sense, and would not fall apart 
immediately, if things did not turn out quite the way we 
planned.
    Second is, is the model flexible? Is the system being 
modeled flexibly? When we apply this in the real world, the 
real world is always somewhat different than the computer 
simulated world.
    Will the system provide flexibility, for example, to store 
more water in one location than in another, as we had 
originally assumed? And the answer is, yes. Those two 
components, the robustness and the flexibility, are underlying 
components. And that gives us some reassurance that as we deal 
with this uncertainty, that we can move forward.
    The real key is then in the role of the peer review panel. 
The peer review panel has a very important role. And that is to 
make sure that the goals of the restoration are translated into 
some meaningful performance targets for congressional 
oversight, so that we can evaluate where we are at each step of 
the way, and make sure that this project is, indeed, doing what 
it is supposed to do.
    I think they would be working closely with the Corps. and 
overseeing very closely what the Corps. does along those lines.
    Senator Smith. Mr. Guggenheim, this is a big assumption, 
but assuming the results of the waste water pilot project are 
good, do you favor putting this advance treated waste water 
into the natural system?
    Mr. Guggenheim. It is not an ideal solution. But I think we 
would have to look carefully at the water quality. That is 
ultimately what matters to the system. We are talking about an 
ecosystem that relies on exceptionally low levels of nutrients.
    We would prefer a means of getting water to the system that 
does not involve using waste water. But it could be conceivably 
acceptable. But I think we would need to look at that 
carefully.
    Senator Smith. You would need to take a look at it 
carefully, yes. I feel the same way.
    I want to ask you the same question I asked the previous 
panel. As you know, the Administration proposal changes or 
basically substitutes natural system for ecosystem. Well, let 
me just read it back for you, in case you did not hear it.
    Under WRDA 1996, ``The Secretary shall develop a plan for 
the purpose of restoring, preserving, and protecting the South 
Florida ecosystem.'' That was in the agreement that came to us 
in April or July 1999. And then the language is changed in the 
Administration proposal to say, ``The overarching purpose of 
the plan is to protect, preserve, and restore the natural 
system.''
    I would assume that you would probably prefer the later 
language. But is the first language acceptable to you, at least 
in terms of getting the project started? I know it was, 
initially, but have you changed your position?
    Mr. Guggenheim. I do not believe we have changed our 
position on that at all, no. If you are talking about the WRDA 
1996 language, then we are comfortable with that.
    Senator Smith. Because I think the Army Corps. or someone 
on the panel, when I asked that question, said, well, you know, 
things change. But I do not know that anything specific was 
brought up.
    I am not trying to entrap anybody here. I am just trying to 
get my own understanding, as we try to work this through, as to 
what the thought process was at the time.
    Mr. Keck, again, going back to the April Restudy, the 10 
initial projects that were authorized there, that is prior to 
the PIRs being completed. You know, agriculture was part of 
this, and it was a unanimous agreement. Do you still stand 
behind all of the agreement that was made in the April Restudy?
    Mr. Keck. I would just point out, Mr. Chairman, that 
agriculture did not have, nor did any other party have, a 
chance to agree on the chapter on implementation. So the 
overall plan, the concept, the theory, yes, agreement was 
there. But just keep that in mind as your committee goes 
forward.
    Senator Smith. OK, I am a little fuzzy on the details of 
the details of the condition of Talisman lease. Your testimony, 
Dr. Guggenheim, was excellent.
    I wish we could show it, for the benefit of those who are 
watching on camera. But the location of that area of the 
Talisman property, of course, just south of Okeechobee, is very 
important to the whole study, which is why that is the prime 
piece of property that is in dispute here.
    Mr. Guggenheim. Yes.
    Senator Smith. But Mr. Keck, do you know the details of 
that lease? In other words, can you tell me the agriculture 
interest in paying to lease the land; and what, if any, 
problems will occur if you are asked to vacate, in accordance 
with that lease agreement?
    Mr. Keck. Mr. Chairman, I do not know the details of that. 
I would not be able to speak to that. But certainly we would be 
able to provide from the record, from the ag groups.
    Senator Smith. All right, we will take that for the record. 
Of course, if the sugar industry were here to testify, they 
could answer that question, which is also regrettable.
    Mr. Keck. But I might point out, this militates perhaps a 
shored up EIR process, as is in the Restudy. Perhaps some of 
these things might be avoided at this point.
    Senator Smith. Does anyone else have any other comment that 
you wish to make, that we may have omitted or left out, or do 
you want to respond to anything else?
    Mr. Guggenheim. I would just add on that issue of the 
Talisman Tract that another element here that underscores the 
urgency of acting this year is the fact that there are some 
notification requirements in the contract for those lands that 
are currently leased by the agricultural interests. And those 
notification requirements are such that notification must be 
given by October, 2002.
    If not, then the lease would continue for another 3 years. 
And that would continue to delay the process of getting 
restoration under way and using those lands. So there is some 
very real, immediate pressure to move forward with the Talisman 
property.
    Senator Smith. As I understand it, that had ample public 
comment, correct?
    Mr. Guggenheim. I believe so.
    Senator Smith. I do not have any further questions.
    Do you have any further questions for this panel, Senator 
Graham?
    Senator Graham. No, Mr. Chairman.
    Senator Smith. Well, let me thank the panel very much for 
taking the time to come up here. We appreciate it.
    Mr. Guggenheim. Thank you very much.
    Senator Smith. At this point, I would just say that the 
record will be kept open until the end of business tomorrow for 
any Senators that might wish to ask questions of any witnesses. 
And if you could provide the information on the lease for the 
record, Mr. Keck, I would appreciate it.
    I want to thank everyone in the audience. At this point, 
the hearing is now adjourned.
    [Whereupon, at 3:57 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
 Statement of Hon. John Warner, U.S. Senator from the Commonwealth of 
                                Virginia
    I join my colleagues in welcoming you to the Committee this 
morning. The restoration of the South Florida Ecosystem, and 
particularly the restoration of our national parks and wildlife refuges 
in the area, is an enormous job that will require a strong Federal, 
state local Government and private sector partnership.
    As I look at the magnitude of the Federal commitment the Congress 
is being asked to approve, I the issues in this way.
    First, we must be sure that the science fully supports the 
investment of Federal dollars. We must know that projects we build will 
work.
    Second, we must be sure that the Congress fully exercises its 
responsibilities to examine the technical, economic and environmental 
merits of each of the individual construction projects before they are 
authorized for construction.
    Third, we must be sure that Federal funds are used to restore the 
natural system, particularly our Federal projects, and not use limited 
Federal funds to accelerate growth and development in South Florida. 
Those are not Federal responsibilities.
    Fourth, we must develop a reasonable implementation schedule for 
the restoration plan, recognizing that there are many critical water 
resource needs across this nation ranging from navigation, lock and dam 
improvements which are critical to moving American's manufacturing 
goods and farm products to worldwide markets. The efficient 
transportation of these goods is essential if we are to compete in a 
one-world market.
                               __________
 Statement of Hon. Frank R. Lautenberg, U.S. Senator from the State of 
                               New Jersey
    Mr. Chairman, thank you for the opportunity to review the 
Comprehensive Everglades Restoration Plan.
    The Everglades are one of our nation's most important natural 
treasures and we have a responsibility as a nation to preserve them, 
just as we do the national parks in New Jersey and elsewhere.
    Senator Graham has done an outstanding job in bringing the 
Everglades to the attention of our Committee.
    The Everglades of today are not the same place that they were in 
1947. I think we can all agree that restoration of the Everglades is 
necessary. The current predicament of the Everglades is due in large 
part to mistakes that were made because we lacked the knowledge we have 
today about the harm that humans can impose on the natural environment.
    But we must be cautious not to compound one man-made problem with 
another.
    During the past 52 years Congress has selected choices for the 
Everglades based on the state of the science at the time. I am pleased 
to see that the Plan before us has sufficient flexibility to address 
new information obtained during the Implementation process. I just want 
to raise a few concerns.
    First, how do we assure that the so-called ``new'' water captured 
under the plan will be provided to the environment in a quantity 
sufficient to restore the Everglades and ensure that it thrives? I was 
astounded to learn that, on average, 1.7 billion gallons of water that 
once flowed through the ecosystem is wasted every day through 
discharges to the ocean and gulf.
    So I'm concerned that, as the demands for water increase in the 
future, we have protections in place to ensure that the needs of the 
plants and animals will continue to be met.
    Secondly, how can we justify the 40-60 cost sharing for Operation 
and Maintenance of this project? Usually, operations and maintenance 
costs are the sole responsibility of the non-Federal sponsor.
    In my state, the Port users and the State of New Jersey are paying 
100 percent of the costs of similar public works projects in good 
faith. I look forward to learning more about this funding arrangement.
    Thank you, Mr. Chairman.
                               __________
         Statement of Hon. Jeb Bush, Governor, State of Florida
    Chairman Smith, Senator Baucus, Senator Graham and members of the 
committee, thank you for this opportunity to speak about one of our 
true national treasures, America's Everglades. Thank you also to 
Senator Mack for making the special effort to join us. I would like to 
have my extended written statement included in the record.
    I am here to bring you some good news, some hard truths and a 
challenge. This year, together, we will begin the massive, yet 
necessary, undertaking of restoring the Everglades. Restoring America's 
Everglades builds on the very American ideal that there are unique 
landscapes that we as a nation believe are worth preserving. It is also 
an ideal that is now worthy of action.
    First, the good news. Last Friday, Florida concluded its annual 
legislative session. I can proudly report to the Congress that our 
commitment to the Everglades is solid. In fact, it is more than solid. 
As of next Tuesday, it will be the law. As part of our State budget, 
the Florida Legislature has appropriated an unprecedented level of 
funding to begin the implementation of the Restudy more than $136 
million in the first year alone. These dollars will be matched by local 
governments and the South Florida Water Management District for a total 
of $221 million to begin this important work.
    Next week, I will be joined in South Florida by Federal, State and 
local leaders to sign into law Florida's Everglades Restoration 
Investment Act--a measure that passed the Florida Senate and House of 
Representatives unanimously. With this new law, Florida will contribute 
over $2 billion to the Restudy project over the next 10 years. It will 
not only codify our long-term monetary commitment to the Everglades, 
but will create the Save Our Everglades Trust Fund that will enable 
Florida to save money for peak spending years on the horizon. No other 
State has made such a substantial financial commitment to a project yet 
to be authorized by the Federal Government.
    Second, the hard truths. This is not the first time Florida has 
``gone first.'' Since 1983, when then-Governor Bob Graham created the 
Save Our Everglades program, the State of Florida has spent over $2.3 
billion and acquired more than 1 million acres of land to avoid further 
destruction and degradation of the River of Grass. All of this is to 
say that the time has come for a legitimate and equal partnership with 
the Federal Government. I believe this project will require Washington 
to think anew. Too often in the past, partnerships of this nature 
between Federal and State governments have been anything but 
partnerships. At their worst, they have been master/servant 
arrangements. The Administration's bill that you are considering here 
today is a particularly egregious example of this. What had been a 
consensus plan among all the parties both State and Federal for 
restoring the Everglades would be recast. The Administration's bill 
seeks to redefine the project purpose; to establish Federal agencies as 
principal managers of South Florida's water resources; and to be the 
sole arbiter of differences. We must rebalance the relationship into a 
true and equal partnership.
    Water Resources Development Act projects typically require a 20 or 
30 percent financial commitment from the States. Yet Florida now stands 
ready to deliver with a 50 percent commitment. In exchange, we seek a 
new structure of governance. Because of the importance of this project 
and the enormity of the task ahead, Florida believes that it should be 
on equal footing with the Federal Government not only in terms of 
financing, but in managing, governing and operating this project.
    Working as equal partners not only makes business sense, but also 
makes for good public policy. Disputes will be resolved quickly and 
fairly. Opportunities for cost savings will be more readily identified 
and pursued. And both partners will reap the benefits of cooperation 
and consensus.
    Finally, the challenge. Florida needs your commitment. It is 
apparent that Americans across the country support restoring the 
America's Everglades the same way we have protected Yellowstone and the 
Grand Canyon. Foremost, we need to put Washington's financial 
commitment on the table. Congress should not delay in providing funding 
to match dollar for dollar Florida's commitment. Congress should also 
pass a stand-alone Everglades Bill, one that demonstrates your own 
dedication to this endeavor. And Congress should, in cooperation with 
the Administration and Florida, craft a project authorization that for 
the first time puts Florida and the Federal Government on equal 
footing.
    With this commitment from Washington, our Federal, State and local 
governments will protect 68 federally endangered species that call 
America's Everglades home. We will recapture the 1.7 billion gallons of 
water that are now channeled out to sea and use it to help restore 
natural systems. And we will, in the tradition of Theodore Roosevelt, 
continue America's legacy of stewardship.
    Mr. Chairman and members of the committee, let your own legacy be 
that of saving America's Everglades. All of the elements are in place. 
All that remains is your steadfast response. First through 
authorization, then through appropriation. We have done everything 
possible to make it easy for you to say yes. The State of Florida is 
now ready and willing to be your partner to restore America's 
Everglades.
    Thank you Chairman Smith for your leadership.
                                 ______
                                 
          Additional Statement Submitted by Governor Jeb Bush
                       federal resources at risk
    The Central and Southern Florida Project was authorized by the U.S. 
Congress over 50 years ago to provide flood protection and fresh water 
to south Florida. The Federal project:

    <bullet>  Encompasses 18,000 square miles;
    <bullet>  Covers 16 counties; and
    <bullet>  Includes 1,000 miles of canals, 720 miles of levees, and 
almost 200 water control structures.

    These alterations accomplished their intended purpose, but at 
tremendous ecological cost to America's Everglades.
    There are numerous Federal trust resources now at risk in the south 
Florida ecosystem because of the construction of the Central and 
Southern Florida Project, including:

    <bullet>  Everglades National Park;
    <bullet>  Biscayne Bay National Park;
    <bullet>  Big Cypress National Preserve;
    <bullet>  Loxahatchee National Wildlife Refuge;
    <bullet>  Ten Thousand Islands National Wildlife Refuge;
    <bullet>  The Florida Panther National Wildlife Refuge; and
    <bullet>  Sixty-eight endangered or threatened plant and animal 
species listed by the U.S. Fish and Wildlife Service, including the 
Florida Panther and West Indian Manatee.

    These Federal interests are threatened because alterations to the 
natural system have resulted in the following:

    <bullet>  A reduction of approximately 70 percent less water 
flowing into the Everglades today than during the 1800's;
    <bullet>  High nutrients entering the ecosystem from the watersheds 
to the north;
    <bullet>  A disruption of the timing and duration of water in the 
natural Everglades, Lake Okeechobee and coastal estuaries; and
    <bullet>  A reduction or elimination of habitat.
             the comprehensive everglades restoration plan
    The Comprehensive Everglades Restoration Plan provides the 
framework for restoring and protecting America's treasure the 
Everglades. The Restoration Plan will restore the natural hydroperiod 
of the south Florida ecosystem, disrupted by the Central and Southern 
Florida Project, by addressing four fundamental issues: the quantity, 
quality, timing, and distribution of water.
    The Restoration Plan now before Congress will result in the 
recovery of a healthy, sustainable Everglades ecosystem by restoring 
the major characteristics that defined the historic Everglades its 
large size and its interconnected water system. By removing many miles 
of levees and canals and capturing water currently funneled to sea, the 
Restoration Plan will reestablish the essential defining features of 
the historic Everglades over large portions of the remaining area.
    The basic approach of the Restoration Plan is to capture 1.7 
billion gallons of water per day that on average go to the ocean 
because of over-drainage by the Central and Southern Florida Project. 
The stored water will be used to the benefit of the natural system and 
other water-related needs of the regions. Some of the benefits are:

    <bullet>  Water will be stored in surface and underground storage 
areas until it is needed to supply the natural system as well as urban 
and agricultural needs.
    <bullet>  The timing and distribution of water to the ecosystem 
will be modified to more closely approximate pre-drainage patterns.
    <bullet>  Wetlands-based stormwater treatment areas will be built 
to improve the quality of water discharged into the natural system.
    <bullet>  Many miles of levees and canals will be removed to 
improve the connectivity of natural areas.

    The Restoration Plan is remarkably sound. It balances environmental 
restoration, water supply, and flood control.
                        benefits of restoration
    Implementation of the Restoration Plan will:

    <bullet>  Improve the health of over 2.4 million acres of the south 
Florida ecosystem, including Everglades National Park and other 
federally and State managed lands;
    <bullet>  Improve the health of Lake Okeechobee;
    <bullet>  Virtually eliminate damaging fresh water releases to the 
estuaries;
    <bullet>  Improve water deliveries to Florida and Biscayne Bays;
    <bullet>  Improve water quality;
    <bullet>  Enhance water supply and maintain flood protection; and
    <bullet>  Provide enough water for the ecosystem and urban and 
agricultural users by the year 2050.
                 florida's commitment to the everglades
    The State of Florida's long-standing commitment to the Everglades 
dates back to 1947 when the State donated the majority of the lands to 
the Federal Government for what is now Everglades National Park. Since 
that initial donation, Florida has:

    <bullet>  Spent $3.3 billion on land, restoration, and protection 
activities in the south Florida ecosystem;
    <bullet>  Acquired almost 3.4 million acres of conservation land in 
the Everglades ecosystem;
    <bullet>  Donated nearly 43,000 acres of land to the National Park 
Service in the Everglades National Park expansion area;
    <bullet>  Acquired and contributed or leased to the Federal 
Government:

<bullet>  908,931 acres in Everglades National Park;
<bullet>  237,287 acres in the Big Cypress National Preserve;
<bullet>  144,842 acres in the Loxahatchee National Wildlife Refuge;
<bullet>  74,139 acres in Biscayne Bay National Park; and

    <bullet>  Acquired, for future transfer to the National Park 
Service, approximately 20 percent of the 146,117 acre Big Cypress 
National Preserve Expansion Area; and
    <bullet>  Established a 10-year funding plan that provides over $2 
billion of State and local sources to fund Florida's share of 
Everglades restoration costs.
                                summary
    In closing, the Restoration Plan has broad support from Federal, 
State, tribal and local governments, environmentalists, industry, 
public utilities, and the agriculture community. It is a comprehensive 
solution for ecosystem restoration, water supply, and flood control. 
The State of Florida is ready, willing and waiting to forge a new, 
complete partnership with the Federal Government to protect national 
interests by restoring America's Everglades.
                                 ______
                                 
  Responses by Governor Jeb Bush to Additional Questions from Senator 
                                 Smith
    Question 1. Can you please comment on the State's position 
regarding assurances language and what the State would alternatively 
propose as a mechanism to assure the natural system is the primary 
beneficiary of this plan?
    Response. The Administration's proposed language deviates from the 
primary purposes of the Water Resources Development Act of 1996 and is 
not consistent with the assurances language in the Comprehensive Plan. 
The assurances language as proposed by the Administration's bill 
provides only for the natural system and precludes the other water-
related needs of the region. The proposed language also fails to 
recognize that Florida water law provides full protection of natural 
systems through the establishment of minimum flows and levels and 
reservations. We believe that authorizing legislation should not 
undermine protective Florida water law. The State of Florida proposes 
language that clarifies the water for the natural system will be 
managed to meet the natural systems spatial and temporal needs, but 
does not limit dedication and management to just the natural system. 
The State's approach is to require the Project Implementation Reports 
(PIR) to identify new water made available from each project component 
for the natural system and other water uses and then implement water 
reservations for the natural system and allocations for other water 
uses in accordance with State law.

    Question 2. Are you supportive of the project component that would 
take advanced treated wastewater and return it to the natural system?
    Response. There are two project components that reclaim advanced 
treated wastewater for restoration purposes. The State of Florida is a 
leader nationally in the beneficial uses of reclaimed wastewater. 
However, any discharge of wastewater into surface waters will require 
advanced treatment and will be subject to rigorous regulatory 
requirements. The State will continue to work with the Army Corps of 
Engineers to investigate other sources of water for natural system 
restoration, but we still consider reuse water a viable option for 
restoration purposes.

    Question 3. Can you describe the Everglades funding measure that 
just passed the Florida State legislature?
    Response. The Legislature established a 10 year funding plan that 
provides over $2 billion of State and local sources of funds for the 
Comprehensive Everglades Restoration Plan. The legislation also 
establishes a dedicated trust fund to invest funds for future peak 
funding years and to accrue interests that will be reinvested in the 
restoration effort. The Florida Legislature appropriated the first year 
contribution of $105 million. This is the first time a State has ever 
made such a commitment of this magnitude prior to Federal 
authorization.

    Question 4. On March 2 and 3, the Governor's Commission for a 
Sustainable South Florida unanimously approved the version of the Plan 
that became the April 1999 Restudy. Ken Keck of Florida Citrus Mutual 
testified that the members of the Governor's Commission did not have a 
vote on the implementation of the Plan. This is contrary to what 
Section 10 of the Restudy says, as well as what the minutes of the 
meeting document. Can you clarify?
    Response. The Governor's Commission for a Sustainable South Florida 
unanimously approved a report in support of the Implementation Plan and 
provided recommended assurances language to the Army Corps of Engineers 
with no dissenting votes (as documented by the Governor's Commission 
for a Sustainable South Florida meeting minutes dated March 3, 1999). 
Roll call votes were not taken during Governor's Commission for a 
Sustainable South Florida meetings. Instead, there was a call for 
dissenting votes.

    Question 5. As you know, it is the non-Federal sponsor's 
responsibility to purchase land. What would the impact be on the land 
acquisition process in Florida if the Federal Government did not 
authorize the initial suite of ten projects this year?
    Response. This is not a typical Water Resources Development Act 
project and we challenge the traditional Federal and non-Federal 
project responsibilities. The State of Florida seeks a true 50/50 
partnership that would allow for the Federal Government to share in the 
cost of lands and correspondingly allow the non-Federal project sponsor 
share in the design and construction of project components. Having said 
that, the State of Florida has already acquired large areas needed and 
has a plan that ensures that the State of Florida and South Florida 
Water Management District will continue to buy land for restoration 
purposes in South Florida. However, in order to meet the timetables set 
forth in the implementation plan, the local sponsor is expected to 
purchase $750 million worth of land in the first 3 years alone. Without 
an authorized project, this puts the local sponsor at great financial 
risk to invest this sum of money with no guarantee that there will be 
any Federal participation.

    Question 6. Are there other important reasons to move forward with 
authorization of this initial set of ten projects this year? Can you 
describe what the impacts of delay would mean for the ecosystem?
    Response. Performance measures developed to determine the 
effectiveness of the Comprehensive Plan indicate that implementation 
will provide phenomenal restoration results. Most areas of the 
remaining natural system will have their natural hydroperiods restored. 
The coastal estuaries will be protected from the frequent catastrophic 
releases of excess freshwater that currently occur about every 3 years. 
If authorization is delayed, there is a high probability that 
catastrophic harm will continue to Lake Okeechobee, the coastal 
estuaries, and the Everglades Protection Area.

    Question 7. Would you be supportive of a safeguard mechanism, 
perhaps comparable to the process Congress approved in the Water 
Resources Development Act of 1999 for the Challenge 21 program, which 
would allow these projects to be authorized, but give the Congress 
appropriate oversight?
    Response. The appropriations process will exert the ultimate 
authority regarding the level of the Federal Government's participation 
in Everglades restoration. Our hope is the Federal Government will 
remain a full partner from the beginning to the end of the entire 
restoration process. From a practical perspective, Project 
Implementation Reports (PIR) approved by the Secretary of the Army 
prior to construction will be a useful way for Congress to track and 
assess progress. However, we are receptive to appropriate congressional 
oversight of Federal agency participation as long as it does not cause 
delays in implementation.
                                 ______
                                 
  Responses by Governor Jeb Bush to Additional Questions from Senator 
                                 Crapo
    Question 1. Does the State of Florida consider any part of the 
Comprehensive Everglades Restoration Plan as establishing new or 
additional Federal water rights or altering State water sovereignty? 
Does the State of Florida believe that the plan will result in 
increased Federal control of water in the State?
    Response. The Comprehensive Plan does not establish new or 
additional water rights or alter State water sovereignty; however, the 
proposed Administration's bill would. The Administration's proposal is 
unacceptable to the State. We have provided alternative ``assurances'' 
language to committee staff that recognizes Florida water law, which 
provides protection of natural systems through the establishment of 
minimum flows and levels and reservations. We strongly believe that 
authorizing legislation should not undermine protective Florida water 
law. The State of Florida's approach is to require the Project 
Implementation Reports (PIR) to identify new water made available from 
each project component for the natural system and other water uses and 
then implement water reservations for the natural system and 
allocations for other water uses in accordance with State law.

    Question 2. Should the State of Florida take the lead in 
coordinating and managing the plan to eliminate any potential conflicts 
or duplication of activities by State, Federal, local, and tribal 
authorities?
    Response. The State seeks to be a full and equal partner in 
implementation of the plan and will continue to work with the Army 
Corps of Engineers to improve cooperative project implementation. In a 
business sense, the State of Florida welcomes the opportunity to serve 
as the managing partner in the implementation of the Comprehensive 
Plan.

    Question 3. Can a restoration plan that does not infringe upon the 
agricultural community's future water allocation rights be successful? 
If yes, how can this be managed? If no, why not?
    Response. Yes. The Federal legislation should require the Secretary 
of the Army to ensure that the implementation of the Comprehensive 
Everglades Restoration Plan, including physical or operational 
modifications to the Central and Southern Florida Project, will not 
interfere with existing legal water uses and will not adversely impact 
existing levels of service for flood protection or water use. The plan 
can be implemented in a way that provides assurances to existing users 
that their existing water supply will not be eliminated or transferred 
from existing legal sources of water supply, including those for 
agricultural water supply, water for Everglades National Park and the 
preservation of fish and wildlife, until new sources of water supply of 
comparable quantity and quality are available to replace the water to 
be lost from existing sources.
                                 ______
                                 
  Responses by Governor Jeb Bush to Additional Questions from Senator 
                                 Graham
    Question 1. Can you describe the impact to the Everglades and 
surrounding ecosystems if we move forward with this project?
    Response. The performance measures demonstrate that essentially 
every part of the natural system from Lake Okeechobee to Florida Bay 
will show dramatic improvements. Conditions will be improved for the 
recovery of large wading bird populations. Populations of endangered 
species including the wood stork, snail kite, Cape Sable seaside 
sparrow, and American crocodile will benefit from the improved habitat 
as a result of the recommended plan. We also expect great improvements 
in water quality throughout the system.

    Question 2. Can you describe the impact to the Everglades and 
surrounding ecosystems if we do not move forward with this project?
    Response. If we do not move forward, the evaluation tools used in 
the Restudy indicate that virtually every part of the natural system 
will decline and be imperiled in the year 2050. Without Plan 
implementation, there will be widespread water shortages throughout the 
entire South Florida region causing negative effects on the economy of 
Florida and the Nation.

    Question 3. Can you describe the Everglades funding bill, which you 
introduced and which passed the Florida legislature on Friday?
    Response. The Florida Legislature established a 10 year funding 
plan that provides over $2 billion of State and local sources of funds 
for the Comprehensive Everglades Restoration Plan. The legislation also 
establishes a dedicated trust fund to invest funds for future peak 
funding years and to accrue interests that will be reinvested in the 
restoration effort. The Florida Legislature appropriated the first year 
contribution of $105 million. This is the first time a State has ever 
made such a commitment of this magnitude prior to Federal 
authorization.

    Question 4. How will the Lake Okeechobee legislation that passed 
the Florida legislature last week impact the water quality in the Lake?
    Response. The Lake Okeechobee legislation commits the State to a 
long-term effort to construct new stormwater containment and treatment 
structures and to better control phosphorous at its source. The water 
containment and treatment structures are also project components of the 
Restudy. The legislation provides the State's funding for two of the 
treatment areas and provides a schedule for the construction of the 
remaining stormwater treatment areas. As the headwaters of the 
Everglades, the cleanup of Lake Okeechobee is critical to its 
restoration. This year's approved State budget includes $38 million for 
Lake Okeechobee restoration projects. Of the $38 million, $8 million 
are for acquiring lands to be used to construct Comprehensive 
Everglades Restoration Plan projects and will be credited to the local 
sponsor as part of the Federal match requirements.

    Question 5. Can you elaborate on the State's plan for ensuring that 
the quantities of water generated by the Restudy meet water quality 
standards for their intended uses?
    Response. The Department of Environmental Protection is an active 
member of the Comprehensive Everglades Restoration Plan Team. Our 
strategy from the beginning has been to actively participate on the 
implementation team and through this participation, demand the 
incorporation of water quality features into the design of each and 
every Restudy project component. We also stand committed to permit the 
construction and operation of the individual project components only if 
the Army Corps of Engineers and South Florida Water Management District 
can provide reasonable assurance that the structures will meet all 
water quality standards.

    Question 6. Do you feel that the Administration's language 
accurately reflects the purpose of the Comprehensive Everglades 
Restoration Plan as set forth in WRDA 1996?
    Response. The Administration's language dramatically deviates from 
the primary purposes of Water Resources Development Act of 1996. There 
was broad support for the Restudy because the primary purpose was to 
restore the natural system while meeting the other water related needs 
of the region including enhancing water supplies and flood control. The 
Federal draft language skews the purpose to restoration first and the 
other water related needs if possible. The State feels strongly that 
this is not an either/or scenario and the assurances language should 
reflect the consensus approach outlined in the Restudy. The Federal 
draft language provides only for the dedication and management of water 
for the natural system. The State language clarifies that the water for 
the natural system will be managed to meet the natural systems spatial 
and temporal needs, but does not limit dedication and management to 
just the natural system.

    Question 7. What is the State's position on the Administration's 
assurances language?
    Response. Assurances language by the Administration fails to 
recognize Florida water law that provides full protection of natural 
systems through the establishment of minimum flows and levels. Federal 
legislation should not undermine protective Florida water law. The 
Federal draft language provides only for the dedication and management 
of water for the natural system. The State prefers the consensus 
language that clarifies that the water for the natural system will be 
managed to meet the natural systems spatial and temporal needs, but 
does not limit dedication and management to just the natural system.
                                 ______
                                 
  Responses by Governor Jeb Bush to Additional Questions from Senator 
                                  Mack
    Question 1. Do you support applying section 902 of the 1986 Water 
Resources Development Act to all features of the Comprehensive Plan 
before us today? [This provision requires a congressional review if a 
project exceeds 120 percent of authorized cost]
    Response. Yes and we seek to find additional ways to control costs 
with shared incentives between the Army Corps of Engineers and the 
local sponsor.

    Question 2. Do you support congressional committee review and 
approval of the feasibility level of engineering and design work before 
any construction can begin on the initial suite of ten projects in the 
Comprehensive Plan?
    Response. A requirement to have the Project Implementation Reports 
(PIR) approved by the Secretary of the Army prior to construction will 
meet the State of Florida's oversight needs. We believe the PIR process 
provides an efficient review that will keep the Congress informed. If 
Congress seeks an additional review and approval role prior to the 
participation of Federal agencies involved in the initial ten projects, 
our hope is it will not unnecessarily delay their participation in the 
restoration effort.

    Question 3. Do you support requiring full feasibility studies 
before any other projects are authorized under the Comprehensive Plan?
    Response. Yes. After authorization of the 10 initial projects, 
Project Implementation Reports (PIR) should be detailed and thorough 
enough to fulfill the requirements of a full feasibility study.

    Question 4. Do you support modifying the definition of the South 
Florida Ecosystem to make clear the system includes the lands and 
waters within the boundaries of the South Florida Water Management 
District as they existed on July 1, 1999?
    Response. Yes. This change will make clear the precise scope and 
boundaries of the Comprehensive Everglades Restoration Plan.

    Question 5. Do your support a provision making clear the Corps of 
Engineers is only authorized to study the question about providing an 
additional 245,000 acre-feet of water to the natural system?
    Response. We believe the adaptive assessment process will allow for 
future refinements to project components and we are committed to 
continue to work with the Army Corps an Department of Interior to find 
appropriate quantities of water for the natural system. We believe it 
is an error to assume the 245,000-acre feet of water identified in the 
Chief's Report is the appropriate quantity and source of water.

    Question 6. Do you support language making clear that the Corps 
must work with the State of Florida to ensure all groundwater 
discharges resulting from the Comprehensive Plan meet all applicable 
water quality standards and water quality permitting requirements?
    Response. Yes and the language should be expanded to authorize 
water quality features needed for the implementation of the project 
components.

    Question 7. Do you support replacing the project purposes language 
stated in (c)(1) of the administration's draft with language restating 
the purpose of the Comprehensive Plan developed and passed in WRDA 
1996?
    Response. Yes. There was broad support and agreement to the 
purposes of WRDA 1996.

    Question 8. Do you support additional programmatic authority for 
the Corps to construct projects of limited cost but are in keeping with 
the Plan's purposes and have independent and substantial benefit to 
Everglades restoration?
    Response. Yes. Additional programmatic authority will allow the 
South Florida Water Management District, who possess an unusual amount 
of technical expertise not usually found in Corps project sponsors, to 
expedite the planning, engineering and design phase of work for many 
project components.

    Question 9. Do you support a 50/50 cost share between the Federal 
Government and the State of Florida on operation and maintenance of the 
project? If not, please state the cost share you believe to be 
appropriate and why.
    Response. Yes. The high degree of benefits to Federal trust 
resources dictates a 50/50 cost share of operation and maintenance. The 
project benefits Federal trust resources such as Loxahatchee National 
Wildlife Refuge, Big Cypress National Preserve, Ten Thousand Islands 
National Wildlife Refuge, Florida Panther National Wildlife Refuge and 
Everglades National Park and many federally listed protected species 
are well documented.

    Question 10. Please provide your thoughts on the definition of 
Project Implementation Reports found in the Administration's language. 
Do you support this definition? If not, please provide suggestions as 
to how you would define these reports.
    Response. The Administration's language narrows the focus and 
requirements of a Project Implementation Report. We support the 
language that was contained in the April 1999 Final Feasibility Report. 
Additionally, language should be added clearly stating that the PIR 
will identify new water from each project component that will be made 
available for reservations and allocations under State law.

    Question 11. Do you believe the Department of Interior and the 
State of Florida should be on equal footing in developing any 
regulations related to assurances? If not, why?
    Response. We do think that new regulations related to assurances 
are not necessary or appropriate. The plan to require the Project 
Implementation Reports (PIR) to identify new water made available from 
each project component for the natural system and other water uses and 
then implement water reservations for the natural system and 
allocations for other water uses in accordance with State law will 
accomplish assurances in a way that does not require new Federal 
regulations.

    Question 12. Do you support the reporting requirement in the 
administration's bill? If not, how would you amend the reporting 
requirements?
    Response. The reports should be subject to concurrence from the 
Governor of the State of Florida.
  Responses by Governor Jeb Bush to Additional Questions from Senator 
                               Voinovich
    Question 1. My question is that in view of the fact that during the 
1990's the Corps construction appropriation has only averaged $1.6 
billion and there are many worthy projects nationally competing for 
these dollars, how will the Federal share of this work be funded and 
still meet other national needs? Stated another way, is Florida willing 
to give up its other Corps Federal funding for beaches, harbors and 
flood control in order to have the Federal funds to restore the 
Everglades? If not, what is the solution?
    Response. The quality of the Florida projects for beach 
renourishment, flood protection and harbors stand on their own merit. 
We will continue to seek Federal funding for these projects where 
appropriate.
    The restoration of America's Everglades is an urgent national 
priority. A review of historically authorized Corps projects around the 
country reveals a long list of projects never constructed and no longer 
needed. A formal review with de-authorization of no longer needed 
projects may significantly reduce the so-called current backlog.

    Question 2. If sufficient Federal appropriations are not 
forthcoming is it the State of Florida's intention to use State funds 
to make up the shortfall and then seek Federal appropriations to 
reimburse the State for the Federal share or stated another way, does 
the State intend to pursue a set schedule for Everglades restoration 
regardless of the Federal appropriations and then seek reimbursement? 
If the implementation of Comprehensive Plan is accomplished largely by 
the State of Florida with reimbursement of the Federal share, would the 
State be willing to incur a larger than 50 percent share of the project 
costs or, stated another way, take less than a full reimbursement?
    Response. The State of Florida has already accepted the premise 
that it will receive less than full reimbursement for this project. 
Most Water Resource Development Act projects are funded at a 70 to 80 
percent Federal contribution. Florida has already committed to a full 
50 percent share. This is particularly remarkable since there are more 
Federal interests affected by Everglades restoration than any other 
Corps project around the country. The State of Florida expects the 
Federal Government to meet its minimum 50 percent share as a full and 
equal partner in implementing the Comprehensive Everglades Restoration 
Plan.
                               __________
         Statement of Patricia Power, Seminole Tribe of Florida
Introduction
    The Seminole Tribe welcomes the opportunity to share our views on 
the Water Resources and Development Act of 2000 legislation, S. 2437, 
with the Environment and Public Works Committee. As you know, we 
participated in the committee's Naples field hearing on the 
Comprehensive Everglades Restoration Plan (CERP) and provided our 
general comments on Everglades Restoration and the Federal Government's 
plan to achieve restoration of a healthy Everglades through a balanced 
approach. While the Tribe is a strong supporter of the CERP, we oppose 
the approach proposed by the Administration, as embodied in S. 2437.
    The Seminole Tribe of Florida has been an active participant in the 
multi-faceted efforts to restore the South Florida Ecosystem. As such, 
we have seen the value of our participation to the Tribe in being able 
to educate policymakers about the Tribe's concerns and needs. We have 
also found value in working with other stakeholders to formulate and 
refine policy positions. The Tribe applauds the committee's approach to 
developing its legislation by listening to the input of the 
stakeholders in Florida, as well as the Federal policy makers. A 
program developed though consensus will earn the support of South 
Florida and have an improved prospect for successful restoration of the 
natural system and stability in flood control and water supply for 
South Floridians.
    This testimony describes the Tribe's concerns with S. 2437 and 
offers alternative approaches to addressing the needs of the South 
Florida Ecosystem and the people that populate it. Our general 
statements on the CERP still hold and can be applied to an analysis of 
S. 2437. The Seminole Tribe believes the restoration should seek to 
provide a healthy future for people of Florida, as well as for the 
natural environment, including the Everglades, that draws so many more 
people to visit and move to South Florida. A balanced approach is 
critical to success of the restoration effort.
The Seminole Tribe of Florida
    The Seminole Tribe lives in the South Florida ecosystem. The Tribe 
relies on all aspects of a healthy ecosystem, including the Everglades, 
which provide many of our tribal members with their livelihood. Our 
traditional Seminole cultural, religious, and recreational activities, 
as well as commercial endeavors, are dependent on a healthy South 
Florida ecosystem. In fact, the Tribe's identity is so closely linked 
to the land that Tribal members believe that if the land dies, so will 
the Tribe. During the Seminole Wars of the 19th Century, the Tribe 
found protection in the hostile Everglades and Big Cypress Swamp. But 
for this harsh environment filled with sawgrass and alligators, the 
Seminole Tribe of Florida would not exist today. Once in the Everglades 
and Big Cypress, tribal members learned how to use the natural system 
for support without doing harm to the environment that sustained them. 
For example, the Seminole native dwelling, the chickee, is made of 
cypress logs and palmetto fronds. It protects its inhabitants from sun 
and rain, while allowing maximum circulation for cooling. When a 
chickee has outlived its useful life, the cypress and palmetto return 
to the earth to nourish the soil.
    In response to social challenges within the Tribe, tribal leaders 
looked to the tribal elders for guidance. Our elders taught us to look 
to the land, for when the land was ill, the Tribe would soon be ill as 
well. When we looked at the land, we saw the Everglades and supporting 
ecosystem in decline. We recognized that we had to help mitigate the 
impacts of man on this natural system. At the same time, we 
acknowledged that this land must sustain our people, and thereby our 
culture. The clear message we heard from our elders and the land was 
that we must design a way of life to preserve the land and the Tribe. 
Tribal members must be able to work and sustain themselves. We need to 
protect our tribal farmers and ranchers.
Seminole Everglades Restoration Projects
    Recognizing the needs of our land and our people, the Tribe has 
developed a plan to mitigate the harm to the land and water systems 
within our Reservations while ensuring a sustainable future for the 
Seminole Tribe of Florida. The Big Cypress Reservation is the first of 
our Reservations for which this plan has been implemented. The Tribe is 
in the early stages of developing a plan with similar goals on the 
Brighton Reservation.
    On Big Cypress, the restoration plan will allow Tribal members to 
continue ongoing farming and ranching activities while improving water 
quality and restoring natural hydroperiod to large portions of the 
native lands on the Reservation and ultimately, positively affecting 
the Big Cypress National Preserve and Everglades National Park. 
Construction activities on the western side of the Reservation have 
been identified as a ``Critical Project'' under section 528 of WRDA 
1996. The Tribe is working closely with the NRCS to identify 
appropriate programs to complete construction of the project on the 
eastern side of the reservation. Two Wetland Reserve Projects are 
currently underway.
    The Seminole Tribe is committed to improving water quality and 
flows on Big Cypress and has expressed that commitment by dedicating 
significant financial resources to our environmental programs and 
projects, as well as estimates of 9,000 acres of land to support the 
projects on Big Cypress alone.
General Comments on S. 2437
    The Tribe's greatest concern about Section 3 of S. 2437 is that it 
lacks the balance necessary for successful implementation. The 
environmental crisis in South Florida was brought about by the Central 
& Southern Florida Project so efficiently achieving its congressionally 
mandated goals of providing flood protection and water supply to the 
farms and families of Florida, without fully appreciating the resulting 
impacts on the natural system. As the damage to the natural environment 
became evident, all entities began to recognize the interdependence of 
the natural system and the ``built'' environment. Congress, in 
directing the Corps of Engineers to complete the Comprehensive Plan, 
described its purposes as protecting water quality and reducing loss of 
fresh water from the Everglades. Congress also noted that the 
Comprehensive Plan ``provide for the water-related needs of the region, 
including flood control, the enhancement of water supplies, and other 
objectives served by the Central & Southern Florida Project.'' (See 
Section 528(b)(1)(A)(i) of WRDA 1996.) The Restudy, as developed with 
input from a wide array of stakeholders, recognized the importance of 
addressing water needs in a balanced approach. Section 3 of S. 2437 
abandoned the balanced approach and reverts to the myopic direction of 
the half-century old project authorization by stating that the purpose 
of the CERP and the historic Central & Southern Florida project is for 
the protection of the natural system. We urge the committee to take a 
balanced approach to Section 3 by providing protection to the natural 
systems, the people, and the agricultural communities that share the 
South Florida Ecosystem.
    The Tribe also has serious concerns about Section 3(i) regarding 
assuring of project benefits. More detailed comments regarding this 
section are provided below; however, our concerns are significant 
enough to list twice. The Tribe's water law is based upon a Water 
Rights Compact, codified in tribal, State, and Federal law, the 
implementation of which is based on Florida State water law. The 
approach contemplated in Section 3 (i) attempting to federalize the 
water allocation decisions blatantly disregards the existing body of 
Florida water law. With Florida's water law thrown into disarray by 
this approach, the Tribe's Water Compact is jeopardized. The Tribe has 
proposed an alternative approach to Section 3 (i), and the Tribe also 
supports the approach taken in the recently passed Florida Everglades 
legislation.
    Shared adversity is a guiding principle of the Tribe's approach to 
water rights. Shared adversity is the principle upon which the Water 
Rights Compact is based, and support for including shared adversity was 
one of the Tribe's consistent comments throughout the development of 
the Restudy. While S. 2437 acknowledges that the rights of existing 
users should be preserved, S. 2437 does not define existing user. 
Limiting existing user or existing use to the water being used today 
fails to take into account long-term permitted rights to water that may 
not be presently used. In comments on the Lower East Coast Regional 
Water Supply Plan, the National Park Service defined existing use as 
that amount of water being used on April 13, 2000, or on the day the 
Plan is to be adopted. That interpretation, we believe, would lead to a 
moratorium on water use in excess of that used on April 13 or the 
adoption date. A moratorium would apply to permitted, but not currently 
used existing use, as well as future new users. The Tribe's economic 
development has been such that the Tribe is not yet using its all its 
water entitlement. The inability to use its water rights would stunt 
the Tribe's economic development. We urge the committee to ensure that 
S. 2437 incorporates the concept of shared adversity and clearly define 
``existing use'' to prevent a water use moratorium in South Florida.
Specific Comments and Recommendations on S. 2437
            Assuring Project Benefits
    Upon review of Section 3(i) of S. 2437, it was immediately clear 
that the assuring project benefits language was problematic. The bill 
would require that Federal regulations direct how all Central & 
Southern Florida project features (essentially all Corps of Engineers 
(COE) projects in South Florida) would contribute water to the 
``natural system.'' The bill requires the Federal agencies to 
``consult'' with the State. The Tribes are not addressed.
    There are numerous, complex issues related to allocating any 
additional water that projects built pursuant to the Restudy 
recommendations brings to the South Florida ecosystem. In fact, 
resolution of all issues to the satisfaction of all stakeholders is 
impossible to reach in the time period that exists to produce a WRDA 
2000 bill. S. 2437 creates the regulatory structure of programmatic 
regulations produced in 2 years, to be followed by project specific 
regulations as needed. The main problem with this approach is that it 
bestows on the Corps of Engineers (COE) and the Department of Interior 
(DOI) the sole decision making authority regarding how much water the 
``natural system'' should receive from all COE projects. While S. 2437 
requires consultation, it ignores established Florida water law and 
limits the potential role the Tribe should play in making decisions on 
future water rights.
    Furthermore, the assurances language appears to attempt to alter 
the purpose of the original authorization of the Central & Southern 
Florida Project, as defined in previous Acts of Congress since Section 
203 of the Flood Control Act of 1948. In the section entitled, 
``Dedication and Management of Water,'' the COE is required to dedicate 
and manage all water ``made available'' from all C&SF project features, 
built under all prior authority and WRDA 2000, ``for the temporal and 
spatial needs of the natural system.'' Absent from this requirement is, 
of course, the flood control and water supply needs of the people of 
South Florida in both agricultural and developed areas.
    Given that S. 2437 was drafted by the COE and DOI, leaving the 
final decisions on the allocation of any of South Florida's water uses 
to the COE and DOI appears to leave all but the natural system under-
represented. This approach seems to guarantee that the real decisions 
will be made in court. Litigating water rights is an expensive and time 
consuming process that will only serve to delay and increase the cost 
of an already expensive, long-term project that the people of South 
Florida need now. In addition, the confusion likely to result from 
litigation would delay the Tribe's ability to realize fully its water 
rights under the Compact.
    The recently passed State legislation is significantly different 
from this Federal proposal. Differing Federal and State law on water 
assurances guarantees conflicts and delays as well. This issue is of 
particular importance to the Tribe because the Tribe's Water Rights 
Compact is based on the functionality of the State system. The proposed 
legislation will throw the State's water allocation system into turmoil 
because it does not mesh with the regulatory structure created by the 
1972 Florida Water Resources Act (FL Stat. Chapter 373).
    As a result of the Tribe's concerns, we offer the following 
proposal which was designed to eliminate, or at least reduce, these 
concerns:
    The objective of the process to develop a water supply and flood 
control allocation policy in South Florida is to develop a consensus on 
water assurances that can be the basis of consistent Federal, State, 
and tribal law.
    The Task Force shall prepare a report and recommendations to 
Congress, the Florida Legislature, and the Seminole and Miccosukee 
Tribal Councils regarding the dedication and management of the water 
made available from project features authorized pursuant to the 
Comprehensive Everglades Restoration Plan. Included in the report and 
recommendations shall be a legislative proposal that can be adopted in 
identical form by the Congress, the Florida Legislature, and the 
Seminole and Miccosukee Tribal Councils.
    The Task Force shall seek public comment in the formulation and 
final presentation of this report and recommendations. The Task Force 
shall operate under the consensus provisions, as described in its 
Working Group's Charter. This report shall be presented to Congress, 
the Florida Legislature, and the Tribal Councils within 2 years of 
enactment of WRDA 2000.
    Upon receipt of the report and recommendations, the Congress shall 
enact authorizing legislation in coordination with the Florida 
Legislature and the Seminole and Miccosukee Tribal Councils.
    This proposal also would eliminate opportunities for confusion, and 
ultimately litigation, by requiring that the enacting legislation be 
identical. Finally, this proposal would give all people of South 
Florida a greater role in the water allocation decisions, which would 
build greater support for the projects over time and help to ensure 
construction and operation of all the Restudy project features.
    A provision similar to this will need to be adopted in State and 
tribal law, as well. The Federal law cannot require the State and the 
tribes to legislate. The State and tribal provisions should also direct 
the State and tribal Task Force members to prepare a report and 
recommendations through a consensus process.
    Alternatively, the Tribe has reviewed the Everglades Restoration 
and Funding legislation (HB 221) recently passed by the Florida 
Legislature. Given that the State legislation relies upon established 
State water law, including the Tribe's Water Rights Compact, to 
determine the allocation of new water benefits created by CERP project 
features, the Tribe would support incorporating this approach into 
Federal law. Again, it has been the Tribe's experience over the 13 
years that the Water Rights Compact has been in place that consistency 
among Federal, State, and tribal law contributes to the elimination of 
legally actionable conflicts.
Other Comments
    The following provides detailed comments on Sections 3, 6, and 12, 
in the order in which the provisions appear.
    Definitions (Section 3(a)). The definition of ``Comprehensive 
Everglades Restoration Plan'' includes the controversial Chief's 
Report. The Chief's Report is not a consensus document agreed upon by 
members of the South Florida Restoration Task Force and will 
undoubtedly meet with opposition to implementation. The definition of 
``Natural System'' should be clarified to specifically exclude tribal 
lands.
    Findings (Section 3(b)). The Tribe supports inclusion of the 
principles of adaptive assessment in the implementation of the CERP 
project features, as referred to in (b)(5). Also, the tribes should be 
included as local sponsors along with the State in Section 3(b)(7). The 
tribes and the State are not treated as equal partners throughout the 
draft legislation although they are each separate sovereigns.
    Comprehensive Everglades Restoration Project (Section 3(c)). The 
Tribe specifically supports the pilot project defined in Section 
3(c)(2)(c)(5), due to the potential flood control benefits for the 
Hollywood reservation.
    Additional Program Authority (Section 3(d). The Tribe supports the 
use of the COE's use of program authority to speed the implementation 
of crucial project features. The authority provided by this section is 
similar to the critical projects authority provided in Section 528 (b) 
of WRDA 1996. The Tribe has worked closely with our Federal and State 
partners to authorize the Tribe's Big Cypress critical project under 
the WRDA 1996 authority. The critical project authority provided by 
Congress in 1996 has allowed the Tribe to expedite this project and 
ultimately will bring the Tribe and the region restoration benefits 
years earlier than otherwise contemplated under the standard project 
authorization process. In addition, we anticipate that both the Tribe 
and the Federal budgets will appreciate savings as a result of the 
abbreviated process. As a result of our experience, we endorse this 
expansion of that authority and recommend that Congress provide more 
guidance regarding the process for project criteria and project 
selection.
    Cost Sharing (Section 3(f)). There needs to be a distinction for 
O&M purposes between which features are authorized under this Act and 
which features are part of the original CS&F Program for cost share 
purposes. This confusion results because the legislation references the 
CS&F project. In addition, the Tribe recommends that the Critical 
Projects authorized by WRDA 1996 be subject to the 60/40 cost share for 
operations and maintenance. The critical projects, by definition, were 
so crucial to ecosystem restoration that the projects needed to be 
initiated prior to this bill. Project priority, as well as equity, 
require that the critical projects be afforded the same O&M cost share 
as all CERP projects.
    Evaluation of Project Features (Section 3(g)). The Tribe should not 
merely be ``coordinated with'' on the development of Project 
Implementation Reports (PIR) for the project features, particularly 
regarding the availability of additional water. The Tribe should 
consistently be part of the decision making process at a minimum on the 
same level as the State. Thus, the Tribe should have sign off authority 
on all PIR's.
    Also, Section (g)(2) addressing project justification must be 
clarified regarding how to analyze project benefits where one project 
feature has both water supply and water quality benefits. We understand 
that segregating such benefits would be difficult.
    Socially and Economically Disadvantaged Individuals (Section 3(h)). 
The full citation for the reference in 3(h)(2)(B) is 15 U.S.C. 
637(d)(3)(c).
    Assuring Project Benefits (Section (3)(i)). The definitions of 
``substantial adverse impacts'' and ``existing legal water uses'' need 
to be developed in Sec. (3)(i)(3). As discussed above, the term 
``existing legal water users'' can have a number of different 
interpretations with wide-ranging impacts. On April 13, 2000, in 
comments provided to the South Florida Water Management District on the 
Lower East Coast Regional Water Supply Plan, DOI, through the National 
Park Service, recommended that:
    ``[E]xisting legal use'' and existing legal user'' refer to the 
quantity of water currently withdrawn and put to a reasonable-
beneficial use under a statutory exemption or under terms of a valid 
water use permit. Any future use in excess of the quantity currently 
being withdrawn or pursuant to a new or renewed water use permit is not 
an ``existing legal use.'' New permits for additional withdrawal shall 
not be issued until water reservations for the natural system are in 
place. The period for defining existing legal users should be defined 
as April 13, 2000 or the date when the LEC plan is adopted by the SFWMD 
Governing Board.
    The above definition, as put forth by DOI, who has concurrence 
authority on the programmatic and project-specific regulations to make 
allocation decisions, would effectively place a moratorium on water use 
in South Florida. When permitted but not currently used water would be 
available after the water reservations for the natural system is highly 
uncertain. This approach threatens the vested rights the Tribe has to 
use water in the future under the Compact. This definition would 
effectively render State permits already issued for future consumptive 
use void. It is also inconsistent with the Tribe's water allocation 
rights set forth under the Compact.
    Tribal Partnership Program (Section 6). A section should be added 
stating that this is supplemental authorization of funding for tribal 
water resource development projects. This section should not affect the 
ability to obtain funding for these project types under other 
legislative acts. Also, the $5,000,000/$1,000,000 limitation in Sec. 
6(e) is too low and should be raised.
    Reburial and Transfer Authority (Section 12). As a general 
principle, the Tribe believes that tribal remains should be treated 
with the utmost respect. The Tribe is not affected specifically by this 
section.
Conclusion
    Thank you for the opportunity to share the views of the Seminole 
Tribe of Florida with the committee. While the Tribe is a strong 
supporter of the restoration of the South Florida Ecosystem, we will 
continue to be vigilant in our review of its implementation. We look 
forward to a continued partnership on a government-to-government basis 
in the challenging effort to save our Everglades.
                                 ______
                                 
 Responses by Patricia Power to Additional Questions from Senator Smith

    Question 1. Why is it important to move forward with authorization 
of this initial set of ten projects this year? Can you describe what 
the impacts of delay would mean for the ecosystem?
    Response. The Seminole Tribe has not taken a firm position on the 
authorization of the initial set of ten projects. We presume that the 
committee seeks justification for authorization without completion of a 
feasibility study, and we support the committee's careful oversight. We 
believe that sufficient cause for going forward can exist, and offer 
that some middle ground approach, authorization contingent upon a 
specified Corps action for example, may address the concerns expressed 
by some stakeholders.
    However, the Tribe strongly supports the authorization of the 
eleventh item in the list of initial authorizations, which is the 
Adaptive Assessment and Monitoring Program. The Tribe has consistently 
noted that the Restudy analysis rests on assumptions and computer 
modeling, of which most of the Tribe's lands lie on the perimeter. 
While the Tribe's hydrological review has provided a basis of the 
Tribe's general support for the Restudy components, our comments have 
always been tempered by our inability to fully assess the impact of 
project features because our lands are either at the edges or outside 
of the computer models. In addition, nature can prove the assumptions 
and models wrong and it is critical that project implementation be 
continuously monitored and assessed for the purpose of making 
corrections promptly, if needed.
    Finally, the Tribe also supports the inclusion of programmatic 
authorization for smaller project features that produce independent and 
substantial restoration, preservation, or protection benefits to the 
South Florida ecosystem. The Tribe signed a project coordination 
agreement with the Corps of Engineers last January, which authorized 
the Tribe's Big Cypress Reservation critical project. Critical project 
authorization is similar to the programmatic authorization contemplated 
in Section (3)(e). It has been our experience, to date, that 
programmatic authorization works to expedite critical restoration 
projects, resulting in efficient delivery of project benefits.
    In addition, we recommend that the committee consider incorporating 
report language that discusses the process of selecting the projects to 
be authorized under this authority. WRDA 1996 designated the criteria 
that each critical project should meet, but was silent on the 
selection/prioritization process for the critical projects. An 
effective, consensus based process was initiated by the Corps, in open 
cooperation with other Federal agencies, and tribal, State, and local 
government participants in the Task Force, Working Group, and 
Governor's Commission. Business interests, along with agricultural and 
non-governmental organizations, were represented on the Governor's 
Commission and participated actively in the Task Force's and Working 
Group's evaluation and ranking. While not every interest got all that 
they were supporting, the inclusiveness and openness of the process 
validated the outcome and built broad, general support for the final 
outcome. A similar process should be required for the programmatic 
authority projects. We would be happy to provide appropriate language 
at your request.

    Question 2. Please describe the ``assurances language'' contained 
in the State's recently passed measure and what the Seminole Tribe's 
position is on this language.
    Response. The Everglades Restoration Investment Act [CS/CS/H221] 
amended the Florida Water Code (Chapter 373, FL Stat.) by adding 
section 373.470. Section 373.470(3)(c) provides that prior to executing 
a project coordination agreement (PCA) with the Corps of Engineers, the 
South Florida Water Management District (SFWMD) shall complete a 
project implementation report (PIR) (as defined in the Implementation 
Plan of the Restudy). The PIR is to identify increased water supply 
resulting from the construction and operation of the CERP component. 
Any additional water supply identified by the PIR will be allocated or 
reserved by the SFWMD under Chapter 373, the Florida Water Code.
    The Seminole Tribe supports this Florida law because it maintains 
the functionality of existing Florida water law, upon which the Tribe's 
Water Rights Compact is based. In addition, this approach is consistent 
with the consensus Restudy document supported by the Tribe last year. 
The PIR process as described in the Restudy's Implementation Plan 
provides for broad participation in the evaluation of project 
components. Furthermore, requiring the SFWMD to allocate or reserve the 
benefits created by the new project component according to State law is 
consistent with the process currently implemented by the Corps.
                                 ______
                                 
Responses by Patricia Power to Additional Questions from Senator Graham

    Question 1. What will the impact be to the Seminole Tribe of 
Florida if we do not move forward with this plan?
    Response. Failure to enact authorizing legislation will reinforce 
the perception of many stakeholders in South Florida that the Federal 
Government is not supporting its share of the partnership to restore 
the South Florida ecosystem. The State has enacted the Everglades 
Restoration Investment Act to supplement its ongoing restoration and 
land acquisition programs. The Seminole Tribe is implementing its 
Everglades Restoration Initiative through its own and Corps of 
Engineers and Natural Resources Conservation Service programs. Local 
governments are taking independent actions. All of this activity will 
go forward regardless of Federal action. Without Federal action, 
however, the projects will proceed at a slower pace and restoration 
will occur at a slower pace. Slowing the pace of restoration activities 
may cause irreparable harm to parts of the ecosystem.

    Question 2. Can you describe the impact if we do move forward with 
the Restudy?
    Response. Authorizing the framework of the Restudy is critical to 
maintaining the public support necessary for a public works project of 
this size and scope. Authorizing the consensus based Restudy as a 
framework for future project authorizations will provide the 
predictability for all parties to continue planning, design, 
engineering, and construction activities necessary to set a pace to 
ensure ecosystem restoration.

    Question 3. Do you feel that the Administration's language 
accurately reflects the purpose of the Comprehensive Everglades 
Restoration Plan as set forth by Congress in WRDA 1996?
    Response. No. Although we understand that the Administration did 
not intend to move away from the WRDA 1996 purpose of the Comprehensive 
Everglades Restoration Plan (CERP), the Tribe reads the language of S. 
2437 to shift the purpose of the project components of the CERP, and 
all previously authorized Central & Southern Florida project 
components, to be for the protection of the natural system. Balance in 
purpose and participation is crucial to the success of the CERP. The 
Tribe strongly supports maintaining the legislative purposes of the 
CERP as described in WRDA 1996.

    Question 4. What is your position on the Administration's 
assurances language? What are the key elements that this language must 
contain to accommodate the Seminole Tribe's needs?
    Response. The Tribe is opposed to the Administration's assurances 
language because it abandons the balance in the CERP project purposes 
as outlined in WRDA 1996, Federalizes Florida water law, and places a 
priority on water use for the natural system above all other water 
uses, thereby abandoning shared adversity. If the natural system is 
provided with its assurances in a process apart from the consideration 
of the needs of all other stakeholders, then the process is inequitable 
and flawed.
    The Tribe requires that Federal assurance language work 
consistently (or at the least not conflict) with State water law and 
the Tribe's Water Rights Compact, that all water uses, including those 
of the natural system, be balanced among each other, and that the Tribe 
be given a role to meaningfully participate in the assurances 
decisions. State law provides that when water is set aside for the 
environment, the water management district must also prepare a recovery 
or prevention strategy to ensure that environmental water supplies are 
restored or maintained. A critical element of the recovery or 
prevention strategy is a timetable which provides a mechanism to 
accomplish environmental objectives while analyzing and minimizing the 
effects of meeting such objectives on all other stakeholders. State law 
also provides that the recovery or prevention strategy include water 
resource development projects such as CERP to increase the available 
supply for both human natural uses. Thus State law provides an 
objective approach for establishing scientifically based environmental 
water needs, and a practical and balanced implementation strategy that 
takes all uses, human and natural into account.

    Question 5. Can you describe the existing Tribal Water Compact, in 
terms and conditions, and how it deals with water requirements for the 
natural system if at all? In particular, can you elaborate on the role 
of State law in execution of the Tribal Water Compact?
    Response. The Seminole Tribe's Water Rights Compact provides for a 
process for the Tribe and the State, through the South Florida Water 
Management District (SFWMD), to resolve water supply and flood 
protection issues, on a government-to-government basis. The Compact 
provides procedures for the Tribe and State to agree on the amount of 
surface water to which the Tribe is entitled. The Tribe does not get 
permits from the SFWMD; however, the Tribe works closely with the SFWMD 
on its land and water use issues through a work planning process.
    The Compact does not address water quantity requirements of the 
natural system directly. However, protection of the natural system is 
inherent in the implementation of the Compact. Through the Compact, the 
Tribe has a role in the process to determine the availability of water 
not otherwise dedicated to existing uses and the allocation of such 
available water. When the allocation of water needed for environmental 
benefits needs to be adjusted, the Tribe is consulted and contributes 
to the decisionmaking process.
    The Tribe's Compact depends on the State water code's determination 
of all stakeholders' water use. Although the Compact provides for 
entitlements for the Tribe's water supply and flood protection, any 
amendments to that entitlement is determined on the basis of 
availability, which is determined by the effects of supply by the 
demands of other water users. In other words, under the Compact, the 
Tribe must compete with other users for water supply and flood 
protection. If Federal law supersedes State law, and the natural system 
is provided with all of its demands (as determined by whom?), State 
water law would then be applied to allocate and reserve the balance. 
With what we assume to be a smaller amount of water, the Tribe's 
ability to compete for water will be negatively affected.
    Our review of the CERP projects indicated that none of the CERP 
projects would increase water supply on any of the Seminole Tribe's 
reservations for either human or environmental use. Any water 
allocation or reservation dedicated to the environment near a 
reservation will inevitably reduce the Tribe's ability to compete for 
water supply. Therefore, merely providing ``hold harmless'' language in 
WRDA would not protect the Tribe's rights under the Compact.
    Finally, a Compact-like device forged among the Federal, State, and 
tribal governments may provide an appropriate mechanism to address the 
needs of the natural system in the South Florida ecosystem, while 
assuring existing users a role in the allocation and reservation of 
water.
                                 ______
                                 
 Responses by Patricia Power to Additional Questions from Senator Mack

    Question 1. Do you support applying section 902 of the 1986 Water 
Resources Development Act to all features of the Comprehensive Plan 
before us today? [This provision requires a congressional review if a 
project exceeds 120 percent of authorized cost.]
    Response. The projects authorized pursuant to the Comprehensive 
Everglades Restoration Plan (CERP) through the standard congressional 
authorization process should not be treated any differently than any 
other congressionally authorized Corps of Engineers projects. If 
incorporating a congressional review of cost overruns will delay 
project implementation, then the Tribe would oppose the review. One 
exception may be that if the adaptive management process triggers a 
project revision sufficient enough to cause an excess of 120 percent of 
authorized cost, then congressional review may be appropriate. The 
Tribe strongly supports adaptive management and would be interested in 
addressing the concerns of those stakeholders and Senators worried 
about the effect applying adaptive management may have on total project 
cost.

    Question 2. Do you support congressional committee review and 
approval of the feasibility level of engineering and design work before 
any construction can begin on the initial suite of ten projects in the 
Comprehensive Plan?
    Response. The Seminole Tribe has not taken a firm position on the 
authorization of the initial set of ten projects. We presume that the 
committee seeks justification for authorization without completion of a 
feasibility study, and we support the committee's careful oversight. We 
believe that sufficient cause for going forward can exist, and offer 
that some middle ground approach, authorization contingent upon a 
specified Corps action for example, may address the concerns expressed 
by some stakeholders.

    Question 3. Do you support requiring full feasibility studies 
before any other projects are authorized under the Comprehensive Plan?
    Response. Yes, with the following two exceptions. The Tribe 
strongly supports the authorization of the eleventh item in the list of 
initial authorizations, which is the Adaptive Assessment and Monitoring 
Program, without feasibility review. The Tribe has consistently noted 
that the Restudy analysis rests on assumptions and computer modeling, 
of which most of the Tribe's lands lie on the perimeter. While the 
Tribe's hydrological review has provided a basis of the Tribe's general 
support for the Restudy components, our comments have always been 
tempered by our inability to fully assess the impact of project 
features because our lands are either at the edges or outside of the 
computer models. In addition, nature can prove the assumptions and 
models wrong and it is critical that project implementation be 
continuously monitored and assessed for the purpose of making 
corrections promptly, if needed.
    The Tribe also supports the inclusion of programmatic authorization 
for smaller project features that produce independent and substantial 
restoration, preservation, or protection benefits to the South Florida 
ecosystem. The Tribe signed a project coordination agreement with the 
Corps of Engineers last January, which authorized the Tribe's Big 
Cypress Reservation critical project. Critical project authorization is 
similar to the programmatic authorization contemplated in Section 
(3)(e). It has been our experience, to date, that programmatic 
authorization works to expedite critical restoration projects, 
resulting in efficiently delivering project benefits. We recommend that 
the committee consider incorporating report language that discusses the 
process of selecting the projects to be authorized under this 
authority.

    Question 4. Do you support modifying the definition of the South 
Florida Ecosystem to make clear the system includes the lands and 
waters within the boundaries of the South Florida Water Management 
District as they existed on July 1, 1999?
    Response. Yes, because such a definition provides consistency with 
the Restudy and the CERP.

    Question 5. Do you support a provision making clear the Corps of 
Engineers is only authorized to study the question about providing an 
additional 245,000 acre-feet of water to the natural system?
    Response. Yes. Delivering an additional 245,000 acre-feet of water 
to Everglades National Park was not part of the consensus-built Restudy 
sent to Washington in April 1999. The full implications of changing the 
Restudy model must be studied before authorizing additional dedicated 
water deliveries.

    Question 6. Do you support language making clear that the Corps 
must work with the State of Florida to ensure all groundwater 
discharges resulting from the Comprehensive Plan meet all applicable 
water quality standards and water quality permitting requirements?
    Response. This is a complicated question. The Tribe supports the 
protection of all water, including the drinking water supplies from 
groundwater. The Tribe supports regulations to protect groundwater, but 
the Tribe is concerned that existing regulations not designed to 
address ASR water quality issues may prevent the use of ASR.
    Fortunately, technology, primarily reverse osmosis, provides a 
reliable and affordable treatment system for drinking water supplied by 
groundwater. This technology makes groundwater previously not potable, 
available to drinking water systems. When water is pumped out of an 
aquifer for surface use, the aquifer must be recharged to maintain its 
quality. Basically, the water quality of the aquifer degrades in 
relation to the reduction of the water quantity.
    Unfortunately, Federal regulations applicable to groundwater 
available for drinking water, written many years ago, have not kept 
pace with technology. Groundwater regulations were written to protect 
actual or potential drinking water sources from toxic contamination; 
ASR contemplates the injection of storm water, not hazardous waste. The 
regulations provide that water discharged to groundwater meet drinking 
water standards. It is expensive to treat water to meet drinking water 
standards. To avoid the cost, aquifers are not recharged. When the 
groundwater is not recharged, groundwater quantity and quality degrade. 
Because the existing regulations discourage aquifer recharge, we do not 
support the application of existing regulations to groundwater 
discharges for the CERP projects.
    The water storage components of the CERP are heavily dependent on 
Aquifer Storage and Recovery (ASR) projects, and the success of the 
CERP is dependent on increased storage. It is critical that the ASR 
project incorporate water quality elements and that the water quality 
requirements reflect current technology.

    Question 7. Do you support replacing the project purposes language 
stated in (c)(1) of the administration's draft with language restating 
the purpose of the Comprehensive Plan developed and passed in WRDA 
1996?
    Response. Yes. The WRDA 1996 language incorporated a balanced, 
consensus-based approach to the purpose of the CERP projects.

    Question 8. Do you support additional programmatic authority for 
the Corps to construct projects of limited cost but are keeping with 
the Plan's purposes and have independent and substantial benefit to 
Everglades restoration?
    Response. As stated in our answer to question 3, the Tribe supports 
additional programmatic authority.

    Question 9. Do you support a 50/50 cost share between the Federal 
Government and the State of Florida on operation and maintenance of the 
project? If not, please state the cost share you believe appropriate 
and why.
    Response. Yes. A 50/50 cost share for operations and maintenance 
mirrors the cost share for design and construction for CERP projects. 
Given the extent of the benefits delivered to Federal lands (the 
natural system) from CERP project features, cost sharing operations and 
maintenance is equitable and appropriate.
    In addition, the WRDA 2000 legislation should apply the 50/50 cost 
share for operations and maintenance retroactively to the critical 
projects authorized by WRDA 1996. The critical projects were selected 
through a broad-based consensus process as so crucial to ecosystem 
restoration that the projects needed.
                               __________
  Statement of Dexter Lehtinen, General Counsel, Miccosukee Tribe of 
                                Florida
everglades restoration and wrda 2000: hope for the future, if we learn 
                             from the past
    My name is Dexter Lehtinen. I'm General Counsel to the Miccosukee 
Tribe of Indians of Florida, and a member of the Governor's Commission 
on the Everglades and the South Florida Ecosystem Restoration Task 
Force. I previously served as a member of the Florida House of 
Representatives and Florida State Senate and as United States Attorney 
for the Southern District of Florida. In these capacities I helped 
write the State law which declared the goal of saving the entire 
Everglades and filed the lawsuit against pollution of the Everglades 
which led to the Florida Everglades Forever Act.
             miccosukee tribe of indians in the everglades
    I want to provide some information about the Miccosukee Tribe of 
Indians of Florida and the Tribe's role in the Everglades:
    <bullet>  The Miccosukee Tribe is a federally-recognized Indian 
Tribe, and Miccosukee Indian Country is within the Everglades.
    <bullet>  Its members are the only people to live within the 
Everglades (Indian or non-Indian) and the only Tribe with land in the 
Everglades.
    <bullet>  The Tribe is a leader in Everglades protection, having 
won several critical lawsuits against pollution, and having set 
federally-approved water quality standards for the Everglades 
(including phosphorus) with its State status under the Clean Water Act.
    <bullet>  The Tribe's members are guaranteed by Congress the right 
to live traditionally within Everglades National Park and Big Cypress 
National Preserve.
                   restoration failures: two examples
    The Miccosukee Tribe believes that Everglades restoration is in 
serious trouble due to misplaced priorities, subordination of 
fundamental democratic values, Federal intransigence, and bureaucratic 
arrogance and incompetence. While we all have hope for the future, 
Everglades restoration is clouded by a past of discrimination and 
failure.
    Let me emphasize at the outset that the issue before this committee 
is not the legitimacy of restoration as a goal, but rather the false 
use and twisting of that goal to serve narrow parochial interests in 
the name of restoration.
    Two examples will be sufficient. First, the central Everglades 
(including tribal Everglades) is given second-class status. This 
discrimination occurs: (i) despite the Federal Indian trust obligation; 
(ii) despite the 1982 congressional promise (in the Florida Indian Land 
Claims Settlement Act) that the central Everglades will be preserved in 
natural conditions; and (iii) despite the fact that the central 
Everglades is the largest remaining freshwater Everglades. [Exh. F.] It 
is a gross misconception that the Everglades is the same as Everglades 
National Park (encouraged by the Park).
    Second, pre-existing authorized restoration projects are stalled. 
The Modified Water Deliveries Project was directed by 1989 
congressional Act to relieve flooding in the central Everglades and 
restore flows to the Park through Northeast Shark River Slough. But 
bureaucratic ineptitude and selfishness has blocked the project, 
causing destruction of tribal Everglades. And, despite guarantees of 
flood protection to an area known as the 8.5 square mile area, agencies 
are always trying to seize or condemn the minority residents' land. 
[Exhs. E & G.] The Miccosukee Tribe knows that taking the homes of 
these minorities is not necessary for restoration, and that the 
minorities are attacked because they are politically weak. I find it 
curious that the Miccosukee Tribe stands up for these minorities more 
than government agencies--undoubtedly that's because Indians have been 
targets of land grabs themselves and recognize it when they see it. And 
it's because minorities must stick together--if government can take 
their land, then it can take tribal land (and it can take your land, 
too).
                    proposed wrda 2000: what's in it
    The Tribe has several points regarding what's in the 
Administration's proposed WRDA bill.
    1. Chief's Report (Inappropriate Commitments)--The bill would 
implement the Chief's Report (July) rather than the Comprehensive 
Everglades Restoration Plan (CERP/April). [Subsec. 3(a)(3) and 
3(c)(2)(A)]. The multi-volume CERP was the product of a public 
consensus building process with broad support, but the Chief's Report 
substantially changed critical elements behind closed doors without 
public notice [Exh. B]. New commitments were made, contradicting CERP, 
such as 245,000 additional acre feet of water to the Park (over and 
above the increases in the April Plan), even though the April Plan 
specifically considered and rejected this proposal (known as D13R4) as 
destructive of other parts of the Everglades (including tribal lands) 
[Exh. C]. CERP picked D13R, reporting that ``after looking at 10 
alternative plans and over 25 modeling scenarios, including D13R4, 
alternative D13R is by far the best of the alternative plans'' [Exh. C-
1]. Yet the Chief's Report switched to D13R4 without any notice. The 
Report also downgraded flood protection and water supply with the 
phrase ``to the extent practicable''.
    This is an outstanding example of the politicization of the Corps 
and Washington civilian interference which bends the process to placate 
the demands of groups with which the Administration is close (as well 
as the interference which Senator Voinovich referred to in his recent 
letter to GAO).
    Although the Administration tries to downplay changes in the 
Chief's Report, it keeps seeking to enact the Report, which itself 
demonstrates that there must be something different in the Report. 
Furthermore, Administration claims of Chief Report neutrality ring 
hollow in light of recently obtained documents [Exh. A], such as:
    (i) A June 8 e-mail message from Deputy Asst. Sec. Michael Davis, 
stating that ``the Chief's Report captures the Restudy Plan plus the 
subsequent commitments'', also cautioning ``please keep close hold and 
do not share outside your agency''.
    (ii) A June 11 e-mail within the Corps, referring to ``the need to 
get these groups on board'', but being ``uneasy about changing what was 
in the report that has been reviewed at SDA and RO's''.
    (iii) A June 17 e-mail within the Corps referring to ``the Michael 
Davis. . . OOPS, SORRY. . . Chief's Report. . .''.
    (iv) A June 17 e-mail to the Jacksonville Corps, stating 
``modification of the implementation plan, particularly in the case of 
D13R4, is not a small matter''; and Jacksonville's response, stating 
``you need to add the PIR for determining how to deliver the additional 
245,000 acre-feet of water'' and ``this will affect the scheduling for 
components associated/affected by D13R4''.
    (v) A June 29 letter from DOI to Col. Miller (Jacksonville), 
stating ``we appreciate the following additional commitments conveyed 
in the Chief of Engineer's Report: to deliver additional water 
(approximately 245,000 acre feet). . .''.
    Congress should reject the Chief's Report and the politicization of 
the process that it represents; instead, WRDA should refer only the 
CERP itself, dated April 1999.
    2. Interior Department Veto on Water Deliveries--The bill gives the 
Interior Secretary a veto on water deliveries, essentially federalizing 
Florida water law. [Subsec. 3(i)(2)(B)]. DOI is one landowner among 
many, including the State, the Tribes, and private citizens. Water 
should be allocated fairly by the Corps without any party having a 
veto. Corps policy processes can certainly protect Federal interests; 
and if the DOI will not trust Corps processes, then why should the 
State, or the Miccosukee Tribe, or private citizens trust it? This 
approach uses a double standard and is a DOI power grab to politicize 
water deliveries.
    3. Abandoning Balanced Approach (Downgrading Supply and Flood 
Protection)--The proposal abandons the balanced approach of WRDA 1996 
by giving natural systems water first place, and water supply and flood 
protection second place. [Subsec. 3(i)(1)]. A quick list of problems 
here include: (i) It's just plain wrong to deny people flood protection 
and water supply; (ii) It's not necessary because we can achieve all 
goals; (iii) By downgrading one goal, a license is given to stop trying 
to reach that goal and maximum effort to reach all goals is lost; (iv) 
The public consensus for Everglades restoration is built on 
congressional and State promises of a balanced approach, and this 
consensus will evaporate when homes and cars are flooded; and (v) 
Previous laws committed to equal treatment of all goals, so how could 
the public trust any law when they can be disregarded so easily? In 
short, we can and should ``get the water right--for everybody'', not 
adopt new policies that will send many people off the planet in their 
outrage. The current project purposes are environmental protection, 
water supply, and flood protection, and we should grant adequate 
assurances for each.
    Even with a balanced approach mandated by WRDA 1996 and other laws, 
flood protection analysis was virtually overlooked. CERP reports that 
flood analysis was ``not quantified'' because models for flood control 
analysis were inadequate (``limited evaluation of impacts since model 
not designed for flood studies'') [Exh. D-1]. ``Studies to estimate the 
flooding impacts of the alternative restoration plans were limited due 
to the resolution of the model.'' For ``areas that are expected to be 
adversely affected, further studies were recommended'' [Exh. D-3]. If 
this is ``equal'' treatment, then ``second class'' treatment'' would 
mean virtually elimination. These models need to be improved and the 
studies completed before project authorizations that could flood 
existing homes.
    4. Programmatic Authority--The proposal grants broad programmatic 
authority for no real reason except to escape congressional scrutiny 
[subsec. 3(c)(2)(B), (C), & (D)] and uses vague references to ``a 
programmatic manner'' and ``adaptive assessment'' [subsec. 3(b)(5)]. 
Perhaps the ``Pilot ``Projects'' [3(c)(2)(B)] (which are tests for 
later bigger projects) could be justified, but the ``Other Projects'' 
[3(c)(2)(C)] should have Feasibility Reports before authorization. For 
example, there's $100 million for ``adaptive assessment and 
monitoring'' with no actual plan, so the money could be spent on 
virtually anything, any study, any scientist--essentially ``vote 
buying''. It's just a big pot of money with no controls. And there's 
$250 million for ``other program authority'' [3(c)(2)(D)] where no 
projects are specified and no controls exist at all. These are ``cash 
cows'' where the Administration can do whatever it wants--either invent 
new projects you've never heard of; or substantially change projects 
which you have heard of, any way they want, as long as they keep the 
same name.
    The CERP admits to a ``high level of technical and implementability 
uncertainties'' [Exh.C-4]. These include flood control (discussed 
above) and the known erroneous assumptions of the Natural Systems Model 
(NSM), particularly ``discrepancy in the topographic data''. ``. . . 
[I]f consistent topographic assumptions were used [in NSM]. . . , 
target depths. . . would be shallower. . . and less water would be 
needed'' [Exh.C-3]. Let's get those assumptions right before 
authorization.
    Programmatic authority is particularly inappropriate when CERP 
itself admits to inadequacies in flood control models and the Natural 
System Model (NSM). Instead of programmatic authority, each project 
should be explored in depth through feasibility reports before 
authorization. This is too important to just throw money at it and then 
look away, hoping for the best.
    5. Environmental Justice/Minority Rights--The proposal shortchanges 
environmental justice, minority rights, and discrimination concerns by 
referring only ``socially and economically disadvantaged persons'' and 
then only requiring that ``impacts. . . are considered''. [Subsec. 
3(h)(1)]. This is insufficient. The bill should prohibit discrimination 
and disparate impacts on minorities and socially disadvantaged persons 
in implementation. The League of United Latin American Citizens has 
already found minority discrimination in the Modified Water Deliveries 
Project, where the DOI seeks to forcibly remove largely Hispanic 
residents from more than 300 homes [Exh. E], despite congressional 
guarantees to these people and Corps findings that it makes no 
substantial difference to the restoration of Northeast Shark River 
Slough (flowing into the Park).
                  proposed wrda 2000: what's not in it
    Now let me comment on what's not in the proposed bill.
    A. Tribal Roles--The Tribes are left out in every part except the 
``Findings'' [subsec. 3(b)(7)]. They should be incorporated in the 
definition of natural system lands and waters [3(a)(4)], the regulatory 
process [3(i)(2)(B]) & (C)], etc.
    B. Protecting the Entire Remaining Everglades/Comprehensive 
Definition of Everglades/Equal Protection for Everglades--No portion of 
the remaining Everglades (such as the southern Everglades in ENP) 
should receive more favorable treatment than any other portion (such as 
the central Everglades in WCA 3-A and Miccosukee Indian Country) in 
hydrology (water quantity and timing). An ``Everglades Equal Protection 
Clause'' should provide that all parts of the remaining Everglades 
receives equal hydrological treatment.
    C. Meeting Prerequisites and Demonstrating Competence: Implementing 
the Modified Water Deliveries Project--Component projects of the 
Everglades Restudy should not be authorized or funded until the Federal 
agencies show the competency to implement the Modified Water Deliveries 
Project as directed by Congress (PL 101-229, section 104, including 
subsection 104(c)), which is categorized by law as a predecessor to the 
Restudy and assumed by the Restudy to have been implemented. [Exh. G.] 
The failure to implement the Modified Water Deliveries Project since 
its authorization in 1989 (PL 101-229) and approval of the 21992 
General Design Memorandum (GDM) by Congress is nothing short of 
scandalous.
    D. Protecting Property Rights: Limiting Eminent Domain and Assuring 
Flood Control--Property rights are fundamental to a free society. 
Federal and State agencies shall make every effort to avoid taking 
private property through eminent domain actions, and continued flood 
protection must be assured. Regarding eminent domain, privately-owned 
land should not be condemned through State or Federal eminent domain 
procedures unless there is no other feasible alternative for achieving 
the specific project goals. It should be a defense to an eminent domain 
action that there is a feasible alternative other than condemnation of 
the property in question and increased costs alone shall not render an 
alternative infeasible. Regarding flood control, Congress should 
require that no project may proceed until and unless the established 
C&SF Project levels of flood protection against a SPF (standard project 
flood) has been assured and certified by the Corps. The CERP states 
that its models ``were inadequate to determine flooding effects'', 
which must be remedied before projects are designed. Flooding has 
increased in urban areas recently because the water deliveries to the 
Everglades have been increased without providing the protections 
mandated by the same laws which authorized the increased deliveries 
(e.g., Experimental Water Deliveries, etc). [Exh. H.]
    E. Eliminating Collateral Attack: Determination that Provisions of 
Collateral Federal Statutes Have Been Met--Because the Everglades 
Restoration effort is a comprehensive overall plan to maximize 
Everglades restoration and environmental values over a broad range of 
parameters, collateral Federal statutes which focus on single 
parameters should be deemed to have been met by operation of law. Such 
collateral statutes (e.g., the Endangered Species Act, the Fish and 
Wildlife Coordination Act) shall not be grounds for separate 
determinations or legal actions in connection with the construction or 
operation of Everglades restoration projects.
    F. Avoiding Holding Funds Hostage: Fund Projects Through Corps or 
State (Not Through DOI)--Previous Everglades funding channeled through 
the DOI has been held or diverted to achieve DOI goals beyond the scope 
of the appropriation. Projects should be funded by congressional 
appropriations to the Corps of Engineers or to State agencies or to the 
Tribe, not through the Department of the Interior, so as to avoid the 
improper withholding of funding to influence or block implementation 
outside of accepted processes. If project funds are funnelled through 
DOI, Congress should specify the precise purpose of the appropriation 
and prohibit withholding of funds when the legal criteria for 
proceeding have been met.
    G. Assurances: Environmental Protection, Water Supply, and Flood 
Protection--Assurances for environmental protection, flood control, and 
water supply must be provided so that no segment of people or interest 
group is pitted against another. Without equal assurances, the 
consensus basis for Everglades restoration will be destroyed. 
Assurances should be given that:
    (i) Sufficient Everglades Water--Sufficient water will be provided 
to the Everglades (including WCAs, Miccosukee Indian Country, and ENP) 
so as to maintain its natural state.
    (ii) Excess Everglades Water--Excessive water levels (flooding) 
will not be allowed in the WCAs (including Miccosukee Indian Country) 
so as to maintain its natural state.
    (iii) Flood Protection--Flood protection will not be diminished (no 
project may proceed until and unless the established C&SF Project 
levels of flood protection against a SPF has been certified by the 
Corps).
    (iv) Water Supply--Water supply for urban, residential, and 
agricultural uses will not be diminished and every reasonable effort 
will be made to expand such supply to meet future needs.
    (v) Conflict/Shared Adversity--If water supplies are insufficient 
to meet all goals or goals otherwise conflict, then each goal (water 
supply, environmental protection, and flood protection) shall be met 
through operation of the C&SF Project components to the maximum extent 
practicable so that the deficiencies in reaching each goal are relative 
equal or proportionate to the deficiencies in meeting the other goals 
(``shared adversity'').
    (vi) Miccosukee Everglades Equal Protection--Whatever assurances 
are provided to Federal lands or interests shall include equal 
assurances to Miccosukee Indian Country (the only Tribe with lands in 
the Everglades Protection Area), defined as the Miccosukee Indian 
Reservation and Perpetual Leased Lands in WCA 3-A pursuant to PL 97-399 
(1982) (definition of Federal lands and interests must include tribal 
lands and interests).
               problem summary: learning from experience
    A summary list of problems and lessons would include:
    A. System Problem (Lack of a System-wide, Everglades-wide 
Commitment; Parochial Approach). The Federal Government is sacrificing 
the State and tribal Everglades in favor of the smaller Federal 
Everglades (the Park). The Water Conservation Areas (especially WCA 3-
A) are dying due to Federal actions.
    B. Process Problems (Lack of Commitment to Decision-making Process; 
Lack of ``Partnership''; Low Inter-agency Cooperation; Pro Forma Use of 
Task Force)--In addition, many agencies refuse to implement programs 
which have been finalized. The present Federal approach is little more 
than lip-service to so-called ``partnership''.
    C. Execution Problems (Inability or Failure to Execute Specific 
Projects)--Stalled ``Critical Projects'', including Modified Water 
Deliveries, both held up for a decade. Agency incompetence, and 
outright refusal to execute any plan which the agency doesn't like, 
causes continuing damage to tribal lands and raises serious doubts 
about the wisdom of entrusting these agencies with the programmatic 
authority in restoration.
    D. Problems with Fundamental Values (Disregard of Fundamental 
Rights and Values of Liberty; Basic Property Rights and the Rule of 
Law)--Everglades restoration programs, at least their implementation by 
the Federal Government, is showing an alarming disregard for 
fundamental values (property rights of both the Tribe and non-tribal 
residents, and the rule of law).
                            prior testimony
    The Tribe presented more general testimony describing these 
problems in detail to this committee in Naples in January 2000, to 
which it commends the committee's attention for further discussion.
                               conclusion
    In conclusion, the Miccosukee Tribe seeks fairness, non-
discrimination, sound planning, and quality control in Everglades 
restoration. The Tribe is opposed to any approach which elevates the 
Department of the Interior over the Tribes or the State. The Corps can 
save the whole remaining Everglades; the Interior Department will save 
only its small part while sacrificing the other parts.
                               __________
   Statement of of Michael Collins, Governing Board Chairman, South 
                   Florida Water Management District
    Mr. Chairman, Senator Baucus, Senator Graham and members of the 
committee: I am Michael Collins, Chairman of the Governing Board of the 
South Florida Water Management District.
    Thank you for this opportunity to comment on the Administration's 
bill to authorize the Comprehensive Everglades Restoration Plan (CERP). 
This Comprehensive Plan a series of environmental improvements over 20 
years that will be the most ambitious ecosystem restoration ever 
undertaken in the United States.
    Please indulge me while I touch on a few historical facts to 
provide the proper context for my comments. The existing Central and 
Southern Florida Project was created in 1948 and encompasses 18,000 
square miles. This water management system for South Florida includes 
1,000 miles of canals and 200 water control structures. It is the 
largest public works project in the country. As South Florida's water 
management system it provides water supply, flood protection and other 
benefits to South Florida.
    Recognizing the need to modernize this 50-year old system to 
address its negative consequences on the environment, Congress 
authorized a ``re-look'' at this system to determine if such a task was 
feasible and in the Federal Government's interest. The Corps was asked 
to develop a comprehensive plan for the purpose of restoring, 
preserving, and protecting the South Florida ecosystem. Congress 
further directed that this plan shall include such features as are 
necessary to provide for the water-related needs of the region, 
including flood control, the enhancement of water supplies, and other 
objectives served by the Central and Southern Florida Project.
    The Plan submitted to you in July of 1999 is that plan. Is it 
``comprehensive'' in that it provides all answers to all problems? No. 
It is comprehensive because it was developed recognizing the 
complexities involved in creating an ecosystem-wide restoration plan 
and realizing the interconnectedness of the vast water management 
system commonly known as the Central and Southern Florida Project. The 
coordination efforts alone were heroic. Overlay the dynamic of the 
interests with the scientific complexities associated with getting the 
water right and you begin to understand that the Plan submitted to you 
by consensus, the Plan that enjoys broad-based support, was only 
possible through an inclusive process. Any attempt to modify the 
concepts embraced by consensus has the potential to erode this broad-
based support.
    The South Florida Water Management District strongly supports this 
Plan and the process used for developing this product as the best 
opportunity for solving the region's environmental and water resource 
problems within the region. We believe that this Plan is the roadmap 
for providing adequate water for a healthy, sustainable Everglades 
ecosystem as well as for maintaining urban and agriculture use. As 
Chairman of the Governing Board for the agency that serves as local 
sponsor for the Central and Southern Florida Project, I urge you to 
authorize the Plan submitted to you last July. The Administration's 
bill deviates from this Plan and the direction given by Congress in the 
authorization to modernize our 50-plus year old system to address 
unintended consequences to the environment.
    Is it the perfect plan? No. The perfect plan will never exist but 
the Plan is strong. It is flexible enough to allow for improvements 
along the way and the Corps needs to be given the flexibility to make 
refinements as more is learned through scientific monitoring over the 
period of implementation. The Administration's bill provides for such 
refinement.
    In Naples, I submitted testimony that touched on our desire for the 
costs for operating and maintaining the Comprehensive Plan to be shared 
by the Federal Government. The Administration's bill calls for a 60/40 
split of such costs. I urge you to go the next step. Codify our 
partnership by authorizing a 50/50 sharing of all costs. There are 
countless ways to try and analyze a formula that makes sense. I submit 
to you that all the potential formulas are flawed in that none are 
capable of factoring in the interconnectedness of a system that 
operates like dominos on a table. Any opportunity for decisions to be 
made for any other reason than for what is good for the resource will 
only hurt the resource. A 50/50 cost share provides for accountability, 
cost effectiveness, equal influence in decisions and I would argue 
objectivity. It makes sense!
    I will close by emphasizing the unprecedented nature of this 
restoration by highlighting the unprecedented contribution of the State 
of Florida and the unique resources that we as local sponsors bring to 
the table, especially when compared to other local sponsors around the 
country. We bring history, expertise and knowledge of the construction 
and operation of the system, ecological and modeling expertise and 
overall project management experience. Successful implementation will 
depend on the ability to utilize the best from a scientific, 
engineering and research pool of experts that are made up of Federal 
and non-Federal staff. We support the Administration's bill as it 
relates to in-kind credit. It is not our intent to construct without 
authorization. We simply want to be given credit for work that we 
intend to participate in doing. In fact, we propose a more frequent 
balancing of the books to ensure that both the Federal and non-Federal 
sponsor stay closely aligned in terms of spending. Neither of us should 
get too far out ahead of the other.
    Finally, I must applaud our Governor. The State of Florida has a 
long-standing commitment, spanning several administrations and changes 
in political party leadership. Everglades Restoration is a bipartisan 
effort. History has proven this as fact. Back in 1983 then Governor Bob 
Graham started the Save Our Everglades Program. Sir, we are fortunate 
that you, with your historical knowledge and continued leadership serve 
on the committee that will make authorization decisions. Senator Connie 
Mack has been a force in the support of restoration in Washington and 
Florida has benefited from the strong relationship between our two 
Senators.
    Our State is now under the leadership of Governor Jeb Bush. Many 
touted uncertainty of his commitment despite his continued verbal 
commitments and appointments of leaders known for their individual 
commitment to restoration like myself. Governor Bush has done more than 
talk about commitment to restoration. As he stated in his testimony, he 
led the team of a broad spectrum of people who worked tirelessly to 
achieve passage of a funding bill to pay the State's share of 
restoration. That is what I call Leadership! I hope that such a leader 
is one you want as a partner a full partner--an equal partner.
                                 ______
                                 
Responses by Michael Collins to Additional Questions from Senator Smith

    Question 1. Does the Water Management District, as the non-Federal 
sponsor of the Plan, have a recommendation for how to better ``assure'' 
the benefits to the natural system?
    Response. The South Florida Water Management District supports the 
congressionally established policy concerning State primacy instituted 
in the Clean Water Act.

    Question 2. As I understand it, the State will provide 
approximately $100 million a year to the CERP and the SFWMD is expected 
to provide the other $100 million. Can you describe for the committee 
how the WMD will come up with this share of the non-Federal sponsor's 
commitment without raising taxes?
    Response. The financial commitment of the South Florida Water 
Management District and the State of Florida to restore the Everglades 
is well documented. The Governor has very publicly voiced the 
commitment of the State of Florida to fund its share of the 
Comprehensive Everglades Restoration Plan. This commitment was 
validated by the Florida Legislature with the passing of the Everglades 
Restoration Investment Act. The South Florida Water Management District 
will also meet its obligations under this commitment.

    Question 3. As you know, it is the non-Federal sponsor's 
responsibility to purchase land. What would the impact be on the land 
acquisition process in Florida if the Federal Government did not 
authorize the initial suite of ten projects this year?
    Response. The current arrangement is for the local sponsor to act 
as the land acquisition agent for the project. Approximately 2/3 of 
lands required for the initial suite of ten projects have been 
acquired. If authorization of these projects does not occur it will 
jeopardize the continuation of land acquisition for these projects.

    Question 4. Why is it important to move forward with authorization 
of this initial set of ten projects this year?
    Response. The initial set of ten projects will provide immediate 
system-wide benefits to the ecosystem including natural hydroperiod 
restoration, and protection from frequent catastrophic releases of 
excess freshwater to coastal estuaries. Authorization will also allow 
utilization of lands already purchased. Additionally, authorization now 
will ensure increased efficiencies by integrating detailed engineering 
and design work with ongoing Federal and State projects. On the 
resource side, there is a high probability that delay in authorization 
of these projects will result in continued harm to Lake Okeechobee, 
coastal estuaries and the Everglades Protection Area. From a program 
management perspective uncertainty will make it difficult to 
appropriately staff and budget for the construction phase of projects. 
In addition, it will be difficult to justify continued planning and 
design efforts if projects are not authorized. The SFWMD is currently 
well positioned for CERP design and construction due staff available 
from the Everglades Construction Project. Construction on this project 
will be completed in 2003 which fits well with shifting staff for the 
initiation of a number of construction projects associated with CERP. 
Delays in authorizations and subsequent appropriations would make it 
difficult for the SFWMD to justify maintaining this staffing level 
necessary to meet the aggressive implementation schedule. Delays in 
authorization may also make it difficult to maintain a consistent level 
of State funding for the Restoration Plan.

    Question 5. On March 2 and 3, the Governor's Commission for a 
Sustainable South Florida unanimously approved the version of the Plan 
that became the April 1999 Restudy. Ken Keck of Florida Citrus Mutual 
testified that the members of the Governor's Commission did not have a 
vote on the implementation of the Plan. This is contrary to what 
Section 10 of the Restudy says, as well as what the minutes of the 
meeting document. Can you clarify?
    Response. Answer: On March 3, 1999 the Governor's Commission for a 
Sustainable South Florida was presented the final draft of the Restudy. 
The Commission unanimously approved a report that proposed 
modifications to the draft and recommended assurances language to the 
Army Corps of Engineers. Most of the suggested changes proposed by the 
Commission were incorporated in the Final Report that was transmitted 
to Congress. A copy of the minutes for the referenced meeting is 
attached.
                                 ______
                                 
   Responses by Michael Collins to Additional Questions from Senator 
                                 Graham

    Question 1. One of the proposals that have been discussed among 
various constituencies is the use of State water law and regulatory 
processes to issue assurances to the natural system and the human 
environment. The State has had Chapter 373 authority to issue 
consumptive use permits, minimum flows and levels, and reservations for 
the natural system for almost 30 years. To date, the State has only 
issued consumptive use permits. If Congress chose to use the State 
water law and regulatory processes to issue assurances, how can we be 
sure the State process would ever move forward?
    Response. While the authority has been on the books the actual 
tools necessary to accomplish change has been cumbersome. The current 
infrastructure to move water throughout the State is a Federal project 
the Central and Southern Florida Project. Modifying a Federal project 
requires congressional authorization, which explains the critical 
importance of the Comprehensive Everglades Restoration Plan. Further, 
to evoke change and then successfully enforce change requires the State 
be in good standing from a planning and scientific perspective and that 
those stakeholders which will be impacted by changes are part of the 
process. The State of Florida has all of this behind us now. In 1997 a 
State statutory mandate to develop water supply plans that serve as a 
road map for quantifying and protecting environmental water supplies 
was adopted by the Florida Legislature. The Governing Board of the 
South Florida Water Management District at the May meeting adopted 
these regional water supply plans. And, the regional water supply plans 
are dovetailed with the Comprehensive Everglades Restoration Plan. We 
are moving forward.

    Question 2. One of the definitions under discussion in the 
assurances debate is the definition of the term ``existing water 
user''. What is your impression of how this term should be defined to 
provide adequate protection to existing permitted users and to the 
natural system?
    Response. An existing water user is a user of water that holds a 
valid State permit to use a specific amount of water from a specified 
source for a specific duration.

    Question 3. Can you describe the impact to the Everglades and 
surrounding ecosystems if we move forward with this project?
    Response.
    1. Substantial reduction in the number and severity of ecologically 
damaging extreme high water and low water events on Lake Okeechobee, 
resulting in protection of the Lake's littoral wetlands and deep water 
zones and associated ecological and fisheries resources.
    2. Reduced inputs of excessive nutrients into Lake Okeechobee.
    3. Substantial reduction or elimination of damaging flows of 
excessive nutrients, pesticides, and suspended materials to the 
Caloosahatchee and St. Lucie estuaries due to improved water quality 
and water depths in Lake Okeechobee.
    4. Recovery of desirable salinity ranges in the Caloosahatchee and 
St. Lucie estuaries, benefiting ecological and fisheries resources.
    5. Recovery of more natural volume and timing patterns of flow 
between Lake Okeechobee and the northern Everglades.
    6. Recovery of more natural volume and timing patterns of flow into 
the eastern Big Cypress basin, including improved habitat conditions 
for the endangered Cape Sable Seaside Sparrow.
    7. Reduced inputs and distribution of excessive nutrients in the 
Everglades.
    8. Substantial recovery of more natural hydroperiods, surface water 
distribution and timing patterns in the Everglades, resulting in 
recovery of more healthy Everglades ecosystems and the characteristic 
animals of these wetlands.
    9. Substantial recovery of more natural flow patterns and volumes 
into Florida Bay, including recovery of natural salinity ranges, 
resulting in recovery of ecological and fisheries resources.
    10. Substantial increase in the spatial extent of healthy wetlands 
in the southern Everglades.
    11. Substantial improvements in reaching desired salinity range and 
timing of flows for Lake Worth Lagoon, and recovery of healthy 
fisheries.
    12. Recovery of more natural flow distribution patterns and in 
desired salinity range for Biscayne Bay, and recovery of healthy near-
shore ecological and fisheries resources.
    13. Increased spatial extent, hydropatterns and quality of southern 
Miami-Dade wetlands.

    Question 4. Can you describe the impact to the Everglades and 
surrounding ecosystem if we do not move forward with this project?
    Response.
    1. Reductions in the spatial extent of healthy wetlands will 
continue.
    2. Species that require large expanses of natural habitat, such as 
the Florida panther, snail kite, and wading birds, will increasingly 
become stressed by the loss of habitats.
    3. Losses of organic soils will continue to reduce water storage 
capacity and ecological productivity throughout the Everglades.
    4. Canals and levees will continue to encourage the introduction 
and spread of exotic plants and animals.
    5. Unnatural fire patterns will increasingly damage the natural 
landscapes of south Florida.
    6. South Florida recreational and commercial fishing will decline, 
both in the freshwater Everglades and Lake Okeechobee, and in the St. 
Lucie, Caloosahatchee and Florida Bay estuaries.
    7. Endangered species will continue to decline, and some species 
may be irreversibly lost in south Florida.
    8. The Everglades will cease to exist as a functional, recognizable 
``River of Grass.''

    Question 5. What is the current plan of action related to the 8.5 
square mile area?
    Response. On June 15, the South Florida Water Management District 
Governing Board will decide whether or not there is an appropriate role 
for the water management district as local sponsor. Thereafter, the 
Army Corps of Engineers will have the responsibility to accept or 
reject a locally preferred option, should one be chosen. Ultimately, it 
is the Army Corps of Engineers' responsibility to complete the EIS 
process and to meet the mandate required by the Modified Water Delivery 
project.

    Question 6. Can you elaborate on the environmental benefits that 
the modified water delivery project is seeking to achieve?
    Response. The Modified Water Delivery (MWD) project is an essential 
and critical element in the larger restoration effort for the Florida 
Everglades. The primary environmental benefit that will result from 
implementation of the MWD is to provide more natural water flows in the 
Northeast Shark River Slough portion of Everglades National Park. 
Completion of the MWD project provides the basis and starting point for 
further restoration efforts to be implemented under the Comprehensive 
Everglades Restoration Plan (CERP). The success of several Critical 
Restoration Projects and other scheduled restoration elements under the 
CERP can not proceed or would be significantly delayed in their 
implementation until the completion of the MWD. The MWD project has 
been further identified as a critical element in a Biological Opinion 
(February 1999) issued by the U.S. Fish and Wildlife Service for the 
Cape Sable Seaside Sparrow. Completion of the MWD project is required 
by 2003 as a condition to avoid potential jeopardy and is a compliance 
requirement under the Reasonable and Prudent Alternative.

    Question 7. Do you believe that the SFWMD will be able to resolve 
this issue prior to implementation of the Comprehensive Everglades 
Restoration Plan?
    Response. The responsibility to resolve this issue does not rest 
solely with the South Florida Water Management District. It is 
important to recognize that the Modified Water Delivery (MWD) project 
was initially considered to be a 100 percent Federal project, the 
persistent disagreement among the Federal agencies as to how best to 
accomplish the implementation has delayed progress. The water 
management district's role has been to facilitate a public process to 
identify common ground on the issue of the 8.5 square mile area and to 
determine if there is an appropriate role for the water management 
district. Any alternative selected that is different from that 
initially proposed by the Corps of Engineers is considered a locally 
preferred option. The Governing Board has requested a reevaluation of 
the alternatives to identify a mitigation plan that is sustainable for 
the long term and accomplishes the restoration objectives. The 
Governing Board is committed to making a recommendation about how to 
move forward and about an appropriate role for this agency based on 
sound science and what is best for the resource, including the timely 
implementation of the MWD project.
                                 ______
                                 
 Responses by Michael Collins to Additional Questions from Senator Mack

    Question 1. Do you support applying section 902 of the 1986 Water 
Resources Development Act to all features of the Comprehensive Plan 
before us today? [This provision requires a congressional review if a 
project exceeds 20 percent of authorized cost]
    Response. Yes, additionally we propose an equal spending 
arrangement as implementation of the project's progress. Using periodic 
accounting as opposed to rectifying the books at the end would increase 
accountability.

    Question 2. Do you support congressional committee review and 
approval of the feasibility level of engineering and design work before 
any construction can begin on the initial suite of ten projects in the 
Comprehensive Plan?
    Response. The delegation to the Secretary of the Army for approval 
of Project Implementation Reports (PIR) is adequate oversight. The 
water management district does not oppose additional congressional 
committee review and approval. We would caution against any process 
that would result in significant delays to implementation as these 
projects are submitted for approval now because of their immediate 
benefits to the natural system.

    Question 3. Do you support requiring full feasibility studies 
before any other projects are authorized under the Comprehensive Plan?
    Response. Yes, Project Implementation Reports (PIR) mirror the 
requirements of a feasibility study. The water management district 
supports requiring PIRs for construction of projects included in the 
Comprehensive Plan.

    Question 4. Do you support modifying the definition of the South 
Florida Ecosystem to make clear the system includes the lands and 
waters within the boundaries of the South Florida Water Management 
District as they existed on July 1, 1999?
    Response. Yes. Modifying the definition of the South Florida 
Ecosystem makes it clear that the precise scope and boundaries of the 
Comprehensive Everglades Restoration Plan consist of the lands and 
waters within the boundary of the South Florida Water Management 
District, including the Everglades, the Florida Keys, and the 
contiguous near-shore coastal waters of South Florida.

    Question 5. Do your support a provision making clear the Corps of 
Engineers is only authorized to study the question about providing 
additional 245,000 acre-feet of water to the natural system?
    Response. The water management district maintains that the adaptive 
assessment process will allow for future refinements to project 
components and we are committed to continue to work with the Army Corps 
and Department of Interior to establish an allocation of water that is 
healthy for the Park. It is an error in judgment to predetermine that 
245,000-acre feet is the additional amount of water needed for 
Everglades National Park.

    Question 6. Do you support language making clear that the Corps 
must work with the State of Florida to ensure all groundwater 
discharges resulting from the Comprehensive Plan meet all applicable 
water quality standards and water quality permitting requirements?
    Response. Yes and the language should be expanded to authorize 
water quality features needed for the implementation of the project 
components.

    Question 7. Do you support replacing the project purposes language 
stated in (c)(1) of the administration's draft with language restating 
the purpose of the Comprehensive Plan developed and passed in WRDA 
1996?
    Response. Yes. There was broad support and agreement to the 
purposes of WRDA 1996.

    Question 8. Do you support additional programmatic authority for 
the Corps to construct projects of limited cost but are in keeping with 
the Plan's purposes and have independent and substantial benefit to 
Everglade's restoration?
    Response. Yes. Programmatic authority is consistent with the 
congressionally authorized critical project authority in WRDA 96.

    Question 9. Do you support a 50/50 cost share between the Federal 
Government and the State of Florida on operation and maintenance of the 
project? If not, please state the cost share you believe to be 
appropriate and why.
    Response. Yes. The project benefits to Federal trust resources such 
as Loxahatchee National Wildlife Refuge, Big Cypress National Preserve, 
Ten Thousand Islands National Wildlife Refuge, Florida Panther National 
Wildlife Refuge and Everglades National Park and many federally listed 
protected species are well documented. In fact, the Federal Government 
manages approximately 75 percent of the protected lands and waters 
within the South Florida ecosystem that will benefit from the 
Comprehensive Plan. The high degree of benefits to Federal trust 
resources dictates a 50/50 cost share of operation and maintenance.

    Question 10. Please provide your thoughts on the definition of 
Project Implementation Reports found in the Administration's language. 
Do you support this definition? If not, please provide suggestions as 
to how you would define these reports.
    Response. The primary issue with the PIR is not in the definition 
of the PIR but in the process by which it is developed and implemented. 
The water management district maintains that this critical process 
should be a joint State/Federal initiative and not one undertaken 
solely by Federal agencies.

    Question 11. Do you believe the Department of Interior and the 
State of Florida should be on equal footing in developing any 
regulations related to assurances? If not, why?
    Response. We do not think that new regulations related to 
assurances are necessary or appropriate. The water management district 
supports the proposal to require that Project Implementation Reports 
(PIR) identify the new water made available from each project component 
for the natural system and other water uses. Implementation of water 
reservations for the natural system and allocations for other water 
uses in accordance with State law will accomplish assurances in a way 
that does not require new Federal regulations.

    Question 12. Do you support the reporting requirement in the 
administration's bill? If not, how would you amend the reporting 
requirements?
    Response. The reports should be subject to concurrence from the 
Governor of the State of Florida.
                                 ______
                                 
   Responses by Michael Collins to Additional Questions from Senator 
                               Voinovich

    Question 1. I would like to ask you the same question I asked 
Dexter Lehtinen, given the importance of completing the Modified Water 
Delivery Project, has the South Florida Water Management District 
identified any plan for flood mitigation for the most developed portion 
of the 8.5 square mile area that would be acceptable to environmental 
interests?
    Response. The South Florida Water Management District has embarked 
on a very public process to identify common ground on the issue of the 
8.5 square mile area. The Governing Board is committed to making a 
recommendation about how to move forward and about an appropriate role 
for this agency based on sound science and what is best for the 
resource, including the timely implementation of the MWD project.

    Question 2. In response to previous questions by this committee, 
the South Florida Water Management District has indicated that the 
Stormwater Treatment Areas that are being constructed as part of the 
Everglades Construction Project and the additional Stormwater Treatment 
Areas proposed in the Comprehensive Plan will result in significant 
reductions in the phosphorus levels but that there is not good 
scientific evidence that they will be able to achieve the long term 
water quality standard for phosphorus estimated at 10 part per billion. 
You further indicated that at this time there was insufficient 
information to estimate the additional costs required to meet the long-
term standard. If those additional costs turn out to be significant and 
result in a substantial increase in the cost of the Comprehensive Plan, 
who should pay for these additional costs? Should they be a Water 
Management District cost or should they be shared with the Corps?
    Response. The project underway to ultimately achieve the long-term 
water quality standard is being implemented at the expense of the State 
of Florida. Further, this project is considered a ``without project 
condition'' in the Comprehensive Everglades Restoration Plan. If in the 
future of this State, it is determined that additional measures are 
needed to address water resource issues, then at that time, Federal 
agencies and Congress will have an opportunity to determine if there is 
a Federal interest in implementing any such proposal.
                               __________
 Statement of Dr. Joseph W. Westphal, Assistant Secretary of the Army 
                            for Civil Works
    Mr. Chairman, members of the committee, I am Joseph Westphal, 
Assistant Secretary of the Army for Civil Works. I am pleased to be 
here today to present the Administration's views on an important 
national issue the restoration of America's Everglades and legislation 
critical to the implementation of the Comprehensive Everglades 
Restoration Plan (CERP) submitted to the Congress on July 1, 1999. As 
requested I will discuss the CERP legislation contained in the 
Department of the Army's legislative proposal for the Water Resources 
Development Act (WRDA) of 2000 submitted to the Congress on April 10, 
2000.
    An American treasure is in trouble. Once the Florida Everglades was 
a vibrant, free-flowing river of grass that provided clean water from 
Lake Okeechobee to Florida Bay. It was a haven for storks, alligators, 
panthers and other wildlife and was critical to the health of estuaries 
and coral reefs. Today this extraordinary ecosystem--unlike any other 
in the world--is dying.
    Over the past half-century, as the population of south Florida has 
grown, the health and size of the Everglades have steadily declined. 
Fully half the Everglades have been lost to agriculture and 
development. And the surviving remnants suffer from a severe shortage 
of clean, reliable water. In our efforts to guard communities against 
flooding and to ensure adequate water supplies for drinking and 
irrigation, we have diverted the natural water flows that are the 
essence and very lifeblood of the Everglades.
    As Marjory Stoneman Douglas said in The Everglades: River of Grass, 
``There are no other Everglades in the world.'' Like the tropical 
rainforest of South America and the giant redwood forest of the west, 
the Everglades is a unique ecosystem. We must act now, and act 
aggressively, if we are to save this special place. Enactment of the 
legislation submitted to you on April 10, 2000 is a critical next step.
    On July 1, 1999, on behalf of the Administration, and in 
partnership with the State of Florida, I submitted to Congress a 
comprehensive plan to restore the South Florida ecosystem by modifying 
the existing Central and Southern Florida project. The South Florida 
ecosystem includes the Everglades, Lake Okeechobee, Florida Bay, and 
Biscayne Bay and the Florida Keys. The CERP, which will be implemented 
over the next 25 years, will:
    <bullet>  Improve the health of over 2.4 million acres of the south 
Florida ecosystem, including Everglades National Park;
    <bullet>  Improve the health of Lake Okeechobee;
    <bullet>  Virtually eliminate damaging freshwater releases to the 
estuaries;
    <bullet>  Improve water deliveries to Florida and Biscayne Bays;
    <bullet>  Improve water quality; and
    <bullet>  Enhance water supply and maintain flood protection.
    The CERP, which was formerly known as the ``Restudy,'' is the most 
ambitious ecosystem restoration project ever undertaken in the United 
States--if not the world. Its fundamental goal is to capture most of 
the fresh water that now flows unused to the sea and deliver it when 
and where it is needed most. Eighty percent of this ``new'' water 
targeted for capture will be devoted to environmental restoration, 
reviving the ecosystem from the Kissimmee River, through Lake 
Okeechobee, through Everglades National Park, and out to the coral 
reefs of Florida Bay. The remaining 20 percent will benefit cities and 
farmers, enhancing water supplies and supporting a strong, sustainable 
economy for south Florida.
    In short, the CERP consists of over 60 components that work 
together to restore, preserve, and protect the South Florida ecosystem 
by delivering the right amount of water, of the right quality, to the 
right places and at the right time. The Army's legislative proposal 
approves the CERP as a scientifically sound blue print for restoration 
and provides authority to implement the initial increment of the 
improvements described in the report of the Chief of Engineers on the 
Central and Southern Florida Project Comprehensive Review Study, dated 
June 22, 1999.
    While the CERP reflects the best available science, we are prepared 
to refine our thinking as we learn more. Thus the CERP is designed to 
be flexible, to incorporate and respond to new information as it 
becomes available. Continuous monitoring and independent scientific 
review are key components of the CERP. Still, the CERP provides a sound 
basis to move forward immediately. There is too much at stake and 
little time to act.
The Problem
    The Everglades of today are not the same place that Mrs. Douglas 
wrote about in 1947. Millions of people have encroached upon the 
ecosystem that once was the domain of panthers, alligators and flocks 
of birds so vast that they would darken the sky. With the arrival of 
people came the desire to manage the water, to tame the free flowing 
river of grass from Lake Okeechobee to the Florida Keys.
    The Central and Southern Florida Project was authorized by Congress 
50 years ago to provide flood protection and fresh water for the people 
of south Florida. This project accomplished its intended purpose and 
allowed people to more easily live on the land. It did so, however, at 
tremendous ecological cost to the Everglades. While the population of 
people has risen from 500,000 in the 1950's to more than 6 million 
today, the numbers of native birds and other wildlife have dwindled and 
some have vanished. The size of the Everglades has been reduced by half 
and several wildlife species are threatened or endangered.
    Over the past 100 years, excessive drainage of wetlands and changes 
in the natural variability of water flows have altered the Everglades 
wetland ecosystem on a regional scale. Today, discharges to the 
Everglades are often too much, or too little, and frequently at the 
wrong times of the year. An over-abundance or scarcity of water affects 
plants and wildlife accustomed to the Everglades' historic range of 
water flows, levels and seasons. In addition, canals and highways that 
criss-cross the Everglades have interrupted its historic overland sheet 
flow.
    Water quality throughout south Florida has deteriorated over the 
past 50 years. More than one-half of the wetlands that act as natural 
filters and retention areas are gone. Some untreated urban and 
agricultural storm water is sent directly to natural areas and 
estuaries. Too much, or too little, water is often sent to estuaries. 
Too many nutrients are entering the Everglades, with an over-abundance 
of cattails a visible indicator of the consequences.
    Historically, most rainwater soaked into the ground in the region's 
vast wetlands. As south Florida developed, the canal system built over 
the past 100 years worked effectively and drained water off the land 
very quickly. As a result, approximately 1.7 billion gallons of water 
per day on average is discharged to the ocean. One very significance 
consequence is that not enough water is available for the environment.
    Under current conditions, these natural systems cannot recover 
their defining characteristics and they will not survive. The growing 
demand for a reliable and inexpensive supply of water for agriculture, 
industry and a burgeoning population will likely exceed the limits of 
readily accessible sources. As the needs of the region's natural 
systems are factored in, as they must be, conflicts for water among 
users will become even more severe. Water shortages will become more 
frequent and more severe unless changes to the water management system 
are made. The health of the ecosystem will continue to decline unless 
we act now.
The Comprehensive Everglades Restoration Plan
    First and foremost, the goal of the CERP is to restore, protect and 
preserve the south Florida ecosystem. The focus of the CERP has been to 
restore the defining ecological features of the original Everglades and 
other parts of south Florida ecosystem while providing for other water 
related needs of the region.
    Both the problems with declining ecosystem health and the solutions 
to Everglades restoration can be framed by four interrelated factors: 
quantity, quality, timing, and distribution of water. The principal 
goal of restoration is to deliver the right amount of water, of the 
right quality, to the right places and at the right time. The natural 
environment will respond to these hydrologic improvements, and we will 
once again see a healthy Everglades ecosystem.
Quantity
    Significantly less water flows through the ecosystem today compared 
to historical times. As noted above, on average, 1.7 billion gallons of 
water that once flowed through the ecosystem is wasted each day through 
discharges to the ocean or gulf in excess of the needs of the 
estuaries. The CERP will capture most of this water in surface and 
underground storage areas where it will be stored until it is needed. 
Specifically, this water will be stored in more than 217,000 acres of 
new reservoirs and wetlands-based treatment areas, and 300 underground 
aquifer storage and recovery wells. These features vastly increase the 
amount of water available in south Florida.
Quality
    The quality of water in the south Florida ecosystem has been 
diminished significantly. Excess phosphorus, mercury, and other 
contaminants harm the region's surface water and groundwater. The water 
quality of the Everglades Water Conservation Areas, the coastal 
estuaries, Florida Bay and the Keys show similar signs of significant 
degradation. The CERP will improve the quality of water discharged to 
natural areas by first directing it to surface storage reservoirs and 
wetlands based stormwater treatment areas. In addition, the CERP 
recommended the development of a comprehensive integrated water quality 
plan for the region that will further improve water quality.
Timing
    Alternating periods of natural flooding and drying, called 
hydroperiods, were vital to the Everglades ecosystem. These natural 
hydroperiods have been severely altered by human activities. Restoring 
these variations in water flows and levels is an integral part of the 
CERP. Specifically, the timing of water held and released into the 
ecosystem will be modified by the CERP so that it more closely matches 
natural patterns. The CERP will reduce the harmful water levels that 
damage Lake Okeechobee and its shoreline. Improved water deliveries to 
the Caloosahatchee and St. Lucie rivers will reduce damage to the 
estuaries caused by too much or too little fresh water. Florida and 
Biscayne bays will receive improved fresh water flows. In other areas, 
an operational plan that mimics natural rainfall patterns will enhance 
the timing of water sent to the Water Conservation Areas, Everglades 
National Park, and other wildlife management areas.
Distribution
    The areal extent and movement of water through the system is the 
final factor in the water equation. Over 50 percent of the original 
Everglades have been lost to urban and agricultural development. 
Further, the remaining ecosystem has been separated, or 
compartmentalized, by canals and levees. To improve the connectivity of 
natural areas, and to enhance sheetflow, more than 240 miles of levees 
and canals will be removed within the Everglades. Most of the Miami 
Canal in Water Conservation Area 3 will be filled and 20 miles of the 
Tamiami Trail will be rebuilt with bridges and culverts, allowing water 
to flow more naturally into Everglades National Park. In the Big 
Cypress National Preserve, the levee that separates the preserve from 
the Everglades will be removed to restore more natural overland water 
flow.
    In summary, the CERP will store much of the excess water that is 
now sent to the sea so there will be enough water to meet the needs of 
both ecosystem and urban and agricultural users. The CERP includes a 
number of features to improve the quality of water flowing to the 
natural environment. It will continue to provide the same level of 
flood protection for south Florida. The CERP is not perfect no plan 
could be given the complexity of the ecosystem and the effects of past 
modifications. We know that we do not have all the answers and that we 
will have to make adjustments as we learn more. In this regard, the 
concept of adaptive assessment is an integral part of the CERP. In 
short, we will monitor, use independent peer review, public input, and 
make necessary adjustments as we go, utilizing the effective 
interagency and multi-stakeholder partnerships that allowed us to 
develop the CERP.
Why Restore the Everglades?
    Perhaps first and foremost, the Everglades are an American treasure 
that is in serious trouble. There is no other wetland system like the 
``River of Grass'' in the world.
    As with other great natural and cultural resources, we have a 
responsibility to protect and restore this treasure for generations to 
come.
    Implementing the CERP over the next 25 or so years will cost 
approximately $7.8 billion. While the implementation cost of the 
project is substantial, it will be spread over many years and shared 
equally between the Federal Government and the State of Florida. More 
importantly, the environmental and economic costs of inaction are 
enormous. If we do not act now, the Everglades will continue to die and 
water shortages will have real effects on Florida's economy.
    The benefits to the Nation of implementing the CERP are tremendous. 
The entire south Florida ecosystem, including the Everglades, will 
become healthy, with many of its natural characteristics restored. 
Urban and agricultural water users will also benefit from enhanced 
water supplies. Flood protection, so important to hurricane-prone south 
Florida, will be maintained and, in some cases, improved.
    The economic benefits from implementation of the CERP are wide-
ranging and are linked with the availability of clean, abundant water 
in the ecosystem. Not only is water the key to ecosystem restoration, 
it is also necessary for sustainable agricultural and urban 
environments. It is important for recreation, tourism and navigation. 
It plays a significant and obvious role in commercial and recreational 
fishing.
    With the CERP, the distribution of plants and animals will return 
to more natural patterns as more pre-drainage water flows are restored. 
The CERP will support the return of the large nesting ``rookeries'' of 
wading birds to Everglades National Park, and the recovery of several 
endangered species, including the wood stork, snail kite, Cape Sable 
seaside sparrow, and American crocodile. We are confident that 
implementation of the CERP will allow us to once again witness an 
abundance of wildlife in the Everglades.
    Lake Okeechobee, which is regionally important to fish and 
wildlife, will once again become a healthy lake. Both the shallow and 
open water areas within the lake, essential to its commercial and 
recreational fishery, will be greatly enhanced by improved water 
levels. This will mean more abundant and healthier fish populations. 
Water quality in the lake will also be improved significantly by 
reducing the pollutant loading of water flowing into the lake.
    The CERP will also improve fresh water deliveries to Florida and 
Biscayne bays by increasing the flow and reduce the water lost to tide 
through the St Lucie and Caloosahatchee estuaries. Appropriate fresh 
water regimes will result in substantial improvements in aquatic and 
semi-aquatic habitats, including mangroves, coastal marshes, and 
seagrass beds interacting together to produce food, shelter, and 
breeding and nursery grounds; these coastal habitat areas will support 
more balanced, productive fish, shellfish, and wildlife communities.
    The CERP will begin to reverse, in a relatively short time, the 
pattern of ecological degradation that has been occurring in the 
natural system for many decades. If we start now, the natural wetlands 
system of south Florida will be healthier by the year 2010.
    Like many other public works projects, implementing the CERP is an 
investment in the nation's future. With this investment, we can restore 
this unique ecosystem and leave a proud legacy for future generations. 
If we do not make the investment now, we will suffer the irretrievable 
loss of America's Everglades.
    As noted above, the estimated cost to implement the CERP is $7.8 
billion. It will also cost approximately $182 million each year to 
operate, maintain, and monitor the CERP. Taken together over the more 
than 20 years needed to implement the CERP, the annual costs amount to 
just over $400 million. In general, the Federal Government will pay 
half the construction cost and the State of Florida and the South 
Florida Water Management District will pay the other half. We are 
proposing that the State pay 60 percent of the cost to operate and 
maintain the project.
    The Restoration Effort Begins with Authorization in the Water 
Resources Development Act of 2000
    On April 10, 2000, on behalf of the Administration, I submitted to 
Congress a comprehensive legislative proposal that will allow the 
implementation of the CERP. Our legislation would accomplish several 
important objectives, including the following:
    1). a congressional endorsement of the importance of restoring the 
Everglades and that such restoration is a National priority;
    2). a congressional endorsement of the CERP as a technically sound 
blue print for Everglades restoration;
    3). the authorization of an initial package of projects, including 
four pilot projects and ten of the 68 project features;
    4). the authorization of a program authority to allow the 
expeditious implementation of smaller project features;
    5). language that will ensure that project benefits are achieved 
and maintained for as long as the project is authorized; and
    6). provisions that recognize the importance of outreach to 
socially and economically disadvantaged individuals and business owners 
in the South Florida ecosystem.
    A more detailed discussion of each of these objectives as well as 
additional information on our legislative proposal is provided below.
    Recognizing the Importance of Everglades Restoration. It is 
important that Everglades restoration becomes a priority and that the 
Nation recognizes that a national treasure--America's Everglades--is at 
great risk. Our legislation would allow the Congress to declare, like 
the Administration, the importance of this unprecedented natural 
resource.
    The CERP--a Technically Sound Blue Print for Restoration. Our 
legislation would have Congress affirm that the CERP is a technically 
sound approach for restoring the Everglades. With its extensive public 
involvement and adaptive assessment approach, the CERP will lead to a 
healthy and sustainable ecosystem. It is important that the 
comprehensive nature of the CERP be maintained and that the temptation 
to pick and choose various parts or features be avoided. The 68 CERP 
features work together and each provides important benefits to the 
ecosystem.
    Authorization of Pilot projects will address technical 
uncertainties. Prior to full-scale implementation, six pilot projects, 
with a total cost of $97 million, will be built to address 
uncertainties with some of the features in the CERP (two of these pilot 
project were authorized in the Water Resources Development Act of 
1999). In our legislation we have proposed authorization of the four 
remaining pilot projects at a total cost of $69 million. These four 
projects include: aquifer storage and recovery in the Caloosahatchee 
River Basin; in-ground reservoir technology in the lake belt region of 
Miami-Dade County; levee seepage management technology adjacent to 
Everglades National Park; and advanced wastewater treatment technology 
to determine the feasibility of using reuse water for ecological 
restoration.
    Authorization of an Initial set of construction features will 
provide immediate system-wide water quality and flow distribution 
benefits and use already purchased land. Ten projects, totaling $1.1 
billion, are recommended for initial authorization. These projects were 
selected for initial authorization based on the following four factors: 
1) the ability to provide immediate water quality and flow distribution 
benefits to the ecosystem; 2) the ability to utilize lands already 
purchased; 3) the linkage with on-going restoration projects; and 4) 
maximizing the benefits of Federal investments already undertaken. For 
example, if authorized, we could update the ongoing Modified Water 
Deliveries Project to make it more consistent with the CERP by taking 
immediate steps to improve flow distribution through the Tamiami Trail. 
In addition, the South Florida Water Management District and the U.S. 
Department of the Interior have already purchased lands, such as the 
Talisman lands, for a number of CERP components. Authorization of 
projects that use lands already purchased will ensure that these lands 
are utilized for restoration as soon as possible. We have previously 
provided the committee detailed information on each of the ten projects 
proposed for authorization.
    Implementation of the CERP provides flexibility to adapt to new 
information. Since no plan can anticipate exactly how a complex 
ecosystem will respond during restoration efforts, our legislation 
proposes an extensive monitoring program. For example, the remaining 
Everglades are only one-half as large as their original size and 
current boundaries often do not follow natural ground elevations or 
habitat patterns. For these and many other reasons, the ways in which 
this ecosystem will respond to the recovery of more natural water 
patterns could include some unforeseen outcomes. The CERP anticipates 
the possibility of such outcomes. The CERP is designed to allow project 
modifications that take advantage of what is learned from system 
responses, both expected and unexpected. Called adaptive assessment, 
and using a well-focused regional monitoring program, this approach 
will allow us to maximize environmental benefits while ensuring that 
restoration dollars are used wisely. The monitoring program, which will 
cost approximately $10 million per year, will measure how well each 
component of the plan accomplishes its objectives, and, this, in turn, 
sets up opportunities for refinement of succeeding components. 
Independent scientific review through a National Research Council 
panel, the Committee on Restoration of the Greater Everglades Ecosystem 
or ``CROGEE'', is also an integral part of this process.
    Programmatic authority will expedite implementation. To expedite 
the completion of certain smaller features, an authorization is being 
sought similar to the ``critical projects'' authority in Section 
528(b)(3) of the Water Resources Development Act of 1996. These 
projects would ``produce independent, immediate, and substantial 
restoration, preservation and protection benefits,'' and expedite some 
components of the CERP. The programmatic authority would be limited to 
those individual components of the CERP that have a total project cost 
of $70 million or less, with a maximum Federal share of $35 million per 
project. A total of 27 components of the CERP, with a total combined 
Federal and non-Federal cost of $490 million, could be implemented in 
an efficient and expedited manner. Components such as the Arthur R. 
Marshall Loxahatchee National Wildlife Refuge internal canal 
structures, the Lake Okeechobee watershed water quality treatment 
facility and the Florida Keys tidal restoration project could be 
accomplished under this programmatic authority.
    The remainder of the CERP's features are to be included in future 
Water Resources Development Acts. Our legislation makes it clear that 
Congress will be asked to authorize the remaining components of the 
CERP in subsequent WRDA bills. At a cost of approximately $6.2 billion, 
these 26 remaining features will undergo additional studies and 
analysis before authorization is sought from Congress. Many of these 
project components are dependent on the results of the proposed pilot 
projects such as aquifer storage and recovery features and the in-
ground reservoirs in Miami-Dade County. Based on the implementation 
schedule, project implementation reports will be submitted to Congress 
periodically through the year 2014.
    Cost sharing. Consistent with the Water Resources Development Act 
of 1996, the non-Federal share of the cost of implementing the projects 
is 50 percent. Our legislation directs the non-Federal local sponsor to 
be responsible for the acquisition of lands, easements and rights-of-
way, and relocations, and provides credit for such acquisitions toward 
the non-Federal share. In a change from the Water Resources Development 
Act of 1996, we have recommended that operations and maintenance costs 
be shared 60 percent non-Federal and 40 percent Federal. We believe 
that this is an appropriate allocation of costs in light of the 
benefits to Federal lands that will be achieved by implementation of 
the CERP.
    Project Implementation Reports bridge the gap between the CERP and 
detailed design. Before any construction starts on any of the 68 
features of the CERP detailed design, engineering, and environmental 
review will completed. Specifically, prior to implementing any 
authorized project feature, a Project Implementation Report (PIR) for 
each project will be completed to address its cost-effectiveness, 
engineering feasibility, and potential environmental impacts. The PIR, 
which will include public review and comment, will bridge the gap 
between the programmatic-level design contained in the CERP and the 
detailed design necessary to proceed to construction. The purpose of 
the PIR is to affirm, reformulate or modify a component or group of 
components in the recommended CERP. PIRs for each project will identify 
any additional water to be made available by that project for the 
natural system, existing legal users and other water related needs, 
consistent with programmatic regulations governing the dedication and 
management of water to be issued.
    Recognition of socially and economically disadvantaged individuals. 
Recognizing that a large percentage of the population of the south 
Florida ecosystem is made up of minority groups (e.g., 20.5 percent 
Hispanic), our proposed legislation would establish a program to ensure 
that socially and economically disadvantaged individuals within the 
south Florida ecosystem are informed of the CERP and have a meaningful 
opportunity to review and comment on its implementation. In addition, 
the legislation requires that a program goal be established that not 
less than 10 percent of the amounts made available to construct 
projects be expended with small business concerns owned and controlled 
by socially and economically disadvantaged individuals within south 
Florida.
    Assuring that CERP Benefits are Achieved and Maintained. Both the 
natural and human environment benefits substantially from the 
implementation of the CERP. Ensuring that these benefits are achieved 
and maintained is an important part of our legislation. Further, our 
legislation ensures that existing legal users are not harmed and that 
overall authorized levels of flood protection are maintained.
    Specifically, our legislation provides that the primary and 
overarching purpose of the CERP is to restore, preserve and protect the 
natural system within the South Florida ecosystem and directs that the 
Plan be implemented in such a way to ensure that the benefits to the 
natural system and human environment in the form of proper deliveries 
of clean fresh water at the proper time and distribution are achieved 
and maintained for so long as the Central and Southern Florida is 
authorized.
    To meet our assurances objectives, our legislation creates a four 
part, tiered approach. The first part is the legislation itself, which 
makes it clear that Congress intends for the benefits to be achieved 
and maintained.
    The second part involves the development of a programmatic 
regulation to identify, in a greater detail, the amount of water to be 
dedicated and managed for the natural system and the human environment. 
This regulation would serve as a bridge between the legislation and the 
project specific regulations discussed below. We believe that this will 
help minimize unnecessary debates 10 to 20 years from now when projects 
are being completed. The programmatic regulation would be issued with 
the concurrence of the Secretary of the Interior and after consultation 
with the Governor and other agencies. In addition, the public would 
have the opportunity to review and comment on the proposed regulations.
    The third part or tier is the detailed design, engineering, and 
environmental work that will be completed for each feature before 
construction starts. This will also give the public, interest groups, 
the State, and the Tribes substantial opportunities to influence the 
final characteristics of each feature. Further, the non-Federal sponsor 
will have a lead role with the Corps for each feature. This will be 
codified in a project cooperation agreement that will be developed for 
each feature.
    The final part of our approach is the project specific regulations 
that will be developed for each feature. These regulations will be 
developed based on public review and comment and in consultation with 
other Federal agencies, the tribes, and the State. These regulations 
will prescribe in greater detail how each feature will provide its 
intended benefit(s). Further, all project specific regulations will be 
consistent with the programmatic regulations, based on the best 
available science, and assure that quantity, quality, timing, and 
distribution issues are addressed.
    CERP Implementation Reports to Congress. Restoring the Everglades 
will require a large investment on the part of the Nation's taxpayers. 
We believe that it is important to disclose fully how the restoration 
is going over the next 30 plus years. In this regard, we have developed 
a reporting program. Specifically, the Secretaries of the Army and the 
Interior, in consultation with the Environmental Protection Agency, 
Department of Commerce and the State of Florida, will jointly submit 
reports to Congress, beginning on October 1, 2005 and ending on October 
1, 2036 that describe the implementation of the CERP. The report will 
include the determination of each Secretary concerning the benefits to 
the natural system and the human environment that have been achieved as 
of the date of the report.
Conclusion
    July 1, 1999, was a historic day for ecosystem restoration. An 
unprecedented ecosystem restoration plan was presented to Congress for 
authorization. The CERP represents the best available science and a 
solid roadmap for restoring an American treasure, the Everglades. The 
CERP also represents a partnership between many Federal agencies, two 
Indian tribes, the State of Florida, and many local governments--all 
who recognize the import of this effort and the consequences of 
inaction. This partnership is vital to our long-term success and we 
must all work to ensure that it is sustained.
    The CERP is also a reflection of the contemporary Army Corps of 
Engineers. Our agency has made environmental restoration a priority 
mission.
    Restoration of the Everglades is a high priority for the Clinton/
Gore Administration, including the Army Corps of Engineers. It is a 
high priority for many in Florida, including the Florida Congressional 
delegation. We must make it a priority for the Nation. The Everglades 
are America's Everglades and each of us should try to understand better 
the importance of saving this treasure.
    The ecological and cultural significance of the Everglades is equal 
to the Grand Canyon, the Rocky Mountains or the Mississippi River. As 
responsible stewards of our natural and cultural resources, we cannot 
sit idly by and watch any of these disappear. The Everglades deserves 
the same recognition and support.
    We are now at an important crossroads in our efforts to restore 
this internationally important ecosystem. The future of the CERP now 
rests with the Congress who must authorize and fund its implementation. 
If we act now with courage and vision to implement the CERP we will be 
successful and we will leave a proud Everglades legacy. If we fail to 
act, our legacy will be one of lost opportunities for all future 
generations. The world is indeed watching as we make this choice.
    Mr. Chairman, that concludes our statement. Again, it has been a 
pleasure to participate in this hearing and I look forward to working 
with you and the rest of the committee on this important issue. With me 
today is Mr. Michael Davis, my Deputy Assistant Secretary for Policy 
and Legislation, and Mr. Stu Applebaum from the Army Corps of Engineers 
Jacksonville District. We would be pleased to answer any questions you 
may have.
                                 ______
                                 
Responses by Joseph Westphal to Additional Questions from Senator Smith

    Question 1. Can you describe the formula your office used in 
devising the 40-60 Operations and Maintenance split and justify why the 
Federal Government should be assuming this percentage of O&M costs.
    Response. The Corps analysis shows that 80 percent of the new water 
obtained under the Comprehensive Everglades Restoration Plan (CERP) 
will be used to benefit the natural system environment and the 
remaining 20 percent will benefit regional water supply for urban and 
agricultural users. The 40-60 cost sharing was derived as follows:
    Cost share 80 percent of the new water for the natural system as 
environmental restoration at 50 percent--Federal; 50 percent--Non-
Federal. Cost share 20 percent of regional water supply at 100 percent 
non-Federal, or

Cost Sharing Formula:
      Non-Federal 0&M = 0.80 (.50) + 0.20 (1.00) = 60 percent
      Federal 0&M = 0.80 (.50) + 0.20 (.00) = 40 percent

    The Administration supports Federal cost sharing of the restoration 
portion of the O&M since the CERP will provide benefits to Department 
of the Interior administered lands including Everglades National park, 
Big Cypress National Preserve, Loxahatchee National Wildlife Refuge, 
and Biscayne Bay.

    Question 2. Is there precedence for the Federal Government to share 
in this O&M cost?
    Response. No. The Everglades restoration effort is of national and 
international significance. The Administration considers the CERP as a 
unique initiative that can be separated from traditional Corps 
projects. In addition, Federal lands, including Everglades National 
Park, Big Cypress National Preserve, Biscayne Bay National Park, and 
the Loxahatchee National Wildlife Refuge, administered by the 
Department of the Interior, would substantially benefit for the 
project. Further, the south Florida ecosystem is a unique and complex 
national treasure.

    Question 3. Can you provide the committee with the cost-per-unit of 
water that would be derived from wastewater reuse as opposed to water 
derived from other sources in the Plan.
    Response. Unit costs for water are cliff cult to compare between 
alternative features since these facilities have benefits that are not 
accounted for in a simple, unit cost comparison, nor does the analysis 
account for flood or water quality aspects of reservoirs. For example, 
aquifer storage and recovery provides multi-year recovery that is not 
possible with surface storage. Wastewater reuse is unique in that is 
available during both dry and wet seasons. Notwithstanding the 
difficulty of directly comparing the unit costs, following is a listing 
of the unit cost for these features:


------------------------------------------------------------------------
              Feature                   Unit cost (per 1,000 gallons)
------------------------------------------------------------------------
Wastewater Reuse...................  $1.71 to $1.76
Aquifer Storage and Recovery.......  $1.27 to $2.50
Surface Storage....................  $0.85 to $1.31
------------------------------------------------------------------------
(Note: Unit costs include annual O&M)


    Question 4. Can you comment on the desirability of wastewater as a 
source of water for the natural system?
    Response. The reclaimed water from wastewater treatment plants 
provides an opportunity to capture an additional source of water to 
achieve the ecosystem restoration goals in south Florida This new 
source of water is unique in that it is available during both dry and 
wet seasons. Further, unlike other regions in south Florida, the 
Southern Everglades, Florida Bay and Biscayne Bay all have a demand for 
water during the wet season that exceeds the levels presently provided 
by the Central and Southern Florida Project system.

    Question 5. When I read the provision on Programmatic Regulations, 
my initial reaction was that this concept is completely contrary to the 
flexibility the Corps is trying to build into the Plan with Adaptive 
Assessment and is entirely premature. How can you suggest issuing a 
one-time regulation, 2 years after date of enactment of the Plan, for a 
system that will not be fully functioning for 20-30 years?
    Response. The Administration believes that the programmatic 
regulations are needed and flexible to identify, in a greater detail, 
the amount of water to be dedicated and managed for the natural system 
and the human environment. This regulation would serve as a bridge 
between the legislation and the project specific regulations that will 
be developed as we proceed with each Project Implementation Report. We 
believe that this will help minimize unnecessary debates 10 to 20 years 
from now when projects are being completed. These regulations could be 
adjusted over time based on our extensive monitoring and adaptive 
assessment program.

    Question 6. What was the rationale behind making the project-
specific regulations consistent with the programmatic regulations as 
opposed to with the Comprehensive Everglades Restoration Plan (April 
1999 document)?
    Response. Project specific regulations will be developed based on 
public review and comment and in consultation with other Federal 
agencies, the tribes, and the State. These regulations will describe in 
greater detail how each feature in the CERP will provide its intended 
benefit(s). Further, all project specific regulations will be 
consistent with the programmatic regulations, based on the best 
available science, and assure that quantity, quality, timing, and 
distribution issues are addressed. Also, these regulations, like the 
programmatic regulations, could be adjusted over time based on our 
extensive monitoring and adaptive assessment program.

    Question 7. Section 902 of WRDA 1986 requires the Corps to seek 
congressional approval if a project's costs are going to exceed the 
authorized amount by 20 percent. Are the 68 components of the 
Comprehensive Plan included in the Administration's WRDA proposal 
subject to this provision? Do you think it would be more or less cost-
effective to instead institute an overall project cap, that is, a cap 
of the entire Plan, rather than on the individual components.
    Response. Each of the project components in the CERP, when 
authorized, are subject to the conditions, regarding allowable 
increases in cost, established in Section 902 of the Water Resources 
Development Act of 1986. The Army believes that it is not appropriate 
to apply the Section 902 funding cap to a program based upon a 
conceptual design. Historically, the 902 cap has been applied to 
projects as they are individually authorized. In this case, each of the 
proposed components will undergo further evaluation, refinement, and 
detailed design, during preparation of the Project Implementation 
Reports. While the Comprehensive Restoration Plan takes a conservative 
approach toward cost uncertainties, including contingencies to account 
for uncertainties, more accurate cost assessments will be developed and 
included in the PIRs. Since the most accurate cost estimates will be 
available for individual components at the completion of the PMs, the 
most cost-effective approach to the 902 cap question would be to apply 
it to individual components as they are authorized.

    Question 8. Why is it important to move forward with authorization 
of this initial set of ten projects this year? Can you describe what 
the impacts of delay would mean for the ecosystem?
    Response. These 10 initial projects will provide immediate system-
wide water quality and flow distribution benefits to the ecosystem, 
utilize lands already purchased, and maximum integration with ongoing 
Federal and State projects. These projects will begin reversing the 
ecological damage in the Everglades and other south Florida ecosystems, 
which is still continuing Initiating project construction in 2004 
requires authorization prior to the spring of 2002. Immediate 
authorization of these components will improve the timing of 
environmental water deliveries to the Water Conservation Areas 
including reducing damaging flood releases from the Everglades.
    The risks of not implementing this Plan and authorizing the initial 
projects are severe. Reductions in the spatial extent of healthy 
wetlands will continue. Species that require large expanses of natural 
habitat, such as the Florida panther, snail kite, and wading birds, 
will increasingly become stressed by the loss of habitats. Losses of 
organic soils will continue to reduce water storage capacity and 
ecological productivity throughout the ecosystem. Canals and levees 
will continue to encourage the introduction and spread of exotic plants 
and animals. Unnatural fire patterns will increasingly damage the 
natural landscape of south Florida South Florida recreational and 
commercial fishing will decline, both in freshwater Everglades and Lake 
Okeechobee, and in the Caloosahatchee and Florida Bay estuaries.

    Question 9. Would you be supportive of a safeguard mechanism, 
perhaps comparable to the process Congress approved last year for the 
Challenge 21 program, which would allow these projects to be 
authorized, but give the Congress appropriate oversight?
    Response. Yes. The Army supports congressional committee review of 
the project implementation reports prior to initiation of construction 
on the initial ten projects recommended for authorization in the 
Administration's bill.

    Question 10. When is a Record of Decision expected on the Modified 
Waters Delivery Project?
    Response. The authorized Modified Water Deliveries to Everglades 
National Park project (MOOD) Record of Decision (ROD) was signed on May 
13, 1993. Currently in the design phase, there are three additional 
Supplements to the Environmental Impact Statement (EIS) underway. They 
are the 8.5 Square Mile Area, Conveyance and Seepage Control features, 
and Tamiami Trail modifications. The projected ROD dates on these are 
September 2000, May 2001, and June 2001, respectively. In addition, it 
is envisioned that an operational EIS will be initiated on the MOD and 
C-111 projects.
    The Jacksonville District is also working on an EIS to cover the 
interim operations until the MOD project is in place. This EIS will 
cover the operations necessary to meet the interim targets outlined in 
the U.S. Fish and Wildlife Service's Biological Opinion dated February 
19, 1999. These interim targets are necessary to assist in the recovery 
efforts on the Cape Sable Seaside Sparrow.

    Question 11. In regard to credit for in-kind service, is this a 
special privilege only being extended to the non-Federal Comprehensive 
Everglades Restoration Plan, or are there other major projects with 
similar provisions? Does the Corps have a general policy on credit for 
in-kind service? Is credit being provided for unauthorized projects? 
How does providing this credit to the South Florida Water Management 
District for authorized projects enhance the efficiency of Everglades 
restoration? Would there be any cost savings associated with this 
efficiency?
    Response. The general policy of the Army is that credit is not 
Afforded for in-kind services unless there is clear statutory language 
to do so. Congress has authorized credit for in-kind services in an 
increasing number of programs and projects over the years. For example, 
non-Federal interests must pay 50 percent of the cost of feasibility 
studies. By law, half of that contribution may be in the form of in-
kind services (33 USC 2215). A broad number of general authorities 
permit non-Federal interests to build all or a portion of specified 
types of projects. Examples include Section 215 of the Flood Control 
Act of 1968, as amended (42 USC 1962d-Sa), Section 104 of the Water 
Resources Development Act of 1986 (33 USC 2214), Section 204 of the 
Water Resources Development Act of 1986 (22 USC 2232), and Section 211 
of the Water Resources Development Act of 1996 (33 USC 701b-13), to 
name a few. A number of environmental infrastructure programs that 
Congress has authorized beginning with the Water Resources Development 
Act of 1992 have contained provisions providing for the non-Federal 
interests to provide all or part of the project work. In other words, 
full reimbursement has been authorized. Examples include the program 
for South Central Pennsylvania (Section 313 of the Water Resources 
Development Act of 1992, as amended), the program for Southern and 
Eastern Kentucky (Section 531 of the Water Resources Development Act of 
1996), and the programs for Mississippi, Central New Mexico, Ohio, and 
Rural Nevada and Montana, all authorized in the Water Resources 
Development Act of 1999 in Sections 592-595, respectively. 
Additionally, Congress has also authorized credit for work in-kind 
performed by non-Federal interests in several environmental restoration 
programs. Examples include projects authorized under Section 1135 of 
the Water Resources Development Act of 1986, as amended (33 USC 2309a), 
and Section 206 of the Water Resources Development Act of 1996, as 
amended (22 USC 2330). In the former instance, the non-Federal interest 
may provide up to 80 percent of the required non-Federal share through 
in-kind services. Under the latter authority, the non-Federal interest 
may be reimbursed for all project related expenses. Finally, there have 
been a number of specific projects over the years where Congress has 
authorized credit or reimbursement for in-kind services performed by 
non-Federal interests. Recent examples from the Water Resources 
Development Act of 1999 include Section 318 concerning Lake Michigan, 
Illinois, Section 338 addressing Arthur Kill, New York and New Jersey, 
Section 339 addressing Kill Van Kull and Newark Bay Channels, New York 
and New Jersey.
    Regarding the questions concerning credit for in-kind services for 
``unauthorized projects'', we assume the question refers to projects 
under the Continuing Authorities Program (CAP). Again, to the extent 
authorized by law, the Army affords credit for in-kind services. As 
stated above, the Section 1135 and 206 program are considered part of 
CAP in that the specific projects are not separately authorized by 
Congress. Yet, as already indicated, Congress has enacted legislation 
to provide credits or reimbursement. It should also be noted that 
pursuant to Section 208 of the Water Resources Development Act of 1999, 
specific authority was provided to allow the non-Federal interests 
participating in the Everglades Critical Restoration program to receive 
credit for work-in-kind performed on each individual project, including 
full reimbursement. Similar to the CAP, none of the Critical 
Restoration Projects was separately authorized by Congress.
    The South Florida Water Management District (SFWMD) has great 
expertise in many of the areas that will be called upon in order to 
implement the Everglades restoration. The Army believes it can leverage 
that expertise by working in partnership with the SFWMD throughout the 
design, construction and operation and maintenance of the restoration 
project(s). To the extent that the SFWMD has capabilities it is 
efficient from the standpoint of scheduling and use of resources, as 
well as cost effective and equitable to permit the SFWMD to provide all 
or portion of its financial obligations through in-kind services. 
Allowing for the use of in-kind services in lieu of a cash contribution 
may also ease some of the cash-flow issues for the SFWMD associated 
with percent cost sharing on this ambitious project.

    Question 12. I understand that there is a list of projects under 
the original Central and Southern Florida Project that can be 
Reauthorized once the CERP is enacted. Can you provide the committee, 
for the record, a list of these projects, their estimated costs, and 
why the project would be slated for deauthorization?
    Response. All or portions of the following separable elements of 
the C&SF Project are unprogrammed:


------------------------------------------------------------------------
         Separable element                         $1,000's
------------------------------------------------------------------------
Martin County......................  $110,733
Herbert Hoover Dike Levee and        $69,000
 Revetment.
Shingle Creek Basin................  $18,291
Everglades National Park...........  $18,582
St. Lucie Canal....................  $31,114
Bolles & Cross.....................  $24,474
Water Conservation.................  $99,755
C-111..............................  $761
Martin County Flood Control........  $77,682
Martin County Backflow.............  $55,530
Lake Okeechobee....................  $324,232
Lake Okeechobee Rec................  $40,439
Port Mayaca........................  $2,429
Kissimmee Basin....................  $25,659
St. Lucie County...................  $3,596
C-103S.............................  $1,854
    Total..........................  $904,131
------------------------------------------------------------------------
Note: This does not include the $7,363 for the Upper St. John River
  Basin separable element.

    The CERP does not address de-authorization of existing portions of 
the C&SF Project, therefore, authorization of the CERP will not in and 
of itself provide justification for de-authorization of the above 
mentioned separable elements or portions thereof. The determination of 
the need for these already authorized features of the C&SF Project will 
in some cases be addressed during the PIR process as part of the 
implementation plan. As you are aware, the PIRs are subject to the 
National Environmental Policy Act compliance, agency and public review, 
as well as congressional review and approval. De-authorization of other 
portions of the C&SF Project would require separate de-authorization 
action.
                                 ______
                                 
   Responses by Joseph Westphal to Additional Questions from Senator 
                                 Baucus

    Question 1. Concerns were raised at the hearing regarding the 
Modified Water Delivery Project. Please describe the history of this 
project, the type arid cause of problems that have been encountered in 
implementing it, and what actions the Corps is taking to resolve any 
remaining problems and expeditiously complete this project.
    Response. The Modified Water Deliveries Project was authorized as a 
part of the Everglades National Park Protection and Expansion Act of 
1989 (P.L. 101-229 Section 104). This Act authorized the Secretary of 
the Army to construct modifications to the Central and Southern Florida 
(C&SF) Project to improve water deliveries to Everglades National Park 
(ENP). The act also authorizes the Secretary to construct a flood 
mitigation system for the residential area in the East Everglades 
(known as the 8.5 Square Mile Area) and adjacent agricultural lands if 
the Secretary determines that those areas will be adversely affected by 
project operations. This Act led to the preparation of a General Design 
Memorandum by the U.S. Army Corps of Engineers to evaluate alternatives 
for improving water deliveries to the ENP and providing flood 
mitigation, where needed. This GDM was completed in 1992 and approved. 
It recommended a plan for improving water flows to the ENP and 
mitigating the impacts to the 8.5 SMA and agricultural lands.
    The Project has been under design and construction by the Corps 
since then. Funding is provided through the Department of Interior. The 
Corps has completed construction of the S-155A & B structures on the 
southern end of Water Conservation Area (WCA) 3B and the construction 
of the flood proofing plan for the Tigertail Indian Camp on Tamiami 
Trail. The acquisition of the land needed for the mitigation plan for 
the 8.5 SMA has also been completed.
    Several issues have surfaced during the design of the remainder of 
the project. These concerns have resulted in additional evaluations: 1) 
A conveyance and seepage analysis that is examining the plan for 
reconnecting WCA 3A and WCA 3B and seepage management from WCA 3B to 
restore more natural waterflow; 2) An analysis of Tamiami Trail to 
examine the impacts of higher water levels and flow diversions on the 
function and maintenance of the highway, and; 3) An analysis of the 8.5 
SMA conducted at the request of the local sponsor for this portion, the 
South Florida Water Management District, to examine alternatives to the 
mitigation plan for the 8.5 SMA as developed and approved in the 1992 
GDM These evaluations are ongoing and are scheduled to be completed 
this year. Multi-agency teams have been established to expedite 
completion and resolution of issues to these problems. The current 
schedule calls for completion of the overall project by December 2003. 
The ultimate solution to the Tamiami Trail may take longer to 
implement.
                                 ______
                                 
   Responses by Joseph Westphal to Additional Questions from Senator 
                               Voinovich

    Question 1. The Administration's Comprehensive Everglades 
Restoration Plan proposal provides for authorization for construction 
of 10 projects at a total cost of about $1.1 billion. These projects 
are proposed to be authorized in accordance with the June 22, 1999 
report of the Chief of Engineers and subject to review and approval by 
the Secretary of a Project Implementation Report for each project. The 
Chief's Report and the April 1999 report of the District Engineer 
provide only a conceptual plans for these 10 initial projects that does 
not contain any meaningful level of detail on costs, benefits, 
environmental analysis, design, engineering or real estate. Your 
authorization proposal for these projects means that Congress will 
authorize $1.1 billion of work without ever reviewing the normal 
information usually contained in a feasibility report and for these 
projects is delegating all of the review and approval responsibility 
for these 10 large expensive projects to the Secretary. Is it going to 
be the standard practice of this Administration to seek congressional 
authorizations of Corps projects based on conceptual plans? Do you 
think it is appropriate for the Congress to abrogate its usual 
oversight role in authorizing these 10 projects with a feasibility 
level of detail?
    Response. While the Comprehensive Plan report was written at a 
level of detail that is less specific in nature than recent projects 
recommended for congressional authorization, the feasibility report has 
been completed in accordance with legislation and Army policy and 
guidance. The Administration believes that there are minimal, if any, 
risk associated with authorizing the initial ten projects recommended 
in the CERP. A Chief of Engineers' Report has been completed and these 
projects have been developed to sufficient detail to support 
justification.
    The Administration is not proposing authorization of a project 
based on only conceptual level of detail. The CERP, however, is a 
detailed plan. It is based on extensive analysis of problems and issues 
and comprehensive modeling of conditions and options to be considered 
for addressing the environmental restoration, water supply and flood 
control needs of the region. These efforts have been ongoing for 7 
years and included independent scientific review and input from all 
affected and interested parties. We recognize there are unknowns as to 
the full effectiveness of some of the proposed actions. To address 
this, the plan allows early implementation of those actions that will 
provide clear and significant benefits while other actions are more 
fully evaluated as to need and scope based on effectiveness of initial 
actions and pilot projects.
    The Army supports appropriate congressional oversight prior to 
initiation of construction.

    Question 2. On the same subject of appropriate authority to be 
delegated to the Secretary of the Army in implementing the plan, the 
Administration's proposal for the Comprehensive Plan includes the 
authority for the Secretary of the Army to approve projects without 
specific congressional authorization that have a cost of up to $70 
million and a Federal share up to $35 million. Under this authority up 
to 27 projects with a combined cost of up to $500 million could be 
constructed without any further authorization action by Congress. On a 
nationwide basis the upper limits of the Corps programmatic small 
project authority is projects with a Federal cost of $7 million. Could 
you explain the basis of this extraordinary level of programmatic 
authority for the Comprehensive Everglades Restoration Plan?
    Response. The recommendation for the programmatic authority is 
modeled after Section 528 of the Water Resources Development Act of 
1996 which authorizes the Secretary of the Army to expeditiously 
implement restoration projects that are deemed critical to the 
restoration of the south Florida ecosystem. These projects are referred 
to as Critical Projects. Critical Projects were defined as those 
projects which would ``produce independent, immediate, and substantial 
restoration, preservation, and protection benefits. `` A similar 
programmatic authority is recommended to help expedite implementation 
of certain components in the Comprehensive Plan. It is proposed that 
projects included under the programmatic authority will be those 
components that are part of the Comprehensive Plan and have a total 
project cost up to $70, 000, 000 with a maximum Federal cost of $35, 
000, 000. Under this authority, 27 projects could be expedited at a 
total cost of $489, 885, 000.

    Question 3. The Chief of Engineer recommended that the State of 
Florida be responsible for 100 percent of the operation and maintenance 
costs of the Comprehensive Plan in accordance with the provisions of 
the Water Resources Development Act of 1996. The Administration has 
recommended that operation and maintenance costs be shared on a 60 
percent non-Federal and 40 percent Federal basis. The Federal role is 
justified by the fact that much of the water supplied by the plan 
benefits Federal properties including Everglades and Biscayne Bay 
National parks. However, as proposed, the Federal share of the 
operation and maintenance costs for the Comprehensive Plan is coming 
from the budget of the Corps of Engineers. Why shouldn't the Federal 
share of the operation and maintenance costs come from the Department 
of the Interior?
    Response. The Administration's proposed legislation includes 
language that the Federal share of operation and maintenance costs 
shall be 40 percent. This legislation does not specify that the 40 
percent share would be funded by the Corps of Engineers.

    Question 4. The Administration proposal for the Everglades 
Comprehensive Plan allows credit or reimbursement for the South Florida 
Water Management District for any approved work performed by the South 
Florida Water Management District to implement the Comprehensive Plan. 
If the Federal appropriations for the Comprehensive Plan design and 
construction are not forthcoming or if the level of Federal 
appropriations are lower than needed to maintain efficient schedules, 
will you approve design and construction by the South Florida Water 
Management District to the extent that there is a large commitment on 
the part of the Federal Government to reimburse the South Florida Water 
Management District for the Federal share?
    Response. The ASA(CW) has executed an agreement with the SFWMD that 
would preclude the local sponsor from exceeding the 50 percent of the 
total project design or getting substantially ahead of the Federal 
share of actual total expenditures at any time. It is not the Corps 
intent to create a reimbursable situation with the SFWMD in design and 
construction of the project.

    Question 5. The Stormwater Treatment Areas that are being 
constructed as part of the Everglades Construction Project and the 
additional Stormwater Treatment Areas proposed in the Comprehensive 
Plan will result in significant reductions in the phosphorus levels but 
that there is not good scientific evidence that they will be able to 
achieve the long term water quality standard for phosphorus estimated 
at 10 parts per billion. There is currently insufficient information to 
estimate the additional costs required to meet the long term standard. 
If those additional costs turn out to be significant and result in a 
substantial increase in the cost of the Comprehensive Plan, who should 
pay for these additional costs? Should they be a Water Management 
District cost or should they be shared with the Corps?
    Response. The Everglades Construction Project (ECP) is a without 
project condition for the Comprehensive Everglades Restoration Plan. 
The ECP includes a series of six stormwater treatment areas (STAB) 
totaling more than 44, 000 acres north of the Everglades designed to 
capture and treat runoff to ensure that water quality standards are 
met. The objective of the ECP is to produce flows to the Everglades 
which contain an average total phosphorus concentration of 50 parts-
per-billion (ppb). This is the interim target for the Everglades 
established by the Settlement Agreement to the Federal Everglades 
lawsuit. A final numeric phosphorus standard (an average concentration 
that is not expected to create an imbalance in natural populations of 
aquatic flora and fauna) is to be established by the Florida Department 
of Environmental Protection (FDEP) by December 31, 2003. In the event 
that no standard is established by FDEP by this deadline, the default 
will be 10 ppb. However, based on recent studies, it is expected that 
the standard will be in the range of 10-20 ppb. Supplemental treatment 
technologies will be incorporated into the design and operation of the 
ECP to ensure that flows to the Everglades meet the final numeric 
standard by December 31, 2006. The costs for designing and implementing 
supplemental treatment technologies necessary to meet the final numeric 
phosphorus standard will be the responsibility of the State of Florida 
(except for the C-51/STA 1 East Project, which is cost-shared between 
the U.S. Army Corps of Engineers and South Florida Water Management 
District).
    Additional water quality treatment is not anticipated to be imposed 
beyond what was considered in the CERP planning work. The interagency 
water quality subteam specifically considered this question with regard 
to the Everglades (Water Conservation Areas and Everglades National 
Park). Although the CERP, when implemented, will modify flows into the 
Everglades STAs constructed by the South Florida Water Management 
District and the U. S. Army Corps of Engineers, it was demonstrated by 
William W. Walker, Ph.D., that changing the timing and location of 
flows into the Everglades through the STAs to meet ecological targets 
would not adversely affect the design and expected performance of the 
STAB. Whatever supplemental technology is incorporated into the STAs to 
meet the yet-to-be established numeric phosphorus standard for the 
Everglades should be capable of being adapted to modified flows as 
contemplated in the CERP.
    Moreover, the CERP provides an opportunity to enhance the design 
flexibility and performance of the Everglades STAB. Therefore, it is 
not expected at this time that CERP will result in any significant 
additional expenditures to achieve adequate water quality in the 
Everglades Protection Area beyond that which has already been committed 
to by the South Florida Water Management District and the Federal 
Government.
    The 35, 600 acres of additional STAs included in the CERP, coupled 
with the 181, 000+ acres of additional surface storage included in the 
CERP and the more than 44, 000 acres of STAs with supplemental 
treatment technology being implemented by the South Florida Water 
Management District should provide water of adequate quality for 
ecosystem restoration of the Everglades and other South Florida natural 
systems. It is important to note that most of the STAs included in the 
CERP treat surface waters that are to be delivered to areas outside the 
Everglades. As a cost-effective measure, the interagency team 
formulated the CERP to segregate natural system water that has 
extremely low levels of nutrients and contaminants from urban and 
agricultural runoff water, which would require extensive treatment 
before being discharged into the Everglades. Therefore, the CERP 
includes STAs to meet water quality needs for ecosystem restoration of 
other regions of the CERP planning area, notably Lake Okeechobee, the 
Indian River Lagoon/St. Lucie River Estuary, Caloosahatchee River 
Estuary, and urban areas in Palm Beach, Broward, and Miami-Dade 
Counties.

    Question 6. The Comprehensive Plan includes a project for the State 
of Florida Pal-Mar and J.W. Corbett Wildlife Management Areas that is 
76 percent land acquisition, a project for Loxahatchee National 
Wildlife Refuge that is 93 percent land acquisition and a project for 
the Southern Corkscrew Area that is 90 percent land acquisition. In 
total these projects involve the acquisition of about 11,000 acres of 
land that is not needed for water storage or treatment. Are these 
primarily land acquisition projects appropriate to be cost shared with 
the Corps of Engineers as part of the Comprehensive Plan or should they 
be accomplished by the State of Florida and /or the Department of 
Interior?
    Response. These projects involve hydrologic modifications that will 
provide significant environmental restoration benefits and as such 
should be accomplished under the Corps of Engineers Environmental 
Restoration authority.
                                 ______
                                 
Responses by Joseph Westphal to Additional Questions from Senator Crapo

    Question 1. Has the Corps of Engineers or Department of Interior 
made recommendations for or undertaken actions that are consistent with 
a modified reconnaissance or feasibility study for the projects 
contained in the comprehensive Everglades restoration plan?
    Response. The Corps of Engineers completed a Reconnaissance Report 
for this project in November 1994 The Feasibility Report was completed 
in April 1999 and was transmitted to Congress on 1 July 1999. While 
this feasibility report was written at a level of detail that is less 
specific in nature than recent projects recommended for congressional 
authorization, the feasibility report has been completed in accordance 
with legislation and Army policy and guidance. Project implementation 
reports (PIRs) will be used to bridge the gap between the CERP 
feasibility report and detailed design. These PIRs do not differ from 
traditional Corps feasibility reports. Because we have completed the 
feasibility phase as directed by the Congress, the Army decided to 
distinguish the subsequent documents that tier off the CERP by calling 
them PIRs.

    Question 2. If not, would the Corps and Department be willing to 
follow the traditional schedule of studies and reviews before 
undertaking each project within the plan?
    Response. Although the feasibility report has been completed in 
accordance with HO USA CE policy and guidance, due to the scale of the 
project, the level of feature design is not as detailed as some 
traditional Corps feasibility reports. Therefore, prior to initiation 
of construction, project implementation reports will be completed for 
each project. These reports will document advanced planning, 
engineering and design, real estate analysis, and supplemental 
requirements under the National Environmental Policy Act. These studies 
will be conducted over the next few years. For the projects authorized 
in WRDA 2000, it is anticipated that these reports will be approved by 
the Secretary of the Army without need for further congressional action 
unless major changes to the Comprehensive Plan are recommended. Project 
implementation reports will also be prepared for the other projects. 
These will be transmitted to Congress for specific project 
authorization. Subsequent to the approval or congressional 
authorization of the project implementation report, recommended 
projects will progress to detailed design and construction.

    Question 3. If yes, would this be a divergence from the Corps' 
long-held policy of requiring reconnaissance and feasibility studies 
prior to undertaking a project?
    Response. There has been no divergence from the Corps of Engineers 
policy requiring the completion of reconnaissance and feasibility 
studies.

    Question 4. Has a full modeling of the costs and benefits of each 
project been performed?
    Response. The evaluation of the Comprehensive Plan included: (1) 
the NED costs (in monetary terms), (2) the anticipated environmental 
benefits resulting from restoration measures (in non-monetary terms), 
(3) the positive and adverse NED effects expected to occur in the 
following economic impact categories: agricultural water supply, 
municipal and industrial water supply, commercial navigation, 
recreation, and commercial fishing (in monetary and non-monetary terms) 
and (4) the positive and adverse regional economic effects (RED) 
resulting from project implementation.
    The Corps of Engineers ecosystem restoration policy has been 
formulated in recognition of the practical limits of available economic 
tools to value environmental resources. As specified in Corps of 
Engineers ecosystem restoration policy (EC 1105-2-210: Ecosystem 
Restoration in the Civil Works Program J, ecosystem restoration 
projects are not subject to traditional benefit-cost analyses. Economic 
justification of ecosystem restoration is not required in the 
traditional sense of ensuring that the monetary benefits of the 
alternative plans exceed their monetary costs. An ecosystem restoration 
proposal must still be justified by comparing the monetary and non-
monetary costs and benefits of restoring degraded ecosystems. However, 
Corps ecosystem restoration evaluation procedures focus on the non-
monetary benefits of restoration, comparing these benefits to monetary 
costs through the use of cost effectiveness and incremental cost 
analysis procedures.

    Question 5. Has a cost-benefit analysis been performed on the 
proposed land acquisitions?
    Response. No. A cost benefit analysis has not been performed for 
the proposed land acquisitions. The land requirements needed for the 
project components have been estimated and are included in the overall 
project costs.

    Question 6. What are the expected benefits and problems associated 
with the use of aquifer storage recharge (ASR) units?
    Response. Aquifer Storage and Recovery (ASR) was included in the 
Comprehensive Plan for several reasons: ASR wells have small land 
requirements and can be distributed to provide regional benefits in 
populated areas; ASR operations can provide an extended dry season 
water resource that is not possible with surface reservoirs; and ASR 
wells can store large amounts of water during prolonged wet periods. 
ASR involves pumping high quality freshwater through a well, for 
storage underground in a suitable aquifer, and recovery of that water 
from storage when needed. ASR will store excess water during the wet 
season for later recovery during the dry season. The recovered water 
will augment regional water supplies. There is not a demand in the 
following dry season, the water can be held to meet future demands. ASR 
will be used to buildup a ``bank account'' of stored water for future 
demand or for emergencies by leaving more water in storage than is 
recovered each year.
    Aquifer Storage and Recovery technology has been used successfully 
in the United States for three decades. Most of these ASR facilities 
utilize treated water as their source but several ``raw'' (untreated) 
ground water and surface water ASR facilities are currently under 
design, permitting, construction or testing in South Florida. ASR 
technology has great potential to store large volumes of raw ground and 
surface water below ground and requires significantly less land than 
above ground reservoir storage.
    Pilot projects will be used to identify any site specific problems 
and to clarify design needs before full implementation of ASR.

    Question 7. Has the full range of science for design, monitoring, 
and evaluation of the pilot proposal for ASRs been examined?
    Response. In December 1998, an Aquifer Storage and Recovery Issue 
Team was formed by the South Florida Ecosystem Restoration Working 
Group to develop an action plan and identify projects to address the 
surface water, hydrogeological and geochemical uncertainties associated 
with regional aquifer storage and recovery facilities. This report will 
serve as the basis for developing the aquifer storage and recovery 
pilot projects which will determine the specific water quality 
characteristics of waters to be injected and the water quality 
characteristics of the receiving aquifer. In addition, the pilot 
projects will provide information on the hydrogeological and 
geotechnical characteristics of the upper Floridan Aquifer System 
within the regions, and the ability of the upper Floridan Aquifer 
System to store injected water for future recovery.

    Question 8. What will be the impact of the ASR units on each of the 
Water Conservation Areas?
    Response. ASR provides storage to improve the availability of water 
to the Water Conservation Areas as well as other regions of the system. 
ASR wells, as included in the Comprehensive Plan, have different 
purposes for different areas. For this reason, the three major 
applications have to be considered differently for the LEC, 
Caloosahatchee River Basin, and the Lake Okeechobee components.
    The primary purpose of ASR in the LEC is to provide dry season 
regional benefits to the Biscayne Aquifer thus enhancing water supply. 
Some secondary benefits are associated with flood management when co-
located with a surface storage area The primary purpose of ASR in the 
Caloosahatchee River Basin is to provide dry season regional deliveries 
to the Caloosahatchee River for both water supply and minimum flows to 
the Caloosahatchee Estuary. Currently, the minimum flow the estuary is 
zero--which leads to hypersalinity in the estuary. Water supply needs 
are met from Lake Okeechobee after groundwater sources are depleted.
    There are secondary flood management benefits to the Caloosahatchee 
ASR since they are combined with a surface storage reservoir. The 
addition of ASR to Lake Okeechobee was done primarily improve the 
health of the Lake especially during in the low stage periods and 
prolonged high stage periods. There are secondary benefits to the 
Caloosahatchee and St. Lucie Estuaries due to an incremental reduction 
of regulatory releases.

    Question 9. What will be the impact of the restoration plan on the 
hydrological needs of the Big Cypress National Preserve?
    Response. The area of the Big Cypress region primarily affected by 
the Comprehensive Plan lies within the Big Cypress National Preserve 
(BCNP) boundary, the BCNP addition lands, the Big Cypress Seminole 
Indian Reservation and Miccosukee Indian Reservation. Components of the 
Comprehensive Plan affecting the hydrology, and thus the ecology of 
this area include: 1) modifications to the L-28 Interceptor canal that 
would reroute water from the West and North feeder canals to wetlands 
in northeast Big Cypress, including degradation of the southwest L-28 
Interceptor levee and filling in the adjacent canal to enhance 
sheetflow into the BCNP addition lands; 2) pump stations and spreader 
canals built or relocated along the L-28 Interceptor in order to 
facilitate sheetflow off of the Seminole and Miccosukee reservations; 
3) assumption that this alternative will comply with the Seminole 
Indian Tribes' Conceptual Water Conservation System master plan; 4) 
construction of two stormwater treatment area to ensure acceptable 
water quality prior to discharge from the North and West Feeder canals; 
and 5) degradation of the L-28 levee (south of the gap with the L-28 
Interceptor), L-28 Tieback and L-29 Levee between Forty-mile bend and 
the L-67, and removal of all associated structures, including the S-
344, S-343(A), S-343(B) and the four S-12 (A-D) structures.
    Limited and somewhat scattered effects would be expected along the 
eastern boundary of the BCNP, along the L-28 Interceptor and in the 
sloughs draining the BCNP toward the Gulf of Mexico south of Loop Road. 
Hydrologic effects should be most dramatic and widespread in the area 
southwest of the L-28 Interceptor, where the Comprehensive Plan returns 
hydroperiod to more natural conditions. Finally, as the water quality 
entering the northeastern Big Cypress from the Feeder canals is, at 
present, of poor quality, it is important that the recommended plan 
ensure adequate water quality treatment prior to restoring more natural 
flows from this area. It is assumed, for planning purposes, that 
compliance with the Big Cypress Seminole Water Conservation Master 
Plan, in combination with the two proposed stormwater treatment area 
along the Western and Northern Feeder canals, will achieve these water 
quality standards. Without successful achievement of water quality 
targets, flows entering the northeastern Big Cypress may, in fact, 
cause more harm than good to the receiving waters.

    Question 10. What role have expected population changes in the 
region been incorporated into identifying the scope of the restoration 
plan and in the identification of local sponsors for each project?
    Response. The CERP was formulated and evaluated with full 
recognition of the anticipated increase in population in south Florida 
over the next 50 years. Therefore, the Plan will able to deliver the 
appropriate amount of water to the ecosystem with an increased 
population.

    Question 11. What role did water flow functions and natural flow 
characteristics in the region play in the analysis and development of 
the restoration plan?
    Response. The overarching objective of the Comprehensive Plan is 
the restoration, preservations and protection of the south Florida 
Ecosystem while providing for other water related needs of the region. 
The focus of the recommended Comprehensive Plan has been on recovering 
the defining ecological features of the original Everglades and other 
south Florida ecosystems. What made these ecosystems unique was their 
topographic flatness and expansiveness, and that they formed 
hydrologically integrated systems from boundary to boundary. What this 
means in a healthy ecosystem is that water patterns in one part of the 
system could be used to predict the patterns throughout the system. 
Animals living in the Everglades would ``read'' the water patterns, and 
``know'' where to go to find the food and water that they needed for 
successful reproduction and survival under a range of natural 
conditions. It was the combination of connectivity and space that 
created the range of habitats needed for the diversity of plants and 
animals. The construction of the many levees and dikes designed to 
compartmentalize the Everglades and separate Lake Okeechobee from its 
natural overflow, and the canals that drained water to the coast, 
disrupted these natural patterns, and destroyed the ability of many 
animals to find the dependable habitat needed for their survival at the 
right time.
    The recommended Comprehensive Plan, by removing over 240 miles of 
internal levees in the Everglades, and approaching recovery of the 
natural volume of water in the remaining wetlands, will restore these 
essential defining features of the pre-drainage wetlands over large 
portions of the remaining system. The plan also includes water storage 
and water quality treatment areas that will improve water quality 
conditions in the south Florida ecosystem. In response to this 
substantial improvement, the characteristic animals of these ecosystems 
will show dramatic and positive responses. At all levels in the aquatic 
food chains, the numbers of such animals as crayfish, minnows, sunfish, 
frogs, alligators, herons, ibis, and otters, will markedly increase.

    Question 12. What has been the impact on tree islands of current 
management plans? What is the expected impact of the restoration plan 
on Bee islands?
    Response. The Comprehensive Plan makes substantial progress toward 
remedying the two most significant causes of habitat degradation for 
wildlife within WCA-3A. The first of these is flood damage to tree 
islands, with attendant loss of upland tree species, willow strands 
that serve as wading bird nesting sites in northeastern WCA-3A, 
tropical hardwood hammocks in southwestern WCA-3A, and habitat 
throughout the WCA for island-dependent organisms such as nesting 
reptiles, white-tailed deer, and migratory and nesting songbirds. The 
second major cause of habitat degradation has been the destruction of 
peat soils, marsh vegetation, and tree islands as a result of wildfires 
brought on by drought conditions in the north. Together, the reduction 
in the frequency and intensity of these two sources of environmental 
damage should be expected to lead to substantial restoration within 
this large portion of the remnant Everglades ecosystem.

    Question 13. Can a restoration plan that does not infringe upon the 
agricultural community's future water allocation rights be successful? 
If yes, how can this be managed? If no, why not?
    Response. The recommended Comprehensive Plan will significantly 
increase the capability to supply water from the regional system to 
agricultural users. This will provide better protection from 
economically harmful water supply cutbacks and allow agriculture to 
remain productive. Storage facilities associated with Lake Okeechobee 
such as those north of the lake, and Lake Okeechobee aquifer storage 
and recovery will enable the lake to remain an important source of 
water supply while keeping lake stages at more ecologically desirable 
levels. Additional storage facilities built throughout the system will 
diversify sources of water for many users and enable recycling of water 
within a basin to meet dry season demands, significantly improving the 
reliability of agricultural water supply in the future.
                                 ______
                                 
   Responses by Joseph Westphal to Additional Questions from Senator 
                                 Graham

    Question 1. In your brief I know you did not have art opportunity 
to discuss the restoration work that the Army Corps has already 
conducted on the Everglades project. Can you describe these projects 
arid their status?
    Response. There are a number of significant and important 
restoration projects currently underway in south Florida I will briefly 
summarize these projects below:
    a. The Kissimmee River Restoration Protect involves the ecosystem 
restoration of the historic floodplain to reestablish wetland 
conditions resulting in the restoration of 27,000 acres of wetlands and 
riverine habitat in the Kissimmee watershed. The project will be 
accomplished through the backfilling of 22 miles of canal C-38, 
modifications to the operation of the lakes, modification or removal of 
several structures and canals, and excavation of about 9 miles of new 
river channel. Construction was initiated in the fall of 1997 and is 
scheduled to be completed in September 2009.
    b. The West Palm Beach Canal protect (C-51) provides water quality 
treatment, reduction of damaging freshwater discharges to Lake Worth, 
and increased water supply for the Loxahatchee National Wildlife 
Refuge, the Everglades and other users. Construction was initiated fast 
year. The eastern basin works are complete and work continues in the 
western basin, which is scheduled for completion in March 2003.
    c. Another protect underway is the South Dade county Protect (Canal 
C-111). C-111 normally discharges into Florida Bay via overland flow 
across the eastern panhandle of Everglades National Park and discharges 
into Taylor Slough which ultimately also flows to Florida Bay. The 
project will not only maintain existing flood protection to the 
southeast coast urban areas, but will also minimize the need for 
damaging freshwater discharges to Barnes Sound, restore more natural 
hydrologic conditions to the Taylor Slough Basin in Everglades National 
Park and restore historic freshwater flows into Florida Bay. Project 
construction was initiated in August 1996 and is scheduled for 
completion in May 2003.
    d. The Corps/DOI/South Florida Water Management District 
partnership for Modified Water Deliveries to Everglades National Park 
will make structural modifications and additions to the Central and 
Southern Florida (C&SF) Project enabling water deliveries for the 
restoration of more natural hydrologic conditions in Everglades 
National Park's Northeast Shark River Slough Basin. Project 
construction is scheduled for completion in November 2003.
    e. Section 528 of WRDA 1996 provided authority for Critical 
Restoration Protects would provide immediate, independent and 
substantial restoration benefits. Last year we executed the first 
Project Cooperation Agreement (PCA) with the State of Florida for a 
carrying capacity study of the Florida Keys and on January 7, 2000, the 
Corps executed 7 more PCAs with the South Florida Water Management 
District and the Seminole Tribe of Florida to implement the following 
projects:


------------------------------------------------------------------------
              Project                            Total Costs
------------------------------------------------------------------------
East Coast Canals (C-4)............  $1,300,000
Tamiami Trail Culverts.............  $8,336,000
Western C-11 Water Treatment.......  $9,630,000
Seminole Big Cypress Water           $49,332,000
 Conservation.
Southern CREW/Imperial River         $12,021,000
 Flowway.
Lake Okeechobee Water Retention /    $16,360,000
 Phosphorus Removal.
Ten Mile Creek Water Preserve Area.  $29,066,000
Lake Trafford......................  $17,540,000
Florida Keys Carrying Capacity       $6,000,000
 Study /1/.
------------------------------------------------------------------------
\1\PCA executed in fiscal year 1999


    Question 2. How are these initial projects similar or different 
than what is being proposed in the Restudy?
    Response. For the purposes of developing the CERP, the Restudy team 
assumed that authorized/ongoing projects were in place and operating 
This assumption provided a basis for developing the future `` Without 
Project Condition `` which all alternative plans were compared against. 
Since these projects had already been authorized, no attempt was made 
to reevaluate the merits of these ongoing projects. Instead, the team 
utilized data and reports developed for these projects to determine if 
modifications were necessary.
    Generally, the team determined that these projects provide an 
important first step toward ecosystem restoration of the Everglades. 
However, there are some projects, such as the Modified Water Deliveries 
Project, that will need to be modified based on the CERP. To implement 
these modifications, the Restudy Team is working closely with the 
Modified Water Deliveries team and other project teams to ensure 
integration of these modifications. Further, to facilitate and expedite 
these modifications, the Corps is recommending immediate authorization 
of features that will have an impact to ongoing projects. This initial 
authorization will ensure the development of comprehensive solutions 
that otherwise could not be pursued under existing conditions.

    Question 3. Can you describe the impact to the Everglades and 
surrounding ecosystems if we move forward with this project?
    Response. The entire south Florida ecosystem, including the 
Everglades, will become healthy, with many of its natural 
characteristics restored. Urban and agricultural water users will also 
benefit from enhanced water supplies. Flood protection, so important to 
hurricane-prone south Florida, will be maintained and, in some cases, 
improved.
    Economic benefits from the implementation of the CERP are wide-
ranging and are linked with the availability of clean, abundant water 
in the ecosystem. Not only is water the key to ecosystem restoration, 
it is necessary for a sustainable agricultural and urban environment. 
It plays a significant and obvious role in commercial and recreational 
fishing.
    The CERP will provide for ecosystem restoration. First and 
foremost, the goal of the Plan is to restore, protect and preserve a 
natural treasure--the south Florida ecosystem. The focus of the Plan 
has been to restore the defining ecological features of the original 
Everglades and other parts of south Florida. In response to this 
substantial improvement, the characteristic animals will show dramatic 
and positive responses. The number of animals--crayfish, minnows, 
sunfish, frogs, alligators, herons, ibis, and otters--at virtually all 
levels in aquatic food chains will markedly increase. Equally 
important, the natural distribution of plants and animals will return 
to more natural patterns as more pre-drainage water flows are restored.
    The Plan will support the return of the large nesting ``rookeries'' 
of wading birds to Everglades National Park and the recovery of several 
endangered species to more certain and optimistic futures. Wading 
birds, such as herons, egrets, ibis, and storks, are symbolic of the 
overall health of the Everglades. As recently as the 1950's and 1960's, 
large `` super colonies'' of nesting waders remained in the Park. Today 
there are none. Wading birds, perhaps more than any other animal, 
``assess'' the quality of the entire basin of south Florida wetlands, 
before making ``decisions'' about where and when, or even whether, to 
nest. The recovery of the super colonies will be a sure sign that the 
entire ecosystem has made substantial progress toward recovery. Of the 
endangered species, the wood stork snail kite, Cape Sable Seaside 
Sparrow, and American crocodile, among others, will benefit and 
increase. We are confident that implementation of the CERP will once 
again allow us to witness what is now only a fading memory of the 
former abundance of wildlife in the Everglades.
    Lake Okeechobee will once again become a healthy lake. Both the 
shallow and open water areas within the lake, essential to its 
commercial and recreational fishery and other aquatic species, will be 
greatly enhanced by the improved water levels as a result of the CERP. 
This will mean more abundant and healthier fish populations. Water 
quality in the lake will also be improved significantly by reducing the 
pollutant loading of water flowing into the lake. Lake Okeechobee 
provides huge regional benefits to wildlife, including waterfowl, other 
birds, and mammals.
    Major benefits will be provided to the Caloosahatchee and St. Lucie 
estuaries, and Lake Worth Lagoon. The CERP eliminates almost all the 
damaging fresh water releases to the Caloosahatchee and most 
detrimental releases to the St. Lucie and makes substantial 
improvements to Lake Worth Lagoon. As a result, abundant favorable 
benefits will be provided for the many aquatic species that depend on 
these areas for food, shelter, and breeding grounds, thereby enhancing 
the productivity and economic viability of estuarine fisheries.
    The Plan will also improve fresh water deliveries to Florida and 
Biscayne Bays. Appropriate fresh water regimes will result in 
substantial improvements in aquatic and semi-aquatic habitats, 
including, mangroves, coastal marshes, and seagrass beds interacting 
together to produce food, shelter, and breeding and nursery grounds. 
These coastal habitat areas will support more balanced, productive 
fish, shelfish, and wildlife communities.

    Question 4. Can you describe the impact to the Everglades and 
surrounding ecosystems if we do not move forward with this project?
    Response. Although some level of ecological improvement will occur 
in the south Florida ecosystem as a result of implementation of 
projects currently planned outside of the CERP, the cumulative, 
regional benefits from these projects would not result in a sustainable 
south Florida ecosystem. Specifically, based on an evaluation of 
conditions in the year 2050 without the CERP, the overall health of the 
ecosystem will have substantially deteriorated. Analyses conducted 
during the feasibility study show that making modifications to only 
some portions of the Central and Southern Florida Project in order to 
achieve sustainable natural systems will not succeed. Conditions 
without the CERP in 2050 fail to meet the basic needs of the south 
Florida ecosystem.
    Demands placed on Lake Okeechobee result in damaging water levels 
and extreme harm to the littoral zone. Damaging fresh water discharges 
into the Caloosahatchee and St. Lucie estuaries result in major harm to 
fisheries. Damaging high flows alter salinity balances in Lake Worth 
Lagoon. Hydropatterns predicted for the Water Conservation Areas are 
harmful to tree islands. Everglades National Park does not receive 
enough freshwater flow to maintain important aquatic habitat in Shark 
River Slough. Low flows to Florida and Biscayne Bays also result in 
harm to the resources in these areas. These ecological problems would 
not be corrected solely by implementation of currently planned or 
ongoing projects.

    Question 5. Based on your view of how the Restudy authorization 
process will move forward, will Congress' action in WRDA 2000 be the 
first phase in a multi-stage authorization process or will this year be 
the only time this project comes before Congress?
    Response. Yes, WRDA 2000 will be the first of many subsequent WRDA 
bills on authorization of CERP projects. The process and schedule for 
authorizing the CERP and its components was developed using a phased 
approach based on an analysis of the scheduling of plan features and 
ongoing Federal and State programs, such as the C-111 Project and the 
Everglades Construction Project. The process for implementing the CERP 
through congressional action assumes:
    a. Congressional approval of the CERP in WRDA 2000 and the 
appropriate framework for restoration;
    b. Initial authorization of a specific set of key components and 
pilot projects in the WRDA 2000;
    c. A programmatic authority in WRDA 2000 similar to the existing 
Critical Projects authority contained in WRDA 1996;
    d. Future congressional authorization of components in subsequent 
WRDAs through 2014; and
    e. Implementation of some components without further congressional 
action.

    Question 6. Can you briefly explain your vision of how the 
assurances process would work as you have proposed it?
    Response. The assurance language is designed to ensure that the 
benefits that flow from the CERP are achieved and are maintained for as 
long as the project is authorized. This includes both benefits to the 
natural system and to the human environment (e.g., water supply). The 
Administration's language also ensures that existing legal users are 
allowed to continue to use that water (both water supply and natural 
environment).
    We believe that the programmatic regulations are needed to provide 
a framework for developing operations plans for project components. 
This will provide a system-wide context as we proceed with each Project 
Implementation Report. The programmatic regulations will provide 
another level of detail on the amount of water to be dedicated and 
managed for the natural system and the human environment. These 
regulations could be adjusted over time based on the results of the 
monitoring and adaptive management program.

    Question 7. As you described in your testimony, some of the 
projects submitted to Congress for authorization in WRDA 2000 will not 
have the traditional, detailed feasibility study completed. The 
language you have submitted includes a definition for a Project 
Implementation Report. Can you compare this definition to that of a 
traditional feasibility study and identify any differences and why they 
are there?
    Response. A project implementation report (PIR) is a new type of 
reporting document unique to the Everglades and south Florida ecosystem 
restoration initiative. These documents will bridge the gap between the 
CERP and the detailed design necessary to proceed to construction. A 
PIR will not differ from a traditional Corps feasibility report in that 
it will contain detailed information on the planning and design of a 
component or series of components proposed for implementation. 
Specifically, PIRs will develop the remaining detailed technical 
information to implement the project, including additional plan 
formulation, engineering and design, detailed cost estimates, 
environmental analyses, flood protection analyses, water quality 
analyses, economic analyses, siting and real estate analyses, and 
preparation of supplemental National Environmental Policy Act 
documents. PIRs will also document a Plan component, or group of 
components, contribution to the CERP performance and describe any 
needed refinements and modifications to the CERP resulting from the 
detailed planning and design efforts.
    The purpose of the PIR is to affirm, reformulate or modify a 
component, or group of components, in the CERP. All planning analyses, 
including economic, environmental, water quality, flood protection, 
real estate, and plan formulation, conducted during preconstruction 
design activities will be documented and included in PIRs. The PIR will 
be the vehicle to identify, quantify and attempt to resolve any 
uncertainties surrounding the cost and performance of each major 
component. These uncertainties are not limited to hydrologic 
performance of the specific structure component, but also include the 
uncertainties surrounding the expected ecosystem response to the 
component. A clear description of the expected environmental outcome of 
each component will be included in the PIR. PIRs will typically be 
completed in 18 to 36 months.
    The PIRs for those projects recommended for initial authorization, 
and projects implemented under the programmatic authority, would be 
reviewed and approved by the Secretary of the Army prior to 
construction. All other PIRs for future projects would be submitted to 
the Congress for authorization similar to traditional Corps feasibility 
reports.

    Question 8. Regarding the property purchased by the Federal 
Government in the Talisman transaction in 1998, can you identify on 
your chart where that property is and explain what benefit the use of 
these lands as a reservoir will bring to the restoration project? Why 
is it important to move forward with this project authorization this 
year?
    Response. The Everglades Agricultural Area (ERA) storage reservoir 
component includes above ground reservoir(s) with a total storage 
capacity of approximately 360, 000 acre-feet located on land associated 
with the Talisman Land purchase in the EAA. The design for the 
reservoir(s) assumed 60, 000 acres, divided into three, equally sized 
compartments with the water level fluctuating up to 6 feet above grade 
in each compartment.
    This project is located on lands in the Everglades Agricultural 
Area in western Palm Beach County on lands purchased with Department of 
Interior Farm Bill funds, with South Florida Water Management District 
funds, and through a series of exchanges for lands being purchased with 
these funds. The area presently consists of land that is mostly under 
sugar cane cultivation. This project will be implemented consistent 
with the Farm Bill land acquisition agreements. This project will 
improve timing of environmental deliveries to the Water Conservation 
Areas including reducing damaging flood releases from the Everglades 
Agricultural Area to the Water Conservation Areas, reduce Lake 
Okeechobee regulatory releases to estuaries, meet supplemental 
agricultural irrigation demands, and increase flood protection within 
the Everglades Agricultural Area.
    This project is included in the initial authorization for three 
reasons: 1) lands needed for the project have been acquired by the U.S. 
Department of Interior and the South Florida Water Management District; 
2) it provides the opportunity to construct the facility in a manner 
that is mutually beneficial for the Comprehensive Plan and the 
sponsor's Everglades Construction Project; and 3) expedites 
construction of this facility which provides multiple environmental, 
water supply, and flood protection benefits.
    A delay in authorization of this project component will prolong 
damaging flood releases from the EAR into the Water Conservation Areas 
and damaging releases from Lake Okeechobee into the coastal estuaries. 
Further, any delay will also jeopardize the ability of SFWMD to provide 
required notifications and rise further delays and increased costs to 
both SFWMD and the Federal Government in implementing the project.
                                 ______
                                 
 Responses by Joseph Westphal to Additional Questions from Senator Mack

    Question 1. Do you support applying section 902 of the 1986 Water 
Resources Development Act to all features of the Comprehensive Plan 
before us today? (This provision requires a congressional review if a 
project exceeds 120 percent of authorized cost.)
    Response. Yes. The Army supports applying the conditions of Section 
902 to all features of the CERP.

    Question 2. Do you support congressional committee review and 
approval of the feasibility level of engineering and design work before 
any construction can begin on the initial suite of ten projects in the 
Comprehensive Plan?
    Response. Yes. The Army supports congressional committee review of 
the project implementation reports prior to initiation of construction 
on the initial ten projects recommended for authorization in the 
Administration's bill.

    Question 3. Do you support requiring full feasibility studies 
before any other projects are authorized under the Comprehensive Plan?
    Response. Yes. The Administration's WRDA proposal includes language 
requiring completion of feasibility level project implementation 
reports and submission to Congress for authorization.

    Question 4. Do you support modifying the definition of the South 
Florida Ecosystem to make clear the system includes the lands and 
waters within the boundaries of the South Florida Water Management 
District as they existed on July 1, 1999?
    Response. Yes. The Army supports this modification.

    Question 5. Do you support a provision making clear the Corps of 
Engineers is only authorized to study the question about providing an 
additional 245,000 acre-feet of water to the natural system?
    Response. Yes. The Army would support such a provision clarifying 
the Corps commitment to study the proposal of providing an additional 
245, 000 acre-feet of water to the natural system.

    Question 6. Do you support language making clear that the Corps 
must work with the State of Florida to ensure all groundwater 
discharges resulting from the Comprehensive Plan meet all applicable 
water quality standards and water quality permitting requirements?
    Response. The Comprehensive Plan includes features related to the 
protection and improvement of quality. The Army intends to design and 
construct the individual project features to take into account the 
protection of water quality by considering applicable State water 
quality standards for those features specifically described in the 
CERP. The Army is also authorized to cost share in additional projects 
for the improvement of water quality where it is deemed essential to 
the Everglades restoration. However, from the standpoint of the non-
Federal interest that we enter into an agreement with on a specific 
project, these individual project features may be subject to various 
State regulations relating to water quality, including permitting 
requirements. As a matter of comity, the Army will cooperatively work 
with the non-Federal interests, including the State of Florida, to 
ensure that the requisite standards are complied with. However, unless 
there has been a specific waiver of Federal immunity, we cannot agree 
to comply with or subject the Army to individual permit requirement, 
which may change over time. Additionally, oftentimes permit requirement 
relate to circumstances that may be beyond the reach of the Government 
where the non-Federal interests will operate and maintain the facility. 
The Army has agreed to include a monitoring period after the completion 
of physical construction to verify that the features, including 
features for the improvement and protection of water quality already 
included in the CERP, perform as designed. This initial operational 
testing and monitoring period would allow for any adjustments, if 
necessary, prior to transfer of the feature to the non-Federal interest 
to operate and maintain.

    Question 7. Do you support replacing the project purposes language 
stated in (c)(1) of the Administration's draft with language restating 
the purpose of the Comprehensive Plan developed and passed in WRDA 
1996?
    Response. Yes. The Army supports restating the language from the 
Water Resources Development Act of 1996.

    Question 8. Do you support additional programmatic authority for 
the Corps to construct projects of limited cost but are in keeping with 
the Plan's purposes and have independent and substantial benefit to 
Everglades restoration?
    Response. Yes. The Army supports this provision.

    Question 9. Do you support a 50/50 cost share between Federal 
Government and the State of Florida on operation and maintenance of the 
Project? If not, please state the cost share you believe to be 
appropriate and why.
    Response. No. The Army supports the Administration's proposed cost 
sharing. The Corps analysis shows that 80 percent of the new water 
obtained under the Comprehensive Everglades Restoration Plan (CERP) 
will be used to benefit the natural system environment and the 
remaining 20 percent will benefit regional water supply for urban and 
agricultural users. The 40-60 cost sharing was derived as follows:
    Cost share 80 percent of the new water for the natural system as 
environmental restoration at 50 percent--Federal; 50 percent--non-
Federal. Cost share 20 percent of regional water supply at 100 percent 
non-Federal, or

Cost Sharing Formula:
      Non-Federal 0&M= 0.80 (.50) + 0.20 (1.00) = 60 percent
      Federal 0&M= 0.80(.50) + 0.20 (.00) = 409/0


    Question 10. Please provide your thoughts on the definition of 
Project Implementation Reports found in the Administration's language. 
Do you support this definition? If not, please provide suggestions as 
to how you would define these reports.
    Response. The Army supports the Administration's language defining 
a project implementation report.

    Question 11. Do you believe the Department of Interior and the 
State of Florida should be on equal footing in developing any 
regulations related to assurances? If not, why?
    Response. Yes. The Army believes that the DOI does have a special 
interest and stake in the success of the restoration given the 
extensive DOI lands that will be impacted by implementation of the 
CERP. In this regard, DOI must be involved in the development of 
programmatic regulations. We also believe in a full partnership with 
the State of Florida and that the State will have an equivalent 
concurrency role for each project feature. That is each feature will 
require a written agreement between the Army and the State. During the 
development of our legislation, we considered fully the possibility of 
granting the Governor a concurrency role on the programmatic 
regulations. Because of potential legal and constitutional issues we 
were not able to add it to our legislation. We are working with the 
Department of Justice to examine this issue and address what may be 
done to alleviate these constitutional concerns so that the State may 
be provided a role reflecting an equal partnership in implementing the 
CERP.

    Question 12. Do you support the reporting requirement in the 
Administration's bill? If not, how would you amend the reporting 
requirement?
    Response. Yes. The Army supports the reporting requirements.
                               __________
   Statement of Mary Doyle, Acting Assistant Secretary for Water and 
                Science, U.S. Department of the Interior
    Mr. Chairman, I am Mary Doyle, Acting Assistant Secretary for Water 
and Science at the Department of the Interior. I serve as the Chair of 
the South Florida Ecosystem Restoration Task Force, an interagency and 
intergovernmental entity created by the Congress in the 1996 Water 
Resources Development Act (WRDA) to facilitate intergovernmental 
coordination directed toward the restoration of the South Florida 
ecosystem. I am pleased to have the opportunity to address you today to 
discuss a matter of great importance to the Department of the 
Interior--the restoration of America's Everglades.
    In its natural state, the South Florida ecosystem was connected by 
the flow of water south from Lake Okeechobee through vast freshwater 
marshes--known as the Everglades--to Florida Bay and on to the coral 
reefs of the Florida Keys. The Everglades covered approximately 18,000 
square miles and were the heart of a unique and biologically productive 
region, supporting vast colonies of wading birds, a mixture of 
temperate and tropical plant and animal species, and teeming coastal 
fisheries. These superlative natural resources were nationally 
recognized with the establishment of Everglades National Park in 1947. 
Designated internationally as both a Biosphere Reserve and World 
Heritage Site, the park was expanded in 1989. At 1.5 million acres, the 
park preserves the largest remaining subtropical wilderness in the 
United States. Its wonders are widely known, and include unique 
habitats of saw grass prairies, tree islands, estuarine environments 
and the vast waters of Florida Bay. The park is also known for its 
diverse bird and wildlife populations. Each year over one million 
visitors from around the world visit Everglades National Park. Other 
significant Federal conservation areas in the region include the Big 
Cypress National Preserve, Biscayne National Park, the Florida Keys 
National Marine Sanctuary and 16 units of the National Wildlife Refuge 
System, including Loxahatchee, Florida Panther, and Florida Keys 
National Wildlife Refuges, to name a few. These federally protected 
areas conserve Everglades habitat, protect some the most outstanding 
coral reef and marine resources in the United States, provide important 
conservation areas for wildlife and migratory birds and provide unique 
recreational opportunities to numerous visitors.
    Early in the last century, vast efforts were undertaken to drain 
the Everglades in order to develop the region. These efforts culminated 
in 1948 with congressional authorization and construction of the 
Central and Southern Florida Project, a flood control project jointly 
built and managed by the Army Corps of Engineers and the South Florida 
Water Management District. Comprising over 1,800 miles of canals and 
levees and 200 water control structures, the Central and Southern 
Florida Project succeeded in draining half of the original Everglades 
and allowed the development of cities on the lower east coast of 
Florida and the expansion of the farming area south of Lake Okeechobee 
known as the Everglades Agricultural Area (EAA). Although historically 
and naturally most rainwater had soaked into the region's wetlands, the 
Central and Southern Florida Project canal system has for years drained 
water off the land such that an average of 1.7 billion gallons of water 
per day are discharged into the ocean.
    As a result, not enough clean fresh water is available for the 
environment, resulting in long-term problems for the Everglades 
ecosystem including the federally designated areas above, and the 
communities in the region. Examples include: 90 percent reduction in 
wading bird populations; 68 species listed as endangered or threatened; 
reduced fisheries in Biscayne and Florida Bays; loss of over five feet 
of organic soil in the EAA; degraded water quality in inland and 
coastal areas; infestation and spread of invasive exotic plant species 
on over 1.5 million acres; damaging fresh water and pollutants into the 
St. Lucie, Caloosahatchee, and many other estuaries; loss of wetlands 
that provide important species habitat and ground water recharge; and 
loss of tree islands and damaging ecological effects in the State and 
tribally managed water conservation areas north of the park. Without 
significant overhaul to the existing Central and Southern Florida 
Project works and features, these problems already at crisis level, 
will only get worse, and water shortages are a certainty in future 
years as water demands continue to grow in South Florida.
    Everglades restoration, and a fuller understanding of how it is 
defined and implemented, are the challenges of a new era in natural 
resource management and environmental policy. Eight years ago the 
Department embarked on an historic journey with the Army Corps to 
assess the profound environmental damage done to the Everglades 
ecosystem by the Central and Southern Florida Project, and, on an 
ecosystem-wide basis, design measures for the restoration and 
protection of what remains of the natural system. With the submission 
of the Comprehensive Plan to Congress last summer, that journey is now 
at an important juncture.
    In my statement today, I will discuss the Administration's 
legislative proposal for the Comprehensive Everglades Restoration Plan 
which is part of the Water Resources Development Act of 2000.
The Comprehensive Everglades Restoration Plan
    In July of last year, the Army Corps, with the South Florida Water 
Management District as the local sponsor, submitted to Congress its 
Central and Southern Florida Project Comprehensive Everglades 
Restoration Plan to restore America's Everglades. The Comprehensive 
Plan is a conceptual framework for structural and operational changes 
to the Central and South Florida Project that will result in 
restoration of the ecosystem over the next 30 years. The Department 
fully supports the Comprehensive Plan.
    Overall, the Department believes the Comprehensive Plan provides a 
practical and effective approach to ensure the long-term restoration of 
the South Florida ecosystem while providing for future water supply and 
flood control needs. Further, the Department believes that the 
Comprehensive Plan must be implemented in its totality. While the 
authorizations to implement the Comprehensive Plan are planned to be 
phased, the Department believes that the Comprehensive Plan must be 
implemented fully to guarantee that the benefits promised to the 
natural system are ultimately received. The Department is eager to work 
with the committee and other Members of Congress to obtain the 
necessary authorizations and funding to allow the Army Corps to proceed 
with and complete implementation of the Comprehensive Plan.
    When the Comprehensive Plan is fully implemented, what currently 
remains of the natural system in South Florida will gradually recover 
and function in a manner characteristic of the pre-drainage Everglades. 
It will become once again an interconnected healthy ecosystem, capable 
of supporting viable, abundant populations of native plants, fish, and 
wildlife. The Comprehensive Plan will better distribute the water 
flowing eastward and westward to the coastal areas and southward across 
Everglades National Park and into Florida Bay. This redistribution of 
water flows is expected to substantially reduce the huge ecologically 
damaging releases of fresh water to the coastal estuaries and instead 
direct water southward in a pattern that more closely replicates 
historic natural water flows. Associated features of the Comprehensive 
Plan will allow better control of the timing and quantity of these 
flows, and improve water quality. These actions will improve the 
salinity balance and reduce nutrient runoff in the coastal estuaries 
and in Florida Bay, resulting in substantial improvements to habitat 
and associated fish and wildlife productivity.
    Through the restoration of the natural water flows, the 
Comprehensive Plan is designed to restore substantially the biological 
patterns and abundance of wildlife which defined the original 
Everglades and which prompted the Congress to establish Everglades 
National Park in 1947. This would likely improve the status of several 
federally listed endangered species, including the wood stork, American 
crocodile, the Cape Sable seaside sparrow, and the Everglades snail 
kite. Full plan implementation is also expected to reverse the 
degradation of important biologic communities, including seagrasses, 
coral reefs, marl prairies, and tree islands. Animals will respond to 
the recovery of more natural water patterns by returning to their 
traditional distribution patterns, resulting in substantial increases 
in many species, including crayfish, minnows, sunfish, frogs, 
alligators, herons, ibis, and otters.
    The costs of inaction are incalculable. Absent the full 
implementation of the Comprehensive Plan, the Everglades ecosystem as 
we know it today will continue to deteriorate and eventually disappear. 
Without the Comprehensive Plan, the natural system is likely to 
experience future water shortages, along with more frequent fire 
events. These water shortages will make it difficult to maintain 
aquatic habitat in Shark River Slough and Taylor Slough. Estuaries like 
Florida Bay will experience increased algae blooms, seagrass die-offs 
and hypersalinity, reducing sport fisheries and critical nursery 
functions for the shrimp and lobster fisheries. The ability to recover 
endangered species will be seriously impaired and as the natural 
environment suffers, so too will the human environment. The urban 
population of South Florida will experience water shortage problems and 
severe flood events as the water supply system, under pressure of 
continued population growth, becomes impossible to administer 
adequately.
    The 68 project features that make up the Comprehensive Plan are 
interconnected and interdependent, designed to be built and function as 
a complete set. Even though individual features will yield substantial 
benefits, the benefits provided by the entire plan are greater than the 
sum of the individual parts. Therefore, it is important that the 
Comprehensive Plan is implemented in its entirety to achieve the 
quantity, quality, timing, and distribution of water flows required to 
restore, protect, and preserve the natural system, including its rich 
diversity of life, for future generations.
    The promise of the Comprehensive Plan depends on effective 
legislative assurances that the project benefits for the natural system 
are achieved in a timely manner and maintained for the long-term life 
of the Central and Southern Florida Project. Once the Everglades is 
restored, these assurances must guarantee that the operation of the 
Central and Southern Florida Project will never again negatively affect 
the natural system areas of the South Florida ecosystem. Without 
assurances, the project will not have achieved its main objective.
The Administration's Legislative Proposal
    The Administration's legislative proposal is the product of 
extensive interagency discussion and consultation. It includes 
legislative assurances language that accomplishes two primary 
objectives. The first is a guarantee, as a matter of Federal law, that 
there will be sufficient quantities of clean fresh water for the 
environment at the right places and the right times. Second, the 
individual project works and features will be designed and managed to 
further the restoration, preservation and protection of the Everglades.
    Enacting a Federal mandate to set aside a quantity of water for the 
natural system will complement laudable efforts by the State of Florida 
under State law to establish minimum flows and levels for the 
environment and to reserve additional quantities of water for the 
natural system.
    Once an appropriate amount of water is dedicated to the natural 
system as a matter of Federal law, the next important step is to ensure 
that the Central and Southern Florida Project works and features are 
operated, or managed, appropriately to deliver the dedicated quantity 
of water. This can be accomplished by ensuring that the design 
construction, modification, and operation of Central and Southern 
Florida Project works and features envisioned under the Comprehensive 
Plan are carried out by the Corps of Engineers in consultation with the 
Department of the Interior, Environmental Protection Agency and other 
Federal and State agencies as appropriate and consistent with the set-
aside regulations. This does not mean that the Department will be 
involved in daily water management decisions, but rather the Department 
will assist the Army Corps in determining the amount of water, with the 
proper distribution and flows, to be dedicated and managed for the 
natural system environment and requiring that all individual components 
of the Comprehensive Plan further this goal.
    In addition, the Administration's legislative proposal provides for 
the sharing of adversity--flood or drought--appropriately between the 
natural system and the built environment; and the protection of 
existing permitted uses, two goals endorsed by the all of the 
stakeholders in the South Florida ecosystem.
Conclusion
    In the Everglades we have an historic opportunity to correct past 
mistakes and save a national treasure for future generations while at 
the same time ensuring South Florida's continued viability. The Federal 
and State governments are doing things that have never before been 
attempted, certainly not at this scale. This effort has always enjoyed 
bipartisan support and reflects a level of partnership, of which we are 
very proud, among the State of Florida, the Federal Government and 
concerned citizens.
    We appreciate the leadership and commitment of Chairman Smith and 
the committee and other members in the United States Senate in bringing 
us this far today. If we are to truly succeed, that commitment must 
continue for many years to come, and we look forward to working with 
the Subcommittee as the restoration proceeds.
    Mr. Chairman, that concludes my statement. Thank you for the 
opportunity to address the committee on this important effort and I 
will be pleased to answer any questions you may have.
                                 ______
                                 
   Responses by Mary Doyle to Additional Questions from Senator Smith

    Question 1. Did you participate in the development of the Operation 
and Maintenance formula and do you think that it adequately represents 
the amount of Federal lands and waters that benefit from the 
Comprehensive Plan?
    Response. Although the Water Resources Development Act of 1996 
requires that operation and maintenance costs for the Central and 
Southern Florida Project be the responsibility of the local sponsor, 
and that the Comprehensive Everglades Restoration Plan provided to the 
Congress last July called for an equal split of the operation and 
maintenance costs, the Administration proposes that the costs be split 
60 percent non-Federal and 40 percent Federal. The Department did not 
directly participate in the development of this formula. The Department 
supports the Administration's position.

    Question 2. Can you provide the committee with examples, if any 
exist, of other instances in which advanced treated wastewater was 
successfully returned to the natural system?
    Response. The Department is not aware of any other instances in 
which advanced treated wastewater was used to supply hydrologic needs 
of a natural system. As part of the strategy to capture and store 1.1 
million acre-feet of water now presently sent to tide, the 
Comprehensive Plan proposes two specific wastewater reuse structural 
features to provide up to 231 million gallons per day of additional 
water by recycling and treating municipal waste water. These features 
include the West Miami-Dade County Reuse project and the South Miami-
Dade County Reuse project proposed for authorization in 2014. In order 
to attain superior level of water quality, construction of treatment 
systems will be necessary. Further, the plans to develop these . 
features occur late in the Comprehensive Plan implementation process. 
Other potential sources of water will be investigated before pursuing 
the reuse facility as a resource, it is possible that the adaptive 
assessment process and technological improvements may make these 
features unnecessary.

    Question 3. Can you comment on the desirability of waste water as a 
source of water for the natural system?
    Response. As long as the waste water is of sufficient quality, the 
additional quantity of water that will be captured from this effort 
will be very beneficial for the natural system.

    Question 4. Why is it important to move forward with authorization 
of this initial set of ten projects this year? Can you describe what 
the impacts of delay would mean for the ecosystem?
    Response. The first ten projects were selected for the initial 
authorization because they provide system-wide water storage, quality 
and flow distribution benefits to the ecosystem and they integrate 
these features with ongoing State and Federal restoration programs. 
This will result in immediate benefits for Everglades restoration and 
will enhance the water supply for all uses. For example, as part of the 
initial authorization, modifications to raise portions of Tamiami Trail 
are proposed in order to improve the flow of water deliveries into 
Northeast Shark River Slough that is to be reestablished under the 
ongoing Modified Water Deliveries Project funded by the Department of 
the Interior and constructed by the Corps.
    Additionally, about 381,000 acre-feet of additional water storage 
capacity will be created by the construction of six water storage 
areas, and, where necessary to ensure adequate water quality, 
accompanying stormwater treatment areas. The most significant of these 
is the 260,000 acre-feet to be realized from phase one of the 
Everglades Agricultural Area (EAA) Storage Reservoir that is proposed 
to be located on lands acquired from the Talisman Sugar Corporation and 
other sugar producers in the EAA. Delaying the authorization for the 
EAA Storage Reservoir until a site specific Project Implementation 
Report is complete jeopardizes the ability of the South Florida Water 
Management District to provide notice by October 1, 2002, required 
under the land purchase and exchange agreement, and for the Army Corps 
to utilize these lands for this purpose by the agreed-upon date for the 
end of the lease term, which is March 31, 2005
    If authorization is delayed, the Everglades ecosystem as we know it 
today will continue to deteriorate and eventually disappear. Without 
the Comprehensive Plan, the natural system is likely to experience 
future water shortages, along with more frequent fire events. These 
water shortages will make it difficult to maintain aquatic habitat in 
Shark River Slough and Taylor Slough. Estuaries like Florida Bay will 
experience increased algae blooms, seagrass die-offs and hypersalinity, 
reducing sport fisheries and critical nursery functions for the shrimp 
and lobster fisheries. The ability to recover endangered species will 
be seriously impaired and as the natural environment suffers, so too 
will the human environment. The urban population of South Florida will 
experience the water shortage problems and severe flood events as the 
water supply system, under pressure, of continued population growth 
becomes impossible to administer adequately.

    Question 5. Would you be supportive of a safeguard mechanism, 
perhaps comparable to the process Congress approved last year for the 
Challenge 21 program, which would allow these projects to be 
authorized, but give the Congress appropriate oversight?
    Response. Because of the immediate benefits that will be realized, 
the Department believes that it is important to authorize the proposed 
initial construction projects now. The Administration's proposal 
provides that construction would not begin until a Project 
Implementation Report is completed.
                                 ______
                                 
 Responses by Mary Doyle to Additional Questions from Senator Voinovich

    Question 1. On April 6 the Corps of Engineers released a draft 
General Reevaluation Report and Supplemental Environmental Impact 
Statement on alternatives for providing flood mitigation to the 8.5 
Square Mile Area in conjunction with implementing the Modified Water 
Deliveries Project. The Modified Water Deliveries Project is essential 
to Everglades restoration and has been mired in controversy. In a draft 
Fish and Wildlife Coordination Act report on the Corps report the Fish 
and Wildlife Service and National Park Service rated a total buyout as 
the best plan. It is going to be very difficult to achieve any workable 
consensus on a total buyout plan. Is there any plan that would provide 
flood mitigation for the most developed portions of the 8.5 mile area 
that might be acceptable to the Department of the Interior and 
environmental interests?
    Response. The Department is working with the Army Corps of 
Engineers to complete the Supplemental Environmental Impact Statement 
for the Modified Water Deliveries to Everglades National Park, 8.5 
Square Mile Area. The Corps of Engineers, the Department and the South 
Florida Water Management District are evaluating ten alternatives 
including flood mitigation. Consistent with the Modified Water 
Deliveries underlying statutory authorization, the Department has 
identified some of these alternatives as providing for restoration of 
more natural hydrologic flows for Northeast Shark River Slough, as well 
as the required flood protection.

    Question 2. The Administration proposal for the Comprehensive 
Everglades Restoration Plan includes the proposal that the Federal 
Government share in 40 percent of the operation and maintenance cost of 
the Comprehensive Plan based on the fact that the plan provides water 
to Federal properties including Everglades and Biscayne Bay National 
Parks. As the Federal agency responsible for management of Everglades 
and Biscayne Bay parks, should the 40 percent Federal share of 
operation and maintenance come out of the National Park Service budget?
    Response. Although the Water Resources Development Act of 1996 
requires that operation and maintenance costs for the Central and 
Southern Florida Project be the responsibility of the local sponsor, 
the Administration proposes that the costs be split 60 percent non-
Federal and 40 percent Federal. The Administration believes that the 
traditional arrangement of having the Army Corps fund Federal share of 
the project operation and maintenance costs is more appropriate than 
having such costs funded by the National Park Service.

    Question 3. Is the proposal to redevelop Homestead Air Force Base 
as a commercial airport compatible with Everglades restoration?
    Response. The Air Force is working on a draft Supplemental 
Environmental Impact Statement (SEIS) and is evaluating the public 
comments received during the public comment process. Although the 
Administration has not made a final decision on the reuse of the former 
Homestead Air Force Base surplus property, the Department has stated 
its belief that the Mixed Use alternative analyzed in the draft SEIS 
meets the goals of the SEIS in that it provides for significant 
economic opportunities for South Miami-Dade County and protects the 
nearby national parks. Attached is a copy of the Department's comments 
on the draft SEIS.
                           U.S. Department of the Interior.
                                 ______
                                 

Ms. Shirley Curry,
AFBCA External Affairs,
1700 N. Moore Street, Suite 2300,
Arlington, VA 22209-2802.

Dear Ms. Curry: The Department of the Interior (Department) appreciates 
the opportunity provided to the National Park Service and the Fish and 
Wildlife Service to work as cooperating agencies on the preparation of 
the Draft Supplemental Environmental Impact Statement (Draft SEIS) 
entitled ``Disposal of Portions of the Former Homestead Air Force 
Base'' and dated December 1999. The Department understands that the 
goal of the Air Force is to dispose of the former Homestead Air Force 
Base surplus property in a manner that supports economic revitalization 
of South Florida, while protecting Biscayne and Everglades National 
Parks.
    Homestead Air Force base is less than two miles from Biscayne 
National Park, and less than 10 miles from Everglades National Park, so 
what is done at Homestead is enormously important to the parks. Both 
parks have been set aside by Congress for the fundamental purpose 
stated in the National Park Service's Organic Act, ``which purpose is 
to conserve the scenery and the natural and the historic objects and 
the wildlife therein and to provide for the enjoyment of the same in 
such manner and by such means as will leave them unimpaired for the 
enjoyment of future generations.'' Everglades National Park has also 
been recognized as both a World Heritage Site and a Biosphere Reserve; 
it also constitutes the largest remaining subtropical wilderness in the 
United States, with 1,296,500 acres that have been formally designated 
by Congress as part of the National Wilderness Preservation System. 
Biscayne National Park receives nearly 500,00 visitors per year, and 
Everglades National Park nearly one million visitors per year.
    Because South Florida supports some of the greatest biodiversity in 
the United States, decisions about the disposal and reuse of Homestead 
Air Force Base are also potentially significant to wildlife resources 
for which the U.S. Fish and Wildlife Service has responsibility. 
Crocodile Lake National Wildlife Refuge is about 30 miles from 
Homestead. Within South Florida 68 species are listed as endangered or 
threatened under the Endangered Species Act.
    The Department believes that the Mixed Use alternative is the 
preferred approach to achieve the stated goal for the disposal of this 
property and urges the Air Force adopt the Mixed Use alternative in its 
Record of Decision. The Department believes that the Mixed Use is 
preferable to the development of a commercial airport because the Mixed 
Use alternative:
    Environmental Group Plan, or some similar as yet unidentified 
proposal--provides significant economic renewal and revitalization of 
south Florida in a manner that avoids degrading the natural environment 
and resources of Biscayne and Everglades National Parks.
    Although the Draft SEIS analyzes the environmental consequences of 
the proposed action and is based upon the best scientific information 
available at this time, the Department believes that we have only a 
modest understanding of the potential environmental impacts and 
associated cumulative impacts from a commercial airport, located less 
than two miles from Biscayne National Park and less than 10 miles from 
Everglades National Park. Although the Draft SEIS notes correctly that 
we are unable at this time to analyze fully the impacts of a proposed 
airport expansion because it is so far into the future, the Department 
believes that similar impacts could occur, only to compound the 
potential degradation to park resources that may result from a 
commercial airport.
    For all of these reasons, the Department supports the Mixed Use 
alternative as the best way to provide significant economic 
opportunities to South Miami-Dade County, consistent with the Air 
Force's goal to dispose of surplus property at the former Homestead Air 
Force Base in a manner that supports economic revitalization of South 
Florida, while protecting Biscayne and Everglades National Parks.
    More specific comments addressed in the order in which they are 
discussed and analyzed in the Draft SEIS follow:
Socioeconomic Benefits
    The Department notes that the Mixed Use alternative has the 
capacity to generate significant economic benefits quickly that are 
nearly as great as the proposed action. The Draft SEIS states that 
employment resulting from the Mixed Use alternative in South Miami-Dade 
County is expected to ultimately increase by 7,848-15,843 jobs, 
generating a potential increase in earnings of 5228 59 million by 2015 
The Draft SEIS calculates that this represents an increase in South 
Miami-Dade County of about 11-23 percent over the present baseline. 
Although less than that associated with the development of the 
commercial airport, this is significant economic growth. Further, the 
Draft SEIS notes that economic benefits accrue more quickly to the 
surrounding area from the Mixed Use alternative than from the 
commercial airport, thereby providing more immediate benefits to the 
local communities and residents.
    In contrast to the commercial airport, the Mixed Use alternative 
also provides for significant recreational and educational 
opportunities. The Air Force should carefully consider the immediate 
and lasting benefits that are offered under both the Collier Resources 
Company Proposal and the Hoover Environmental Group Plan as they have 
the potential to provide unique educational and recreational 
opportunities, as well as expanded tourism in the region.
Airspace Safety
    Although the Draft SEIS indicates that serious accidents involving 
commercial aircraft are infrequent. the Department remains quite 
concerned about the environmental consequences for any aircraft 
accidents that may, depending upon the location of such accident. 
degrade natural resources under the jurisdiction of the Department of 
the Interior. For example, an accident occurring in the wetlands of 
Biscayne or Everglades National Parks could destroy valuable habitat 
and vegetation, degrade soils and cause mortalities of plant and animal 
species. Accidents often involve the release of tonic fuels that may 
further degrade the environment. Finally, related aircraft recovery 
operations have the potential to damage natural resources. These risks, 
though small, are not present in the Mixed Use alternative.
Noise
    The natural ambient soundscape, those sound conditions that exist 
in the absence of human-caused sounds, is among the important natural 
conditions and resources of national parks. As already indicated, the 
Draft SEIS states that a single-runway commercial airport at Homestead 
would lead to about 231,000 annual aircraft operations at full 
buildout, as compared to about 20,000 military and other operations at 
Homestead Air Reserve Station today If expanded in the future, a 
commercial airport could lead to about 370,000 aircraft operations a 
year. At the initial proposed level, let alone at an expanded level, 
these operations could significantly increase man-made noise levels in 
Biscayne and Everglades national parks, and represent a significant 
impairment and use of park resources, including natural sounds and a 
sense of tranquility. The proposed flight tracks and operational levels 
would also impact Crocodile Lake National Wildlife Refuge.
    As with many resources the National Park Service is charged to 
preserve, the natural soundscapes of Everglades and Biscayne National 
Parks are not currently pristine and all of the factors affecting those 
soundscapes are not controlled by the Park Service; However, the 
National Park Service will restore degraded soundscapes to the natural 
ambient condition wherever possible and will protect natural 
soundscapes from degradation due to human-caused noise. To that end, 
the National Park Service is currently preparing a draft Soundscape 
Management Plan for Biscayne National Park. Soundscape preservation 
will also be addressed in the upcoming General Management Plan for 
Everglades National Park. The Department is concerned that the 
development of a commercial airport in such close proximity to Biscayne 
and Everglades National Park will frustrate these management efforts, 
as well as contribute to the further degradation of the resource.
    In terms of the analysis of noise consequences from the proposed 
action, the Department notes that the draft report by Wyle Laboratories 
entitled ``The Soundscape in South Florida National Parks'' and 
prepared for the National Park Service was included in the appendix to 
the Draft SEIS. The report was prepared to assist the National Park 
Service in its efforts to resolve methodological issues associated with 
defining the ``natural soundscape'' i.e., the conditions that do or 
would exist in the absence of human caused noise, in parks across our 
system. Because the natural soundscape is a natural resource of all 
parks and is the ``affected environment'' for assessing the impacts of 
noise intrusions. the accurate characterization of the soundscape 
resource is of great interest to the National Park Service.
    The Wyle report reviewed the data from earlier studies that were 
used as the basis for the noise analysis in the Draft SEIS. In various 
places, the Wyle report points out where the methodology and 
assumptions in the earlier studies appear to be inconsistent with an 
accurate assessment of the natural soundscape. For example, the ambient 
noise level ascribed to the parks by the FM's short term measurements 
is far higher than the levels measured over a longer period of time by 
Wyle Laboratories. In addition, the Wyle findings do not validate the 
vegetation-based extrapolation of data that was done by the FAA. The 
Department accepts the Draft SEIS's finding that the airport 
alternative would lead to increases in the amount of time that there 
would be elevated noise levels in the parks. However, the re-analysis 
by Wyle Labs indicates that the analysis reflected in the text of the 
Draft SEIS may underestimate the amount of time each day that noise 
levels would be elevated.
    Notwithstanding these differences in methodologies and assumptions 
that indicate that different noise impact results could be achieved, 
increased noise levels in the national parks have the potential to 
disrupt park employees and visitors, park interpretive programs, and 
park natural resources. Because of concerns over the differing 
methodologies and assumptions employed by the Federal Aviation 
Administration and Wyle Laboratories regarding noise issues, the 
Department believes that our knowledge of the effect of increased noise 
levels on the resources in Biscayne and Everglades National Park is 
evolving. Further, although it is beyond the scope of this Draft SEIS, 
it is possible that if a commercial airport were to be expanded at a 
later date to increase the frequency of air traffic, increased noise 
levels could result despite any future changes in technology that could 
mitigate such impact, if such technology were to be developed. It is 
unclear at this time if that will be the case.
    The Department notes, however, that the Mixed Use alternative does 
not result in any change in noise levels, whatsoever, and would allow 
the National Park Service to continue its efforts to: (1) preserve and 
protect for present and future generations the natural resources of 
nearby parks; (2) restore natural soundscapes to the extent possible; 
and (3) provide for continued visitor enjoyment of the nearby parks 
without the impact caused by increased noise levels.
Land Use and Aesthetics
    The Department believes that the increased level of aircraft 
operations associated with the proposed action could seriously affect 
the land use and aesthetics in the nearby national parks and the 
enjoyment of present and future visitors.
    In terms of the park resources that could be affected by this 
dramatic increase in aircraft operations flat open landscapes and vast 
skies are essential resources of Everglades and Biscayne National Parks 
that are presently enjoyed by visitors and are an integral part the 
visitor experience. The Draft SEIS describes the impact of increasing 
the frequency and expanding the distribution of aircraft and contrails 
on these resources and on the visitors who enjoy these resources. A 
full understanding of the impact of such intrusion is modest.
    The Department notes that Everglades locational Park. receiving 
close to I million visitors per year and internationally recognized as 
both a World Heritage Site and Biosphere Reserve, is the largest 
remaining subtropical wilderness in the United States with 1,296,500 
acres officially designated as wilderness. Visitors seeking the 
solitude of a wilderness setting at Everglades National Park through 
back country camping or canoeing down Shark River Slough could have 
their experiences disrupted through increased commercial air traffic 
over these areas. Similarly, the nearly 500,000 annual visitors to 
Biscayne National Park may find their experience seriously degraded by 
the frequent appearance of low altitude approaching and departing 
aircraft over Biscayne Bay, and associated aircraft lights and noise. 
The Department notes that Biscayne National Park serves as an important 
retreat and recreational resource for the surrounding greater Miami 
urban area.
    Similar to vast open day skies, clear, dark, night skies are 
another important landscape of both Biscayne and Everglades National 
Parks Based upon the information set forth in the Draft SEIS, it is 
reasonable to infer that increased aircraft activity, related airport 
infrastructure, and potential secondary development on the adjacent 
lands, as well as the -potential for future airport expansion has the 
potential to permanently impair this resource for current and future 
park visitors. The Draft SEIS recognizes this impact.
    In addition to the effects of a commercial airport on the 
landscapes and the visitors who enjoy such landscapes, there are also 
important park interpretive programs that could be affected by such a 
significant increase in air traffic over existing levels. For example, 
one of the hallmarks of the environmental education program at 
Everglades National`Park is the opportunity for children with little or 
no exposure to the natural world to experience a setting where the 
influence of human activity is minimized. Park rangers teach these 
children about nature by letting them experience the prevailing 
``silence'' of nature--having them stand quietly for 60 seconds and 
then having them describe what they saw, heard, and felt during that 
time. This theme is incorporated into many of the ranger-led activities 
throughout the parks. Fundamental parts of these educational 
experiences could be compromised' if not completely altered, and we 
would be very disappointed if this experience were degraded by the 
projected air traffic and noise associated with the proposed airport.
    The Department notes that the Draft SEIS finds that the potential 
for incomparability between the Mixed Use alternative and the 
surrounding landscapes and aesthetics to be less than for the other 
alternatives. The Department agrees and believes that the Mixed Use 
alternative does not alter the landscapes or aesthetics of either 
Biscayne or Everglades National Park or the enjoyment of such resources 
by visitors in the same way that such resources would be altered by a 
commercial airport.
Air Quality
    The Draft SEIS concludes that the development of a commercial 
airport at the former Homestead AFB would increase nitrogen deposition 
in Biscayne National Park by 2, percent over current deposition rates. 
Nitrogen deposition in Everglades National Park would increase by about 
6 percent. If nitrogen levels increased in the waters of Biscayne Bay 
at the levels described for the commercial airport, that could speed up 
the process of eutrophication, which could have a negative effect on 
ecological productivity.
    Polycyclic aromatic hydrocarbons (PAHs) are toxic organic compounds 
emitted in the exhaust of aircraft, motor vehicles, and industrial 
boilers. Higher concentrations of PAHs in soils and water body 
sediments are expected near sources such as airports or roadways. PAHs 
are considered hazardous air pollutants by the Environmental Protection 
Agency, but emissions from aircraft engines are not regulated. Although 
there is limited data on the transport of PAHs, they are apparently 
very insoluble in water, and readily attach to particles such as soil 
and dust. In water bodies, PAHs tend to settle to bottom sediments 
where they affect the benthic communities and ultimately the whole food 
chain.
    The Draft SEIS finds that increased activity of aircraft and other 
mobile sources associated with the Proposed Action would increase the 
generation of PAHs in the vicinity of former Homestead AFB. The Draft 
SEIS suggests that PAHs released from aircraft during night would be 
widely distributed at extremely low concentrations before reaching the 
earth The Department is concerned that our knowledge of PAHs in this 
resource context may be limited and that the distribution of PAHs may 
not be so widely dispersed, particularly beneath the flight paths in 
the sensitive nearshore areas of Biscayne Bay. Extremely low levels of 
total PAHs may be enough to cause a biological impact.
Earth Resources
    The Draft SEIS estimates that the commercial airport could result 
in the reduction of about 800 acres of nearby farmland in South Miami-
Dade County. In contrast, the Mixed Use alternative is estimated to 
result in the reduction of 200-500 acres of nearby farmland. The 
Department believes that any action that increases the development of 
land surrounding the former Homestead Air Force Base has the potential 
to: (1) disrupt the ability to implement recommendations to establish a 
buffer between the former Homestead Air Force Base and the nearby 
national parks whatever re-use alternative is chosen as recommended by 
various groups (discussed further below); and (23 diminish future local 
and State efforts to acquire environmentally sensitive lands in the 
area for the purpose of constructing projects that could result in 
improved water quality and quantity for the Biscayne Coastal Wetlands 
feature described in the Army Corps Comprehensive Plan for Everglades 
Restoration. The purpose of the Biscayne Coastal Wetlands feature 
included in the Army Corps' Comprehensive Everglades Restoration Plan 
is to rehydrate wetlands and reduce point source discharge into 
Biscayne Bay by replicating historic overland flow and redistributing 
available surface water entering the area from regional canals through 
a coastal wetland spreader system. The Army Corps estimates that about 
13,600 acres are needed for this project.
    Restoration the South Florida ecosystem is a major priority for 
State. Federal and local governments. The Department believes that any 
decision about re-use of the former Homestead Air Force Base should 
complement the future ability of Federal, State and local efforts to 
implement these goals. Protecting the immediate environs of Biscayne 
National Park. including land between and proximate to the base 
property and the Bay, is vital to achieving ecosystem restoration by 
securing more natural quality, quantity, timing and distribution of 
water flows to Biscayne Bay. Potential environmental impacts of 
redevelopment of the former Homestead Air Force Base property could 
effect this important ecosystem restoration project.
    Various agencies at the local, State and Federal levels have 
advanced recommendations to create a protected area between former 
Homestead Air Force Base and Biscayne National Park to protect Biscayne 
National Park and Biscayne Bay from some of the potential impacts of 
developing a commercial airport and to restore overland sheet flow to 
Biscayne Bay. Any re-use scenario, regardless of what re-use 
alternative is chosen should include protections from urbanization and 
degradation of the lands between and proximate to former Homestead Air 
Force Base and Biscayne Bay.
    Miami-Dade County's Comprehensive Development Master Plan 
amendments and its proposed Wildlife/Habitat Management and Mitigation 
Plan, the South Florida Ecosystem Restoration Working Group's Issue 
Advisory Team and Drafting Subcommittee reports, the Florida Department 
of Community Affairs' report to the Administration Commission, and the 
Administration Commission's final Order on Chapter 288 amendments all 
include proposals for a buffer area.
    Miami-Dade County's Wildlife Habitat Management and Mitigation Plan 
for Homestead AFB, completed in June 1998, describes ``Preservation 
Considerations for Areas Outside of the Former Base.'' According to the 
plan, the areas to the east and southeast of the former Base ``are the 
most significant areas in terms of habitat protection and should be 
considered critical target areas for preservation and management.,'
    The preservation of a buffer area would serve several purposes in 
protecting and restoring conditions in Biscayne UP. As described in the 
Draft SEIS, a buffer would:
    Protect park resources, including water quality and the viewshed; 
Protect critical wildlife habitat and wetlands; Preserve the rural 
character of the area by limiting conversion of agricultural land; 
Preserve in its present condition an area that could be crucial for 
restoring sheetflow to Biscayne Bay.
    The Department believes that a buffer to maintain existing 
agricultural and open spaces uses between Biscayne National Park and 
the urban areas of southeast Miami-Dade County is essential to protect 
the nationally and regionally significant resources and values of the 
park. Implementing the buffer may be more easily accomplished under the 
Mixed Use alternative in that projected to result in the use of fewer 
acres adjacent to the former Homestead Or Force Base property and the 
secondary development impacts may be less.
Water Resources
    The analysis of impacts to water resources in the Draft SEIS 
assumes changes in the stormwater management system on the former base, 
based on the Homestead Regional Airport Surface Water Management Master 
Plan. This plan and a permit application for stormwater discharges 
would need to be submitted to, and approved by, the South Florida Water 
Management District prior to implementation. Substantial changes may be 
made to the plan during the approval process, but the Draft SEIS 
assumes that the actual stormwater management system would function as 
described in the HST Surface Water Management Master Plan. The 
Department is concerned that specific storm drainage plans for the new 
airport have not been finalized and that possible replumbing to route 
stormwater through wetlands east of the base property has not been 
addressed.
    The Department is also concerned about potential increased flows of 
other groundwater contaminants, especially ammonia. The Draft SEIS 
suggests that the increase in flows of ammonia, which is tonic to 
organisms, could be 13-14 percent. The Department is concerned that 
French Drains (which are an important element in the stormwater 
management plan for the airport used to develop the Draft SEIS) may 
more likely increase contaminants flowing from groundwater into the 
Bay, rather than reduce it as suggested in the Draft SEIS. This is 
especially likely when one considers the amount of ammonia flowing from 
nearby landfills. Ammonia in groundwater is a powerful solvent that 
will move metals and other contaminants out into the Bay.
Biologic Resources
    Proposed air traffic routes under the commercial airport 
alternative bisect and transverse many sensitive habitats (Cape Sable 
Seaside Sparrow breeding habitat, foraging habitat for woodstorks and 
spoonbills, and crocodile nesting habitat). Notwithstanding the pending 
determination of the Fish and Wildlife Service under Endangered Species 
Act consultation requirements, the Department is concerned that the 
increased frequency, volume, and duration of noise could impact these 
endangered species and species of special concern, as well as other 
biologic resources in the area. Furthermore, the Department is 
concerned that these increases could severely hinder efforts to 
reliably determine the status and trends of the critically endangered 
Cape Sable Seaside Sparrow, other breeding birds and may impact 
monitoring of the reintroduction of the bluebird and nuthatch.
    The Draft SEIS finds that ``wading birds may flush or be startled 
during, feeding loafing or roosting, but it is not anticipated that 
nesting birds would be sufficiently affected to abandon their nests. 
Some species of wading birds appear to habituate to high noise levels, 
while others may choose to relocate to quieter areas with suitable 
habitat.'' The Department believes that a full understanding of the 
effects of aircraft overflights on indigenous and migratory birds, some 
of which are threatened or endangered species, is modest, as we lack 
specific studies of commercial aircraft traffic and its effects for all 
of the represented species in the affected environment. Further. the 
Draft SEIS suggests the use of unspecified techniques to scare birds 
away from the flight paths to minimize the danger of bird strikes. If 
these techniques involve the use of noise to prevent birds from 
roosting in the area, there would be farther impacts to wildlife in and 
around the National Parks.
    Additionally, development of a commercial airport is expected to 
result in the destruction of ecologically sensitive remnant pine 
rocklands, with the potential for losses offsite as the result of 
secondary development. Similarly, there is also a reduction in wading 
bird habitat. The Department notes that, in contrast to the commercial 
airport, the Mixed Use alternative offers the opportunity to preserve 
remaining pine rocklands and increase wading bird habitat. Under the 
Hoover Environmental Group Plan, these areas would be preserved and 
enhanced. The Department notes that this may be possible under any 
scenario involving Mixed Use, particularly if deed restrictions are 
used to preserve rare and ecologically sensitive habitat.
Summary of Concerns and Conclusion
    As described above, the Department is very concerned that the 
development of a commercial airport in close proximity to Biscayne 
National Park and Everglades National Park could have a series of 
negative consequences on these nationally and internationally 
recognized resources and the surrounding areas. Once allowed to occur, 
these negative environmental impacts may be difficult to reverse and 
could frustrate collective efforts among the Federal, State and local 
governments to create a sustainable South Florida economy by restoring 
the Everglades. A summary of the potential negative environmental 
impacts follows:
    Significant derogation of the natural soundscapes in both Biscayne 
and Everglades National Parks with adverse effects on visitor 
enjoyment, National Park-Service interpretive activities, and biologic 
resources--including the potential disruption of nesting and/or 
migration patterns of birds--in both Biscayne and Everglades National 
Parks; Increases in contaminants, including ammonia and PAHs, in 
Biscayne Bay; Increases in nitrogen deposition in Biscayne and 
Everglades National Parks; Reduction of the ability to track the status 
and trends of repatriated species, endangered species, and other 
breeding birds; Disruption of the scenic vistas and impairment of night 
skies at Biscayne and Everglades National Parks; Loss of important 
farmland through secondary development impacts thereby leading to land 
use changes that may frustrate the ability to complete various 
components of the Army Corps' Comprehensive Everglades Restoration 
Plan.
    For all of these reasons, the Department prefers the Mixed Use 
alternative as the environmentally preferable alternative of all the 
alternatives evaluated in the Draft SEIS.
    The Air Force's goal is ``to dispose of this surplus property in a 
manner that supports local community plans for economic revitalization 
of south Florida and protects Biscayne Bay and the nearby national 
parks.'' The Department believes that this goal can be best advanced by 
selecting the Mixed lose Alternative. None of the other alternatives 
evaluated in the Draft SEIS accomplishes this goal.
            Sincerely,
                      Donald J. Barry, Assistant Secretary,
                                       Fish and Wildlife and Parks.
                                 ______
                                 
   Responses by Mary Doyle to Additional Questions from Senator Crapo

    Question 1. Has the Corps of Engineers or Department of the 
Interior made recommendations for or undertaken actions that are 
consistent with a modified reconnaissance or feasibility study for the 
projects contained in the comprehensive Everglades restoration plan?
    Response. Yes, the Department has taken a number of independent 
actions that are consistent with the recommendations contained in the 
Comprehensive Everglades Restoration Plan and that anticipate future 
authorization and implementation of the Plan. As part of its land 
acquisition grant program for the State of Florida, the Department of 
the Interior has issued a number of grants to the State of Florida's 
Department of Environmental Protection and South Florida Water 
Management District to assist both agencies in acquiring lands that may 
be utilized in implementing specific project features associated with 
the Comprehensive Plan. Lands that have been or are being acquired by 
these agencies using the grant funding provided by the Department are 
located in the East Coast Buffer, Everglades Agricultural Area, 
Southern Golden Gates Estates, Corkscrew Regional Ecosystem Watershed, 
and the Caloosahatchee Basin. If the lands are not ultimately utilized 
for a project feature associated with the Comprehensive Plan, the 
underlying grant agreements provide that the lands will be managed for 
Everglades restoration purposes.

    Question 2. What will be the impact of the restoration plan on the 
hydrological needs of the Big Cypress National Preserve?
    Response. Two components of the Comprehensive Everglades 
Restoration Plan target the hydrologic needs of the Big Cypress region. 
These include the Big Cypress/L-28 Interceptor Modifications and the 
Seminole Tribe Big Cypress Water Conservation Plan. The purpose of the 
Big Cypress/L-28 Interceptor Modifications is to reestablish sheetflow 
across the Big Cypress Reservation and into the Big Cypress National 
Preserve, maintain flood protection on Seminole Tribal lands, and 
ensure that inflows meet applicable water quality standards. The 
Seminole Tribe Big Cypress Water Conservation Plan is designed to 
achieve environmental restoration on the Reservation, the Big Cypress 
Preserve, and the Everglades Protection Area, as well as promote water 
conservation.
                                 ______
                                 
  Responses by Mary Doyle to Additional Questions from Senator Graham

    Question 1. The language proposed by the Administration includes 
assurances language that calls for concurrence by the Department of the 
Interior in Federal regulations and consultation by the Governor. What 
is your explanation for why this arrangement is appropriate given the 
50-50 cost-sharing with the State on this project?
    Response. We believe that the State of Florida should be a full 
partner in the implementing the CERP. At the time the proposed 
legislation was being drafted, the Federal agencies involved in this 
effort had constitutional concerns over providing the State of Florida 
with a concurrence role over the Federal programmatic regulations that 
are proposed to be developed to determine the appropriate quantity, 
quality, timing and distribution of water for the natural system so 
that it will be restored consistent with the Comprehensive Plan. Upon 
further review, the Administration now believes it is appropriate to 
provide a similar role to the Governor of Florida in the programmatic 
regulations that are proposed to be developed to determine the 
appropriate quantity, timing and distribution of water for the natural 
system.

    Question 2. Can you summarize in a list the Federal holdings that 
will benefit from the water generated by this project?
    Response. The following federally designated conservation areas 
will benefit from the implementation of the Comprehensive Everglades 
Restoration Plan:

    1. Lake Wales Ridge National Wildlife Refuge
    2. Archie Carr National Wildlife Refuge
    3. Pelican Island National Wildlife Refuge
    4. Hobe Sound National Wildlife Refuge
    5. Loxahatchee National Wildlife Refuge
    6. Island Bay National Wildlife Refuge
    7. Pine Island National Wildlife Refuge
    8. Ding Darling National Wildlife Refuge
    9. Matlacha Pass National Wildlife Refuge
    10. Callosahatchee National Wildlife Refuge
    11. Florida Panther National Wildlife Refuge
    12. Ten Thousand Islands National Wildlife Refuge
    13. Crocodile Lake National Wildlife Refuge
    14. Key Deer National Wildlife Refuge
    15. Great White Heron National Wildlife Refuge
    16. Key West National Wildlife Refuge
    17. Everglades National Park
    18. Big Cypress National Preserve
    19. Biscayne National Park
    20. Dry Tortugas National Park
    21. Florida Keys National Marine Sanctuary
    22. Rookery Bay National Estuarine Reserve

    Question 3. The language proposed by the Administration includes a 
60-40 cost-share for operations and maintenance funding. What is your 
justification for this number?
    Response. Although the Water Resources Development Act of 1996 
requires that operation and maintenance costs for the Central and 
Southern Florida Project be the responsibility of the local sponsor, 
and that the Comprehensive Everglades Restoration Plan provided to the 
Congress last July called for an equal split of the operation and 
maintenance costs, the Administration proposes that the costs be split 
60 percent non-Federal and 40 percent Federal. The Department 
understands that this allocation was determined by the amount of 
Federal lands that will benefit from the Comprehensive Plan.

    Question 4. There have been concerns raised regarding the content 
of the Chief's Report of June 22, 1999. Why is this water important to 
the natural system? Are you aware that both General Ballard and 
Secretary Westphal have sent me a letter indicating that they committed 
to study the feasibility of providing an additional 245,000 acre feet 
of water, not that they committed to providing the additional water? 
Are you comfortable with an action to study the feasibility of 
providing this water?
    Response. As described in the Comprehensive Everglades Restoration 
Plan submitted to the Congress last July, the 245,000 acre-feet 
referenced in the Chief of Engineer's Report is vitally important to 
the natural system. When the 245,000 acre-feet is combined with excess 
water from the Water Conservation Areas, it allows for significant 
increased flows of new water to Everglades National Park and Biscayne 
Bay. These increased flows are expected to produce substantial 
improvements toward meeting the hydrological performance targets for 
these two areas, as it would allow these parks to approximate 90 
percent of predrainage volumes. This Restudy's Alternative Evaluation 
Team arrived at this same conclusion, as described in the Comprehensive 
Plan, subsequent to the hydrologic modeling conducted during the winter 
of 1998, and in response to the public comments received on the 
issuance of the draft plan in October 1998.
    Despite the substantial benefits from this additional water, the 
245,000 acre-feet of water was not, however, included in the 
Comprehensive Plan's recommended plan submitted to the Congress last 
July because there were significant unresolved concerns with the 
delivery of this new water. Rather, the Alternative Evaluation Team 
recommended that the 245,000 acre-feet be included contingent upon 
additional planning and study be completed to find a way to resolve 
some of these concerns so that the new water could be delivered. For 
these reasons, the Army Corps of Engineers agreed to study this 
proposal in greater detail and submit a project implementation report 
on this issue to the Congress. The Department is aware that Chief of 
Engineers Ballard and Assistant Secretary of the Army Westphal both 
have made clear in previous correspondence to Congress that ``the Corps 
has only committed to completing an evaluation on the additional 
245,000 acre feet.''
    The Department understands that the commitment to study the 
feasibility of delivering this additional water to be consistent with 
the recommendations contained in the Comprehensive Plan and agreed to 
in correspondence between the Department and the Army Corps of 
Engineers, as well as in the Chief of Engineer's Report. The Department 
is comfortable with this action.

    Question 5. Can you describe the impact to the Everglades and 
surrounding ecosystems if we move forward with this project?
    Response. The Department expects what currently remains of the 
natural system in South Florida to gradually recover and function in a 
manner characteristic of the pre-drainage Everglades. It will become 
once again an interconnected healthy ecosystem, capable of supporting 
viable, abundant populations of native plants, fish, and wildlife. The 
Comprehensive Plan will better distribute the water flowing eastward 
and westward to the coastal areas and southward across Everglades 
National Park and into Florida Bay. This redistribution of water flows 
will substantially reduce the huge ecologically damaging releases of 
fresh water to the coastal estuaries and instead direct water southward 
in a pattern that more closely replicates historic natural water flows. 
Associated features of the Comprehensive Plan will allow better control 
of the timing and quantity of these flows, and improve water quality. 
These actions will improve the salinity balance and reduce nutrient 
runoff in the coastal estuaries and in Florida Bay, resulting in 
substantial improvements to habitat and associated fish and wildlife 
productivity.

    Question 6. Can you describe the impact to the Everglades and 
surrounding ecosystems if we do not move forward with this project?
    Response. Absent the implementation of the Comprehensive Plan, the 
Everglades ecosystem as we know it today will continue to deteriorate 
and eventually disappear. Without the Comprehensive Plan, the natural 
system is likely to experience future water shortages, along with more 
frequent fire events. These water shortages will make it difficult to 
maintain aquatic habitat in Shark River Slough and Taylor Slough. 
Estuaries like Florida Bay will experience increased algae blooms, 
seagrass die-offs and hypersalinity, reducing sport fisheries and 
critical nursery functions for the shrimp and lobster fisheries. The 
ability to recover endangered species will be seriously impaired and as 
the natural environment suffers, so too will the human environment. The 
urban population of South Florida will experience water shortage 
problems and severe flood events as the water supply system, under 
pressure of continued population growth, becomes impossible to 
administer adequately. As a result, the significant Federal investment 
in the region's national parks, wildlife refuges, and marine 
sanctuaries will be at risk and future generations of Americans will 
miss an opportunity to experience the Florida Everglades.

    Question 7. Regarding the Talisman property that I spoke about 
earlier with Secretary Westphal, can you describe the terms of the 
final land transaction?
    Response. On March 26, 1999, the final purchase and related 
simultaneous exchange of the Talisman Sugar Corporation properties in 
the Everglades Agricultural Area (EAA) for other EAA properties was 
completed. Following nearly 2 years of negotiations with various 
parties, this action resulted in the acquisition of 50,855 acres of 
land in fee and 490 acres of leased lands in the EAA. These lands had 
previously been held by Talisman, as well as other sugar producers, 
including U.S. Sugar, Florida Crystals, the Sugar Growers Cooperative 
and Knight.
    Although the Department of the Interior funded $99.9 million toward 
the final $152.5 million acquisition cost, the Department does not hold 
title to any of the properties acquired; title is held by the South 
Florida Water Management District (SFWMD). The funds provided by the 
Department for this acquisition were appropriated to the Department 
under the Federal Agriculture Improvement and Reform Act of 1996 (the 
1996 Farm Bill).
    Of the 50,855 acres of fee lands now held by the South Florida 
Water Management District, approximately 43,098 acres of land has been 
evaluated by the Army Corps of Engineers, as part of the initial 
implementation phase of the Central and Southern Florida Project 
Comprehensive Review Study (now known as the Comprehensive Everglades 
Restoration Plan or Comprehensive Plan), for use as a water storage 
reservoir to supply an additional 360,000 acre feet of water for the 
region. The Army Corps intends to make maximum use of these lands, as 
well as other EAA lands acquired by the SFWMD, to meet this need.
    The remaining 7,757 acres of lands acquired by the SFWMD will be 
incorporated into various stormwater treatment areas (STAB) that are 
presently being constructed by the SFWMD as part of its 
responsibilities under the Consent Decree, as proposed to be modified, 
that ended the water quality litigation between the State of Florida 
and the United States, and under the State of Florida's Everglades 
Forever Act.
    As with similar large land acquisitions and exchanges, the terms of 
the final purchase and exchange agreement are complex. A summary of the 
major terms and conditions follows:
    1. Lease back of acquired lands by various sugar companies: Because 
the lands that were acquired through this purchase and exchange are not 
expected to be needed by the Army Corps until additional site specific 
analysis is complete, it was determined that maintaining the property 
in its existing use would be desirable to prevent the spread of 
invasive exotic species, continue present levels of employment, 
decrease land management costs to the SFWMD, and produce lease income 
for the SFWMD to use for other Everglades restoration land acquisition 
purchases. Of the 43,098 acres acquired by the SFWMD for the purpose of 
constructing a water storage facility, 34,214 acres have an initial 
lease term ending on March 31, 2005; the remaining 8,884 acres being 
farmed by U.S. Sugar will have a term ending on March 31, 2007. After 
the initial lease term expires, the lease is renewable annually until 
terminated by the SFWMD. The leases will terminate and the lands will 
be made available to the Army Corps of Engineers at the time the Corps 
and the SFWMD determine that the lands are needed for restoration 
purposes.
    2. Lease termination provisions: Notice of termination must be 
given 30 months in advance of the effective termination date of March 
31 of the appropriate year, with the notice based upon the 
understanding that construction is expected to begin within 12 months 
of the effective termination. For those lands with an initial term 
ending March 31, 2005, notice must be given by October 1, 2002.
    3. Lease rental income available for other Everglades restoration 
land purchases: Lease rental is to be paid quarterly at market rates 
starting on April 1, 2004 (until that time the lease is at no cost). 
Under the terms of a separate Cooperative Agreement between the 
Department and the SFWMD, the SFWMD will allow the Department to 
approve proposed land acquisition purchases from this fund.
    4. Environmental cleanup; use of best management practices: The 
sugar companies are required to completely remediate the properties 
consistent with Federal and State environmental laws prior to the SFWMD 
taking possession of the property. In addition, during the lease 
period, the sugar companies must employ best management practices.
    5. Other miscellaneous provisions--options to purchase: As part of 
the overall transaction, the SFWMD: (i) settled condemnation litigation 
with various owners of approximately 2,070 acres of land located in the 
EAA within STA-1W and STA-2; (ii) purchased 878 acres of land in STA-
1E, thereby settling pending condemnation litigation; (iii) entered 
into an option to purchase approximately 800 acres of EAA lands owned 
by Okeelanta Corporation (a subsidiary of U.S. Sugar); and (iv) 
received the assignment of a right of first refusal from Okeelanta 
Corporation to purchase approximately 889 acres of EAA lands.
    6. Purchase price: The overall purchase price of $152,454,800 
reflected an average value of about $2,900 per acre, which was 
consistent with the price per acre of other EAA land sales. The price 
was in an acceptable range of the underlying real estate appraisal for 
the Talisman Sugar Corporation properties that had valued the Talisman 
holdings, after applying discounts for its large size, at $110.1 
million, as well as subsequent desk review of that appraisal that 
indicated a value of $148.1 million if no discounts were made for the 
parcel's large size. Because the property was ultimately acquired as 
part of an overall exchange, it was determined that the discounts did 
not accurately reflect the property's true value. As noted earlier, the 
Department provided $99.9 million toward this acquisition; the SFWMD 
provided $38.6 million, with the remaining $13.9 million supplied by 
the various sugar companies (other than Talisman).

    Question 8. Regarding the property purchased by the Federal 
Government in the Talisman transaction in 1998, can you identify on 
your chart where that property is and explain what benefit the use of 
these lands as a reservoir will bring to the restoration project? Why 
is it important to move forward with this project authorization this 
year?
    Response. Delaying the authorization for the EAA Storage Reservoir 
until a site specific Project Implementation Report is complete 
jeopardizes the ability of the South Florida Water Management District 
to provide notice by October 1, 2002, required under the land exchange 
agreement, and for the Army Corps to utilize these lands for this 
purpose by the agreed-upon date for the end of the lease term, which is 
March 31, 2005. The expected environmental benefits to be realized from 
this completion of this feature include: (i) improve the timing and 
release of water to the Water Conservation Areas, including reducing 
the damaging flood releases from the EAA to the Water Conservation 
Areas; (ii) reduce damaging releases from Lake Okeechobee to the 
estuaries; and (iii) meet EAA irrigation and water demands. The 
approximate location of the lands that have been acquired through the 
Talisman purchase and land exchange are shown in the map as follows:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 9. The Everglades Restoration Task Force created a 
scientific review panel for the Everglades Restoration process in 1998. 
Can you describe the mission of this group, its members, and how it 
operates in conjunction with the Task Force?
    Response. In order to ensure that all of the science is 
appropriately peer-reviewed and at the Task Force's request, Secretary 
Babbitt asked the National Academy of Sciences to provide additional 
scientific input on Plan implementation. The science advisory panel, 
called the Committee on Restoration of the Greater Everglades Ecosystem 
or CROGEE, began its work in December 1999. It is composed of 16 
scientists, selected by the National Academy, and represents a broad 
range of expertise including biology, ecology and hydrology.
    The purpose of CROGEE is to provide scientific advice to the Task 
Force on the implementation of the Comprehensive Plan. The 
Comprehensive Plan is predicated upon the concept of ``adaptive 
assessment,'' which calls for careful scientific monitoring over the 
entire 30-year period of implementation to assure that restoration 
goals are being met as planned projects come on line, and where the 
goals are not being achieved to devise science-based approaches that 
are effective. The Task Force recently approved a portion of the CROGEE 
initial workplan, which calls for review of aspects of aquifer storage 
and recovery and ecological indicators.
                                 ______
                                 
   Responses by Mary Doyle to Additional Questions from Senator Mack

    Question 1. Do you support applying section 902 of the 1986 Water 
Resources Development Act to all features of the Comprehensive Plan 
before us today? [This provision requires a congressional review if a 
project exceeds 120 percent of authorized cost]
    Response. The Department does not oppose the application of section 
902 if the cost of a particular project exceeds 120 percent of the 
authorized cost.

    Question 2. Do you support congressional committee review and 
approval of the feasibility level of engineering and design work before 
any construction can begin on the initial suite of ten projects in the 
Comprehensive Plan?
    Response. The Department supports the Administration's proposal on 
these projects. The Administration's proposal provides that 
construction on the specific project features may not begin until a 
Project Implementation Report is complete.

    Question 3. Do you support requiring full feasibility studies 
before any other projects are authorized under the Comprehensive Plan?
    Response. Yes, the Department supports the Administration's 
legislative proposal requiring the completion of project implementation 
reports (feasibility studies) prior to congressional authorization for 
the projects following the initial suite of ten proposed in the WRDA 
2000. The Department supports completion of the project implementation 
reports for authorization of the remaining projects not included in the 
initial suite of projects.

    Question 4. Do you support modifying the definition of the South 
Florida Ecosystem to make clear the system includes the lands and 
waters within the boundaries of the South Florida Water Management 
District as they existed on July 1, 1999?
    Response. As provided in the Administration's legislative proposal, 
the definition of the South Florida ecosystem does include land and 
waters within the boundaries of the South Florida Water Management 
District as they existed on July 1, 1999.

    Question 5. Do you support a provision making clear the Corps of 
Engineers is only authorized to study the question about providing an 
additional 245,000 acre-feet of water to the natural system?
    Response. Consistent with the Comprehensive Plan, both Chief of 
Engineers Ballard and Assistant Secretary of the Army Westphal have 
made clear in previous correspondence to the Congress that ``the Corps 
has only committed to completing an evaluation on the additional 
245,000 acre feet.'' The Department is comfortable with this action.

    Question 6. Do you support language making clear that the Corps 
must work with the State of Florida to ensure all groundwater 
discharges resulting from the Comprehensive Plan meet all applicable 
water quality standards and water quality permitting requirements?
    Response. Yes, the Department supports this modification.

    Question 7. Do you support replacing the project purposes language 
stated in (c)(1) of the Administration's draft with language restating 
the purpose of the Comprehensive Plan developed and passed in WRDA 
1996?
    Response. The Department supports the project purpose as stated in 
the Administration's proposal. The Department believes that language 
proposed in the Administration's draft accurately reflects one of the 
guiding principles for the development of the recommended Comprehensive 
Plan. As stated in the Comprehensive Plan issued in April 1999, that 
principle is: ``[t]he overarching objective of the Comprehensive Plan 
is the restoration, preservation and protection of the south Florida 
ecosystem while providing for other water related needs of the 
region.'' This principle is consistent with the congressional direction 
provided in the Water Resource Development Act of 1992 requiring the 
Army Corps of Engineers to reexamine the Central and Southern Florida 
Project to determine the feasibility of modifying the project to 
restore the South Florida ecosystem and to provide for other water 
related needs of the region, as well as congressional direction in the 
Water Resources Development Act of 1996 that required the Army Corps to 
complete the Comprehensive Everglades Restoration Plan.

    Question 8. Do you support additional programmatic authority for 
the Corps to construct projects of limited cost but are in keeping with 
the Plan's purposes and have independent and substantial benefit to 
Everglades restoration?
    Response. Yes, the Department supports this provision as proposed 
in the Administration's plan.

    Question 9. Do you support a 50/50 cost share between the Federal 
Government and the State of Florida on operation and maintenance of the 
project? If not, please state the cost share you believe to be 
appropriate and why.
    Response. Although the Water Resources Development Act of 1996 
requires that operation and maintenance costs for the Central and 
Southern Florida Project be the responsibility of the local sponsor, 
the Administration proposes that the costs be split 60 percent non-
Federal and 40 percent Federal.

    Question 10. Please provide your thoughts on the definition of 
Project Implementation Reports found in the Administration's language. 
Do you support this definition? If not, please provide suggestions as 
to how you would define these reports.
    Response. The Department supports the Administration's language 
defining the Project Implementation Reports.

    Question 11. Do you believe the Department of the Interior and the 
State of Florida should be on equal footing in developing any 
regulations related to assurances? If not, why?
    Response. We believe that the State of Florida should be a full 
partner in the implementing the CERP. At the time the proposed 
legislation was being drafted, the Federal agencies involved in this 
effort had constitutional concerns over providing the State of Florida 
with a concurrence role over the Federal programmatic regulations that 
are proposed to be developed to determine the appropriate quantity, 
quality, timing and distribution of water for the natural system so 
that it will be restored consistent with the Comprehensive Plan. Upon 
further review, the Administration a law believes it is appropriate to 
provide a similar role to the Governor of Florida in the programmatic 
regulations that are proposed to be developed to determine the 
appropriate quantity, quality, timing and distribution of water for the 
natural system.

    Question 12. Do you support the reporting requirement in the 
administration's bill? If not, how would you amend the reporting 
requirement?
    Response. The Department supports the congressional reporting 
requirement as proposed in the Administration's bill.
                               __________
    Statement of Gary S. Guzy, General Counsel, U.S. Environmental 
                           Protection Agency
    Good afternoon, Mr. Chairman and members of the committee. I am 
Gary Guzy, General Counsel for the U.S. Environmental Protection Agency 
(EPA). Thank you for your invitation to appear here today to talk to 
you about something of great importance to me personally and to the 
people of this nation: the Administration's unprecedented efforts to 
ensure that the Florida Everglades has clean, abundant water to ensure 
environmental and human needs, and the Administration's emphasis on the 
importance of EPA's role under the Clean Water Act in ensuring that 
protecting water quality is fully integrated into each step of the 
restoration efforts.
    The efforts to protect the Everglades are a part of Florida's rich 
history. Marjory Stoneman Douglas, in her autobiography, Voice of the 
River, describes the efforts of Congresswoman Ruth Bryan Owen, who 
actively argued at committee hearings against the commonly-held notion 
of the time that the Everglades was just a swamp filled with snakes and 
mosquitoes. She argued that Congress should create the Everglades 
National Park.
    And Congress did create the Everglades National Park. But that's 
not the end of the story, and here we sit today to urge the committee 
to once again exert its leadership and take the steps necessary to 
preserve and protect this national treasure. Yes, the Everglades is a 
major source of fresh water for South Florida. Yes, the Everglades is 
the largest wetland east of the Mississippi River. And yes, the 
Everglades is an economic boon to a State that depends on tourism. But 
the Everglades is more than these things; it is a historical treasure 
that is only venerated through its preservation.
                    past efforts and recent progress
    During the second half of the last century, the existing Central 
and Southern Florida Project was built to help meet needs for flood 
control and water supply at that time. But the explosive growth since 
then has far exceeded the capacity of the current system to meet even 
these needs, and has contributed to the ongoing decline in the 
Everglades ecosystem. The design and operation of the current system, 
while very efficient at draining excess water, severely limits our 
capability to store excess water when it becomes available (in the wet 
season) so we will have it when it is needed (in the dry season). 
Moreover, it is important to remember that the system was designed for 
flood control and for water supply purposes. Water quality was not a 
consideration at the time.
    The Comprehensive Everglades Restoration Plan was submitted to the 
Congress by the Vice President of the United States for the U.S. Army 
Corps of Engineers nearly a year ago (July 1999). The Plan, which was 
carefully developed with the full involvement of EPA and other Federal/
State agencies, lays out an ambitious Federal/State joint venture to 
restore water flows to the Everglades ecosystem while providing flood 
protection and adequate freshwater supplies to the agricultural 
industry and to the growing population of South Florida. The 
Comprehensive Everglades Restoration Plan represents a fundamental 
change in philosophy a commitment to a sustainable future in which we 
learn to balance the water supply needs of the natural systems both 
freshwater and marine, with the needs of the urban and agricultural 
components of the Everglades systems.
    More recently, EPA worked with its Federal partners to shape the 
Administration's proposed legislation for the Water Resources 
Development Act of 2000 (WRDA), which would authorize the Central and 
Southern Florida Project in accordance with the recommendations set 
forth in the Comprehensive Everglades Restoration Plan (CERP). The 
authorization would allow the Corps and its Federal/State partners, 
including EPA, to implement the Comprehensive Everglades Restoration 
Plan, which, in concert with other proposed and ongoing restoration 
efforts, would ``get the water right'' by delivering fresh water in the 
right quantity, of the right quality, and with our best estimate of the 
right timing and the right distribution to achieve the desired results 
in the Everglades ecosystem, including downstream coastal communities 
all the way to the living coral reefs of the Florida Keys.
    EPA recommends the passage of the proposed Everglades legislation 
the Administration provided to Congress for authorization in the Water 
Resources Development Act 2000. Among EPA's priorities for the proposal 
is to ensure that the legislation clearly amends the current and future 
project features and purposes for the Central and Southern Florida 
project to restore, preserve, and protect the South Florida ecosystem.
    We also worked closely with our Federal partners to shape the 
Everglades proposal so that it identifies, and fully addresses, the 
goal of water quality improvement for the ecosystem. EPA supports the 
Army Corps of Engineers' request that project features needed to 
provide water of adequate quality be included to help in restoring, 
protecting, and preserving the South Florida ecosystem. EPA recommends 
that in doing this, applicable Federal water quality standards, 
applicable federally-approved water quality standards developed by the 
State or Indian tribes, and plans to implement the standards should be 
taken into account. The Administration's proposed legislation includes 
specific language in the assurances section and in relation to future 
regulations to ensure that water quality needs of the ecosystem are 
met.
    We believe that the Administration's proposed bill builds on the 
successes that have already been achieved and serves as an appropriate 
mandate for future efforts. For example, under the Everglades Forever 
Act (EFA), which built on the commitments in the 1991 settlement 
agreement with the South Florida Water Management District and the 
State, the implementation of best management practices in the 
Everglades Agricultural Area have achieved a four year cumulative 
phosphorus load reduction of 54 percent in waters discharged into the 
Everglades Water Conservation Areas, as reported in Chapter 5 of the 
2000 Everglades Consolidated Report. Under the EFA and the settlement 
agreement, the State also is constructing Stormwater Treatment Areas to 
filter the farm runoff further. The construction of the six STAs 
totaling 44,000 acres has begun and the two operating STAs have greatly 
exceeded their design goals. It is important to note that these 
commitments by the State were a baseline assumption in the development 
of the CERP, and that the State's future cost of meeting the water 
quality goals of these measures will not add to the total costs of the 
CERP. Another example is the completion of the Administration's 
important acquisition of the Talisman Sugar Plantation from willing 
sellers in the Everglades Agricultural Area, which involves more than 
51,000 acres, critical new restoration lands in the heart of the 
system.
    The Administration's proposed bill also requires involvement of EPA 
in the development of programmatic and project-specific regulations. 
Due to our unique ecosystem-wide perspective, we believe EPA can 
contribute to the success of the Comprehensive Everglades Restoration 
Plan and evaluation of its progress. We strongly encourage Congress to 
endorse this integrated approach.
    I would now like to talk to you about some of the specific 
challenges that remain in restoring the magnificent Everglades 
ecosystem, as well as EPA's recommendations for how WRDA 2000 can best 
provide the sound legislative underpinnings we need for this 
unprecedented effort.
               remaining challenges and future directions
    As noted earlier, the Administration's Comprehensive Everglades 
Restoration Plan offers a broad, farsighted approach, which is designed 
to increase water supplies for the region so urban and other users 
continue to get their fair share, while the natural system finally gets 
its fair share to restore and improve the condition of water quality 
throughout the Everglades ecosystem. Throughout the design, 
construction, and operation phases of the project, EPA intends to focus 
its efforts and energies on ensuring that features of the plan will 
fully comply with all Federal, State, and Tribal water quality 
standards, as well as all other applicable provisions of the Clean 
Water Act and Safe Drinking Water Act. Now I'd like to highlight how 
EPA's involvement in certain features of the plan will help promote 
water quality and contribute to restoration of the overall integrity of 
the Everglades ecosystem.
Stormwater Treatment Areas (STAs) and Water Storage Areas (WSAs)
    The Comprehensive Everglades Restoration Plan includes proposals to 
construct 36,000 acres of wetlands to treat polluted runoff from urban 
and agricultural lands. These Stormwater Treatment Areas (STAs) will be 
located throughout South Florida, and will enable us to use the natural 
filtering capability offered by wetlands in an enhanced manner to treat 
and improve both water quality and, at the same time, contribute to the 
restoration of the health of the Everglades ecosystem.
    The Comprehensive Everglades Restoration Plan also calls for 
construction of 181,000 acres of Water Storage Areas (WSAs), 171,000 of 
which will allow us to capture excess fresh water flows that now are 
drained rapidly to the Atlantic Ocean and the Gulf of Mexico. This 
valuable water, which currently is being ``lost to tide,'' will be 
captured and used to provide much-needed water for restoration of the 
Everglades ecosystem and to enhance potable water supplies for the 
people of South Florida. As with the STAs, the WSAs will render major 
water quality benefits to both inland and coastal waters and benefits 
to the wetland habitat of the Everglades ecosystem. In addition to the 
STAs and WSAs, it also will be critical to ensure the acquisition of 
the East Coast Buffer Area because of the continued threat of 
development that can affect the Everglades.
Aquifer Storage and Recovery (ASR) Facilities
    Construction of regional Aquifer Storage and Recovery (ASR) 
facilities is another important component of the Comprehensive 
Everglades Restoration Plan. When completed, the ASR facilities are 
also intended to store water during the wet season--freshwater flows 
that are currently lost to tide. ASR facilities will store these waters 
in the upper Floridan Aquifer for recovery in dry seasons--for use both 
to restore the ecological integrity of the Everglades ecosystem and to 
enhance future water supplies for urban and agricultural purposes in 
South Florida.
    WRDA 1999 authorized two large-scale pilot projects at Lake 
Okeechobee and Palm Beach County, and EPA is now involved with these 
pilot efforts in the start-up phase. EPA recognizes that the ASR 
approach is bold and entails some technical and regulatory 
uncertainties; however, we support this approach in concept and are 
fully committed to ensuring that these facilities will function in ways 
that are fully protective of South Florida's drinking water supplies 
and surface water quality. EPA is working with other Federal and State 
partners to demonstrate and assess the efficacy of ASRs. Regardless of 
the ultimate feasibility of ASR facilities, the Administration remains 
committed to finding the same amount of water storage through other 
means, if necessary. Again, I believe that the demonstrated commitment 
to adaptive assessment that this program has displayed will incorporate 
future adjustments, as needed.
Comprehensive Integrated Water Quality Plan
    Under the Comprehensive Everglades Restoration Plan, EPA and 
Florida Department of Environmental Protection (FDEP) will share the 
lead in developing a Comprehensive Integrated Water Quality Plan. This 
plan will evaluate water quality standards and criteria from an 
ecosystem restoration perspective. It will also make recommendations 
for integrating existing and future water quality restoration targets 
for South Florida waterbodies into future planning, design, 
construction, and operation activities in ways that optimize water 
quality in inland areas, estuaries, and nearshore coastal waters. The 
plan also will lead to recommendations regarding water quality 
programs, including setting priorities for developing both water 
quality standards and pollution load reduction goals.
Other Activities Related to Water Quality
    In addition to the activities associated with the Comprehensive 
Everglades Restoration Plan, which would be authorized in WRDA 2000, 
EPA is involved in a number of related activities and projects aimed at 
protecting and restoring water quality and ecosystem integrity in the 
Everglades. While time does not permit me to fully describe these 
efforts, I do want to call the committee's attention to some of the 
most important activities and the purpose of each:
    <bullet>  Florida Keys Water Quality Protection Program: EPA has 
been working with the State of Florida in conjunction with the National 
Oceanic and Atmospheric Administration (NOAA) to plan and implement 
priority corrective actions and compliance schedules to address both 
point and non-point sources of pollution in order to restore and 
maintain the chemical, physical, and biological integrity of the 
Florida Keys National Marine Sanctuary.
    <bullet>  Improving the Wetlands Regulatory Process in Southwest 
Florida: EPA has been actively involved in assisting the Army Corps of 
Engineers in finalizing a Programmatic Environmental Impact Statement 
(PEIS), intended to improve the section 404 regulatory decision-making 
process in Southwest Florida.
    <bullet>  Mercury: EPA, along with United States Geological Survey 
(USGS), the Florida Department of Environmental Protection and the 
South Florida Water Management District, and NOAA is actively engaged 
in a comprehensive mercury research program to address mercury 
contamination in the Everglades. EPA also is working with the State of 
Florida to develop a pilot mercury TMDL for a parcel of the Everglades 
ecosystem known as Water Conservation Area 3A. This effort is designed 
to determine the maximum amount of mercury that can enter the Area each 
day and still enable the waters to meet water quality standards.
    <bullet>  Phosphorus: phosphorus is still one of the chief 
pollutants that threatens aquatic life and restoration of the 
Everglades ecosystem. In May 1999, EPA approved stringent new water 
quality standards for the Miccosukee Reservation in a portion of the 
Everglades ecosystem, which, for the first time ever under the Clean 
Water Act, set a specific protective numerical standard for the 
Everglades for phosphorus. This protective standard sets a benchmark 
for how much phosphorus the ecosystem can handle before adverse impacts 
to native aquatic life begin to occur. Under the Everglades Forever 
Act, Florida is now actively engaged in developing a water quality 
standard for phosphorus for other portions of the Everglades ecosystem 
and has planned its first Everglades technical workshop on May 17. The 
State recently committed to accelerate this process and to adopt a 
scientifically-defensible standard by no later than December 31, 2002. 
EPA is providing technical assistance to the State to help meet this 
ambitious schedule.
the importance of wrda to the future health of the everglades ecosystem
    EPA fully supports the Administration's proposed Everglades 
legislation that includes specific provisions to assure that the 
benefits of the project are achieved and maintained for the life of the 
authorization. We have worked with our Federal partners to ensure that 
the WRDA legislation specifies that implementation of the Central and 
Southern Florida Project, as amended by the Comprehensive Everglades 
Restoration Plan, must occur in a manner that ensures that the 
anticipated benefits to the natural system and the human environment, 
including the proper quantity, quality, timing and distribution of 
water, are achieved and maintained.
    EPA also believes that WRDA 2000 must provide for implementation of 
the Comprehensive Everglades Restoration Plan in its totality in order 
to ensure that the desired benefits are ultimately achieved. While the 
many individual projects needed to implement the Plan in its entirety 
will be phased in over time, EPA believes that WRDA 2000 needs to 
include a framework that guarantees continuity for completing these 
highly interconnected and interdependent project features over time. 
Our joint efforts in the Everglades represent an unprecedented, 
holistic approach to ecosystem restoration, and we, as a nation, must 
commit at the outset to see this effort through to its desired end.
    The Administration's proposal contains important legislative 
assurances language that guarantees the delivery of sufficient 
quantities of clean, fresh water and ensures that the many individual 
project works and features will be designed and managed to 
appropriately deliver the water. The proposal also formalizes EPA's 
consultative role in ongoing decisions regarding projects and programs 
to ensure that the natural system and the human environment receive the 
water quality benefits intended as the Comprehensive Everglades 
Restoration Plan is implemented and incorporated into the Central and 
Southern Florida Project. EPA regards these safeguards as essential 
components of WRDA 2000, and strongly supports their inclusion in the 
authorization of this legislation.
                                closing
    Congress has played its part in the past creating the Everglades 
National Park and providing funding for the previous restoration work. 
There now is broad recognition that the Everglades are a national 
treasure and that they are severely threatened and we all must take 
action to preserve them for future generations. By authorizing the 
Comprehensive Everglades Restoration Plan as part of WRDA 2000, 
Congress can again be part of this important history.
    Mr. Chairman, that concludes my statement. Thank you for the 
opportunity to address the committee today. I will be pleased to answer 
any questions you may have.
                                 ______
                                 
   Responses of Gary Guzy to Additional Questions from Senator Smith
    Question 1. Can you comment on the desirability of wastewater as a 
source of water for the natural system?
    Response. There are numerous very successful, environmentally 
compatible wastewater-to-wetlands and direct reuse projects in Florida 
(e.g., Orlando) and throughout the United States. Under the right 
circumstances, and with the proper treatment, this approach can be very 
desirable it is certainly more desirable than losing the water to tide, 
rendering it inaccessible for future use or reuse.
    In South Florida, approximately 400 million gallons per day of 
wastewater from urban areas that comes from freshwater sources is 
either discharged into the ocean and lost to tide, or mixed with saline 
groundwater through injection wells. Since one of the principal goals 
of the CERP is to provide additional water for the Everglades 
ecosystem, the use of the readily available wastewater should certainly 
be considered. With the proper level of treatment to applicable water 
quality standards for discharge to surface waters, this can be a 
beneficial additional source of water for the natural system.
    Question 2. Why is it important to move forward with authorization 
of this initial set of 10 projects this year? Can you describe what the 
impacts of delay would mean for the ecosystem?
    Response. The initial ten projects were chosen because they will 
provide immediate system-wide water quality and flow distribution 
benefits to the ecosystem. Several of these projects will provide 
additional water storage, which is critically important to the natural 
system as well as to human users. To expedite results, some of the 
projects utilize lands already purchased (e.g., the Talisman Lands) or 
are designed so they can be coupled easily with existing features to 
increase the potential benefit (Tamiami Trail project). Several were 
selected because they use proven technologies. In sum, these projects 
were chosen specifically to jump start the restoration process by 
providing the maximum benefit to the Everglades and enhance the water 
supply for all users. Similar to the benefits that compounding interest 
provides in a financial investment, authorizing these particular 
projects at this stage will allow benefits to accrue more rapidly, 
pushing the restoration process forward.
    If these projects are delayed, the degradation of the Everglades 
will continue, and our restoration tasks will be much more difficult. 
Furthermore, without the increased water storage and water quality 
features provided by these projects, the urban population will likely 
experience water shortages and severe flood events--the existing system 
was never designed to provide water supply and flood control to even 
the level of the current population.
    Question 3. Would you be supportive of a safeguard mechanism, 
perhaps comparable to the process Congress approved last year for the 
Challenge 21 program, which would allow these projects to be 
authorized, but give the Congress appropriate oversight?
    Response. EPA would support consideration of a process comparable 
to Challenge 21 that provides appropriate congressional oversight or 
other means of review prior to construction.

  Response by Gary Guzy to an Additional Question from Senator Baucus
    Question. In your written testimony you refer to commitments made 
in the 1991 settlement agreement with the South Florida Water 
Management District and the State of Florida. Your testimony, related 
to the Stormwater Treatment Area (STA) components of the Comprehensive 
Everglades Restoration Plan (CERP), goes on to note that ``these 
commitments by the state were a baseline assumption in the development 
of the CERP, and that the state's future costs of meeting water quality 
goals of these measures will not add to the total costs of the CERP.'' 
Please expand on what is meant by this statement, particularly as it 
related to concerns that the STA components of the CERP will not be 
able to meet a phosphorus standard for the natural system of 10 ppb, 
that this will likely increase the cost of the CERP, and that the 
Federal Government will, at least partially assume responsibility for 
these additional costs.
    Response. In the 1991 Settlement Agreement, and the 1994 Everglades 
Forever Act, the state of Florida committed to the development and 
implementation of on-farm Best Management Practices (BMPs) and the 
Everglades Construction Project (STAs, now totaling 44,000 acres) with 
the absolute requirement that water delivered to the Everglades 
Protection Area will achieve all applicable water quality standards 
(WQSs) in the Everglades Protection Area by December 31, 2006 (the 
Federal settlement agreement required compliance by an earlier date, 
but in a joint motion to the court, the Federal Government and the 
state have asked that the deadlines be changed to match the 
requirements in the EFA).
    Although, at the time the EFA was written, it was unclear exactly 
how effective the STAs would be in removing phosphorus, both the BMPs 
and the STAs have greatly exceeded our performance expectations. You 
are correct that the STAs are not reaching 10 ppb. However under the 
EFA, additional research is required (and is being conducted) to 
identify technology that will reduce the phosphorous concentrations to 
acceptable levels. To improve their performance, the Water Management 
District must conduct research into optimizing the design and operation 
of the STAs. It also must identify other treatment and management 
methods that could achieve optimum water quality and quantity. To reach 
the 2006 deadline, in 2003, if water quality standards are not being 
met, the Everglades Construction Project permits must be modified to 
reach that goal. Since these requirements were present in a settlement 
agreement and state law, and the state law provided a source of funding 
for these features, the Corps assumed in drafting the CERP that these 
commitments would be fully implemented and met. Accordingly, there 
would be no additional cost to the Federal Government to meet these 
particular commitments.
    The CERP does contain a separate set of STA features (36,000 acres) 
that would be subject to the same types of permitting requirements as 
the EFA-STAs, including meeting WQSs. However, with the exception of 
two STAs that would discharge into the Everglades Protection Area 
(associated with the S-9 and S-140 pumps), the STAs required under the 
CERP are located in areas such as north of Lake Okeechobee where the 
ambient phosphorus levels are much higher then the nutrient poor 
Everglades. Therefore, based on the performance of the current STAs in 
the EAA, we do not anticipate that additional treatment beyond that 
provided by the STAs will be needed to meet the required nutrient 
loading reductions for these other areas.
    Regarding the two CERP STAs that will be discharging directly into 
the Everglades Protection Area, the EFA research is currently 
evaluating how to increase the efficiency of the STAs, and what 
additional/supplemental treatment technologies are required to reduce 
the phosphorus concentrations down to acceptable levels. Since the 
state must meet these WQS requirements by 2006, the results of that 
research and testing will be available for application to these STAs. 
Costs associated with any additional features needed to meet applicable 
WQSs on these features should be shared by all appropriate parties.

 Response by Gary Guzy to an Additional Question from Senator Voinovich
    Question. The Stormwater Treatment Areas that are being constructed 
as part of the Everglades Construction Project and the additional 
Stormwater Treatment Areas proposed in the Comprehensive Plan will 
result in significant reductions in the phosphorus levels by that there 
is not good scientific evidence that they will be able to achieve the 
long term water quality standard for phosphorus estimated at 10 ppb. 
There is currently insufficient information to estimate the additional 
costs required to meet the long term standard. In addition there are 
other unresolved water quality problems in Lake Okeechobee. If there 
are substantial additional costs associated with meeting water quality 
standards for the natural system, who should pay these additional 
costs? Should these be State of Florida costs? Shared State and Federal 
costs? If shared costs, which Federal agency should be responsible?
    Response. Both the BMPs and the STAs that were required under the 
1991 Settlement Agreement and the Everglades Forever Act (EFA) have 
greatly exceeded the performance expectations, reducing the phosphorus 
loads being discharged into the Everglades. Under the EFA additional 
research is required (and being conducted) to identify technologies 
that will reduce the phosphorous concentrations down to acceptable 
levels. Since these requirements were present in a settlement agreement 
and state law, and the state law provided a source of funding for these 
features, in drafting the CERP, the Corps assumed that these 
commitments should be fully implemented and met. Accordingly, there 
would be no additional cost to the Federal Government to meet these 
particular CERP commitments.
    The CERP does contain a separate set of STA features (36,000 acres) 
that would be subject to the same regulatory requirements, including 
meeting WQSs, as the EFA-STAs. However, with the exception of two STAs 
that discharge into the Everglades Protection Area (S-9 and S-140), 
most of the STAs required under the CERP are located in areas where the 
ambient phosphorus levels are much higher than the nutrient poor 
Everglades. Although there are no numeric phosphorus criteria for these 
areas, information gathered from these areas indicate that, based on 
the performance of the STAs in the EAA, additional treatment beyond the 
STAs will not be needed to meet the nutrient load reduction 
requirements.
    Regarding the two STAs that will be discharging directly into the 
Everglades Protection Area, current research is evaluating how to 
increase the efficiency of the STAs, and what additional (``phase 2'') 
technologies may be needed to get down to the numeric WQS. Since the 
state must meet these WQS requirements by 2006, the results of that 
research and testing will be available for application to these STAs. 
Costs associated with any additional features needed to meet applicable 
WQSs on these features should be shared by all appropriate parties.
    Water quality in Lake Okeechobee has been the focus of research and 
restoration plans for many years. In addition to the Lake Okeechobee 
Surface Water Improvement Management Plan (SWIM Plan), and the Lake 
Okeechobee Issue Team Report (the Lake Okeechobee Action Plan), EPA has 
proposed a total Maximum Daily Load (TMDL) for phosphorus in the lake 
and the state is working on its own phosphorus TMDL. This year, the 
state also passed a Lake Okeechobee restoration bill that includes a 
source of funding for projects chosen to help restore the lake. Some of 
the proposed CERP projects for this year are in the Lake Okeechobee 
watershed and should start the process of moving restoration forward. 
All of these efforts will help restore the water quality of the lake.

   Responses by Gary Guzy to Additional Questions from Senator Crapo
    Question 1. What is the expected water quality impact on the 
ecosystem of the changing nature of water flows in the restoration 
plan?
    Response. One of the primary goals of the CERP is to restore the 
historical natural hydropattern (the timing and distribution of flows) 
and quantity of water delivered to the Everglades ecosystem. Where 
there used to be a natural annual cycle of water flowing through the 
system, it has been intercepted and diverted during most rain events, 
so the water never reaches the ecosystem. Restoring the timing and the 
quantity of the historic flows will also have a definite positive 
effect on the water quality of the region by allowing the natural 
system to function again as an ecosystem, tempering the flows through 
it, filtering the water, and maintaining the appropriate water quality 
in the system.
    A pervasive ecological/water quality problem in South Florida is 
the pulse flows of huge quantities of fresh water to estuaries during 
wet periods which result in extreme salinity fluctuations and place 
tremendous stress on the biological community residing in those 
estuaries. The above ground storage facilities proposed in the CERP 
would first function to capture large volumes of wet season freshwater 
flows that would otherwise be directly discharged to the estuaries. The 
waters could then be released at a later time in a more gradual manner 
such that the salinity fluctuation experienced by the estuaries would 
be significantly reduced. For example, with the above ground and ASR 
storage facilities proposed in the Lake Okeechobee area, the 
problematic pulse flows currently experienced by the Caloosahatchee and 
St. Lucie estuaries are projected to be virtually eliminated.
    Another benefit of the increased ability to store water is the 
ability to allow water levels in Lake Okeechobee to be lowered, which 
will help restore the littoral zones in the lake and improve water 
quality within the lake. For years the lake has been used to store 
excess water, increasing its average depths. The water storage aspects 
of the CERP will provide an alternative to using the lake for this 
purpose.
    Question 2. What is the expected water quality impact on the 
ecosystem of the use of ASR units?
    Response. The ASR wells proposed in the CERP will have a positive 
impact on water quality of the ecosystem by helping to restore the 
ability of the system to store excess water during the wet season for 
use during the dry season. Because a large amount of the Everglades 
Ecosystem has been lost to urban and agricultural development, and 
South Florida has been so extensively ditched and drained, it has lost 
a significant amount of its capacity to store water such that, in 
general we either have too much fresh water during the wet season or 
too little water during the dry season. During the wet season, the C&SF 
system is operated to rapidly drain off excess water. Because this 
water is rapidly drained to tide, the estuaries are damaged by the 
fresh water, and during the dry season there sometimes isn't enough 
water to satisfy all of the urban, agricultural, and natural system 
needs of the region. As the area grows these extremes will be 
exacerbated without the above ground and ASR wet season water storage 
components proposed in the CERP. By storing water during the wet season 
and releasing it to the ecosystem when it is needed to restore the 
natural hydropattern, the water quality of the Everglades system will 
be improved and the damaging releases of fresh water through the 
estuaries will cease.
    As noted above, another benefit of the increased ability to store 
water that the ASR wells will provide is the ability to allow water 
levels in Lake Okeechobee to be managed at a lower level. This will 
help reestablish a healthy littoral zone and improve water quality 
within the lake.
    Question 3. What is the expected water quality impact on the 
ecosystem of the changes in activities in the current Everglades 
Agricultural Area and surrounding Water Conservation Areas?
    Response. The water quality impact from changes in the activities 
in the EAA and surrounding WCAs will be positive, helping to restore 
the Everglades ecosystem. The water quality of the discharges from the 
Everglades Agricultural Area (EAA) into the Water Conservation Areas 
(WCAs) was first addressed in the 1991 Settlement Agreement and the 
Everglades Forever Act. Under these programs, the implementation of 
BMPs on the EAA farms, the construction of 44,000 acres of Stormwater 
Treatment Areas (STAs) in and around the EAA, and the possible use of 
additional technologies, will result in the discharges into the WCA's 
area from the EAA achieving water quality standards by 2006. Relying on 
full implementation of these requirements by the state, the CERP, 
through the construction of Surface Water Storage Reservoirs on EAA 
lands providing additional water storage, will allow for more flexible 
water management, the restoration of the natural hydroperiod of the 
ecosystem, and additional improvement in water quality, while also 
providing water for other existing users.

   Responses by Gary Guzy to Additional Questions from Senator Graham
    Question 1. This morning we discussed with the state their progress 
on setting water quality standards. Can you describe from EPA's 
perspective the water quality issues in the Florida Everglades and 
explain how the Restudy will maintain appropriate levels of 
contamination throughout the system?
    Response. Major water quality concerns in the Everglades, as noted 
in the testimony already provided, include phosphorus enrichment and 
mercury contamination. A tremendous amount of effort is underway to 
address the issue of phosphorus enrichment of the Everglades. Other 
parameters of concern include specific conductance in water discharged 
to Loxahatchee National Wildlife Refuge, and detection of pesticides at 
various locations. The Restudy does not directly address the mercury 
contamination issue.
    Several components of the CERP will result in improved water 
quality conditions. Over 36,000 acres of treatment wetlands, in 
addition to those currently being constructed as required by the 
Everglades Forever Act, will be constructed to treat urban and 
agricultural water before discharge into public waters. Additionally, 
172,000 acres of stormwater storage areas are proposed. Although these 
areas will be managed primarily to store water, they will 
simultaneously provide some water quality improvement. This will help 
water quality in several water bodies, including the Everglades, Lake 
Okeechobee, and the estuarine areas.
    Water quality protection and restoration is an essential component 
of the CERP. It is not possible to get the water right without 
simultaneously assuring that water quality is adequate for meeting 
environmental, urban, and agricultural needs. The CERP assumes that 
Florida's effort under the 1991 Settlement Agreement and the EFA to 
control phosphorus loading to the Everglades is successful by 2006, and 
other appropriate remediation projects are put in place by state or 
local governments (e.g. SWIM Plans, permitting programs, TMDL's).
    Question 2. Can you describe the impact to the Everglades and 
surrounding ecosystems if we move forward with this project?
    Response. The implementation of the CERP will provide system-wide 
water quality and flow distribution benefits to the ecosystem and 
enhance the water supply for all users. It will allow the remaining 
Everglades to be restored, providing habitat for the numerous species 
of animals that depend upon it, while providing for urban and 
agricultural flood control and water supply for years into the future.
    Question 3. Can you describe the impact to the Everglades and 
surrounding ecosystems if we do not move forward with this project?
    Response. If these projects are delayed, the degradation of 
Everglades and the estuaries will continue, the Everglades as we know 
them today will cease to exist, and our restoration tasks will be much 
more difficult. Also, without the increased water storage and water 
quality features provided in the CERP, the urban population will likely 
experience water shortages and severe flood events the existing system 
was never designed to provide water supply and flood control to current 
population levels. If there is an extended drought, the ecosystem will 
suffer even more. Over time, as competition for scarce water supplies 
increases, even tougher decisions will need to be made over whether 
water is used for the natural system, agriculture, or urban uses.
    Question 4. One of the pilot projects submitted for authorization 
is a wastewater reuse pilot. Can you describe how this relates to 
wastewater treatment projects that are funded through the SRF?
    Response. The CERP includes two advanced wastewater treatment 
facilities to increase the water available to restore the ecosystem. 
The pilot project is intended to test the technology and assess the 
costs associated with these proposed facilities. The pilot project is 
designed to address water quality issues associated with discharging 
reclaimed water into natural areas such as West Palm Beach's Catchment 
Area, Biscayne National Park, and the Bird Drive-Everglades Basin 
wetlands, as well as determine the appropriate level of treatment and 
methodologies for that treatment. It includes a small advanced 
wastewater treatment facility to treat wastewater currently injected 
into a deep well. The capital costs of upgrading the current wastewater 
treatment plants to produce the quality of reclaimed water suitable for 
discharge would be eligible for SRF funding provided the plant 
modifications are completed in a cost-effective manner and the level of 
treatment provided is necessary to comply with water quality standards. 
The State of Florida prioritizes projects for Clean Water SRF loans. 
O&M costs for wastewater treatment plants are a local responsibility 
and are not eligible for SRF funding.
    The treatment plants ultimately proposed for upgrading/construction 
include the current domestic wastewater treatment plant serving the 
southern portion of Miami-Dade County, and a new domestic wastewater 
treatment plant proposed to serve western Miami-Dade County. The 
existing facility currently provides secondary treatment and discharges 
to a series of deep injection wells. In order to produce the quality of 
reclaimed water suitable for discharge to Biscayne Bay, which is 
classified as an Outstanding Florida Water, significant plant upgrades 
would be necessary at the existing facility. Reclaimed water produced 
at the proposed new facility would also have to be of very high quality 
since the water would be discharged to sensitive Everglades quality 
wetlands; therefore, the new facility must be designed to provide a 
highly advanced degree of treatment.
    The purpose of the proposed wastewater treatment discharges is to 
provide clean freshwater to the environment during the dry season when 
the other restudy components will not have enough extra water available 
for the Biscayne Bay/Everglades restoration effort.
    Question 5. One of the issues that arose at the field hearing in 
Florida was related to Combined Sewer Overflows. Does Florida have any 
Combined Sewer Overflow systems?
    Response. We are not aware of any Combined Sewer Overflows (CSO's) 
in the State of Florida. Unlike most northern cities, the sanitary 
sewer systems in Florida are relatively new and were constructed as 
separate systems. Some time ago the City of Sanford had a combined 
sewer system which was, in fact, problematic with respect to downstream 
water quality. Through the use of Construction Grants and local funds, 
those systems were separated a number of years ago.
    Approximately 10 years ago a problem with Sanitary Sewer Overflows 
(SSOs), compounded by a minor contribution from a small area with a 
Combined Sewer System, was identified in the Metropolitan Miami area. 
These problems are currently being corrected as a result of a Federal 
Consent Decree and a State of Florida Settlement Agreement with the 
Miami-Dade County Water and Sewer Authority.
    Due to the density of development expected with the projected 
population increases over the next 50 years, we anticipate that most of 
this development will be served by new or expanded separate sanitary 
sewers. However, in some of the more isolated or less densely developed 
areas, wastewater treatment and disposal using septic tanks serving 
single family homes will also undoubtedly occur. Construction of 
combined sewers is not allowed under state law. Construction and 
operation of the wastewater collection, treatment and disposal systems 
to serve this expanded population will, as usual, continue to be 
expensive and challenging especially with regard to how the treated 
wastewater will be reused or disposed of.

    Responses by Gary Guzy to Additional Questions from Senator Mack
    Question 1. Do you support applying section 902 of the 1996 Water 
Resources Development Act to all features of the Comprehensive Plan 
before us today? [This provision requires a Congressional Review if a 
project exceeds 120 percent of authorized cost].
    Response. Yes, we support the Corps' position that would apply the 
section 902 requirement for congressional review if the cost of a 
project exceeds 120 percent of the authorized cost.
    Question 2. Do you support congressional committee review and 
approval of the feasibility level of engineering and design work before 
any construction can begin on the initial suite of ten projects in the 
Comprehensive Plan?
    Response. EPA would support further discussion on congressional 
review or other means of reviewing the Project Implementation Reports 
prior to commencement of construction on these projects. We believe the 
initial suite of ten projects is critical to moving the restoration 
process forward while enhancing the existing water supply and flood 
protection needs of the region. These projects were chosen because they 
provide immediate system-wide water quality and flow distribution 
benefits to the ecosystem. To expedite the realization of results, some 
of these projects utilize lands already purchased (the Talisman Lands) 
or can be coupled easily with existing features to increase the 
potential benefit (Tamiami Trail project). These projects were 
specifically chosen to jump start the restoration process by providing 
the maximum benefit to the Everglades and enhance water supply for all 
users. If these projects are delayed, the degradation of Everglades 
will continue, and our restoration tasks will be much more difficult. 
Without the increased water storage and water quality features provided 
in these ten projects, the natural system will continue to be degraded, 
and the urban population will likely experience water shortages and 
severe flood events.
    Question 3. Do you support requiring full feasibility studies 
before any other projects are authorized under the Comprehensive Plan?
    Response. EPA supports the Administration's legislative proposal 
that requires the completion of Project Implementation Reports prior to 
congressional authorization for remaining projects not included in the 
initial suite of projects.
    Question 4. Do you support modifying the definition of the South 
Florida Ecosystem to make clear the system includes the lands and 
waters within the boundaries of the South Florida Water Management 
District as they existed on July 1, 1999?
    Response. EPA supports the modification the definition of the South 
Florida Ecosystem to include the reference to the boundaries that 
existed on July 1, 1999.
    Question 5. Do you support a provision making clear the Corps of 
Engineers is only authorized to study the question about providing an 
additional 245,000 acre feet of water to the natural system?
    Response. We believe that the Chief Engineer's Report should be 
part of the authorization, but consistent with the positions of Chief 
of Engineers Ballard and Assistant Secretary of the Army Westphal, the 
Corps has only committed to study the question of the additional 
245,000 acre feet of water. Upon completion of this evaluation, the 
Corps should then provide a report for authorization. We would support 
a legislative clarification that comports with this process.
    Question 6. Do you support language making clear that the Corps 
must work with the state of Florida to ensure that all groundwater 
discharges resulting from the Comprehensive Plan meet all applicable 
water quality standards and water quality permitting requirements?
    Response. EPA supports language that indicates that the Corps must 
work with the state of Florida to ensure that all groundwater 
discharges resulting from authorized features in the Comprehensive Plan 
meet all applicable water quality standards and applicable water 
quality permitting requirements.
    Question 7. Do you support replacing the project purposes language 
stated in (c)(1) of the administration's draft with language restating 
the purpose of the Comprehensive Plan developed and passed in WRDA 
1996?
    Response. Yes, EPA supports restating the language from WRDA 1996 
concerning the purpose of the Comprehensive Plan.
    Question 8. Do you support additional programmatic authority for 
the Corps to construct projects of limited cost but are in keeping with 
the Plan's purposes and have independent and substantial benefit to the 
Everglades restoration?
    Response. Yes. The success of the CERP will depend on the ability 
to use adaptive management to build projects in response to information 
gathered during the CERP implementation. Allowing projects of limited 
costs to be authorized under the programmatic authority fits within the 
requirements of NEPA and will allow the Corps to expeditiously develop 
remedies as the need arises.
    Question 9. Do you support a 50/50 cost share between the Federal 
Government and the State of Florida on operation and maintenance of the 
project? If not, please state the cost share you believe to be 
appropriate and why?
    Response. Although the Water Resources Development Act of 1996 
requires that operation and maintenance costs for the Central and 
Southern Florida Project be the responsibility of the local sponsor, 
the Administration proposes that the costs be split 60 percent non-
Federal and 40 percent Federal. The Agency believes that this 
allocation represents the amount of Federal lands that will benefit 
from the Comprehensive Plan.
    Question 10. Please provide your thoughts on the definition of 
Project Implementation Reports found in the Administration's language. 
Do you support this definition? If not, please provide suggestions as 
to how you would define these reports?
    Response. EPA supports the Administration's language defining 
Project Implementation Reports.
    Question 11. Do you believe the Department of Interior and the 
State of Florida should be on equal footing in developing any 
regulations related to assurances? If not, why?
    Response. We believe that the State of Florida should be a full 
partner in the implementing of the CERP. At the time the proposed 
legislation was transmitted, the Federal agencies involved in this 
effort had constitutional concerns over providing the State of Florida 
with a concurrence role over the Federal programmatic regulations that 
are proposed to be developed to determine the appropriate quantity, 
quality, timing and distribution of water for the natural system so 
that it will be restored consistent with the Comprehensive Plan. Upon 
further review, the Administration now believes it is appropriate to 
provide the Governor of Florida with the opportunity to concur on the 
Secretary of the Army's programmatic regulations to ensure that the 
goals and purposes of the Plan are achieved.
    Question 12. Do you support the reporting requirement in the 
administration's bill? If not, how would you amend the reporting 
requirement?
    Response. EPA supports the reporting requirement as stated in the 
Administration's bill requiring reports be submitted to Congress no 
less than every 5 years through 2036.
                               __________
 Statement of Ken Keck, Director of Legislative and Regulatory Affairs 
                         Florida Citrus Mutual
                              introduction
    Mr. Chairman, members of the committee, my name is Ken Keck, and I 
am employed by Florida Citrus Mutual as Director of Legislative and 
Regulatory Affairs. Florida Citrus Mutual is a voluntary grower 
association comprised of 11,500 members growing citrus on over 800,000 
acres throughout central and south Florida. While not historically the 
case, today more than one-half (400,000) of all the citrus acreage in 
Florida is within the boundary of the Restudy. Obviously not all of 
this acreage is directly impacted, but much of it is, so the Florida 
citrus industry has a significant stake in the deliberations 
surrounding how the ``re-plumbing'' of the natural system is 
accomplished.
    Let me start by assuring the committee that we, like you, are 
committed to restoring the Everglades. We have supported the 
Comprehensive Everglades Restoration Plan because it offers the promise 
of accomplishing our restoration goals without sacrificing the property 
and capital investments citrus growers have made throughout central and 
south Florida.
    In developing the views presented today, I have attempted to 
represent the consensus of the agriculture community in the region, 
like citrus growers, who will be impacted by the Restudy. Indeed, the 
substance of my testimony results from a collaborative effort of the 
South Florida agricultural sector. These same groups would like to 
express their appreciation to Senators Graham and Mack for the 
leadership shown in Everglades legislation.
    Further, allow me to thank the committee for holding this hearing 
on the Administration's proposed Comprehensive Everglades Restoration 
Plan provision contained in S.2437, the Water Resources Development Act 
of 2000.
    I will summarize my remarks and ask that my prepared statement be 
included in the hearing record.
    The Central and Southern Florida Project is one of the world's 
great engineering accomplishments and has been critical to the 
development of a large and vibrant agricultural economy that benefits 
every consumer in America. In addition, it has allowed millions of 
people to live along the coasts of Florida with the security of 
reliable water supply and flood protection. Unfortunately some elements 
of the project, as well as project-induced economic activity, have 
adversely affected the natural environment. We fully recognize the need 
to protect and restore the ecosystem's natural functions and values 
while continuing to provide for the other purposes of the project.
    Florida agriculture has participated extensively in the Federal/
State Restudy process that has produced the Comprehensive Plan and we 
expect to continue to participate as the process moves forward. We are 
prepared to support major improvements to the water management system. 
However, we believe that the importance of Everglades Restoration and 
the other vital project purposes demand that project modifications be 
based on sound science, be the product of objective analysis, and be 
implemented in an orderly way that ensures that the needs of existing 
landowners and businesses are met.
                      overview of senate bill 2437
    Because of their precedent-setting nature, the policy issues raised 
by S. 2437 should be the concern of every member of this committee and 
the Congress. The Comprehensive Everglades Restoration Plan is the 
first large Federal water project with ecosystem restoration as its 
primary objective. Similar efforts are being planned across the nation. 
Because ecosystems are the result of complex interactions between human 
activity and natural processes, restoration projects require actions on 
many fronts and at many levels of government. Decisions on distribution 
of cost burdens and determinations of responsibility for restoration 
activities will be major policy issues across the nation. The 
Comprehensive Plan raises, either explicitly or implicitly, all of 
these issues.
    Florida agriculture is profoundly disappointed with the 
Administration's bill. We would like to see the committee make a fresh 
beginning rather than attempt to modify this fundamentally flawed 
document. Not only does the Administration persist in seeking 
Congress's approval of projects that have had no feasibility studies 
and to undo the balanced purposes of the existing Central and Southern 
Florida (C&SF) Project, it also seeks unprecedented Federal authority 
to manage Florida's water resources.
    This statement summarizes our broad concerns with S. 2437. In 
addition, we have specific problems with definitions used in the bill 
and the wording of many other provisions. We are prepared to work with 
the committee and its staff to make suggestions regarding specific 
language changes as the committee moves toward drafting its 
legislation. Indeed, the ag groups I speak for today are committed to 
developing a WRDA bill, which we believe would move the process of 
Everglades restoration forward this year.
       eight problems with the everglades provisions of s. 2437.
    Problem 1. The bill eliminates the balanced purposes for the 
existing and modified Central & Southern Florida Project that were re-
affirmed in WRDA 96. When modified as proposed by the Comprehensive 
plan, the C&S Florida Project will supply sufficient water for all 
future natural and human water uses until 2050. There is no reason to 
afford one purpose priority over another. Even though the primary 
purpose of this Comprehensive Plan is ecosystem restoration, it is 
essential to reaffirm that the C&SF Project, after modification by this 
plan, must, and will still provide all the other purposes for which it 
was originally authorized and constructed. A commitment to improving 
the present level of flood protection wherever possible as individual 
project elements are designed and built would greatly enhance taxpayer 
support for this plan.
    Problem 2. The assurance provisions preempt Florida law governing 
water allocations and reservations and preclude comprehensive water 
management by the local sponsor. They fundamentally alter current 
Federal policy. These provisions establish unprecedented Federal 
authority and control of water quality and quantity.
    The issue of assurances is rightly a concern of all interests 
affected by this project. These include the Federal taxpayer concerned 
that the intended purposes of Federal expenditure will be achieved. 
Environmental agencies and the public want assurances that the water 
for the ecosystem will not be diverted to economic purposes. Finally, 
existing water users fear that their present water supplies will be 
reallocated under the Comprehensive Plan to restoration purposes before 
suitable replacement supplies are in place.
    These vital assurances should be provided based on the Project 
Implementation Reports for each project component under the Plan. Using 
the information contained in these reports, the Secretary of the Army 
and the local sponsor, can enter into agreements, consistent with State 
law, that would fully respond to the concerns of all parties. First, 
these agreements can allocate and reserve the new water supply made 
available by a project component. Second, they can specify any other 
benefits such as flood control. Third, they can establish the operating 
guidelines necessary to provide the water supply allocations and other 
benefits. Under this approach, there is no usurpation of State power, 
and assurances can be made based on scientific information and 
knowledge of the outputs and performance of each project component.
    Problem 3. The bill's provisions regarding Project Implementation 
Reports seriously undermine the usefulness of the Reports and are 
inconsistent with the description of those Reports in the Comprehensive 
Plan. These provisions are also inconsistent with representations by 
the Corps that the Reports will contain all the information needed for 
a full feasibility report and more. These Reports provide an 
opportunity to address assurance issues with a more complete decision 
making document.
    Congress should affirm the language in the Final April 1999 Restudy 
Document regarding the content of these Reports and should affirm that 
the Reports should meet the requirements of the U.S Water Resources 
Council's Principles and Guidelines. If this is done, the Reports will 
provide all information needed to (1) support congressional 
authorization, (2) obtain approval under State law, and (3) answer all 
questions regarding the allocation of benefits and achievement of 
Project and Comprehensive Plan purposes for both Federal and State 
taxpayers and their elected representatives.
    Problem 4. The bill authorizes specific project components and 
undefined other components that are ``consistent with the plan''. These 
are all project components whose value, cost-effectiveness and benefits 
have not been demonstrated by feasibility level engineering, economic 
and environmental studies. There are no reliable cost estimates on 
which to base authorization for appropriations.
    Restoration projects should have to meet the standards expected of 
other Civil Works projects. We strongly believe Congress should 
authorize construction of project modifications only after it has been 
able to review a completed and fully coordinated Project Implementation 
Report. This principle has been affirmed twice within the last year by 
the Administration, and we find no reason to abandon it in the case of 
this particularly complex plan that relies on incomplete science and 
untested technology.
    The signing statement issued when President Clinton approved the 
Water Resources Development Act of 1999 on August 17, 1999, less than 9 
months ago, complained that ``many of its project modifications are 
still in the planning stage or undergoing review and, therefore, simply 
are not ready for authorization at this time. Until the completion of 
the review required for proposed Federal water resources projects under 
Executive Order 12322, neither the Executive branch nor the Congress is 
likely to know which of these projects will raise significant concerns 
regarding their scope, economic and technical feasibility, 
environmental acceptability, or the ability of local sponsors to 
provide the required cost-share.''
    The Assistant Secretary of the Army for Civil Works, in his 
statement on the Water Resources Development Act of 2000 submitted on 
March 22, 2000, less than 2 months ago, to the Water and Environment 
Subcommittee of the Transportation and Infrastructure committee of the 
United States House of Representatives stated: ``In light of 
constrained Federal dollars, we must assure the public that projects 
authorized for construction have completed the planning process, have 
passed a full Agency and Administration review, and are in accord with 
the Federal laws and policies established to protect the environment.''
    South Florida agriculture strongly endorses the principle of 
``finishing the analysis before authorizing construction.'' We urge 
that it be applied to the projects that will be authorized under the 
comprehensive plan. Because no feasibility studies have been completed 
or in some cases, even initiated, Congress should not authorize any 
individual projects for construction and should not authorize the 
proposed program authority allowing the Secretary of the Army to 
implement projects requiring up to $35 million in Federal 
appropriations, especially in light of the fact that the 
Administration, as reflected in S.2437, desires to proceed ahead of the 
science and the analysis.
    Problem 5. The bill references the Chief's Report of June 22,1999 
that includes additional commitments that were not part of the Plan 
reviewed in consultation with the State and included without notice or 
opportunity for public comment. If implemented, these conditions would 
have substantial adverse impacts on State interests and substantially 
increase project costs.
    We take particular exception to the further commitments contained 
in paragraph 31 of the Final Chief's Report. Among the most egregious 
of these commitments was one to: ``deliver additional water 
(approximately 245,000 acre-feet to Everglades National Park and 
Biscayne Bay) either by capturing additional runoff from urban areas or 
by some other means.'' This amount of water, some 79,000,000,000 
gallons annually, represents a 20 percent increase in the total amount 
of water supplied by the plan, or alternatively, virtually all of the 
water that is supplied by the plan to non-environmental purposes. There 
are no facilities in the plan to do this and the costs of the necessary 
features are not included in the estimated total cost of the plan.
    These changes in a final Chief's report were made without 
consulting the State of Florida or the local sponsor and without any 
documented analysis or public review and are unprecedented. Florida 
agriculture would like all references to the Chief's Report deleted 
from the Bill. This will confirm that the Plan we recommend Congress 
approve as a guideline and framework for future project components is 
based on the Recommended Plan in the April 1999 Jacksonville District 
Engineers Report.
    Problem 6. The bill approves the Comprehensive Everglades 
Restoration Plan in a manner that changes the meaning of the Plan as 
presented to the people of Florida for the past 2 years.
    S. 2437 goes well beyond what was anticipated by the Restudy. The 
Final Integrated Report, April 1999, produced by the Jacksonville 
District of the Corps states that the Comprehensive Plan ``will serve 
as a framework and guide for modifications to the C&SF Project.'' S. 
2437 states: ``Congress hereby approves the Comprehensive Everglades 
Restoration Plan to modify the Central and Southern Florida Project to 
restore, preserve and protect the South Florida Ecosystem.'' In our 
view, this language would fundamentally change the authorized purposes 
of the C&SF Project and eliminate the balanced multiple purposes 
affirmed as recently as the Water Resources Development Act of 1996, 
which authorized development of the Comprehensive Plan. As stated 
above, Florida agriculture recommends that Congress affirm the balanced 
purposes of the project and modify the project only in conjunction with 
authorization of new project components based on completed feasibility 
studies. Congress should approve the Comprehensive Plan as a guide and 
framework for a continuing planning process leading to formulation of 
the new C&SF Project components. Moreover, Congress should require 
periodic updates of the Comprehensive Plan at the time further 
congressional authorizations are requested.
    Problem 7. The bill acknowledges the need for but does not provide 
a full and equal partnership between the State and Federal Governments.
    In the sections dealing with assurances, the Federal agencies would 
assume unprecedented responsibilities for water allocation. South 
Florida agriculture recommends that Congress object to a dangerous 
national precedent and delete provisions by which Federal allocation of 
water would preempt State law. Further, Congress should authorize (1) 
equal cost sharing of the C&S Florida project including construction of 
project components and operations and maintenance, and (2) equal 
decision-making authority between the Secretary of the Army and the 
South Florida Water Management District, the project's sponsor, in the 
establishment of operating protocols in Project Implementation Report 
agreements.
    Problem 8. Compliance with water quality requirements is not 
ensured. A major shortcoming of the Comprehensive Plan is its failure 
to fully integrate water quality considerations. The Restudy itself 
calls for a Comprehensive Integrated Water Quality Plan feasibility 
study.
    The Comprehensive Plan is just one element of a much larger effort. 
The South Florida Ecosystem Restoration Task Force has promised a 
strategic plan this summer that will attempt to identify more of the 
cost elements and to integrate the many on-going activities at the 
Federal, State and local level. It is widely acknowledged that 
achieving water quality objectives will cost several billion additional 
dollars. Restoration requires both water quality and quantity 
objectives be met, and water quality considerations will play a major 
role in the feasibility of many of the Comprehensive Plan's components. 
Accordingly, Congress should require that, prior to authorization, 
project components include the features necessary to ensure that all 
discharges meet applicable water quality standards and water quality 
permitting requirements.
                               conclusion
    We hope the committee finds our recommendations for congressional 
action on the Comprehensive Plan to be constructive and responsible. We 
reiterate our willingness to work with the committee staff in the 
development of appropriate legislation.
    The Corps of Engineers study was abbreviated in both scope and 
depth to ensure that the July 1, 1999, deadline for transmission of the 
comprehensive plan to Congress could be met. While referred to as a 
feasibility report, the Central and Southern Florida Project 
Comprehensive Review Study does not contain the engineering, real 
estate, economic and environmental analyses that normally support 
recommendations for authorization of Civil Works projects. Moreover, 
there simply was not sufficient time to integrate water quality and 
quantity considerations or to make the usual calculations of the 
economic benefits and costs associated with the Comprehensive Plan.
    In addition to abbreviated engineering and other data collection 
and analytical shortcuts, there is an extraordinary level of 
uncertainty with this plan because of its reliance on undemonstrated 
technologies and the evolving understanding of the science of ecosystem 
restoration. These uncertainties are frankly acknowledged in the report 
in the following ways: 1) the clear statement that the ecological 
changes that will occur in the Everglades as a result of the Restudy 
cannot be forecast at this time, 2) the recommendation for construction 
of $100 million in pilot projects to demonstrate the technology, and: 
3) the commitment to the principle of ``adaptive management.''
    The Administration has taken the important step of contracting with 
the National Research Council of National Academy of Sciences to form 
an advisory committee. The Committee on Restoration of the Greater 
Everglades Ecosystem will provide a scientific overview and technical 
assessment of the many complicated, inter-related activities and plans 
that are occurring at the Federal, State, and local governmental 
levels. In addition, the National Research Council will provide advice 
on technical topics of importance to the restoration efforts.
    Congress needs to recognize the extraordinary scientific, 
analytical and technological uncertainties associated with the 
comprehensive plan. Extra prudence and discipline are essential in the 
authorization and implementation of this unparalleled series of massive 
investments in the future of South Florida.
    These organizations have endorsed the attached statement of 
concerns with the Administration's legislative proposal relating to 
Everglades Restoration (Section 3 of S. 2437) as of May 9, 2000.
    Florida Farm Bureau
    Florida Citrus Mutual
    Gulf Citrus Growers Association
    Sunshine State Milk Producers
    Florida Fruit and Vegetable Association
    Florida Fertilizer and Agri-Chemical Association
    Florida Sugar Cane League, Inc.
    Sugar Cane Growers Cooperative of Florida
    Miami-Dade County Farm Bureau
    Palm Beach County Farm Bureau
    Western Palm Beach County Farm Bureau
    Lake Worth Drainage District
                                 ______
                                 
   The Position of the Agricultural Advisory Committee to the South 
 Florida Water Management District Concerning the C&SF Restudy Adopted 
                     Unanimously, November 24, 1998
    Modifications to the Central and Southern Florida Flood Control 
Project are needed to meet the water related needs of the region (water 
supply and flood control) and Ecosystem objectives.
    The Committee supports the overall goals of the Draft Conceptual 
Plan, but believes this plan should be used as a guide and should not 
be presented for congressional approval in its present form.
    The Committee supports moving forward with the Pilot Projects and 
Early Action items identified in Section 10 of the Draft Plan.
    The Committee supports an accelerated program to answer other key 
technical questions such as the effectiveness of seepage barriers, 
aquifer storage and recovery systems, above ground reservoirs and 
various other components.
    Major project elements must have complete engineering, 
environmental and economic evaluation with an opportunity for public 
review and comment before congressional authorization is sought.
    Land acquisition should come after congressional authorization, 
from willing sellers whenever possible, using the state imminent domain 
process when condemnation is required.
    The proposed feasibility study on system-wide water quality should 
be integrated into the Comprehensive Plan. Water quality and hydrology 
should be looked at in tandem.
    Water supplies for existing users must be protected while new 
technologies are being developed and implemented. (See water assurance 
language.)
    A financing plan, including all expected costs, that is well 
understood by the state and Federal partners as well as stakeholders 
must be developed prior to authorization.
    No less than the current level of flood protection must be 
maintained for all areas.
Water Assurance Language
    During the subsequent planning, design, construction and operation 
of projects included in the Comprehensive Plan, and any related studies 
to determine modifications to the C&S Florida Project, the South 
Florida Water Management District and Corps of Engineers will not, in 
any proceeding, transfer, limit or modify an existing source or supply 
of water necessary for an existing use until another source or supply 
of equal reliability is in place to meet that need.
                                 ______
                                 
                   Florida Department of Consumer Services,
                                 Tallahassee, FL, December 7, 1998.

Colonel Joe R. Miller,
District Engineer
U.S. Army Corps of Engineers,
Jacksonville District,
400 West Bay Street,
Post Office Box 4970,
Jacksonville, Florida 32232-0019.

Dear Colonel Miller: I want to write and share with you some of my 
initial impressions about the draft Comprehensive Review Study (Restudy 
or Comprehensive Plan) of the Central & Southern Florida (C&SF) Project 
which is currently available for public comment. Although I intend to 
submit more detailed comments prior to the close of the comment period, 
I believe my concerns are widely shared by many affected interests 
throughout the south Florida community and I thought it might be 
helpful to the Corps to have the benefit of their earliest 
consideration.
    As you are well aware, I am a strong supporter of the C&SF Restudy 
process. Modifications to the C&SF Project are clearly needed if we are 
to meet all of south Florida's future water needs, including water 
supply, flood control and ecosystem restoration.
    In support of the Restudy, the Florida Department of Agriculture 
and Consumer Services has committed staff and resources to the Corps 
Restudy teams, the Federal Working Group, and the Governor's Commission 
for a Sustainable South Florida. We have worked closely with the South 
Florida Water Management District Agricultural Advisory Committee and 
other agricultural interests throughout south Florida as the Restudy 
has evaluated alternatives and developed the draft recommended Plan. 
Through these efforts, frequent correspondence, and public testimony we 
have attempted to bring the perspective of Florida agriculture to the 
balanced Everglades restoration effort required by the Water Resources 
Development Acts of 1992 and 1996.
    The recommended alternative in the draft Restudy Comprehensive 
Plan, containing more than 60 project elements estimated to cost $7.8 
billion and take upwards of 20 years to complete, is a useful planning 
document and has my support as a guide for future action. However, 
given the many uncertainties associated with the draft Comprehensive 
Plan, I cannot support either its use as a final decisionmaking 
document or any blanket authorization in its present form by Congress.
    These uncertainties, which are directly attributable to the 
compressed time-frame for the Restudy to be completed and delivered to 
Congress, include:
    <bullet>  a dependence on regional-scale modeling, which provides 
few details on the precise location, design, and operation of project 
elements;
    <bullet>  a lack of the engineering and economic feasibility 
studies needed to justify, design, and implement individual projects;
    <bullet>  heavy reliance on unproven technologies such as Aquifer 
Storage and Recovery, seepage control, and large above ground 
reservoirs;
    <bullet>  a requirement of 250,000 acres of private land, most of 
which will probably come from agriculture, for which the location and 
the need has yet to be determined;
    <bullet>  inadequate provisions for meeting water quality 
standards;
    <bullet>  an undetermined implementation process or schedule; and
    <bullet>  lack of a funding proposal to implement project elements.
    Concern about these uncertainties in the draft Plan has been 
repeatedly expressed to me by citizens throughout the south Florida 
community. If we are to have any chance to implement such a 
technically, politically, and financially complex series of 
modifications to the water management system in south Florida, these 
concerns must be addressed. If these concerns are successfully 
addressed, then I believe we can proceed to implement the elements in 
the Restudy's recommended alternative in a manner than can receive the 
broad-based support which will be needed for an undertaking of this 
magnitude. Conversely, if these uncertainties can not be successfully 
resolved, political and financial support will be lacking and the 
Restudy will remain only a plan.
    There are several key positive steps, which would provide an 
excellent foundation for moving forward, that should be taken to 
address these uncertainties.
Formal Involvement of the Governor and the Legislature
    Implementation of the projects contained in the draft Comprehensive 
Plan will require an enormous commitment of resources and impact the 
environment and economy of Florida well into the next century. In my 
view, it is imperative that the Governor and the Legislature be 
formally and directly involved as the Comprehensive Plan is developed 
and implemented.
Assurances
    Assurances need to be provided to our citizens whose water supply, 
land, or economic future may be directly affected as the Comprehensive 
Plan is implemented. With respect to water supply, I recommend that the 
Corps endorse the following assurance to water users:
    During the subsequent planning, design, construction and operation 
of projects included in the Comprehensive Plan and any related studies 
to determine modifications to the C&S Florida Project, the South 
Florida Water Management District and Corps of Engineers will not, in 
any proceeding, transfer, limit or modify an existing source or supply 
of water necessary for an existing use until another source or supply 
of equal reliability is in place to meet that need.
    In addition, because the Plan contains elements that divert 
existing water supplies for environmental purposes, while providing 
potentially more costly replacement sources, an additional assurance to 
water users needs to be developed to provide that the costs of new or 
replacement water supplies will be equitably distributed.
    With respect to the approximately 250,000 acres of land which may 
be needed, assurance should be provided that any land acquisition will 
be based on need, as justified by sound science, including engineering 
and economics, for each project. Appropriate use of available public 
lands should be evaluated and acquisition of private property should 
only come after congressional authorization, using willing sellers 
wherever possible, and using the state's eminent domain process where 
condemnation is required.
A Defined Process for Implementing the Comprehensive Plan
    In addition to these assurances, citizens need to be comfortable 
that the process of den eloping, authorizing, and implementing specific 
projects, or groups of projects, provides an opportunity to develop the 
technical and economic feasibility information needed resolve the very 
significant uncertainties in the Comprehensive Plan. Certainly, such a 
process will not eliminate all differences among competing interests, 
but it will allow honest and informed dialog on the technical, 
economic, or environmental merits and shortcomings of Plan components.
    In order to do this, the Implementation Plan portion of the 
Comprehensive Plan should be completed and an opportunity for public 
comment provided before the Comprehensive Plan is submitted to the 
Chief of Engineers. The Implementation Plan should clearly specify a 
process which provides for the necessary engineering, environmental and 
economic feasibility studies of major project components, including 
funding and water quality considerations, with an opportunity for 
public review and comment, prior to congressional authorization. After 
the Comprehensive Plan is submitted to Congress in July 1999, I would 
support action by Congress that would clearly specify the process by 
which Comprehensive Plan components are to be authorized and 
implemented.
    Finally, I would observe that if we can reduce the uncertainties 
now present in the draft Comprehensive Plan by formally involving the 
Governor and the Florida Legislature, providing appropriate assurances, 
and developing a defined implementation process, there are many areas 
of agreement that will allow us to continue needed progress on 
modifications to the C&SF Project. In addition to broad support for the 
general direction of the draft Comprehensive Plan, there is agreement 
on the need for pilot projects and support for authorization of a group 
of early action or critical projects that are technically and 
economically feasible and provide immediate benefits. Given the fact 
that it may be possible to quickly gain consensus on pursuing 
authorization of several hundred million dollars in projects, we should 
be able to maintain momentum in implementing the Comprehensive Plan 
while completing the engineering, economic, and environmental 
evaluations needed to support funding and authorization of future 
project elements.
    I hope these suggestions are useful as you move forward with 
development of your final recommendations for Congress. Many dedicated 
individuals from widely varying interests have devoted countless hours 
to the success of the Restudy and the quality of the final product is a 
reflection of the excellent leadership provided by the Army Corps of 
Engineers. I commend you for a job well done, and look forward to 
continuing to work with you as the final Comprehensive Plan is 
developed and implemented.
            Sincerely,
                 Bob Crawford, Commissioner of Agriculture.
                                 ______
                                 
                                   Dade County Farm Bureau,
                                  Homestead, FL, December 29, 1998.

Colonel Joe Miller,
District Engineer, Jacksonville District,
U.S. Army Corps of Engineers,
P.O. Box 4970,
Jacksonville, FL 32232.

Dear Colonel Miller: This letter is in response to the Draft Integrated 
Feasibility Report of the Comprehensive Review Study. The Dade County 
Farm Bureau has approximately 6,000 members representing over 80,000 
acres of high value agriculture in the same county with the highest 
population in the state. We want to thank you for holding a public 
hearing in our community and would like to recognize the technical 
staff who have worked so hard to put this report together.
    Trying to keep up with all the Corps of Engineers' reports that 
have affected our area for the part 5 years has been difficult and 
frustrating for our organization. We have had the C-111 GRR, which led 
to the government acquisition of 10,000 acres of our best farmland and 
cost our community thousands of jobs; Tests 6 and 7 of the Experimental 
Program which have raised our water table and contributed to further 
crop damage on private property, and the Sparrow Emergency last year 
which resulted in the south Dade canal system being used as an outlet 
for flood releases from Water Conservation Area 3-A.
    During all of these projects, agriculture has been viewed as an 
obstacle to restoration rather than an opportunity to maintain a 
meaningful buffer between the Everglades and urban development. Flood 
protection for private property has been sacrificed in a never-ending 
struggle to satisfy the evolving demands of the Department of the 
Interior. The Restudy seems to continue this theme.
    Our organization does not have the time or the resources to review 
the 3500 page report in the few weeks that have been made available. 
These are our preliminary comments. Please see that we are included in 
future reviews as more detailed information becomes available.
    1. This plan is obviously conceptual and does not contain enough 
information to make an informed decision on whether many of the 
components of the plan should be approved. Congress should not be asked 
to approve any significant element of this plan until enough credible 
detail is provided to judge the costs and the benefits of the action.
    2. The 2050 Base Case, considered the Future Without Project 
Scenario for this study, assumes the C-111 Project is operational. The 
hydrologic modeling of this scenario shows a significant increase 
flooding east of L-31N and C-111. This is totally unacceptable. That 
project was designed so protection of private property east of the C-
111 and L-31N canals would be compatible with the hydrologic needs of 
the Park. The 2050 Base scenario should be changed to reflect the 
proper operating levels for the C-111 project. Operating structures as 
they are in the model of the 2050 Base would violate every assurance we 
were given during the C-111 GRR process that the land east of the 
canals would not be harmed by the C-111 Project. We brought this to the 
attention of the Restudy Team during the plan development phase and are 
disappointed that it was not corrected. Please correct this problem in 
your final report.
    3. Two Components, the C-111 North Spreader and the Biscayne Bay 
Wetlands require the government purchase of more than 26,000 acres. We 
cannot provide meaningful feedback on these components unless we know 
exactly what property you are talking about acquiring. Government 
projects have taken so much farmland already, this community cannot 
accept the loss of any more productive land. These components should 
not be presented to Congress for approval until they, and we, know what 
land will be taken and what environmental benefits will be obtained by 
doing so.
    4. The environmental goals of this study appear to be based on a 
hypothetical hydrologic model of the area before people arrived. The 
study does not make a compelling case that Everglades wildlife will 
return if water levels are manipulated to match this computer model. In 
view of the huge uncertainties that underlie this study Congress should 
only be asked to approve a common sense process to move toward 
restoration, not $7.8 billion worth of expensive structures that may do 
more harm than good. That process must include defining both the design 
and operations of a component before it is approved and monitoring both 
the ecosystem and hydrologic response every step of the way to make 
sure we know we are making the right choices.
    5. We appreciate the fact that the report acknowledges the 
potential for the Recommended Plan to cause flooding in south Dade (p. 
E-163.) However the discussion stops short of expressing a commitment 
to prevent that from occurring. We find the description of the existing 
flooding problems on page E-117 inaccurate and somewhat offensive. To 
ascribe our problems to ``agricultural encroachment'' in the floodplain 
is just plain wrong. Please rewrite this section to correct this 
misrepresentation and to include a firm commitment to reduce flood 
damage to private property.
    We have reviewed the letter to you from Bob Crawford, Commissioner 
of Agriculture and Consumer Services for the State of Florida, and 
endorse his position on this study. Although this plan is not ready for 
consideration by Congress, the momentum it has generated could be 
harnessed in a productive way if you can convince local interests you 
are serious about their input. Recent experiences will make this 
difficult in our area, but we hope you are willing to make the effort. 
Thank you for your consideration.
            Sincerely,
                                     Steve Sapp, President.
                                 ______
                                 
   Florida Department of Agriculture and Consumer Services,
                                 Tallahassee, FL, February 5, 1999.

Colonel Joe R. Miller,
District Engineer,
U. S. Army Corps of Engineers,
400 West Bay Street P.O. Box 4970,
Jacksonville, Florida 32232-0019.

Dear Colonel Miller: I want to thank you for providing this opportunity 
for comment on the Implementation Plan draft document. Your continuing 
efforts to involve the public in the development of the Comprehensive 
Plan are commendable and will contribute, in a positive manner, to the 
successful outcome of this effort.
    In my December 7, 1998 letter to you containing my comments on the 
draft Comprehensive Plan, I delineated specific issues that I felt must 
be addressed in a revised Implementation Plan section. Mr. Chuck Aller, 
Director of the Of rice of Agricultural Water Policy, followed my 
initial letter with more detailed comments on December 29.
    To summarize those concerns, I believe the uncertainties in the 
draft Comprehensive Plan preclude its blanket authorization by Congress 
or use as a final decisionmaking document. However, a carefully 
designed Implementation Plan, which contains a phased authorization 
process, using the Restudy as a guide for the continuing process of 
project development, will allow the Comprehensive Plan to serve as a 
useful planning document and guide for future action.
    In order to accomplish this, the Implementation Plan should provide 
for the involvement of the Governor and Legislature in successive Water 
Resources Development Act authorization of project elements. There also 
needs to be provisions for complete feasibility studies as projects are 
developed, and specific assurances for water users, flood control, 
equitable cost distribution, land acquisition and private property 
rights. The uncertainties surrounding the issues of water quality and 
the general environmental permitability of project elements need to be 
decisively addressed and resolved. The Implementation Plan clearly 
should provide a process that ensures that water quality and/or other 
requirements that could prevent implementation of a project, be 
identified, fully addressed and equitably funded by both the Federal 
and local sponsor before projects are authorized and public resources 
are irrevocably committed.
    I am very pleased that the draft Implementation Plan has addressed 
many of my concerns. The commitment to continue working with the South 
Florida Water Management District and stakeholders on adequate 
assurances for water users is extremely important. In addition, the 
Project Implementation Report (PIR) process should offer the 
opportunity to resolve technical and economic feasibility issues prior 
to authorization. To protect the integrity of this process, Congress 
should not be asked to authorize any of the Plan's major components 
until after a final PIR has been completed. The time table delineated 
in the Plan's initial proposed authorization provides ample time to 
complete the PIR and still obtain congressional authorization before 
construction is scheduled to begin. Maintaining this discipline will 
improve the credibility of the restudy in Washington and Florida and 
will strengthen the chances for long term implementation.
    However, given the monumental commitment of resources required by 
the Comprehensive Plan and its extensive impact on Florida's 
environment and economy, I would ask that the final Implementation Plan 
find a way to acknowledge, as the Governor's Commission for a 
Sustainable South Florida has done, the need to involve the Governor 
and the Florida Legislature in this process on a continuing basis. I 
also believe that water quality considerations, including a process for 
the integration of results from the Water Quality Feasibility Study 
into projects should be more directly addressed. Other comments, 
including suggested changes or specific recommended language for the 
Plan that address remaining uncertainties and issues are enclosed.
    I hope these comments are useful and would request their 
incorporation in the final Implementation Plan. I have been very 
pleased with the effort made by the Corps to ensure the involvement of 
diverse interests in this complex process. You certainly have my 
assurance that the Florida Department of Agriculture and Consumer 
Services will continue to support your efforts to restore the 
Everglades while meeting the balanced purposes set forth in the Water 
Resources Development Act for the Central and Southern Florida Project.
    If you or staff has any questions regarding these comments, please 
feel free to contact Mr. Chuck Aller at (850)922-7925.
            1Sincerely,
                                              Bob Crawford,
                                       Commissioner of Agriculture.
                                 ______
                                 
  Florida Department of Agriculture and Consumer Services Additional 
       Comments on the Draft Implementation Plan February 5, 1999
                            flood protection
    Originally, the primary functions of the C&SF Project were flood 
control and water supply, with environmental protection and enhancement 
given a lower priority. The main focus of the Restudy is to improve the 
environmental performance of the system, while providing for the other 
project purposes; flood control, urban and agricultural water supply. 
When reviewing the Implementation Plan, it is important to be able to 
determine how the Corps will address each specified purpose when 
designing and operating the components. It is not clear in the current 
version of the plan how flood control will be considered or addressed 
in the future planning/design efforts. Flood control as a topic does 
not fit very well under assurances to water users (pg. 9), which 
clearly addresses the water supply issue. It is imperative that flood 
control be addressed in a separate section. The following language 
should be incorporated as the means to address this issue within the 
Plan.
                     10.2.xx. reducing flood damage
    The lack of site-specific information, absence of detailed 
engineering evaluations and the limitations of the models used to 
develop the Comprehensive Plan precluded the review of impacts to flood 
protection caused by the plan. These same limitations also prevented a 
review of opportunities to correct existing flooding problems as 
specific plan components are constructed. Flood protection benefits can 
be obtained without compromising, and in some cases even enhancing, the 
restoration performance of the plan. The detailed review of flood 
protection and enhancement will be included, as an area for additional 
effort in the PIR.
    (The following section should be included in the PIR description.)
    The Project Implementation Reports for specific Comprehensive Plan 
components will include a detailed review of flood protection issues in 
areas affected by each component. The Corps will include the 
enhancement of flood protection in areas with known flooding problems 
as a design objective in each PIR. This includes the reduction of 
agricultural losses associated with high water tables as well as 
traditional damages caused by surface flooding.
                          feasibility studies
    The scope of the Southwest Florida Feasibility Study (pg. 38) 
should clearly delineate flood control as a continuing project 
function.
    The issue of water quality is inherent in the components/projects 
of the Comprehensive Plan. Therefore, the Water Quality Feasibility 
Study is critical to the development of the water quality constituents 
needed to be included as part of these projects. It is imperative that 
the Implementation Plan provides a specific schedule, budget, timetable 
and initial scope for the Water Quality Feasibility Study. The Plan 
should clearly describe the process for integrating the study's 
findings into components and project as they are developed. This is 
critical in order to avoid problems similar to those experienced in 
STA-1W.
                  landowner/property rights assurances
    The Comprehensive Plan anticipates the need to acquire 250,000+ 
acres of private lands. Assurances should be provided that land 
acquisition, for each project, will be based on need and justified by 
sound science, engineering and economics. The following language should 
be incorporated as the means to address this issue within the Plan.
                     2.10 assurances to landowners
    In view of the extensive real estate requirements anticipated by 
the Comprehensive Plan and the long timeframe that will be needed for 
engineering, environmental and economic studies, the potential 
consequences for private property owners must be recognized. Once 
property has been identified for acquisition in a government report the 
owner's ability to utilize the property, and consequently the market 
value of the parcel, is affected. To minimize this problem, the 
implementation process will only identify in the PIR necessary real 
estate after detailed studies have been completed. In order for real 
estate costs to qualify as part of the local share, acquisition must 
come after completion of the PIR and authorization by Congress, unless 
Congress specifically grants a deviation.
    The State of Florida and the Local Sponsor have already established 
an ambitious land acquisition program to acquire certain high priority 
parcels for construction of several critical components of the 
Comprehensive Plan. The Water Preserve Areas for the East Coast suffer 
and the Regional Attenuation Facilities for the Indian river Lagoon and 
St. Lucie Estuary have been identified and approved by the state for 
early acquisition. Congress has also recognized the benefit of 
crediting the Sponsors costs for these acquisitions even though they 
have occurred prior to authorization.
                     previously authorized projects
    Previously authorized projects (Kissimmee River Restoration, STA-
1E, Modified Water Deliveries, and C-111) were assumed to be in place 
in the initial Restudy alternative model runs. Due to problems that 
have surfaced recently with some of the previously authorized projects, 
the designs are being modified, and they are inconsistent with what was 
modeled in the Restudy. The recommended plan components contain some 
additional modifications to the authorized projects, not all of which 
are included in the initial authorization list. Some of the proposed 
modifications require pilot projects and could not be constructed for 
many years or at all, depending on the success of the pilot. The 
Implementation Plan should clarify that previously authorized projects 
are high priority and should not be delayed while the Restudy is 
determining how to deal with the conceptual modifications proposed in 
the recommended plan.
implementation of initially authorized projects conflict with the plan 
                              pir process
    Process consistency is critical to generating support for the 
Comprehensive Plan. Preparing individual Project implementation Reports 
(PIRs) after acquiring congressional authorization for the initial 
package of plan components (as described on pg. 30) is a deviation from 
the PIR process illustrated on page 13. Looking at the projected 
construction start dates for several projects recommended for WRDA 2000 
raises questions as to why PIRs cannot be completed for these projects 
when the schedule indicates that sufficient time exists to do the PIRs 
before asking for congressional authorization. If PIRs cannot be 
completed on these projects then WRDA 2000 authorization should be 
limited to the pilot projects and early action items delineated in the 
draft plan.
          recommended additions to plan programmatic authority
    The 10 Mile Creek project should be added to Table 5.3-1 
Programmatic Authority. It is a Critical Project that has tremendous 
local support, one that would expedite implementation of the 
Comprehensive Plan, and has not yet been completely funded.
                   approval of the comprehensive plan
    The phrase ``Restudy authorized by Congress'' (pg. 23, line three 
of Schedule) is inconsistent with the stated objective for Plan 
approval used on page 28, Section 5.1. Please modify ``authorized'' to 
``approved'' on page 23.
                                 ______
                                 
                 Sugar Cane Growers Cooperative of Florida,
                                 Belle Glade, FL, February 5, 1999.

Col. Joe R. Miller,
District Engineer,
U.S. Army Corps of Engineers,
400 West Bay Street,
P.O. Box 4970,
Jacksonville, Florida 32232-0019.

Dear Colonel Miller: Sugar Cane Growers Cooperative of Florida has been 
following the Restudy process very closely since 1993. We have had 
briefings with your staff during the development of the various 
alternatives and attended public hearings on the recommended 
comprehensive plan in South Florida and Washington, D.C. We have 
expressed our skepticism concerning the lack of scientific and 
engineering support for many of the concepts being proposed.
    We continue to have some generalized, process and specific concerns 
with the Implementation Plan. First, we are in concurrence with the 
position taken by Florida Department of Agriculture Commissioner Bob 
Crawford and echo the Department's comments as outlined in its December 
7, 1998, December 29, 1998 and February 3, 1999 written correspondence.
    Due to the great number of uncertainties in the draft Comprehensive 
Plan, we cannot support its blanket authorization or approval by 
Congress or use as a final decisionmaking document.
    Of particular concern are the proposed reservoirs for storing water 
in the Everglades Agricultural Area (EAA). Our members have been 
managing water and crops on this land for most of their lives. We have 
extensive on-the-ground experience with the hydrology and geology and 
believe that the engineering requirements and economic realities will 
make these large scale storage areas impractical. In addition, the high 
evaporation rates in this area would make these facilities a 
significant waste of water, when the objective of the Restudy is to 
make more water available.
    Our only solace was a commitment by your staff to perform all 
necessary engineering and economic studies prior to final approval of 
these projects. Regrettably, the draft Implementation Plan, dated 
January 25, 1999, recommends seeking congressional authorization for a 
40,000 acre project in the EAA before any technical evaluation has been 
done. Since the construction schedule included in the same document 
shows that there is plenty of time to produce the necessary 
engineering, economic and environmental evaluations before 
authorization, we do not understand the decision to include this 
project in your initial authorization list.
    In summary, we do not support the pre-authorization of any 
components in which the technical, engineering and economic feasibility 
hasn't been addressed.
    The assurances to water users as outlined in the Implementation 
Plan is a good start. Assurances need to be made for flood protection 
and protecting private property rights as well.
    Please consider revising the Implementation Plan to address these 
concerns, specifically showing the completion of the necessary 
technical evaluations before congressional action on any storage area 
in the Everglades Agricultural Area. We will actively oppose, in 
Florida and in Washington, any proposal that short circuits this 
process.
    Thank you for allowing us to review this plan and for your 
consideration of our comments.
            Sincerely,
                            George H. Wedgworth, President.
                                 ______
                                 
                                    Landers & Parsons, P.A.
                               Tallahassee, FL 32301, May 28, 1999.

Lt. Gen. Joe N. Ballard,
Chief of Engineers,
7701 Telegraph Road,
Alexandria, Virginia 22315-3861.

Re: Comments of Florida Sugar Cane League Inc on Final Integrated 
Feasibility Report and PEIS--Comprehensive Review Study--C&SF Project

Dear General Ballard: I am writing on behalf of the Florida Sugar Cane 
League Inc. and its grower and processor members to provide comments 
for your consideration on the April 1999 Final Integrated Feasibility 
Report and Programmatic Environmental Impact Statement developed for 
the Comprehensive Review Study of the Central and Southern Florida 
Project.
    Representatives of the Florida Sugar Cane League, Inc. have been 
active in attending public participation opportunities during the 
course of the Comprehensive Review Study, or Restudy, of the C&S 
Florida Project. We have long recognized the need to modify the Project 
to better develop and utilize available water resources for both the 
environmental and other water related needs of the project consistent 
with the authorized purposes for the Restudy as provided in the Water 
Resources Development Acts of 1992 and 1996 and related resolutions. We 
are committed to the success of the Restudy and its implementation 
based upon future authorizations and approvals.
    As you may know, after the publication of your final Report and 
PEIS, the Florida Legislature enacted legislation in support of the 
Restudy providing a process that will be valuable in building.a broad 
public support and consensus for Restudy implementation and for the 
necessary funding. We urge you to consider this legislation in the 
formulation of your final Report and recommendations to Congress and in 
requests for congressional authorization of Project components in 
future Water Resources Development Acts. Although we acknowledge that 
this State legislation does not limit you or any Federal Agency in the 
exercise of your duties and responsibilities, it will be important to 
the effectiveness of the State and Federal Partnership that your 
recommendations and future requests for authorization be consistent 
with those of Florida.
    More specifically we ask that you reconsider your current 
recommendations in the Restudy Implementation Plan for some Project 
Components now included in the initial authorization to be requested 
from Congress. We believe there are Project Components in the current 
Implementation Plan that will need further analysis and justification 
in order for the local sponsor to receive State approval to join you in 
seeking congressional authorization. Providing additional analysis and 
justification will not, we believe, delay the proposed dates in the-
Restudy Implementation Plan.
    We ask you to revise your Report and recommendations with regard to 
the following:
    1. The Restudy legislation in Florida requires that all water 
resource issues be analyzed and evaluated before the local sponsor can 
seek congressional authorization for a Project Component. The issues 
include water quality, flood protection and natural system and habitat 
needs. Throughout the development of the Comprehensive Plan many 
comments from several interest groups have expressed concern that the 
analysis of water quality needs and the treatment facilities to meet 
those needs has been incomplete. The resolution of this issue is 
critical to the success of Everglades Restoration and should be 
integrated into the analysis of Restudy components to be authorized by 
Congress and not deferred to a later feasibility study as now proposed.
    2. In particular, the Restudy Report fails to adequately analyze 
the water quality needs of Lake Okeechobee and the impact on the 
Everglades from reliance on the Lake for meeting water supply needs of 
the Everglades. however, there has not been an adequate alternatives 
analysis of reservoir storage in the area of Lake Okeechobee to 
determine which alternative will provide the most cost-effective and 
feasible water supply design. This analysis is likely to demonstrate 
that provision of reservoir storage north of the Lake will provide 
greater management flexibility so that additional water supply can be 
available to the Caloosahatchee and St. Lucie basins and not just the 
Everglades.
    3. Because the recommended Comprehensive Plan relies heavily on 
uncertain and unproven technology the results from pilot projects and 
further feasibility analysis are essential to determine if the Plan as 
a whole will provide the benefits presented in the Report. The proposed 
Implementation Plan should be revised to give greater priority to those 
project components that utilize existing technology of known 
reliability and that will provide a balance of benefits in addressing 
all needs;
    4. Likewise, many have been concerned that project components in 
the list for initial authorization have not been determined feasible 
based on standard engineering practices and that evaluations of whether 
they are cost-effective are incomplete. One way to provide consistency 
with the State process would be to complete the proposed Project 
Implementation Report prior to seeking congressional authorization of 
any Project component.
    5. With specific regard to the proposed Everglades Agricultural 
Area Reservoirs, the most expensive projects included in the proposed 
authorizations for WRDA 2000, we believe (1) serious engineering and 
design issues may make these projects infeasible and (2) water quality 
management has not been appropriately addressed in the planning of 
these projects. These projects can not be credibly recommended for 
authorization on the basis of the woefully inadequate feasibility and 
cost benefit analysis that has been undertaken to date.
    6. The local sponsor is required by the Florida legislation to 
provide reasonable assurances to existing users and landowners that 
existing quantities of water and levels of service for flood control 
not be diminished by the implementation of Restudy project components. 
While the Jacksonville District's Restudy Report and recommendations 
are explicit and unequivocal in providing a commitment to habitat 
restoration and providing assurances that environmental water supply 
needs will be met, there is no corresponding commitment to meet 
economic water supply needs even though meeting all water related needs 
of the region is an authorized Restudy purpose provided by WRDA of 
1996. The local sponsor is required by Florida law to meet all water 
related needs in a balanced way. We are persuaded that the water 
resource development potential in South Florida is sufficient to 
achieve this and we urge you to provide a commitment to this goal in 
your Report.
    7. Agricultural interests in South Florida are particularly 
concerned that the recommended Comprehensive Plan proposes to take 
approximately 220,000 acres of land for Restudy purposes, such as water 
supply reservoirs and high flow attenuation facilities, which in most 
instances will require the conversion and loss of prime agricultural 
land. We urge the Corps of Engineers to conduct site-specific analyses 
to determine the extent to which the targeted parcels will successfully 
function as assumed in the Restudy models. There is considerable doubt 
among experienced property owners as to the capacity of soils and sub-
soils in many areas to hold water and function as water supply 
reservoirs. Further, the distribution logistics associated with 
centralized water supply reservoirs need to be calculated as part of a 
cost-effective feasibility analysis. This additional analysis of 
feasibility-and cost-effectiveness should be completed prior to seeking 
congressional authorization. Finally, to reduce the substantial 
economic impacts of this--conversion we ask for a commitment to avoid 
use of productive farm land wherever practicable and when use of 
productive farm land can not be avoided retain existing agricultural 
activity on productive land until it actually is needed for 
construction or operation of Restudy project components.
    8. With regard to how Project operations may change in the future, 
how new Project Components will be operated and how water resources 
will be allocated, the Report and Comprehensive Plan is at best vague 
but mostly silent. These questions should be addressed directly and 
early in the process so that the public can adequately assess all costs 
and benefits of the Plan and the resulting water supply available for 
all needs. If these and other questions relating to flood protection 
and other water related needs remain unanswered, it will be very 
difficult to develop a consensus to provide implementation funding at 
the levels now projected.
    As we have stated in earlier comments, our goal is for the Restudy 
to succeed and for the State and Federal partnership to be effective in 
meeting all needs.
    We acknowledge and appreciate the leadership of Col. Joe Miller and 
complement his professional staff who have able to produce a Report of 
this magnitude and complexity within the limited timeframe they were 
given.
    We are also grateful for this and other opportunities to comment on 
the Restudy.
            Sincerely,
 Philip S. Parsons, for the Florida Sugar Cane League, Inc.
                                 ______
                                 
 Draft Meeting Summary--Governor's Commission for a Sustainable South 
                                Florida
      march 2-3, 1999 the conservancy of southwest florida naples
                            day one--march 2
I. Opening Remarks
    The meeting was convened at approximately 9:30 am.
    Chairman Pettigrew began by asking the Commission to approve the 
December and January meeting summaries. The summaries were approved 
without objection. He then explained the voting procedures for the next 
2 days, stating that only Commission members may vote, but alternates 
can participate in discussions. Chairman Pettigrew admitted that, while 
consensus cannot always be reached on all issues, the Commission's best 
work has come when it has had the opportunity to fully understand the 
issues at hand. He added that trying to impose an unrealistic deadline 
that does not allow a deliberative process would make it difficult to 
reach consensus. Therefore, for the next 2 days, the Commission should 
concentrate on those issues that it fully understands, and it should 
defer those that have not been given enough time to adequately address. 
Chairman Pettigrew reflected on the Commission's accomplishments, 
citing the Comprehensive Plan for the Restudy, Eastward Ho!, 
Sustainable Communities, Brownfields legislation, and other important 
contributions. He said the new administration has made a clear 
commitment to urban revitalization, and he is hopeful that the 
Commission will continue to assist in this effort. He expects the 
administration to make a decision on the Commission after the current 
legislative session.
II. Attendance
    Fred Rapach for Burt Aaronson (3/2); Chuck Aller; John Anderson; 
Gary Evink for Thomas Barry; Agnes McLean for Mitchell Berger (3/2), 
Sam Poole for Mitchell Berger (3/3); Ernie Caldwell (3/2); Mike 
Collins; John DeGrove; .Bill Dobson for Miguel Diaz de la Portilla; 
Robert Duane; Loly Espino; George Haughney for Suellen Fardelmann (3/
2); John Flanigan; Richard Harvey for John Hankinson; Shannon Estenoz 
for Debra Harrison (3/2), Debra Harrison (3/3); Maggy Hurchalla; Joette 
Lorion for Dexter Lehtinen (3/3); Maggie Megee; Maj. Ted Pruett for 
Col. Joe Miller (3/2), Col. Joe Miller (3/3); Jack Moller; Bill Payne; 
Richard Pettigrew; Terry Rice; Dick Ring; Carol Rist; Herbert Robinson; 
Roy Rogers; Rock Salt; Stuart Strahl; Herb Zebuth for David Struhs (3/
2), John Outland for David Struhs (313); Michele Thomas (3/2), Craig 
Tepper for Michele Thomas (3/3); Phil Parsons for Bubba Wade; Bernie 
Yokel; Charles Zwick.
III. Overview of the Draft Conceptual Plan to Achieve Sustainable 
        Communities
    Karla Ebenbach, Senior Planner for the Task Force, and staff to the 
Commission's Quality Communities Committee, gave a brief overview of 
Planning for 2050, A Conceptual Plan to Achieve Sustainable Communities 
in South Florida, the end product of the draft document formerly known 
as A Conceptual Plan for the Human System. Ms. Ebenbach said this 
document makes recommendations relative to the economic and social 
aspects of sustainability. The ideas are the end product of an ongoing 
process that began with the Initial Report recommendations, and reflect 
the input received from the Commission. She said this document is more 
like an executive summary than the lengthy report style of the previous 
draft. She added that this style will be more effective and have 
greater applications complementing the Commission's work in 
restoration. She asked the Commission to review the document in 
preparation for its approval on the following day.
    Ms. Ebenbach then explained the contents of the document. It begins 
with an introduction that describes the concept of sustainability, and 
the need to balance the resource needs of the environment, the economy, 
and society. Following the introduction is a set of sustainability 
goals and objectives focusing on employment, transportation, and 
education. Each of the three sectors is addressed by a vision 
statement, a discussion of current trends and problems, and a clearly 
articulated strategy.
IV. Overview of Working Group Effort to Determine Land Acquisition 
        Priorities for Ecosystem Restoration
    Richard Harvey, Chair of the South Florida Ecosystem Restoration 
Working Group (Working Group), began with a brief discussion of the 
Aquifer Storage and Recovery (ASR) letter signed by Environmental 
Protection Agency (EPA) Regional Administrator John Hankinson on 
February 9,]999 (see attachment 1). Mr. Harvey said the letter allows 
the ASR concept to move ahead for a comprehensive evaluation of both 
water quality and hydrogeologic issues. He said the Working Group 
formed an ASR issue team in September and it has just published a 
report identifying these issues and strategies for addressing them. Mr. 
Harvey added that, for the process to continue, the Florida Department 
of Environmental Protection (DEP) must make a decision based on the 
quality of the source water compared to that of the receiving aquifer. 
He said that current DEP rules require the source to meet all drinking 
water standards, and that DEP must decide whether or not to proceed 
with rulemaking.
    Mr. Harvey then discussed the land acquisition priority list. He 
said that the Secretary of the Interior is directed to submit a 
comprehensive acquisition plan for non-Federal lands to Congress by 
March 31, 1999, which will include a priority list of lands to be 
acquired should additional funds become available. This plan must 
clearly identify why the parcels selected for acquisition are critical 
to ecosystem restoration. The Working Group established a committee at 
its January meeting to develop the acquisition list. The committee met 
twice in February. At its first meeting, the committee focused on 
establishing qualifying and ranking criteria that could be used to 
evaluate land acquisition projects for inclusion in the list. At the 
second meeting, the committee refined the criteria, and also reviewed 
projects nominated by different participating organizations.
    Mr. Harvey said the criteria fall into two categories. First, 
qualifying criteria for projects to be included on the list. These 
include: the project has a willing non-Federal 50 percent cost match 
from a local sponsor; the project is included on a current list and has 
received public review, such as the CARL, Save Our Rivers, or Miami-
Dade County's Environmentally Endangered Lands lists; the project must 
be compatible with the Restudy; the land is vitally important to the 
South Florida ecosystem restoration effort; and the project is not 
already authorized in the Department of Interior's fiscal year budget. 
The second category of criteria identify the beneficial attributes 
associated with the project. These include: the land is critical for 
multi-species recovery; lands that are important to regional hydrology; 
lands that provide linkage to wildlife corridors; lands that improve 
regional water quality; lands that are vulnerable to development; and, 
lands that are specifically identified by the Restudy as being a key 
feature of the proposed plan (see attachment 2 for the list of 
criteria).
    Mr. Harvey said the end result was a list of about 35 to 40 
projects. The committee then developed a matrix listing each of the 
projects and the various ranking criteria. Each project criteria was 
assigned a ranking number between zero and two, with two stating that 
the project has significant contributions to that particular criteria, 
and zero signifying the project has no contribution. Mr. Harvey asked 
the Commission to review the list and decide the best way for it to 
participate. He added that the Working Group hopes the Commission will 
rank these projects into some form of priority list. Maggy Hurchalla, 
who participated in the land acquisition committee, said the ranking is 
different than the process used for the Critical Projects, which placed 
the projects into some order for implementation. Instead, this.list 
would be an evaluation of the importance of each project. Terry Rice 
expressed concerns over trying to formulate this list on such a short 
timeframe. He agreed with Chairman Pettigrew's opening statement that 
the Commission's best work has been done through thorough review, 
and.that trying to rush this list without adequate public review would 
not be appropriate. Ms. Hurchalla responded that this process will go 
forward on its own, and that the Commission should comment on it to the 
best of its capacity. Chairman Pettigrew suggested that the Commission 
concentrate on reviewing the criteria instead of reviewing the projects 
individually. Several Commission members agreed that this would be the 
best step. Dick Ring added that the Secretary of the Interior would 
feel much more comfortable about submitting the list to Congress after 
knowing that the Commission has reviewed the criteria used to formulate 
that list.
V. Public Comment
    Edith McClintock, of the Nature Conservancy, discussed a series of 
public forums that the Conservancy has been holding throughout South 
Florida to make residents aware of the water supply and resource 
management problems the area is facing. She said that if residents do 
not understand the problems, they will not support restoration efforts. 
Ms. McClintock stated that the Conservancy, along with the South 
Florida Water Management District, initiated a community outreach 
program in 1998, and this program has been extremely successful in 
raising public awareness. Last year they held 29 forums throughout the 
South Florida area, and will be holding an additional 30 to 50 ``Water 
for Our Future'' forums in the next several months. Ms. McClintock 
asked the Commission to partner in hosting some of these forums, and 
invited the participation of its members.
    Diane Buchanan, of the Full Club of Miami-Dade County, said her 
organization has five concerns over the Restudy. These are: too much 
water in the Water Conservation Areas (WCAs); too much water in the 
western part of Everglades National Park; too much water in the eastern 
portion of Big Cypress National Preserve; not enough water in the north 
end of WCA 3; and maintaining a sufficient supply of water for Broward 
County. Ms. Buchanan said her organization has been taking water level 
measurements in the WCAs, and that these levels differ from the South 
Florida Water Management District's measurements. She added that high 
water levels are damaging the tree islands. Ms. Buchanan said that 
levees, including the L-29, should be removed in order to restore sheet 
flow, and expressed concerns that the first phase of the Restudy does 
not include this as a component. She concluded by saying that, despite 
these concerns, she supports the Restudy.
    Ellen Lindblad, Director of the Corkscrew Regional Ecosystem 
Watershed (CREW) Land and Water Trust, spoke on the Southern Crew and 
Imperial River Flow Way, saying that these lands should be acquired and 
protected. Ms. Lindblad stated that when the initial project boundaries 
were delineated in the 1980's, only the wettest areas were included. 
The boundaries did not. include any active agricultural or residential 
areas as part of the watershed. Later, it was realized that the 
watershed did indeed include these adjacent lands. Ms. Lindblad said 
that the original intent of the CREW project was to protect an 
important aquifer recharge area, but it could also serve as a flood 
protection area if the boundaries are expanded. She concluded by 
stressing the opportunity of acquiring these lands while they are still 
relatively undeveloped, and urged the Commission to recommend their 
acquisition.
    Nancy Payton, Southwest Florida Field Representative for the 
Florida Wildlife Federation, spoke about the Southern Golden Gate 
Estates, an area of approximately 55,000 acres at the core of 
acquisition projects in Collier County. The area is bordered by several 
preserves, including the Florida Panther National Wildlife Refuge, 
Fakahatchee Strand State Preserve, Everglades National Park, Ten 
Thousand Islands National Wildlife Refuge, and Rookery Bay. Ms. Payton 
emphasized the importance of Southern Golden Gate Estates as a wildlife 
habitat for panthers, black bears, wading birds, and several species of 
plants. She said the area is also important for water recharge and 
flood protection. Ms. Payton stated that acquiring the remaining lands 
is vital in light of a proposal by Collier County to build a road into 
the area.
    Cynthia Laramore, of the Glades Area Environmental Justice 
Institute, expressed her concerns over the proposed 35 Aquifer Storage 
and Recovery (ASR) wells along the Palm Beach Canal as part of the 
Restudy. Ms. Laramore recalled that in the mid 1980's, the water bills 
in Belle Glade had warnings about trihalomethanes caused by the water 
treatment in use at the time. She added that during October and 
November 1998 the water in Bell Glade was yellow. Ms. Laramore said the 
proposed ASRs, and the possible relaxed regulations expressed in the 
EPA letter, could pose a threat to her area's drinking water if 
trihalomethanes are produced. Chairman Pettigrew explained that the EPA 
letter does not call for any treatment that could cause 
trihalomethanes, and that the ASR water will be introduced into a 
different aquifer from the drinking water source.
    David Guggenheim, President of the Conservancy of Southwest Florida 
and Florida Co-chair of the Everglades Coalition, discussed two points 
contained in a recent Coalition letter. First, the Commission's Initial 
Report stated that a healthy Everglades is crucial. Mr. Guggenheim said 
the Commission has not articulated enough assurances for Everglades 
restoration in its recent reports. Second, Mr. Guggenheim expressed 
concerns over the language in recommendation No. 17 of the Commission's 
Draft Assurance/Implementation Report. He feels that the Talisman 
lands, and resulting trades, should be authorized in the year 2000 
Water Resources Development Act (WHOA), and the components should be 
on-line by 2005 and 2007. Mr. Guggenheim concluded by stressing the 
importance of the CREW Project, and urged that the southern addition be 
included in the land acquisition process discussed earlier.
    Charles Lee, Senior Vice President, Florida Audubon Society, spoke 
in support of an amendment that Stuart Strahl proposed to the Draft 
Assurance/Implementation Report. The amendment stated that the Talisman 
lands were in public ownership, and the first 50,000 acres of storage 
in the Everglades Agricultural Area (EAA) should be authorized in WRDA 
2000, and come on-line no later than 2007. Mr. Lee explained that the 
Talisman sale agreement was signed in January in good faith by all the 
parties, including the sugar industry. He said that some sugar 
representatives are currently trying to prevent the storage in the 
Talisman lands from being implemented on time in order to continue 
farming the land under lease. Mr. Lee said that leasing the land 
purchased with taxpayer money to sugar interests is not an appropriate 
use of the $133.5 million. Mr. Lee noted that the sugar interests are 
asking that a Project Implementation Report (PIR) be completed prior to 
the request for authorization, and asked what uncertainties this PIR 
would answer that are not already known. He concluded by urging the 
Commission to recommend that the EAA storage component of the Restudy 
be completed by the year 2007.
    Jonathan Ullman, of the National Sierra Club, said the Club's 
30,000 Florida members are very concerned over the Restudy, and would 
like to see Everglades restoration done with the best science possible. 
He said the fact that a peer review panel will monitor the restoration 
efforts is very satisfying. Mr. Ullman added that his organization will 
not support a Restudy implementation plan that serves the urban areas 
before meeting the needs of the natural system. He said that some very 
tough decisions need to be made, but that the Everglades must come 
first.
    Mary Barley, Everglades Trust, reiterated support for Stuart 
Strahl's amendment, adding that the Everglades Trust opposes any delays 
to the EAA storage. She said that some decisions will not be easy, but 
the Commission has a chance to protect the Everglades and Florida Bay 
with its upcoming votes. Ms. Barley closed by thanking the Commission 
and Chairman Pettigrew for showing the people of South Florida the 
importance of the Everglades to their environment and economy.
    Ann Hauck, of the Council of Civic Associations, stated that 
Southwest Florida is being ignored in the Everglades restoration plan. 
She added that Lee County has one of the highest concentrations of 
endangered and threatened species in the United States, and that 
Southwest Florida is the nation's fastest growing area. Ms. Hauck asked 
that the Estero Bay area be considered for acquisition. She said that 
Estero Bay and its tributaries are designated Outstanding Florida 
Waters, and that state and Federal agencies have failed to protect 
these areas for the last 10 years.
VI. Consideration of Draft Report on the Implementation Plan for the 
        C&SF Project Restudy
    The Commission dedicated the remainder of the day to voting on the 
proposed amendments to the Commission's Implementation Plan Report.
    Roy Rogers and Maggie Megee, Co-chairs of the Commission's Public 
Outreach Committee, announced the completion of the Commission's 
sustainability brochure, the end result of many months of work. Mr. 
Rogers expressed his thanks to Rebecca Rust and Katrina Ferguson of the 
Florida Department of Labor and Employment Security for their help on 
producing the brochure. Mr. Rogers also introduced the near-completion 
of the Commission's video, and a short introduction of the video was 
played on the screen.
    Recess at approximately 5 pm.
                      day two--wednesday, march 2
I. Opening Remarks
    The meeting was reconvened at approximately 8:30 am.
    Chairman Pettigrew asked Maggie Megee to continue the discussion of 
Planning for 2050, A Conceptual Plan to Achieve Sustainable Communities 
in South Florida; the document that the Commission received the 
previous day.
II. Consideration of the Draft Conceptual Plan to Achieve Sustainable 
        Communities
    Ms. Megee began by reminding the Commission of the link between the 
environment, the economy, and society. This document addresses the 
economic and societal components of the Commission's icon. Ms. Megee 
explained that the document is a broad vision, or conceptual plan, of 
what South Florida's communities should look like in the future. It 
does not go into detail on how to achieve specific goals. Ms. Megee 
explained how the concept of sustainability, that present demands must 
not supersede future needs, is usually associated with the natural 
system, but it also applies to the entire living environment. Achieving 
sustainability requires balancing the resource demands of the 
environment, economy, and society. Ms. Megee concluded by stating that 
the principles contained in the document were first addressed in one of 
the Commission's first meetings, and that now the Commission has come 
full-circle by developing this document. The Commission unanimously 
adopted the document.
III. South Miami-Dade County Land Elevation Data Report
    Jose Otero, Senior Engineer for the South Florida Water Management 
District (SFWMD), presented a status update on the effort to collect 
accurate elevation data in South Miami-Dade County. Chairman Pettigrew 
explained that the Commission requested the land elevation data in 
response to farmers' concerns that restoration efforts might create 
adverse flooding to their lands. Mr. Otero said that the South Miami-
Dade Topographic Interest Group was formed in August, 1998 as a direct 
response to a Commission resolution requesting that high-accuracy 
topographic data address the concerns of the agricultural interests. 
The team is responsible for collection of high-accuracy elevation data, 
determining the data requirements of various hydrologic models, and 
evaluating the potential for root-zone flooding. Mr. Otero said the 
data will be used to improve the various hydrologic models used by 
different agencies for ecosystem restoration. The data is collected by 
shooting a laser beam from a level-flying aircraft and measuring the 
distance to the ground. Navigational equipment on board the aircraft 
determines the exact position in relation to the ground and the exact 
course. This technology has an accuracy of 20 centimeters (8 inches), 
and millions of data points are collected in one flight. Mr. Otero 
explained that while the technology is accurate, it is limited to use 
over dry ground. The laser cannot penetrate water since the beam will 
bounce off the surface. He added that there will be a pilot project for 
this technology on March 16, and that maps should be available in May. 
Mr. Otero said the questions remains as how to best incorporate this 
data into the hydrologic models. He said the Topographic Group is 
working with the modelers in trying to address this issue.
IV. Consideration of Draft Report on the Implementation Plan for the 
        C&SF Project Restudy (continued)
    The Commission continued voting on the proposed amendments to, and 
unanimously adopted, the Commission's Report on the January 25, 1999 
Draft Implementation Plan of the C&SF Project Restudy.
V. Public Comment
    Joe Iannone, of Saint Thomas University, expressed his gratitude 
for the work of the Commission, and encouraged its members to continue 
the Commission's spirit through their individual outreach efforts. He 
mentioned that Rock Salt will give a presentation at Saint Thomas 
University's ``Healing the Earth'' conference on March 18, adding that 
Carol Rist made a presentation last year. Mr. Iannone volunteered the 
university network throughout Miami-Dade, Broward, and Monroe Counties 
for distribution of Commission information. He concluded by stating the 
University's commitment as a partner in environmental education, and 
added that 15 of its teachers will train 300 K-12 private school 
teachers. Maggie Megee thanked Mr. Iannone on behalf of the Public 
Outreach Committee for his time and effort.
    Ibel Aguilera, representing the United Property Owners in the 8.5 
Square Mile Area and a resident of the area for 20 years, said that she 
was not properly notified that this meeting was taking place. She said 
holding a meeting which would address land acquisition issues at a 
location 3 hours away from the affected area, and on a weekday, 
demonstrated to her that the opinion of the residents was of no concern 
to those involved in restoration. Ms. Aguilera said the residents were 
led to believe that the research in the area was intended to benefit 
both Everglades National Park and the residents. She added that the 
SFWMD stated at the October 5, 1998, public meeting that the research 
was intended to find ways to minimize relocation of the residents. Ms. 
Aguilera said she believes the decision for total buyout at the 
November 12 meeting was made without adequate public input and in 
violation of the Sunshine Law. She concluded by saying that many 
residents are not willing sellers and that the 8.5 Square Mile Area is 
not needed for restoration.
    Maria Gonzalez, a property owner in the 8.5 Square Mile Area, said 
the fate of their properties is being decided without adequate public 
involvement and input from the residents. She said that prior to the 
November 12 meeting, the residents had been led to believe that 
alternative 2 would be the preferred alternative. Ms. Gonzalez said 
that, according to three prominent hydrologists, the area is not 
necessary for restoration. She cited a memo from Alan Hall of the SFWMD 
which states that the area does not have to be acquired for Everglades 
restoration (see attachment 3). Ms. Gonzalez said she supports the 
Corps mitigation plan, and added that she understands that this plan 
will not provide flood protection. She would like the area to remain as 
it is, and does not request that the County provide additional 
services. She said that the Miami-Dade County Board of Commissioners 
has postponed addressing this issue because they do not know all the 
facts. She explained that the area is not part of Shark River Slough 
and is therefore relatively high. She concluded by stating that the 
property owners will fight to keep their land.
    Charles Lee, Senior Vice President, Florida Audubon Society, 
thanked the Commission for adopting language in the Implementation 
Report that requests accelerating the implementation of water storage 
areas in the Restudy. Mr. Lee said that in pursuing the acquisition of 
properties from willing sellers, in light of other owners, oppositions, 
a government action that could be viewed as a restraint on the 
alienation of title is a violation of property rights and should be 
avoided. He said that the SFWMD has received calls from hundreds of 
property owners in the 8.5 Square Mile Area that are interested in 
selling their land, and that these sellers should not be denied their 
right to sell by those He added that the interests of the non-willing 
property owners can only go who are opposed. so far before they violate 
the property rights of those who want to sell. Mr. Lee emphasized land 
acquisition is always an emotional issue, especially among those 
immediately affected. He explained that Miami-Dade County will be 
constructing a new cross-town expressway east of the airport, a project 
that will cost $5 billion. In the process thousands of private property 
owners will have their land condemned, many of which will be low to 
moderate income homes. He added that while the planning for this 
project is moving forward rapidly, the public has not been given nearly 
as much involvement as the discussion on the 8.5 Square Mile Area. Mr. 
Lee concluded that there will always be people coming forward with 
their opposition to land acquisition, and that the minority should not 
interfere with the opportunity of the majority that wants to sell.
    Jonathan Ullman, of the Sierra Club, said that the permits to build 
in the 8.5 Square Mile Area should never have been issued, and that 
there is a chance now to do the right thing. He said that this is a 
very emotional issue, and empathizes with the residents, but there are 
more important factors than their interests. He urged Miami-Dade 
County, the SFWMD, and the Federal Government to resolve this issue 
quickly.
    John DeGrove announced that Rock Salt was nominated by Chairman 
Pettigrew and Ernie Barnett for the Thousand Friends of Florida, 1999 
Bill Sadowski Award. This award is given each year to an individual who 
exemplifies a high level of commitment to growth management and the 
philosophy of negotiation for which former Department of Community 
Affairs Secretary, Bill Sadowski, was known. Dr. DeGrove said the award 
ceremony will take place on March 17, from 6 to 8 p.m. in the Old 
Capitol in Tallahassee.
VI. Consideration of Commission Input to Working Group Effort to 
        Determine Land Acquisition Priorities for the Ecosystem 
        Restoration
    Richard Harvey, with assistance from Bob Jones of the Florida 
Conflict Resolution Consortium, led the Commission in a discussion to 
evaluate the Working Group's land acquisition criteria. The Commission 
agreed it would only evaluate the criteria, not the specific projects 
on the list. Joette Lorion, representing the Miccosukee Tribe, 
expressed concerns that these criteria were generated in meetings 
without public participation, and that the rankings would go directly 
from the Working Group to the Secretary of the Interior. She added that 
this process did not follow the same procedure as the Critical Projects 
where consensus was reached through a series of public meetings. The 
Commission's comments on the land acquisition criteria are summarized 
in attachment 4.
VII. Consideration on the Draft Report on Funding the C&SF Project 
        Restudy
    The Commission adopted its Fig the Restudy of the Central crud 
Southern Florida Project report. The Commission was not able to 
complete its discussion of the proposed amendments to the report, and 
the Construction, Operation, and Maintenance Funding and Water Quality 
Funding sections were withdrawn for consideration by a new commission.
    The meeting adjourned at approximately 4:15 pm.
                              attachments
    1) Letter from John Hankinson, EPA Region 4 Administrator, to 
Colonel Joe Miller, February 9, 1999.
    2) Working Group Land Acquisition Criteria, March 1, 1999.
    3) Alan Hall memorandum to SFWMD Governing Board on 8.5 Square Mile 
Area, January 4, 1999.
    4) Comments from the Governor's Commission for a Sustainable South 
Florida on the Working Group Land Acquisition Criteria, March 3, 1999.
                                 ______
                                 
                              attachment i
                      U.S. Environmental Protection Agency,
                           Region 4, Atlanta Federal Center
                          Atlanta, GA 30303-8960, February 9, 1999.

Colonel Joe R. Miller,
U.S. Army Corps of Engineers,
Jacksonville District Office,
P.O. Box 4970,
Jacksonville, FL 39239.

Dear Colonel Miller: Thank you for your October 1, 1998, letter to 
Environmental Protection Agency (EPA) Administrator Carol M. Browner. I 
am providing you with a response to your request of written 
confirmation of the Agency's policy regarding the use of ``raw'' 
surface and ground water in aquifer storage and retrieval (ASR) wells 
proposed for the Central and Southern Florida Project Comprehensive 
Review Study (Restudy). Under the Safe Drinking Water Act (SDWA) and 
Federal regulations, these wells would be classified as Class V 
underground injection wells regulated by the Underground Injection 
Control (UIC) program. The State has primary enforcement authority for 
these wells, but in any case, injection into any Class V wells must not 
endanger underground sources of drinking water (USDWs).
    The issue of implementing ASR well technology using untreated 
surface or shallow ground waters as source water has been challenging. 
We have focused a great deal of attention on this issue at the Regional 
level, and at EPA Headquarters offices. We have also worked closely 
with the Florida Department of Environmental Protection (FDEP) as our 
partner in the Underground Injection Control program and will continue 
to solicit their support.
    ASR technology has the potential for great environmental benefit in 
solving water use problems in south Florida, but we believe that the 
potential may also exist for this technology to cause undesirable 
contamination of aquifers, which might be used as drinking water 
supplies for the region. EPA is aware that recapturing lost water 
storage capacity is a key element in the overall south Florida 
ecosystem restoration effort. Even so, it is imperative that 
implementation of this technology not cause contamination of USDWs that 
could adversely affect the health of persons now or in the future.
    The Restudy currently proposes to use ASR technology to provide up 
to 1.7 billion gallons per day of water storage capacity. The source of 
most of the water to be stored is untreated surface waters or shallow 
ground waters. This raises a potential concern because the SAGA and the 
Federal UIC regulations prohibit injection activity which allows the 
movement of fluid containing any contaminant into underground sources 
of drinking water, if the presence of that contaminant may cause a 
violation of any primary drinking water regulation under 40 CER Part 
142 or may otherwise adversely affect the health of persons [42 U.S.C. 
Sec. 300h(d)(2); 40 CFR Sec. 144.12(a)]. Most surface waters, and some 
shallow ground waters, cannot comply with this requirement due to the 
presence of various contaminants. A review, however, of the somewhat 
limited water quality data available for the proposed source waters 
(Lake Okeechobee and the Caloosahatchee River) indicates that there may 
be only one contaminant present which exceeds the primary drinking 
water maximum contaminant levels (MCLs): total coliform bacteria.
    Because of the importance of identifying effective ways to store 
water in the region, EPA has indicated in meetings with involved 
stakeholders that we are willing to consider a flexible approach to 
constructing and permitting the ASR wells proposed by the Restudy. For 
those wells, EPA believes that the proposed ``raw'' water ASR projects 
can be implemented consistent with the SDWA and EPA's regulations if 
``risk-based'' analyses of the projects demonstrate that the USDW will 
not be endangered in a way that could adversely affect the health of 
humans. his approach would depend on a number of factors: (1) that a 
more comprehensive evaluation of the quality of the proposed source 
waters confirms that total coliform bacteria is the only problematic 
parameter; (2) that a demonstration can be made that the biological 
contaminants will experience ``die-off' such that the presence of these 
contaminants in the USDW will not cause a violation of the MCL or pose 
an adverse health risk; (3) that both modeling and test monitoring 
confirm die-off after injection of the biological contaminants within a 
reasonable time-space continuum after injection into a saline/brackish 
aquifer; (4) that the use of ASR technology on the scale and with the 
number of wells proposed, results in recovery of a reasonable amount of 
injected waters and of reasonable quality; (5) that there are 
documented environmental benefits to be derived by the storing of 
seater in this manner; and (6) that use, and treatment if necessary, of 
the recovered water is consistent with its intended primary purpose, 
i.e., for ecosystem restoration.
    We have all come to recognize the complexity of the concerns 
involving raw water ASR implementation and the probability that 
additional concerns will also arise. Indeed, some concerns may not 
become known until actual project initiation. If these current and 
future concerns are to be addressed adequately so as to not threaten 
public health then the appropriate pilot projects and ``risk-based'' 
strategies will need to be developed, carried out and carefully 
evaluated. For example, if monitoring clearly demonstrates that total 
coliform bacteria is the only contaminant of concern, then a ``risk-
based'' analysis must demonstrate that coliform bacteria in the 
injectate will not impact any portion of the public currently using 
that aquifer or any surrounding aquifer as a source of water supply, as 
well as that no bacteria will survive long enough to pose risks down-
gradient or in the future.
    Other than for coliform bacteria, the proposed raw water injectate 
should be evaluated to determine if other contaminants are present that 
exceed MCLs for drinking water, or may otherwise adversely affect the 
health of persons. Appropriate water quality monitoring of both the 
source seater and the injection zone should be instituted both to 
characterize the quality of those waters and to ensure that no USDWs 
are endangered.
    In addition to monitoring the quality of water that is injected, 
appropriate water quality monitoring for contaminants that may form 
within the injection zone as a result of the injection activity should 
also be conducted. For example, it is conceivable the injection of 
oxygenated waters could cause the dissolution of uranium isotopes, if 
present, from the injection zone which would cause a threat to the 
USDW. Likewise, oxygenated waters could potentially sustain bacterial 
survival in the receiving USDW. Other potentially harmful effects from 
injection activity include the conversion of organic nitrogen to 
ammonium nitrogen, the methylization of mercury, and the formation of 
trihalomethanes should chlorination be utilized. Any proposed raw water 
ASR project should address these and other concerns that may arise.
    As a general matter, the injection zone for any proposed raw water 
ASR project should already contain water that is of lesser quality than 
the proposed raw water injectate. For example, it may be acceptable to 
inject fresh water from Lake Okeechobee containing coliform colonies 
that will die off in the brackish water of the Floridan Aquifer in the 
region. But the same quality of raw water could not be injected into 
the fresh water of the Floridan Aquifer in northern or central Florida. 
In other words, the proposed injection activity for the ASR project 
should not cause a current or future public water system to need more 
treatment to meet drinking water standards than would be necessary 
using the native waters of the injection zone aquifer.
    EPA believes that such large scale, untreated water ASR projects 
should be developed incrementally. Initial implementation should begin 
with pilot testing. If this testing indicates initial success with very 
low risk, then the project could be expanded in stages with each 
subsequent stage demonstrating the potential environmental benefit of 
ASR technology. It is critical that a favorable percentage of injected 
water be recoverable so that implementation of ASR technology provides 
a direct environmental benefit that is more advantageous than 
alternative water storage mechanisms. Also, the incremental 
implementation of ASR should closely monitor the rates and volumes of 
injected fluids, the wellhead injection pressure, and the pressure 
buildup within the injection zone. Injection pressure and/or pressure 
buildup within the injection zone must not cause fracturing of the 
overlying geologic unit so as to allow the injectate or formation 
fluids from the injection zone to migrate upward into zones with higher 
quality water, such as the Biscayne Aquifer.
    If all of these factors/conditions are satisfied, we believe that 
EPA, and the FDEP, can determine for this specific project that ASR 
injection is allowable under the SDWA without the requirement for 
sophisticated treatment of the raw water prior to injection. However, 
even if this decision is made, it may be necessary for FDEP to 
promulgate amended State rules to allow for injection of this type 
which does not meet drinking water standards at the point of injection. 
If any factor is not satisfied, the result may be that the proposed ASR 
cannot proceed without prior treatment of the injectate.
    It is my understanding that an ASR Issue Team, co-chaired by 
Richard Harvey, Director of EPA Region 4, South Florida Of lice, has 
been created by the South Florida Ecosystem Restoration Task Force/
Working Group to address the issues and concerns discussed above. I 
would like to encourage you to continue working with Richard and the 
other members of the Issue Team to resolve these concerns as 
expeditiously as possible and to develop an appropriate ``risk-based'' 
strategy. As always, EPA looks forward to working with you on these and 
other critical ecosystem restoration issues facing south Florida. If I 
may be of further assistance, please feel free to contact me.
            Sincerely,
            John H. Hankinson, Jr., Regional Administrator.
                                 ______
                                 
                             attachment ii
                       Land Acquisition Criteria
                         updated march 1, 1999
1. Criteria For Qualification of Projects:
    a. Must have non-Federal co-sponsor(s) willing to contribute 50 
percent cost-share.
    b. Projects that are part of a current land acquisition list 
prepared through an evaluation and selection process that incorporated 
broad public input can be included without additional detailed analysis 
and public review. New projects may be considered, but would require 
special attention to include dedicated opportunities for broad public 
review and comment.
    c. Intended use of land (and subsequent modifications) must be 
compatible with the C&SF Restudy Recommended Plan (can't preclude 
subsequent implementation of some Plan features).
    d. Land is vitally important to the South Florida ecosystem 
restoration effort, including but not limited to hydrologic or ecologic 
restoration.
    e. Land acquisition project is not already authorized and included 
in DOI's Fiscal Year Budget request, such as Everglades National Park 
Expansion, Big Cypress Park Expansion, etc.
2. Criteria for Ranking of Projects (not all criteria must be met, but 
        ``points'' accrued if these factors are true):
    a. Land includes habitat considered critical for implementation of 
Multi-species Recovery Plan (e.g., an imperiled habitat type such as 
dry prairie, panther habitat, etc.), or acquisition and modification of 
hydrology on the land will help to mitigate impacts on threatened and 
endangered species.
    b. Project adds habitat diversity to lands currently held in public 
ownership (e.g., short hydroperiod wetlands, wet pine flatwoods, wet 
prairies, sand pine scrub, etc.) .
    c. The land parcels are an important component of an overall plan 
to modify regional hydrology to more closely mimic historical hydro-
patterns.
    d. Land would provide critical linkage in wildlife corridor.
    e. Acquisition and modification of lands will improve regional 
water quality (e.g., creation of buffer, construction of water quality 
treatment features, restoration of natural drainage patterns, etc.)
    f. Acquisition (and subsequent modifications) would improve 
regional water quantity (e.g., implementation of storage facilities).
    g. Acquisition (and subsequent modifications) would improve timing 
& distribution of water.
    h. There is some level of local cost-share--thereby extending 
benefits that can be gained with Federal, state, and SFWMD funds.
    i. Lands are vulnerable to development.
    j. Lands will later be used for implementation of the Restudy 
Comprehensive Plan, including features anticipated for inclusion in 
proposed Feasibility Plans (e.g., SW Florida, Indian River Lagoon, 
Florida Bay, etc.)
Issues for Cover Letter:
    1) All of the projects on the list support one or more of the three 
goals for South Florida ecosystem restoration and protection. Because 
the South Florida ecosystem is of national importance, we believe that 
cost-sharing on these projects is responsible use of Federal funds.
    2) Several very critical land acquisition projects are not included 
in this list because they are already included in either the DOI's or 
the USAGE's fiscal year budgets. Examples include lands needed for the 
following: Kissimmee River Restoration Project; C-111 Project; 
Everglades National Park Expansion; Big Cypress National Preserve; and 
National Wildlife Refuges. Continued funding for purchase of these 
lands is critical to the restoration and protection of the South 
Florida ecosystem.
    3) Because of the importance of land acquisition in the overall 
restoration and protection effort, the subgroup recommends that the 
Working Group establish a Task Team to continue the development of a 
land acquisition strategy that identifies and prioritizes both small 
and larger parcels needed to meet the three restoration goals. The 
Restudy Team has done a great job in identifying lands needed to get 
the water right--we need a similar exercise to identify and prioritize 
lands needed to restore and protect critical habitats needed to support 
Florida's biological diversity--both projects that protect large tracts 
of habitat and those that protect and restore small localized tracts in 
or near the urban core areas.
                                 ______
                                 
                             attachment iii
                               memorandum
TO: Governing Board Members
FROM: Alan Hall, P.E., Director, Ecosystem Restoration Department
DATE: January 4, 1999
SUBJECT: Ecosystem Restoration Myth-management

    I am writing to give you information that might be helpful in 
addressing Terry Rice's recent comments in a Herald editorial. You have 
all received a copy of Terry Rice's op-ed on this subject, copy 
attached. For your benefit I feel that I need to provide to you some 
additional details related to what Col. Rice calls ``myths.'' He 
represents the Miccosukee Tribe in this and other matters; and, as 
such, presents a very specific point of view on this project. 
Representatives of the tribe have openly stated that they have no 
interest in the provision of flood protection to the 8.5 Square Mile 
Area (8.5 SMA). I will respond to each of his ten ``myths'' as 
presented in his article:
    1. It is true that the 8.5 square mile area does not have to be 
acquired for Everglades Restoration. However, it is also true that the 
acquisition is the least cost, in public funds, of all the alternatives 
which met the project criteria. It is important to note two things here 
related to the second part of this ``myth statement'': a) the Corps was 
directed to develop a plan to protect the area from increased flows; 
and b) this was presented to Congress in 1992. First, the Corps plan 
was designed to ensure that the 8.5 SMA did not get wetter because of 
increased flows; it was not intended to provide any measure of flood 
protection above the current conditions--which is none at all. And 
second, was developed in 1992, a full 3 years before completion and 
acceptance of the Natural Systems Model (NSM) which showed that 
restoration of the Everglades would require significantly higher stages 
in this area than was assumed in 1992.
    2. The Corps Plan would work ``as designed:'' which means that it 
would not provide flood protection to the area above current 
conditions. If flows in the Everglades are restored to NSM levels, the 
pumping facilities designed in 1992 are substantially undersized to 
even ``hold the line'' on flooding in the area, as highlighted by our 
consultants in their studies. Also, the higher water levels predicted 
by the NSM would necessitate greatly increased pumping as well as 
higher operations and maintenance costs, above those estimated by the 
1992 Corps design report. The two SFWMD consultants did confirm that 
the Corps Plan would allow for ``increased'' flows in the slough; but 
they also confirmed shot, from a public interest standpoint, the Corps 
Plan did not provide an adequate flood protection system for the 
residents or represent a wise expenditure of tax dollars. Building the 
1992 Corps Plan would not reduce the outcry from area residents for 
flood protection nor allow for improved operations of the L-31N system 
for restoration purposes.
    3. The SFWMD taxpayers, like all Floridians, are stakeholders in 
the restoration of the Everglades. Significant funding for this project 
will come from both the Federal Government and local agencies, as 
required by the Governing Board's action. Here, at least, Col. Rice 
begins to hint that, ``. . . If the Corps plan doesn't work . . .'' 
Terry Rice knows that the Corps Plan doesn't provide flood protection 
to the 8.5 SMA, and in fact he highlights this point in his ninth item.
    4. The 8.5 SMA is part of the flow path for restored flows in Shark 
Slough.--It is true that some of the area on the eastern edges, 
adjacent to L-31N, are Higher'' ground, to the extent that 7 to 8 feet 
above mean sea level can be called high ground. Just a few miles to the 
north of the 8.5 SMA the Corps is already experimenting with raising 
water levels from 7.5 to 8.0 feet above sea levels Eastern parts of the 
8.5 SMA which were not inundated by a restored slough would be expected 
to have a water table so high as to make the ground unsuitable much of 
the time for year-round agricultural purposes, let alone residential 
habitation.
    5. It will be up to Governor Bush to establish the state's position 
on this project in 1999. The Transition Team has received a briefing on 
this issue.
    6. Here, Col. Rice precisely states that the Corps Plan provides 
flood mitigation, not flood protection. The intimation is that, since 
the plan does not protect the residents from floods, no urban services 
will be required or demanded from Miami-Dade County. Based upon the 
history of the area, I think this is not a valid assumption. As stated 
previously, tribal representatives have openly admitted that they have 
no interest in the 8.5 SMA receiving flood protection.
    7. Total acquisition is certainly the least engineered option and 
the one with the least long-term operations and maintenance costs. It 
requires that we all pay the hard costs now instead of continuing to 
defer the high cost of inaction to future generations. This point was 
well made by Board member Berger during the workshop in November.
    8. The analysis was as open to input as possible. Col. Rice was 
specifically invited to be a member of the the District Review Team. He 
accepted and then, due to his many other commitments, was not able to 
fully participate with the rest of the team members in the evaluation 
process. There was no preordained outcome. I specifically instructed my 
staff and the consultants to proceed through the process with open 
minds and let the result be whatever is the best alternative for all 
concerned. Some team members from other agencies were quite skeptical 
of the process in the beginning but when it was completed they felt 
they could support its integrity and fairness.
    9. Finally, here Col. Rice admits that most residents want ``. . . 
a version of the Corps Plan.'' Even the residents could see that the 
Corps Plan would do nothing for them, nor meet any of their basic water 
control needs. If the 1992 Corps Plan had moved forward, over $40 
million of Federal funds and up to $150 million of local funds would 
have been spent, resulting in a living environment for the residents 
which would be no better than the very unsatisfactory conditions which 
they endure at the present. The net result would be a demand by even 
more residents in 4 to 5 years for a flood protection system!
    10. Col. Rice incorrectly states that the Governing Board's vote 
for total acquisition was a willing-seller only condition. This is 
clearly not the case. The only condition, which you placed on this 
option, was that we secure funding commitments from the Department of 
the Interior and Miami-Dade County before we close on the first 
properties in the area. The willing seller aspect of land acquisition 
was discussed as the appropriate first step to initiate this program; 
but, it was clear that further acquisition tools might be required 
later, after we had processed the anticipated heavy workload of willing 
seller deals over the next 2 years.
    We all want to expeditiously restore the only Everglades in the 
world. Implementing a project, such as the 1992 Corps Plan, which will 
cost many millions of dollars, and only lead to an increased demand for 
more flood protection in the future, is clearly not in the best 
interests of the Everglades, the residents, or the public taxpayers at 
large.
    I hope the above information is useful in clearing up any 
misconceptions that may have arisen as a result of Terry Rice's 
article. As always, if I can help explain this in any way please call 
me at 561-682-6103.
                                 ______
                                 
                             attachment iv
    Land Acquisition Criteria 3/3/99 (Comments from the Governor's 
                      Commission Meeting--3/3/99)
1. Criteria for qualification of projects:
              ( ) = discussed deletion < >= discussed add
    a. Must have non-Federal (co-)sponsor(s) willing to <acquire the 
land> (contribute 50 percent cost-share)
    b. Projects that are part of a current land acquisition list 
prepared through an evaluation and selection process that incorporated 
broad public upon can be included Thou additional detailed analysis and 
public review. New projects may be considered, but would require 
special attention to include dedicated opportunities for broad public 
review and comment.
    c. intended use of land (and subsequent modifications) must be 
compatible with the C&;SF Restudy Recommended Plan (cants preclude 
subsequent implementation of some Plan features).
    Concerns
    <bullet>  needs to be more than compatible--not different than, 
Restudy--don't supplant Restudy;
    <bullet>  which money pot being used;
    d. Land is (vitally) important to the South Florida ecosystem 
restoration effort, including but not limited to hydrologic or ecologic 
restoration. concern--``vitally'' not needed
    c. ELIMINATE--Land acquisition project is (not) already authorized 
and <not fully funded> (included) in DOI's Fiscal Year Budget request, 
such as Everglades National Park Expansion, Big Cypress Park Expansion, 
etc.
    Concerns
    <bullet>  implies that there is something routine about fed budget, 
no certainty year to year, change ``included'' to ``fully funded'';
    <bullet>  use authorized and not fully funded;
    <bullet>  do we need? perhaps not--WITHDRAW.
    ??Need, cost ``bang-for-the-buck'' and urgency has been established 
(split into 2 categories: Conservation vs. Project)
    ??Must be 1000 acres or greater in size (HOWEVER, ranking process 
may take care of)
    ??Title held by non-Federal entity
2. Criteria for ranking of projects (not all criteria must be met, but 
        ``points'' accrued if these factors are true):
    a. Land includes habitat considered critical for implementation of 
Multi-species.
    Recovery (e.g., an imperiled habitat type such as dry prairie, 
panther habitat etc.), or acquisition and modification of hydrology on 
the land will help to mitigate impacts on threatened end endangered 
species.
    b. Project adds habitat diversity to lands currently held in public 
ownership (e.g. short hydroperiod wetlands, wet pine flatwoods, wet 
prairies, sand pine scrub, etc.).
    The land parcels are an important component of an overall plan to 
modify regional hydrology to more closely mimic historical hydro-
patterns.
    d. Land would provide critical linkage in wildlife corridor.
    e. Acquisition and modification of lands will improve regional 
water quality (e.g., creation of buffer, construction of water quality 
treatment features, restoration of natural drainage patterns, etc.).
    f. Acquisition (and subsequent modifications) would improve 
regional water quantity (e.g. implementation of storage facilities).
    g. Acquisition (and subsequent modifications) would Prove timing & 
distribution of water.
    h. There is <meaningful> (some) level of local <government> cost-
share--thereby extending benefits that can be gained with Federal, 
state, and SFWMD funds.
    Concern
    <bullet>  drop ``some'';
    <bullet>  local--local government (city/county).
    i. stands are vulnerable to development.
    j. Lands will later be used for implementation of the Restudy 
Comprehensive Plan, including features anticipated for inclusion In 
proposed Feasibility Plans (e.g., SW Florida, Indian River Lagoon, 
Florida Bay, etc.) concern targeted to implement a specific project.
    k. Have non-Federal co-sponsor(s) willing to <acquire the land:> 
contribute 50 percent cost-share.
    l. Has a Public recreational use <that does no damage to the 
resource>
    Concern
    <bullet>  recreational use that does no damage to the resource.
    m. address cost, need and urgency.
                                 ______
                                 
    Responses by Ken Keck to Additional Questions from Senator Mack

    Question 1. Do you support applying section 902 of the 1986 Water 
Resources Development Act to all features of the Comprehensive Plan 
before us today. [This provision requires a congressional review if a 
project exceeds 120 percent at authorized cost]?
    Response. We would not be opposed to waiving the section 902 
requirement for the pilot projects included in the proposed WRDA. The 
section 902 policy should definitely apply to all project components of 
the Plan. The fact that the Plan features, and thus cost estimates, are 
conceptual, should not be used as a rationale for avoiding the budget 
discipline imposed by section 902 but rather as the basis for requiring 
the completed feasibility studies to come back to Congress for 
authorization so the costs can be reliably assessed. [See Agriculture's 
concerns No. 4]

    Question 2. Do you support congressional committee review and 
approval of the feasibility level of engineering and design work before 
any construction begin on the initial suite oilmen projects in the 
Comprehensive Plan?
    Response. No. We oppose congressional authorization at this time of 
project components in the Plan because these components have had almost 
no engineering or site-specific optimization studies that demonstrate 
their value or cost-effectiveness. Conditional authorization subject to 
committee review and approval of Project Implementation Reports prior 
to Appropriations has been suggested as an alternative. This 
alternative could be considered by South Florida Agriculture when the 
specifics of procedural safeguards are presented and understood [See 
Agriculture's concerns No. 4]

    Question 3. Do you support requiring full feasibility studies 
before any other projects are authorized under the Comprehensive Plan?
    Response. Yes. We believe that every project component in the Plan 
should be authorized based on a feasibility study consistent with 
section 905 of the Water Resources Development Act of 1986. The 
Administrations proposed program authority, which would allow the 
Secretary of the Army to approve projects costing as much as $70 
million, is not necessary for timely implementation of the Plan. 
Granting of this authority by Congress inevitably will result in less 
emphasis on project justification and identification of the most cost-
corrective alternatives for investments of significant magnitude. [See 
Agricultures concerns No. 4]

    Question 4. Do you support modifying the definition of the South 
Florida Ecosystem to make clear the system includes the lands and water 
within the boundaries of the South Florida Water Management District as 
they existed on July 1, 1999?
    Response. We do not understand the rationale for modifying the 
definition in section 528(a)(4) of WRDA 1996 but will consider this 
further, once explained. We do not oppose the use of this term, as 
defined, combined with the term ``natural system'' in the second 
Graham/Mack Staff draft of Section 3, WRDA 2000.

    Question 5. Do you support a provision making clear the Corps of 
Engineers is only authorized to study the question about providing an 
additional 245,000 acre-feet off water to the natural system?
    Response. We do not support any reference to the Chiefs Report of 
June 22, 1999. The issue of the additional 245,000 acre-feet is 
discussed adequately in the April 1999 Report and any reference in WRDA 
2000 is unnecessary and would perpetuate the mistrust generated by the 
Chief's Report. The Corps of Engineers needs no additional authority to 
study any aspect of the C&S Florida Project because general authority 
was provided in WRDA 1996. [See Agriculture's concerns No. 5]

    Question 6. Do you support language making clear that the Corps 
must work with the State of Florida to ensure all groundwater 
discharges resulting from the Comprehensive Plan meet all applicable 
water quality standards and water quality permitting requirements?
    Response. We support language making it clear that both surface and 
groundwater discharges from C&S Florida Project facilities meet all 
water quality standards. Groundwater discharges should not be singled 
out. [See Agriculture's concerns No. 8 and subsection (c) of proposed 
WRDA 2000.]

    Question 7. Do you support replacing the project purposes language 
stated in (c)(1) of the Administration's draft with language restating 
the purpose of the Comprehensive Plan developed and passed in WRDA 
1996?
    Response. Yes. [See Agriculture's concerns No. 1 and subsection (b) 
of proposed WRDA 2000.]

    Question 8. Do you support additional programmatic authority for 
the Corps to construct projects of limited cost but are in keeping with 
the Plan's purposes and have independent and substantial benefits to 
Everglades restoration?
    Response. No. We believe such authority is unnecessary and will 
result in insufficient attention to project justification and cost-
effectiveness. Each project component should be properly considered to 
be a modification of the existing C&S Florida Project and that the 
incremental contribution of each project component to system 
performance for all project purposes should be demonstrated in Project 
Implementation Reports. Moreover, Congress should approve only project 
components whose incremental contributions to system performance, as 
measured in environmental and economic terms, are commensurate with 
their cost. [See Agriculture's concerns 44]

    Question 9. Do you support a 50/50 cost share between the Federal 
Government and the State of Florida on operations and maintenance of 
the project? If not please state the cost share you believe to be 
appropriate and why.
    Response. It is appropriate for the Federal Government to 
participate in the operations and maintenance cost of the project 
because current estimates are that 80 percent of the water will be used 
for restoration purposes. We support the 50/50 division also because 
that was the understanding of all the parties during the planning 
process. [See Agriculture's concerns No. 7 and subsection (h) of 
proposed WRDA 2000.]

    Question 10. Please provide your thoughts on the definition of 
Project Implementation Reports found in the Administration's language. 
Do you support this definition? If not, please provide suggestions as 
to how you would define these reports.
    Response. We are strongly opposed to the apparent weakening of 
future analyses that would result from the PIR definition in the 
Administration's draft. The Administration's language does not reflect 
the scope and content of these reports as described in the 
Implementation Plan in Chapter 10 of the Restudy Report of April 1999. 
WRDA 2000 should cite Chapter 10 of the April 1999 Report as provided 
in the second Graham/Mack Staff draft of section 3 of WRDA 2000. [See 
Agriculture's concerns No. 3 and subsection (g) of proposed WRDA 2000.]

    Question 11. Do you believe the Department of the Interior and the 
State of Florida should be on equal footing in developing any 
regulations related to assurance? If not, why?
    Response. No. Parity should exist between the State of Florida and 
the Federal Government not between the State and the Department of 
Interior. PIRs should be utilized to provide assurances by clearly 
defining how each project component will be operated, documenting the 
purpose of the component and quantizing the expected water supplies to 
be derived. The subsequent Project Cooperation Agreement for each 
component should codify operational intent and expectations by 
agreement between the State and Federal Governments. [See Agricultural 
concerns No. 2 and No. 7 and subsections (f) and (g) of proposed WRDA 
2000]

    Question 12. Do you support the reporting requirement in the 
Administration's bill? If not, how would you amend the reporting 
requirement?
    Response. No. The reports should be provided jointly by the State 
and Federal Governments and include periodic updates of the 
Comprehensive Plan and findings of the CROCEE and any other peer review 
panels. [See Agriculture's concerns No. 6 and subsection (c) paragraph 
(1) of proposed WRDA 2000]
    Mr. Ken Keck, Director Legislative and Regulatory Affairs Florida 
Citrus Mutual P.O. Box 89 Lakeland, FL 33802
                                 ______
                                 
    Responses by Ken Keck to Additional Questions from Senator Smith

    Question 1. You testified that the Governor's Commission was not 
given the opportunity to vote on the Implementation Plan. This is 
contrary to what both the minutes of the March 2 and 3 meetings 
indicate, as well as Section to of the April 1999 Restudy. Can you 
clarify?
    If Agriculture is opposed to authorization of the initial ten 
projects, as I have heard stated today, then why did Mr. Parsons and 
Mr. Aller, representatives for the agricultural community, vote for the 
Restudy, including the implementation plan, at the Governor's 
Commission Sleety on March 2 and 3, 1999?
    Response. You were correct in your testimony that the Governor's 
Commission did not vote on the Implementation Plan that was contained 
in Section 10 of the April 1999 Restudy.
    [The following are excerpts from letter signed by Philip S. 
Parsons:]
    The minutes of this meeting reflect, accurately, that:
    The Commission continued voting con the proposed amendments to, and 
unanimously adopted, the Commission's Report on the January 25, 19959 
Draft Implementation Plan of the C&SF Project Restudy.
    The Commission's Reports consisted of recommendations that related 
to the Comprehensive Plan and Implementation Plan but the Commission 
never voted at any time directly on either the Restudy Comprehensive 
Plan or the Implementation Plan. The Commission did adopt two reports 
relating to the Restudy, the one noted above on the January 25, 1999 
Draft Implementation Plan and an earlier Report under the title 
``Restudy Plan Report'' of January 20, 1999, transmitted to Governor 
Bush on January 27, 1999. These reports did not approve or adopt either 
the Restudy Comprehensive Plan or the Implementation Plan. The 
Commission could only make recommendations for consideration in the 
final plans because the Commission did not meet frequently enough to 
review each draft Plan. The Commission's reports made recommendations 
on a variety of issues raised by Commission members or the public.
    In addition, the two reports of the Governor's Commission did not 
recommend that the 10 Project Components in the Implementation Plan be 
authorized by Congress without full feasibility review. These reports 
provided a set of recommendations that in the words of the Governors 
Commission Chairman Pettigrew, ``were aimed at ensuring a full range of 
State, stakeholder and citizen input into the development of the 
Comprehensive Plan far the C&SF Project Restudy due to Congress on July 
1, 1999.'' The Commission did not meet again after March 2 and 3, 1999 
and took no action on the Army Corps of Engineers' Restudy Plans and 
Report of April 1999.
    The Commission's Report of January 20, 1999 contained recommended 
consensus assurance language dealing with urban, agricultural and 
natural system concerns. Some of this language, but not all, was 
included in the later Implementation Plan contained in Section 10 of 
the April 1999 Restudy Report. The further recommendation of the 
Commission contained in its later report adopted on March 3 was that 
``the entirety of the consensus assurance language'' be contained in 
the final Restudy Report of April 1999. This was not done.
    The Report adopted at the March 3 meeting of the Commission did not 
deal with the Implementation Plan contained in Section 10 of the April 
1999 Restudy Report but rather an earlier draft of the Implementation 
Plan dated January 25, 1999. Further, Mr. Aller, as a member, did vote 
on matters before the Governor's Commission but was in attendance in 
March 1999 as an alternate for Mr. Wade and could not vote on anything 
before the Commission.
    It important to also point out that several comments from 
agriculture were submitted to the Corps of Engineers on the draft 
Implementation Plan of January 25, 1999. Among those commenting was Bob 
Crawford, Commissioner of the Florida Department of Agriculture and 
Consumer Services. Mr. Chuck Aller was Commissioner Crawford's and the 
Department of Agriculture's representative on the Governor's 
Commission. In Mr. Crawford's letter of February 5, 1999 he commented 
on the issue of providing an adequate feasibility analysis prior to 
congressional authorization:
    In addition, the Project Implementation Report (PIR) process should 
offer the opportunity to resolve technical and economic feasibility 
issues prior to authorization. To protect the integrity of this 
process, Congress should not be asked to authorize many of the Plan's 
major components until after a final PIR has been completed. The time 
table delineated in the Plan's initial proposed authorization provides 
ample time to complete the PIR and still obtain congressional 
authorization before construction is scheduled to begin. Maintaining 
this discipline will prove the credibility of the Restudy in Washington 
and Florida and will strengthen the chances for long term 
implementation.
    The position of agricultural interests in advocating a feasibility 
analysis prior to congressional authorization has been a consistent 
recommendation both before and after the Governor's Commission meeting 
of March 2 and 3, 1999 in November 1998 the Agricultural Advisory 
Committee to the South Florida Water Management District adopted a 
position statement on the Restudy that included:
    Major project elements must have complete engineering, 
environmental and economic evaluation with an opportunity for public 
review and comment before congressional authorization is sought.
    There are many other written and oral statements from Agricultural 
interests regarding the Restudy that are all consistent with the 
comments of Commissioner Crawford and the position statement of the 
Agricultural. Advisory Committee. I cannot recall any statement to the 
contrary.
    I have spoken to Dr. Bonnie Kranzer, director of the Governor's 
Commission and to Mr. Chuck Aller. Both confirm my understanding, 
reflected here. that the Governor's Commission did not vote on or 
approve the Restudy generally or the Implementation Plan dunging the 
March 2 and 3, 1999 meeting or at any other time. More specifically, 
the Governor's Commission never voted to endorse or approve 
congressional authorization of the 10 initial projects or programmatic 
authorization prior to completing a full feasibility review through 
Project Implementation Reports or otherwise.
    I have also spoken to Mr. Mike Collins, Chairman of the Governing 
Board of the South Florida Water Management District. He also confirms 
that agricultural interests have always been consistent in opposing the 
authorization of project components prior to the feasibility review.
    I have attached copies of the minutes from the Governor's 
Commission meeting of March 2 and 3, 1999, the Commission's Reports and 
letters from Commissioner Crawford and several agricultural interests 
reflecting Agriculture's consistent position in advocating completion 
of feasibility and economic analysis prior to authorization of further 
Central and Southern Florida Project features.
                                 ______
                                 
           Board of Commissioners, Miami-Dade County, Florida
                         resolution no. 300-00
   resolution supporting the restoration of the everglades, the fair 
distribution of water to urban and agricultural users and the equitable 
   allocation of non-federal costs among state and regional interests
    WHEREAS, the Governor's Commission for the Everglades is overseeing 
the Comprehensive Everglades Restoration Project (CERP), concerning the 
restoration of the Everglades and ensuring future water supplies for 
urban and agricultural users, and
    WHEREAS, Miami-Dade County wholeheartedly recognizes the importance 
of a restored Everglades as a national, state and regional priority, 
along with the fair distribution of water to urban users and 
agriculture; and
    WHEREAS, current funding proposals for the CERP do not allocate 
costs equitably among all state, regional and local interests, and 
require adjustment, and
    WHEREAS, the impact of implementation of the CERP on flooding is 
not known at this time and significant areas of South Florida are 
subject to frequent and severe flooding, and
    WHEREAS, flood protection is part of the mission of the South 
Florida Water Management District, and limited evaluation of flooding 
impacts in urban and agricultural areas was conducted in the 
development of the CERP, and
    WHEREAS, the CERP has numerous projects proposed within the Lower 
East Coast which will benefit the overall system, but are expensive to 
construct, operate and maintain, e.g., two wastewater re-use plants 
planned to be located in Miami-Dade County, and
    Section 6. The Army Corps of Engineers and the South Florida Water 
Management District must act to ensure that the proposed components of 
the plan will maintain or enhance existing levels of flood protection 
in all urban, agricultural and environmental preservation areas, and 
that
    Section 7. The Army Corps of Engineers and the South Florida Water 
Management District must commit to the people of South Florida that the 
various related projects under consideration will not result in adverse 
water quality or flooding impacts anywhere in Miami-Dade County.
    Section 8. The Federal Government should fund 50 percent of the 
County's aquifer storage and recovery facilities.
    Section 9. The Army Corps of Engineers and the South Florida Water 
Management District should expedite the investigation, as required in 
the CERP, of alternative sources of water other than reuse due to its 
high construction, operation and maintenance costs. Additionally, the 
ACOE and the South Florida Water Management District should evaluate a 
more equitable distribution and location, throughout the entire 
watershed, of the expensive and technologically unproven components of 
the CERP, in particular the reuse facilities, for a more equitable 
distribution of available freshwater supplies.
    I, HARVEY RUVIN,Clerk of the Circuit Court in and for Dade County, 
Florida, and Ex-Officio Clerk of the Board of County Commissioners of 
said County, DO HEREBY CERTIFY that the above and foregoing is a true 
and correct copy of Resolution No. R-300-00, adopted by the said board 
of County Commissioners at its meeting held on March 21, 2000.
    IN WITNESS WHEREOF, I have hereunto set my hand and official seal 
on this 6th day of April, A.D. 2000.
    Harvey Ruvin, Clerk Board of County Commissioners Dade 
                                           County, Florida.
                               __________
  Statement of David E. Guggenheim, Florida Co-Chair, The Everglades 
  Coalition and President & CEO, The Conservancy of Southwest Florida
    Thank you for the opportunity to provide testimony today, and thank 
you again for choosing the Everglades Coalition's fifteenth annual 
conference in Naples as the venue for the committee's field hearing 
earlier this year.
    I am David Guggenheim, Florida Co-Chair of the Everglades Coalition 
and President & CEO of The Conservancy of Southwest Florida, based in 
Naples, Florida. I hold a Ph.D. in Environmental Science & Public 
Policy.
    The Everglades Coalition represents 40 national, State and local 
organizations working together to protect and restore the Greater 
Everglades Ecosystem. The Coalition represents a broad diversity of 
organizations, including environmental and recreational groups, civic 
organizations and foundations, and represents organizations covering 
the broad geographical extent of the Greater Everglades Ecosystem, 
which stretches from the headwaters of the Kissimmee to the Florida 
Keys, across the entire South Florida peninsula.
The Urgency of Restoration
    Today America's Everglades are our nation's most endangered 
ecosystem. Our lack of foresight over the past century has left the 
Everglades in a devastated condition that threatens not only the 
splendid creatures that live within and winter there from all over the 
nation, but a way of life for millions of people who call--and will 
call--South Florida their home.
    The Coalition strongly believes that Congress should move forward 
this year to enact legislation that truly results in the restoration of 
America's Everglades, and we believe that the Restoration Plan 
submitted by the Corps clearly contains numerous strong points. 
However, there are several areas where the Coalition believes the 
legislation can be and must be improved to ensure that restoration 
succeeds. Our testimony provides these specific recommendations.
    Last week, the Florida legislature made good on its commitment to 
Everglades restoration by approving legislation that establishes a long 
term funding plan, meeting another critical restoration milestone. 
Advancing the Federal authorizing legislation this year will ensure 
that the Federal and State components of this effort move forward as 
one, and will ensure that restoration can begin without delay.
    Today, the status quo represents the greatest risk to the ecosystem 
and to taxpayers. We are pushing the system and the endangered species 
that live there to the brink, with unknown consequences. Restoring the 
system has already waited more than 30 years, over which time the 
system has seen dramatic degradation. With every passing day, 
restoration will be more expensive and its success more uncertain. Our 
biggest enemy is inaction.
    Opportunities for restoration and for preventing the need for 
further restoration--especially opportunities for acquiring critical 
lands--are disappearing due to South Florida's rapid growth.
    Severe habitat loss and fragmentation continues throughout South 
Florida at a rapid pace, and populations of threatened and endangered 
species continue to decline. To make matters worse, infestation by 
exotic species continues to spread, forcing native species from their 
habitat.
    Without restoration, water levels and water quality will continue 
to be far from natural, further threatening native species. Recent 
fires in South Florida highlight the need to restore water tables to 
their natural levels.
    Nearly one trillion gallons of water that the ecosystem needs is 
sent to tide each year. Disruption of the timing of fresh water flows 
has led to too little or too much fresh water in the system. 
Ironically, in an ecosystem that is now often desperately thirsty, our 
wasteful practices have managed to make fresh water a pollutant. In 
excess quantities, fresh water is severely damaging South Florida's 
estuaries, with impacts to commercially--and recreationally--important 
fish species. Such discharges have also affected tourism.
    Last week, Lee County took steps to file an injunction against the 
South Florida Water Management District to stop harmful fresh water 
discharges from Lake Okeechobee from impacting the Caloosahatchee 
estuary. It is illustrative of how it has become routine to trade an 
impact in one part of the system for an impact in another part.
    Without the ability to store fresh water, the system is suffering 
from a lack of this precious and ironically abundant resource. Salt-
water intrusion into estuaries and groundwater is impacting freshwater 
populations and drinking water supplies. There has been a dramatic 
decline in sea trout populations over the past several decades, whose 
buoyant eggs depend on a specific balance of salt and fresh water.
    There are numerous examples around the Greater Everglades Ecosystem 
that illustrate how humankind has pushed the system to its limits and 
underscore the urgent need for restoration.
    The single greatest common characteristic among the 68 threatened 
and endangered species within the Everglades ecosystem is the 
degradation of habitat. While each has individual challenges, 
restoration of as much of the historic Everglades watershed will begin 
their road to recovery.
    Only 50 Florida Panthers remain in the wild today. Population 
growth and agricultural expansion in South Florida are compromising the 
ability of natural habitats to support a self-sustaining panther 
population. Much of the panther's habitat lies in Southwest Florida, 
among the fastest growing regions in the nation today.
    At Corkscrew Swamp Sanctuary, wood stork nesting productivity is 
down 97 percent since 1958 due to habitat loss, especially isolated 
wetlands and ephemeral pools.
    The fate of the Cape Sable Seaside Sparrow is precarious, forcing 
the system to be managed under emergency operating conditions in order 
to hold back water and prevent the flooding of this endangered bird's 
nesting habitat.
    The Greater Everglades Ecosystem is a large, complex ecosystem 
whose components are closely interrelated. This restoration is critical 
to restoring the health of the overall system. The declining health of 
Everglades National Park is a stunning lesson of how in South Florida, 
land and water are inseparably linked and that protecting our public 
lands requires more than drawing a line on a map. Clearly, we must also 
protect and restore the lands and flowways around these treasures. 
There are numerous other examples throughout the ecosystem, including 
exquisite aquatic resources. For example, Florida Bay and North 
America's only living coral reef tract along the Florida Keys are part 
of this ecosystem, and their health depends upon how the system 
functions many miles upstream.
WRDA 2000 Legislation
    The Coalition believes that Congress must pass an authorization 
package that puts in place a program to achieve significant restoration 
of the Greater Everglades Ecosystem. This can only happen if the 
legislation includes the specific procedural and legal tools to 
accomplish this unprecedented and important mission.
Recommendations to Improve Legislation
    The legislation that has been drafted by the Administration and 
introduced in Congress clearly contains numerous strong points. For 
example, it appropriately establishes the priority of restoring the 
ecosystem first, with water supply and flood protection goals 
concurrent but subsidiary. The legislation also includes initial 
authorization of 11 projects that will provide critical benefits for 
the natural system.
    However, the Coalition believes that the legislation should be 
improved in a number of areas to ensure that it achieves its intent of 
restoring the Everglades. We offer the following eight points:
    1. Assurances for the Natural System: Stopping the Decline of the 
Everglades Ecosystem: First and foremost, this effort is about 
restoring an ecosystem. The principal goal of the CERP is to restore 
the natural functioning of the Greater Everglades Ecosystem. The 
project also has secondary benefits of flood control and water supply, 
which must be compatible with this principal goal. The Coalition 
strongly believes that the authorizing legislation must ensure that, as 
the CERP is put in place over time, the Everglades ecosystem does not 
continue to decline as a result of human or other consumptive uses. 
Specifically, any assurance to current consumptive users that their 
current flood protection and water supply ``benefits'' from the 
existing water management system will be preserved must be matched by 
an equivalent assurance for the natural system.
    The legislation only protects sufficiently current consumptive 
uses. The entire natural system is not ensured its current level of 
water management benefits--which are already woefully inadequate as we 
have all now recognized--thereby allowing current consumptive users the 
opportunity to increase their share of the benefits. Indeed, the 
legislation even opens the door for future consumptive users to 
receive--and vest themselves in -water or flood protection, at the 
expense of the natural system. We believe it is unacceptable to 
purposefully allow the deterioration in the Everglades to increase 
simultaneous with implementation of the restoration plan. If allowed, 
the difficulty of the restoration task will be compounded and the 
resource placed in extreme jeopardy, particularly in the event the CERP 
is only partially implemented.
    The true measure of success in Everglades restoration is not just 
that we successfully repair the damage already done to the ecosystem, 
but that we prevent the need for a large-scale restoration in the other 
portions of the system, including rapidly-developing Southwest Florida. 
The CERP's ``Southwest Florida Study'' seeks to achieve this, but will 
only be able to succeed if the appropriate assurance language exists in 
the legislation.
    2. Ensuring a Full and Equal Interagency Partnership: The 
Department of Interior and the Corps must be co-equal partners in 
developing the design, plan and regulations for at least those new 
project features that are intended to provide benefits for federally-
managed lands. The legislation appropriately requires
    development of rules that will ensure that each specific CERP 
project achieves its intended benefits and the requirements of the so-
called programmatic regulations. However, the legislation provides the 
Department of Interior with only a consultative role in the development 
of the project-specific regulations, which are the primary means by 
which the restoration process is implemented. This consultative role is 
essentially little more than Interior's current role in a process that 
has regularly failed the Everglades.
    We believe that Interior, as the agency with legal responsibility 
and scientific expertise to protect the federally-managed lands, must 
be accorded partnership status on the projects intended to restore 
these lands. It has been the plight of these Federal lands, most 
prominently Everglades National Park, which has attracted national 
attention and served as a catalyst for restoration of the entire 
ecosystem.
    3. Peer Review: The authorization should institutionalize the 
independent peer review process led by the National Academy of Sciences 
to review and provide recommendations to the agencies on the 
restoration process for the entire 30 years. Such a body, which would 
be a continuation of the existing Committee on Restoration of the 
Greater Everglades Ecosystem (CROGEE), would also provide Congress with 
an independent source of expertise to enable it to better evaluate the 
progress of restoration projects and activities. CROGEE will scrutinize 
the plan to see if there are ways to achieve greater ecological 
restoration at a lower cost and investigate some of the plan's 
experimental technologies to see if they are viable. CROGEE will also 
play an important role in ensuring that the translation of broadly-
stated goals into specific, measurable targets results in ecologically-
meaningful measures.
    4. Coordination of Other Federal Actions: The authorization should 
include a process that will ensure coordination of other Federal 
actions in and around the Everglades with the restoration effort. It is 
counter-productive and poor public policy to have other Federal 
agencies pursuing ends that are in conflict with the restoration 
effort, as with the inadvisable plan for a major commercial airport at 
the former Homestead Air Force Base at the edge of the Everglades. We 
believe that such a provision could have helped avoid the breakdown 
between Federal, State, and local agencies on this matter. Similarly, 
CERP project features that overlap with previously-authorized 
restoration projects, such as the Modified Water Deliveries Project and 
the C-111 Project, need to be formally incorporated, at least for 
design purposes, into these efforts to ensure expedited and efficient 
restoration.
    5. Pilot Projects Must Go First: There should be no irreversible or 
irretrievable commitment of resources to CERP project features that 
rely upon pilot projects for their justification. (Such a commitment of 
resources might include financial expenditures or natural resource 
destruction.) For example, the Lake Belt pilot project should also 
examine alternative storage approaches, expediting the benefits to the 
natural system, and collateral environmental impacts. In addition, 
adjacent wetlands potentially necessary as mitigation for the reservoir 
storage areas should not be impacted until completion of the pilot 
project.
    Similarly, development of land in the L-3 IN project area should 
not proceed until the completion of the pilot project for this critical 
CERP project feature. We believe that there are many questions 
regarding the effectiveness of the seepage management technology on 
which the current concept of the larger L-3 IN project relies. The 
results of the pilot project will determine specifically whether or not 
additional land will be required in order to achieve project benefits. 
Indeed, we continue to recommend that the L-3 IN pilot project be 
significantly expedited. This project should be closely coordinated 
with implementation of the Modified Water Deliveries Project to avoid 
further delays to this current restoration program and the creation of 
a new problem--increased groundwater levels under private land east of 
the L-3 IN.
    6. Clearly Stated Benefits: The authorization should be crystal-
clear about what benefits it intends to provide for America's 
Everglades. These benefits are spelled out in some detail in the CERP 
documents and transmittal letter; accordingly, provisions in the 
legislation, such as those concerning the programmatic and project-
specific regulations, should make specific reference to these 
documents.
    7. Land Acquisition: The authorization should provide a process to 
expeditiously purchase lands necessary for wildlife habitat and CERP 
projects that are under extreme development pressure.
    8. Agency Reports to Congress: The authorization should require 
agency reports to Congress concerning CERP's progress every 2 years, 
not every 5 years as currently proposed. The two-year report 
requirement would be consistent with the WRDA cycle and enable more 
engaged and effective review by Congress and the NAS.
Importance of Authorizing the Initial Package of 11 Projects
    The legislation contains 11 projects for authorization this year. 
The Everglades Coalition believes that approval of all 11 of these 
projects is absolutely essential. These projects were chosen 
specifically for their ability, in concert, to provide significant 
restoration benefits within the first decade of restoration. These 
projects are either interconnected or provide relief to portions of the 
system enduring critical stress, and serve to ``front-load'' 
restoration with maximal benefits early on. In addition, approval of 
the initial 11 projects is important to the State/Federal partnership 
in allowing the State to move forward rapidly with purchasing land 
necessary for the CERP. Given the pace of development in South
    Florida, anything that delays land acquisition guarantees a higher 
cost to taxpayers and could serve to limit options available today.
    The Coalition understands the sensitive issue of contingent 
authorization, but we hope that this issue does not prevent the 
restoration from moving forward this year. The bottom line is that the 
ecosystem needs a process that enables restoration to proceed 
expeditiously with appropriate oversight by Congress, and the Coalition 
would support such a process.
Approval of the Talisman Water Storage Reservoir (EAA Storage)
    Included in the list of 11 projects is the first major reservoir to 
be constructed by the Corps--commonly referred to as the Talisman Water 
Storage Reservoir. This project will be built on most of the 50,000 
acres of publicly owned land in the Everglades Agricultural Area (EAA) 
that was purchased last year at a cost of $135 million to taxpayers. 
This project represents one of the highest priorities of the Everglades 
Coalition because it begins the process of recapturing water and 
seasonally storing water that the Central and Southern Florida Project 
is currently wasting. Therefore, we believe that any Everglades 
Restoration legislation that fails to include an authorization for this 
project will be inadequate.
    Storage of water in this location is also important because it is 
adjacent to, and will complement, the Stormwater Treatment Areas (STAB) 
that the State is spending $800 million to construct as part of a legal 
settlement. The prime location of the Talisman Reservoirs will allow 
for water to be stored next to these filtration marshes, and 
appropriately timed releases of the stored water can ensure that the 
wetlands function as intended and that the filtered water released into 
the Central Everglades is clean. Because the capacity of these 
filtration marshes is 240,000 acre-feet of water per year, nearby 
storage will negate any future temptation to ``stack'' inappropriate 
quantities of water that would diminish their effectiveness.
    While evaporation of water from the Talisman Reservoir will occur, 
the net gain of water will still greatly increase the amount presently 
available for the natural system. Further, such water essentially is 
already being lost or mismanaged because it can only be sent to the 
Caloosahatchee and/or St. Lucie Estuaries, backpumped into Lake 
Okeechobee, or sent into the Everglades at the wrong time, with the 
wrong water quality, and/or in the wrong quantity.
    As a result of a series of land swaps that occurred when the 
government purchased the Talisman lands, the government owns a 
contiguous block of land in the southern EAA. An agreement was signed 
that construction of this critical reservoir can commence in 2005. The 
land was purchased for the sole purpose of storing water for the 
restoration of the Everglades, but is being leased to sugar growers and 
will remain in cultivation until it is needed for restoration in 2005. 
To be perfectly clear, the Coalition urges all sides to abide by this 
contract. When this agreement expires, however, we believe that the 
taxpayers are entitled to utilize their investment for its intended 
purpose.
    If Congress fails to authorize the Talisman Water Storage Reservoir 
this year, it is very likely that the government would miss several key 
dates by which the sugar growers must be notified of the termination of 
their leases--the first of which is October 1, 2002. This Congress 
cannot assume that the next Congress will act to meet that critical 
deadline. If these dates are missed, the leases are automatically 
extended in their present form (which are below fair market value), 
restoration is delayed, and a new de facto subsidy to the sugar 
industry is created.
    That Talisman Water Storage Reservoir will not immediately solve 
all of the problems facing the Everglades, but it will provide 
immediate relief from the current crisis conditions by giving water 
managers some additional and badly needed flexibility.
    The Corps' Everglades Restoration Plan (Alternative D-13R) 
anticipates water being stored on 60,000 acres in the EAA at a maximum 
depth of 6 feet. This would ultimately result in the storage of 117.3 
billion gallons (360,000 acre-feet) of water on publicly owned lands in 
the EAA.
    <bullet>  The first two phases of the Talisman lands to be utilized 
for water storage in the EAA are a little more than 40,000 acres. The 
Corps has proposed storing water at a maximum depth of six feet, 
therefore, the Talisman Water Storage Reservoir will store 
approximately 78.2 billion gallons of water (240,000 acre-feet).
    From January 25, 1999 to January 24, 2000, 15.9 billion gallons 
(45,444 acre-feet) of polluted, phosphorus-laden water were back-pumped 
from the Everglades Agricultural Area into Lake Okeechobee.
    <bullet>  From January 25, 1998 to January 24, 1999, 24.5 gallons 
(75,444 acre-feet) of polluted, phosphorus-laden water were back-pumped 
from the Everglades Agricultural Area into Lake Okeechobee.
    Even though the South Florida Water Management District (SFWMD) 
estimates that the EAA is responsible for approximately 5 percent of 
the total phosphorus that is deposited in the Lake. We believe that 
this indicates the magnitude of the phosphorus problems, especially 
given that phosphorus is not naturally produced in Lake Okeechobee. The 
SFWMD's estimate of phosphorus levels in the Lake is illustrative of 
the severity of the present ecological crisis. We also believe that it 
clearly demonstrates the need for the Talisman Reservoir and the 
necessity of congressional action this year for the entire CERP.
    Once one of America's premier bass fishing spots, Lake Okeechobee, 
is also being hurt by a management regime that has treated it as a 
reservoir for unwanted polluted water. As previously indicated, water 
managers are presently attempting to restore more natural water levels 
in the Lake but are finding that their options boil down to making the 
Lake's problem another area's problem. This ``Hobson's Choice'' is 
repeated throughout South Florida because water managers can only pit 
one part of the system against another part when they try to alleviate 
any of the numerous problem of the current C&SF project. This scenario 
will continue to exist until we build water storage back into the 
system and demonstrates why we believe we must authorize the Talisman 
Reservoir this year.
    Hurricane Irene dumped up to 17 inches of rain on South Florida 
last October. To protect their investment, sugar growers began pumping 
their fields before Irene's arrival and had them dry as quickly as 
possible after the storm. Water managers could only put the EAA's water 
in a finite number of places--the coastal estuaries, Lake Okeechobee, 
and the Central Everglades. Compared to the residential areas, Irene 
spared the EAA of the higher rainfall amounts. However, when the 
pumping practices in the EAA are coupled with the necessity of 
providing flood protection, water managers have only one option: Send 
the water to where no one lives.
    We believe the water management crisis created by Hurricane Irene 
dramatically illustrates how the present system fails the Everglades. 
Since Irene, several of my colleagues have unsuccessfully attempted to 
obtain information from the SFWMD as to where water was pumped from and 
discharged. We believe that these figures would demonstrate that the 
Talisman Reservoir would not have solved all the problems. At the same 
time, however, we also believe that these figures would show how this 
much-needed flexibility could meet the multiple needs of South Florida 
and the Everglades.
The Everglades for All Generations
    One of the highlights of my work at The Conservancy is our 
education program. Each year, we teach thousands of school children 
about their home in the Western Everglades. We take many of these 
children into the field to experience a swamp walk, a beach hike or a 
snorkeling adventure. Invariably, they are touched by a profound sense 
of awe and wonder, and are bursting with hundreds of questions about 
what they see. But they are troubled to learn that the Everglades were 
suffering back when I was their age, and it is hard for them to 
understand why the Everglades are still imperiled today. Today we stand 
at the brink of a tremendous opportunity to right a terrible wrong, to 
rescue a beloved ecosystem before it is too late. It is a 
responsibility we must accept on behalf of our children and their 
children. Our success now depends upon swift and decisive action, and 
with our presented modifications, the restoration bill is stronger.
    The Everglades Coalition is grateful for the opportunity to provide 
input to the committee, and we sincerely thank you for your leadership 
and vision on restoring America's Everglades.
                                 ______
                                 
  Responses by David Guggenheim to Additional Questions from Senator 
                                 Smith

    Question 1. As a member of the environmental community, how to you 
respond to the concept of Assurances, particularly the Programmatic 
Regulations? Do you fled it troubling that a plan will be tied, in 2 
years, to project results that may not be apparent for 20-30 years?
    Response. The volume, timing and distribution of water essential 
for the restoration and preservation of the Everglades must be 
calculated and reserved at the beginning of the restoration process. 
These programmatic rules, including reservations, should occur under 
Federal programmatic regulations established pursuant to WRDA 2000. 
There is significant precedent for such Federal programmatic 
regulations, including water reservations for the Everglades, dating 
back to 1970 (Pub. L. No. 91-282). If we wait specifically to reserve 
water for the natural system as it becomes available with the 
completion of CERP projects, we run a significant risk that new water 
will be subsumed by urban and agricultural uses, including under 
Florida's consumptive use permitting process. The only way to be 
certain that new water will be allocated to the natural system when it 
becomes available is to identify and reserve it at the beginning of the 
process.
    For example, if we wait to reserve water for the natural system 
until it becomes available as a result of specific CERP projects, there 
is virtually certain to be intense conflict due to efforts to permit 
this ``new'' water to urban and agricultural uses under Florida's 
consumptive use permitting process. Chapter 373.236 Florida Statutes 
states that consumptive use ``permits shall be granted for a period of 
20 years, if requested for that period of time, and if there is 
sufficient data to provide reasonable assurance that the conditions for 
permit issuance will be met for the duration of the permit.'' There 
will be considerable pressure over the next several years, to permit 
for 20 years ``new'' water far ahead of its availability. The only way 
to be certain that new water will be allocated to the natural system 
when it becomes available is to identify and reserve it at the 
beginning of the process.
    Regarding the implementation period of the plan, we understand that 
ecosystem restoration is a long process. The Comprehensive Plan in our 
view is a good road map for achieving long-term restoration benefits, 
in part because it recognizes the uncertainty involved in restoring a 
natural system. Restoring an ecosystem requires moving forward in small 
increments, monitoring the affects of our actions and then changing and 
adapting the plan if necessary along the way. For these reasons, we 
strongly recommend: (1) a comprehensive framework of assurances to 
ensure that adaptations of the plan are driven by restoration needs and 
that hydrologic resources are available to meet such needs, and (2) 
strong independent scientific oversight.

    Question 2. Why is it important to move forward with authorization 
of this initial set of ten projects this year? Can you describe what 
the impacts of delay would mean for the ecosystem?
    Response. The beneficial effects of restoration will not be 
immediate. The natural system will require many years to recover. It is 
therefore important to initiate restoration as soon as possible.
    Recognizing the precipitous decline of the natural system, the 
Restudy Team identified 10 projects that it felt produced important 
restoration benefits in the first 10 years of CERP implementation. The 
initial set of ten projects will focus on water storage, 
decompartmentalization and habitat conservation. Any delay in 
initiating these projects would result in pushing back restoration 
benefits that the system desperately needs to be realized as soon as 
possible; in further increases the cost of restoration; and would make 
the success of restoration less certain.
    The most fundamental thing that must happen in the Everglades as 
soon as absolutely possible is an increase in available water storage 
capacity. Water storage is not only an important restoration component, 
it is needed immediately to slow the precipitous decline of the system, 
so that the Everglades will survive long enough for us to restore it.
    Without the ability to store ample fresh water, the Greater 
Everglades Ecosystem suffers from both a lack and overabundance of this 
resource. Without the means to store fresh water, more than a trillion 
gallons are dumped to tide each year. This is water that is later 
needed during dry periods. Consequently, the system is routinely 
managed under emergency operating conditions, threatening natural 
systems by severely disrupting the natural hydrological cycle, and 
threatening cities and agriculture by water shortages and flooding 
threats.
    Salt-water intrusion into estuaries and groundwater is impacting 
freshwater wildlife populations and drinking water supplies. There has 
been a dramatic decline in sea trout populations over the past several 
decades, whose buoyant eggs depend on a specific balance of salt and 
fresh water. The wasteful ``pulse'' releases of fresh water into the 
Caloosahatchee River to the west and the St. Lucie River to the east 
have had a devastating impact on the respective estuaries.
    Recently, Lee County took steps to file an injunction against the 
South Florida Water Management District to stop harmful fresh water 
discharges from Lake Okeechobee from impacting the Caloosahatchee 
estuary. It is illustrative of how it has become routine to trade an 
impact in one part of the system for an impact in another part. Without 
restoration, water levels and water quality are far from natural 
levels, threatening native species.
    The single greatest common characteristic among the 68 threatened 
and endangered species within the Everglades ecosystem is the 
degradation of habitat. Severe habitat loss and fragmentation continues 
throughout South Florida at a rapid pace. At the same time, rapid 
infestation by exotic species continues to climb, forcing native 
species from their habitat. While each species has individual 
challenges, restoration of the historic Everglades watershed will begin 
their road to recovery.
    Only 50 Florida Panthers remain in the wild today. Population 
growth and agricultural expansion in South Florida are compromising the 
ability of natural habitats to support a self-sustaining panther 
population. Much of the panther's habitat lies in Southwest Florida, 
among the fastest growing regions in the Nation today.
    Opportunities for restoration and for preventing the need for 
further restoration--especially opportunities for acquiring critical 
lands--are disappearing due to South Florida's rapid growth.

    Question 3. In your written testimony you highlight the importance 
of the Everglades Agricultural Area Storage Reservoir. If the Corps is 
unable to begin construction in 2005, don't you believe that the land 
should no longer remain in cultivation? Why is this project of such 
significance to the restoration effort?
    Response. In order for restoration to begin, there must be a place 
to store water that is now being wasted to tide. The current practice 
of water dumping not only wastes a valuable resource, but it also 
causes significant environmental damage to the St. Lucie and 
Caloosahatchee Estuaries. Currently water managers have limited choices 
as to how to handle excess water. They can dump contaminated water 
downstream into the conservation areas causing damaging high water 
levels and the loss of tree island habitat that results. They can force 
the water into the Caloosahatchee or St. Lucie estuaries, causing too 
much freshwater into these tidal systems with the concomitant loss of 
fisheries productivity and the death of many species. Or water can be 
held in Lake Okeechobee, drowning marshes, and causing the loss of the 
lake's important fisheries. Water storage in the EAA allows for 
flexibility in how the water is moved, and provides, in conjunction 
with the STAB, water quality improvements that currently do not exist. 
The real benefits of EAA water storage cannot be delayed. Therefore, 
farmers who hold leases in the EAA storage areas must be notified 
before 1 October 2002 that their leases will expire so that restoration 
efforts can move forward. If construction of the EAA reservoirs is 
delayed due to unforeseen technical difficulties, seasonal agriculture 
(e.g. rice, vegetables, sod) may be feasible, and could help control 
the invasion of exotic plants into the site prior to the construction 
of the reservoir.

    Question 4. What is the environment community's position regarding 
Homestead AFB?
    Response. The proposal for a large commercial airport at Homestead 
is incompatible with Everglades restoration. As the Coalition has 
stated on numerous occasions, such a commercial airport, if built, 
would degrade significantly the Everglades' air, sound, wildlife and 
water resources and thus conflict with the planned comprehensive and 
costly Federal/State project to restore such resources. With the 
proposed airport just a few miles from both Everglades and Biscayne 
National Parks and with one flight almost every minute, the parks would 
be filled with airplane noise most of the day. According to 
predictions, the commercial airport would result in seven tons of air 
pollutant emissions daily, loss of thousands of acres of open space and 
wildlife habitat, and up to 50 percent of all new water pollution into 
such pristine water bodies as south Biscayne Bay.
    The Coalition believes that a mixed-use alternative to the airport 
is a better choice environmentally and economically. Not only would 
such a mixed use alternative, with proper planning, result in 
significantly less environmental harm, but the Air Force estimates that 
it would produce over 50 percent more jobs and earnings growth than the 
airport over the next 5 to 10 years.
                                 ______
                                 
  Responses by David Guggenheim to Additional Questions from Senator 
                               Voinovich

    Question 1. The Everglades Coalition includes members such as the 
National Wildlife Federation who are on record as opposing contingent 
authorization. In other words they oppose Congress authorizing projects 
before the feasibility reports are complete and Congress has an 
opportunity to review the details of the economic and environmental 
evaluation of the project. How do you reconcile this position with the 
fact that you support the Administration's proposal to authorize 10 
projects with an estimated cost of $1.1 billion based on conceptual 
plans and before Congress has an opportunity to review feasibility 
reports on these projects? Also, how is this position consistent with a 
programmatic authority for the Everglades Restoration effort that 
allows the Secretary of the Army to approve projects of up to $70 
million in cost without any specific congressional authorization?
    Response. The Everglades Coalition including the National Wildlife 
Federation is indeed concerned about the increasing numbers of 
``contingent authorizations'' that have appeared in recent Water 
Resources Development Acts. For many traditional projects, practically 
the only detailed congressional oversight received is through the 
authorization process. Too often proponents of projects use the 
contingent authorization approach to avoid close scrutiny by Congress 
and the relevant authorizing committees on questions of whether the 
projects will meet basic environmental, engineering, and economic and 
financial standards, meet national water resources policy objectives, 
and, overall, constitute wise investments. We therefore continue to 
oppose contingent authorizations in general.
    However, we believe (1) that the Everglades bill does not provide a 
true contingent authorization as that term is typically used; (2) that 
there are a number of special circumstances regarding the Everglades 
project that both require speed and provide some additional 
accountability tools not typically applicable to other projects; and 
(3) that even so, it is critical that additional accountability tools 
should be provided to warrant proceeding to construction on specific 
projects without further congressional action.
    First, the bill differs from typical contingent authorizations in 
that proceeding with individual Everglades projects is not subject to a 
separate benefit/cost analysis. Unlike other projects that stand on 
their own, most of the features of the Everglades project are designed 
to work interdependently. Furthermore, if it passes the Everglades 
bill, Congress is indicating that a total program budget is warranted 
for the environmental results. For this reason, the basic go/no go 
decision has already been made. Furthermore, the language that we 
recommend requires the Army Corps to submit its report to Congress and 
we anticipate that Congress will enact legislation that addresses the 
design of the project. The authorization is contingent only in the 
sense that the Army Corps is authorized to proceed with the project if 
there are delays in congressional action.
    Second, we believe that the fragile state of the Everglades 
warrants authorizing the Army Corps to proceed in the absence of 
congressional action with the first basic projects. It is a fact that 
matters are sometimes not addressed by Congress because of legislative 
scheduling issues unrelated to the merits or even degree of controversy 
regarding that particular matter. The rapid decline of the Everglades 
and the rapid development of land necessary for Everglades restoration 
make expeditious implementation of the plan critical and warrants 
special treatment of the initial projects. As the committee is very 
much aware, the Everglades ecosystem is in a rapid and serious state of 
decline. For instance, the Everglades contains some 68 endangered and 
threatened species. In particular, birds such as the Snail Kite and the 
Cape Sable Seaside Sparrow are dependent on this habitat and are 
directly imperiled by current conditions.
    Even with the unique circumstances of the Comprehensive Everglades 
Restoration Plan, we believe that Congress should require additional 
accountability measures as a surrogate for outright congressional 
approval. These should include agreement among the key agencies about 
the plan, agreed operating rules for the project, and the review of 
each project's specific design and operations and endorsement by an 
independent scientific review panel.
    The additional program authority that allows implementation of 
projects that do not exceed $35,000,000 for the Federal share generally 
fall within the concept of continuing Corps authorities for smaller 
projects. Because the dollar thresholds for these projects are somewhat 
larger than typically called for in this category, we support these 
projects also being subjected to the same special accountability 
provisions discussed above.

    Question 2. Is the Air Force proposal to approve redevelopment of 
Homestead Air Force Base as a commercial airport compatible with 
Everglades Restoration?
    Response. The proposal for a large commercial airport at Homestead 
is incompatible with Everglades restoration. As the Coalition has 
stated on numerous occasions, such a commercial airport, if built, 
would degrade significantly the Everglades' air, sound, wildlife and 
water resources and thus conflict with the planned comprehensive and 
costly Federal/State project to restore such resources. With the 
proposed airport just a few miles from both Everglades and Biscayne 
National Parks and with one flight almost every minute, the parks would 
be filled with airplane noise most of the day. According to 
predictions, the commercial airport would result in seven tons of air 
pollutant emissions daily, loss of thousands of acres of open space and 
wildlife habitat, and up to 50 percent of all new water pollution into 
such pristine water bodies as south Biscayne Bay.
    The Coalition believes that a mixed-use alternative to the airport 
is a better choice environmentally and economically. Not only would 
such a mixed use alternative, with proper planning, result in 
significantly less environmental harm, but the Air Force estimates that 
it would produce over 50 percent more jobs and earnings growth than the 
airport over the next 5 to 10 years.
                                 ______
                                 
  Responses by David Guggenheim to Additional Questions from Senator 
                                 Graham

    Question 1. Can you provide a general list of the organizations 
that have endorsed the views you are providing today on behalf of the 
Everglades Coalition?

1000 Friends of Florida
Arthur R. Marshall Foundation and Florida Environmental Institute, Inc.
Audubon Society of the Everglades
Biscayne Bay Foundation
Broward County Audubon Society
Broward County Sierra Club
Center for Marine Conservation
Clean Water Action Clean Water Network-Florida Campaign
Collier County Audubon Society
The Conservancy of Southwest Florida
Defenders of Wildlife
Earthjustice Legal Defense Fund
Environmental and Land Use Law Center
The Environmental Coalition
Environmental Defense Fund
Everglades Coordinating Council
Florida Audubon Society
Florida Defenders of the Environment
Florida Keys Chapter of the Izaak Walton League of America
Florida Keys Environmental Fund
Florida PIRG
Florida Sierra Club
Florida Wildlife Federation
Izaak Walton League of America
League of Women Voters of Florida
Loxahatchee Sierra Club
Martin County Conservation Alliance
National Audubon Society
National Parks and Conservation Association
National Wildlife Federation
Natural Resources Defense Council
Outward Bound
The Pegasus Foundation
Redland Conservancy
Sierra Club
Sierra Club Miami Group
Tropical Audubon Society
Wilderness Society
World Wildlife Fund
      

    Question 2. Can you describe the impact to the Everglades and 
surrounding ecosystems if we move forward with this project?
    Response. Moving forward with the restoration project will ensure 
sufficient water quantity and quality to preserve and restore the 
Everglades ecosystem as well as help maintain and increase water supply 
for agricultural and urban users.

    Question 3. Can you describe the impact to the Everglades and 
surrounding ecosystems if we do not move forward with this project?
    Response. Many portions of the Everglades ecosystem are in decline, 
or have collapsed ecologically. Water shortages are becoming more 
prevalent all the time. In an area that receives an average of 60 
inches of rain a year, this is a ridiculous scenario. It will continue 
to get worse, degrading Everglades habitat further, and destroying 
South Florida's quality of life. The restoration efforts cannot be 
delayed, we must move forward with restoration now.

    Question 4. Are you comfortable with the project purpose as set 
into law in WRDA 1996?
    Response. WRDA 1996 directed the Secretary of the Army to ``develop 
as expeditiously as practicable a proposed Comprehensive Plan for the 
purpose of restoring, preserving, and protecting the South Florida 
ecosystem. The Comprehensive Plan shall provide for the protection of 
water quality in, and the reduction of the loss of fresh water from, 
the Everglades. The Comprehensive Plan shall include such features as 
are necessary to provide for the water related needs of the region, 
including flood control, the enhancement of water supplies, and other 
objectives served by the Central & Southern Florida Project.'' In 1996 
we were comfortable with this language because we felt that it clearly 
directs the Secretary of the Army to develop an ecosystem restoration 
plan while giving the Secretary the discretion to determine whether 
other project features were necessary to continue to meet the other 
C&SF Project purposes. We thought that this language made it abundantly 
clear that the primary and overarching purpose of the Comprehensive 
Plan is to restore the Everglades.
    Unfortunately, we have been frustrated that this language was 
interpreted by the State of Florida and by the Jacksonville District of 
the Corps, during the development of the CERP, to mean that the 
Comprehensive Plan has three co-equal purposes. That has never been our 
interpretation of WRDA 1996, a view that we have made clear in every 
restoration forum, including the Governor's Commission for a 
Sustainable South Florida. In light of the popular interpretation of 
the WRDA 1996 language, we strongly believe that the WRDA 2000 project 
purpose language must add clarity to the WRDA 1996 language to ensure 
that the purpose of the Comprehensive Everglades Restoration Plan 
remains the restoration of the American Everglades. While we restore 
the American Everglades the comprehensive plan will continue to meet 
other C&SF project purposes.

    Question 5. Your first concern is related to the assurances 
language in the bill. Can you elaborate on your point here? Is your 
concern with the way the Administration's language is crafted or with 
the approach taken to developing the programmatic regulations?
    Response. The authorizing legislation must include four essential 
safeguards in its ``assurances'' language:
    The legislation must implement a principle of ``do no more harm'' 
to the Everglades. As we move forward to restore the Everglades, we 
should not risk losing any more ground. This will only make the 
restoration task more difficult, more expensive and put the ecosystem 
in even greater jeopardy if the CERP is never wholly implemented. 
Therefore, the authorizing legislation must guarantee the natural 
system at least its current benefits from the existing water management 
system.
    The Department of the Interior and the Corps of Engineers must be 
equal members of the Federal partnership in the CERP's implementation. 
It has been the plight of Federal lands, most prominently Everglades 
National Park, which has drawn the country's attention to the need to 
restore the entire ecosystem. The Department of the Interior is the 
agency with legal responsibility and particular scientific expertise to 
protect these federally managed lands, which constitute almost 50 
percent of the remaining Everglades. It should also be noted that 
Interior currently has concurrence authority concerning management of 
water structures affecting the Park.
    <bullet> The legislation must require development of programmatic 
regulations. Such a process will, among other things, provide the 
guiding purpose that will help ensure that the Everglades restoration 
project ``gets the water right.'' Simply moving forward with 68 
separate project-specific regulations over 30 years will likely result 
in only localized, uneven, and inadequate restoration throughout the 
Everglades ecosystem. Moreover, a programmatic approach would provide 
the flexibility necessary to allow adaptive assessment and management 
to succeed.
    <bullet> The legislation must define specifically what benefits it 
intends to provide for America's Everglades. Otherwise, in the 
competition over water resources, the Everglades will continue to lose. 
The CERP plan includes a specific description of the hydrologic 
benefits it intends to provide. Such benefits should be specifically 
referenced in the legislation to serve as standards for the development 
of the programmatic regulations and CERP's initial implementation.
    The Administration's assurances language and, in particular, the 
language entitled ``Assurances Language No. 2'' in the Senate 
discussion draft do not adequately address any of the above four 
essential restoration assurances components.
    First, neither version of the assurances language provides the 
necessary ``floor'' to halt the Everglades' deterioration. Rather, both 
versions go in the opposite direction by including provisions entitled 
``Existing Water Uses'' that are focused on protecting consumptive 
uses. These provisions should either (a) be removed entirely and 
separate provisions added to protect the natural system, or (b) be 
significantly revised to prioritize, or at least balance, protection of 
the natural system.
    The problem with both versions of draft assurances language is that 
they prioritize protection of consumptive uses and then use broad terms 
to describe such protection (e.g., ``interfere,'' ``existing legal 
users,'' and ``existing levels of service for flood protection or 
existing water use''). Protections for natural system benefits, on the 
other hand, are treated secondarily and described in more narrow terms.
    Accordingly, the ``existing water uses'' language opens the door, 
for example, for consumptive users such as utilities to demand, under 
Federal law, more water--even for future customers--at the expense of 
the Everglades and to monopolize whatever benefits the CERP plan 
produces. Similarly, the Administration's language would guarantee 
``existing authorized levels of flood protection'' to geographic areas, 
regardless of how many people moved into the area and how much more the 
Everglades needed to be flooded in order to protect them. The Senate 
draft language also removes the requirement that the flood protection 
be ``authorized.''
    Such language appears to weaken current law. The Corps generally 
now asserts that it is required to operate the system for multiple 
purposes; however, both versions of the assurances language, especially 
the Senate discussion draft, elevate benefits for the human environment 
at the expense of the natural system. Current inhabitants could 
potentially have a new statutorily created right to demand water and 
flood protection even if doing so would harm our national parks or 
cause violations of environmental laws. This potential conflict must be 
addressed in any legislation passed by Congress so that we do not spend 
$8 billion to again place the Everglades last in line.
    Second, neither version of the assurances language provides an 
adequate role for the Department of the Interior in CERP's 
implementation and management. Indeed, ``Assurances Language No. 2'' 
provides the Interior Department with no role in CERP implementation 
and management. For the reasons already stated, this is not acceptable.
    The Administration's assurances language does provide Interior with 
a concurrence role in the programmatic regulations. But it provides 
Interior only a consultative role in development of project specific 
regulations, which is the primary means by which the restoration 
project will be implemented. This consultative role is little more than 
Interior's current role in a process that has regularly failed the 
Everglades. Interior needs to be a co-equal partner in development of 
specific regulations for least those new project features that are 
intended to provide benefits for lands it manages.
    Third, the Senate discussion draft ``Assurances Language No. 2'' 
version fails to include provisions for development of critical 
programmatic regulations that will help ensure that the intended level 
of restoration is accomplished and that such restoration is, and 
remains, CERP's No. 1 priority.

    Question 6. Can you describe your view of the purpose of an 
independent scientific peer review process led by National Academy of 
Sciences'
    Response. The legislation should institutionalize the current 
Committee on Restoration of the Greater Everglades Ecosystem 
(``CROGEE'') or a successor body to provide Congress and the agencies 
with independent, scientific peer review of the restoration process 
throughout the duration of the project. We have three objections to the 
Senate draft bill's language. First, by failing to name CROGEE 
specifically, the draft seems to suggest establishing a new panel. A 
good panel is in place and, rather than start all over again, the bill 
should incorporate CROGEE. Second, CROGEE's independence will suffer if 
it is made subordinate to the Everglades Restoration Task Force, as in 
the Senate draft bill. To be effective, CROGEE must be independent of 
south Florida political interests. Third, the draft limits CROGEE's 
reporting responsibilities to the Task Force. Given the scientific 
uncertainties and large costs of the restoration project, the 
legislation should require CROGEE to issue specific reports directly to 
Congress.

    Question 7. You indicate that the authorization should have a 
process to expeditiously purchase lands under extreme development 
pressure that are necessary for CERP projects. Can you outline what you 
would suggest that is different from existing policy?
    Response. We have known for some time that one of the best things 
we can do for the Everglades is buy land now that will be needed for 
restoration later. The Talisman acquisition is an important example 
because had we waited until closer to the construction date, in all 
likelihood the land needed for water storage in the EAA would not have 
been available.
    We believe that the process by which the State and Federal 
Government purchase lands can be streamlined to increase efficiency and 
the pace of acquisitions. Each acquisition has had its own series of 
lengthy negotiations involving State and Federal agencies--primarily 
the South Florida Water Management District and the Department of the 
Interior.
    We feel that each party should now understand the general needs of 
the other party and should seek to agree on a set of principles that 
can govern future acquisitions. Such principles should seek to 
accommodate the jurisdictional requirements of the agencies and serve 
as a formula for how future agreements would be constructed. Such a 
process would enable us to avoid negotiating the same issues over and 
over, but should have the necessary level of flexibility to address 
specific needs of an individual acquisition.

    Question 8. Can you elaborate on your final concern related to 
commitment of CERP resources to projects that rely on pilots for 
completion?
    Response. In several cases, the CERP schedule calls for 
implementation of costly projects before completion of their pilot 
projects, even though the very point of the pilot projects is to test 
the larger project's viability and to investigate significant potential 
collateral impacts. For example, construction of reservoirs in the Lake 
Belt area and related rock-mining is planned to proceed concurrent with 
the pilot project for this water storage component, even though 
significant questions exist about the component's viability, its 
environmental impacts, and how to ensure adequate mitigation for 
wetlands loss (the component will result in loss of thousands of 
wetlands acres).
    One of the proposals that has been discussed among various 
constituencies is the use of State water law and regulatory processes 
to issue assurances to the natural system and the human environment. Do 
you participate in the development of these standards? If so, how?
    Our role is limited to participating as citizens in the State 
political process, including the legislative process, agency rulemaking 
and on appointed citizen advisory board where applicable. The extent to 
which the public and advocacy groups can participate and influence the 
outcome of these processes is typically limited by their financial, 
legal and political resources. These resources cannot, on an issue-by-
issue basis, compete with a specific affected economic interest such as 
the sugar industry, mining and development interests etc.
    The State has Chapter 373 authority to issue consumptive use 
permits, minimum flows and levels, and reservations of the natural 
system for almost 30 years. To date, the State has only issued 
consumptive use permits. If Congress chose to use the State water law 
and regulatory processes to issue assurances, how would you provide 
comfort to Congress that the State process would ever move forward?
    In our view, the only way to provide comfort that the State may 
move forward with water reservations for the natural system in a manner 
consistent with the restoration of federally protected lands, is to 
require that a programmatic regulatory process be undertaken under 
Federal law.

    Question 9. You do not focus specifically on water quality in your 
testimony. Can you elaborate on your view as to whether the 
Comprehensive Everglades Restoration Plan includes a process to address 
water quality needs of the natural and human environment?
    Response. The conceptual plan as it now stands does not adequately 
address water quality concerns. Water quality will be addressed in all 
of the components of the CERP program, consistent with applicable water 
quality law, but care must be taken throughout the entire restoration 
project to coordinate the water quality components of the projects so 
that the overall effect is a comprehensive water quality program. Great 
care must be taken to ensure that when the construction of all of the 
components is completed, they and related compliance efforts will 
address water quality in a comprehensive way.
                                 ______
                                 
Responses by David Guggenheim to Additional Questions from Senator Mack

    Question 1. Do you support applying section 902 of the 1986 Water 
Resources Development Act to all features of the Comprehensive Plan 
before us today? [This provision requires a congressional review if a 
project exceeds 120 percent of the authorized cost.]
    Response. We have no objection, but as noted in our written 
testimony we believe that tracking the cost and progress of projects 
can be greatly enhanced by requiring more frequent reports to Congress. 
The Administration's bill proposed such reports no less than every 5 
years, which we believe will result in reports being produced every 5 
years. We recommend that these reports be required every 2 years to 
better track the traditional WRDA legislative calendar.

    Question 2. Do you support congressional committee review and 
approval of the feasibility level of engineering and design work before 
any construction can begin on the initial suite of ten projects in the 
Comprehensive Plan?
    Response. We understand and respect the desire of the committee and 
of Congress to preserve its oversight role, but we caution against 
using it as a reason to not move forward this year. Many of the studies 
on the specifications of each project remain to be performed, but they 
will be completed before work begins. We could therefore support a 
process that preserves construction schedules and protects 
congressional oversight responsibilities.

    Question 3. Do you support requiring full feasibility studies 
before any other projects are authorized under the Comprehensive Plan?
    Response. Yes, we support requiring full feasibility studies before 
any other projects are authorized.

    Question 4. Do you support modifying the definition of the South 
Florida Ecosystem to make clear the system includes the lands and 
waters within the boundaries of the South Florida Water Management 
District as they existed on July 1, 1999?
    Response. To adequately and comprehensively restore the Everglades, 
all lands within the boundary of the South Florida Water Management 
District boundary must be included in the project. However, the 
northern reaches of the Indian River Lagoon system and Charlotte Harbor 
are not within the boundaries of the South Florida Water Management 
District, but could be impacted (positively or negatively) by the 
restoration efforts. Therefore political boundaries will not always 
adequately define the ecological boundaries of the project.

    Question 5. Do you support a provision making clear the Corps of 
Engineers is only authorized to study the question about providing an 
additional 245,000 acre-feet of water to the natural system?
    Response. We would support language that makes it clear that the 
delivery of an additional 240,000 acre-feet of water to Everglades 
National Park and Biscayne National Park, while necessary for 
restoration purposes, is not authorized until a FIR for said delivery 
is completed and until Congress reviews and authorizes its 
implementation. We believe that there is no justification for 
restricting the actions of the Corps on this issue in WRDA 2000 to 
``study only''. The team of scientists who developed the Comprehensive 
Plan agreed that this water is being wasted to tide and should be 
captured to make up wet season shortfalls in Everglades National Park 
if the negative impacts associated with its delivery, including water 
quality, conveyance, and impacts on other parts of the ecosystem could 
be resolved. If resolution of these issues can be reached, then a PIR 
process should be allowed to move forward with the subsequent goal 
being a congressional authorization of such a project.

    Question 6. Do you support language making it clear that the Corps 
must work with the State of Florida to ensure all groundwater 
discharges resulting from the Comprehensive Plan meet all applicable 
water quality standards and water quality permitting requirements?
    Response. We would support such language, on the conditions that 
the Environmental Protection Agency is also included in groundwater 
quality control efforts to the extent that the agency's authority 
allows, and that responsible parties must still comply will all 
applicable current laws and regulations concerning such discharges.

    Question 7. Do you support replacing the project purposes language 
stated in (c)(l) of the administration's draft with language restating 
the purpose of the Comprehensive Plan developed and passed in WRDA 
1996?
    Response. WRDA 1996 directed the Secretary of the Army to ``develop 
as expeditiously as practicable a proposed Comprehensive Plan for the 
purpose of restoring, preserving, and protecting the South Florida 
ecosystem. The Comprehensive Plan shall provide for the protection of 
water quality in, and the reduction of the loss of fresh water from, 
the Everglades. The Comprehensive Plan shall include such features as 
are necessary to provide for the water related needs of the region, 
including flood control, the enhancement of water supplies, and other 
objectives served by the Central & Southern Florida Project.'' In 1996 
we were comfortable with this language because we felt that it clearly 
directs the Secretary of the Army to develop an ecosystem restoration 
plan while giving the Secretary the discretion to determine whether 
other project features were necessary to continue to meet the other 
C&SF Project purposes. We thought that this language made it abundantly 
clear that the primary and overarching purpose of the Comprehensive 
Plan is to restore the Everglades.
    Unfortunately, we have been frustrated that this language was 
interpreted by the State of Florida and by the Jacksonville District of 
the Corps, during the development of the CERP, to mean that the 
Comprehensive Plan has three co-equal purposes. That has never been our 
interpretation of WRDA 1996, a view that we have made clear at every 
restoration forum, including the Governor's Commission for a 
Sustainable South Florida. In light of the popular interpretation of 
the WRDA 1996 language, we strongly believe that the WRDA 2000 project 
purpose language must add clarity to the WRDA 1996 language to ensure 
that the purpose of the Comprehensive Everglades Restoration Plan 
remains the restoration of the American Everglades. While we restore 
the American Everglades the comprehensive plan will continue to meet 
other C&SF project purposes.

    Question 8. Do you support additional programmatic authority for 
the Corps to construct projects of limited cost but are in keeping with 
the Plan's purposes and have independent and substantial benefit to 
Everglades restoration?
    Response. In several cases, the CERP schedule calls for 
implementation of costly projects before completion of their pilot 
projects, even though the very point of the pilot projects is to test 
the larger project's viability and to investigate significant potential 
collateral impacts. For example, construction of reservoirs in the Lake 
Belt area and related rock-mining is planned to proceed concurrent with 
the pilot project for this water storage component, even though 
significant questions exist about the component's viability, its 
environmental impacts, and how to ensure adequate mitigation for 
wetlands loss (the component will result in loss of thousands of 
wetlands acres).

    Question 9. Do you support a 50/50 cost share between the Federal 
Government and the State of Florida on operation and maintenance of the 
project? If not, please state the cost share you believe to be 
appropriate and why.
    Response. Yes, we support a 50/50 cost share between the Federal 
Government and the State of Florida on operation and maintenance of the 
project.

    Question 10. Please provide your thoughts on the definition of 
Project Implementation Reports found in the Administration's language. 
Do you support this definition? If not, please provide suggestions as 
to how you would define these reports.
    Response. We generally support the definition upon the condition 
that the project-specific regulations to be developed for each 
component be part of the PIR.

    Question 11. Do you believe the Department of Interior and the 
State of Florida should be on equal footing in developing any 
regulations related to assurances? If not, why?
    Response. We believe that the Department of the Interior should 
have a primary role in the development of specific assurances that will 
ensure the restoration of federally managed lands, including Everglades 
National Park and Biscayne National Park. This role is appropriate and 
necessary because:
    1. The Interior Department has legal responsibility and particular 
scientific expertise concerning these lands--approximately 40 percent 
of the Everglades watershed.
    2. The plight of these lands has drawn the country's attention to 
the need to restore the American Everglades.
    3. The Federal investment to save these lands warrants the 
participation of relevant agencies, especially Interior's role as a 
primary steward of public lands.
    4. The American Everglades have been historically disadvantaged by 
water management in south Florida (relative to consumptive users) and 
require specific Federal protections.

    Question 12. Do you support the reporting requirement in the 
administration's bill? If not, how would you amend the reporting 
requirement?
    Response. As previously indicated, we recommend that these reports 
be required every 2 years to better track the traditional WRDA 
legislative calendar. These reports constitute the only regular 
government evaluation of this project currently contemplated. They will 
serve as a ``State of Everglades Restoration'' report and, as such, 
should be required more frequently than every 5 years.
    Specifically, the reports should be timed so that Congress has the 
benefit of a review by the CROGEE/National Academy of Sciences panel 
prior to considering additional project authorizations in a WRDA bill.
                               __________
                                                      May 11, 2000.

The Honorable Bob Smith, Chairman,
Senate Committee on Environment and Public Works,
Senate Dirksen Office Building,
Washington, D.C. 20510.

RE: Lake Worth Drainage District's Testimony on the Comprehensive 
    Everglades Restoration Plan

Dear Mr. Chairman: Thank you very much for allowing the opportunity to 
testify before the Senate Committee on Environment and Public Works on 
the Comprehensive Everglades Restoration Plan (``CERP''). I am the 
Manager for the Lake Worth Drainage District (LWDD) and my comments 
today are made on behalf of the Lake Worth Drainage District Board of 
Supervisors and landowners. I previously submitted testimony on CERP at 
the committee's Naples Field Hearing in January, 2000. I appreciate 
being given the opportunity to supplement that testimony now that the 
Administration has released its CERP Authorization language as a part 
of the Water Resources Development Act for 2000 (``WRDA 2000'').
    As in my prior testimony I want to begin by commending the Army 
Corps of Engineers Jacksonville District (Corps) and the South Florida 
Water Management District (SFWMD) staff who spent considerable time and 
resources working to put CERP together. The LWDD also spent a 
significant amount of time and resources participating in the 
development of CERP by attendance at Corps briefings of the SFWMD 
Governing Board and at the various public meetings and workshops. Until 
the release of Alternative D13R1-4, LWDD was under the impression that 
there were no substantial conflicts between the recommended plan and 
the operational mission of the LWDD.
    However, after review of Alternative D13R1-4, LWDD became very 
concerned that CERP will significantly impact LWDD's ability to provide 
protection from flooding for the residential, agricultural, municipal 
and industrial users in its service area. Despite LWDD's 
recommendations that the Corps not include Alternative D13R1-4 in any 
plan that moved forward for consideration by the Congress this 
Alternative was included in the Appendices to the Comprehensive Plan 
and was also discussed in detail in the Chief of Engineer's Report 
which presented the Comprehensive Plan to Congress. LWDD provided 
testimony to your committee in January, 2000 to explain why we believe 
the committee should not authorize a Comprehensive Plan which includes 
Alternative D13R1-4 or potentially commits an additional 245,000 acre 
feet of water to the Everglades National Park without detailed study. 
LWDD is supplementing that testimony today in light of the 
authorization language for CERP included in the Administration's WRDA 
2000 Bill.
                       i. characteristics of lwdd
    LWDD is an independent taxing district of the State of Florida 
created pursuant to Chapter 298, Florida Statutes, and special act for 
the purpose of providing water control, including flood protection and 
water supply within its boundaries for urban and agricultural 
development. LWDD is located in southeast Florida and makes up a large 
portion of Palm Beach County. The boundaries of LWDD stretch 
approximately from Okeechobee Boulevard in the north, to Water 
Conservation Area Number One (WCA-1) to the west, south to the 
Hillsboro Canal and east to the E-4 Canal.
    The LWDD system contains six main equalizing canals running in a 
north-south direction and over 50 smaller lateral canals oriented in an 
east-west direction. These canals provide flood protection to 
residential, agricultural and industrial interests as well as 
satisfying public water supply, domestic, agricultural, commercial, 
golf course and landscaping water use demands. LWDD contains a service 
area of 218 square miles with 511 miles of canals. It provides flood 
protection to over 700,000 residents and over 20,000 acres of 
agricultural row crops. LWDD further provides recharge to the Surficial 
and Biscayne aquifers preventing saline intrusion from the coast.
                        ii. alternative d13r1-4
    This alternative proposes utilizing the LWDD facilities which 
currently discharge north and east to divert water in the opposite 
direction (to the south and west) for the benefit of the Everglades 
National Park. The precise benefit to the Everglades National Park 
needs to be determined before such a massive overhaul of the LWDD canal 
system is made. The flood protection, water quality and water supply 
implications from such an overhaul must also be studied before Congress 
authorizes this additional commitment.
    While LWDD recognizes the needs of the Everglades National Park and 
the corresponding benefit to the Lake Worth Lagoon from the provision 
of additional water, LWDD has specific concerns with Alternative D13R1-
4 relating to flood protection, water quality, water supply and funding 
which have not been addressed. I discussed these concerns in detail in 
my January, 2000 testimony before the committee. Therefore, for the 
purpose of today's Hearing I will focus on the Administration's 
proposed WRDA 2000 Bill, specifically the authorization language for 
CERP.
                    iii. cerp authorization language
    The Administration's proposed WRDA Bill is unlike any I have ever 
seen regarding the C&SF Project. It appears to be more of a policy bill 
providing for the Federal takeover of water allocation in South Florida 
rather than a public works authorization bill based on sound 
engineering principles. The sections which require additional attention 
and in some cases substantial redrafting are as follows:
    <bullet>  The ``Assuring Project Benefits'' language at Section 
3(i) attempts to redefine the original authorization of the C&SF 
Project, as originally defined in the 1948 WRDA and all subsequent WRDA 
laws, to make flood control and water supply secondary to restoring and 
protecting the ``natural system''. This is unacceptable.
    <bullet>  Section 3(a)(3) defines the ``Comprehensive Everglades 
Restoration Plan'' to include the Chief's Report. The Chief's Report is 
not a consensus document. Inclusion of the Chief's Report in the 
definition of CERP is unacceptable. CERP should be defined to refer 
solely to the Plan contained within the Final Integrated Feasibility 
Report and Programmatic Environmental Impact Statement, April 1999.
    <bullet>  Section 3(c)(2)(A) directs the Corps to carry out CERP 
subject to the conditions contained in the Chief's Report. Again, the 
Chief's Report is not a consensus document and is opposed by most 
interests in South Florida. Carrying out CERP subject to the Chief's 
Report's conditions is particularly problematic to LWDD because of the 
Chief's potential commitment to send 245,000 acre-feet of additional 
flow to the Everglades National Park by way of major modifications to 
LWDD's system. Reference to the Chief's Report should be removed and 
the authorization should refer only to the April 1999 Plan.
    <bullet>  If the references to the Chief's Report are not removed 
from the CERP authorization, language must be included to provide 
limitations on the Chief's Report's commitment to provide the 
additional 245,000 acre feet of water. Specifically, language will have 
to be added to the CERP authorization language requiring: ``a detailed 
two-part scientific study that documents, through a full, open and 
public process, the system-wide environmental impacts of providing the 
additional flow, and a comprehensive analysis of the structural 
facilities proposed to provide the flow which includes the engineering, 
economic and physical requirements to divert and treat urban runoff 
while maintaining flood protection to adjacent private property.''
    <bullet>  Section 3(i) relates to ``Assuring Project Benefits'', 
such assurances continue to be of utmost importance to all water users 
in South Florida. This section puts the Secretary of the Interior in 
charge of dedicating and managing the water made available from CERP 
and all C&SF project features from prior WRDAs. This is unacceptable.
    <bullet>  Section 3(i) also creates a process that puts the 
Department of the Army and the Department of Interior in charge of 
writing a new set of rules for identifying the amount of water to be 
dedicated and managed for the natural system from the C&SF project as 
authorized by CERP and in all prior WRDAs. The Governor of Florida is 
not given the same footing as the Department of the Army and the 
Department of Interior in developing these rules, even though Florida 
is to pay more than Congress for CERP. This process is unacceptable. 
The State of Florida should be on an equal footing with the Department 
of the Army and the Department of the Interior in the development of 
any criteria to provide the water necessary to restore, preserve and 
protect the South Florida Ecosystem while providing for the other water 
related needs of the region.
    <bullet>  Section 3(g)(1) appears to reduce the scope of the 
Project Implementation Reports, which were set forth in CERP to 
evaluate the economic, engineering, environmental and social impacts 
that were not done as a part of the Final Integrated Feasibility 
Report. CERP should continue to require that the PIRs provide the 
detailed evaluation requirements as described in Chapter 10 of CERP. 
Specifically, the Chief of Engineers has made a commitment to submit a 
PIR on the issue of additional flow to the Everglades National Park, 
this PIR should also continue to require the detailed evaluation 
requirements of the PIR as described in Chapter 10 of CERP.
    The theme of this bill does not appear to be restoration of the 
South Florida Ecosystem through a consensus public works project. It 
appears to be the initiation of a Federal takeover of water allocation 
and the operation of flood control facilities in the 16 counties of the 
SFWMD. Major changes will need to be made for the CERP authorization 
language to have a chance of gaining broad support in Florida.
                             iv. conclusion
    <bullet>  The Comprehensive Everglades Restoration Plan remains 
timely and necessary to assure the protection of the Everglades and 
future water supply for the people of South Florida.
    <bullet>  The commitment by the Chief of Engineers to provide 
245,000 acre-feet of additional flow to Everglades National Park, above 
the unprecedented increases already provided by the Recommended Plan, 
is a breach of understanding with stakeholders who participated in the 
development of the Plan. This commitment should be flatly rejected by 
Congress.
    <bullet>  Diverting urban runoff from West Palm Beach through the 
LWDD canal system for the benefit of the Everglades National Park is 
not practical, and may not even be possible, given the number of 
existing public and private facilities that would have to be abandoned 
or significantly modified.
    Florida water law mandates a balanced approach to the allocation of 
water. Human needs are to be considered along with the environmental 
needs in making a decision as to where the water will go. To authorize 
CERP in accordance with the Administration's proposed language is 
contrary to the directives of the State and Federal environmental 
agencies. The LWDD is firmly opposed to congressional authorization of 
CERP as set forth in the Administration's proposal for WRDA 2000.
    The Federal Government and the State of Florida have embarked on 
the most far-reaching changes to the Everglades since 1949. When 
implemented, CERP and the Everglades Forever Act will change the 
hydrology and water quality characteristics of the entire system. At 
this point, Congress should concentrate on authorizing a design that 
works for the whole system while maintaining the integrity of each one 
of the C&SF project's primary purposes: flood control, water supply for 
municipal, industrial, and agricultural uses, water supply for the 
Everglades National Park, prevention of saltwater intrusion, and the 
protection of fish and wildlife resources. LWDD looks forward to 
working with each member of your committee to identify authorization 
language that works for the entire system without jeopardizing the 
current flood protection provided by the C&SF project in combination 
with LWDD's canal system.
    Again, thank you for providing me with the opportunity to testify 
before the committee today.
            Sincerely yours,
                               William G. Winters, Manager,
                                      Lake Worth Drainage District.
                                 ______
                                 
                            impacts to lwdd
    Based on the preliminary design in Alternative D13R1-4 by the Corps 
the LWDD has evaluated that it will take the following to create the 
additional flow to the Everglades National Park by way of LWDD's canal 
system:
    <bullet>  The complete redirection of water flows in two major LWDD 
canals.
    <bullet>  New Control Structures on numerous lateral canals.
    <bullet>  Up to 48 miles of new right of way acquisition for canal 
excavation requiring the taking of 875 acres by eminent domain through 
property that is now fully developed.
    <bullet>  Twenty-four new highway and secondary bridge crossings 
for the redirected canals, including two interchanges on the Ronald 
Reagan Turnpike.
    <bullet>  A total cost of over $420,000,000 is not reflected in the 
current estimate for the Restudy.
    <bullet>  The Chief's report does not provide additional flood 
protection.
    A POTENTIAL TAX INCREASE OF 477 percent TO LWDD RESIDENTS.
                       itemized costs within lwdd
    The table below estimates the costs that can be expected within the 
boundaries of the LWDD. Operation and maintenance costs have not been 
included.


------------------------------------------------------------------------
            Item                    Quantity                Total
------------------------------------------------------------------------
Canal Enlargement...........  48 Miles............  $177,408,000
New Pump Stations...........  4...................  $36,500,000
Control Structures..........  ?45.................  $24,350,000
New Bridges.................  24..................  $35,840,000
Real Estate.................  ?875 acres..........  $56,875,000
Houses/Apartments...........  ?200................  $90,000.000
    TOTAL...................  ....................  $420,973,000
------------------------------------------------------------------------
Wherever possible, costs were adapted from estimates in the Army Corps
  C&SF Restudy.
Other costs were adapted from LWDD structural data, bridge cost source--
  FDOT.

                               __________
                              Citizens for a Sound Economy,
                                                      May 11, 2000.

The Honorable Bob Smith, Chairman,
Senate Environment and Public Works Committee,
Dirksen Senate Office Building,
Washington, D.C. 20510.

Senator Smith: Citizens for a Sound Economy is grateful for the 
opportunity to provide the Senate Environment and Public Works 
Committee with comments on the Comprehensive Everglades Restoration 
Plan included in S. 2437, the Water Resources Development Act of 2000.
    While CSE often has been outspoken in our criticism of the 
Comprehensive Plan, formerly called the Re-Study, we do have some areas 
of agreement with this legislation:
    (1) We certainly agree with the statement in subsection (1) of the 
Findings that the Everglades is a national treasure, and that the South 
Florida ecosystem has been endangered by adverse changes in quantity, 
quality, distribution, and timing of water flows.
    (2) We also agree with the proposition in subsection (2) of the 
Findings that the Central and Southern Florida (C&SF) project plays an 
important role in the economy of South Florida, and that modifications 
to this project will be necessary as the population of South Florida 
grows.
    We also have a number of disagreements with the legislation, with 
the Final Implementation Plan upon which it is based, and with the 
overall manner in which the Comprehensive Plan is being advanced:
    (1) We disagree strongly with subsection (4) of the Findings, which 
refers to the Plan as being ``scientifically and economically sound.'' 
There are critical information gaps remaining with regard to the 
science, especially with regard to Aquifer Storage and Recovery (ASR) 
wells and wastewater reuse technology. In addition, cost projections 
have risen dramatically over the past several years, from an initial 
estimate of perhaps $1 billion to a current estimate of at least $7.8 
billion if not $11 billion.
    (2) We also disagree with the statement in subsection (6) of the 
Findings that the Plan will ``significantly'' improve the quantity, 
quality, distribution, and timing of water. The Corps of Engineers 
itself admits that they cannot predict how the Plan will affect 
ecosystems, much like no one realized how the original C&SF project 
would affect the environment. To quote from Section O, page 13 of the 
Final Implementation Plan: ``There is a very real, and to a great 
extent, unresolvable uncertainty about what the new ecosystem will look 
like. Because no one knows for sure what the ecosystem will look like, 
no one knows for sure what the hydropattern required to produce it will 
look like. Moreover, we do not know with certainty what the linkages 
between hydropatterns and the ecosystem are.''
    (3) We do not believe Congress should approve the Comprehensive 
Plan as it is laid out in this bill. Should the committee decide to 
move ahead with the Plan, we believe it is imperative that the initial 
authorization not include any components beyond the pilot projects. To 
be exact, the 11 projects in sub section (C) of the Specific 
Authorizations should not be authorized until we have empirical results 
from the pilot projects. This is particularly important since, as both 
the Corps of Engineers and members of this committee have said, once 
you start implementing the Plan you can't stop until it's finished, 20 
to 30 years from now. In other words, once the initial batch of 
implementation projects have begun, Congress has irrevocably committed 
itself to the entire Comprehensive Plan. By the time pilot projects are 
complete, not until 2011 in one case, it will be far too late to turn 
back. Congress would have no choice but to continue throwing good money 
after bad. Essentially, Congress will have given the Corps of Engineers 
a blank check.
    Two pilot projects in particular stand out: ASR and wastewater 
reuse. These two technologies are so central to the Comprehensive Plan 
that if pilot projects prove unsuccessful, the entire Plan as written 
cannot work. Moving ahead without this data puts the entire Everglades 
restoration program, and the people of South Florida, at risk.
    (4) We disagree with the Programmatic Authority granted in 
subsection (d) of the Specific Authorization. Once again, these 
components should not be allowed to move forward without solid 
empirical data from pilot projects proving their viability.
    (5) We also disagree with the proposition that the primary and 
overarching purpose of the Plan is restoration of natural systems. The 
overarching purpose of the plan, at least publicly, has seemed to vary 
depending on the audience. We hope that in this legislation, the water 
needs of the people actually living in South Florida will be considered 
just as important as any other aspect.
    (6) Finally, we must criticize the legislation, and the entire 
Comprehensive Plan, for a sin of omission. There is no mention of 
providing the residents of the 8.5 square mile area with the flood 
protection that they were guaranteed a decade ago. The residents of 
this area are primarily Hispanic, and came to this country looking to 
escape oppression and find the American dream. Instead, they have found 
a system that, to some, seems little different from what they left 
behind. They have turned to Congress for help, often literally in 
tears, only to find dead end after dead end. The Comprehensive Plan, 
once again, leaves these Americans out in the cold, or in this case, 
under water.
    We know that a great many people have put a great deal of time, 
effort, and resources into developing the Comprehensive Plan. However, 
history will not pass judgment on how large of a plan was implemented, 
but on how successful that plan was. If we believe that this plan is 
the last chance to save the Everglades, we must make sure that as many 
of the remaining uncertainties as possible are resolved. Should we 
discover 10 years down the road that critical components of the 
Comprehensive Everglades Restoration Plan are not working as predicted, 
it will be too late. The Plan will have failed and the Everglades will 
be gone.
                               __________
Statement of the Honorable Alex Penelas, Mayor of Miami-Dade County And 
          M.R. Stierheim, County Manager of Miami-Dade County
    Chairman Smith, Senator Caucus, Senator Graham and members of the 
Committee, thank you for the opportunity to comment on the 
Administration's bill to authorize the Comprehensive Everglades 
Restoration Plan (CERP), as contained in the Water Resources 
Development Act of 2000. We applaud Governor Bush and the Florida 
Legislature for its unanimous approval of the Everglades Restoration 
Investment Act and its appropriation of funding to begin the 
implementation of the CERP. We also recognize the diligent work of 
Congress and the Federal agencies in bringing together the parties 
involved in the restoration effort.
    Miami-Dade County is in a unique position in this country. We are 
the only large urban area in the Nation located between two national 
parks, each with different environmental and ecological needs. We are 
home to more than 2 million residents. In 1998, more than 9 million 
overnight travelers visited our area. These residents and visitors, 
along with local businesses, rely on the underground Biscayne Aquifer 
as their sole source of drinking water. That Aquifer depends Ott the 
South Florida and Everglades ecosystems for its sustenance, 
replenishment and viability.
    By Resolution No. 300-00, passes, and adopted on March 21, 2000, 
the Miami-Dade County Board of County Commissioners voted unanimously 
to recognize the importance of a restored Everglades as a national, 
state and regional priority. A copy of that Resolution is attached. As 
further detailed below, the Resolution identifies our concerns with the 
CERP as it addresses the equitable distribution of water, funding 
proposals, flood protection assurances, the investigation of 
alternative sources of water and technologically uncertain components 
of the CERP. Therefore, we request you consider the following concerns.
Water Supply Equity
    Project benefit assurances should provide equal importance to the 
needs of the South Florida region for improvement of the ecosystem 
environment, flood protection and crater supply. The long-term success 
of the restoration of the Everglades ecosystem drill rely on the 
ability of the Federal, state and local agencies to work in 
partnership. This includes recognition of the water supply and flood 
protection needs of the existing and future residents and businesses in 
Soup Florida. The proposed components of the CEDE must maintain or 
enhance existing levels of flood protection in all urban, agricultural 
and environmental preservation areas.
Financial Equity
    As of 1995, almost one-fourth of the County's residents revere at 
or below the poverty level. Our resident, include a majority population 
of economically disadvantaged immigrants, senior citizens and 
minorities, who can ill afford to pay increased rates for beater 
service. As further explained in the next paragraph, the CERP assumes 
that very expensive facilities ``will be constructed by Miami-Dade 
County with no Federal participation whatsoever, while similar 
facilities constructed elsewhere in the South Florida area will receive 
Federal assistance. This is inequitable to the residents of Miami-Dade 
County.
    One critical factor in restoring the South Florida ecosystem is to 
store excess mater instead of discharging it to the ocean via the canal 
network. This storage increases the amount of water available and 
significantly enhances our ability to meet future needs of both the 
natural system and urban land uses. The CERP depends heavily upon 
Aquifer Storage and Recovery (ASR), a technology that stores excess 
water in the Upper Floridan aquifer for later use, and includes the 
assumption that Miami-Dade County will depend upon ASR to provide 150 
million gallons of water per day. Unfortunately, the ASR within Miami-
Dade County was assumed to be in the future condition for the CERP and, 
therefore, is not currently eligible for Federal funding. The benefits 
provided by that ASR are the same as those provided by the other ASR 
components included in the CERP and, therefore, we request that the ASR 
within Miami-Dade County be eligible for a 50 percent match from the 
Federal Government on its construction, operation and maintenance.
    The CERP contains a large number of components that together 
accomplish restoration of the South Florida ecosystem and directly 
benefit Federal lands including Everglades National Park, Biscayne 
National Park, Big Cypress National Preserve, and the Loxahatchee 
National Wildlife Refuge. State lands such as the Water Conservation 
Areas, the Water Preserve Areas, and the South Dade Wetlands also 
benefit. These natural systems and their restoration are of 
international as well as national importance. Therefore, we recommend 
that, in addition to construction costs, the costs for operation, 
maintenance repair, replacement and rehabilitation for all CERP 
components be shared equally between the Federal Government and the 
non-Federal sponsor.
Technologically Uncertain and Expensive Components
    Many of the technically uncertain and expensive components in the 
CERP, such a inground reservoirs, seepage management, and wastewater 
reuse, are proposed to be located with Miami-Dade County. These 
components have the potential to impact general hydrology and water 
quality in the County. To address the technical uncertainties, the CERP 
proposes that pilot projects be conducted to better understand the 
feasibility of constructing the component and the potential impacts 
that a full-scale project may cause. It is imperative that Miami-Dade 
County participates in the design and implementation of the pilot 
projects to verify that its concerns are adequately addressed. 
Therefore, we request that the Act specify a process for developing and 
implementing pilot projects and clarify the formal points of entry into 
the process.
    The wastewater reuse component also is subject to uncertainties. 
Current Federal regulatory restrictions prohibit Miami-Dade County from 
utilizing recently constructed underground injection wells for the 
disposal of treated effluent. By state lam wastewater reuse plants are 
required to have an alternative source of disposal for those periods in 
which reuse water is not needed for the natural or human environment, 
such as during the rainy seasons. In Miami-Dade County, the two 
proposed reuse plants would rely on similar injections wells to dispose 
of unneeded reuse water. Under current conditions, these reuse plants, 
if constructed, could not be operated. Miami-Dade County is seeking the 
resolution of this issue with the U.S. Environmental Protection Agency.
    We also request that guidance language be included to emphasize the 
importance and encourage expeditious implementation of further 
evaluations in certain areas. Due to strict timeframes in the 
development of the CERP, there was not adequate time to complete all 
the evaluations thoroughly or to wait for the development of final 
restoration targets for all natural areas. We wish to emphasize the 
importance and encourage the implementation of (1) the investigation 
of, in conjunction with the implementation of the Wastewater Reuse 
Technology pilot project, potential sources of water other than reuse, 
for providing freshwater flows to Biscayne Bay focusing on loon cost 
alternatives; (2) refinement of Me quality, quantity, timing, and 
distribution of freshwater flows needed to provide and maintain the 
fishery resources, recreational opportunities, and overall health of 
Biscayne Bay; and (3) farther evaluation of whether restoration targets 
can be better achieved in the Lower C-111/Model Lands Basins. We 
recognize that the CERP requires these activities but ask that Congress 
restate their importance which will assist in prioritizing those 
activities.
    We thank you for the opportunity to comment on the Act.


                         EVERGLADES RESTORATION

                              ----------                              


                     WEDNESDAY, SEPTEMBER 20, 2000

                               U.S. Senate,
         Committee on Environment and Public Works,
         Subcommittee on Transportation and Infrastructure,
                                                    Washington, DC.

                   GAO STUDY OF WATER QUALITY ISSUES

    The committee met, pursuant to notice, at 9:34 a.m. in room 
406, Senate Dirksen Building, Honorable George V. Voinovich 
(chairman of the subcommittee) presiding.
    Present: Senators Voinovich, Inhofe, Smith, and Graham.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Good morning. I am pleased that you are 
all able to testify this morning on the GAO investigation of 
the Everglades and water quality issues. I welcome in panel one 
Mr. Barry Hill, Associate Director of Energy Resources and 
Science Issues, United States General Accounting Office; and in 
panel two I would like to welcome Mr. Michael Davis, Deputy 
Assistant Secretary of the Army for Civil Works; and Mr. David 
Struhs, Commissioner, Florida Department of Environmental 
Protection.
    This year, I have invested many hours of time on the 
Everglades, and, in particular, the Comprehensive Restoration 
Plan. I am unequivocally committed to the fact that the 
Everglades are a national treasure that must be protected and 
restored. Having said that, my detailed review of this largely 
conceptual plan has also convinced me that it was rushed to 
this Congress for consideration.
    A cursory review of this document shows that it lacks the 
specificity of a traditional feasibility report. For instance, 
it lacks a complete analysis of the water quality aspects of 
the Plan. Restoration of the South Florida ecosystem will 
involve restoring the appropriate quantity, quality, timing, 
and distribution of water to the natural system. This 
restoration effort raises a number of serious questions to me.
    First, is the Plan adequate to address water quality 
concerns in the Everglades natural system? Second, what is the 
magnitude of the likely additional investment required to 
achieve adequate water quality for restoration of the 
Everglades natural system? Third, what is the expectation of 
the State of Florida about Federal participation in the 
additional investment that will be needed to achieve 
appropriate water quality for the natural system?
    I asked the GAO to review the big picture of Everglades 
restoration and water quality issues on March 29 at a time when 
my colleagues and I began to take a close look at the 
Comprehensive Restoration Plan. At that time there were a lot 
of unanswered questions about how much this would cost and how 
the package would be put together.
    Additionally, I am pleased that GAO was able to act on my 
request in a swift manner and produce this informative report. 
In its report, GAO lists several uncertainties in the Plan that 
will likely lead to additional water quality projects that 
could increase the total cost of the Plan over the Corps' 
current estimate of $7.8 billion. For example, the report 
suggests that the Corps could have a role in future efforts to 
improve water quality, such as the cleanup of Lake Okeechobee, 
which is estimated to cost approximately $1 billion. I think it 
is clear from this report that there are too many unknowns and 
uncertainties in the Plan to estimate what the final price tag 
will be.
    As authorizers, we need to stay on top of this. This is why 
I am conducting this hearing today. I cannot emphasize enough 
the fact that the Corps currently has a construction backlog 
which consists of over 500 active projects with Federal cost to 
complete of about $38 billion. When the Everglades restoration 
is considered, this backlog includes the $5.4 billion Federal 
share of work within the State of Florida, representing about 
14 percent of the backlog across the country.
    With the construction appropriations for the Corps 
averaging about $1.6 billion a year in the 1990's, there is not 
enough money to accomplish all of the proposed work in the 
State of Florida and address the water resources needs of the 
rest of the nation. Unless the Corps' construction 
appropriations is substantially increased to meet these needs, 
the State of Florida in particular and the Nation in general 
are going to have to make some very difficult and painful 
decisions on priorities.
    The GAO recommends that the Secretary of the Army provide 
the Congress with updates that reflect the cumulative project 
and cost changes to the overall Plan and indicate the progress 
being made toward implementing the Plan. GAO recommends that 
these updates should be made at the same time as Congress 
considers the Corps' biennial WRDA proposals. I look forward to 
hearing from GAO this morning about how this recommendation 
differs from the reporting requirement that has been included 
in the WRDA 2000 bill on the Everglades.
    In addition, I would also like to hear from our witnesses 
today about opportunities to save costs on the Everglades 
restoration project and how costs will be shared between the 
State and Federal Government if more water quality projects are 
identified.
    On a side note, I am pleased that after months of hard 
work, the Senate will soon begin floor consideration of the 
Water Resources Development Act of 2000, legislation that I 
have sponsored and which includes a $1.4 billion authorization 
for the Everglades. Perhaps we will even consider it today--at 
least we're scheduled to consider the bill today.
    So I am saying to some of the advocates here: We have to 
get down to reality. These projects are important, but they are 
just going to be talked about unless we can come up with some 
more money on the Federal side to move forward on it.
    Again, I would like to thank all today's witness for coming 
to testify on the GAO investigation on the Everglades and water 
quality issues. I look forward to your testimony and responses 
to any questions that may follow.
    [The prepared statement of Senator Voinovich follows:]
 Statement of Hon. George V. Voinovich, U.S. Senator from the State of 
                                  Ohio
    Good morning. I am pleased that you are all able to testify this 
morning on the GAO investigation of the Everglades and water quality 
issues. I welcome in Panel I, Mr. Barry Hill, Associate Director of 
Energy Resources and Science Issues, United States General Accounting 
Office; and in Panel II, I would like to welcome Mr. Michael Davis, 
Deputy Assistant Secretary of the Army for Civil Works; and Mr. David 
Struhs, Commissioner, Florida Department of Environmental Protection.
    This year, I have invested many hours of time on the Everglades, 
and, in particular, the Comprehensive Restoration Plan. I am 
unequivocally committed to the fact that the Everglades are a national 
treasure that must be protected and restored. Having said that, my 
detailed review of this largely conceptual plan has also convinced me 
that it was rushed to this Congress for consideration.
    A cursory review of this document shows that it lacks the 
specificity of a traditional feasibility report. For instance, it lacks 
a complete analysis of the water quality aspects of the Plan. 
Restoration of the South Florida ecosystem will involve restoring the 
appropriate quantity, quality, timing, and distribution of water to the 
natural system. This restoration effort raises a number of serious 
questions to me. First, is the Plan adequate to address water quality 
concerns in the Everglades natural system? Second, what is the 
magnitude of the likely additional investment required to achieve 
adequate water quality for restoration of the Everglades natural 
system? Third, what is the expectation of the State of Florida about 
Federal participation in the additional investment that will be needed 
to achieve appropriate water quality for the natural system?
    I asked the GAO to review the big picture of Everglades restoration 
and water quality issues on March 29 at a time when my colleagues and I 
began to take a close look at the Comprehensive Restoration Plan. At 
that time there were a lot of unanswered questions about how much this 
would cost and how the package would be put together.
    Additionally, I am pleased that GAO was able to act on my request 
in a swift manner and produce this informative report. In its report, 
GAO lists several uncertainties in the Plan that will likely lead to 
additional water quality projects that could increase the total cost of 
the Plan over the Corp's current estimate of $7.8 billion. For example, 
the report suggests that the Corps could have a role in future efforts 
to improve water quality, such as the cleanup of Lake Okeechobee, which 
is estimated to cost approximately $1 billion. I think it is clear from 
this report that there are too many unknowns and uncertainties in the 
Plan to estimate what the final price tag will be.
    As authorizers, we need to stay on top of this. This is why I am 
conducting this hearing today. I cannot emphasize enough the fact that 
the Corps currently has a construction backlog which consists of over 
500 active projects with Federal cost to complete of about $38 billion. 
When the Everglades restoration is considered, this backlog includes 
the $5.4 billion Federal share of work within the State of Florida, 
representing about 14 percent of the backlog across the country.
    With the construction appropriations for the Corps averaging about 
$1.6 billion a year in the 1990's, there is not enough money to 
accomplish all of the proposed work in the State of Florida and address 
the water resources needs of the rest of the nation. Unless the Corps' 
construction appropriations is substantially increased to meet these 
needs, the State of Florida in particular and the Nation in general are 
going to have to make some very difficult and painful decisions on 
priorities.
    The GAO recommends that the Secretary of the Army provide the 
Congress with updates that (1) reflect the cumulative project and cost 
changes to the overall Plan and (2) indicate the progress being made 
toward implementing the Plan. GAO recommends that these updates should 
be made at the same time as Congress considers the Corps' biennial WRDA 
proposals. I look forward to hearing from GAO this morning about how 
this recommendation differs from the reporting requirement that has 
been included in the WRDA 2000 bill on the Everglades.
    In addition, I would also like to hear from our witnesses today 
about opportunities to save costs on the Everglades restoration project 
and how costs will be shared between the state and Federal Government 
if more water quality projects are identified.
    On a side note, I am pleased that after months of hard work, the 
Senate will soon begin floor consideration of the Water Resources 
Development Act of 2000, legislation that I have sponsored and which 
includes a $1.4 billion authorization for the Everglades. Perhaps we 
will even consider it today--at least we're scheduled to consider the 
bill today.
    Again, I would like to thank all our today's witness for coming to 
testify on the GAO investigation on the Everglades and water quality 
issues. I look forward to your testimony and responses to any questions 
that may follow.
    Senator Voinovich. Senator Inhofe, you came in early and 
the early bird----

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you. I enjoyed your last remarks and 
I agree with everything you said. The only thing I don't agree 
with is your conclusion, after having said that, that you are 
supporting it. It seems like all these problems you pointed out 
are the very problems that I am going to point out.
    I think we are setting some precedents here that I worry 
about for the future. I will just outline five so that I can be 
sure to get them in the record.
    One is the new precedent--at least new in the last 16 
years--which requires the Federal Government to pay for a 
portion of operations and maintenance costs. That is a 
precedent because we haven't been doing that, to my knowledge, 
since the change was made 16 years ago.
    Second is the violation of the Committee on the Environment 
and Public Works' policy concerning the need for a Chief of the 
Army Corps of Engineer's report before project authorization. 
This is something we always do. We are not doing it here, to my 
knowledge.
    The third is the basis of the restoration project on 
unproven technology. That is kind of like the second point. One 
of the reasons for a Corps report is to show that we are going 
to use proven technology, so the things we say we are going to 
do we have a reasonable expectation of being able to do it.
    The fourth is the possibility--and I guess it is a done 
deal now that this is going to put in as part of the Water bill 
instead of a stand-alone bill. I think something of this 
magnitude--in fact, I had a hold on it for a while for that 
reason. I believe, Mr. Chairman, that something of this 
magnitude should be in a stand-alone bill.
    Last, the open-ended nature of the costs of the project, 
$7.8 billion over 38 years. We all know what happens to these 
estimates over a long period of time because I am old enough to 
remember when Medicare came in back in 1967. It was going to be 
$3.4 billion and this year are looking at $232 billion.
    As the Everglades report states, ``A project of this size 
is not without uncertainties.'' These projects and their costs 
will be a moving target for many, many years to come. I know we 
have some changes you have put in here that will require them 
to come back, but here is the problem we have, Mr. Chairman. It 
is kind of like Ronald Reagan said--``a rendezvous with 
destiny''--back in 1965. He said that there is nothing closer 
to immortality on the face of this earth than a Government 
program once started. So once you get started, and then you 
find out later on it was a mistake, you can't get out. I think 
that may be what we are getting into here.
    I would like very much to try to change the approach and 
would like to ask some of my colleagues as to possibly handling 
this as a stand-alone bill. I don't know that it is too late or 
if the train has already gone by. But I do believe the 
Everglades is a national treasure. I was there when a very 
small child with my parents. I have been there since then. We 
have a lot of other national treasures, too. I think if we 
start out in some unprecedented approaches to a national 
treasure, that I am going to be coming back in here with some 
of ours and I think Senator Smith will be doing the same thing 
from New Hampshire.
    So I have those concerns over it, Mr. Chairman. I wanted to 
make sure that I got those into the record.
    I would ask that my entire statement be made a part of the 
record.
    Senator Voinovich. Without objection, your prepared 
statement will appear in the record.
    [The prepared statement of Senator Inhofe follows:]
 Opening Statement of Hon. Jim Inhofe, U.S. Senator from the State of 
                                Oklahoma
    Mr. Chairman, in my dissenting view on S. 2797, the ``Restoring the 
Everglades, An American Legacy Act,'' I outlined my concerns with this 
legislation. While I recognize the Everglades as a national treasure, 
S. 2797 sets precedents, which I can not, in good conscious, condone.
    My concerns ranged from:
    <bullet>  the new precedent which requires the Federal Government 
to pay for a portion of operations and maintenance costs; to
    <bullet>  the violation of Committee on the Environment and Public 
Works' policy concerning the need for a Chief of the Army Corps of 
Engineer's report before project authorization; to
    <bullet>  the basis of the restoration project on unproven 
technology; to
    <bullet>  the strong possibility that the Restoring the Everglades, 
An American Legacy Act will not be considered as a stand alone bill; to
    <bullet>  the open-ended nature of the costs of this project.
    Today's GAO testimony goes to the heart of this concern. The total 
cost of the Comprehensive Everglades Restoration Plan is estimated at 
$7.8 billion over 38 years. This is the current estimate. I have 
serious concerns about the potential for cost over runs associated with 
this project. As with almost all Federal programs, this project will 
probably cost much more at the end of the day. For example, in 1967, 
when the Medicare program was passed by Congress, the program was 
estimated to cost $3.4 billion. In 2000, the costs of the program are 
estimated to $232 billion. No one could have foreseen this exponential 
growth! The future cost of projects of this magnitude must be taken 
into consideration by Congress before we pass legislation.
    As the Everglades report states, ``A project of this size is not 
without uncertainties.'' These projects and their costs will be a 
moving target for many, many years to come. I understand that the Corps 
has developed a process for incorporating project modifications and 
additions in its future reports to Congress. However, in addition to 
the current reporting requirements, I believe that the Corps should be 
required to incorporate GAO's recommendations into their reporting 
system, specifically providing Congress with information on: (1) 
cumulative changes in projects and costs for the Everglades plan as a 
whole and (2) the progress being made in implementing the Everglades 
plan. I also agree with GAO--it would also be helpful to have this 
information every 2 years--rather than the 5-year reporting cycle 
called for in the Everglades legislation--so that as Congress considers 
authorization for future Everglades projects, Congress can make 
informed decisions concerning the expenditure of American tax dollars.
    I would also like to reiterate my objection to the Committee's 
action to attach the Restoring the Everglades, An American Legacy Act 
to the Water Resources Development Act of 2000. I know many advocates 
of this plan argue that the Everglades should be a part of WRDA 2000. 
The Everglades plan is hardly a typical WRDA project. Because of the 
scale and departure from existing law and policy of the Everglades 
legislation, it should be considered as a stand alone bill--not a 
provision in the Water Resources Development Act of 2000. This is a 
precedent setting bill. With Bayou Restoration and other plans in the 
works, the Everglades will be a model for how we handle these enormous 
ecological restoration projects in the future.
    Again, I recognize the Everglades as a national treasure--as I do 
many treasures in Oklahoma. As Congress considers the Everglades 
restoration legislation, all I ask is that Congress play by the rules.
    Senator Voinovich. Senator Smith?

             OPENING STATEMENT OF HON. BOB SMITH, 
          U.S. SENATOR FROM THE STATE OF NEW HAMPSHIRE

    Senator Smith. Thank you, Mr. Chairman. Thank you for 
holding this hearing on the GAO report and asking for that 
report. I think we should not be afraid to deal with the facts 
as they come.
    Before going to my specific opening statement, let me 
respond to a couple of points.
    We have said all along throughout this process that there 
was uncertainty. There is uncertainty in life and risk in life. 
The issue here is not about the concern about precedents as 
much as it is--and these precedents we have made a point of 
saying that these are not going to be precedents, that this is 
a special case and a very sensitive environmental ecosystem. 
The question really boils down to whether we at the Federal 
Government level are willing to spend about $110 million a year 
on average over the next 36 years to save the Everglades. That 
is what the issue is.
    If you want me or anyone else to say that we are 
guaranteeing you that we are going to spend $110 million a year 
for the next 36 years and we are going to save the Everglades, 
the answer is no. I can't guarantee that. But what I can 
guarantee you is if we don't try, we will not save the 
Everglades and the Everglades will be gone. I have made that 
point over and over and over again. If we want to go back and 
go down through every one of these issues that have been 
outlined here, then we won't save the Everglades. That is the 
issue.
    So for $110 million a year, with roughly 260 million 
Americans, that doesn't cost much per American. Frankly, it is 
worth it. We take risks every single time we build a weapons 
system in this country. Sometimes they work, many times they 
don't, most times they don't. We take risks every time we 
invest money in any program, any Government military program or 
any other item. Sometimes we invest this money and it doesn't 
work and sometimes it does.
    That is the issue: whether or not we are willing to take 
the risk here, knowing the fact that the Army Corps of 
Engineers, at our direction in the 1940's changed this system 
in a way that basically ensured its destruction. That is the 
issue.
    I just want to say, again--and I will be on the record 
here--I am not going to say that this is a guaranteed work. But 
I will say that through the process of adaptive management, 
which is very carefully incorporated into the language of this 
legislation which I helped to put in there, we will have the 
opportunity every 2 years--indeed, every year for that matter--
to look at these wells, some of the new technology--we will 
look at those wells. If those wells don't work, if salt water 
and fresh water in these holding wells--if it doesn't work, if 
the freshwater doesn't lay on top as we hope it will, we will 
stop and correct that. We will do something else.
    If we need more acre feet of water, we will have more acre 
feet of water. If we don't need it, we won't. We will look at 
it every single year. We will have the opportunity to do that. 
This is a very innovative method of looking at a project which 
is environmentally sensitive.
    Let me just say this: the key theme is that there are 
uncertainties. Anyone who is familiar with what the committee 
has done here knows that. The Senate, hopefully, will consider 
the bill this week, maybe today. And it is going to take 30 to 
36 years, as I said. But my favorite aspect of this Plan is 
that it is an adaptive management concept. It is new and gives 
us that flexibility. If we learn anything new about the 
ecosystem, we would know that the concept of adaptive 
management where we can modify the Plan based on any new 
information at hand might work. It just might work.
    I believe it will work. And I think we have a lot of 
experts who will tell you that it will work. If it doesn't, we 
can adapt.
    Although the GAO report has focused on the uncertainties 
surrounding aquifer storage--ASR, aquifer storage and 
recovery--our bill authorizes a pilot project. New technology? 
Yes. It is a pilot project in addition to the two ASR pilot 
projects included in WRDA 99 to test the technology. In fact, I 
would like to highlight that there is chance for substantial 
savings if ASR technology works, so it is worth the effort and 
the risk.
    There are other opportunities for savings in this Plan that 
GAO has not mentioned. One is wastewater reuse facilities. The 
Comprehensive Plan calls for two wastewater reuse facilities to 
treat water to a high level of cleanliness for return to the 
natural system. The committee is skeptical about the need for 
these facilities, as well as their nearly billion dollar cost. 
The bill reflects that concern and it reflects that skepticism. 
We are prepared to deal with it. Pending the results of a pilot 
project included in our bill, one or both of the facilities may 
not even be needed.
    Finally, GAO makes a recommendation that the Army Corps and 
the State report to Congress on the status of this Plan, 
whether any new projects have been added, whether any projects 
are no longer necessary, and what the costs of implementing 
that Plan have been. Our bill has a requirement for a detailed 
report to be submitted to Congress every 5 years. GAO suggests 
a biennial report, so that we hear from the Corps every time 
the Administration submits its water resource bill to the 
Congress. I understand that the Corps and the State both 
support this recommendation. I don't think this is the same 
type of exhaustive report that we seek every 5 years, but there 
may be value in more frequent interim reports and I don't have 
a problem with that.
    It is important, though, to squarely face the uncertainties 
in the Plan, and the risk that someday we may need to spend 
more money than we anticipate today. Hopefully, we may spend 
less. That is an estimate. It might go up and it might go down. 
We do this all the time. If anybody can tell me today that we 
are going to build an airplane and you can tell me exactly what 
it is going to cost and hit it right on the head, then you are 
a better man than I am--or woman.
    I think we should take the risk that there are 
uncertainties that could end up costing more than we now 
estimate in order to save the Everglades. And to go back to my 
original point, Is it worth $100 million average per year for 
you to take that risk? I think it is and that is really the 
issue in whether or not you support the Plan or not.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Smith follows:]
    Statement of Hon. Bob Smith, U.S. Senator from the State of New 
                               Hampshire
    This morning we will hear from three witnesses on a report recently 
completed by the General Accounting Office on water quality as it 
pertains to the Comprehensive Everglades Restoration Plan. I welcome 
our witnesses and thank them for their participation.
    This report highlights an important aspect of Everglades 
restoration water quality in the ecosystem. The key theme of the 
report, that there are uncertainties involved in restoring the 
Everglades, is familiar to anyone who has closely followed the debate 
in the Committee. Our Everglades legislation, which the Senate likely 
will consider this week, anticipated uncertainties in the 
implementation of the Plan, as is to be expected with a project that is 
going to take an estimated 30 years to construct. I have said it before 
and I will say it again: my favorite aspect of the Comprehensive Plan 
is the inherent flexibility provided by Adaptive Assessment. If we 
learn something new about the ecosystem, perfect our modeling 
techniques, or just plain see that something isn't working right, 
through the concept of Adaptive Management, we can modify the Plan 
based on the new information on hand.
    In addition, I understand that the GAO Report highlights whether an 
additional 245,000 acre-feet of water is needed for Everglades National 
Park. The Everglades bill which this Committee passed on June 28, 2000, 
includes a provision dealing with this very issue. In our bill, we 
require the Army Corps of Engineers to conduct a feasibility study on 
the need for the water, and this feasibility study must be submitted to 
Congress for our review. The Committee will carefully consider the 
completed feasibility study, including concerns of National Park 
neighbors that they not be flooded if the additional water is needed. 
Again, this is not an unanticipated issue.
    The GAO Report also focused on the uncertainty surrounding Aquifer 
Storage and Recovery or ``ASR'' as it is called. Our bill authorizes a 
pilot project, in addition to the two ASR pilot projects included in 
WRDA 99, to test this technology. In fact, I would like to highlight 
for those who don't know that there is chance for substantial SAVINGS 
if ASR works how the Corps and South Florida Water Management District 
anticipate it will work.
    There are other opportunities for savings in the Plan that GAO has 
not mentioned. One example is the Wastewater Reuse facilities. The 
Comprehensive Plan calls for two wastewater reuse facilities to treat 
water to a high level of cleanliness for return to the natural system. 
The Committee is skeptical about the need for these facilities, as well 
as their nearly billion dollar cost. The bill reflects that concern and 
skepticism. Pending the results of a pilot project included in our 
bill, one or both of the facilities may not even be needed.
    Finally, GAO makes a recommendation that the Army Corps and the 
State report to Congress on the status of the Plan, that is, whether 
any new projects have been added, whether any projects are no longer 
necessary, and what the costs of implementing the Plan have been. Our 
bill has a requirement for a detailed report to be submitted to 
Congress every 5 years. GAO suggests a biennial report, so that we hear 
from the Corps every time the Administration submits its water resource 
bill to the Congress. I understand that the Corps and the State both 
support this recommendation. I don't think this is the same type of 
exhaustive report that we seek every 5 years, but there may be value in 
more frequent interim reports from the implementing agencies on 
progress and changes to the Plan.
    It is important to squarely face the uncertainties in the Plan, and 
the risk that someday we may need to spend more money than we 
anticipate today. We know that the Plan will not cost $7.8 billion. 
That is an estimate, it may go up, hopefully it will go down. What we 
do know today is that if we do not act, then the remaining Everglades 
will die. I think we should take the risk that there are uncertainties 
that could end up costing more than we now estimate in order to save 
the Everglades. I have no further remarks and look forward to hearing 
from the witnesses.
    Senator Voinovich. Thank you, Senator Smith.
    Senator Graham, you have been involved in this a long time. 
I know getting on with this is very important to you.

             OPENING STATEMENT OF HON. BOB GRAHAM, 
             U.S. SENATOR FROM THE STATE OF FLORIDA

    Senator Graham. Thank you, Mr. Chairman. I appreciate those 
remarks and I appreciate the chance to discuss the next phase 
of a very long book with many chapters already having been 
written and many more to be written as it relates to our 
efforts to restore the Everglades.
    This hearing today underscores the importance of what we 
are about. This is not a regular--certainly not a trivial--
issue with which we are dealing. We are talking about the 
second largest National Park in the Continental United States 
at risk of being lost. We are talking about a United Nations 
World Heritage Site in the Everglades System. We are discussing 
the largest environmental restoration project in the history of 
the world--I will repeat those words--the largest environmental 
restoration project in the history of the world. This project 
will serve as a laboratory for the 21st century and beyond, 
both for the United States and global efforts to restore 
damaged environmental systems.
    This is in the category of the great projects Congress--in 
many cases, this committee--has authorized over its more than 
200 years of existence. There is a new book out by Stephen 
Ambrose that describes the process by which the United States 
was linked by a road of steel, the first railroad to link the 
Atlantic to the Pacific. That was a project that was authorized 
by funding through the U.S. Congress. It was a project which 
was beset with many of the same unknowns and risks we are 
talking about with the Everglades, but would anyone today, 135 
years after its completion, say that that was not a risk worth 
taking?
    Almost 100 years ago, we authorized an even more unknown 
and risky project, one which had already killed thousands of 
people, cost millions of francs, and the disgrace and 
imprisonment of some of the most prominent citizens of the 
country of France. But this Congress decided, with the strong 
support of President Theodore Roosevelt, that we would attempt 
to build a canal across Panama. I would suggest a book called 
``Path Between the Seas'' by David McCullough, which describes 
all the unknowns in that great project. But would anyone today, 
100 years later, say that we should not have taken the risk of 
the unknown in pursuing that project? I think not.
    There have been some comments made, which I hope our 
panelists will help us clarify. One is on the front page of a 
report we just received--and I underscore, just received--which 
says ``additional water quality projects may be needed and 
could increase costs''. Those speculative statements may and 
could become reality with a project as complex as this, as I am 
certain there were changes in the plan to build the railroad in 
the 1860's and build the Panama Canal in the first two decades 
of this century. But I would point out that every change would 
require the authorization of a future Congress.
    These projects--we do not live in a dictatorship in which 
the executive branch can, without restraint, proceed to do with 
it thinks is right. This is a system of Government of divided 
powers and the power to authorize public works projects and to 
appropriate the funds for those projects is by the Constitution 
resident in the legislative branch. So if there are going to be 
additional water quality projects, which could increase costs, 
we are the ones who will have to make that judgment as to the 
appropriateness of the project and the acceptability of the 
cost of that project and authorize and appropriate.
    Much has been made about the issue of cost. And this is 
going to be an expensive project. But I would point out what 
needs to be understood. This is a 50/50 project. When we talk 
about $7.8 billion, 50 cents of every one of those $7.8 billion 
is going to come from the State of Florida and 50 cents will 
come from the Federal Government. I think in a business 
transaction, if you have two partners, one of the advantages of 
that is that you have two different sets of eyes looking at the 
facts and trying to render good judgment, recognizing that 
their money is going to be at risk by those decisions.
    So while it may not be a total comfort, I think the fact 
that the State of Florida is going to be putting up half the 
money for this project, and will be assuming both the economic 
and political consequences of those decisions, should give us 
some degree of confidence as to the project.
    We are going to be talking later today about the issue of 
the operation and maintenance. I will agree that it is a 
relatively new or maybe a renewed concept that the Federal 
Government should have a responsibility for operation and 
maintenance after the project is complete. I would again point 
out that if this were to be financed as a standard Corps of 
Engineers project would be financed, 65 percent of the cost 
would be paid by the Federal Government, not 50 percent. So the 
State of Florida is accepting a substantially higher proportion 
of the cost of this project than would normally be the case.
    It seems to me--both in recognition of the fact that the 
principal beneficiary of this project will be these enormous 
Federal investments throughout South Florida and the fact that 
the initial cost of construction is going to be substantially 
less to the Federal Government than would normally be the 
case--this is persuasive justification for an ongoing 50/50 
relationship in operation and maintenance as there will be in 
construction.
    But Mr. Chairman, we are going to have ample opportunity to 
discuss these issues.
    There is another concern I must state, and that is that I 
am concerned about the process that has led us to this hearing 
today. Just as one of the goals of the Everglades restoration 
is to restore a natural flow of water throughout the Everglades 
System, it seems to me one of the goals of a legislative 
process is to maintain a flow of information. We may disagree 
as to what that information means and have different 
recommendations and judgments based on the same set of facts, 
but we all ought to be dealing with the same set of facts.
    When now chairman of the Federal Reserve System was the 
head of the Commission to study Social Security, he began the 
debate of his commission by saying that everyone could have 
their opinion, nobody could have their own facts. Everybody had 
to start from the same set of basic facts.
    I am concerned that the process which has brought us to 
this morning has impinged upon that goal. The GAO released its 
report on September 13. It was not until 6:30 last night that 
our office was able to get a copy of this report. They may wish 
to comment on it, but I understand that as of this hour that 
the representatives of the State of Florida and the Corps of 
Engineers received copies of this report. I don't think that is 
an appropriate way in which to proceed with a discussion as 
serious as the one we are going to be having.
    I am writing a letter to the head of the GAO asking that 
their policy of allowing the person who requested the report to 
essentially embargo the report for up to 30 days be modified in 
the event that there is going to be a public hearing or other 
public use of the document in that 30-day period. If you want 
to embargo it for 30 days so that you are the only one that can 
read the book, that is one thing. But if you want to use the 
book for a public hearing, then there ought to be access by the 
public to that material sufficiently in advance so that 
everyone is operating off the same set of facts.
    I would also ask that when we start the 107th Congress that 
the rules of this committee might be looked at in terms of when 
members of the committee will receive materials that relate to 
what is going to be the subject of a committee hearing. Senator 
Mack and I both feel as if we have not had an adequate 
opportunity to fully digest this material, although what we do 
know about the material indicates to us that the concerns 
raised in this report are concerns that have been raised 
previously and that several of the recommendations have in fact 
been substantially incorporated in the legislation, which the 
Senate will be considering later today.
    Mr. Chairman, with those comments about how I hope that 
maybe similar issues might be handled by the GAO and by the 
committee in the future, I look forward to the comments of the 
participants today and regret that the representatives of the 
State and the Corps of Engineers did not have more adequate 
opportunity to familiarize themselves with the report prior to 
this hearing.
    Senator Voinovich. Thank you, Senator Graham.
    I think you raise some very legitimate questions in terms 
of when the request is made to the GAO and in terms of when the 
response is given to the person who requested the information. 
As a newcomer on the block, I felt that we were following 
protocol that was established with the GAO and I would be more 
than happy to discuss that with you or Senator Smith in terms 
of when these reports are given to members of the committee and 
Members of Congress.
    I would like to clarify for the record that according to my 
staff the draft report was delivered to the Corps of Engineers 
and the State of Florida on August 1. It seems to me that that 
draft report----
    Senator Graham. But the report on which we are holding this 
hearing--we can ask them that question when they testify--I do 
not believe that neither the State nor the Corps of Engineers 
received a copy of this final report.
    Senator Voinovich. Well, that may be the case. But I think 
if you look at the draft report that they received and compare 
it to the report GAO finally came out with that the differences 
and discrepancies are very, very little. In fact, the meat of 
the report is in the draft report. I don't think it is fair to 
say that the people who are testifying today were unable to 
respond properly to the request to come here because of the 
fact that they did not have something before them to which they 
could respond. As a matter of fact, Senator, if you will note 
in the report, comments were made in the first part of the 
report where the State of Florida said they didn't agree with 
the issue of the cost estimate for the dredging of Lake 
Okeechobee.
    I think your point is well taken in terms of when members 
of this body receive reports and when they are distributed as 
something that is worthy of discussion and I think we should 
get to it. But I don't think that this hearing this morning is 
defective because the witnesses didn't have adequate 
information upon which to testify.
    I will now move on with the hearing.
    Senator Voinovich. We would like to call upon Mr. Barry 
Hill, Associate Director, Energy, Resources, and Science Issues 
for the United States General Accounting Office.
    Mr. Hill, we thank the GAO for the quick response they gave 
to the request I made to them about the overall cost in terms 
of water quality. We look forward to your testimony.

STATEMENT OF BARRY HILL, ASSOCIATE DIRECTOR, ENERGY, RESOURCES, 
 AND SCIENCE ISSUES, GENERAL ACCOUNTING OFFICE, ACCOMPANIED BY 
 SUSAN IOTT AND SHERRY L. MC DONALD, GENERAL ACCOUNTING OFFICE

    Mr. Hill. Thank you, Mr. Chairman and members of the 
subcommittee. It is a pleasure to appear before the 
subcommittee to discuss the water quality issues related to the 
Comprehensive Everglades Restoration Plan.
    Before I begin, I would like to introduce my colleagues. 
With me today are Susan Iott and Sherry McDonald, who are 
responsible for developing the information we will be 
presenting.
    If I may, I would like to briefly summarize my prepared 
statement and submit the full text of the statement for the 
record.
    We are here today to discuss our report, which is being 
released today, on the role of the Corps of Engineers' 
Comprehensive Everglades Restoration Plan in addressing the 
major water quality concerns in the South Florida ecosystem and 
modifications that may be needed as the Corps implements the 
Plan after it has been authorized by the Congress.
    In summary, the Corps' Plan provides a conceptual framework 
for improving the quality, quantity, timing, and distribution 
of water in the South Florida ecosystem. As authorized by the 
Water Resources Development Act of 1996, the Corps included 24 
water quality projects in the Plan that it deemed essential to 
the restoration of the ecosystem. Both the Federal and State 
governments will equally share the costs of these projects.
    The projects shown on the chart to my left include the 
construction of 17 stormwater treatment projects in areas where 
new storage sites will be built to reclaim water or modify its 
use; two advanced wastewater treatment facilities to take 
runoff from the Miami area, treat it, and return it to natural 
areas to increase the amount of water being provided there; and 
five smaller projects, such as the restoration of wetlands or 
dredging of sediments from lakes or other water bodies, that 
will have immediate environmental benefits.
    Among other things, the water quality projects are intended 
to improve the quality of water in the ecosystem and to 
supplement the efforts of Florida, which has the primary 
responsibility for achieving water quality in the State.
    Before proceeding with a discussion of the modifications 
that may be needed as the plan is implemented, I would like to 
point out that much of the information we will present today is 
based on our discussions with officials from Federal and State 
agencies that are responsible for managing water supplies and 
ensuring water quality.
    This was made necessary for two reasons. First, since the 
Plan is a conceptual document, detailed plans of the projects 
to be constructed are not yet available. Second, our review is 
forward-looking, that is, it is not an assessment of events 
that have already occurred.
    On the basis of our review of the 24 water quality projects 
included in this Plan, it is likely that modifications and 
additions to the Plan will be necessary as uncertainties 
related to implementing the Plan's projects are resolved and 
more information is gathered about the extent of the 
ecosystem's water quality concerns. Changes to the Plan's water 
quality projects could increase the total cost of the Plan over 
the Corps' current estimate of $7.8 billion.
    Potential water quality projects that may be needed include 
additional stormwater treatment areas, dredging projects to 
remove sediments contaminated with pollutants such as 
phosphorous, areas to treat the water being retrieved from 
underground storage wells, and chemical treatment facilities.
    Mr. Chairman, achieving water quality in the South Florida 
ecosystem will depend on several programs and efforts, 
including the Corps' Plan and several State programs. Although 
the Plan currently includes 24 projects to address the quality 
of water in natural areas of the ecosystem, there are too many 
uncertainties to estimate the number and costs of the projects 
that will ultimately be needed to improve water quality. The 
Corps has acknowledged this uncertainty in the Plan and has 
included a process for incorporating project modifications and 
additions in its future reports to the Congress.
    It has not, however, included a means for reporting 
cumulative changes in projects and costs for the Plan as a 
whole and the progress being made in implementing the Plan. We 
believe that such information will be important for the 
Congress in authorizing future projects. As a result, our 
report recommends that the Corps provide the Congress with this 
information at the same time as subsequent authorization 
proposals. In responding to our draft report, both the Corps 
and the state of Florida concurred with our recommendation.
    Mr. Chairman, this concludes our statement and we will be 
happy to respond to any questions from you or other members of 
the subcommittee.
    Senator Voinovich. Thank you very much.
    The Corps recognizes that the Plan has uncertainties and 
has included a process that Senator Smith made reference to in 
his opening remarks of adaptive assessment.
    What will this program accomplish and is it a reasonable 
way to deal with the uncertainty of the Plan?
    Mr. Hill. We think it is a very good way to deal with the 
uncertainties. Since this is basically a conceptual framework 
and a lot of the details have not been worked out and a lot of 
the technologies have not been tested or tried, this is 
probably the best approach to basically getting a project 
running and through monitoring and collecting data and 
assessing the results and effects you are getting from that 
project you can make whatever adjustments you need to make sure 
that the projects are working effectively and you are achieving 
your goals.
    Senator Voinovich. You identified the potential for adding 
additional water quality projects in the Plan and say the cost 
could increase. The Corps believes that it will have 
opportunities to save costs. Could you identify where costs 
could be saved?
    Mr. Hill. Yes, and we do mention that in our report. There 
are a number of places but the one we discuss specifically in 
the report deals with the aquifer storage areas. There is about 
250 of these aquifer storage and recovery wells that will 
require treatment of water. The current Plan calls for 
chlorination and filtration facilities to treat the water 
basically going into the well and some filtration needed when 
it comes out of the well.
    There are some concerns, in talking to the experts, about 
the chemical reaction that will occur when this treated water 
meets the groundwater. There is also a question as to whether 
any treatment will be needed at all. If they find out, once 
they get into this, that the chlorination and filtration is not 
needed, then there could be the potential of saving $500 
million off the total project cost. On the other hand, if they 
find out that not only is the treatment needed but perhaps 
additional treatments are needed, these costs could be 
increased in the future.
    So it is uncertain right now as to which way it is going to 
go. But there is the potential there, if that treatment is not 
needed, to save $500 million off these estimated costs.
    Senator Voinovich. Your testimony listed several 
uncertainties in the Plan that will likely lead to additional 
water quality projects. I am not asking you to list every one 
of them, but I think it is important for this hearing for you 
to elaborate on the specific projects you have identified in 
all probability could add to the cost of the Project because we 
need to deal with the water quality issue.
    A statement has been made--I will be interested in what Mr. 
Struhs has to say--that this Plan will provide for 25 parts per 
billion of phosphorous when EPA may require in the Plan to 
reducing it to 10 parts per billion. This is a real question 
that is still on the table. I am interested in hearing your 
comment on it.
    Mr. Hill. That is one of the areas that deals with the 
stormwater treatment areas in terms of trying to deal with 
reducing the level of phosphorous in the water.
    The standard has not been set yet by the State in terms of 
how low a standard they need to achieve. The projects are 
currently being built with a standard in excess of what could 
be the ultimate standard there. If the standard is lowered to 
10 parts per billion, then there may be some additional 
projects or modification of projects that are needed. That is 
one area.
    There are also questions about additional water for the 
Everglades National Park. The Department of Interior is 
concerned that some additional water may be needed over what 
has been estimated now, up to 245,000 acre feet of water. If it 
is found out that additional water is needed, then there would 
have to be modifications made to provide that water.
    Senator Voinovich. Thank you.
    Senator Smith?
    Senator Smith. Mr. Hill, were your investigators able to 
calculate any evidence that the cost would increase beyond the 
$7.8 billion?
    Mr. Hill. Let me answer that by saying that first of all we 
did not estimate costs as much as we talked to the experts, we 
talked to the people doing the design work in getting together 
this project in terms of trying to identify some of these 
uncertainties and some of the options or alternatives that 
might need to be considered. Some of this is uncertain to the 
point where there are no costs but there does seem to be some 
concern that additional projects may be needed. In other cases, 
we were able to identify projects that basically are on the 
horizon and could have quite a price tag on it, like the work 
that would be needed in Lake Okeechobee.
    Ms. Iott and Ms. McDonald can answer some specific things 
in terms of the people they have talked to and the experts they 
have talked to in terms of what they know.
    Senator Smith. Can you suggest any areas outlined in the 
Plan now where significant cost reductions might occur?
    Mr. Hill. Well, we just talked about the aquifer storage 
areas which could reduce up to $500 million, depending on 
whether that chlorination and filtration is needed or not 
needed.
    Ms. McDonald. The Corps is also considering whether or not 
they will need the wastewater treatment areas that are also 
included in the Plan. The Corps also plans to--as it designs 
the projects--do value engineering to see where they can save 
additional costs.
    So there are some areas where they may save costs, which is 
why we believe there is potential for that. But when looking at 
the modifications and additions that may be needed, we believe 
there is a possibility that the cost could increase.
    Senator Smith. Did you want to comment, Ms. Iott?
    Ms. Iott. I think we should point out that the advanced 
wastewater treatment plants--they are considering substitutes 
for that, but that is the option now on the table for water for 
Biscayne Bay where there is still some uncertainty about the 
water that will be provided for the Bay.
    Senator Smith. One of the assertions that you made in your 
report, as I understand it, is that Lake Okeechobee might have 
to be dredged. That opinion is not shared by either the State 
of Florida or the Corps of Engineers, as I understand it.
    Is that a fair assessment to have in the GAO report, if 
most of the experts feel that that $1 billion cost of dredging 
may not indeed happen at all? Is it fair to include that in the 
report?
    Mr. Hill. We have included that in the report because we 
view the lake as being such a critical part. It is the heart of 
the water system we are dealing with. There are lots of 
concerns about the phosphorous in the lake. The water will be 
needed for this restoration effort. The Corps is already 
involved in doing some treatment of the water in the 
tributaries leading into that lake. There are various options 
that are still being considered in terms of how to deal with 
the phosphorous in the lake.
    Dredging is certainly one of the options that is under 
consideration right now. It is a possibility. I think they are 
still going to pursue other less costly ways of dealing with 
the problem, but right now, it is really uncertain.
    Senator Smith. But I think you would have to conclude, 
wouldn't you, that to dredge Lake Okeechobee at a cost of 
approximately $1 billion would be an extreme position to take 
at this point in the game. Is that fair or unfair to say?
    Mr. Hill. I don't know if we can comment on that. I don't 
know if it is extreme or not extreme. All we are really trying 
to do is identify some potential unknowns and uncertainties out 
there. Certainly, Lake Okeechobee is a big uncertainty right 
now in terms of what you do with it. It is something that is 
going to have to be dealt with. How it is dealt with and how 
much it is going to cost remain to be seen. We wanted to bring 
it to your attention that this is something that is going to 
have to be dealt with. From the cost estimates and alternatives 
with which we were presented, the most costly alternative would 
be complete dredging of the lake. The estimate that has been 
given to us on that is $1 billion.
    Senator Smith. But you can always create more uncertainty 
if you want to. But the point is that the Army Corps and the 
State of Florida do not agree that Lake Okeechobee would have 
to be dredged. You are taking a position that is in opposition 
with the experts who have advised us on this entire Plan. Is 
that correct?
    Mr. Hill. I think in our report we appropriately point out 
that there is still disagreement over this and that the State 
and the Corps are still contemplating what to do about this and 
studying what needs to be done about this. I don't think we at 
any time characterized or attempted to characterize in our 
report that this was definitely going to be something that the 
Federal Government was going to be involved in and pick up the 
cost.
    We are just saying that this is an area of disagreement, an 
area of concern. We did take the additional step of stepping 
back and saying that based on where that lake is and how it 
fits into the restoration effort and the extent to which the 
Corps has already been involved in projects that affect that 
lake, there is a likelihood that the Federal Government will 
get involved in it and it will have a price tag on it.
    Senator Smith. My time has expired, but I just want to say 
that the point is, even if that were the case, under the 
adaptive assessment process that we have laid out, Congress 
would have to authorize that. It is not going to happen unless 
Congress authorizes it.
    Mr. Hill. That is correct.
    Senator Smith. So again, going to that point--and Senator 
Voinovich asked you this question and did a quick followup--are 
you comfortable that under this adaptive management process we 
have laid out here that we can adapt and we can make changes 
which could escalate it or depress--are you comfortable with 
that?
    Are you comfortable with the language that is written in 
the legislation? Whatever Congress does, Congress does, and the 
executive branch. But as far as the language is concerned, 
there is no commitment here beyond what we authorize in the 
first round. We are not committed to $8 billion, per se.
    Mr. Hill. You are correct. That would require 
authorization. There are two things that would make us 
comfortable. One is the adaptive assessment process that is 
already included in the bill. We fully support that. The second 
is the recommendation we made. We think in addition to just 
monitoring and assessing how this thing is working, Congress 
also needs to know, on a more periodic basis than once every 5 
years, at the time that the Corps is coming in for more 
authorizations, they need to explain more fully what is 
happening here. Since this is a conceptual project, there is a 
lot of uncertainties out there, the feasibility studies haven't 
been done, the more information Congress has in terms of how 
this overall effort is going, how much it is costing, what more 
will be needed, and how effectively we are achieving the goals 
I think the better off everybody is.
    Senator Smith. I don't disagree with you there. I agree 
with you.
    Thank you, Mr. Chairman.
    Senator Voinovich. Thank you, Senator.
    Senator Graham?
    Senator Graham. Just two issues. One, we are in agreement 
that any additional projects that would be developed as a 
result of the adaptive management process and indicated to be 
appropriate to achieve the results will require congressional 
authorization?
    Mr. Hill. Yes, sir.
    Senator Graham. So our successors in this room would have 
to make a judgment as to whether those modifications, 
deletions, or additions and their projected costs were in the 
public interest in terms of achieving this goal of restoration. 
Is that correct?
    Mr. Hill. That is correct.
    Senator Graham. No. 2, I have quickly looked through the 
report and I have only been able to find one recommendation--
and that is on page 26. Are there any other recommendations you 
have made?
    Mr. Hill. No. The only recommendation dealt with the need 
to periodically report to the Congress the status of the 
project and the need for more money or more projects.
    Senator Graham. I would like to bring your attention to 
page 34 of the legislation--not of the book, of the legislation 
which is going to be before the Senate hopefully this 
afternoon.
    It states on line four, ``Report to Congress--Beginning on 
October 1, 2005, and periodically thereafter until October 1, 
2036, the Secretary''--that's the Secretary of the Army--``and 
the Secretary of the Interior, in consultation with the 
Environmental Protection Agency, the Department of Commerce, 
and the State of Florida, shall jointly submit to Congress a 
report on the implementation of the Plan. Such reports shall be 
completed not less often''--not less often--``than every 5 
years. Such reports shall include a description of planning, 
design, and construction work completed, the amount of funds 
expended during the period covered by the report (including a 
detailed analysis of the funds expended for adaptive assessment 
under subsection (b)(2)(C)(xi)), and the work anticipated over 
the next 5-year period. In addition, each report shall 
include''--and then it gives more detail as to what is 
required.
    How would you modify that language, based on your 
recommendation?
    Mr. Hill. We think that is a good reporting requirement. 
The only modification we would see is that since this is such a 
conceptual project and the designs and feasibility studies 
haven't been done, there would be benefit to having that type 
of report done more often than once every 5 years.
    I know the language says at least every 5 years, but I 
guess what we are saying is that when the Corps comes in for 
its authorization request that would be a good time for them to 
report in, basically, the types of information you are talking 
about there.
    Senator Graham. It seems to me that the language is quite 
clear. It says they have to report every 5 years, but can be 
required to report more frequently. Every time they report they 
have to not only do an assessment of all actions to date, but 
then look forward 5 years as to what they anticipate.
    It seems to me that gives to the Congress very great sense 
of confidence as to the information they are going to get, and 
the ability of Congress to direct that this report be given 
either on a more frequent calendar basis of the 5-year 
requirement or on the basis of individual events, for instance, 
at the completion of the first 10 projects that are going to be 
authorized in this report, or at some other date in the process 
that has a particular significance.
    If you have some language change that you would recommend 
to that report to Congress language, I would be receptive to 
hearing it. But I will say that this was thoughtfully crafted 
and seems to me as if it accomplishes what your recommendation 
is in the proposal.
    Ms. McDonald. I have not seen the requirements you have in 
the most recent version, but----
    Senator Graham. Our language has been in the public domain 
since this bill was reported out of this committee. So it is 
available.
    Ms. McDonald. But what I wanted to point out was that one 
of the things that we think would be very important is to know 
what cumulative changes are being made to the Plan. At this 
point, there are 66 projects in the Plan, at an estimated cost 
of $7.8 billion. Part of our recommendation is for the Corps to 
report to the Congress on what cumulative changes to the Plan 
have been made and then how much that will affect the schedule 
and cost.
    Senator Graham. I would ask when the Corps testifies if 
they think this language covers that. I think it does. And as 
you know, the structure of this legislation is that while we 
are sanctioning the full report, we are only authorizing a 
stipulated set of the some three score projects that are going 
to be necessary to accomplish this. So the Corps has to 
periodically come back to Congress to get authorization for the 
next wave of projects that are necessary to carry out this 
restoration.
    Mr. Hill. And I guess where we were coming from, in that 
process, they are likely to come to you and ask for individual 
projects or increases to individual projects--the 10 projects, 
perhaps, that were authorized in the prior session. They will 
come and ask for additional money to complete that work.
    We are saying that in addition to that information you need 
to also step back and look at the process as a whole, 
cumulatively. What is going on with the project? How many more 
additional projects have you identified that we are going to 
need to do? If you are not considering that and you don't get 
funding for those projects, then it is possible that the entire 
effort and their ability to achieve the goals would be 
jeopardized. And nobody would want that.
    Senator Graham. Thank you.
    Thank you, Mr. Chairman.
    Senator Voinovich. Thank you very much. I appreciate you 
being here today.
    Senator Voinovich. Our next panel is Mr. Michael Davis, 
Deputy Assistant Secretary of the Army for Civil Works and Mr. 
David Struhs, Commissioner of the Florida Department of 
Environmental Protection.
    Mr. Davis, thank you for coming today to testify.

 STATEMENT OF MICHAEL L. DAVIS, DEPUTY ASSISTANT SECRETARY OF 
                     THE ARMY (CIVIL WORKS)

    Mr. Davis. Thank you.
    Mr. Chairman and members of the subcommittee, I am Michael 
Davis, Deputy Assistant Secretary of the Army for Civil Works. 
I am pleased to be here today to present the Administration's 
views on the draft GAO report concerning water quality issues 
associated with the restoration of America's Everglades. I am 
also pleased to be here today with my colleague from the State 
of Florida, Secretary David Struhs.
    With me today are representatives of the Army Corps of 
Engineers, the Department of the Interior, and the 
Environmental Protection Agency.
    Mr. Chairman, as you know, the restoration of America's 
Everglades is a high priority for this Administration. 
Restoration of the Everglades requires that we ``get the water 
right'' by addressing each of the four interrelated factors: 
quantity, quality, timing, and distribution. As such, ensuring 
a supply of clean fresh water is an integral part of the 
Comprehensive Everglades Restoration Plan, or CERP.
    Over the past 100 years, excessive drainage of wetlands and 
changes in the natural variability of water flows have altered 
the Everglades wetland ecosystem. Today, discharges to the 
Everglades are often too much, often too little, and frequently 
at the wrong times of the year. An overabundance or scarcity of 
water affects plants and wildlife accustomed to the Everglades' 
historic range of water flows, levels, and seasons. In 
addition, canals and highways that criss-cross the Everglades 
have interrupted its natural overland sheet flow.
    Water quality throughout south Florida has deteriorated 
over the past 50 years. More than one-half of the wetlands that 
acted as natural filters and retention areas are gone due to 
agricultural and urban expansion. Under current conditions, 
these natural systems cannot recover their defining 
characteristics and they will not survive.
    The CERP offers a broad, comprehensive approach, which is 
designed to restore and improve the condition of water quality 
throughout the Everglades ecosystem. While it will not solve 
all water quality problems, the CERP improves the quality of 
water in the study area, integrates modifications to the 
Central and Southern Florida project with ongoing State of 
Florida water quality efforts, and ensures that our actions to 
capture and store water meet water quality requirements.
    Water quality was a consideration in every aspect of the 
CERP, and many components of the CERP include treatment 
features to ensure that water quality conditions are improved.
    We believe the CERP, in concert with other proposed and 
ongoing restoration efforts, represents the best way to both 
restore the ecological integrity of the Everglades ecosystem 
and to enhance water quality. While the CERP reflects the best 
available science, we are prepared to refine our thinking as we 
learn more. Thus the CERP is designed to be flexible, to 
incorporate and respond to new information as it becomes 
available. Continuous monitoring and independent scientific 
review are key components of the CERP. Still, we cannot wait 
for all the answers to begin. There is too much at stake and 
little time to act.
    We appreciate the work conducted by GAO and as always we 
welcome constructive advice on how to improve Army water 
resources projects. In its draft report GAO concluded that 
``there are too many uncertainties to estimate the number and 
cost of projects that will ultimately be needed to improve 
water quality.'' To address this concern, we understand that 
GAO will recommend that the Secretary of the Army provide 
Congress with updates that reflect any cumulative project and 
cost changes to the CERP; and indicate the progress being made 
toward implementing the CERP.
    We do not take issue with the specific recommendations made 
in the draft report. We agree that Congress should be kept 
informed of our progress and of any substantial changes as we 
implement the CERP. We have proposed legislation to require 
such reporting.
    In regard to water quality generally, we are satisfied that 
the CERP reflects the proper balance between the need to have 
information and the need to begin the restoration of an 
important natural resource that is in serious trouble. Much is 
known about the Everglades and how it can be restored. We will 
learn a lot more through on-going independent scientific peer 
review as well as the adaptive assessment process outlined in 
the CERP. We strongly believe that the level of uncertainty and 
potential cost increases are manageable through the monitoring 
and reporting.
    We agree that there are some uncertainties associated with 
the implementation of the overall CERP. Some uncertainties are 
expected considering the size of the project and its staged 
implementation over 30 years. However, the Corps, the South 
Florida Water Management District, and many other Federal and 
State partners have disclosed fully the uncertainties and 
proposed a methodology and process to address these 
uncertainties.
    We disagree that uncertainties on the proposed water 
quality components will absolutely lead to cost increases. The 
$7.8 billion cost estimate reflects our best estimate of the 
cost of implementing the CERP based on information we have 
today after considering these uncertainties. In many ways, the 
Corps estimate is very conservative, often assuming the worst 
case scenario, as suggested by the comments on the ASR by the 
GAO expert. In fact, there is good reason to believe that the 
actual cost of some project features could be less than 
estimated in the CERP.
    We concur with the GAO recommendation that the Army should 
provide Congress with updates regarding implementation progress 
and changes to the CERP. The Everglades restoration legislation 
included in the Administration's April 10, 2000 proposal for 
Water Resources Development Act included a provision requiring 
reports to Congress. This provision requires that the Secretary 
of the Army and the Secretary of the Interior, in consultation 
with the Environmental Protection Agency, the Department of 
Commerce, and the State of Florida, submit reports on the 
implementation of the CERP to Congress beginning in October 
2005 and at least every 5 years thereafter.
    In conclusion, Mr. Chairman, protecting and restoring water 
quality is an integral part of restoring the Everglades 
ecosystem. As such, addressing water quality issues has been 
and continues to be a fundamental objective of the CERP. 
Providing a reliable supply of clean fresh water to the 
ecosystem is at the heart of the CERP. While some uncertainties 
exist, we remain confident of the analysis, conclusions, and 
recommendations outlined in the CERP, including those germane 
to water quality. Further, we do not believe that based on the 
GAO report or any other information available at this time that 
Congress should assume that the cost to implement the CERP will 
unreasonably increase or even increase at all.
    Mr. Chairman, an American treasure is in serious trouble 
and we have developed a technically sound plan to do something 
about it. America's Everglades cannot wait until we have all 
the answers because we never will have all the answers. As with 
any important endeavor of this nature there are risks. The 
risks associated with inaction, however, are clearly greater.
    The next vital step for Everglades restoration is passage 
this year of the legislation authorizing the CERP. As you know, 
the Administration has been working closely with the Senate 
Environment and Public Works Committee on such legislation. 
Recently, the Administration, the committee, the State of 
Florida, and a diverse group of stakeholders reached agreement 
on amendments to S. 2797. The Administration strongly supports 
S. 2797 with these amendments and recommends its immediate 
passage.
    Mr. Chairman, that concludes my statement. Again, I 
appreciate the opportunity to testify today before your 
subcommittee.
    I would be pleased to answer any questions you or the other 
subcommittee members may have.
    Senator Voinovich. Thank you very much.
    Mr. Struhs?

STATEMENT OF DAVID STRUHS, COMMISSIONER, FLORIDA DEPARTMENT OF 
         ENVIRONMENTAL PROTECTION, TALLAHASSEE, FLORIDA

    Mr. Struhs. Thank you, Senator Voinovich, and thank you for 
inviting me to join you this morning.
    On a personal note, I remember the day that you and I spent 
touring the Everglades. It was a marvelous day and I remember 
you asked a lot of hard questions then. You continue to ask 
hard questions today. I think that is good for all of us 
because it makes sure that as we go forward and undertake such 
a large project, we can provide the public the confidence they 
need that we are going to have a project that demonstrates and 
delivers on its promises and maintains that public support.
    One of the ways in particular which I think this report 
will be particularly helpful is laying to rest a common 
misperception that water quality issues are somehow separate or 
apart from the other project goals of this restoration project. 
Indeed, quite the opposite is true. As you know, the 
Comprehensive Everglades Restoration Plan has anticipated--and 
indeed integrated--water quality issues throughout its various 
components. Water quality is clearly and inextricably 
intertwined with all the other project purposes that are 
essential to Everglades restoration.
    Regarding the projected costs of the Project, particularly 
those that relate to water quality, to the extent they can be 
separated out, I think the costs are actually fairly firm for a 
project of this size and duration. Moreover, I suspect that if 
the cost of the water quality components move at all, it is 
just as likely that they will move in a downward direction. 
Indeed, you have already heard the possibility that if we are 
successful in using risk-based treatment standards on the 
aquifer storage and recovery technology, we could save as much 
as $500 million on the Project.
    A couple of other things I wanted to make clear for the 
record. While some issues may remain in dispute, overall it is 
a project and project conclusions that we can endorse quite 
happily. The main project recommendations from the report are 
some additional reporting by the Corps of Engineers, 
particularly as it relates to costs and progress in terms of 
delivering results. We fully agree with that. Indeed, in the 
State of Florida, we are already bound by a similar requirement 
through some State statutes.
    I also wanted to thank the General Accounting Office for 
being attentive and responsive to some of the comments they 
received from the State of Florida as we reviewed drafts. In 
particular, they were accommodating in changing the title of 
the report, the final title being ``Additional Water Quality 
Projects and Costs May Be Needed''. We think that is a superior 
title, giving a truer reflection of what we are actually 
talking about. As you know, a lot of people won't ever get 
beyond the title of reports such as this.
    Regarding the Lake Okeechobee dredging, clearly whenever 
you see a $1 billion figure it becomes fairly daunting to all 
of us, and that is something that deserves a lot of public 
attention and debate. As far as the State of Florida goes--we 
are not even convinced that we would want to go forward with a 
project like that. I don't believe there is any scientific 
consensus that indeed a dredging project would be in the long-
term best interest of the lake or the larger ecosystem.
    A final comment, interwoven throughout the report is a 
discussion of how you are going to achieve a phosphorous 
standard that will probably be substantially lower than that 
which will actually be achieved by the stormwater treatment 
areas that are being designed and built as part of the 
Comprehensive Everglades Restoration Plan. I want to make it 
very clear that to the extent there will be extra costs in 
achieving those reductions, those costs, regrettably, are going 
to rest with the State of Florida and our various stakeholders.
    Finally, the work that is already underway with the 
Everglades construction project and the proposed projects in 
the Comprehensive Everglades Restoration Plan, as it relates to 
water quality are compatible.
    With that, I would look forward to answering any questions 
you may have.
    Senator Voinovich. Thank you very much.
    I would like to ask both of you if you would support 
additional language by agreement that would require more often 
reporting, as suggested in the report by the General Accounting 
Office.
    Mr. Struhs. Currently, under the State requirements in 
Florida, we are obligated to provide reports of a similar 
nature on an annual basis. I suspect that that would probably 
be appropriate at the Federal level as well.
    Senator Voinovich. Mr. Davis?
    Mr. Davis. Mr. Chairman, we would like to work with you to 
perhaps refine that language. I think clarifying the frequency 
of the reporting could be something that we could agree to.
    I would ask the question, though--in at least the first 5 
years you may not want or need a report every 2 years because 
there is probably not going to be much to report on for the 
first 3, 4, or 5 years. So you may want to have a starting 
point and then every 2 years or 3 years after that.
    Senator Voinovich. Well, I would be interested in having 
you sit down with the staff. We are going to be dealing with 
this legislation today or tomorrow. Certainly before we get out 
of here, we are going to pass this legislation. If we can work 
on that and get it into a manager's amendment, that would be 
fine.
    Mr. Davis. We will work with you.
    Senator Voinovich. Thank you very much.
    I think one of the reasons why I was interested in asking 
the GAO about whether or not we had all the costs nailed down 
or if there were some other costs that would be faced down the 
road gets back to my opening statement. That is that the 
adequacy of the funding to move forward with all these WRDA 
projects--as I mentioned, $39 billion and about $4.5 billion of 
that would include the first phase of the restoration of the 
Everglades. We talk about these issues--and Mr. Struhs, I want 
to compliment you and your Governor and your Legislature for 
stepping to the table in terms of funding of this. You are 
anxious to get going.
    But the real issue is whether the Federal Government will 
be able to belly up to the table in terms of their costs. And 
we do have a genuine need for additional dollars in this area. 
It is one that needs to be confronted.
    Mr. Davis, I would like you to comment. Do you think the 
budget is adequate to take care of the capital costs of the 
projects the Corps has been asked to undertake?
    Also, we have another problem here, and that is the whole 
issue of O&M money. My understanding is that you have a backlog 
of $450 million in O&M projects. Of course, one of the issues 
that we have that may be debated on the Floor of the Senate is 
whether or not we should go along with the legislation talking 
about the sharing of those costs.
    I would like you to respond.
    Mr. Davis. Mr. Chairman, I think you have raised a very 
large and very important issue that transcends Everglades 
restoration that certainly the Administration and the Congress 
need to sit down and have a very constructive dialog to try to 
resolve, and that is what the appropriate level of funding for 
water resources in this country is, and in particular for the 
Corps of Engineers. There is not enough money to do everything 
we are being asked to do right now. There is a backlog in both 
the O&M and construction programs. We need to work together to 
try to tackle that backlog and set some priorities.
    I think the important thing with the Everglades is that I 
believe by most everyone's account this will rise to the top in 
terms of priority. I think we must get moving on this one, but 
at the same time we do need to work on the larger problem about 
funding and the Nation's priorities for water resources overall 
and how we fund that. There are a lot of unmet needs out there 
to which we need to pay attention.
    Senator Voinovich. I know that when I was Governor of Ohio, 
we set about trying to really identify what the unmet needs 
were. When I was Mayor of Cleveland, they came in and said $3 
billion worth of sewer, water, and all the rest of it. We got 
the private sector and created something called ``Build Up 
Greater Cleveland'' and identified what we needed to do. We 
said here is the problem and then started to systematically 
deal with it. I think that is the logical way to tackle things.
    I think we are being a little bit unrealistic. This 
legislation passes and people will go out and tout that they 
are really going to do this. Then when you scratch the surface, 
you want to see the money. Show me the money.
    That is a major issue that I think we all need to be 
concerned about in terms of our public policy.
    Mr. Davis, you talked about the fact that there were 
specific areas where you feel, rather than low-ball cost, you 
put them in at what might be the highest cost. Could you give 
us a few examples of those?
    Mr. Davis. First, let me say that one of the general 
philosophies behind the Jacksonville District's formulation of 
the Plan was full and fair disclosure. They really did take 
conservative approaches when they put their estimates together 
because they knew that in many cases these were conceptual 
ideas and projects. So they did kind of assume the high cost 
here.
    An example is the ASR. Again, we assumed that before we can 
pump this water in the ground from these 300 or so ASR wells 
that we will have to treat this water to drinking water 
standards. We have had discussions with the State and with the 
Environmental Protection Agency that lead us to believe that 
there is a good possibility that we will not have to do that. 
There is a possibility, as a result of that, that we could save 
as much as $500 million just on the cost of ASR alone.
    The wastewater reuse--we have assumed that we will have to 
have two wastewater reuse facilities in Dade County to provide 
water in that part of the ecosystem. There are some folks who 
believe we will not need both of those and those are some of 
the most expensive features, both in terms of the capital costs 
and the O&M costs. We have reason to believe that we can get by 
with only one of those. But we don't know that yet, so we 
assumed the worst case, that we have to have them both.
    We felt pretty strong in the Army--as we gave direction to 
the Corps--like you, we wanted to be fair. We wanted to 
disclose as fully as possible to the Congress what the 
potential cost would be here. I don't want to be sitting here 2 
years from now, telling you that we made a mistake and it is 
actually $10.5 billion. We didn't want that situation. So we 
tried to get as close as we can, but being conservative so that 
maybe we can reduce it.
    Senator Voinovich. And the example is that you anticipate 
that you would have to treat the stormwater before you put it 
into these underground wells for storage purposes?
    Mr. Davis. That's right. Right now, before we pump it down, 
we would have to treat it to drinking water standards. The 
State and EPA have suggested that perhaps we might not have to 
do that. If coliform bacteria is the only problem that perhaps 
we might not have to do that and we can avoid chlorination and 
other problems that that might create by just pumping it down 
in there, maybe with some limited filtration.
    Senator Voinovich. This whole business of water quality is 
one that has been kicking around. I mentioned earlier the issue 
of the 25 parts per billion in terms of phosphorous. I know 
that that is a big problem in the Everglades because of the 
growth of some invasives that have flourished because of the 
phosphate content of the water.
    Has there been any final discussion about what it is? Does 
it have to be 10? Is the natural environment 10? Have you done 
any research on this?
    Mr. Struhs. Yes, sir.
    Senator Voinovich. What is your take on it?
    Mr. Struhs. Well, it is remarkably complicated. If you 
looked at phosphorous levels in any other ecosystem, and you 
could get those nutrients down to 100 parts per billion people 
would celebrate because it would be pristine water. Yet what 
makes the Everglades truly unique--and we use that word unique 
too liberally nowadays, but in this case it really is true--
what makes the Everglades the Everglades is the ultra low 
levels of phosphorus. Getting it down to the natural background 
level in the Everglades is going to be a daunting challenge.
    But the good news is that we are making better progress and 
ahead of schedule. The Everglades Construction Project, which 
is, as you know, already underway, was intent on delivering 
water that would reduce phosphorous levels down to 50 parts per 
billion. Indeed, now that some of them are up and operating, 
they are actually exceeding that performance standard.
    That is a marvelous thing for the State of Florida because 
to the extent that we need to set standards that go below what 
this project is going to deliver, that is a cost that is going 
to fall on Florida and Floridians. So we are very encouraged by 
the progress made thus far.
    In terms of the schedule for defining what that standard--
--
    Senator Voinovich. The natural--what was it?
    Mr. Struhs. Currently in the State of Florida----
    Senator Voinovich. What is the goal that you think will get 
the job done of the restoration that deals with the invasives--
that is a whole other subject that you and I talked about in 
Florida that seems to me needs to be addressed, which is the 
invasive exotics that are in there. The quality of water has to 
do with whether they flourish or they don't flourish--I guess--
in terms of the phosphorous content. But beyond that, what do 
we do about that particular problem?
    But let's get back to the phosphorous in the water.
    Mr. Struhs. Currently, in Florida State law there is in 
fact a standard for phosphorous in the Everglades System. The 
standard is what we call a narrative standard. It is not a 
numeric standard. Basically what it says, in simple terms, is 
that phosphorous has to be kept at a level where there is no 
imbalance to the natural flora and fauna.
    As we discussed earlier, the challenge with the Everglades 
is that that balance is a very delicate one because it is 
accustomed to very, very low levels of phosphorous.
    Under State law, we are obligated by December of 2003 to 
translate that narrative standard into a numeric one. As you 
probably remember, Governor Bush has pledged that he will 
accelerate that process and see if we can set that number 
sooner. We are nowhere near accomplishing that just yet, but I 
think what has given everybody confidence that Florida is 
serious is that within State statute we actually built in a 
default standard of 10 parts per billion. In the event that the 
science is unclear and we can't pinpoint whether it is supposed 
to be 13 or 7, that default standard kicks in and we know that 
10 parts per billion is a pretty good marker in terms of the 
natural phosphorous you see in the Everglades System today.
    Senator Voinovich. Mr. Davis?
    Mr. Davis. Mr. Chairman, if I may, I could maybe add 
something to Mr. Struhs' comments.
    I think there is some confusion about this 10 parts per 
billion and whether or not we are going to build these 19 
stormwater treatment areas that are on this map here and 
perhaps we will build them and we will not be able to make that 
10 parts per billion.
    The confusion lies in the fact that the 10 parts per 
billion requirement will only apply in what is called the 
Everglades Protection Area, the water conservation areas and 
the Everglades National Park. Only two of those 19 stormwater 
treatment areas will discharge into that Everglades Protection 
Area that will be subject to that 10 parts per billion.
    For example, right now, the target is 40 parts per billion 
for Lake Okeechobee. So it will vary around the ecosystem. It 
is not going to be 10 parts per billion everywhere. So only two 
of those will be actually discharging where it might end up 
being 10 parts per billion; the other 17 will not.
    Senator Voinovich. It does get into the whole issue of--I 
know the Interior Appropriations Committee requested a report 
on the total cost to restore the ecosystem in South Florida. 
They asked that it be updated biennially. John Berry, who is 
the Assistant Secretary, indicated in a letter to the 
Appropriations Committee that the total cost is $14.8 billion.
    I don't want to pit one group against another, but I think 
you testified that you thought that this projected cost was a 
little bit out of line. We had the Assistant Secretary in the 
Department of Interior saying that he thinks that is what the 
cost is going to be.
    It would be interesting to know what your comments are. Are 
you familiar that that is what he said?
    Mr. Davis. I would never disagree with a Department of 
Interior official, let the record reflect.
    [Laughter.]
    Mr. Davis. Actually, we didn't disagree--I don't know what 
comments have been attributed to me personally, but the $14.8 
billion is a different number. The $7.8 billion is to get the 
water right. That is what we believe it is going to take to get 
the water right, and that is what you need to realize the 
benefits to restore essentially the hydrology in that 
ecosystem.
    There are other components. There is a land acquisition 
component that is going on. Some of that land may be lands on 
which the State and the Federal Government--mostly Interior--
are sharing the cost of that land acquisition program. Then 
there are other programs--mostly within the State--regarding 
the built environment--maybe brownfields or reuse of these 
areas. That is part of this as well.
    But what we said was that the $7.8 billion was for water. 
If you never do anything else, you will get the water right. 
All you need to do to get the water right is spend that $7.8 
billion and implement that Plan.
    Senator Voinovich. I am going to spend some more time 
looking at those numbers. But you are basically saying that it 
is the hydrolase you are talking about--they are talking about 
maybe more land acquisition and things of that sort?
    Mr. Davis. Yes, sir.
    Senator Voinovich. Do either of you want to volunteer any 
more comments? If you don't, I have exhausted my questions.
    Mr. Struhs. I would just reiterate what I said at the 
beginning. Whenever you undertake a public project of this size 
and duration, we all benefit and are stronger for putting it in 
the public spotlight and asking the hard questions and making 
sure that everyone is working with the same information. We 
appreciate your interest and the GAO's report.
    Senator Voinovich. I appreciate your kind remarks.
    I hope you understand that I am a supporter of this 
project. I think, though, as in any case, we need to have as 
much information as we can have on it. The more information we 
have the better job I think we can do. Again, as so often 
around here, if you have a big price tag on something people 
would rather not get started with it. We are going to get 
started with the Everglades restoration and hopefully by the 
time I leave this place we will increase that budget and have 
some more money available so that before I leave this earth I 
can say that we really have gone a long way to restore the 
Everglades and get on with some of the other major projects 
that we have in our country that are so important to our 
quality of life and to our environment.
    Thank you so very much.
    Senator Graham asked that--he wants to come back in about 3 
minutes. We will just recess until the Senator gets back.
    [Recess.]
    [Whereupon, at 11:03 a.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
Statement of Barry T. Hill, Associate Director, Energy, Resources, and 
    Science Issues, Resources, Community, and Economic Development 
           Division, United States General Accounting Office
               comprehensive everglades restoration plan
  additional water quality projects may be needed and could increase 
                                 costs
    Mr. Chairman and Members of the Subcommittee: The South Florida 
Ecosystem Restoration Initiative is a complex, long-term effort to 
restore the South Florida ecosystem, which includes the Everglades. 
Because water is key to restoring the ecosystem, one of the 
initiative's major goals is ``getting the water right'' or improving 
the quality, quantity, timing, and distribution of water in the 
ecosystem. The primary means of achieving this goal is through the U.S. 
Army Corps of Engineers' Comprehensive Everglades Restoration Plan (the 
Plan). Although achieving the right quantity, timing, and distribution 
of water is important, improving its quality is critical to sustaining 
and restoring the South Florida ecosystem. The Plan represents one of 
the most ambitious restoration efforts the Corps has ever undertaken; 
it contains 66 individual projects that are scheduled to take more than 
20 years to complete., Implementing the Plan is currently estimated to 
cost $7.8 billion a cost that will be shared equally by the Federal 
Government and the state of Florida. We are here today to discuss our 
report, which is being released today, on (1) the role of the Corps' 
Comprehensive Everglades Restoration Plan in addressing the major water 
quality concerns in the ecosystem and (2) modifications that may be 
needed as the Corps implements the Plan after it has been authorized by 
the Congress.
    In summary, Mr. Chairman, the Corps' Comprehensive Everglades 
Restoration Plan provides a conceptual framework for improving the 
quality, quantity, timing, and distribution of water in the South 
Florida ecosystem. Twenty-four of the Plan's 66 projects are intended, 
among other things, to improve the quality of water in the natural 
areas of the ecosystem; the remaining projects deal more with the 
water's quantity, timing, and distribution. The water quality projects 
in the Plan are intended to supplement the efforts of the state, which 
has the primary responsibility for achieving water quality standards in 
Florida. Under the Water Resources Development Act of 1996, the Corps 
is allowed to include water quality projects in the Plan and equally 
share the costs with Florida if the projects are essential to restoring 
the Everglades.
    Modifications and additions to the Plan will likely be necessary as 
uncertainties related to implementing the Plan's projects are resolved 
and more information is gathered about the extent of the ecosystem's 
water quality problems. These changes could increase the total cost of 
the Plan over the Corps' current estimate of $7.8 billion. Currently, 
there are too many uncertainties to estimate the number and costs of 
the Corps projects that will ultimately be needed to address water 
quality in the ecosystem. The Corps has acknowledged the uncertainty in 
the Plan and has included a process for incorporating project 
modifications and additions in its future reports to the Congress. It 
has not, however, included a means for reporting (1) cumulative changes 
in projects and costs for the Plan as a whole and (2) the progress 
being made in implementing the Plan. Such information will be important 
for the Congress in authorizing future projects. Our report recommends 
that the Corps provide the Congress with updates that provide this 
information when the Corps submits future project authorization 
proposals. Both the Corps and the state of Florida concurred with our 
recommendation.
Background
    Following major droughts from the 1930's through the mid-1940's and 
hurricanes in 1947, the Congress authorized the Corps to construct the 
Central and Southern Florida Project. The project an extensive system 
of 1,700 miles of canals and levees and 16 major pump stations prevents 
flooding and saltwater intrusion into the state's aquifer while 
providing drainage and water to the residents of South Florida. The 
project's canals now divert much of the water that historically flowed 
south from Lake Okeechobee through the Everglades to Florida Bay east 
and west to the ocean or to agricultural and urban uses. Although the 
Corps' Central and Southern Florida Project accomplished its 
objectives, it had unintended detrimental environmental effects. 
Coupled with urban and agricultural development, the project has led to 
significant deterioration in the South Florida ecosystem's water 
quality.
    Recognizing that the Central and Southern Florida Project needed to 
be modified to address its negative impact on the environment of South 
Florida, the Congress included provisions relating to the project in 
the Water Resources Development acts of 1992 and 1996. The 1992 act 
provided the Secretary of the Army, who delegated this responsibility 
to the Corps, with the authority to study the original design of the 
project in order to determine whether modifications were needed because 
of changes in the ecosystem's physical, biological, demographic, or 
economic conditions. The 1996 act directed the Corps, on the basis of 
its initial review, to prepare a feasibility report and a programmatic 
environmental impact statement to determine what changes were needed to 
restore the South Florida ecosystem. The act required that the Corps 
report back to the Congress by July 1999.
    Because the Plan consists of a large number of projects that will 
be designed and constructed over a long period of time, according to 
Corps officials, it is not as detailed as typical Corps feasibility 
studies. For example, it does not identify specific sites for the 
proposed projects. The Corps also plans to conduct additional 
feasibility studies because the time allotted under the 1996 act to 
complete the Plan did not allow for a thorough investigation of all of 
the regional water resource problems in South Florida. The Corps will 
design the projects in more detail and expects to request the Congress 
to authorize a new set of projects every 2 years until all the projects 
are authorized, which the Corps anticipates will take until 2014.
    The Plan will be carried out primarily by one Federal agency the 
Corps and one state agency the South Florida Water Management District 
(the District), which manages water resources for South Florida and is 
the Corps' local sponsor, or partner. These two agencies are 
responsible for operating the Central and Southern Florida Project as 
it is currently configured and will be responsible for planning, 
designing, and constructing the Plan's projects to reconfigure it. The 
agencies are responsible for meeting both the water supply and water 
quality goals in the Plan. Furthermore, under the Clean Water Act, 
which seeks to restore and maintain the physical, chemical, and 
biological integrity of the nation's waters, the projects must be 
designed to meet applicable state water quality standards.
The Projects in the Corps' Plan Supplement Florida's Efforts to Address 
        Water Quality in the Ecosystem
    The water quality projects included in the Corps' Plan supplement 
the efforts of Florida, which is primarily responsible for ensuring 
compliance with water quality standards in the ecosystem and for 
ensuring that the projects meet state water quality standards. To 
identify water quality projects, the Corps established two criteria. 
First, the Corps included projects to treat water that is being 
``reclaimed'' as part of the Plan. This water is now being discharged 
by the Central and Southern Florida Project into the ocean, but under 
the Plan, it will be diverted, stored, and discharged into natural 
areas to supplement water supply and improve habitat. Second, the Corps 
included treatment projects for water that will be ``reused.'' This 
water will also be reclaimed, but its final use will be changed. For 
example, the Corps now releases water from Lake Okeechobee to the water 
conservation areas for flood control purposes and water supply, but 
under the Plan it will instead release some of this water for 
environmental purposes. As authorized by the Water Resources 
Development Act of 1996, the Corps included 24 projects in the Plan to 
improve water quality in the South Florida ecosystem that the Corps 
deemed essential to achieve the restoration of the Everglades. These 
include:

    <bullet>  17 projects to construct stormwater treatment areas in 
areas where new storage sites will be built to reclaim water or modify 
its use;
    <bullet>  2 advanced wastewater treatment facilities to take runoff 
from the Miami area, treat it, and return it to natural areas to 
increase the amount of water being provided there; and
    <bullet>  5 smaller projects, such as the restoration of wetlands 
or dredging of sediments from lakes or other water bodies, that will 
have immediate environmental benefits.

    The Federal and state governments will share the costs of these 
projects equally. Figure 1 shows the location of the 24 water quality 
projects included in the Plan.
Figure 1: Location of the Plan's Water Quality Projects
    Source: GAO's adaptation of an illustration prepared by the U.S. 
Army Corps of Engineers.
Resolution of Project Uncertainties and Outcomes of Studies May Lead to 
        Additional Water Quality Projects and Costs
    As the Corps implements the Plan, Corps officials believe that 
modifications to existing projects and additional projects may be 
necessary, as their details are further developed and as uncertainties 
about their implementation are resolved. In addition, the Corps plans 
to conduct several studies that may further identify water quality 
problems in the ecosystem. If it is determined that additional water 
quality projects are needed during the Plan's implementation or as a 
result of these studies, the costs to implement the Plan could increase 
above the Corps' current $7.8 billion estimate. Recognizing that 
additional projects could be needed as the Plan is implemented, the 
Corps included a process in the Plan to incorporate and report to the 
Congress on modifications and additions to it. However, the Corps has 
not included a process for updating the Congress on the cumulative 
effects of the individual changes on the overall Plan.
    This information is primarily based on our discussions with 
officials from Federal and state agencies that have responsibilities 
for managing water supplies and ensuring water quality in South 
Florida. Reliance on discussions with Federal and state officials was 
necessary because the Plan is a conceptual document and detailed plans 
of the projects to be constructed are not yet available.
Resolution of Implementation Uncertainties
    The Corps acknowledged that a number of uncertainties associated 
with implementing the Plan's projects have not yet been resolved and 
could lead to additional water quality projects. These uncertainties 
include:

    <bullet>  whether planned stormwater treatment areas will be 
successful in achieving the lowest phosphorus concentration needed,
    <bullet>  whether 245,000 acre-feet of additional water will be 
needed for Everglades National Park, and
    <bullet>  what type and level of treatment will be necessary for 
water stored in and retrieved from aquifer storage and recovery wells 
large underground wells that are one of the primary means in the Plan 
for storing water.
Impact of Ongoing and Planned Studies
    Recognizing that all the water quality concerns in the South 
Florida ecosystem have not been fully identified, the Corps plans to 
conduct several feasibility studies to identify such concerns in areas 
of the ecosystem that were not included when the Plan was developed. 
These feasibility studies, which focus on the Southwest Florida and 
Florida Bay/Florida Keys areas, were included in the Plan because there 
was not enough time when the Plan was being developed for a thorough 
investigation of all the water resource problems in these areas of the 
ecosystem. In addition to the feasibility studies proposed in the Plan, 
the Corps is currently conducting two feasibility studies under the 
authority of the Water Resources Development Act of 1996 the Indian 
River Lagoon Feasibility Study and the Water Preserve Areas Feasibility 
Study and is conducting a third for Biscayne Bay under a separate 
authority. These studies will likely identify new water quality 
projects to add to the Plan and would be in addition to those needed to 
address the uncertainties involved in implementing the Plan. For 
example, as a result of the Indian River Lagoon Feasibility Study, the 
Corps will likely add a water quality project to the Plan to dredge the 
lagoon to remove sediments from the St. Lucie estuary, a major 
tributary of the lagoon, to improve the water's quality and clarity.
    Moreover, the Plan recommends the development of a comprehensive 
integrated water quality plan to evaluate and determine whether any 
additional water quality projects recommended by the state should be 
added to the Plan. Recognizing that not all of the ecosystem's water 
quality concerns have been identified, the Corps has included a 
recommendation in the Plan for the development of a comprehensive 
integrated water quality plan. According to Corps officials, the water 
quality plan will be closely coordinated with the South Florida Water 
Quality Protection Program, which was recently initiated by the state. 
As the state program identifies additional projects to improve water 
quality, the Corps will evaluate whether the projects are essential and 
whether the Federal Government should participate in them, share their 
costs, and include them in its comprehensive plan.
    An example of an ongoing restoration effort where the Corps might 
have a future role is the cleanup of Lake Okeechobee. The lake, which 
has been described as the ``liquid heart of the ecosystem,'' may 
require a number of projects to restore the quality of its water. 
According to Corps officials, these projects could eventually require 
the Corps' involvement. Currently, Lake Okeechobee which was once a 
sandy-bottomed, clear, shallow lake has high levels of phosphorus that 
make it prone to algal blooms and cattail growth, adversely affecting 
the quantity and types of plants and fish in the lake. Despite the 
implementation of certain permitting programs by the state, the annual 
phosphorus amounts exceed the state targets. Our discussions with state 
officials responsible for water quality in Florida indicate that a 
combination of actions, such as agricultural best management practices 
and the use of storm water treatment areas, will be needed to lower the 
levels of phosphorus entering the lake. According to Corps officials, 
the Corps may participate in the construction of other stormwater 
treatment areas if the state determines that additional areas are 
needed. In addition, some Federal and state officials believe that if 
large deposits of phosphorus-laden sediment remain in the lake, the 
lake's water quality will remain a significant problem. Although no 
final decision has been made on what actions to take, a preliminary 
estimate prepared by an issue team of Federal and state scientists 
showed that fully dredging the lake could cost at least $1 billion. 
Pending Florida's completion of a feasibility study on options to 
remove the sediment, the Corps could become involved if it decides that 
the proposed action is essential to the restoration of the ecosystem.
The Plan Includes a Process for Incorporating and Reporting Change
    To allow for changes that will result as uncertainties involved in 
implementing the Plan's projects are resolved, including the possible 
addition of water quality projects, the Corps' Plan includes three ways 
to incorporate changes: (1) additional efforts, such as surveys, 
mapping, and water quality analyses, that are needed to develop the 
final design of the projects; (2) pilot projects conducted to resolve 
technical uncertainties; and (3) an adaptive assessment process, which 
involves monitoring the systemwide effects of the projects on the 
ecosystem as they are implemented. The Corps has also included a 
process in the Plan for authorizing future projects, including any 
changes, either modifications or additions, that result from its 
additional planning efforts. As it prepares to move forward with a 
project, the Corps will submit to the Congress a project implementation 
report that includes the detailed technical information necessary to 
design a project or a group of similar projects. These reports will be 
used to add, remove, or modify projects in the Plan and, except for the 
projects presented for initial authorization, will be presented to the 
Congress for authorization every 2 years until 2014 when the Corps 
anticipates that all of the projects needed for the restoration effort 
will have been authorized. Although the reports will contain 
recommendations for any modifications to the Plan whose need was 
determined by systemwide evaluations, the Corps does not currently plan 
to report to the Congress on the cumulative changes that have been made 
to the Plan. Such a report would provide the Congress and the state 
with an understanding of how the Plan is evolving, as well as an update 
every 2 years on the costs of the projects and the Plan.
    Mr. Chairman, achieving water quality improvements in the South 
Florida ecosystem will depend on several programs and efforts, 
including the Corps' Plan. Although the Plan currently includes 24 
projects to address the quality of water in natural areas of the 
ecosystem, there are too many uncertainties to estimate the number and 
costs of the projects that will ultimately be needed to improve water 
quality. Given the Plan's conceptual nature and the likelihood of 
changes and additions to its projects, we recommend in our report that 
the Secretary of the Army, when submitting subsequent authorization 
proposals, provide the Congress with updates that:

    <bullet>  reflect the cumulative project and cost changes to the 
overall Plan and
    <bullet>  indicate the progress being made toward implementing the 
Plan.

    Both the Corps and the state of Florida agreed with our 
recommendation. The Corps also agreed that there are many uncertainties 
associated with implementing the overall Plan and the projects to 
improve water quality in the South Florida ecosystem. The Corps 
believes that the uncertainties have been fully disclosed and has 
proposed a methodology that will address them. This methodology 
includes the development of project implementation reports. We 
recognize that the Corps was aware of the uncertainties associated with 
implementing the Plan and our report describes, in detail, the process 
that the Corps included in the Plan to incorporate changes as the 
uncertainties are resolved. We believe that the resolution of these 
uncertainties may lead to additional water quality projects and will 
likely result in cost increases. The state took exception to the 
inclusion of the $1 billion cost estimate for dredging Lake Okeechobee 
in our report and maintained that we characterized the Corps' 
involvement as inevitable. We do not believe that our report 
characterized the Corps' involvement in dredging Lake Okeechobee as 
inevitable. We included Lake Okeechobee as an example of an area where, 
through the state's efforts to identify actions needed to improve water 
quality in the South Florida ecosystem, the Corps could have a future 
role. We point out in our report that the state has not yet determined 
all of the actions that will be needed to clean up Lake Okeechobee and 
that the Corps' role has not yet been defined. However, to emphasize 
that point, we revised this section of our report to reiterate that 
once the state determines which projects are necessary, the Corps will 
determine if the additional projects are essential to the ecosystem's 
restoration and decide if the Federal Government will participate in 
and share the costs of the additional projects.
    This concludes our statement. We will be happy to respond to any 
questions from you or other Members of the Subcommittee.
Contact and Acknowledgement
    For further information on this testimony, please contact Barry 
Hill at (202) 512-3841. Individuals making key contributions to this 
testimony included Susan Iott, Chet Janik, and Sherry McDonald.
                                 ______
                                 
  Comprehensive Everglades Restoration Plan: Additional Water Quality 
            Projects May Be Needed and Could Increase Costs
         (Letter Report, September 14, 2000, GAO/RCED-00-235).
                                                September 14, 2000.

The Honorable George V. Voinovich, Chairman,
Subcommittee on Transportation and Infrastructure,
Committee on Environment and Public Works,
    U.S. Senate.

B-285227

Dear Mr. Chairman: The South Florida Ecosystem Restoration Initiative 
is a complex, long-term effort to restore the South Florida ecosystem, 
which includes the Everglades. Because water is key to restoring the 
ecosystem, one of the initiative's major goals is ``getting the water 
right''--or improving the quality, quantity, timing, and distribution 
of water in the ecosystem. The primary means of achieving this goal is 
through the U. S. Army Corps of Engineers' Comprehensive Everglades 
Restoration Plan (the Plan). Although achieving the right quantity, 
timing, and distribution of water is important, improving water quality 
is critical to sustaining and restoring the South Florida ecosystem. 
Currently, pollutants such as excessive nutrients, metals, and other 
contaminants have diminished the quality of water in the ecosystem and 
harmed plants, fish, and other wildlife. To achieve and sustain the 
restoration of the ecosystem, its water needs to be clean and 
unimpaired by pollutants.
    In April 2000, the administration presented proposed legislation to 
the Congress requesting the approval of the Plan as a framework for 
restoring the ecosystem and authorizing an initial group of projects. 
The Plan, whose development was authorized by the Congress in the Water 
Resources Development acts of 1992 and 1996, provides a road map for 
increasing the region's freshwater supply and improving the delivery 
and quality of water to natural areas. This Plan represents one of the 
most ambitious restoration efforts the Corps has ever undertaken; it 
contains 66 individual projects that will take more than 20 years to 
complete.\1\ \2\ Implementing the Plan is currently estimated to cost 
$7.8 billion--a cost that will be shared equally by the Federal 
Government and the state of Florida. The effort is unique in that the 
Plan is conceptual. Because the Plan consists of a large number of 
projects that will be designed and constructed over a long period of 
time, it does not provide the level of detail normally found in a Corps 
feasibility study. The Congress is currently considering this proposal. 
In May 2000, Florida passed legislation approving the Plan and 
initially committed $2 billion in resources for the effort. The 
legislation also included a requirement for an annual report that 
provides information on the funds received and expended for the 
implementation of the Plan as well as the progress being made in 
implementing the Plan.
---------------------------------------------------------------------------
    \1\ The Plan includes 68 projects, but 2 of these projects were 
funded under another program's authority. As a result, there are 66 
projects remaining in the Plan. Many of the projects have multiple 
purposes and contain multiple features. Throughout this report, we use 
the term ``projects'' to refer to the 66 projects and their features.
    \2\ The Corps estimates that most projects will be completed within 
20 years; however, the projected timeframes for two large reservoir 
projects extend over 35 years. According to Corps officials, 
appropriation levels will affect these timeframes.
---------------------------------------------------------------------------
    Because the Plan is conceptual and water quality is critical to 
sustaining the restoration of the South Florida ecosystem, you asked us 
to (1) describe the role of the Corps' Comprehensive Everglades 
Restoration Plan in addressing the major water quality concerns in the 
ecosystem and (2) identify modifications that may be needed as the 
Corps implements the Plan after it has been authorized by the Congress. 
The information presented in this report is primarily based on our 
discussions with officials from Federal and state agencies that have 
responsibilities for managing water supplies and ensuring water quality 
in South Florida. Reliance on discussions with Federal and state 
officials was necessary because the Plan is a conceptual document and 
detailed plans of the projects to be constructed are not yet available. 
We also reviewed the portions of the Plan that describe water quality 
projects and obtained and reviewed other pertinent water quality 
reports and studies.
    This is our third report on efforts to restore the South Florida 
ecosystem. In April 1999, we reported on the Federal funding provided 
for the South Florida Ecosystem Restoration Initiative and how well the 
initiative was being coordinated and managed. In April 2000, we 
reported on the status of land acquisition plans for the initiative.\3\ 
In our first report, we recommended that the Task Force, a multi-agency 
group responsible for coordinating and facilitating the overall effort, 
develop a strategic plan. The strategic plan would lay out how the 
initiative's three goals--getting the water right, restoring and 
enhancing the natural system, and fostering the compatibility of human 
and natural systems--would be accomplished. Our second report 
recommended that the Task Force develop a land acquisition plan to 
supplement the strategic plan. At the request of the Congress, the 
Department of the Interior, which chairs the Task Force, estimated that 
achieving all three of the initiative's goals would cost $14.8 billion. 
This figure includes the estimated cost of the Plan--$7.8 billion--as 
well as the estimated costs for land acquisition programs and several 
other Federal and state efforts.
    3. South Florida Ecosystem Restoration: An Overall Strategic Plan 
and a Decision-Making Process Are Needed to Keep the Effort on Track 
(GAO/RCED-99-121, Apr. 22, 1999) and South Florida Ecosystem 
Restoration: A Land Acquisition Plan Would Help Identify Lands That 
Need to Be Acquired (GAO/RCED-00-84, Apr. 5, 2000).
    The Comprehensive Everglades Restoration Plan provides a conceptual 
framework for improving the quality, quantity, timing, and distribution 
of water in the South Florida ecosystem. Twenty-four of the Plan's 66 
projects are intended, among other things, to improve the quality of 
water in the natural areas of the ecosystem; the remaining projects 
deal more with the water's quantity, timing, and distribution. The 
water quality projects in the Plan are intended to supplement the 
efforts of the state, which has the primary responsibility for 
achieving water quality standards in Florida. Under the Water Resources 
Development Act of 1996, the Corps is allowed to include water quality 
projects in the Plan and equally share the costs with Florida if the 
projects are essential to restoring the Everglades.
    Currently, there are too many uncertainties to estimate the number 
and costs of the Corps projects that will ultimately be needed to 
address water quality in the ecosystem. As uncertainties related to 
implementing the Plan's projects are resolved and more information is 
gathered about the extent of the ecosystem's water quality problems, it 
is likely that modifications and additions to the Plan will be 
necessary and that these changes could increase the total cost of the 
Plan over the Corps' current estimate of $7.8 billion. For example, the 
state is currently determining the level of pollutants that Lake 
Okeechobee can receive and what actions are needed to clean up the 
lake. Some of the actions being considered, such as dredging the lake 
to remove contaminated sediment, could cost over $1 billion. Because 
the lake is the source of much of the water in the ecosystem, the Corps 
could become involved in the effort if it determines that the lake's 
cleanup is essential to the ecosystem's restoration. Other efforts, 
such as the completion of feasibility studies for areas in the 
ecosystem not covered by the Plan, could also lead to additional water 
quality projects. The Corps has acknowledged the level of uncertainty 
in the Plan and has included a process for incorporating project 
modifications and additions in its future reports to the Congress. It 
has not, however, included a means for reporting (1) cumulative changes 
in projects and costs for the Plan as a whole and (2) the progress 
being made in implementing the Plan. Such information will be important 
for the Congress in authorizing future projects. We recommend in this 
report that the Corps provide for such reporting.
    We provided a draft of this report to the Corps, the U.S. 
Environmental Protection Agency, the Florida Department of 
Environmental Protection, and the South Florida Water Management 
District for review and comment. The Corps, the Department, and the 
District agreed with our recommendation and noted that they will be 
producing varied reports that will help them meet our recommended 
reporting requirement. While they agreed with the recommendation, the 
Corps, the Department, and the District noted areas in which they 
believed the report was misleading. For example, the Corps believes 
that it fully disclosed the uncertainties associated with the Plan and 
developed a methodology to deal with the uncertainties, and it does not 
believe that the Plan's total costs will necessarily increase. In our 
report, we recognize that the Corps was aware of the uncertainties and 
describe the process that it has in place for incorporating change. 
Furthermore, we acknowledge that the Corps may achieve some cost 
savings in some areas, but overall, we believe that the costs of 
implementing the Plan may increase. In addition, the Corps and the 
Department objected to the inclusion in our report of the $1 billion 
estimated cost of dredging Lake Okeechobee and did not agree with our 
conclusion that the lake's cleanup could become part of the Plan. We 
revised the report to indicate that the cost estimate is preliminary, 
and we indicated the source of the estimate. However, we continue to 
believe that projects to improve the lake's water quality--if deemed 
essential to restore the ecosystem--should be included in the Plan. The 
Department also objected to our inclusion of the estimated costs for 
the entire restoration effort in the report, saying that this total was 
not an agreed-upon cost. However, we believe that the cost of the 
overall restoration is an important piece of information that places 
the Plan in context, and therefore we did not remove this information. 
We did identify the source of the estimate and clarify what it 
includes. Finally, each of the agencies, including the Environmental 
Protection Agency, provided technical comments that we incorporated as 
appropriate.
Background
    The South Florida ecosystem extends from the Chain of Lakes south 
of Orlando to the reefs southwest of the Florida Keys. The ecosystem 
includes such major water bodies as Lake Okeechobee; the Kissimmee, 
Caloosahatchee, and St. Lucie rivers; portions of the Indian River 
Lagoon; and Biscayne and Florida bays. Following major droughts from 
the 1930's through the mid-1940's and drenching hurricanes in 1947, the 
Congress authorized the Corps to construct the Central and Southern 
Florida Project. The project--an extensive system of 1,700 miles of 
canals and levees and 16 major pump stations--prevents flooding and 
saltwater intrusion into the state's aquifer while providing drainage 
and water to the residents of South Florida. The project's canals now 
divert much of the water that historically flowed south from Lake 
Okeechobee through the Everglades to Florida Bay east and west to the 
ocean or to agricultural and urban uses. The Everglades, which used to 
extend from Lake Okeechobee to Florida Bay, has been reduced to about 
half its former size.
    Although the Corps' Central and Southern Florida Project 
accomplished its objectives, it had unintended detrimental 
environmental effects. Coupled with urban and agricultural development, 
the project has led to significant deterioration in the South Florida 
ecosystem's water quality. By draining off water to the ocean that 
historically flowed through the ecosystem to Florida Bay and opening 
large land tracts for urban development and agricultural practices, the 
project disrupts natural drainage patterns in the region and releases 
stormwater runoff into the ecosystem in many areas. Pollutants in the 
runoff, including excess nutrients such as phosphorus and nitrogen, 
metals such as mercury (which is primarily deposited from atmospheric 
incinerator emissions), and pesticides, have degraded the natural areas 
of the ecosystem. Excess nutrients have caused a decline in natural 
vegetation, such as sawgrass, and have caused the increase of 
undesirable species, such as cattails. Mercury, which increases in 
concentration as it moves up the food chain, and some pesticides can be 
toxic to fish and wildlife.
    Recognizing that the Central and Southern Florida Project needed to 
be modified to address its negative impact on the environment of South 
Florida, the Congress included provisions relating to the project in 
the Water Resources Development acts of 1992 and 1996. The 1992 act 
provided the Secretary of the Army, who delegated this responsibility 
to the Corps, with the authority to study the original design of the 
project in order to determine whether modifications were needed because 
of changes in the ecosystem's physical, biological, demographic, or 
economic conditions. The 1996 act directed the Corps, on the basis of 
its initial review, to prepare a feasibility report and a programmatic 
environmental impact statement to determine what changes were needed to 
restore the South Florida ecosystem. The act required that the Corps 
report back to the Congress by July 1999.
    Using the authority provided by the acts, the Corps, with the 
cooperation and assistance of multiple Federal, state, local, and 
tribal agencies, completed the feasibility study and developed the 
Comprehensive Everglades Restoration Plan. The Plan, which was 
presented to the Congress in July 1999, proposes a set of 66 projects 
to modify the Central and Southern Florida Project to protect and 
restore the South Florida ecosystem at an estimated cost of $7.8 
billion. The projects in the Plan, if authorized and built, will 
restore water to the natural areas of the ecosystem and also supply 
water to agricultural and urban areas. The natural areas of the 
ecosystem are made up of Federal and state lands, including the water 
conservation areas owned by the state, \4\ wildlife refuges managed by 
the U.S. Fish and Wildlife Service and the state, Everglades National 
Park, Big Cypress National Preserve, and the coastal waters, estuaries, 
bays, and islands. The goal of the Plan is to increase the water 
available for the ecosystem by capturing much of the water that is now 
being drained, storing the water in many different reservoirs and 
underground storage wells, and releasing it when it is needed. (See 
app. I for additional details on the projects included in the Plan.)
---------------------------------------------------------------------------
    \4\ The state has three water conservation areas that comprise 
about 1,350 square miles of land south of Lake Okeechobee. These 
areas--one of which is managed by the U.S. Fish and Wildlife Service as 
a national wildlife refuge--are natural areas of remnant Everglades 
that are used for multiple purposes, such as storing water that has 
been discharged from Lake Okeechobee and other sources. The areas also 
serve as a source of water for Everglades National Park, the lower east 
coast agricultural lands, and urban areas.
---------------------------------------------------------------------------
    The administration presented proposed legislation in April 2000 
asking the Congress to approve the Plan with its projects as a 
conceptual framework for restoring the ecosystem. \5\ Because the Plan 
consists of a large number of projects that will be designed and 
constructed over a long period of time, it is not as detailed as 
typical Corps feasibility studies. For example, it does not identify 
specific sites for the proposed projects. The Corps also plans to 
conduct additional feasibility studies because the time allotted to 
complete the Plan did not allow for a thorough investigation of all of 
the regional water resource problems in South Florida. The Corps will 
design the projects in more detail and expects to request the Congress 
to authorize a new set of projects every 2 years until all the projects 
are authorized, which the Corps anticipates will take until 2014. \6\
---------------------------------------------------------------------------
    \5\ The administration's proposal also asks the Congress to 
authorize 4 pilot projects, 10 initial projects, and 25 smaller 
projects that will have immediate benefits if implemented.
    \6\ Design work is already progressing under the authority of an 
existing design agreement between the Corps and the District.
---------------------------------------------------------------------------
    The Plan will be carried out primarily by one Federal agency--the 
Corps--and one state agency--the South Florida Water Management 
District (the District), which manages water resources for South 
Florida and is the Corps' local sponsor, or partner. \7\ These agencies 
are responsible for operating the Central and Southern Florida Project 
as it is currently configured and will be responsible for planning, 
designing, and constructing the Plan's projects to reconfigure it. The 
agencies are responsible for meeting both the water supply and water 
quality goals in the Plan. Furthermore, under the Clean Water Act, 
which seeks to restore and maintain the physical, chemical, and 
biological integrity of the nation's waters, the projects must be 
designed to meet applicable state water quality standards. \8\
---------------------------------------------------------------------------
    \7\ Although the South Florida Water Management District is the 
primary non-Federal sponsor, as many as five counties and city 
governments and Native American tribes could also serve as non-Federal 
sponsors for portions of the Plan. The Seminole Tribe of Florida signed 
a project coordination agreement with the Corps in Jan. 2000 to 
implement a water resources project on its Big Cypress Reservation.
    \8\ Enacted in 1972, the Federal Water Pollution Control Act is 
commonly called the Clean Water Act (33 U.S.C. 1251-1387).
---------------------------------------------------------------------------
    The entities responsible for ensuring that the Plan's projects 
meets the requirements of the Clean Water Act are the U.S. 
Environmental Protection Agency (EPA), the Florida Department of 
Environmental Protection, and the Miccosukee and Seminole tribes. EPA 
is responsible for developing regulations and guidance for implementing 
the act, while the state and the tribes have primary responsibility for 
programs to manage water quality. Florida's Department of Environmental 
Protection is responsible for (1) classifying the types of water in the 
state by designated use, (2) establishing water quality standards for 
each type of water designed to protect the designated use, (3) 
regulating discharges into waters, (4) determining and reporting waters 
that do not meet standards to EPA and (5) making plans to improve the 
quality of water that does not meet standards. In addition, the 
Department is responsible for monitoring the quality of each water 
body. In the South Florida ecosystem, the Department has delegated 
water quality monitoring and assessment to the District. Other 
agencies, such as the U.S. Geological Survey, contribute to water 
quality monitoring and analysis. The tribes are responsible for these 
activities on their reservation lands, which encompass about 165,000 
acres in the South Florida ecosystem. Figure 1 shows the relationship 
of the Federal and state agencies and tribes involved in improving 
water quality in the South Florida ecosystem.
    Figure 1: Relationship of Federal and State Agencies and Tribes 
Involved in Implementing the Plan to Improve Water Quality in the South 
                           Florida Ecosystem
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Note: The Florida Department of Environmental Protection has delegated 
   responsibility for water quality monitoring and assessment in the 
       ecosystem to the South Florida Water Management District.
The Projects in the Corps' Plan Supplement Florida's Efforts to Address 
        Water Quality in the Ecosystem
    The water quality projects included in the Corps' Plan supplement 
the efforts of Florida, which is primarily responsible for ensuring 
compliance with water quality standards in the ecosystem and for 
ensuring that the projects meet state water quality standards. As 
authorized by the Water Resources Development Act of 1996, the Corps 
included projects in the Plan to improve water quality in the South 
Florida ecosystem that the Corps deemed essential to achieve the 
restoration of the Everglades. The Federal and state governments will 
equally share the costs of these projects. The Corps developed guidance 
establishing which water quality projects would be considered essential 
for restoration purposes. Generally, the guidance calls for the 
construction of water quality projects in locations where the Corps 
will reintroduce water to natural areas of the ecosystem. Therefore, 
some of the Plan's projects involve not only collecting, storing, and 
diverting water that is now being drained by the existing Central and 
Southern Florida Project, but also constructing water quality projects, 
such as treatment facilities, to ensure that the water being put back 
into the natural areas is clean.
Florida Has Primary Responsibility for Addressing Water Quality in the 
        Ecosystem
    Florida has the primary responsibility for achieving water quality 
standards in the state and is taking steps outside the Plan to achieve 
water quality standards in the ecosystem. Most significantly, the state 
is beginning to develop pollutant reduction plans to improve the waters 
in the state. Under the Clean Water Act, the state has to report water 
bodies to EPA that do not meet the agency's standards or are considered 
``impaired.'' \9\ In 1998, the state identified and reported 150 such 
water bodies or water segments in the South Florida ecosystem. To 
improve these impaired waters, the state must establish the amount of 
each pollutant that can be discharged into a particular water body and 
still meet standards and limit discharges to those levels. Florida 
currently has a 13-year schedule to establish the allowable amounts of 
each pollutant, known as a ``total maximum daily load,'' that can be 
discharged into each body of water in the state, including those in the 
South Florida ecosystem. \10\ If the state fails to establish the total 
maximum daily loads, EPA is required to establish the amounts.
---------------------------------------------------------------------------
    \9\ The state indicated that there are questions about the process 
and data used to achieve this listing. GAO has reported on the 
inaccuracy of the data used by the states to report impaired waters in 
Water Quality: Key EPA and State Decisions Limited by Inconsistent and 
Incomplete Data (GAO/RCED-00-54, Mar. 15, 2000).
    \10\ Florida's schedule has been adjusted to reflect the results of 
a lawsuit against EPA for not reviewing the establishment of total 
maximum daily loads in the state. The state has rescheduled the 
establishment of some total maximum daily loads to meet the schedule 
set in the consent decree settling the lawsuit.
---------------------------------------------------------------------------
    In addition to its statewide water quality programs, Florida has 
initiated several efforts specifically designed to address the quality 
of water in the Everglades and other natural areas in the South Florida 
ecosystem. For example, Florida's Everglades Forever Act,\11\ passed in 
1994, established a plan to restore significant portions of the 
ecosystem through construction, research, and regulation. Most 
importantly, the act requires the state to reduce phosphorus levels 
entering the natural areas of the ecosystem. To do this, six wetlands, 
called stormwater treatment areas, are being constructed to filter 
pollutants in runoff from the agricultural areas south of Lake 
Okeechobee. \12\ In addition, the state must develop a numeric 
criterion for phosphorus in the Everglades. Another important state 
effort to address water quality in the ecosystem, the Lake Okeechobee 
Protection Program, was passed in May 2000. These and other state 
efforts intended to improve the quality of water of the South Florida 
ecosystem are described in appendix II.
---------------------------------------------------------------------------
    \11\  The Everglades Forever Act codifies much of a consent decree 
establishing a settlement agreement between the United States and the 
state. The consent decree settled a lawsuit against the state for not 
enforcing its water quality standards in Federal areas.
    \12\ Under the consent decree cited in footnote 11, the state will 
build five of these areas and the Federal Government will build one.
---------------------------------------------------------------------------
    With funding through a grant from EPA, Florida recently initiated 
an effort, called the South Florida Water Quality Protection Program, 
to coordinate the various ongoing efforts to improve water quality in 
the ecosystem. The purpose of the program, which will be developed 
primarily by those entities that have water quality responsibilities in 
South Florida, will be to identify water quality problems in the 
ecosystem; recommend actions to deal with these problems; and identify 
and coordinate the efforts of the Federal, state, tribal, or local 
agencies that will be responsible for taking action. The key programs 
that will be coordinated are the state's total maximum daily load 
program and its activities under the Everglades Forever Act, as well as 
the Corps' projects in the Plan.
Corps' Plan Includes Projects to Address Some Water Quality Concerns
    Twenty-four of the 66 projects that the Corps included in its Plan 
are intended to improve water quality in the ecosystem. Many of the 
Plan's other projects will also improve the quality of water by 
increasing the quantity or changing the flow of water to degraded 
areas, but these 24 projects were included specifically to improve 
water quality. To identify these projects, the Corps established two 
criteria. First, the Corps included projects to treat water that is 
being ``reclaimed'' as part of the Plan. This water is now being 
discharged by the Central and Southern Florida Project into the ocean, 
but under the Plan, it will be diverted, stored, and discharged into 
natural areas to supplement water supply and improve habitat. Second, 
the Corps included treatment projects for water that will be 
``reused.'' This water will also be reclaimed, but its final use will 
be changed. For example, the Corps now releases water from Lake 
Okeechobee to the water conservation areas for flood control purposes 
and water supply, but under the Plan it will also release water for 
environmental purposes. Figure 2 shows the location of the 24 water 
quality projects included in the Plan.
        Figure 2: Location of the Plan's Water Quality Projects
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Source: GAO's adaptation of an illustration prepared by the U.S. Army 
                          Corps of Engineers.
    The Plan includes 19 stormwater treatment areas (17 projects--2 
projects each contain 2 treatment areas) in locations where new storage 
sites will be built to reclaim water or modify its use. One of the 
major purposes of the Plan is to create new storage for the 1.7 billion 
gallons of water per day that historically flowed south into the 
Everglades but is now, because of the Central and Southern Florida 
Project, being discharged into the ocean or released for flood control 
purposes, thus depriving the Everglades of much needed water. While 
this water generally meets standards for discharge into the ocean, it 
will require additional treatment before it can be released into the 
natural areas of the ecosystem because these areas are less able to 
assimilate specific pollutants, such as phosphorus. A team of Federal 
and state water quality experts used available water quality models to 
evaluate the potential effects of the Plan's projects on water quality 
and to identify areas in which known water quality problems could be 
addressed by the Plan's projects. As a result, the Corps added over 
35,500 acres of stormwater treatment areas. Ten treatment areas will be 
constructed along the east coast between the natural areas and the 
developed coastal areas, five are located around Lake Okeechobee to 
treat water entering the lake, and four treat water entering the 
natural areas northwest of Everglades National Park. In addition, the 
Plan relies on the six stormwater treatment areas being constructed 
under the Everglades Forever Act to treat water released from the 
Everglades Agricultural Area, Lake Okeechobee, and a reservoir planned 
for the area. The design of the treatment areas was based on that of 
the areas being built by the state under the act.
    In addition to the stormwater treatment areas, the Corps identified 
a need for two advanced wastewater treatment facilities to treat 
wastewater for reuse to benefit natural areas. The two plants will take 
wastewater from the Miami area, treat it, and return it to natural 
areas to increase the amount of water being provided there. Water that 
is currently being released from wastewater treatment facilities will 
be treated and used to recharge groundwater to prevent water from 
seeping underground from Everglades National Park and to meet the 
freshwater needs of Biscayne Bay. The Corps included these projects as 
part of the Plan because it needed additional water in these areas but 
faced limited supplies. Because of concerns about potential overflows 
and accidents, such as pipe ruptures, the Corps is considering 
alternatives for at least the facility near Biscayne Bay.
    Finally, the Plan included five smaller projects that were selected 
because they will have an immediate environmental benefit. \13\ These 
projects include such activities as restoring wetlands or dredging 
sediments from lakes or other water bodies. For example, one project 
involves dredging the tributaries that flow into Lake Okeechobee to 
remove sediments, which will help remove nutrients that contribute to 
algal blooms.
---------------------------------------------------------------------------
    \13\ Most of the small-scale projects were selected from the list 
of critical projects compiled under the 1996 Water Resources 
Development Act that allowed the Corps to construct small projects that 
would have an immediate environmental effect. This list of critical 
projects was developed by the South Florida Ecosystem Restoration Task 
Force, and about half of them have been funded. In addition, some 
small-scale projects were selected from a list of projects submitted by 
the Florida Governor's Commission's Conceptual Plan for ecosystem 
restoration and from suggestions by the scientists and agency officials 
compiling the Plan.
---------------------------------------------------------------------------
Resolution of Project Uncertainties and Outcomes of Studies May Lead to 
        Additional Water Quality Projects and Costs
    As the Corps implements the Plan over the next 20 or more years, 
Corps officials believe that modifications to existing projects and 
additional projects may be necessary, as their details are further 
developed and as uncertainties about their implementation are resolved. 
In addition, the Corps plans to conduct several studies that may 
further identify water quality problems in the ecosystem. If additional 
water quality projects are identified during the Plan's implementation 
or as a result of these studies, the costs to implement the Plan could 
increase above the Corps' current $7.8 billion estimate. Recognizing 
that additional projects could be needed as the Plan is implemented, 
the Corps included a process in the Plan to incorporate and report to 
the Congress on modifications and additions to it. However, the Corps 
has not included a process for updating the Congress on the cumulative 
effects of the individual changes on the overall Plan.
Resolution of Implementation Uncertainties
    The Corps acknowledged that a number of uncertainties associated 
with implementing the Plan's projects have not yet been resolved and 
could lead to additional water quality projects. These uncertainties 
include (1) whether planned stormwater treatment areas will be 
successful in achieving the lowest phosphorus concentration needed, (2) 
whether 245,000 acre-feet of additional water will be needed for 
Everglades National Park; \14\ and (3) what type and level of treatment 
will be necessary for water stored in and retrieved from aquifer 
storage and recovery wells--large underground wells that are one of the 
primary means in the Plan for storing water.
---------------------------------------------------------------------------
    \14\ An acre-foot of water is equal to about 326,000 gallons of 
water--enough to cover 1 acre to a depth of 1 foot.
---------------------------------------------------------------------------
Uncertainties About Stormwater Treatment Areas May Lead to Additional 
        Projects
    Uncertainties about the degree to which pollutants can be removed 
by the planned stormwater treatment areas may lead to additional water 
quality projects. In particular, some natural areas in the ecosystem, 
such as Everglades National Park and the water conservation areas, have 
a low tolerance for phosphorus--only about 10 parts per billion of 
phosphorus can be in the water without adversely affecting its 
designated use. Two or three of the stormwater treatment areas in the 
Corps' Plan will be used to reduce the levels of phosphorus in water 
that is being released into these areas, and the treatment areas will 
have to be built so the released water meets Florida's water quality 
standards for all pollutants. The state, however, does not currently 
have a numerical standard for phosphorus in these water bodies, 
although it is in the process of establishing one. The Corps based the 
design of its stormwater treatment areas on similar areas being built 
by the state that are designed to reduce phosphorus levels to meet an 
interim standard of 50 parts per billion. Evidence gathered by EPA and 
the state support a numeric criterion for phosphorus of 10 parts per 
billion; the final standard will involve methods of monitoring and 
determining compliance that could affect treatment options. \15\ If the 
state establishes a lower phosphorus standard--for example 10 parts per 
billion--for Everglades National Park and the water conservation areas, 
then the Corps will likely be required to modify the stormwater 
treatment areas being built for these areas to achieve that standard.
---------------------------------------------------------------------------
    \15\ The Miccosukee Tribe adopted a phosphorus standard of 10 parts 
per billion for its lands in the water conservation area. In May 1999, 
EPA approved that standard determining that the Tribe's 10-parts-per-
billion criterion is protective of the water's designated use, is 
reasonable and is scientifically defensible.
---------------------------------------------------------------------------
    If the Corps determines that an additional 245,000 acre-feet of 
water will be essential to the restoration of natural areas, 
particularly Everglades National Park, it may need to add another water 
quality project. In response to concerns by the Department of the 
Interior about needing additional water for the Park during certain 
times of the year, the Corps determined that an extra 245,000 acre-feet 
of water could be made available from eastern urban areas. Because of 
uncertainties in the models for water quantity in the Park, some 
Federal and state officials disagree that the extra water is needed for 
the Park. In the meantime, the Corps has considered ways to bring the 
water to the Park, but it will not study the matter fully until a 
decision is made on the amount of water needed. In addition, the amount 
of water for the Park may be affected by the amount of water needed in 
Florida Bay, which will be determined as part of follow-on feasibility 
studies for the Bay. If the Corps and others determine that more water 
is needed for the Park, then additional water treatment facilities 
could be needed to ensure the quality of the water entering the natural 
areas. Under its criteria to include reclamation projects to protect 
the quality of water in natural areas, the Corps could be involved in 
constructing and funding the project. According to Corps officials and 
others, because undeveloped land is scarce on the east side of the 
natural areas, water treatment facilities using traditional chemical 
treatment are the most likely option. According to District officials, 
another option could be to relocate or resize some of the treatment 
projects already included in the Plan.
Uncertainties About the Treatment Needed for Water Stored in Wells May 
        Result in Additional Water Quality Projects
    Uncertainties about the type and extent of treatment needed for 
water being pumped into and retrieved from over 300 aquifer storage and 
recovery wells may result in additional water quality projects. The 
Corps has included plans and costs for chlorination and filtration 
facilities to treat the water being injected into more than 250 of 
these wells. Although the need for chlorination has not yet been 
determined, concerns have been raised about a possible chemical 
reaction between chlorinated surface water and the aquifer's 
groundwater. According to Corps and state officials that we spoke with, 
such a reaction could create trihalomethane compounds, which are 
carcinogenic. In addition, the level of filtration required may vary 
according to the quality of the water being injected into wells; in 
some cases simple filtration will likely be needed to remove debris, 
but in other cases, ultrafiltration may be needed to remove pathogens 
such as coliforms. Corps officials think it is unlikely that 
chlorination and ultrafiltration will be needed, and if not, the Corps 
estimates that about $500 million could be saved. The Corps will design 
and implement pilot projects to determine if these treatments will be 
needed and what problems arise from using untreated or chlorinated 
surface water. If additional information from the pilots indicates that 
chlorination and ultrafiltration are necessary, additional projects to 
address water quality problems arising from chemical reactions may be 
necessary.
    Regardless of whether chlorination and filtration are used, other 
chemical reactions could occur in the water stored underground, 
resulting in a need for additional projects to improve the quality of 
water retrieved from the wells. Some Federal and state officials and 
scientists believe that chemical reactions could occur when water is 
injected underground. For example, un-ionized ammonia--which in excess 
amounts can kill freshwater species, including fish--could be formed. 
Florida's monitoring of a small well has demonstrated that underground 
chemical reactions have contaminated the water with arsenic and 
radioactive materials, such as uranium, although not at levels 
exceeding Federal drinking water standards. According to officials from 
EPA and the Florida Department of Environmental Protection, if such 
chemical reactions occur, the water will require treatment when it is 
retrieved from the wells. Corps and District officials said that any 
pretreatment facilities, if constructed, could be used to treat the 
water recovered from wells to handle such problems if they occur. Corps 
officials noted that pilot projects the Corps has designed will gather 
information to resolve these uncertainties and will identify any 
additional projects that may be needed to address water quality issues 
created by the technology. If the pilots indicate that the use of this 
technology is not feasible, Corps officials said that other storage 
options would be substituted.
Impact of Ongoing and Planned Studies
    Recognizing that all the water quality problems of the South 
Florida ecosystem have not been identified, the Corps plans to conduct 
several feasibility studies to identify water resource problems in 
areas of the ecosystem that were not included when it developed the 
Plan. These studies will likely identify new water quality projects to 
add to the Plan. Moreover, the Plan recommends the development of a 
comprehensive integrated water quality plan to evaluate and determine 
whether any additional water quality projects recommended by the state 
should be added to the Plan. Any projects identified by these studies 
will be in addition to those needed to address the uncertainties 
involved in implementing the Plan.
Feasibility Studies Will Likely Identify Additional Water Quality 
        Projects
    In addition to the 66 projects in the Plan, the Corps included 
several feasibility studies for other areas of the South Florida 
ecosystem, which could result in the addition of other water quality 
projects to the Plan. These feasibility studies, which deal with the 
Southwest Florida and Florida Bay/Florida Keys areas, were included 
because there was not enough time when the Plan was being developed to 
allow for a thorough investigation of all the water resource problems 
in these areas of the ecosystem. In particular, water models and water 
quality models that exist for Biscayne Bay and Florida Bay have not 
been calibrated or validated, and, as a result, the Corps and other 
agency scientists could not rely on these models to conduct detailed 
studies of the projects needed to improve the quality, quantity, 
timing, or distribution of water for these areas. The feasibility 
studies will identify new projects to be included in the Comprehensive 
Everglades Restoration Plan to help solve any problems with water 
quality, quantity, timing, and distribution. The Corps, in conjunction 
with other Federal and state agencies, is currently refining water flow 
and quality models for both bays.
    More detailed project designs and analysis from each feasibility 
study could reveal additional water quality concerns and could result 
in additional water quality projects. For example, the Corps' Plan 
already includes a project to improve the circulation and quality of 
water in Florida Bay by removing portions of the roadbed that fills 
some of the waterways between islands in the Keys. The Corps will 
include this as a project in the Florida Bay feasibility study, as well 
as other projects that have not yet been identified. Additional 
projects may include solutions for the decline in sea grasses and 
increases in algae that have occurred in the Bay. Federal and state 
scientists and other experts are aware of the excess nutrients and 
salinity in some parts of the Bay, and they believe that either one or 
both are contributing to these problems. However, they have not reached 
consensus on the source or effects of these problems or on the 
potential actions needed to resolve them. As more information becomes 
known, additional projects to improve water quality in the Bay may be 
identified. For these, as for other water quality projects, the Corps 
will determine its involvement according to whether they involve 
reclaiming water for the natural system or reusing water.
    In addition to the feasibility studies proposed in the Plan, the 
Corps is currently conducting two feasibility studies under the 
authority of the Water Resources Development Act of 1996--the Indian 
River Lagoon Feasibility Study and the Water Preserve Areas Feasibility 
Study--and is conducting a third for Biscayne Bay under a separate 
authority. According to a Corps official, the Plan already includes 
most of the projects that will be recommended in these reports, but the 
Indian River Lagoon study has identified at least one water quality 
project that is not in the Plan. As a result of the study, the Corps 
will likely add a water quality project to its Plan to dredge the 
lagoon to remove sediments from the St. Lucie estuary, a major 
tributary of the lagoon, to improve the water's quality and clarity.
Comprehensive Integrated Water Quality Plan May Identify Additional 
        Projects
    Although Florida has the primary responsibility to clean up 
impaired waters and ensure water quality in the South Florida 
ecosystem, the Corps of Engineers could have a role in future water 
quality efforts if it determines that the projects are essential for 
ecosystem restoration under the provisions of the Water Resources 
Development Act of 1996. Recognizing that not all of the ecosystem's 
water quality problems have been identified, the Corps has included a 
recommendation in the Plan for the development of a comprehensive 
integrated water quality plan. According to Corps officials, the water 
quality plan will be closely coordinated with the South Florida Water 
Quality Protection Program, which was recently initiated by the state. 
Through their participation in the Indian River Lagoon Feasibility 
Study, program officials have already helped to identify one 
modification to the Plan--the need to add a stormwater treatment area 
to a reservoir project on the St. Lucie River to help reduce the flow 
of sediment and pollutants into the St. Lucie estuary.
    As the state program identifies additional projects to improve 
water quality, the Corps will evaluate whether the projects are 
essential and whether the Federal Government should participate in 
them, share their costs, and include them in its water quality plan. 
One of Florida's major efforts to improve water quality will be 
identifying and enforcing total maximum daily loads. To complete its 
13-year schedule to establish total maximum daily loads, the state will 
establish hundreds of load amounts for the almost 150 impaired water 
bodies or segments of water bodies in the South Florida ecosystem. The 
state will also be developing plans that will identify projects for 
reducing the amounts of pollutants entering these water bodies. This 
does not include efforts that will need to be undertaken to address 
future impaired waters. According to Corps officials, the Corps will 
apply the same criteria it originally used to include water quality 
projects in the Plan to determine which additional water quality 
projects it will participate in under its comprehensive water quality 
plan.
    For example, the cleanup of Lake Okeechobee, which has been 
described as the ``liquid heart of the ecosystem,'' may require a 
number of projects to restore the quality of the lake's water and, 
according to Corps officials, could eventually require the Corps' 
involvement. Currently, Lake Okeechobee--which was once a sandy-
bottomed, clear, shallow lake--has high levels of phosphorus that make 
it prone to algal blooms and cattail growth, adversely affecting the 
quantity and types of plants and fish in the lake. Despite the 
implementation of certain permitting programs by the state, the annual 
phosphorus amounts exceed the state targets. Our discussions with state 
officials responsible for water quality in Florida indicate that a 
combination of actions, such as agricultural best management practices 
and the use of storm water treatment areas, will be needed to lower the 
levels of phosphorus entering the lake. The state passed legislation on 
recovering Lake Okeechobee this year and will put in place additional 
best management practices for agricultural lands, will build pilot 
projects to test sediment removal and stormwater treatment areas, and 
will begin other programs to reduce phosphorus in the lake, but it does 
not yet know how many stormwater treatment areas may be needed. The 
Corps has already included five treatment facilities in its Plan to 
remove phosphorus from some of the lake's tributaries. The number of 
stormwater treatment areas that will be needed in addition to those 
already planned by the Corps will depend on the final target 
concentration that is set for reducing phosphorus in the lake and the 
effectiveness of nonregulatory and regulatory actions in helping to 
reach that target. According to Corps officials, the Corps may 
participate in the construction of other stormwater treatment areas if 
the state determines the areas are needed.
    Large deposits of phosphorus-laden sediment in the lake further 
exacerbate the phosphorus problem. Some Federal and state officials 
believe that if the sediment remains in the lake, the lake's water 
quality will remain a significant problem. However, dredging will 
involve removing as much as 30,000 metric tons of phosphorus from the 
lake's sediment and disposing of it either in landfill or as potential 
fertilizer. No final decision has been made on what actions to take 
pending Florida's completion of a feasibility study on options to 
remove the sediment, which range from dredging the entire lake to 
sealing or capping phosphorus-laden sediments. If a decision is made to 
take some action to remove the sediments, then the Corps would decide 
if the proposed action is essential to the restoration of the ecosystem 
and if the Federal Government should become involved and share the 
costs of the project(s). According to Corps officials, improving the 
water quality of Lake Okeechobee, which is the source of much of the 
water in the South Florida ecosystem, is critical to the lake's 
restoration. The Corps has already included two similar, but much 
smaller, projects in the Plan--the Lake Trafford \16\ and Lake Worth 
Lagoon dredging projects. In our discussions with both Federal and 
state officials, the main difference between these two projects and a 
project to dredge Lake Okeechobee is that Lake Okeechobee is many times 
larger and would cost more to clean up. A preliminary estimate prepared 
by an issue team of Federal and state scientists showed that fully 
dredging the lake could cost at least $1 billion.
---------------------------------------------------------------------------
    \16\ The Lake Trafford project was funded as a critical project.
---------------------------------------------------------------------------
    Another area that may involve the Corps in future water quality 
projects is the abatement of mercury in the ecosystem. Mercury 
accumulates in fish and in wildlife that eat fish affected with mercury 
and concentrates as it moves up the food chain. Scientists believe that 
mercury in the atmosphere from waste incineration and power generation 
is deposited in South Florida and, under specific conditions, is 
converted to a toxic form that accumulates and concentrates in fish and 
animals. At present, scientists continue to research the problem. 
However, because of high concentrations of mercury in fish and wildlife 
on Federal lands, such as Everglades National Park, the Corps or other 
Federal agencies could become involved in trying to remove mercury from 
these areas. Other Federal agencies, such as EPA and the Department of 
the Interior's U.S. Geological Survey, are already involved in 
addressing the mercury problem to some extent through research and 
monitoring programs.
The Plan Includes a Process for Incorporating and Reporting Change
    To allow for changes that will result as uncertainties involved in 
implementing the Plan's projects are resolved, including the possible 
addition of water quality projects, the Corps' Plan includes three ways 
to incorporate changes: (1) additional efforts, such as surveys, 
mapping, and water quality analyses, that are needed to develop the 
final design of the projects; (2) pilot projects conducted to resolve 
technical uncertainties; and (3) an adaptive assessment process. The 
adaptive assessment process involves monitoring the systemwide effects 
of projects on the ecosystem as they are implemented, evaluating the 
achievement of each project's objectives, and including the monitoring 
and evaluation results and new information learned from continuing 
research to refine or alter the design or sequencing of projects. 
According to the Corps, adaptive assessment will allow it to recognize 
the need for change and adapt the Plan if the intended results are not 
achieved or if new ways to increase the benefits to the ecosystem are 
identified.
    The Corps has also included a process in the Plan for authorizing 
future projects, including any changes, either modifications or 
additions, that result from its additional planning efforts. As it 
prepares to move forward with a project, the Corps will submit to the 
Congress a project implementation report that includes the detailed 
technical information necessary to design a project or groups of 
similar projects. The reports will contain the results of additional 
efforts, such as surveys and mapping, economic analyses, and water 
quality analyses that are needed to develop the final design of the 
projects. These reports will be used to add, remove, or modify projects 
in the Plan and, except for the projects presented for initial 
authorization, will be presented to the Congress for authorization 
every 2 years until 2014--when the Corps anticipates that all of the 
projects needed for the restoration effort will have been authorized. 
The reports will contain recommendations for any modifications to the 
Plan whose need was determined by systemwide evaluations. However, 
according to Corps officials, the Corps does not currently plan to 
report to the Congress on the cumulative changes that have been made to 
the Plan. Such a report would provide the Congress and the state with 
an understanding of how the Plan is evolving, as well as an update 
every 2 years on the costs of the projects and the Plan.
Conclusions
    Achieving water quality improvements in the South Florida ecosystem 
will depend on several programs and efforts, including the Corps' Plan. 
Although the Plan currently includes 24 projects to address the quality 
of water in natural areas of the ecosystem, there are too many 
uncertainties to estimate the number and costs of the projects that 
will ultimately be needed to improve water quality. Even though the 
Corps believes that the costs of some projects could be reduced, we 
believe that, with the potential addition of a number of water quality 
projects to the Plan, it is likely that the overall costs to improve 
water quality could result in an increase in the current estimate of 
$7.8 billion for implementing the Plan. The Plan's water quality 
monitoring and adaptive assessment process will be key to ensuring 
success in addressing the water quality problems of the natural areas. 
Congressional oversight of future project authorizations will be 
important to ensure that the Corps consistently applies its criteria 
for including additional water quality projects and monitors their 
additional costs. The Corps has correctly acknowledged the Plan's need 
for flexibility and adaptability and has included a means for reporting 
changes to the Congress. Where the Plan falls short is in the type of 
report that the Corps will provide to assist the Congress in its 
oversight. Although our review identifies the potential for modifying 
and adding water quality projects, the other projects in the Plan, such 
as the construction of surface storage reservoirs and barriers to 
prevent underground water seepage, are subject to similar changes 
because they have not yet been designed. If the Congress approves the 
Corps' blueprint for restoration this year, given its conceptual nature 
and the likelihood of changes and additions to its projects, the 
Congress--as well as Florida, which is equally sharing the costs of 
implementing the Plan--will need to understand how the Plan has evolved 
from the original blueprint and how these changes will affect the 
Plan's total implementation costs.
Recommendation
    To promote well-informed decisions about the Plan's projects that 
are presented for approval in future authorization acts, we recommend 
that the Secretary of the Army provide the Congress with updates that 
(1) reflect the cumulative project and cost changes to the overall Plan 
and (2) indicate the progress being made toward implementing the Plan. 
The updates should be made at the same time as subsequent authorization 
proposals. The Corps should also provide these updates to the state of 
Florida.
Agency Comments and Our Evaluation
    We provided a draft of this report to the U.S. Army Corps of 
Engineers, the U.S. Environmental Protection Agency, the South Florida 
Water Management District, and the Florida Department of Environmental 
Protection for their review and comment.
    The Corps advised us that it concurs with our recommendation and 
plans to implement it. The Corps noted that the recently finalized 
Master Program Management Plan calls for the Restoration Coordination 
and Verification team, which will evaluate and assess the performance 
of the Comprehensive Everglades Restoration Plan, to produce five 
categories of written reports covering such topics as the performance 
of the Plan and recommendations for design and operational criteria. 
The Corps also expects to issue an annual report card on the status, 
trends, and success of the Comprehensive Everglades Restoration Plan. 
The Corps indicated that it would use the information presented in 
these reports to implement our recommendation to prepare an overall 
update to the Congress on the cumulative project and cost changes to 
the Plan as well as on the progress being made in implementing the 
Plan. The Corps also pointed out that the administration's proposal 
contains a provision requiring periodic reports to the Congress on the 
implementation of the Plan. The Corps expects to submit these reports 
every 5 years. We share the Corps' views on the importance of providing 
the Congress with information showing the progress being made in 
implementing the Plan. However, we believe that the Corps' progress 
report should include an update of the cumulative changes that have 
been made to the Plan and the effect of those changes on the Plan's 
implementation cost and schedule and should be provided every 2 years 
when the Corps is submitting its request for congressional 
authorization of a new set of projects.
    The Corps also agreed that there are many uncertainties associated 
with the implementation of the overall Plan and the projects to improve 
water quality in the South Florida ecosystem. The Corps believes that 
the uncertainties have been fully disclosed and has proposed a 
methodology that will address them. This methodology includes the 
development of project implementation reports. The Corps disagreed that 
the uncertainties will absolutely lead to cost increases. We recognize 
in our report that the Corps was aware of the uncertainties associated 
with the implementation of the Plan and describe, in detail, the 
process that the Corps included in the Plan to incorporate changes as 
the uncertainties are resolved. We believe that the resolution of these 
uncertainties may lead to additional water quality projects and will 
likely result in cost increases. However, because we recognize that the 
Corps may also have opportunities to reduce the costs of some projects, 
our report does not state that the resolution of these uncertainties 
will absolutely result in an increase in the current estimate of $7.8 
billion for implementing the Plan.
    The Corps believed that it was premature to suggest that dredging 
Lake Okeechobee could increase the cost of the Plan and questioned the 
inclusion of an estimate of the costs in our report. We specifically 
point out in our report that the state is currently conducting a 
feasibility study on the options to remove phosphorus-laden sediment 
from the lake and that no decision on dredging Lake Okeechobee has yet 
been made. We also recognize that any involvement by the Corps would be 
contingent on the Corps' determination that the project(s) would be 
essential for the ecosystem's restoration. However, we believe that the 
cleanup of Lake Okeechobee is the type of water quality effort that 
could involve the Corps in the future because (1) Lake Okeechobee is an 
important component of the South Florida ecosystem, (2) the Corps has 
already included projects in the Plan to address the lake's water 
quality, and (3) the Corps' Plan already includes two similar, but much 
smaller, dredging projects. We revised the report to identify the 
source of the $1 billion cost estimate for the possible dredging of 
Lake Okeechobee.
    The Florida Department of Environmental Protection concurred with 
our recommendation. The Department stated that the recommendation is 
consistent with state law and requested that we recognize that Florida 
already requires that cumulative project and cost information be 
reported. We commend the state for having the foresight to establish 
this requirement and have revised the report to include this 
information. However, we believe that it would be useful for the 
Congress to receive information that shows how the Plan has evolved and 
how those changes affect the Plan's original cost and implementation 
schedule. For that reason, we have recommended that the Corps provide 
such information to the Congress at the same time that it submits new 
project authorization requests. The Department also stated its belief 
that our report is misleading in the following instances:
    First, the Department believes that the title of our draft report 
implied that the Corps and the state were either unaware of the 
uncertainties associated with the implementation of the Comprehensive 
Everglades Restoration Plan or downplayed the uncertainties. We did not 
intend to imply that the Corps and the state were either unaware of or 
downplayed these uncertainties. However, we agree that the title could 
have been misconstrued and, to prevent further misinterpretation, we 
revised the title of our report to indicate that additional water 
quality projects may be needed and could increase the Plan's cost.
    Second, the Department took exception to the inclusion in the 
report of (1) the $14.8 billion cost estimate to achieve all three 
goals of the South Florida Ecosystem Restoration Initiative and (2) the 
$1 billion figure for the possible dredging of Lake Okeechobee. The 
Department stated that any reference to the $14.8 billion cost estimate 
should be deleted. In the Department's view, the $14.8 billion figure 
is not comparable to the cost estimate developed for the Plan and there 
is no consensus among state and local governments on this amount. We 
believe it is important to recognize that restoring the South Florida 
ecosystem will require more than implementing the Corps' Comprehensive 
Everglades Restoration Plan, which primarily addresses one of the 
initiative's goals. We agree that we should acknowledge the source of 
this estimate, and we revised the report to indicate that the $14.8 
billion cost estimate was calculated by the Department of the Interior, 
which chairs the interagency task force that facilitates the overall 
restoration effort, at the request of the House and Senate 
Appropriations Committees. In addition, the interagency task force's 
recently published strategic plan, requested by the Congress, also uses 
the $14.8 billion figure in discussing the estimated cost of restoring 
the ecosystem. \17\
---------------------------------------------------------------------------
    \17\ Coordinating Success: Strategy for Restoration of the South 
Florida Ecosystem, July 31, 2000.
---------------------------------------------------------------------------
    In taking exception to the inclusion of the $1 billion cost 
estimate for dredging Lake Okeechobee, the Department maintained that 
we represented this estimate as an official rather than as a rough 
estimate and that we characterized the Corps' involvement as 
inevitable. We recognize that the cost estimate is preliminary and 
agree that we should indicate its source and precision. Accordingly, we 
revised the report to include this information. We do not believe that 
we have characterized the Corps' involvement in dredging Lake 
Okeechobee as inevitable. We included Lake Okeechobee as an example of 
an area where, through the state's efforts to identify actions needed 
to improve water quality in the South Florida ecosystem, the Corps 
could have a future role. We already point out that the state has not 
yet determined all of the actions that will be needed to clean up Lake 
Okeechobee and that the Corps' role has not yet been defined. However, 
to emphasize that point, we revised this section of the report to 
reiterate that once the state determines which projects are necessary, 
the Corps will determine if the additional projects are essential to 
the ecosystem's restoration and decide if the Federal Government will 
participate in and share the costs of the additional projects.
    Third, the Department believes that our discussion of the 
uncertainties associated with stormwater treatment areas is misleading 
and that we misunderstood the applicability of the numeric criterion to 
be established for phosphorus. We disagree. We recognize that the 
stormwater treatment areas being built by the state are not part of the 
Corps' Plan and the Corps assumed that these areas would achieve the 
numeric criterion that will eventually be established. Furthermore, we 
specifically state that several stormwater treatment areas in the 
Corps' Plan will release water into areas of the natural system, such 
as Everglades National Park and the water conservation areas, that will 
be affected by the numeric criterion that the state is in the process 
of establishing. We acknowledge the state's experience in constructing 
stormwater treatment areas to reduce phosphorus levels and point out 
that the Corps used the stormwater treatment areas being built by the 
state as part of the Everglades Construction Project as the ``model'' 
for those included in its Plan. The state's stormwater treatment areas, 
which are part of the Everglades Construction Project, were designed to 
reduce phosphorus levels to the interim target of 50 parts per billion. 
However, if the state establishes a 10-parts-per-billion numeric 
criterion for Everglades National Park and the water conservation 
areas, we believe that the Corps will be required to modify the 
stormwater treatment areas included in its Plan that release water into 
this protected area.
    Fourth, the state believes that our report characterizes two state 
programs--the Lake Okeechobee Protection Program and the South Florida 
Water Quality Protection Program--as dependent on the Corps' Plan. We 
disagree. We concluded that the state's efforts to improve water 
quality in the ecosystem could identify additional projects for the 
Corps to consider as part of its integrated water quality plan, which 
was included in the Plan because the Corps recognized that not all the 
water quality problems of the ecosystem had been identified. The Plan 
is intended to be a ``comprehensive plan for restoring, preserving, and 
protecting the South Florida ecosystem,'' and as a result, any future 
water projects that the Corps determines the Federal Government should 
participate in as essential for the restoration of the ecosystem would 
be part of the Plan.
    Finally, the Department provided comments on several other issues. 
The Department pointed out that the Corps had not yet decided to 
include the water quality project to dredge the Indian River Lagoon in 
the Plan. We agree and revised the report to indicate that the Corps 
will likely add this project to the Plan. The Department also commented 
that our report implies that the other projects in the Plan do nothing 
for water quality. Our report states that many of the Plan's other 
projects will also improve water quality by changing the flow of water 
to degraded areas. The report notes, however, that the 24 projects 
discussed in it were specifically included in the Plan to improve water 
quality. The Department believed that the appendix on the state's 
initiatives to improve water quality in the ecosystem did not mention 
essential activities, such as the state's water regulatory and water 
quality monitoring programs. We agree that these are important parts of 
Florida's overall effort to protect water quality in the state, 
including the South Florida ecosystem. We discussed Florida's 
regulatory responsibilities for managing water quality programs in the 
main body of the report and did not include the information in appendix 
II because the purpose of the appendix was to discuss the additional 
efforts the state has undertaken specifically to improve water quality 
in the South Florida ecosystem. For this reason, we did not add a 
discussion of Florida's regulatory programs for water quality to 
appendix II. The Department's comments are in appendix III.
    The District also concurred with our recommendation and stated that 
it will work with the Corps to carry it out. The District did not 
believe, however, that we should characterize the Plan as unusual or 
atypical because of the uncertainties associated with its 
implementation. We do not characterize the Plan as atypical because of 
its uncertainties. It is atypical because it does not provide the level 
of detail normally found in a Corps feasibility study--a fact that the 
Corps recognizes--as a result of the large number of projects that 
would be designed and constructed over a long period of time. For this 
reason, we did not modify the report to reflect this concern. The 
District's comments are in appendix III.
    Finally, each of the agencies, including EPA, provided technical 
comments that we incorporated as appropriate.
Scope and Methodology
    To describe the role of the Corps' Comprehensive Everglades 
Restoration Plan in addressing the major water quality concerns of the 
South Florida ecosystem, we reviewed portions of the Plan that 
described the water quality projects. We also obtained and reviewed 
reports and studies, such as the Everglades Consolidated Report, the 
South Florida Ecosystem Assessment Interim Report, and the South 
Florida Water Quality Protection Program: Phase I Document that 
identify water quality concerns of the ecosystem.
    To identify the modifications that might be needed as the Corps 
implements the Plan, we contacted officials from the Corps and 
discussed the ecosystem's water quality concerns, how the Plan's water 
quality projects address them, and the potential need for additional 
projects and modifications as the Plan is implemented. We also 
contacted officials from EPA, the Department of the Interior's National 
Park Service and Fish and Wildlife Service, and Florida's Department of 
Environmental Protection and South Florida Water Management District. 
These Federal and state agencies were among those involved in the 
Plan's development and have responsibility for (1) designing and 
constructing the Plan's projects, (2) ensuring water quality, or (3) 
managing lands within the ecosystem. We discussed the water quality 
problems of the ecosystem, the projects included in the Plan to address 
them, and potential future problems and projects. Because the majority 
of the projects in the Plan have multiple purposes, the cost estimate 
for each project is an aggregate cost for construction components that 
make up the project, such as levees, canals, pumps and structures. For 
this reason, the cost estimates attributable to water quality were not 
readily available.
    We also contacted the staff of the Committee on the Restoration of 
the Greater Everglades Ecosystem, the peer review committee for the 
restoration effort, to discuss the committee's draft work plan as it 
related to water quality. Although the committee does not yet have a 
final work plan, it has drafted a work plan that includes studies that 
address aspects of water quality. Finally, we contacted the head of the 
Florida Keys National Marine Sanctuary and representatives of the 
Miccosukee and Seminole tribes, the National Audubon Society, and other 
environmental and special interest groups and organizations 
participating in the effort to restore the South Florida ecosystem to 
discuss their concerns about how the Plan addresses water quality.
    We conducted our review from May 2000 to August 2000 in accordance 
with generally accepted auditing standards.
    As arranged with your office, unless you publicly announce its 
contents earlier, we plan no further distribution of this report until 
15 days after the date of this letter. At that time, we will send 
copies to the Honorable Louis Caldera, Secretary of the Army; the 
Honorable Carol Browner, Administrator, Environmental Protection 
Agency; the Honorable Jeb Bush, Governor of Florida; and other 
interested parties. We will also make copies available to others on 
request.
    If you or your staff have any questions, please call me at (202) 
512-3841. Key contributors to this report are listed in appendix IV.
            Sincerely yours,
                                                  Jim Wells
                   Director, Energy, Resources, and Science Issues.
                                 ______
                                 
                               Appendix I
   description of the major types of projects included in the corps' 
               comprehensive everglades restoration plan
    The Comprehensive Everglades Restoration Plan (the Plan) was 
presented to the Congress in July 1999. As it was presented, the Plan 
contained 68 projects to modify the Central and Southern Florida 
Project, which consists of a system of 1,700 miles of canals and levees 
and 16 major pump stations that drain water from the ecosystem and 
provide water and flood protection to the developed areas of South 
Florida. If implemented, the Plan will increase the region's freshwater 
supply and improve the delivery and quality of water to natural areas 
in the ecosystem.
    The Plan, as it was presented to the Congress, consisted of 41 
large-scale projects to modify the Central and Southern Florida Project 
and 27 smaller projects that were selected by the Corps, with the 
assistance of other Federal and state agencies participating in the 
restoration effort, to provide immediate environmental improvements. 
Since the Plan was introduced, two of the projects have been funded 
under an authority, called the critical projects authority, in the 1996 
Water Resources Development Act. This authority allowed the Corps to 
construct small projects that would have an immediate environmental 
effect. As a result, the Plan has 66 projects--25 small-scale projects 
and 41 large projects. The 41 projects can be generally categorized by 
the type of function they will serve in the ecosystem:
    <bullet>  Surface storage reservoirs: More than 180,000 acres of 
reservoirs will provide 1.5 million acre-feet \18\ of water storage in 
areas around Lake Okeechobee, the Caloosahatchee and St. Lucie rivers, 
and the Everglades Agricultural Area and along the lower east coast of 
Florida.
---------------------------------------------------------------------------
    \18\ An acre-foot of water is equal to about 326,000 gallons of 
water--enough to cover 1 acre to a depth of 1-foot.
---------------------------------------------------------------------------
    <bullet>  Aquifer storage and recovery: More than 300 underground 
wells will be built to store water at a rate of as much as 1.6 billion 
gallons a day with little evaporation loss, for use during dry periods.
    <bullet>  Stormwater treatment areas: Approximately 35,600 acres of 
man-made wetlands will be built to treat urban and agricultural runoff 
before it is discharged to natural areas, including Lake Okeechobee, 
the Caloosahatchee River, the Everglades, and Florida's lower east 
coast. This is in addition to 47,000 acres of stormwater treatment 
areas (41,500 acres of effective treatment area) being constructed by 
the state in the Everglades Agricultural Area. \19\
---------------------------------------------------------------------------
    \19\ The Everglades Agricultural Area consists of 1,122 square 
miles of highly productive agricultural land directly south of Lake 
Okeechobee and north of the state's water conservation areas.
---------------------------------------------------------------------------
Additional Water for Park, If Needed, Could Require Water Quality 
        Treatment
    <bullet>  Seepage management: Millions of gallons of water per day 
seep underground or through levees and canals from the Everglades 
toward the east coast. Along the eastern side of Everglades National 
Park and the water conservation areas, impervious barriers will be 
built in levees, pumps will be installed to redirect water back into 
natural areas, and water levels will be held higher to prevent such 
seepage.
    <bullet>  Reuse water: Two advanced wastewater treatment plants, 
which will have increased capability to remove pollutants from the 
wastewater, will treat 220 million gallons of water per day in Miami-
Dade County for release into underground aquifers and wetlands along 
Biscayne Bay.
    <bullet>  Removing barriers to sheetflow: More than 240 miles of 
canals and internal levees that are part of the original Central and 
Southern Florida Project and that lie within the Everglades and the 
water conservation areas will be removed to establish the natural 
broad, shallow flow of water in the ecosystem.
    <bullet>  Operational changes: The delivery of water to different 
parts of the ecosystem will be changed to improve the health of Lake 
Okeechobee and to enhance the timing of water flows.
                                 ______
                                 
                              Appendix II
  florida's initiatives to specifically address water quality in the 
                        south florida ecosystem
    Outside of the Comprehensive Everglades Restoration Plan (the 
Plan), Florida has initiated several efforts specifically designed to 
address the quality of water in the Everglades and other natural areas 
of the South Florida ecosystem. In addition to developing numeric 
phosphorus standards, the state has several ongoing efforts, including 
the Dairy Rule, the Works of the District, the 1994 Everglades Forever 
Act, and the Lake Okeechobee Protection Program. The following sections 
describe the details of these initiatives.
The Dairy Rule
    In 1987, the state adopted the Dairy Rule in response to serious 
water quality problems contributing to the degradation of Lake 
Okeechobee. The water quality problems were determined to be 
associated, at least in part, with the nutrient-rich runoff from dairy 
farms in the Lake Okeechobee basin. The Dairy Rule requires farm owners 
in the Lake Okeechobee area, who were previously exempt from permitting 
requirements, to obtain permits from the Florida Department of 
Environmental Protection. The rule also requires the dairy farmers to 
construct waste management systems and to use best management practices 
to control runoff from their dairy farms. Runoff from the area around 
the barns, which is heavy with animal manure, is collected and treated 
as wastewater. Many facilities reuse the wastewater by applying it to 
their farmland and using the nutrient-rich water as fertilizer. The 
farmers must obtain industrial waste permits that require monitoring of 
effluent and groundwater near the application sites.
Works of the District
    In the Lake Okeechobee and Everglades basins, Works of the District 
permits are required for landowners who discharge water to the canals, 
rights of way, lakes, streams and other water resources for which the 
South Florida Water Management District (the District) has 
responsibility. The Lake Okeechobee permit program uses performance-
based phosphorus controls designed to achieve the annual phosphorus 
loading targets set for Lake Okeechobee. The Everglades permit program 
requires all landowners in the Everglades Agricultural Area with land 
that discharges to District works to obtain a permit, implement best 
management practices, and monitor the quality and quantity of water 
they discharge and provide this information to the District. If a 
permit holder fails to comply with the terms of a permit, the District 
retains the right to revoke it or take appropriate legal action.
Everglades Forever Act
    In 1994, the state enacted the Everglades Forever Act. The 
legislation was a result of a lawsuit filed against the state of 
Florida by the Federal Government for allegedly not enforcing its water 
quality standards in Federal areas such as Everglades National Park. 
The Florida Legislature found that the Everglades was endangered by 
adverse changes in the quality, quantity, timing, and distribution of 
water flows. The Legislature also found that the programs established 
by the District and the Florida Department of Environmental Protection 
to improve the tributary waters of the Everglades were not being 
implemented in a timely manner. The waters flowing into the Everglades 
contained excessive levels of phosphorus that endangered the flora and 
fauna of the Everglades. The act established an Everglades Protection 
Area that includes Everglades National Park and the state water 
conservation areas. The act is intended to expedite the state's plans 
and programs for improving water quality and quantity in this area; 
provide water supply for Everglades National Park, urban and 
agricultural areas, and Florida Bay; and replace water previously 
available from the coastal ridge in areas of southern Dade County.
    The long-term goal of the Everglades Forever Act is to ensure that 
waters discharged into the Everglades Protection Area achieve water 
quality standards by December 31, 2006. The act directs the state to 
review existing water quality standards and to establish a numeric 
criterion for phosphorus in the Everglades Protection Area. The long-
term goal is to reduce phosphorus discharges to levels that do not 
cause an imbalance in natural populations of aquatic plants and 
animals. Although the standard for phosphorus has not yet been set, the 
Everglades Forever Act provides a default standard of 10 parts per 
billion if a standard is not adopted by December 31, 2003. In addition, 
the act requires farmers in the Everglades Agricultural Area to 
implement best management practices to reduce pollutants in runoff from 
their farms and to pay an Agricultural Privilege Tax to fund the 
construction of stormwater treatment areas to provide additional water 
quality treatment. The Everglades Forever Act establishes a monitoring 
program to determine the effectiveness of best management practices, 
which are determined by the District in cooperation with the Florida 
Department of Environmental Protection. Finally, the act also requires 
the state to implement advanced water quality treatment measures and 
increase the amount of water flowing to the Everglades by 28 percent.
Everglades Construction Project
    The Everglades Forever Act establishes a state plan to restore 
significant portions of the remaining Everglades ecosystem, including a 
program of construction projects, research, and regulation. A critical 
element of this program is the Everglades Construction Project, whose 
primary component consists of six large stormwater treatment areas. The 
treatment areas will encompass 47,000 acres, of which about 40,000 
acres were once used as farmland, and will reduce the phosphorus 
content of stormwater runoff from the Everglades Agricultural Area and 
some releases from Lake Okeechobee into the Everglades Protection Area. 
(Fig. 3 shows the location of the stormwater treatment areas.)
   Figure 3: Location of Everglades Construction Project Stormwater 
                            Treatment Areas
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Source: GAO's adaptation of an illustration prepared by the South 
                   Florida Water Management District.
    Under a consent decree settling the lawsuit between the Federal and 
state governments, the District is responsible for the design and 
construction of five of the stormwater treatment areas, and the Corps 
is responsible for the design and construction of one area. In 
conjunction with best management practices, the treatment areas are 
designed to reduce phosphorus concentrations to an interim target of 50 
parts per billion. The long-term target is to reduce phosphorus 
concentrations to achieve and maintain compliance with the long-term 
water qualty standard that the state will establish. As of August 2000, 
the District had completed the construction of over 18,000 acres of 
wetlands in four treatment areas, and it will begin constructing the 
fifth area within several months. The Corps began constructing the 
sixth treatment area this year. Achieving the long-term standards may 
require future modification of treatment areas.
Everglades Stormwater Program
    The Everglades Stormwater Program was established by the District 
after the Florida Legislature passed the Everglades Forever Act of 1994 
to improve water quality in basins not addressed by the Everglades 
Construction Project. The program includes two main components, the 
Everglades Agricultural Area phosphorus reduction program and the Urban 
and Tributary Basins Program. The District's staff is working with 
local governments, state and Federal agencies, drainage districts, 
Indian tribes, affected landowners, and members of the general public 
in these efforts.
    The goal of the Everglades Agricultural Area phosphorus reduction 
program is to reduce by 25 percent the annual phosphorus load--that is, 
the mass of phosphorus mixed in with runoff--discharging into the 
Everglades from the area. The program includes regulatory programs 
developed to reduce phosphorus loads from the area by reducing 
phosphorus on the surrounding farms and other adjacent land. The 25-
percent reduction goal is to be accomplished by implementing best 
management practices that eliminate or reduce pollutants at their 
source rather than treating stormwater runoff downstream. The best 
management practices in use include new methods of fertilizing farms, 
detaining stormwater runoff, controlling sediments, and other 
management methods that prevent or reduce the introduction of 
pollutants into surface waters. The District has issued each farm 
parcel within the Everglades Agricultural Area a permit that details 
the best management practices and water quality monitoring program 
being implemented on each farm. Records are kept to ensure accurate 
implementation of the practices, and each farm must also measure the 
flow and phosphorus level of water discharging from the farm. If the 
discharges from the Everglades Agricultural Area into the Everglades 
meet the 25-percent reduction goal, then the area is determined to be 
in compliance with the District's permits, and the farmers receive 
state tax credits. If the discharges do not meet the goal, the 
individual farms with the highest measured phosphorus discharges are 
identified and required to implement additional best management 
practices. According to recent water monitoring data, the farmers have 
reduced phosphorus loading for 1997 through 1999 by an average of 44 
percent (19 percent above the required 25-percent level).
    The Urban and Tributary Basins Program was developed to ensure that 
eight basins discharging into the Everglades other than those included 
in the Everglades Agricultural Area meet state water quality standards. 
The program identifies schedules and strategies for achieving 
compliance by December 31, 2006. It tests over 250 pollutants (such as 
phosphorus, metals and pesticides) at more than 40 structures that 
discharge water into, within, or from the Everglades Protection Area. 
The District is required to collect, review, and evaluate the water 
quality data in order to measure progress toward achieving compliance 
with state water quality standards. In particular, a key goal of the 
program is to lower phosphorus concentrations in the water discharged 
from these basins to comply with the state's long-term water quality 
standard. If the Florida Department of Environmental Protection does 
not establish a standard by December 31, 2003, the default will be 10 
parts per billion. For the period from May 1, 1998, through April 30, 
1999, phosphorus concentrations were well below 50 parts per billion at 
most structures.
Everglades Restoration Investment Act
    On May 16, 2000, the state enacted the Everglades Restoration 
Investment Act, which represents the state's commitment to paying 50 
percent of the costs of the Corps' Comprehensive Everglades Restoration 
Plan. The provisions of the law indicate that, over the next decade, 
more than $2 billion in state and local resources will be directed 
toward restoration. Through the newly created ``Save Our Everglades 
Trust Fund,'' resources will be carried forward across fiscal years to 
help ensure that resources will be available when needed. The law also 
requires accountability based on performance for all involved in 
restoration activities.
Lake Okeechobee Protection Program and Lake Okeechobee Protection Trust 
        Fund
    Also enacted on May 16, 2000, were two pieces of legislation 
dealing with the restoration of Lake Okeechobee. One act created the 
Lake Okeechobee Protection Program, which is intended to achieve and 
maintain compliance with state water quality standards for the lake 
through a phased, comprehensive program to reduce phosphorus levels 
both in the lake and outside of it. The act requires that the state's 
actions to clean up Lake Okeechobee be coordinated with, and if 
possible, developed through the Corps' Plan. The program will proceed 
in a phased approach and will commit the state to a long-term effort to 
construct new water containment and treatment structures to better 
control phosphorus at its source. An initial focus will be to cooperate 
with landowners around the lake basin to promote existing efforts to 
reduce and control the release of excess phosphorus from their farms. 
The act provides for
    <bullet>  a watershed phosphorus control program, calling for the 
phased implementation of phosphorus load reductions, a total maximum 
daily load proposal, and the formal establishment of restoration goals;
    <bullet>  a phased protection plan that will include the 
accelerated construction of stormwater treatment areas and the 
restoration of isolated wetlands;
    <bullet>  an internal phosphorus management and control program, 
which uses best management practices for agricultural and 
nonagricultural sources of pollution that do not come from wastewater 
treatment or other specific points of discharge;
    <bullet>  a comprehensive research and water quality monitoring 
program;
    <bullet>  the identification and eradication of invasive exotic 
species; and
    <bullet>  the completion of a feasibility study on the removal of 
phosphorus-laden sediment in the lake.
    A second piece of legislation created the Lake Okeechobee 
Protection Trust Fund to pay primarily for the requirements of the 
Protection Program. Trust funds will be appropriated annually by the 
Legislature. Of the $38.5 million that will be spent on Lake Okeechobee 
this year, $15 million will be spent to research, develop, demonstrate, 
and implement best management practices and other measures to improve 
Lake Okeechobee's water quality. The remaining $23.5 million will be 
used to implement the Source Control Grant Program, restore isolated 
wetlands, retrofit water control structures, and buy land to construct 
a reservoir-assisted stormwater treatment area in the watershed.
                                 ______
                                 
                   Comments From the State of Florida
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Responses by Barry Hill to Additional Questions from Senator Voinovich
    Question 1. In your report, you state that the Corps' Comprehensive 
Everglades restoration Plan primarily addresses the first goal of the 
South Florida Ecosystem Restoration Initiative. What are the 
initiative's other goals? How much will achieving all the initiative's 
goals cost?
    Response. In addition to the goal of ``getting the water right,'' 
or getting the quality, quantity, timing, and distribution of water in 
the Everglades right; the initiative has two other goals restoring and 
enhancing the natural system, such as habitat for endangered species; 
and fostering the compatibility of built and natural systems. The 
Department of the Interior, which chairs the multi-agency restoration 
task force responsible for coordinating the initiative, estimated that 
achieving all three of the initiative's goals will cost $14.8 billion. 
This figure includes the $7.8 billion needed to implement the Corps' 
Plan.

    Question 2. Your testimony listed several uncertainties in the Plan 
that will likely lead to additional water quality projects. Can you 
elaborate on each of these?
    Response. <bullet>  The Plan includes stormwater treatment areas 
(which are man-made wetlands) that are designed to reduce phosphorus. A 
few of the areas will need to achieve even greater levels of phosphorus 
reduction. Specific project modifications needed to achieve those lower 
levels have not yet been determined. When they are, the Corps will 
likely be required to modify the stormwater treatment areas being built 
for these areas.
    <bullet>  An additional 245,000 acre-feet (326,000 gallons) of 
water may be needed for Everglades National Park. The water is 
available from areas north of the Park, but the Corps will likely need 
to build additional water quality projects, or may need to modify 
planned projects to treat this additional water. It should be noted 
that because of disagreements among Federal and state agencies, it is 
not inevitable that the Park will need or get this water this is also 
being studied.
    <bullet>  Underground wells (Aquifer storage and recovery wells) 
will store large amounts of water during rainy season for use in dry 
periods. The Corps is uncertain whether it will need to treat the water 
going into and coming out of the wells. Pilot projects will determine 
the extent of the treatment that will be needed.

    Question 3. The Corps recognizes that the Plan has uncertainties 
and has included a process for adaptive assessment. What will this 
program accomplish and is it a reasonable way to deal with the 
uncertainty in the Plan?
    Response. This is a good way to deal with many uncertainties in the 
Plan, but it will only be successful if the Corps and others establish 
a good monitoring system to determine how the ecosystem is responding 
to the Plan's projects. A monitoring system will identify and measure 
the water quality and other ecological indicators of ecosystem health 
and restoration.

    Question 4. In your report, you state that the Corps could have a 
role in future efforts to improve water quality and you cite the 
example of the cleanup Lake Okeechobee of an ongoing effort where the 
Corps could become involved. What is your basis for including this 
example?
    Response. We believe that the Corps could become involved in the 
clean up of Lake Okeechobee for three reasons:
    (A) Lake Okeechobee is major component of the ecosystem and the 
cleanup may be determined by the Corps to be essential for ecosystem 
restoration.
    (B) The Corps already included projects in the Plan to contribute 
to cleaning up the lake, including two stormwater treatment areas, and 
believes that more areas may be needed.
    (C) The Corps has two dredging projects in the Plan for much 
smaller lakes Trafford and Lake Worth Lagoon. We were told the only 
difference between these projects and the Lake Okeechobee dredging 
project is the size of the projects.

    Question 5. Only the Lake Okeechobee example includes a potential 
cost estimate for additional water projects--$1 billion. Are there 
estimates for other projects? Why did you not include them?
    Response. The Lake Okeechobee dredging project is the only one, to 
our knowledge, where a cost estimate has been developed. The $1 billion 
is a preliminary estimate developed by the Task Force's working group 
last year and could change.

    Question 6. You identify the potential for additional water quality 
projects in the Plan and say that the costs could increase. The Corps 
believes that it will have opportunities to save costs. Do you identify 
where costs could be saved?
    Response. We identify in the report that the Corps anticipates 
about $500 million in cost savings if it does not use the treatment 
facilities for underground (aquifer storage and recovery) wells. While 
the Corps may identify and take advantage of opportunities to save 
costs as it designs and constructs projects, we believe that because 
additional water quality projects will likely be needed, the overall 
costs to improve water quality will also likely increase.

    Question 7. Please tell us more about GAO's recommendation. How is 
the reporting requirement you recommend different from what has been 
included in the WRDA bill?
    Response. The WRDA bill currently under consideration requires a 5-
year report on the progress in implementing the Plan. We believe that 
the Corps should report not only on the progress being made in 
implementing the Plan, but also on the cumulative changes being made to 
the Plan and how those changes are affecting the Plan's implementation 
schedule and costs. We believe that this information would be more 
useful if the Corps provided it at the same time the Corps submits its 
biennial requests for project authorizations. The Corps and the state 
agreed with our recommendation. The state requires that cumulative 
project and cost information be reported annually.

    Question 8. In your testimony, you mention that the state of 
Florida disagreed with the inclusion of the $ 1 billion estimate to 
dredge Lake Okeechobee. What were the state's other comments?
    Response. In addition to objecting to the inclusion of the $1 
billion estimate to dredge Lake Okeechobee, the Florida Department of 
Environmental Protection and the South Florida Water Management 
District provided comments on several issues:
    <bullet>  The Department objected to the inclusion of the $14.8 
billion estimate to achieve all three goals of the South Florida 
Ecosystem. In the Department's view, the $14.8 billion figure is not 
comparable to the cost estimate developed for the Comprehensive 
Everglades Restoration Plan and there is no consensus among state and 
local governments on this amount.
    <bullet>  The Department thought that our discussion of stormwater 
treatment areas was misleading and that our report characterized two 
state programs the Lake Okeechobee Protection Program and the South 
Florida Water Quality Protection Program as dependent on the Corps' 
Plan. We disagreed.
    <bullet>  The Department also commented that:

    <bullet>  the Corps had not yet decided to include the water 
quality project to dredge the Indian River Lagoon in the Plan. We agree 
and revised the report to indicate that the Corps will likely add this 
project to the Plan.
    <bullet>  our report implies that the other 46 projects in the Plan 
do nothing for water quality. Our report states that many of the Plan's 
other projects will also improve water quality by changing the flow of 
water to degraded areas. The report notes, however, that the 24 
projects discussed in it were specifically included in the Plan to 
improve water quality.
    <bullet>  the appendix on the state's initiatives to improve water 
quality in the ecosystem did not mention essential activities, such as 
the state's water regulatory and water quality monitoring programs. We 
discuss Florida's regulatory responsibilities for managing water 
quality programs in the main body of the report and did not include the 
information in appendix II. The purpose of the appendix was to discuss 
the additional efforts the state has undertaken specifically to improve 
water quality in the South Florida ecosystem.
    <bullet>  The District did not believe, however, that we should 
characterize the Plan as unusual or atypical because of the 
uncertainties associated with its implementation. We do not 
characterize the Plan as atypical because of its uncertainties. It is 
atypical because it does not provide the level of detail normally found 
in a Corps feasibility study a fact that the Corps recognizes as a 
result of the large number of projects that would be designed and 
constructed over a long period of time.

    The state agencies also provided a number of technical comments 
that we incorporated as appropriate.

    Question 9. The Water Resources Development Act of 1996 authorized 
the Corps to include water quality projects in the Plan. What criteria 
did the Corps use to include projects?
    Response. The Corps established two criteria for including water 
quality projects. First, the Corps included water quality projects when 
it was reclaiming water that used to be released to the ocean through 
the Caloosahatchee and St. Lucie rivers. This water should be cleaner 
to go to the natural system. Second, if the Corps changed the use or 
purpose of water it released into the natural system, the water quality 
could be improved. For example, if it releases water for environmental 
purposes rather than flood control, then the water is cleaned up.

    Question 10. This report is about water quality, which is regulated 
at the Federal level by the Environmental Protection Agency (EPA) under 
the Clean Water Act. What is the EPA's role in implementing the Plan?
    Response. EPA is responsible for assuring water quality in the 
nation. EPA usually delegates the responsibility for managing water 
quality programs to the states. Florida's Department of Environmental 
Protection will permit Corps structures built under the Plan. In 
addition, both EPA and the Department have been involved in commenting 
on and working with the Corps to identify water quality projects and 
needs. We should point out that if the state fails to establish 
pollution limits for water bodies, EPA will be required to do so. For 
example, if the state fails to establish the amount of phosphorus that 
can be discharged into Lake Okeechobee within a specified timeframe 
which will not likely happen then EPA is required to establish that 
amount.

    Question 11. If more water quality projects are identified, will 
the costs be shared jointly between the state and Federal Governments?
    Response. According to Corps officials, if the Corps determines 
that additional water quality projects are essential for restoration of 
the Everglades and meet its two criteria for inclusion in the Plan, 
these projects will become part of the Plan. Under the WRDA 1996 
provisions, these projects will be cost-shared equally between the 
Federal and state governments. Because we believe that changes and 
additions to the Plan are likely, our report included the 
recommendation that the Corps provide updates to the Congress on the 
cumulative changes to the Plan and how those changes affect the Plan.
                                 ______
                                 
  Responses by Barry Hill to Additional Questions from Senator Graham
    Question 1. In the initial request for this report, you were asked 
to complete several tasks. One of them was the report you are 
discussing today. The other dealt with the Upper Mississippi River. Can 
you explain your progress on the Upper Mississippi section of this 
request? Why has no progress been made?
    Response. The initial request from the Subcommittee asked GAO to 
review the process for the planning, formulation, and review of water 
resources development projects and included two specific Corps 
feasibility studies that warranted review the Upper Mississippi River 
and Illinois River Navigation Improvements feasibility study and the 
Central and Southern Florida Project Comprehensive Review Study. In our 
discussions with the staff on the timeframes for a final report, the 
staff indicated that they would like our work completed during the 
summer and in time for the Subcommittee's review of the Water Resources 
Development Act of 2000. For this reason, we agreed with the staff to 
limit the scope of our work to one project, the Comprehensive 
Everglades Restoration Plan and to one subject, the water quality 
components of the Plan.
    Because of concerns about the objectivity of the Corps' analyses of 
water projects, both the Senate and the House recently included 
provisions relating to the independent review of Corps projects in 
their respective water resources bills. We will work with the 
subcommittee's staff to determine how, in light of the recent 
congressional action on this issue, GAO should proceed on the portion 
of the request to review the Upper Mississippi River and Illinois River 
Navigation Improvements feasibility study.

    Question 2. Throughout your report, in fact, in the title, you 
indicate that ``Additional Water Quality Projects May Be Needed and 
Could Increase Costs.'' Throughout your report you identify areas where 
the Corps may identify a need for a water quality project and indicate 
that once the Corps adds these projects to the Plan, costs could 
increase. From your perspective, does the Corps have the ability to 
independently take on work without congressional authorization?
    Response. Our report on the Corps' Comprehensive Everglades 
Restoration Plan (Plan) discusses the criteria for including water 
quality projects in the Plan, the uncertainties that exist in 
addressing water quality as the Plan is implemented over the next 35 
years, and the conceptual nature of the Plan and the process of 
incorporating and authorizing future changes to the Plan. In 
particular, we recognize that the Plan has a process of adaptive 
assessment that will allow the incorporation of changes as lessons are 
learned on early projects or as the need for additional projects is 
identified. As discussed in our report, such changes will be included 
in future authorization requests to the Congress, as only the first 10 
projects of the Plan will likely be authorized in this year's Water 
Resources Development Act. Because the Congress will be asked to 
authorize projects to implement the Plan over the next 14 or more 
years, we recommended that the Corps' should report to the Congress 
every 2 years on the status and changes to the overall Plan when it 
submits subsequent authorization proposals.

    Question 3. You offer an unexplained cost for Everglades 
restoration of $14.8 billion. What is the source of that number? How 
much of the $14.8 billion has already been expended? Is the $7.8 
billion being considered for partial authorization by this Committee 
included in this total figure?
    Response. As noted in our report, Comprehensive Everglades 
Restoration Plan: Additional Water Quality Projects May Be Needed and 
Could Increase Costs (GAO/RCED-00-235. Sept. 2000), the Department of 
the Interior, which chairs the multi-agency task force responsible for 
coordinating and facilitating the South Florida Ecosystem Restoration 
Initiative, developed the $14.8 billion cost estimate at the request of 
the Congress. The cost estimate includes the $7.8 billion estimated 
cost of implementing the Comprehensive Everglades Restoration Plan that 
the Committee is currently considering as well as other ongoing and 
planned actions by the Federal, state, and local governments to achieve 
the 3 goals of the initiative getting the water right, restoring and 
enhancing the natural system, and fostering the compatibility of human 
and natural systems. No consolidated financial information on the 
initiative is available because the agencies involved in the initiative 
independently account for the funds that they allocate to the 
initiative. Based on financial data we have gathered as part of our 
work, we estimate that through fiscal year 2000, the Federal and state 
agencies have expended about $2.5 billion of the approximately $3 
billion in appropriated funds that has been allocated to the 
initiative.
                               __________
 Statement of Michael L. Davis, Deputy Assistant Secretary of the Army 
                for Civil Works, Department of the Army
    Mr. Chairman, members of the Subcommittee, I am Michael Davis, 
Deputy Assistant Secretary for Policy and Legislation, Office of the 
Assistant Secretary of the Army for Civil Works. I am pleased to be 
here today to present the Administration's and the Army's views on the 
draft General Accounting Office (GAO) report concerning water quality 
issues associated with the restoration of America's Everglades. While 
we have not been allowed to review the final report being released 
today, we will provide comments on the draft report Comprehensive 
Everglades Restoration Plan Implementation Uncertainties May Lead to 
Additional Water Quality Projects and Costs.
Background
    As you know, the restoration of America's Everglades is a high 
priority for the Administration, including the Army Corps of Engineers. 
On July 1, 1999, the Vice President, on behalf of the Administration, 
and in partnership with the State of Florida, submitted to Congress a 
comprehensive plan to restore the South Florida ecosystem, which 
includes the Everglades, Lake Okeechobee, Florida Bay, and Biscayne 
Bay. The Comprehensive Everglades Restoration Plan (CERP) is a 
technically sound plan developed by scores of the Nation's best 
Everglades scientists and engineers. The CERP, which will be 
implemented over the next 30 years, will:

    <bullet>  Improve the health of over 2.4 million acres of the South 
Florida ecosystem, including Everglades National Park;
    <bullet>  Improve the health of Lake Okeechobee:
    <bullet>  Virtually eliminate damaging freshwater releases to the 
estuaries;
    <bullet>  Improve water deliveries to Florida and Biscayne Bays;
    <bullet>  Enhance water supply and maintain flood protection; and
    <bullet>  Improve water quality.

    The CERP is the most ambitious ecosystem restoration project ever 
undertaken in the United States if not the world. Its fundamental goal 
is to capture most of the fresh water that now flows unused to the sea 
and deliver it when and where it is needed most. Eighty percent of this 
``new'' water will be devoted to environmental restoration, reviving 
the ecosystem from the Kissimmee River, through Lake Okeechobee, 
through Everglades National Park, to the coral reefs of Florida Bay. 
The remaining 20 percent will benefit cities and farmers, enhancing 
water supplies and supporting a strong, sustainable economy for south 
Florida. In short, the CERP provides the necessary road map for 
improving the quantity, quality, timing, and distribution of the water 
so vital to the health of America's Everglades and the people of south 
Florida.
    The next vital step for Everglades restoration is the passage this 
year of legislation authorizing the CERP. As you know, the 
Administration has been working closely with the Senate Environment and 
Public Works Committee on such legislation. Recently, the 
Administration, the Committee, the State of Florida, and a diverse 
group of stakeholders reached agreement on the September 14, 2000, 
managers amendments to S. 2797, Restoring the Everglades, an American 
Legacy Act. The Administration strongly supports S. 2797 with these 
amendments and recommends its immediate passage.
Everglades Water Quality Problems
    Restoration of the Everglades requires that we ``get the water 
right'' by addressing comprehensively each of the four interrelated 
factors--quantity, quality, timing, and distribution. As such, ensuring 
a supply of clean fresh water is integral to the CERP.
    Over the past 100 years, excessive drainage of wetlands and changes 
in the natural variability of water flows have altered the Everglades 
wetland ecosystem on a regional scale. Today, discharges to the 
Everglades are often too much, or too little, and frequently at the 
wrong times of the year. An over-abundance or scarcity of water affects 
plants and wildlife accustomed to the Everglades' historic range of 
water flows, levels and seasons. In addition, canals and highways that 
criss-cross the Everglades have interrupted its historic overland sheet 
flow.
    As a result, water quality throughout south Florida has 
deteriorated over the past 50 years. More than one-half of the wetlands 
that acted as natural filters and retention areas are gone due to 
agricultural and urban expansion. The remaining Everglades ecosystem is 
in a continuing state of decline largely as a result of altered water 
regimes and degraded water quality, as evidenced by vegetation change, 
declining wildlife populations and organic soils loss. Some untreated 
urban and agricultural storm water is sent directly to natural areas 
and estuaries. Too much, or too little, water is often sent to the 
estuaries. Excess phosphorus, mercury, and other contaminants harm the 
region's surface water and groundwater. The water quality of the 
Everglades Water Conservation Areas, the coastal estuaries, Florida Bay 
and the Florida Keys show similar signs of significant degradation.
    Under current conditions, these natural systems cannot recover 
their defining characteristics and they will not survive. The health of 
the ecosystem will continue to decline unless we act.
Water Quality Features Included in the CERP
    The CERP offers a broad, comprehensive approach, which is designed 
to increase water supplies for the region and to restore and improve 
water quality throughout the Everglades ecosystem. The CERP improves 
the quality of water in the study area; however water quality 
improvement in south Florida must be viewed as an integrated effort 
with several interdependent parts. The CERP is designed to integrate 
modifications to the Central and Southern Florida project with ongoing 
State of Florida water quality efforts and ensure that our actions to 
capture and store water meets water quality requirements. These 
include: several components of the CERP; the State of Florida's 
Everglades Forever Act; Surface Water Improvement and Management Act 
planning efforts, including the development of pollutant load reduction 
goals; development of total maximum daily loads under Section 303(d) of 
the Federal Clean Water Act; and the Florida Keys Water Quality 
Protection Program.
    Water quality was a consideration in every aspect of the CERP. 
Major features include creation of approximately 181,300 acres of 
surface water storage areas, totaling 1.6 million acre-feet of 
additional storage volume, which will allow us to capture excess fresh 
water flows and reduce pollution loading into downstream receiving 
water bodies. This valuable water, which currently is being ``lost to 
tide,'' will be captured and used to provide much-needed water for 
restoration of the Everglades ecosystem and to enhance water supplies 
for the people of south Florida. Additionally, many components of the 
CERP include treatment features to ensure that water quality is 
improved. Specifically, the CERP includes 19 Stormwater Treatment Areas 
(STAs) totaling approximately 36,000 acres of wetlands to treat 
polluted runoff from urban and agricultural lands. These STAs will be 
located throughout south Florida, and will enable us to use the natural 
filtering capability offered by wetlands to treat and improve both 
water quality and, at the same time, contribute to the restoration of 
the health of the ecosystem.
    Construction of extensive regional aquifer storage and recovery 
(ASR) facilities is an essential component of the CERP. When completed, 
the ASR facilities are intended to also store water during the wet 
season freshwater flows that are currently lost to tide. ASR facilities 
will store these waters in the upper Floridian Aquifer for recovery in 
dry seasons for use both to restore the ecological integrity of the 
ecosystem and to enhance future water supplies for urban and 
agricultural purposes in south Florida. These components include 
treatment facilities to meet applicable State of Florida water quality 
standards.
    The CERP includes a recommendation for a feasibility study to 
develop a Comprehensive Integrated Water Quality Plan, to serve as a 
framework for integrating water quality restoration targets for south 
Florida water bodies into future planning, design, and construction 
activities included in the CERP.
    We believe the CERP in concert with other proposed and ongoing 
restoration efforts represents the best way to both restore the 
ecological integrity of the Everglades ecosystem and to enhance water 
quality. While the CERP reflects the best available science, we are 
prepared to refine our thinking as we learn more. Thus the CERP is 
designed to be flexible, to incorporate and respond to new information 
as it becomes available. Continuous monitoring and independent 
scientific review are key components of the CERP. Still, we cannot wait 
for all the answers to begin. There is too much at stake and little 
time to act.
Our Views on the Draft GAO Report
    We appreciate the work conducted by GAO and as always we welcome 
constructive advice on how to improve Army water resources projects. We 
also appreciate GAO's willingness to meet with the Corps Jacksonville 
District, the Environmental Protection Agency, the Department of the 
Interior, and the State of Florida to discuss these important issues.
    In your request to GAO you specifically asked them to (1) describe 
the role of the CERP in addressing the major water quality concerns in 
the ecosystem and (2) identify modifications that may be needed as the 
Corps implements the CERP. The GAO completed its report based on 
interviews with agency staff between May and August of this year. In 
addition GAO indicates that they reviewed various reports, including 
portions of the CERP that describe water quality projects.
    In its draft report GAO concluded that ``there are too many 
uncertainties to estimate the number and cost of Corps projects that 
will ultimately be needed to improve water quality.'' In addition GAO 
concluded that it is likely that the estimated $7.8 billion cost of 
implementing the CERP will increase--also increasing the need for 
congressional oversight throughout the implementation of the CERP. In 
this regard, we understand that GAO will recommend that the Secretary 
of the Army provide Congress with updates that:
    1)reflect any cumulative project and cost changes to the CERP; and 
2)indicate the progress being made toward implementing the CERP.
    As discussed in more detail below, we do not take issue with the 
specific recommendations made in the draft report. We agree that 
Congress should be kept informed of our progress and of any substantial 
changes as we implement the CERP over the next 30 years. We have 
proposed legislation to require such reporting.
    In regard to water quality generally, we are satisfied that the 
CERP reflects the proper balance between the need to have information 
and the need to begin the restoration of an unprecedented natural 
resource that is in serious trouble. Much is known about the Everglades 
and how it can be restored. We will learn a lot more as we go through 
on-going independent scientific peer review as well as through the 
adaptive assessment process outlined in the CERP. We strongly believe 
that the level of uncertainty and potential cost increases noted by GAO 
are manageable through the monitoring, adaptive assessment, and 
reporting programs that will be implemented.
    While as noted above we have not reviewed the final GAO report, we 
will provide a few specific comments on the draft report.
    Uncertainty--We agree that there are some uncertainties associated 
with the implementation of the overall CERP and project components to 
improve water quality in the ecosystem. Such uncertainties are expected 
considering the size of the project and its staged implementation over 
30 years. However, the Corps, the South Florida Water Management 
District, and many other Federal and state partners have disclosed 
fully the uncertainties and proposed a methodology and process to 
address these uncertainties during implementation of the CERP. This 
methodology and process includes the preparation of feasibility level 
of detail Project Implementation Reports (PIRs) which will be submitted 
to Congress, pilot projects, and an extensive adaptive assessment and 
monitoring program. The PIR would be the vehicle to identify, quantify 
and attempt to resolve any uncertainties surrounding the cost and 
performance of each major component in the CERP.
    We disagree that uncertainties on the proposed water quality 
components will absolutely lead to cost increases. The $7.8 billion 
cost estimate reflects our best estimate of the cost of implementing 
the CERP based on information we have today considering all the 
uncertainties presented in the CERP. In many ways the Corps estimate is 
very conservative assuming the worst case scenario. In fact, there is 
good reason to believe that the actual cost of some project features 
could be less than estimated in the CERP.
    For example, the Environmental Protection Agency has indicated 
their willingness to consider a flexible approach to constructing and 
permitting the aquifer storage and recovery wells proposed in the CERP 
as it relates to coliform bacteria. This approach involves ``risk 
based'' analyses to confirm that this flexible approach is appropriate 
if certain conditions are met. If the results of water quality testing 
and analyses conducted as part of the aquifer storage and recovery 
pilot projects confirm the appropriateness of this approach, then it is 
possible that the total cost of the recommended comprehensive plan 
could be reduced by as much as $500,000,000 and annual operation and 
maintenance costs could be reduced significantly as well. In addition 
to the above, we should not automatically assume that overall cost of 
the CERP will increase because of the need to add additional water 
quality features. For example, it is premature to suggest that dredging 
sediments from Lake Okeechobee could also increase the cost of the 
CERP. While the State of Florida has initiated preliminary studies to 
look at this concept, no Federal feasibility studies for dredging 
sediments from Lake Okeechobee have been initiated and to our 
knowledge, no cost estimate has been developed. Further, GAO includes a 
cost estimate in the report for this project and compares this cost 
with the Corps' cost estimate for CERP. Such a comparison implies that 
the Lake Okeechobee cost estimate has some certainty and further, that 
the project would be part of the CERP. We do not agree with this point.
    Congressional Reporting--We concur with the GAO recommendation that 
the Army should provide Congress with updates regarding implementation 
progress and changes to the CERP. The Everglades restoration 
legislation included in the Administration's April 10, 2000, proposal 
for Water Resources Development Act included a provision requiring 
reports to Congress. This provision requires that the Secretary of the 
Army and the Secretary of the Interior, in consultation with the 
Environmental Protection Agency, the Department of Commerce, and the 
State of Florida, submit reports on the implementation of the CERP to 
Congress beginning in October 2005, and periodically thereafter until 
October 2036. This provision is included in S. 2797.
    Since GAO completed its review, the Corps Jacksonville District and 
the South Florida Water Management District, the primary non-Federal 
sponsor on implementing the CERP, have finalized a Master Program 
Management Plan (MPMP) which describes the framework and process to be 
used for managing and monitoring implementation of the CERP. 
Specifically, during implementation of the CERP, the Restoration 
Coordination and Verification team known as ``RECOVER'' will 
periodically produce five categories of written reports. These reports 
will be for the purposes of (1) evaluating or assessing the performance 
of the CERP or its components; (2) making recommendations regarding 
design and operational criteria, and a system-wide monitoring/data 
management program for the CERP; (3) documenting the technical and 
scientific aspects of the evaluation and assessment tools used by the 
teams; (4) identifying and resolving technical issues pertaining to the 
performance measures; and (5) describing processes and guidelines used 
by the teams to achieve their objectives. In addition, an annual report 
card report will also be prepared to inform the public of the status, 
trends and success of the CERP in meeting its objectives. Collectively 
these reports will provide a full documentation of the activities of 
the RECOVER team including the cumulative changes in projects and costs 
and the progress of the CERP which will serve as the basis for 
preparing report to Congress as required in S. 2797.
Conclusion
    Protecting and restoring water quality is unequivocally an integral 
part of restoring the Everglades ecosystem. As such, addressing water 
quality issues have been and continue to be a fundamental objective of 
the CERP. Providing a reliable supply of clean fresh water to the 
ecosystem is at the heart of the CERP. While some uncertainties exist, 
we remain confident of the analysis, conclusions, and recommendations 
outlined in the CERP, including those germane to water quality. 
Further, we do not believe that based on the GAO report or any other 
information available at this time that Congress should assume that the 
cost to implement the CERP will unreasonably increase or increase at 
all.
    An American treasure is in serious trouble and we can do something 
about it. We have developed a technically sound plan of action and the 
Senate Environment and Public Works Committee has worked with us to 
develop enabling legislation. America's Everglades cannot wait until we 
have all the answers--because we never will. As with any important 
endeavor of this nature there are risks. The risks associated with 
inaction, however, are clearly greater. We know more than enough to act 
now and act decisively by enacting S.2797 as amended on September 14, 
2000.
    Mr. Chairman, that concludes my statement. Again, I appreciate the 
opportunity to testify today before your subcommittee. I would be 
pleased to answer any questions you or the other subcommittee members 
may have.
                                 ______
                                 
  Responses by Michael L. Davis to Additional Questions from Senator 
                               Voinovich
    Question 1. The Water Resources Development Act of 1996 authorized 
the Corps to include water quality projects in the plan. What criteria 
did the Corps use to include project?
    Response. In accordance with legislative requirements contained in 
Section 528 of the WRDA 1996, the Comprehensive Everglades Restoration 
Plan (CERP) includes water quality features necessary to provide water 
to restore, preserve, and protect the south Florida ecosystem. The CERP 
offers a broad, comprehensive approach, which is designed to increase 
water supplies for the region and to restore and improve water quality 
throughout the Everglades ecosystem. The CERP improves the quality of 
water in the study area; however water quality improvement in south 
Florida must be viewed as an integrated effort with several 
interdependent parts. The CERP is designed to integrate modifications 
to the Central and Southern (C&SF) project with ongoing State of 
Florida water quality efforts and ensure that our actions to capture 
and store water meets water quality requirements. These include: the 
State of Florida's Everglades Forever Act; Surface Water Improvement 
and Management (SWIM) Act planning efforts, including the development 
of pollutant load reduction goals; development of total maximum daily 
loads under Section 303(d) of the Federal Clean Water Act; and the 
Florida Keys Water Quality Protection Program.
    Water quality was a consideration in every aspect of CERP 
development. Major features include the creation of 181, 300 acres of 
surface water storage areas, totaling 1.6 million acre-feet of 
additional storage volume, which would allow the Corps to capture 
excess fresh water flows and reduce pollution loading into downstream 
receiving water bodies. This valuable water, which currently is being 
``lost to tide, `` will be captured and used to provide much-needed 
water for restoration of the Everglades ecosystem and to enhance water 
supplies for the people of south Florida. Additionally, many components 
of the CERP include treatment features to ensure that water quality is 
improved. Specifically, the CERP includes 19 Stormwater Treatment Areas 
(STAB) totaling approximately 36, 000 acres of wetlands to treat 
polluted runoff from urban and agricultural lands. These STAs will be 
located throughout south Florida, and will enable the Corps to use the 
natural filtering capability offered by wetlands to improve water 
quality and, contribute to the restoration of the ecosystem.
    For the purpose of determining Federal participation in water 
quality features and improvements as part of the CERP, the Corps 
assumed that the Federal Clean Water Act and state/tribal water quality 
standards are currently being met. This assumes that all reasonable 
measures within watersheds are in place to assure that the waters, 
being received by the Central and Southern Florida project canal 
system, are of sufficient quality to meet required standards. If these 
measures did not provide water of adequate quality for South Florida 
ecosystem needs, then additional features for water quality improvement 
were deemed essential for Everglades restoration and included in the 
Plan CERP. These features would cost shared 50 percent Federal and 50 
percent non-Federal.

    Question 2. GAO reported that the Corps included 24 projects to 
improve the water quality in the ecosystem. If there are so many 
uncertainties about water quality in the ecosystem, how were the 
particular projects identified?
    Response. We agree that there are some uncertainties associated 
with the implementation of the overall CERP and project components to 
improve water quality in the ecosystem. Such uncertainties are expected 
considering the size of the project and its staged implementation over 
30 years. While the CERP reflects the best available science, the Corps 
is prepared to refine the plan as we learn more. To formulate and 
evaluate alternative plans, scientists, engineers and planners used 
computer models to simulate water quality conditions. These models 
included the Lake Okeechobee Water Quality Model; the Everglades Water 
Quality Model; and the South Florida Water Management Model (SFWMM). 
The SFWMM was used to assess conditions in the St. Lucie Estuary, 
Caloosahatchee Estuary, Lower East Coast, and Biscayne Bay. In addition 
to these computer model simulations, consultants to the Everglades 
National Park conducted an independent assessment of the effects of the 
CERP on the performance of the Everglades Construction Project. Thus 
the CERP is designed to be flexible, to incorporate and respond to new 
information as it becomes available. Continuous monitoring and 
independent scientific review are key components of the CERP.
    Achieving adequate water quality to ensure ecosystem restoration 
was one of the fundamental planning objectives of the CERP. Therefore, 
water quality was included in the comprehensive planning effort to the 
same extent as the other ecological, water supply, and flood protection 
objectives mandated by WRDA 1996.

    Question 3. In your testimony you state that you believe that the 
Corps will have opportunities to save costs to the Everglades 
Restoration project. Could you please explain where you believe that 
these opportunities may be?
    Response. The current estimated cost of implementing the CERP is 
based on the best available information. Appropriate contingency 
factors were used in developing the cost estimates to reflect the 
uncertainties inherent at this stage of project development. It is 
anticipated that the cost of the Plan will be modified in the future as 
pilot projects and individual Project Implementation Reports are 
completed. As more site-specific analysis is completed the contingency 
factors will be revised to reflect the greater levels of certainty. 
Value engineering will be used to optimize the design of facilities in 
the detailed planning and design phases of implementation for 
individual projects. During the detailed design phases, opportunities 
will be sought that reduce the number of control structures as well as 
using more passive control structures wherever feasible, which could 
result in reduced construction and operation and maintenance costs.
    In addition there are other factors which may reduce the cost of 
the recommended plan. For instance, the aquifer storage and recovery 
pilot projects will evaluate the water quality of the source water to 
be used for aquifer storage and recovery and help identify the level of 
treatment necessary as defined by the U.S. Environmental Protection 
Agency (EPA) and Florida Department of Environmental Protection. 
However, preliminary water quality information and correspondence from 
the EPA indicates that the high level of treatment for aquifer storage 
and recovery facilities included in the CERP may not be required and 
therefore, a reduction in treatment costs up to $500, 000, 000 may be 
possible. Information derived from the pilot projects will be used to 
conduct a risk-based analysis of treatment requirements. Reducing the 
requirements of treating water for aquifer storage and recovery may 
also result in a reduction in the operation and maintenance costs for 
these facilities.
    Wastewater reuse facilities, which provide additional water flows 
to Biscayne Bay, are another area where the project cost estimates may 
be modified. Refinement of ecological goals and objectives for Biscayne 
Bay along with evaluation of alternative sources of water for Biscayne 
Bay may result in a reduction in the need for superior, advanced 
wastewater facilities and a subsequent reduction in project costs. The 
two wastewater reuse facilities account for an estimated $84,000,000 
(rounded) of the total operations and maintenance costs. As noted 
previously, the evaluation of alternative water supply sources for 
Biscayne Bay may reduce the need for advanced treatment or the need for 
all or a part of the volume of wastewater that is currently identified 
in the CERP.

    Question 4. This report is about water quality, which is regulated 
at the Federal level by the Environmental Protection agency (EPA) under 
the Clean Water Act. What in your view is the EPA's role in 
implementing the Plan?
    Response. The EPA played a crucial role in developing the CERP as a 
cooperating agency under the National Environmental Policy Act and a 
member of the interagency study team. The Corps intends to continue 
this partnership during the subsequent phases of project 
implementation. EPA will assist the Corps in developing pilot projects 
intended to address water quality uncertainties. They will also assist 
the Florida Department of Environmental Protection in setting pollutant 
reduction targets for key watersheds and/or water bodies affected by 
the CERP features. The EPA will assist in design and permitting of CERP 
water quality features and implementing monitoring programs.

    Question 5. If more water quality projects are identified, will the 
costs be shared jointly between the state and Federal Government?
    Response. The extent of additional Federal participation, if any, 
to achieve appropriate water quality for the natural system restoration 
outside the Everglades is not yet known. Further investigation of this 
issue was included as an element of the CERP. A feasibility level study 
to develop a comprehensive integrated water quality plan is currently 
programmed by the Corps of Engineers to be completed by 2006. This 
study will determine if there is a Federal interest in additional water 
quality improvement projects in the CERP study area (particularly in 
Southwest Florida and the Lower East Coast). If it is determined that 
there is a Federal interest in additional water quality improvement 
projects beyond those already included in the CERP, we could request 
Congress for additional project authorization through the traditional 
Federal resources development process.
                                 ______
                                 
  Responses by Michael L. Davis to Additional Questions from Senator 
                                 Graham
    Question 1. Do you have the authority to independently take on 
work, for example, a water quality project where you identify the need 
for a Federal role, without congressional authorization:
    Response. No. Project authorization would be required for the Corps 
to study or construct any water quality projects in the south Florida 
ecosystem.

    Question 2. It appears from the GAO report that the GAO believes 
that the Corps merely identifying a project need would lead to 
increased costs in the Comprehensive Everglades Restoration Plan 
execution. Can you clarify the process the Army Corps would use if a 
project need was identified?
    Response. The CERP recognizes that there are implementation 
uncertainties and that there may be a need for additional water quality 
improvement projects in south Florida, particularly in those regions of 
the study area which there are few or no features of the Federal C&SF 
Project. For these reasons, the CERP includes appropriate cost 
contingencies and a follow on water quality feasibility level study to 
further investigate the Federal interest in water quality treatment 
projects beyond that which was considered in the CERP planning efforts. 
Any recommendations for additional projects as a result of that study 
would be submitted to Congress for authorization. Concurrently, as 
required by state law and the Federal Clean Water Act, the State of 
Florida (FDEP and the Florida of Agriculture and Consumer Services) is 
working with local governments and stakeholders to identify pollution 
sources and implement pollution source reduction measures throughout 
the CERP study area, independent of CERP implementation activities.
                               __________
    Statement of David B. Struhs, Secretary, Florida Department of 
                        Environmental Protection
    Thank you for allowing me to appear before you to discuss the 
effort to restore America's Everglades. I am pleased to be here today 
to present the State of Florida's comments on the draft General 
Accounting Office (GAO) report concerning water quality issues in the 
south Florida ecosystem. I have not been allowed to see the report 
being released today. I am providing comments on the draft report 
entitled ``Comprehensive Everglades Restoration Plan Implementation 
Uncertainties May Lead to Additional Water Quality Projects and 
Costs''.
    The Comprehensive Everglades Restoration Plan (Comprehensive Plan) 
is about water. It is about delivering water in the right place at the 
right time in the right quantity and quality.
    It has already been determined that in an overwhelming majority of 
the time, the right place will be the natural system of the Everglades. 
There is wide-ranging agreement on this from environmentalists, 
utilities, agricultural interests, Federal agencies and Governor Jeb 
Bush and the State of Florida.
    We are not too concerned about water quantity. By recapturing 
nearly 1.7 billion gallons of water per day, plus the water that 
remains in the currently deteriorating Everglades, sufficient water 
will be available to implement the Comprehensive Everglades Restoration 
Plan.
    The question before us today concerns the water quality portion of 
the plan's overall mission. Restoration of the Everglades is not 
possible without adequate water quality. Water quality is an authorized 
purpose of the Comprehensive Everglades Restoration Plan, and 
explicitly cost shared on a 50/50 basis after Federal, state, Tribal 
and local water quality preventive and non-point regulatory 
requirements have been enforced. We are confident that the water 
quality features already contemplated in the Comprehensive Everglades 
Restoration Plan along with existing State and local programs will 
achieve the water quality restoration targets for south Florida without 
adding additional costs.
    We recognize that degradation of water quality throughout the study 
area is extensive, particularly in agricultural and urban coastal 
areas. The Florida Department of Environmental Protection listed over 
150 use-impaired segments of water bodies in south Florida. It is also 
recognized that achieving water quality goals for ecosystem restoration 
in all use-impaired water bodies within the study area will depend on 
actions outside the scope of the Comprehensive Everglades Restoration 
Plan. A number of agencies including the South Florida Water Management 
District, Florida Department of Environmental Protection, U.S. 
Environmental Protection Agency as well as local have developed or are 
developing water quality improvement programs for several of the 
impaired water bodies within the study area. The most notable example 
is the Everglades Forever Act, which focuses on achieving adequate 
water quality in the Everglades. Other examples include the Lake 
Okeechobee Protection Act of 2000 and Surface Water Improvement and 
Management Act planning efforts for the Indian River Lagoon, and 
Biscayne Bay, and the Florida Keys National Marine Sanctuary Water 
Quality Protection Program. We are confident that the State of Florida 
and local governments will be able to implement water quality 
improvement actions needed to achieve the water quality goals of south 
Florida without any appreciable increased costs associated with the 
Comprehensive Everglades Restoration Plan.
    Even where existing water quality may be adequate to meet water 
quality standards in present receiving waters, the Comprehensive Plan 
contains modifications to the present water management system that will 
result in delivering water to different areas having different water 
quality needs. Therefore, the Comprehensive Plan was formulated to 
treat these waters before sending it on to other areas for ecosystem 
restoration purposes.
    The Comprehensive Everglades Restoration Plan includes 
approximately 35,600 acres of manmade wetlands, known as stormwater 
treatment areas, to treat urban and agricultural runoff water before it 
is discharged to the natural areas throughout the system. Stormwater 
treatment areas are included in the recommended Comprehensive Plan for 
basins draining to Lake Okeechobee, the Caloosahatchee River Basin, the 
St. Lucie Estuary Basin, the Everglades, and the Lower East Coast. 
These are in addition to the over 44,000 acres of stormwater treatment 
areas already being constructed as part of the Everglades Construction 
Project to treat runoff discharged from the Everglades Agricultural 
Area. We do not anticipate major additional costs associated with water 
quality to be added to the Comprehensive Everglades Restoration Plan.
Closing
    Today, we stand at the threshold of authorizing the most 
significant restoration effort ever undertaken in this country. It is 
remarkable that so many diverse interests have come to get behind one 
cause. The cause is ``undoing'' the well intentioned efforts of Federal 
entities half a century ago.
    While it is more than a re-plumbing project, successful Everglades 
restoration does demand high quality water where and when it is needed.
    The blueprint--The Comprehensive Everglades Restoration Plan--
contains an authorized purpose to meet that demand. The blueprint calls 
for a 50-50 cost share after Federal, state, Tribal and local water 
quality preventive and non-point regulatory requirements have been 
enforced.
    We stipulate to the fact that there are numerous water bodies in 
south Florida that have water quality problems. Both state and Federal 
agencies are collaborating on water quality improvement programs for 
several of the impaired water bodies within the study area. Such 
cooperation, we believe, will result in water quality improvements 
without any appreciable increase in costs.
    Governor Jeb Bush and the State of Florida is confident that 
through our responsibilities under the Clean Water Act, state water 
law, and the restoration plan we will be able to meet the water quality 
needs of the region. We stand ready, more than willing, and fully able 
to be your partner in this critical component of Everglades 
restoration.
    Thank you for the opportunity to comment.
                                 ______
                                 
    Responses by David Struhs to Additional Questions from Senator 
                               Voinovich

    Question 1. This report is about water quality, which is regulated 
at the Federal level by the Environmental Protection Agency (EPA) under 
the Clean Water Act. What in your view is the EPA's role in 
implementing the Plan?
    Response. The State of Florida has water quality standards and 
regulatory programs in place that will apply to the Comprehensive 
Everglades Restoration Plan. EPA has an important role in implementing 
the Plan through their oversight of the State's water quality programs. 
EPA will be instrumental in allowing the regulatory flexibility needed 
to recognize significant cost savings during project construction and 
operation.

    Question 2. If more water quality projects are identified, will the 
costs be shared jointly between the state and Federal Government?
    Response. The Water Resource Development Act of 1996 authorizes 50-
50 cost sharing for water projects that are essential for Everglades 
restoration. This determination is vested with the Secretary of the 
Army. Only those projects approved by the Secretary of the Army as 
essential for Everglades restoration would be jointly cost shared.

    Question 3. In your comments to the GAO, the Department of 
Environmental Protection for the State of Florida indicates that ``at 
best, $1 billion figure for Lake Okeechobee dredging is rough estimate 
prepared by the South Florida Water Management District scientists to 
bracket the costs for dredging.'' What do you mean by this comment? Is 
the State of Florida prepared to budget for the potential dredging of 
Lake Okeechobee if it is viewed as essential in achieving restoration 
of the Everglades?
    Response. The State of Florida is fairly certain that while 
dredging Lake Okeechobee warrants further investigation, it is not 
essential to Everglades restoration. The emerging consensus is that 
dredging is not essential but may shorten the time period for 
restoration of Lake Okeechobee. However, a detailed analysis has not 
been completed to determine feasibility. The South Florida Water 
Management District is embarking on a more detailed feasibility 
evaluation to evaluate true costs and technical feasibility and it is 
likely that the evaluation will determine that a large-scale dredging 
project is not recommended. If the feasibility evaluation indicates 
that there is some potential for significantly reducing the restoration 
time period, the Army Corps of Engineers would need to perform a 
feasibility study to determine if there is a Federal interest in 
participating in the Lake Okeechobee restoration effort. Ultimately the 
final level of Federal participation, if any, will be determined by 
Congress.

    Question 4. What is the status of the Lake Okeechobee Sediment 
Removal Feasibility Study?
    Response. The Lake Okeechobee Sediment Removal Feasibility Study is 
a 3-year project that began in September, 2000 and will be completed in 
March, 2003. The South Florida Water Management District (District) has 
contracted with Blasland, Bouck, and Lee, Inc.(BBL), an engineering and 
scientific consulting firm based in Boca Raton, Florida, to implement 
the study. The total cost of the study is $955,069.
    The goal of the study is to analyze all feasible sediment treatment 
alternatives (i.e. chemical, physical) in order to determine the best 
method of reducing internal phosphorus loading in Lake Okeechobee. The 
goal of the feasibility study will be achieved using an objective 
methodology that allows for review and input by experts and 
stakeholders throughout the process. The final deliverables from this 
study will be used in conjunction with a multiple criteria decision 
process and public/interagency input in order to make final 
recommendations to the Governing Board of the District.
    The study consists of the following five (5) tasks:

    1. Development of Goals and Performance Measures
    2. Development of Alternatives
    3. Work Plan for Alternative Evaluation
    4. Evaluation of Alternatives
    5. Consulting Assistance

    Currently, BBL has begun work on Task 1. Development of Goals and 
Performance Measures, which are due in March, 2001. The District will 
be conducting interagency and public meetings throughout the study 
process. The first public meeting will be held in January 2001 to 
solicit input on the project goals and performance measures.
    The District is also initiating a pilot dredging project that will 
demonstrate the use of innovative dredging, dewatering and water 
treatment technologies and provide critical information to the 
feasibility study. The District is currently under contract 
negotiations with a selected consultant and anticipates completion of 
the project in the Fall 2002

    Question 5. The State of Florida is responsible for developing the 
numeric criterion for phosphorus in the Everglades. Could you please 
tell us what level of phosphorus reduction you have been able to 
achieve to date vs. what levels will be necessary to restore the 
natural system? Do you anticipate that this will cause significant 
increases to the cost of restoration?
    Response. The numeric criterion for phosphorus will apply only to 
the Everglades Protection Area. The CERP has only one project component 
that will create a new discharge to the Everglades Protection Area--the 
Central Lakebelt project. This project stores surface water in the 
Central Lakebelt storage component and subsequently delivers the stored 
water to Northeast Shark River Slough in Everglades National Park. The 
source of this stored water is excess wet season flows out of the Water 
Conservation Areas, so it is expected to be of adequate quality to meet 
the Everglades phosphorus criterion upon reintroduction to the 
Everglades. Therefore, the CERP will not result in the need for 
additional water quality costs to meet the numeric criterion.
    The CERP includes STAs to treat water for many other watersheds 
throughout the planning area (Upper East Coast, Lower East Coast, Lake 
Okeechobee). For planning purposes during the development of the CERP, 
it was generally accepted by the interagency team that a 50 part per 
billion (ppb) phosphorus design target (the basis for the sizing of the 
STAs in the CERP) was adequate to achieve water quality restoration in 
these other watersheds.
    The existing STAs contracted under the State's Everglades 
Construction Project (ECP) have far exceeded the design criterion of 50 
ppb and have consistently achieved approximately 25 ppb. Because the 
State has not yet established the numeric phosphorus criterion for the 
Everglades, we cannot say at this time what level of phosphorus will 
need to be reached in the ECP STAs to restore the natural system. 
Supplemental treatment technologies will be incorporated into the 
design and operation of the ECP STAs to ensure that flows to the 
Everglades meet the final numeric standard by December 21, 2006. The 
costs for designing and implementing supplemental treatment 
technologies necessary to meet the final numeric phosphorus standard 
will be the responsibility of the State of Florida (except for the C-
51/STA 1 East Project, which is cost-shared between the U.S. Army Corps 
of Engineers and the South Florida Water Management District).

    Question 6. What level of research funding is the state currently 
conducting into advanced treatment technologies to enhance the 
performance of the stormwater treatment areas (STAs)?
    Response. To date, the State of Florida has expended $14.28 million 
on advanced treatment technologies. Another $4.45 million has been 
budgeted for fiscal year 2001. These figures include the dollar values 
for research contracts, demonstration projects and staff costs 
associated with advanced treatment technologies. The figures do not 
include mercury monitoring, agricultural best management practices 
research, or phosphorus threshold research, all of which impact the 
final solution for meeting long term water quality standards.

    Question 7. The Interior Appropriations Committee requested in its 
fiscal year 2000 Interior Appropriations bill a report on the total 
cost estimate to restore the South Florida ecosystem. Further, the 
Interior Appropriators requested that the Department submit information 
to be updated biennially, on the total cost of the effort to restore 
the South Florida ecosystem. Assistant Secretary John Berry indicated 
in a letter to the Appropriations Committee that the total cost is 
$14.8 billion. Do you dispute this figure that was provided by the 
Department of Interior, and if so why?
    Response. The $14.8 million figure was calculated independently by 
the U.S. Department of the interior as the cost to implement all 
natural resource management programs in South Florida and there is no 
consensus amongst state or local governments on this amount. The 
majority of this amount includes projects that are already fully funded 
by the State or local governments and it is misleading to portray this 
amount as additional costs necessary for Everglades restoration. 
Furthermore, the Federal interest of the $14.8 billion has not been 
officially recommended to Congress or determined by Congress to be 
accurate.
 Responses by David Struhs to Additional Questions from Senator Graham
    Question 1. Do you have the authority to independently take on 
work, for example, a water quality project where you identify the need 
for a Federal role, without congressional authorization?
    Response. No, only Congress can authorize Federal participation in 
a project.

    Question 2. It appears from the GAO report that the GAO believes 
that the Corps merely identifying a project need would lead to 
increased costs in the Comprehensive Everglades Restoration Plan 
execution. Can you clarify the process that the Army Corps would use if 
a project need was identified?
    Response. All new projects will be subject to traditional Federal 
authorization in future Water Resource Development Acts. The initial 10 
projects are required to have a Committee Resolution from the House and 
Senate prior to receiving Federal appropriations. Therefore, there is 
no way that increased costs will be realized without congressional 
approval.

                                   - 

</pre></body></html>
